<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
                         DEPARTMENTAL WITNESSES
                       RAILROAD RETIREMENT BOARD
    Prepared Statement of Michael S. Schwartz, Chairman of the Board
    Mr. Chairman and Members of the Committee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2013 budget request of $112,415,000 to 
operate the agency.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. In recent years, 
the RRB has also administered extended unemployment benefits under the 
American Recovery and Reinvestment Act of 2009 (Public Law 111-5) and 
the Worker, Homeownership, and Business Assistance Act of 2009 (Public 
Law 111-92), as amended. The recently enacted Middle Class Tax Relief 
and Job Creation Act of 2012, (Public Law 112-96) provides extended 
unemployment benefits for periods of eligibility beginning through 
calendar year 2012.
    During fiscal year 2011, the RRB paid $11 billion, net of 
recoveries and offsetting collections, in retirement and survivor 
benefits to about 578,000 beneficiaries. We also paid $90.9 million in 
net unemployment and sickness insurance benefits under the Railroad 
Unemployment Insurance Act and $7.8 million under Public Law 111-92, as 
amended, for special extended unemployment benefits to a total of about 
28,000 claimants. In addition, the RRB paid benefits on behalf of the 
Social Security Administration amounting to $1.4 billion to about 
115,000 beneficiaries.
               proposed funding for agency administration
    The President's proposed budget would provide $112,415,000 for 
agency operations, which would enable us to maintain a staffing level 
of 885 full-time equivalent staff years (FTEs) in 2013. The proposed 
budget would also provide $3,562,000 for conversion of our obsolete 
integrated financial management system to a shared service provider. 
Furthermore, $1,176,000 would be invested into more information 
technology (IT) to continue stretching the value of our baseline 
funding that has remained substantially below required amounts for the 
past 3 years. The IT investments include $621,000 for IT tools and 
infrastructure replacement, $275,000 for network operations and 
emergency services, and $280,000 for E-Government initiatives and 
conversion of employee official personnel files to an electronic 
format.
                           agency operations
    Although funding for agency operations has been held at nearly the 
same level for the past 3 years, the RRB is achieving its mission. 
During fiscal year 2011, the agency provided benefit services within 
the timeframes promised in the RRB Customer Service Plan 99.2 percent 
of the time, and maintained benefit payment accuracy rates exceeding 99 
percent. Customer satisfaction with RRB services has also been high. In 
January 2012, the RRB achieved a score of 81 in a survey of claimants 
receiving unemployment and sickness insurance benefits. This was 14 
points higher than the Federal government average.
    These results have been possible due to the efforts of the RRB's 
experienced and dedicated workforce, supported by advanced information 
technology. To ensure that the RRB can continue to provide this level 
of service in future years, the agency will need sufficient funding to 
recruit and train qualified staff to replace 40 percent of our 
retirement eligible workforce, sustain our technological 
infrastructure, continue with modernization of systems, and uphold 
optimal results of processing operations against a constrained 
baseline. As rising costs of doing business erode the agency's buying 
power each year, it becomes more of a challenge today to fiscally plan 
for the out-years to protect current services without undermining the 
impact of modernization activities, which are essential to maintaining 
service levels in the future.
                 financial management integrated system
    The RRB's fiscal year 2013 budget request includes $3,562,000 for a 
major project to migrate from our obsolete legacy financial management 
system to the cloud or a shared service provider. While the system 
continues to meet our financial processing and reporting requirements, 
conversion to a shared service provider hosted solution follows 
applicable laws and current Office of Management and Budget guidance 
while removing the risk associated with dependence on a system that has 
reached the end of its life cycle in 2003.
    Advantages of a conversion include compliance with the Financial 
Management Lines of Business processes established by the Financial 
Systems Integration Office, improved end-user reporting capabilities 
that replace manual processes, a user-friendly interface supporting 
faster transaction processing, and the transfer of daily system 
operations to an outside service provider. The transfer of system 
operations relieves the RRB of activities such as supporting the 
financial management system application upgrades, configurations, 
maintenance and modifications.
                        other requested funding
    The President's proposed budget includes $45 million to fund the 
continuing phase-out of vested dual benefits, plus a 2 percent 
contingency reserve of $900,000 which ``shall be available proportional 
to the amount by which the product of recipients and the average 
benefit received exceeds the amount available for payment of vested 
dual benefits.'' In addition, the President's proposed budget includes 
$150,000 for interest related to uncashed railroad retirement checks.
                  financial status of the trust funds
    Railroad Retirement Accounts.--The RRB continues to coordinate its 
financial activities with the National Railroad Retirement Investment 
Trust (Trust), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 (RRSIA) to manage and invest 
railroad retirement assets. Pursuant to the RRSIA, the RRB has 
transferred a total of $21.276 billion to the Trust. All of these 
transfers were made in fiscal years 2002 through 2004. The Trust has 
invested the transferred funds, and the results of these investments 
are reported to the RRB and posted periodically on the RRB's website. 
The net asset value of Trust-managed assets on September 30, 2011, was 
approximately $22.1 billion, a decrease of $1.6 billion from the 
previous year. As of March 2012, the Trust had transferred 
approximately $12.5 billion to the Railroad Retirement Board for 
payment of railroad retirement benefits.
    In June 2011, we released the annual report on the railroad 
retirement system required by Section 22 of the Railroad Retirement Act 
of 1974, and Section 502 of the Railroad Retirement Solvency Act of 
1983. The report addressed the 25-year period 2011-2035, and included 
projections of the status of the retirement trust funds under three 
employment assumptions. These assumptions indicated that barring a 
sudden, unanticipated, large decrease in railroad employment or 
substantial investment losses, the railroad retirement system would 
experience no cash flow problems for the next 23 years. Even under the 
most pessimistic assumption, the cash flow problems would not occur 
until the year 2034. The report did not recommend any change in the 
rate of tax imposed by current law on employers and employees.
    Railroad Unemployment Insurance Account.--The RRB's latest annual 
report on the financial status of the railroad unemployment insurance 
system was issued in June 2011. The report indicated that even as 
maximum daily benefit rates rise 38 percent (from $66 to $91) from 2010 
to 2021, experience-based contribution rates are expected to keep the 
unemployment insurance system solvent. Due to short-term cash-flow 
problems, $46.5 million was borrowed from the Railroad Retirement 
Account during fiscal year 2010. The loans were fully repaid by the end 
of fiscal year 2011.
    Unemployment levels are the single most significant factor 
affecting the financial status of the railroad unemployment insurance 
system. However, the system's experience-rating provisions, which 
adjust contribution rates for changing benefit levels, and its 
surcharge trigger for maintaining a minimum balance, help to ensure 
financial stability in the event of adverse economic conditions. No 
financing changes were recommended at this time by the report.
    Thank you for your consideration of our budget request. We will be 
happy to provide further information in response to any questions you 
may have.
                                 ______
                                 
                      Office of Inspector General
       Prepared Statement of Martin J. Dickman, Inspector General
    Mr. Chairman and Members of the Subcommittee: My name is Martin J. 
Dickman, and I am the Inspector General for the Railroad Retirement 
Board. I would like to thank you, Mr. Chairman, and the members of the 
Subcommittee for your continued support of the Office of Inspector 
General.
                             budget request
    The President's proposed budget for fiscal year 2013 would provide 
$8,820,000 to the Office of Inspector General (OIG) to ensure the 
continuation of the OIG's independent oversight of the Railroad 
Retirement Board (RRB). During fiscal year 2013, the OIG will focus on 
areas affecting program performance; the efficiency and effectiveness 
of agency operations; and areas of potential fraud, waste and abuse.
                         operational components
    The OIG has three operational components: the immediate Office of 
the Inspector General, the Office of Audit (OA), and the Office of 
Investigations (OI). The OIG conducts operations from several 
locations: the RRB's headquarters in Chicago, Illinois; an 
investigative field office in Philadelphia, Pennsylvania; and five 
domicile investigative offices located in Virginia, Texas, California, 
Florida, and New York. These domicile offices provide more effective 
and efficient coordination with other Inspector General offices and 
traditional law enforcement agencies, with which the OIG works joint 
investigations.
                            office of audit
    The mission of the Office of Audit is to promote economy, 
efficiency, and effectiveness in the administration of RRB programs and 
detect and prevent fraud and abuse in such programs. To accomplish its 
mission, OA conducts financial, performance, and compliance audits and 
evaluations of RRB programs. In addition, OA develops the OIG's 
response to audit-related requirements and requests for information.
    During fiscal year 2013, OA will focus on areas affecting program 
performance; the efficiency and effectiveness of agency operations; and 
areas of potential fraud, waste, and abuse. OA will continue its 
emphasis on long-term systemic problems and solutions, and will address 
major issues that affect the RRB's service to rail beneficiaries and 
their families. OA has identified four broad areas of potential audit 
coverage: Financial Accountability; Railroad Retirement Act & Railroad 
Unemployment Insurance Act Benefit Program Operations; Railroad 
Medicare Program Operations; and Security, Privacy, and Information 
Management. OA must also accomplish the following mandated activities 
with its own staff: Audit of the RRB's financial statements pursuant to 
the requirements of the Accountability of Tax Dollars Act of 2002 and 
evaluation of information security pursuant to the Federal Information 
Security Management Act (FISMA).
    During fiscal year 2013, OA will complete the audit of the RRB's 
fiscal year 2012 financial statements and begin its audit of the 
agency's fiscal year 2013 financial statements. OA contracts with a 
consulting actuary for technical assistance in auditing the RRB's 
``Statement of Social Insurance'', which became basic financial 
information effective in fiscal year 2006. In addition to performing 
the annual evaluation of information security, OA also conducts audits 
of individual computer application systems which are required to 
support the annual FISMA evaluation. Our work in this area is targeted 
toward the identification and elimination of security deficiencies and 
system vulnerabilities, including controls over sensitive personally 
identifiable information.
    OA undertakes additional projects with the objective of allocating 
available audit resources to areas in which they will have the greatest 
value. In making that determination, OA considers staff availability, 
current trends in management, congressional and Presidential concerns.
                        office of investigations
    The Office of Investigations (OI) focuses its efforts on 
identifying, investigating, and presenting cases for prosecution, 
throughout the United States, concerning fraud in RRB benefit programs. 
OI conducts investigations relating to the fraudulent receipt of RRB 
disability, unemployment, sickness, and retirement/survivor benefits. 
OI investigates railroad employers and unions when there is an 
indication that they have submitted false reports to the RRB. OI also 
conducts investigations involving fraudulent claims submitted to the 
Railroad Medicare Program. These investigative efforts can result in 
criminal convictions, administrative sanctions, civil penalties, and 
the recovery of program benefit funds.

              OI INVESTIGATIVE RESULTS FOR FISCAL YEAR 2011
------------------------------------------------------------------------

------------------------------------------------------------------------
Civil Judgments.........................................              21
Indictments/Informations................................              60
Convictions.............................................              62
Recoveries/Receivables..................................  \1\ $106,717,4
                                                                      26
------------------------------------------------------------------------
\1\ This total includes the results of joint investigations with other
  agencies.

    OI anticipates an ongoing caseload of about 480 investigations in 
fiscal year 2013. During fiscal year 2011, OI opened 369 new cases and 
closed 234. At present, OI has cases open in 48 States, the District of 
Columbia, and Canada with estimated fraud losses of nearly $42 million. 
Disability fraud cases represent the largest portion of Ol's total 
caseload. These cases involve more complicated schemes and often result 
in the recovery of substantial amounts for the RRB's trust funds. They 
also require considerable resources such as travel by special agents to 
conduct surveillance, numerous witness interviews, and more 
sophisticated investigative techniques. Additionally, these fraud 
investigations are extremely document-intensive and require forensic 
financial analysis. Of particular significance is an ongoing 
investigation related to alleged disability fraud in New York. Eleven 
individuals have been indicted, and OI agents will likely have to spend 
a substantial amount of time traveling for trial preparation in fiscal 
year 2013.
    During fiscal year 2013, OI will continue to coordinate its efforts 
with agency program managers to address vulnerabilities in benefit 
programs that allow fraudulent activity to occur and will recommend 
changes to ensure program integrity. OI plans to continue proactive 
projects to identify fraud matters that are not detected through the 
agency's program policing mechanisms.
                               conclusion
    In fiscal year 2013, the OIG will continue to focus its resources 
on the review and improvement of RRB operations and will conduct 
activities to ensure the integrity of the agency's trust funds. This 
office will continue to work with agency officials to ensure the agency 
is providing quality service to railroad workers and their families. 
The OIG will also aggressively pursue all individuals who engage in 
activities to fraudulently receive RRB funds. The OIG will continue to 
keep the Subcommittee and other members of Congress informed of any 
agency operational problems or deficiencies. The OIG sincerely 
appreciates its cooperative relationship with the agency and the 
ongoing assistance extended to its staff during the performance of 
their audits and investigations. Thank you for your consideration.
                                 ______
                                 
                  CORPORATION FOR PUBLIC BROADCASTING
           Statement of Patricia Harrison, President and CEO
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit this testimony on behalf of our country's public 
media service--public television and public radio, on-air, online and 
in your community.
    American public media serves our citizens with quality and trusted 
content that educates, informs and inspires. This trusted noncommercial 
service is available for free to all Americans of all backgrounds, race 
and ethnicities, and to underserved and unserved audiences in rural and 
urban communities throughout the country.
    We are a system comprising approximately 1,300 locally owned and 
operated public radio and television stations connected to communities 
across the country. Together, these stations ensure that 99 percent of 
the American people have access to quality educational and 
informational services that may not otherwise be available to them. 
Public media stations work for, and are accountable to, the people in 
the communities they serve. That connection is important as stations 
acquire national programming and produce local content and services 
based on the needs of their respective communities.
    By design of the Public Broadcasting Act, the Federal investment in 
this service, administered by the Corporation for Public Broadcasting 
(CPB), is the foundation on which the public broadcasting system 
operates. Over 95 percent of the Federal investment goes to support 
public media's service to the American people. Approximately 70 percent 
of CPB funding goes directly to local stations, and approximately 19 
percent of CPB funding is directed to the production or acquisition of 
programming, making CPB the largest single funder of content--for 
children's programming like ``Sesame Street'' and ``The Electric 
Company''; for public affairs programming like ``PBS NewsHour'', 
``Morning Edition'' and ``Frontline''; and for programming like 
``Nature'', ``Nova'', ``American Experience'', ``Native American 
News'', ``StoryCorps'' and the films of Ken Burns.
    CPB also supports the creation of programming for radio, 
television, and digital media. The statute ensures diversity in this 
programming by requiring CPB to fund independent and minority 
producers. CPB fulfills these obligations by funding the Independent 
Television Service, the five Minority Consortia in television (which 
represent African-American, Latino, Asian American, Native American, 
and Pacific Islander producers) and numerous minority stations in 
radio.
    Stations use CPB funding for local operations and to produce and 
acquire programming, which allows them to raise additional operational 
funds from corporations, foundations, State and local governments and 
from individual contributions, which are the largest source of non-CPB 
funding for public media. On average, every Federal dollar invested in 
CPB is leveraged by stations to raise $6 locally. This successful 
public-private partnership is uniquely entrepreneurial and uniquely 
American. Though models vary, funding for other countries' public 
broadcasting systems comes almost exclusively from their governments, 
from licensing fees or from dedicated taxes. At $1.39 per American, the 
cost of our country's service is proportionally small compared to other 
developed nations.
    And for this investment Americans have a safe place to educate 
their children with unmatched noncommercial educational programming 
that is proven to prepare children to learn. For this investment, 
Americans have access to quality news and public affairs programming 
and information that is trusted and treats the audience as citizens, 
not consumers. For this investment, Americans can access lifelong 
educational programming about science, nature and history that is 
otherwise not supported in the commercial marketplace. And for this 
investment, Americans have a valuable public service that reflects our 
country, contributes to our civil society and is accountable to the 
citizens we serve.
                                  cpb
    CPB's mission is to strengthen and advance public media's service 
to the American people. We are a nonprofit private corporation, and we 
serve as the steward of the taxpayer's investment in this service. 
Although our funding is distributed through a statutory formula, under 
which we can only use 5 percent for administrative expenses, we work 
every day to ensure that the taxpayers' money is wisely invested in 
stations and programs that contribute to our country and serve our 
citizens. Over the past few years, we have instituted policies and 
procedures to make us even more accountable and transparent to the 
taxpayers who fund us. In this respect, CPB acts as a guardian of the 
mission and purposes for which public broadcasting was established.
    For the past 3 years, CPB has strategically focused our investments 
on the ``Three D's''--Digital, Diversity, and Dialogue. This refers to 
our support for innovation on digital platforms, extending public 
media's reach and service over multiple platforms; content that is for, 
by and about diverse people; and services that foster dialogue and a 
deeper engagement between the American people and the public service 
media organizations that serve them.
    One example of a CPB investment that embodies each of the Three D's 
is our education investment. In the words of our statute, ``[I]t is in 
the public interest to encourage . . . the use of [public] media for 
instructional, educational, and cultural purposes.'' For over 40 years, 
public broadcasting stations have made a robust and vital contribution 
to education, with proven results in improving reading and math skills 
for the Nation's youngest children, particularly those furthest behind. 
We have built on our success in early education and launched a new 
national initiative to help communities tackle the high school dropout 
crisis called, ``American Graduate: Let's Make It Happen.''
    Every year, approximately 1 million kids drop out of high school, a 
tragedy for these kids and a travesty for our country. The dropout 
epidemic is costing our Nation more than $100 billion annually in lost 
wages and taxes, plus increased social costs due to crime and 
healthcare. American Graduate is a significant public media effort to 
help improve our Nation's high school graduation rates and, through 
this initiative, public media, both nationally and locally, is bringing 
our collective resources to bear to address the dropout epidemic.
    Sixty-eight public media stations in key dropout epicenters across 
30 States, Puerto Rico and the District of Columbia are working 
directly with students, parents, teachers, mentors, volunteers and 
business leaders to lower the dropout rate in their communities by 
communicating the need and highlighting solutions. Stations are using 
broadcast, web and mobile platforms to create content that helps to 
tell this story in a compelling way. Some of the activities include: 
producing public service announcements to improve understanding about 
dropout statistics and their implications, hosting teacher town hall 
meetings and community forums on strategies to decrease dropout rates 
in their communities, and local news and public affairs reporting to 
deepen the understanding of the scope of the problem and the unique 
community challenges and solutions.
    This is a united effort across the country and across public media. 
In addition to local action by stations in their communities, there has 
been significant work done by national producers to increase 
understanding of the crisis, including work by ``PBS NewsHour'', 
``Tavis Smiley'', ``StoryCorps'', NPR, ``Roadtrip Nation'', ``Ideas in 
Action'' with Jim Glassman and others.
    Through strategic investments, CPB has also fueled innovation in 
the system. In New York and Florida, stations are coming together to 
consolidate engineering and master control operations, which allows 
them to save money, operate more efficiently and spend more time and 
resources on content and services for their communities. Stations 
throughout the country are looking to replicate this model, which could 
save stations millions over several years.
    CPB has invested in seven regional local journalism centers, which 
are clusters of public television and radio stations who have come 
together to increase the quality and capacity of their local reporting 
on critically important topics to their communities and regions. 
Whether it is border issues in the Southwest, agribusiness issues in 
the Heartland, economic revitalization in upstate New York or education 
issues in the South, these station collaborations are creating and 
sharing original content that is vital to the communities they serve.
    The focus on diversity is deeply embedded in CPB's culture and 
increased service to diverse audiences is a consideration in virtually 
every investment CPB makes. In 2009, we created the Diversity and 
Innovation fund, which is dedicated to supporting the creation of 
content of interest and service to diverse communities. The D&I fund 
supports documentaries such as the award-winning ``Freedom Riders'' and 
``Slavery By Another Name'', expanded news and public affairs 
programming for diverse communities, translation services for news and 
election programming, a new radio service in Los Angeles and the full-
time multicast World Channel, designed to attract a diverse audience.
                    cpb's request for appropriations
    Public media stations continue to evolve, both operationally and in 
the ways they serve their communities. Stations are committed to 
reaching viewers and listeners on whatever platform they use--from 
smart phones to tablets to radios to television sets. While stations 
can and will continue to adapt and operate in the digital age, they 
cannot provide service on evolving platforms without sufficient 
support. As the Federal Communications Commission's National Broadband 
Plan noted, ``Today, public media is at a crossroads . . . [it] must 
continue expanding beyond its original broadcast-based mission to form 
the core of a broader new public media network that better serves the 
new multi-platform information needs of America. To achieve these 
important expansions, public media will require additional funding.''
    CPB Base Appropriation (Fiscal Year 2015).--CPB requests a $445 
million advance appropriation for fiscal year 2015, to be spent in 
accordance with the Public Broadcasting Act's funding formula. The 2-
year advance appropriation for public broadcasting, in place since 
1976, is the most important part of the ``firewall'' that Congress 
constructed between Federal funding and the programs that appear on 
public television and radio. President Gerald Ford, who initially 
proposed a 5-year advance appropriation for CPB, said it best when he 
said that advance funding ``is a constructive approach to the sensitive 
relationship between Federal funding and freedom of expression. It 
would eliminate the scrutiny of programming that could be associated 
with the normal budgetary and appropriations processes of the 
Government.''
    Our fiscal year 2015 request, which is the same level as the 
administration's request for CPB, balances the fiscal reality facing 
our Nation with the stark fact that stations are struggling to provide 
service to their communities in the face of shrinking non-Federal 
revenues--a $380 million, or 16 percent, drop between fiscal year 2008 
and 2010 alone. Even with these challenges, public broadcasting 
contributes to American society in many ways that are worthy of greater 
Federal investment. In fiscal year 2015, CPB will continue to support a 
range of programming and initiatives through which stations provide a 
valuable and trusted service to millions of Americans.
    Ready To Learn (Fiscal Year 2013).--CPB requests that the U.S. 
Department of Education's Ready To Learn (RTL) program be funded at 
$27.3 million, the same level as fiscal year 2012. Mr. Chairman, 
education is at the heart of public media. RTL is a partnership between 
the Department, CPB, PBS and local public television stations that 
leverages the power of digital television technology, the Internet, 
gaming platforms and other media to help millions of young children 
learn the reading and math skills they need to succeed in school. The 
partnership's work over the past few years has demonstrably increased 
reading scores particularly among low-income children and has erased 
the performance gap between children from low-income households and 
their more affluent peers. An appropriation of $27.3 million in fiscal 
year 2013 will enable RTL to develop tools to improve children's 
performance in math as well as reading and bring on-the-ground, 
station-convened early learning activities to more communities.
    Mr. Chairman, all told, the Federal contribution to public media 
through CPB amounts to $1.39 per American per year and the returns for 
taxpayers are exponential. Whether in-depth news and public affairs 
programming on the local, State, national and international level; 
unmatched, commercial-free children's programming; formal and informal 
educational instruction for all ages; or inspiring arts and cultural 
content; we in America's public media system are working every day to 
serve our citizens.
    In last year's final appropriations legislation, CPB was instructed 
to report to Congress about alternative sources of funding for public 
media. We are actively looking at that question and will report back to 
the subcommittee prior to our deadline on June 20.
    Mr. Chairman and members of the subcommittee, thank you again for 
allowing CPB to submit this testimony. On behalf of the public 
broadcasting community, including the stations in your States and those 
they serve, we sincerely appreciate your support.
                       NONDEPARTMENTAL WITNESSES
           Prepared Statement of the Alzheimer's Association
    The Alzheimer's Association appreciates the opportunity to comment 
on the fiscal year 2013 appropriations for Alzheimer's disease 
research, education, outreach and support at the U.S. Department of 
Health and Human Services.
    Founded in 1980, the Alzheimer's Association is the world's leading 
voluntary health organization in Alzheimer's care, support and 
research. Our mission is to eliminate Alzheimer's disease and other 
dementias through the advancement of research; to provide and enhance 
care and support for all affected; and to reduce the risk of dementia 
through the promotion of brain health. As the largest, private 
nonprofit funder of Alzheimer's research, the Association is committed 
to accelerating progress of new treatments, preventions and ultimately, 
a cure. Through our partnerships and funded projects, we have been part 
of every major research advancement over the past 30 years. Today, the 
Association works on a global level to enhance care and support for all 
those affected by Alzheimer's and reaches millions of people affected 
by Alzheimer's, and their caregivers, through our national office and 
more than 70 local chapters and service areas.
Alzheimer's Impact on the American People and Economy
    In addition to the human suffering caused by the disease, 
Alzheimer's is creating an enormous strain on the healthcare system, 
families and the Federal budget. Alzheimer's is a progressive brain 
disorder that damages and eventually destroys brain cells, leading to 
loss of memory, thinking and other brain functions. Ultimately, 
Alzheimer's is fatal. Currently, Alzheimer's is the sixth leading cause 
of death in the United States and the only 1 of the top 10 without a 
means to prevent, cure or slow its progression. Today, there are 5.4 
million Americans living with Alzheimer's--5.2 million aged 65 and 
over, and 200,000 under the age of 65.\1\ Of Americans aged 65 and 
over, 1 in 8 has Alzheimer's, and nearly half of people aged 85 and 
older have the disease. While deaths from other major diseases, 
including heart disease, stroke and HIV continue to experience 
significant declines, those from Alzheimer's have increased 66 percent 
between 2000 and 2008.
---------------------------------------------------------------------------
    \1\ Alzheimer's Association, 2012 Alzheimer's Disease Facts and 
Figures, Alzheimer's & Dementia, Volume 8, Issue 2.
---------------------------------------------------------------------------
    Although Alzheimer's is not normal aging, age is the biggest risk 
factor, which means the graying of America equates to the bankrupting 
of America. With the first of the baby boomer generation now turning 
65, the U.S. population aged 65 and over is expected to double, meaning 
there will be more and more Americans living with Alzheimer's--as many 
as 16 million by 2050, when there will be nearly 1 million new cases 
each year. Caring for people with Alzheimer's will cost all payers--
Medicare, Medicaid, individuals, private insurance, and HMOs--$20 
trillion over the next 40 years. In 2012, America will spend an 
estimated $200 billion in direct costs caring for those with 
Alzheimer's, including $140 billion in costs to Medicare and Medicaid. 
Average per person Medicare costs for those with Alzheimer's and other 
dementias are three times higher than those without these conditions. 
Medicaid spending is 19 times higher. Moreover, Alzheimer's makes 
treating other diseases more expensive, as most individuals with 
Alzheimer's have one or more co-morbidity that complicate the 
management of the condition(s) and increase costs. For example, a 
senior with diabetes and Alzheimer's costs Medicare 81 percent more 
than a senior who only has diabetes. Nearly 30 percent of people with 
Alzheimer's or another dementia who have Medicare also have Medicaid 
coverage, compared with 11 percent of individuals without dementia or 
Alzheimer's. Alzheimer's disease is also extremely prevalent among 
dual-eligibles in nursing homes, where 64 percent of residents live 
with the disease. Unless something is done, the costs of Alzheimer's in 
2050 are estimated to total $1.1 trillion (in today's dollars).\2\ 
Costs to Medicare and Medicaid will increase nearly 500 percent and 
there will be a 400 percent increase in out-of-pocket costs.
---------------------------------------------------------------------------
    \2\ Alzheimer's Association, Changing the Trajectory of Alzheimer's 
Disease: A National Imperative, 2010.
---------------------------------------------------------------------------
    With Alzheimer's, it is not just those with the disease who 
suffer--it is also their caregivers and families. In 2011, 15.2 million 
family members and friends provided unpaid care valued at over $210 
billion. Caring for a person with Alzheimer's takes longer, lasts 
longer, is more personal and intrusive, and takes a heavy toll on the 
health of the caregivers themselves. More than 60 percent of 
Alzheimer's and dementia caregivers rate the emotional stress of 
caregiving as high or very high; with one-third reporting symptoms of 
depression. Caregiving may also have a negative impact on health, 
employment, income and family finances. Due to the physical and 
emotional toll of caregiving on their own health, Alzheimer's and 
dementia caregivers had $8.7 billion in additional healthcare costs in 
2011.
Changing the Trajectory of Alzheimer's
    Until recently, there was no strategy on how to address this 
looming crisis. In 2010, thanks to bipartisan support in Congress, the 
National Alzheimer's Project Act (NAPA) (Public Law 111-375) passed 
unanimously, requiring the creation of an annually updated strategic 
National Alzheimer's Plan (Plan) to help those with the disease and 
their families today and to change the trajectory of the disease for 
the future. The Plan is required to include an evaluation of all 
federally funded efforts in Alzheimer's research, care and services--
along with their outcomes. In addition, the Plan must outline priority 
actions to reduce the financial impact of Alzheimer's on Federal 
programs and on families; improve health outcomes for all Americans 
living with Alzheimer's; and improve the prevention, diagnosis, 
treatment, care, institutional-, home-, and community-based Alzheimer's 
programs for individuals with Alzheimer's and their caregivers. NAPA 
will allow Congress to assess whether the Nation is meeting the 
challenges of this disease for families, communities and the economy. 
Through its annual review process, NAPA will, for the first time, 
enable Congress and the American people to answer this simple question: 
Did we make satisfactory progress this past year in the fight against 
Alzheimer's?
    As mandated by NAPA, the Secretary of Health and Human Services, in 
collaboration with the Advisory Council on Alzheimer's Research, Care, 
and Services, is developing the first-ever Plan to be transmitted to 
Congress later this Spring. The Advisory Council, made of both Federal 
members and expert non-Federal members, is an integral part of the 
planning process as it advises the Secretary in developing and 
evaluating the annual Plan, makes recommendations to the Secretary and 
Congress, and assists in coordinating the work of Federal agencies 
involved in Alzheimer's research, care, and services. In advance of the 
first Plan, the President's fiscal year 2013 budget request included 
$80 million for Alzheimer's research and $20 million for education, 
outreach and support. These funds are a critically needed down payment 
for needed research and services for Alzheimer's patients and their 
families.
    A disease-modifying or preventative therapy would not only save 
millions of lives but would save billions of dollars in healthcare 
costs. Specifically, if a treatment became available in 2015 that 
delayed onset of Alzheimer's for 5 years (a treatment similar to anti-
cholesterol drugs), savings would be seen almost immediately, with 
Medicare and Medicaid spending reduced by $42 billion in 2020. Today, 
despite the remarkable advances in Alzheimer's research, there are 
growing concerns that we still lack effective treatments that will 
slow, stop, or cure the disease and that the pace of progress in 
understanding the disease and developing breakthrough discoveries is 
much too slow to make any impact on the growing crisis before us. 
Currently, for every $28,000 Medicare and Medicaid spends caring for 
individuals with Alzheimer's, the National Institutes of Health (NIH) 
spends only $100 on Alzheimer's research. Scientists fundamentally 
believe that we have the ideas, the technology and the will to develop 
new Alzheimer's interventions, but that progress depends on a 
prioritized scientific agenda and on the resources necessary to carry 
out the scientific strategy for both discovery and translation for 
therapeutic development. The Alzheimer's Association urges Congress to 
support the President's budget request of $80 million for Alzheimer's 
research at the National Institutes of Health in fiscal year 2013, and 
the priority research recommendations included in the National 
Alzheimer's Plan required under Public Law 111-375.
    For too many individuals with Alzheimer's and their families, the 
system has failed them, and today we are unnecessarily losing the 
battle against this devastating disease. Despite the fact that an early 
and documented formal diagnosis allows individuals to participate in 
their own care planning, manage other chronic conditions, participate 
in clinical trials, and ultimately alleviate the burden on themselves 
and their loved ones, as many as half of the 5.4 million Americans with 
Alzheimer's have never received a formal diagnosis. Unless we invest in 
an effective dementia-capable system that finds new solutions to 
providing high quality care, provides community support services and 
programs, and addresses Alzheimer's health disparities, Alzheimer's 
will break the healthcare system. For example, people with Alzheimer's 
and other dementias have more than three times as many hospital stays 
as other older people. Furthermore, one out of seven individuals with 
Alzheimer's or another dementia lives alone and up to half do not have 
an identifiable caregiver. These individuals are more likely to need 
emergency medical services because of self-neglect or injury, and are 
found to be placed into nursing homes earlier, on average, than others 
with dementia. It has been estimated that delaying long-term care by 1 
month for each person in the United States age 65 or older could save 
$60 billion a year. Ultimately, supporting individuals with Alzheimer's 
disease and their families and caregivers requires giving them the 
tools they need to plan for the future and ensuring the best quality of 
life for individuals and families impacted by the disease. The 
Alzheimer's Association urges Congress to support the President's 
budget request of $20 million for Alzheimer's education, outreach and 
support at the Administration on Aging (AoA) in fiscal year 2013, and 
the priorities included in the National Alzheimer's Plan required under 
Public Law 111-375.
Additional Alzheimer's programs:
    National Alzheimer's Call Center.--The National Alzheimer's Call 
Center, funded by the AoA, provides 24/7, year-round telephone support, 
crisis counseling, care consultation, and information and referral 
services in 140 languages for persons with Alzheimer's, their family 
members and informal caregivers. Trained professional staff and 
master's-level mental health professionals are available at all times. 
In the 12 month period ending July 31, 2011, the Call Center handled 
over 300,000 calls through its national and local partners, and its 
online message board received over 13 million page views and over 
100,000 individual postings. The Alzheimer's Association urges Congress 
to support $1.3 million for the National Alzheimer's Call Center.
    Healthy Brain Initiative (HBI).--The Centers for Disease Control 
and Prevention's (CDC) HBI program works to educate the public, the 
public health community and health professionals about Alzheimer's as a 
public health issue. Although there are currently no treatments to 
delay or stop the deterioration of brain cells caused by Alzheimer's, 
evidence suggests that preventing or controlling cardiovascular risk 
factors may benefit brain health. In light of the dramatic aging of the 
population, scientific advancements in risk behaviors, and the growing 
awareness of the significant health, social and economic burdens 
associated with cognitive decline, the Federal commitment to a public 
health response to this challenge is imperative. The Alzheimer's 
Association urges Congress to support $2.2 million for the Healthy 
Brain Initiative.
    Alzheimer's Disease Supportive Services Program (ADSSP).--The ADSSP 
at the AoA supports family caregivers who provide countless hours of 
unpaid care, thereby enabling their family members with Alzheimer's and 
dementia to continue living in the community. The program develops 
coordinated, responsive and innovative community-based support service 
systems for individuals and families affected by Alzheimer's. The 
Alzheimer's Association urges Congress to support $11.441 million for 
the Alzheimer's Disease Supportive Services Program.
Conclusion
    The Association appreciates the steadfast support of the 
Subcommittee and its priority setting activities. We look forward to 
continuing to work with Congress in order to address the Alzheimer's 
crisis. We ask Congress to address Alzheimer's with the same bipartisan 
collaboration demonstrated in the passage of the National Alzheimer's 
Project Act (Public Law 111-375) and with a commitment equal to the 
scale of the crisis.
                                 ______
                                 
  Prepared Statement of the Association of American Cancer Institutes
    The Association of American Cancer Institutes (AACI), representing 
95 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
by the United States Senate Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies, Committee on Appropriations.
    AACI appreciates the long-standing commitment of the President, 
Congress and the Subcommittee to ensuring quality care for cancer 
patients, as well as for providing researchers with the resources that 
they need to develop better cancer treatments and, ultimately, to cure 
this disease.
    President Obama's fiscal year 2013 budget calls for maintaining the 
fiscal year 2012 funding levels for the National Institutes of Health 
(NIH) and the National Cancer Institute (NCI) ($30.9 billion and $5 
billion, respectively). AACI joins with our colleagues in the 
biomedical research community in recommending that the Subcommittee 
recognize NIH as a critical national priority by providing at least $32 
billion in funding in the fiscal year 2013 Labor-HHS-Education 
appropriations bill, including an equivalent percentage increase in 
funding for NCI. This funding level represents the minimum investment 
necessary to avoid further loss of promising research.
    AACI cancer centers are at the front line in the national effort to 
eradicate cancer. The cancer centers that AACI represents house more 
than 20,000 scientific, clinical and public health investigators who 
work collaboratively to translate promising research findings into new 
approaches to prevent and treat cancer. But making progress against 
cancer is complex. It is more a marathon than a sprint, and it takes 
time for the scientific discovery process to yield fruit. However, the 
pace of discovery and translation of novel basic research to new 
therapies could be faster if researchers could count on a significant 
and predictable investment in Federal cancer funding.
    AACI and its members are keenly aware of the country's fiscal 
obstacles. The vast majority of our cancer centers exist within 
universities that already face drastic budget reductions. Furthermore, 
because of the reduced funding pool for meritorious grant applications, 
many of our senior and most promising young investigators are now 
without NCI funding and require significant bridge funding from private 
sources. In recent years, however, it has become more challenging to 
raise philanthropic and other external funds. As a result, we continue 
to be highly dependent on Federal cancer center grants.
    The Obama administration has estimated that if the NIH budget stays 
flat in fiscal year 2013, as it has proposed, the agency would be able 
to fund 9,415 new grants. However, even with flat funding relatively 
few people who apply for grants from NIH can expect to receive them. 
Over the past 9 years NIH has lost about 20 percent of its purchasing 
power for medical research due to inflation, and only about 1 in 7 
grant applications are approved for funding, the lowest rate in NIH 
history. NIH's ability to sustain current research capacity and 
encourage promising new areas of science has been significantly 
compromised by stagnant funding.
    This situation will be even more acute if an 8 percent budget cut 
being considered as part of the Budget Control Act of 2011, takes 
effect in January. The cut is even deeper than it appears because the 
agency's fiscal year starts October 1, 3 months into the fiscal year. 
As a result, NIH would be able to fund 2,300 fewer grants in fiscal 
year 2013, according to NIH Director Francis Collins.
Impact Beyond the Lab
    The negative effects of diminished biomedical research funding 
reach beyond the lab and into local communities, as chronicled this 
past winter by a number of AACI cancer center directors who were 
featured in newspaper editorials that highlighted the impact of NIH and 
NCI funding on people and local economies in their individual States.
    For example, the leaders of the UC San Diego Moores Cancer Center 
and the San Diego-based Sanford Burnham Medical Research Institute 
noted that NIH funding brought $1.3 billion to their local economy in 
2010. In San Antonio, the director of the Cancer Therapy & Research 
Center at the University of Texas Health Science Center noted that his 
institution received more than $30 million in cancer-related grants and 
clinical trials.
    AACI Past President Michael A. Caligiuri, MD, director of the Ohio 
State University Comprehensive Cancer Center and chief executive 
officer of the Arthur G. James Cancer Hospital and Richard J. Solove 
Research Institute, put it succinctly in an editorial in his hometown 
paper, The Columbus Dispatch: ``The work we do at Ohio State affects 
the entire continuum of cancer acre. And cancer research done at Ohio 
State and other organizations supports high-quality jobs in Ohio 
communities and allows our residents to benefit from the advances 
happening right here.''
    An AACI-commissioned economic analysis of proposals for NIH's 
fiscal year 2011 budget estimated that a ``conservative'' 0.8 percent 
cut in the NIH's annual budget would result in about 4,000 jobs lost 
nationally. Looking specifically at NCI's budget, the Nation's research 
institutions, which house AACI's member cancer centers, received an 
estimated $3.71 billion from NCI to conduct cancer research in fiscal 
year 2010; more than two-thirds of NCI's total budget. At the time that 
AACI's analysis was published, an ``aggressive'' budget reduction of 
5.3 percent was under consideration and would have led to more than 
4,200 jobs lost nationwide and an economic loss of more than $564 
million.
    Other recent studies have also concluded that Federal support for 
medical research is a major determinant in the economic health of 
communities across the country. In one such report, United for Medical 
Research, a coalition of leading research institutions, patient and 
health advocates and private industry, estimated that NIH funding 
generated the greatest number of jobs in California (63,196), 
Massachusetts (34,598), New York (33,193), Texas (25,878) and Maryland 
(24,557) and also supported more than 10,000 jobs each in Pennsylvania, 
North Carolina, Washington, Illinois, Ohio, Florida, Michigan and 
Georgia. Fifty-three AACI cancer centers are located in those 13 
States.
    Cancer centers are already challenged to provide infrastructure 
resources necessary to support funded researchers, and cuts in Federal 
cancer center grants will limit our members' ability to provide well-
functioning shared resources to investigators who depend on them to 
complete their research. For most academic cancer centers, the majority 
of NCI grant funds are used to sustain shared resources that are 
essential to basic, translational, clinical and population cancer 
research, or to provide matching dollars which allow departments to 
recruit new cancer researchers to a university and support them until 
they receive their first grants.
    Independent investigator research is a particularly valuable 
resource, especially in genomics and molecular epidemiology. Such 
research depends on state-of-the-art shared resources like tissue 
processing and banking, DNA sequencing, microRNA platforms, proteomics, 
biostatistics and biomedical informatics. This infrastructure is 
expensive and it is not clear where cancer centers would acquire 
alternative funding if NCI grants for these efforts were reduced.
Cancer Research: Improving America's Health
    The broad portfolio of research supported by NIH and NCI is 
essential for improving our basic understanding of diseases and it has 
paid off handsomely in terms of improving Americans' health.
    Death rates from all cancers combined for men, women, and children 
in the United States continued to decline between 2004 and 2008, the 
latest year for which we have complete analysis. Age-adjusted mortality 
rates for 11 of the 18 most common cancers among men and for 14 of the 
16 most common cancers in women have declined. The overall rate of new 
cancer diagnoses among both men and women also declined over similar 
periods, although for women the decline leveled off from 2006-2008 
(National Cancer Institute, 2012 Annual Report to the Nation on the 
Status of Cancer). A broader data set shows that cancer death rates 
have dropped 11.4 percent among women and 19.2 percent among men over 
the past 15 years, due in large part to better detection and more 
effective treatments.
    Despite that success, cancer remains the second leading cause of 
death in the United States, exceeded only by heart disease. In 2007, 
more than 562,000 people died of cancer, and more than 1.45 million 
people had a diagnosis of cancer (Centers for Disease Control and 
Prevention, United States Cancer Statistics: 1999-2007 Cancer Incidence 
and Mortality Data).
    The network of cancer centers represented by AACI continues the 
fight against cancer by conducting the highest-quality cancer research 
in the world and provides exceptional patient care. In 2010, $3.9 
billion from NCI was awarded extramurally to research institutions, 
including the AACI's member cancer centers. This represents 77 percent 
of NCI's total budget (U.S. Department of Health and Human Services, 
National Institutes of Health, National Cancer Institute 2010 Fact 
Book). Because these centers are networked nationally, opportunities 
for collaborations are many--assuring wise and non-duplicative 
investment of scarce Federal dollars.
Conclusion
    The National Institutes of Health estimates overall costs of cancer 
in 2010 at $263.8 billion: $102.8 billion for direct medical costs 
(total of all health expenditures); $20.9 billion for indirect 
morbidity costs (cost of lost productivity due to illness); and $140.1 
billion for indirect mortality costs (cost of lost productivity due to 
premature death) (American Cancer Society, 2010 Facts & Figures).
    In the face of that economic burden, the Nation's financial support 
of NIH and NCI has paid dividends by wiping out diseases that killed 
our grandparents. Those investments have led us to the brink of new 
discoveries in deadly and debilitating illnesses, cancer perhaps 
foremost among them. The AACI cancer center network is unsurpassed in 
its pursuit of excellence, and places the highest priority on 
delivering superior cancer care to all Americans, including novel 
treatments and clinical trials. It is through the power of 
collaborative innovation that we will continue to move toward a future 
without cancer, and Federal research funding is essential to achieving 
our goals.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing
    As the national voice for baccalaureate and graduate nursing 
education, the American Association of Colleges of Nursing (AACN) 
represents 700 schools of nursing that educate over 360,000 students 
and employ more than 16,000 full-time faculty members. Collectively, 
these institutions produce approximately half of our Nation's 
Registered Nurses (RNs) and all nurse faculty and researchers. AACN 
requests that nursing education, research, and practice are strongly 
supported in fiscal year 2013 through a continued investment in the 
Nursing Workforce Development programs (authorized under Title VIII of 
the Public Health Service Act [42 U.S.C. 296 et seq.]), the National 
Institute of Nursing Research (NINR), and the Nurse-Managed Health 
Clinics (NMHCs) (Title III of the Public Health Service Act), so that 
our Nation's nurses will be prepared to care for the growing number of 
patients requiring a complex range of healthcare services.
                  job growth in the nursing workforce
    The demand for nurses is greater than previously anticipated. In 
February of this year, the Bureau of Labor Statistics (BLS) released 
their publication Employment Projections for 2010-2020, which projects 
significant growth in the nursing workforce from 2.74 million in 2010 
to 3.45 million in 2020. This upsurge in demand translates to 712,000 
nurses, or an increase of 26 percent. The BLS further projects the need 
for 495,500 additional nurses to replace those soon to retire, bringing 
the total number of job openings for nurses due to growth and 
replacements to 1.2 million by 2020.
    The aging of the nursing workforce and America's patients 
underscores this alarming projection. According to the 2008 National 
Sample Survey of Registered Nurses, of the 2.6 million RNs currently 
practicing in America, over 1 million are age 50 or older, and of these 
more than 275,000 nurses are over the age of 60. As this large segment 
of the workforce begins to retire, the Nation will soon face a 
significant deficit in the number of experienced nurses available to 
provide services. Concurrent with the aging of the nursing workforce is 
the aging of America's baby boomer population. It is estimated that 
over 80 million baby boomers reached age 65 in 2011. As this population 
transitions into the Nation's oldest generation, these citizens will 
continue to require more primary care services related to chronic 
illness treatment, medication management, and patient education. A 
significant investment must be made in the education of new nurses to 
provide the Nation with the nursing services it requires.
           title viii nursing workforce development programs
    For nearly five decades, the Nursing Workforce Development 
programs, authorized under Title VIII of the Public Health Service Act, 
have helped build the supply and distribution of qualified nurses to 
meet our Nation's healthcare needs. Between fiscal year 2005 and 2010 
alone, the Title VIII programs supported over 400,000 nurses and 
nursing students as well as numerous academic nursing institutions and 
healthcare facilities. The Title VIII programs bolster nursing 
education at all levels, from entry-level preparation through graduate 
study, and provide support for institutions that educate nurses for 
practice in rural and medically underserved communities. Today, the 
Title VIII programs are essential to ensure the demand for nursing care 
is met by supporting future practicing nurses and the faculty who 
educate them.
    Given the projected demand for RNs, nursing schools are looking to 
admit more students into their programs. However, faculty vacancies 
have repeatedly been cited as a fundamental obstacle to maximizing 
nursing school enrollment. Data from AACN's 2011-2012 enrollment and 
graduations survey show that nursing schools were forced to turn away 
75,587 qualified applications from entry-level baccalaureate and 
graduate nursing programs in 2011 due primarily to faculty vacancies. 
To counter this disparity, the Title VIII Nurse Faculty Loan Program 
aids in increasing nursing school enrollment capacity by supporting 
students pursuing graduate education, provided they serve as faculty 
for 4 years after graduation. In fiscal year 2010, the Title VIII Nurse 
Faculty Loan Program supported 271 faculty members who graduated and 
went on to teach in our Nation's nursing schools. Yet this only fills a 
small portion of the nearly 1,800 vacant faculty positions reported by 
AACN member schools in academic year 2011-2012.
    The Title VIII programs also increase the number of practicing 
nurses entering the pipeline and the placement of these nurses into 
medically underserved areas. AACN's Title VIII Student Recipient 
Survey, which gathers information annually about Title VIII funding and 
outcomes related to nursing education and career trajectories, provides 
evidence to the effectiveness of these programs in recruiting more 
students to the nursing profession and more importantly, practice in 
rural and underserved areas. The 2011-2012 survey, which included 
responses from over 1,600 students, revealed that 52 percent of 
respondents reported that Title VIII funding affected their decision to 
enter nursing school, and that practicing in a rural or underserved 
community was in the top five career plans after graduation. In fiscal 
year 2011, the Title VIII Nursing Education Loan Repayment Program 
committed to supporting 1,304 nurses working in these facilities. In 
addition, the Advanced Education Nursing Traineeship Program graduated 
7,744 nursing students during the 2010-2011 academic cycle, of which 
7,548 (97 percent) went on to practice in medically underserved areas. 
Moreover, personal testimony of several survey respondents revealed 
that many Title VIII recipients intend to practice in the community in 
which they were educated, a direct State investment.
    Additionally, 68 percent of respondents stated that Title VIII 
funding allowed them to attend school full-time, as these loan and 
scholarship programs alleviated the financial burden that obligates 
many students to complete their education on a part-time basis. The 
Title VIII programs decrease the length of time needed to obtain their 
education, thus helping to ensure that students enter the workforce 
without delay. These efforts directly align with recommendations in the 
Institute of Medicine's landmark report ``Future of Nursing: Leading 
Change, Advancing Health'' which state, ``Nurses should achieve higher 
levels of education and training through an improved education system 
that promotes seamless academic progression.'' Financial support from 
Title VIII programs ensure that more nurses are efficiently integrated 
into the workforce.
    AACN respectfully requests $251 million for the Nursing Workforce 
Development programs authorized under Title VIII of the Public Health 
Service Act in fiscal year 2013.
   national institute of nursing research: advancing nursing science
    The healthcare community is increasingly concerned with 
investigating methods to improve the delivery of high-quality care in a 
financially sustainable manner. As one of the 27 Institutes and Centers 
at the National Institutes of Health (NIH), the NINR is dedicated to 
promoting this endeavor through research initiatives aimed at reducing 
disease prevalence and improving health outcomes. While other health-
related research is aimed at curing disease, nurse-researchers at NINR 
focus on the prevention of illnesses that threaten to exacerbate an 
already over-burdened healthcare system. More specifically, NINR funded 
research investigates methodologies that improve chronic illness 
management, communicable disease prevention, pain management, and care-
giver support.
    Studies conducted at NINR address health and wellness across the 
entire lifespan. Reducing rates of infant prematurity, controlling 
rates of high-blood pressure among adults, and evaluating transitional 
care models to improve outcomes of the elderly represent the vast array 
of population-specific NINR research initiatives. Additionally, NINR 
seeks to improve understanding of the processes underlying palliative 
care efforts to develop patient-centered care delivery models.
    NINR allocates a generous 6 percent of its overall budget to the 
education and training of nurse researchers, many of whom dually serve 
as nurse faculty within our Nation's nursing schools. As researchers, 
these nurses work to strengthen the foundation of evidence-based 
nursing practice. As educators, they help to fulfill the need for nurse 
faculty and teach current, evidence-based practice that is consistent 
with changing healthcare needs.
    For NINR to adequately continue and further its mission, the 
institute must continue to receive adequate funding. Cuts in funding 
have impeded the institute from supporting larger comprehensive studies 
needed to advance nursing science and improve the quality of patient 
care.
    AACN respectfully requests $150 million for the NINR in fiscal year 
2013. This level of funding is on par with the Ad Hoc Group for Medical 
Research's $32 billion request for the total NIH budget in fiscal year 
2013.
         nurse-managed health clinics: expanding access to care
    Managed by Advanced Practice Registered Nurses and staffed by an 
interdisciplinary team, NMHCs provide necessary primary care services 
to medically underserved communities. Often times, nurse-managed health 
clinics and nurse practitioners are the sole providers for primary care 
for these areas. NMHCs serve as critical access points to keep patients 
out of the emergency room, thus saving the healthcare system millions 
of dollars annually.
    NMHCs provide care to vulnerable populations in a host of regions 
of the country, including rural communities, Native American 
reservations, senior citizen centers, elementary schools, and urban 
housing developments. These communities are the most susceptible to 
developing chronic illnesses that create heavy financial burden on 
patients and the healthcare system. NMHCs aim to reduce disease and 
create healthier communities through improved patient education and 
health practices. NMHCs provide primary care, health promotion, and 
disease prevention to individuals with limited access to care, 
regardless of their ability to pay. These vulnerable individuals who 
are often plagued with highest rates of detrimental chronic disease 
rely on the services provided at these clinics, which help to target 
early screening and risk reduction. These services include physical 
exams, cardiovascular checks, diabetes and osteoporosis screenings, 
smoking cessation programs, immunizations, and other additional 
services.
    Often associated with a school, college, university, department of 
nursing, federally qualified health center, or independent nonprofit 
healthcare agency, NMHCs also serve as clinical education training 
sites for students of nursing, medicine, physical therapy, social work, 
and ancillary healthcare services. According to AACN, the lack of 
clinical training sites is often cited as a top reason for turning away 
qualified applications in nursing programs.
    AACN respectfully requests $20 million for the Nurse-Managed Health 
Clinics in fiscal year 2013.
                               conclusion
    AACN recognizes that the Subcommittee and Congress face difficult 
decisions regarding appropriations for fiscal year 2013. AACN 
respectfully requests Congress to continue a robust investment in the 
health of our Nation by providing $251 million for the Title VIII 
Nursing Workforce Development programs, $150 million for the National 
Institute of Nursing Research, and $20 million for Nurse-Managed Health 
Clinics in fiscal year 2013. These programs directly advance the 
nursing profession in the areas of education, research, and practice, 
to meet our Nation's calling for a more highly skilled nursing 
workforce. A strong investment in our Nation's nurses is a strong 
investment in the future of America's health.
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine
    On behalf of the American Association of Colleges of Osteopathic 
Medicine (AACOM), I am pleased to submit this testimony in support of 
increased funding in fiscal year 2013 for programs at the Health 
Resources Services Administration (HRSA), the National Institutes of 
Health (NIH), and the Agency for Healthcare Research and Quality 
(AHRQ). AACOM represents the administrations, faculty, and students of 
the Nation's 26 colleges of osteopathic medicine at 34 locations in 25 
States. Today, more than 20,000 students are enrolled in osteopathic 
medical schools. Nearly 1 in 5 U.S. medical students is training to be 
an osteopathic physician.
Title VII
    The health professions education programs, authorized under Title 
VII of the Public Health Service Act and administered through HRSA, 
support the training and education of health practitioners to enhance 
the supply, diversity, and distribution of the healthcare workforce, 
acting as an essential part of the healthcare safety net and filling 
the gaps in the supply of health professionals not met by traditional 
market forces. Title VII and Title VIII nurse education programs are 
the only Federal programs designed to train clinicians in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the 
healthcare workforce.
    According to HRSA, an additional 33,000 health practitioners are 
needed to alleviate existing health professional shortages. Combined 
with faculty shortages across health professions disciplines, racial 
and ethnic disparities in healthcare, a growing, aging population and 
the anticipated demand for access to care, these needs strain an 
already fragile healthcare system.
    While AACOM appreciates the investments that have been made in 
these programs, we recommend increasing funding to $247.5 million for 
Title VII. We strongly support investment in the following programs in 
order to address the primary care workforce shortage: Primary Care 
Training and Enhancement (PCTE) Program at $58 million, the Health 
Careers Opportunity Program (HCOP) at $14.9 million, the Centers of 
Excellence (COE) at $22.9 million, the Geriatric Education Centers 
(GECs) at $30.6 million and the Area Health Education Centers (AHECs) 
at $33.142 million. Strengthening the workforce has been recognized as 
a national priority, and the investment in these programs recommended 
by AACOM will help meet the demand for a well trained, diverse 
workforce facing this country.
Teaching Health Centers Graduate Medical Education Program
    The Teaching Health Center Graduate Medical Education (THCGME) 
Program is the first of its kind to shift GME training to community-
based care settings that emphasize primary care and prevention. It is 
uniquely positioned to provide much needed primary care training in 
underserved populations. However, because the program is the first of 
its kind, most community-based settings do not have existing 
infrastructure to provide this training. AACOM strongly supports the 
President's budget request of $10 million to fund the THCGME 
Development Grants. This funding would allow potential THCGME training 
sites to develop the infrastructure needed to administer residency 
training programs.
National Health Service Corps
    Approximately 50 million Americans live in communities with a 
shortage of health professionals, lacking adequate access to primary 
care. Through scholarships and loan repayment, the National Health 
Service Corps (NHSC) supports the recruitment and retention of primary 
care clinicians to practice in underserved communities. At the close of 
fiscal year 2010, the NHSC provided a network of 7,500 primary 
healthcare professionals in 10,000 sites in underserved communities. 
However, this still fell approximately 20,000 practitioners short of 
fulfilling the need for primary care, dental and mental health 
practitioners in Health Professions Shortage Areas (HPSAs). Growth in 
HRSA's Community Health Center Program must be complemented with 
increases in the recruitment and retention of primary care clinicians 
to ensure adequate staffing, which the NHSC provides. AACOM strongly 
supports fully funding all aspects of the NHSC from both discretionary 
and mandatory funding sources and recommends that the full $300 million 
in mandatory funding be allocated and should be supplemented by 
discretionary dollars in fiscal year 2013.
Workforce Commission
    As the United States struggles to address with healthcare provider 
shortages in certain specialties and in rural and underserved areas, 
the country lacks a defined policy to address these critical issues. 
The National Health Care Workforce Commission was designed to develop 
and evaluate training activities to meet demand for healthcare workers. 
Without funding, the Commission cannot identify barriers that may 
create and exacerbate workforce shortages and improve coordination on 
the Federal, State and local levels. Having this type of coordinating 
body in place is becoming more critical as more Americans have 
insurance coverage and the population ages, requiring access to care. 
For these reasons, AACOM recommends that $3 million be appropriated to 
fund the Commission.
National Institutes of Health
    Research funded by the NIH leads to important medical discoveries 
regarding the causes, treatments, and cures for common and rare 
diseases as well as disease prevention. These efforts improve our 
Nation's health and save lives. To maintain a robust research agenda, 
further investment will be needed. AACOM recommends $32 billion in 
fiscal year 2013 for the NIH.
    In today's increasingly demanding and evolving medical curriculum, 
there is a critical need for more research geared toward evidence-based 
osteopathic medicine. AACOM believes that it is vitally important to 
maintain and increase funding for biomedical and clinical research in a 
variety of areas related to osteopathic principles and practice, 
including osteopathic manipulative medicine and comparative 
effectiveness. In this regard, AACOM encourages support for the NIH's 
National Center for Complementary and Alternative Medicine to continue 
fulfilling this essential research role.
Agency for Healthcare Research and Quality
    AHRQ supports research to improve healthcare quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. AHRQ plays an important role in producing the 
evidence base needed to improve our Nation's health and healthcare. The 
incremental increases for AHRQ's Patient Centered Health Research 
Program in recent years, as well as the funding provided to AHRQ in the 
ARRA, will help AHRQ generate more of this research and expand the 
infrastructure needed to increase capacity to produce this evidence. 
More investment is needed, however, to fulfill AHRQ's mission and 
broader research agenda, especially research in patient safety and 
prevention and care management research. AACOM recommends $400 million 
in fiscal year 2013 for AHRQ's base, discretionary budget. This 
investment will preserve AHRQ's current programs while helping to 
restore its critical healthcare safety, quality, and efficiency 
initiatives.
    AACOM is grateful for the opportunity to submit its views and looks 
forward to continuing to work with the Subcommittee on these important 
matters.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Pharmacy
    The American Association of Colleges of Pharmacy (AACP) is pleased 
to submit this statement for the record regarding fiscal year 2013 
funding. The 126 accredited pharmacy schools are engaged in a wide 
range of programs supported by funding administered through the 
agencies of the Department of Health and Human Services (HHS) and the 
Department of Education. Recognizing the difficult task of balancing 
needs and expectations with fiscal responsibility, AACP respectfully 
offers the following recommendations for consideration as you undertake 
your deliberations.
              u.s. department of health and human services
Health Resources and Services Administration (HRSA)
    AACP supports the Friends of HRSA recommendation of $7 billion for 
HRSA in fiscal year 2013. Faculty at schools of pharmacy are integral 
to the success of many HRSA programs conducting research rural health 
delivery to reduce healthcare costs through the integration of 
pharmacist-provided patient care services. Schools of pharmacy are 
supported by HRSA to operate 9 of the 42 Poison Control Centers and, 
this year, Dr. Scott Schaeffer of the University of Oklahoma received a 
$100,000 poison center incentive grant for a deaf and hard of hearing 
poison prevention outreach project.
    AACP supports the Bureau of Health Professions and the National 
Center for Health Workforce Analysis. Through the Pharmacy Workforce 
Center, AACP joins HRSA-funded efforts to compile national health 
workforce statistics to better inform future health professions 
workforce needs in the United States.
    AACP supports the Health Professions and Nursing Education 
Coalition (HPNEC) recommendation of $280 million for Title VII and VIII 
programs in fiscal year 2013. AACP member institutions are active 
participants in BHPr programs. Schools of pharmacy engage in Title VII 
programs, including Geriatric Education Centers and Area Health 
Education Centers (AHEC). These community-based, interprofessional 
programs are essential for providing the educational models to improve 
quality through team-based, patient-centered care and serve as valuable 
experiential education sites for student pharmacists and other health 
professions students. Nine North Carolina AHECs are supported by 500 
preceptor pharmacists and 22 academic pharmacists from the State's 
schools of pharmacy. The Northeast Pennsylvania (NEPA) AHEC partners 
with the NEPA Interprofessional Education Coalition to train student 
pharmacists from Wilkes University to develop interprofessional 
communication skills and recognize the importance of patient-centered 
care.
    For the AHEC program AACP recommends a funding level of at least 
$75 million in fiscal year 2013. Pharmacy schools are eligible to 
participate in the Centers of Excellence program and the Scholarships 
for Disadvantaged Students program, to increase the number of 
underserved individuals attending health professions schools and 
minority workforce representation.
Agency for Healthcare Research and Quality (AHRQ)
    AACP supports the Friends of AHRQ recommendation of $400 million 
for AHRQ programs in fiscal year 2013. Pharmacy faculty are strong 
partners with the Agency for Healthcare Research and Quality (AHRQ). 
Academic pharmacists Drs. Glen T. Schumock, University of Illinois at 
Chicago, and Sean Hennessy, University of Pennsylvania, are 2 of 11 
principal investigators involved in the Developing Evidence to Inform 
Decisions about Effectiveness center to support research on patient-
centered outcomes of healthcare with a focus on comparing clinical 
effectiveness, safety and usefulness of medical treatments. Drs. Gary 
R. Matzke, Virginia Commonwealth University, and Leigh Ann Ross, 
University of Mississippi School of Pharmacy, were appointed to the 
AHRQ Effective Health Care Program Pharmacy Workgroup. The Minnesota 
Pharmacy Practice-Based Research Network has been accepted for the AHRQ 
Primary Care Registry, existing as a living laboratory with a focus on 
the collection of information using a network of pharmacies to address 
the medication use process related to health and wellness.
Centers for Disease Control and Prevention (CDC)
    AACP supports the CDC Coalition recommendation of $7.7 billion for 
CDC core programs in fiscal year 2013 and the Friends of NCHS 
recommendation of $162 million for the National Center for Health 
Statistics. Information from the NCHS is essential for faculty engaged 
in health services research and for the professional education of the 
pharmacist. The educational outcomes established through the Center for 
the Advancement of Pharmaceutical Education include those related to 
public health. The opportunity for pharmacists to identify potential 
public health threats through regular interaction with patients 
provides public health agencies with on-the-ground epidemiologists 
providing risk identification measures when patients seek medications 
associated with preventing and treating travel-related illnesses. 
Pharmacy faculty are engaged in CDC-supported research and activities 
including delivery of immunizations, integration of pharmacogenetics in 
the pharmacy curriculum, inclusion of pharmacists in emergency 
preparedness, and the Million Hearts campaign. Faculty pharmacists at 
the University of Mississippi received a $300,000 grant from CDC for a 
project evaluating pharmacy cardiovascular risk reduction and $49,000 
to study active surveillance attitudes and perceptions in prostate 
cancer. Pharmacy schools actively participate in disaster relief 
response efforts in their community. Student pharmacists and faculty 
from University of Missouri Kansas City School of Pharmacy organized 
efforts to assist Joplin and southern Missouri just hours after the 
disaster and were among the first to respond to the area.
National Institutes of Health (NIH)
    AACP supports the Adhoc Group for Medical Research recommendation 
of $32 billion for NIH funding in fiscal year 2013. Pharmacy faculty 
are supported in their research by nearly every institute at the NIH. 
The NIH-supported research at AACP member institutions spans the full 
spectrum from the creation of new knowledge through the translation of 
that new knowledge to providers and patients. In 2011, pharmacy faculty 
researchers received over $263 million in grant support from the NIH 
and retain a strong commitment to increasing the number of biomedical 
researchers. At Purdue University, Karen S. Hudmon received $264,927 in 
funding from NIH National Cancer Institute for a pharmacy-based tobacco 
cessation program. University of Tennessee Health Sciences Center 
School of Pharmacy's Junling Wang received $886,742 from the NIH 
National Institute on Aging to study medication therapy management and 
its effect on racial and ethnic disparities. Christopher J. Destache, 
Creighton University, received $410,913 to study on once-monthly 
antiretroviral nanoparticles for HIV-1 treatment. James C. Cloyd, 
University of Michigan, received up to $7,500,000 for 
neurophysiologically based response pharmacotherapy for epilepsy. And, 
Jennifer Marie Cochoba, University of California San Francisco, 
received $165,952 from the NIH for a study on the effect of Pharmacist 
counseling on antiretroviral adherence, 5K23MH087218-02.
Centers for Medicare and Medicaid Services (CMS)
    AACP recommends a funding level of $526.2 billion for CMS programs 
in fiscal year 2013. The impact of the ongoing efforts from CMS and the 
Innovation Center continue depends on the integration of pharmacist 
into healthcare teams. Marie A. Smith of the University of Connecticut 
received $133,453 from CMS to study transitions of care from hospital 
to home care and the role of medication reconciliation and medication 
therapy management and Almut G. Winterstein, University of Florida, 
received $255,000 from CMS for the development of new medication 
measures that address the detection and prevention of adverse 
medication-related patient safety events for future quality improvement 
and reporting programs. Miriam Mobley-Smith, Dean of the Chicago State 
University School of Pharmacy, was appointed to the CMS Advisory Panel 
on Outreach and Education (APOE) in 2011. Pharmacy faculty work to 
integrate pharmacists as members of the health team through studies in 
health information technology, electronic health records, transitions 
of care, and medication management.
                      u.s. department of education
    The Department of Education supports the education of healthcare 
professionals by assuring access to education through student financial 
aid programs, educational research allows faculty to determine 
improvements in educational approaches; and the oversight of higher 
education through the approval of accrediting agencies. AACP supports 
the Student Aid Alliance's recommendations to maintain the $5,550 
maximum Pell grant. Admission to the pharmacy professional degree 
program requires at least 2 years of undergraduate preparation. Student 
financial assistance programs are essential to assuring student have 
access to undergraduate, professional and graduate degree programs. 
AACP recommends a funding level of at least $80 million for the Fund 
for the Improvement of Post Secondary Education (FIPSE) as this is the 
only Federal program that supports the development and evaluation of 
higher education programs that can lead to improvements in higher 
education quality.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research
    The AACR, representing 34,000 laboratory, translational, and 
clinical researchers; other healthcare professionals; and cancer 
survivors and patient advocates, is pleased to offer the following 
testimony. As the world's oldest and largest scientific organization 
focused on every aspect of high-quality, innovative cancer research, 
our mission is to prevent and cure cancer through research, education, 
communication and collaboration.
    To improve the health of all Americans, sustain the momentum 
generated through past investments in biomedical research and restore 
lost purchasing power due to stagnant budgets, the AACR recommends a 
funding level increase to $33 billion for the NIH in fiscal year 2013 
and a commensurate increase for the National Cancer Institute (NCI). 
This level of support will enable the future scientific advances needed 
to seize today's scientific momentum, save countless lives, and spur 
innovation and economic prosperity for our country and all of our 
citizens.
    The vigorous pursuit of new breakthroughs in cancer research and 
biomedical science supported through the NIH, as well as the NCI, saves 
lives and promises to improve the entire spectrum of patient care, from 
prevention, early detection, and diagnosis, to treatment and long-term 
survivorship. As detailed in the AACR Cancer Progress Report 2011, 
there has been an amazing acceleration in the rate of advances against 
the 200 diseases we call cancer, reaching back 40 years to the signing 
of the National Cancer Act. We are in a time of unprecedented 
scientific opportunity, driven in large part by the vast new knowledge 
generated through the mapping of the human genome and growing knowledge 
of the biology of cancer. This wealth of information is being 
translated into new treatments and preventive strategies for a number 
of cancers.
    Some of the extraordinary advances made against cancer include:
  --From 1990 to 2007, death rates from all cancers combined dropped by 
        22 percent for men and 14 percent for women, resulting in 
        nearly 900,000 fewer deaths during that time.
  --Today, more than 68 percent of adults live 5 years or more after 
        diagnosis, up from 50 percent in 1975.
  --Today, 80 percent of children live 5 years or more after diagnosis, 
        up from 52 percent in 1975.
  --There are about 12 million cancer survivors living in the United 
        States; 15 percent of them were diagnosed 20 or more years ago.
  --Breast cancer death rates fell by about 28 percent from 1990 to 
        2006.
  --Death rates from cervical cancer have dropped by nearly 31 percent 
        from 1990 to 2006.
  --Prostate cancer death rates have fallen by 39 percent from 1990 to 
        2006.
  --Colorectal cancer death rates have fallen by 28 percent in women, 
        and 33 percent in men.
  --Death rates from stomach cancer have fallen by 34 percent in women, 
        and 43 percent in men.
    The research community's ability to sustain this scientific 
momentum, however, is increasingly jeopardized--particularly given the 
Nation's current fiscal constraints. Funding for NIH has remained 
essentially flat for the past decade, and due to the rate of biomedical 
inflation, the agency has lost approximately $5.5 billion in purchasing 
power since 2003. Even without adjusting for inflation, enacted 
spending bills in recent years have imposed outright cuts, and looming 
sequestration mandated by the Budget Control Act threatens further 
reductions in 2013.
Cancer remains a significant public health challenge
    Despite the significant progress we have achieved, cancer remains 
the leading cause of death for Americans under age 85, and the second-
leading cause of death overall. In 2012, more than 1.6 million new 
cancer cases will be diagnosed and more than half a million American 
lives will be lost to this devastating disease. And due to its enormous 
complexity, progress against certain cancers--such as pancreatic, brain 
and lung cancers--has been extremely difficult.
    Furthermore, funding challenges come at a time when we are facing a 
``cancer tsunami'' as the baby boomer generation reaches age 65 and 
beyond. More than three-quarters of all cancers are diagnosed in 
individuals aged 55 and older, and the number of new cancer cases is 
estimated to approach 2 million per year by 2025. This will 
dramatically exacerbate the current problems with our healthcare 
system, and will undoubtedly hit hardest those who can least afford 
it--the elderly, medically underserved, and minority populations. We 
have reached a critical inflection point in our ability to conquer 
cancer, and we can only continue to make significant advances if we 
renew our commitment to allocate the required resources to do so.
    The investments that our Nation makes in cancer research and 
biomedical science, particularly those supported by public funds 
through the NCI and NIH will play a vital role in addressing the rising 
cancer incidence, while at the same time curbing the overall annual 
costs of cancer--which exceeded $263 billion in 2010.
Targeted therapies as the future of cancer treatment
    One of the most promising new approaches in modern cancer treatment 
is our ability to treat patients based on the specific characteristics 
of a patient and his or her disease--often referred to as personalized 
or precision medicine. Cancer research is leading the way toward the 
realization of personalized medicine, in no small part thanks to 
Federal investment in deciphering the underlying biology, such as the 
Human Genome Project and, more recently, The Cancer Genome Atlas, an 
NCI project that is identifying important genetic changes involved in 
cancer.
    Building on the tremendous progress in our understanding of the 
molecular mechanisms of cancer, numerous novel agents have been 
developed in recent years and many more are in development. New and 
innovative clinical trials are now being conducted that use molecular 
tests to identify which patients should be treated with which drugs. 
The NCI is investing in efforts that will facilitate the translation of 
this wealth of basic knowledge into new treatments, including 
validating cancer biomarkers for prognosis, metastasis, treatment 
response, and progression; accelerating the identification and 
validation of potential cancer molecular targets; minimizing the 
toxicities of cancer therapy; and integrating the clinical trial 
infrastructure for speed and efficiency.
    In fact, in 2011, two newly approved drugs--one for melanoma and 
one for lung cancer--were breakthroughs in personalized medicine. Each 
drug was approved with a diagnostic test that identifies patients for 
whom the drug is most likely benefit.
Fighting cancer in challenging fiscal times
    It is imperative that efforts to improve our Nation's fiscal 
stability be grounded in the goal of securing the prosperity and well-
being of the American people. And it is not by chance that the United 
States remains a leader in cancer research innovation and the 
development of lifesaving treatments. Our preeminence is a direct 
result of the steadfast determination of the American public and 
Congress to reduce the burden of this devastating disease by supporting 
and investing in research through the NIH and NCI.
    Further, maintaining American global competitiveness is predicated 
on its commitment to Federal support for biomedical research and 
development (R&D). The United States led the world's economies in the 
20th century because it led the world in innovation. Today we recognize 
that the competition is more intense; the challenge is tougher; and 
therefore, continuing to innovate is more important than ever before. A 
sustained investment in research and development is essential to 
creating new jobs for the 21st century. According to Science and 
Engineering Indicators 2012, between 1999 and 2009, the United States 
share of global R&D dropped from 38 percent to 31 percent, whereas it 
grew from 24 percent to 35 percent in the ``Asia-10'' (China, India, 
Indonesia, Japan, Malaysia, Philippines, Singapore, South Korea, Taiwan 
and Thailand). While the United States remains a leader in supporting 
science and technology, that position could soon be overtaken as Asian 
countries, particularly China, continue to increase their national 
investments in R&D. Biomedical research not only keeps America 
competitive globally, it also has a strong positive impact on State and 
local economies. NIH dollars are creating and saving high-wage, high-
tech jobs at a critical time for the U.S. economy. A recent report 
published by a consortium of science and research medical organizations 
estimated that NIH directly and indirectly supported nearly 488,000 
public and private sector jobs, and generated $68 billion in new 
economic activity in 2010 alone.
The NIH needs stable, predictable increases in funding
    One out of every three women and one out of every two men in 
America will develop cancer over their lifetime. More than a half 
million people will succumb to this disease in 2012--accounting for 
nearly 1 of every 4 deaths in America. This is the challenge we face 
today. Only a sustained investment in research will allow us to 
continue to build on the advances made during the past few decades to 
curb the number of lives lost to cancer.
    The AACR recognizes that Congress is being called upon to make 
difficult decisions among many competing priorities. However, one of 
the most important investments our country can make is in the NIH. Our 
ability to exploit new and exciting findings for the benefit of cancer 
patients is contingent on a strong, bipartisan commitment from Congress 
to provide the necessary funding for the NIH and NCI. Millions of 
current and future cancer patients and their loved ones are relying on 
your support to change the face of cancer.
                                 ______
                                 
   Prepared Statement of the American Association for Dental Research
Introduction
    Mr. Chairman and members of the Committee, I am Rena D'Souza, Chair 
of the Department of Biomedical Sciences at the Texas A&M Health 
Science Center at Baylor College of Dentistry. My testimony is on 
behalf of the American Association for Dental Research (AADR).
    I thank the committee for this opportunity to testify about the 
exciting advances in oral health science and for your past support of 
research at the National Institutes of Health (NIH). This support has 
made it possible for research funded by the National Institute of 
Dental and Craniofacial Research (NIDCR) to improve oral health. The 
investments we make today will create an exciting tomorrow for the 
treatment and prevention of oral health diseases and disorders. In this 
testimony, I will highlight how the advances described above have 
benefited taxpayers and some of the challenges that lie ahead that need 
to be addressed to prevent lapsing further behind other nations 
throughout the world both scientifically and economically.
What is the American Association for Dental Research?
    The American Association for Dental Research is a nonprofit 
organization with more than 4,000 members in the United States. Its 
mission is to: (1) advance research and gain a better understanding of 
the importance of oral health; (2) support and represent the oral 
health research community; and (3) educate the public about research 
findings. The AADR is the largest Division of the International 
Association for Dental Research.
Why is Oral Health Important?
    Oral health is an essential component of health throughout life. 
Poor oral health and untreated oral diseases and conditions can affect 
the most significant human needs including the ability to eat and 
drink, swallow, maintain proper nutrition, smile and communicate. For 
over half a century, there has been a dramatic improvement in oral 
health. However, it is still a major concern. Tooth decay and gum 
disease represent most of the problem but complete tooth loss, oral 
cancer, and facial anomalies are also factors. Tooth decay is the most 
common oral health problem in the United States. More than 40 percent 
of poor adults 20 years and older have at least one untreated decayed 
tooth. Tooth decay affects more than 90 percent of adults over age 40. 
Moreover, as the nation ages, oral health issues related to gum disease 
and the impact of medical treatments and medicines will increase.
Oral Health Research and Development
    Oral and Pharyngeal Cancer.--Most oral diseases and disorders arise 
from the interplay of complex biological, behavioral, environmental and 
genetic factors. Scientists now have the tools to understand health and 
disease from a powerful systems perspective. Such deep insights will 
enhance our ability to predict and more effectively manage many oral, 
dental diseases and craniofacial abnormalities such as orofacial 
clefting and ectodermal dysplasias. However, understanding and 
addressing complex oral diseases will require melding these advances 
with state-of-the-science clinical, epidemiological and bioinformatics 
approaches to more precisely identify diseases at their earliest 
inception, direct individualized therapies, and predict disease 
outcomes. One area that offers considerable opportunity is oral and 
pharyngeal cancer, which kills about 7,600 Americans each year. These 
deaths are particularly tragic because detection and treatment of early 
stage oral cancer usually results in much higher survival rates than if 
the disease is diagnosed and treated at late stages. Despite annual 
U.S. spending of approximately $3.2 billion on head and neck cancer 
treatment, relative survival rates have not improved during the past 16 
years and remain among the lowest of all major cancers. Oral cancer 
survival among African-American men has actually decreased. Approaches 
under development include devices to aid in earlier detection such as 
rapid gene-expression measurement tools that assess suspicious lesions 
removed for biopsy and integration of screening, diagnosis, and 
treatment. For example, toward achieving this goal, NIDCR-supported 
researchers recently devised a customized optical device that allows 
clinicians to visualize in a completely new way areas in the oral 
cavity that may be developing oral cancer.
    Genome-Wide Association Studies.--The emerging science of genome-
wide association studies (GWAS) and other rapidly evolving genome-wide 
technologies is producing exciting findings in oral, dental and 
craniofacial health. A recent family based genome-wide linkage study 
indicated possible developmental links between cleft lip and/or palate, 
caries and a range of dental malformations and identified several 
candidate genes for caries risk, pointing unexpectedly to genetic loci 
for salivary flow and diet preference. The NIDCR's continued support of 
genomic approaches may yield important new insights into the causes and 
progression of other complex conditions such as temporomandibular 
muscle and joint disorders associated with chronic orofacial pain, oral 
cancer, periodontal diseases and Sjogren's syndrome.
    Saliva-based Diagnostic Tests.--Saliva-based diagnostic tests offer 
significant potential for improving both oral and general health. Thus 
further development and validation of these approaches will enable 
improved preemptive care by detecting molecular markers predictive of 
disease before symptoms arise, or by providing diagnosis of the 
earliest signs of disease. Recently, a consortium of NIDCR-supported 
research groups compiled the first comprehensive list of proteins 
secreted by the major salivary glands, leading to a compendium of 
salivary proteins that will form the basis for future efforts in 
salivary diagnostics and therapeutics.
    Biomedical Research Workforce.--The investment decisions that 
Congress makes this year will have a profound impact on the future of 
America's physical, dental, and economic health. Federal investments in 
basic research play a major role in scientific discovery, leading to 
economic growth and fostering global competitiveness. NIDCR is 
committed to ensuring that the biomedical research workforce is 
prepared to address unique dental and craniofacial research questions. 
The task of getting students interested in biomedical research needs to 
be combined with mentoring opportunities to bolster retention.
    National Center for Advancing Translational Sciences.--NIH has 
established a new center, called the National Center for Advancing 
Translational Sciences (NCATS). Currently, many costly, time-consuming 
bottlenecks exist in the translational pipeline. Working in partnership 
with the public and private sectors, the Center will develop innovative 
ways to reduce, remove or bypass these bottlenecks. This will speed the 
delivery of new drugs, diagnostics and medical devices to patients, 
including the results of oral health research.
    NIH Public Access Policy.--The NIH Public Access Policy ensures 
that the public has access to the published results of NIH funded 
research. It requires scientists to submit final peer-reviewed journal 
manuscripts that arise from NIH funds to the digital archive PubMed 
Central upon acceptance for publication. The scientific community 
relies on publishers to manage the post-grant peer review process to 
evaluate the merit and authenticity of the conclusions of the research. 
However, post-grant peer review is not funded by the agencies at all. 
No Federal funding goes into the publication process. In essence, 
privately funded articles, which are not subject to an open or public 
access policy, will have to subsidize the decreased readership 
resulting from the public access policy. In order for a journal to 
maintain readership, a ratio of privately funded research versus 
federally funded research will have to be maintained. With an expanded 
open access policy, it is feared that a number of small nonprofit 
scholarly journals will experience decreased subscriptions that will 
create an operating loss for the journal.
Challenges to Research
    For many years, the United States has been a world leader in 
research and development. In order for the United States to thrive in 
today's innovation-oriented economy, we need to maintain a world class 
commitment to science and research. Future advances in healthcare 
depend on today's investments in basic research on the fundamental 
causes and mechanisms of disease, new technologies to accelerate 
discoveries, innovations in clinical research, and a robust pipeline of 
creative and skillful biomedical researchers. To continue reaping the 
benefits of a bold research funding platform, Congress must make 
science a national priority. With continued support, NIH investigators 
will help to revolutionize patient care, reduce the growth of 
healthcare costs, and generate significant national economic growth.
Fiscal Year 2013 Budget Request
    As you can see, Mr. Chairman, there are many research opportunities 
with an immediate impact on patient care that need to be pursued. A 
steady and substantial funding stream for NIH overall, and NIDCR in 
particular, is absolutely necessary in order to continue improving the 
oral health of Americans. We support the recommendation of the Ad Hoc 
Group for Medical Research that the Subcommittee recognize NIH as a 
critical national priority by providing at least $32 billion in funding 
in the fiscal year 2013 Labor, Health and Human Services, Education 
appropriations bill. Of this amount, NIDCR should receive a fiscal year 
2013 appropriation of $450 million. This funding recommendation 
represents the minimum investment necessary to avoid further loss of 
promising research and at the same time allows the NIH's budget to keep 
pace with biomedical inflation.
    Thank you for this opportunity to testify. We at AADR look forward 
to having the opportunity to work with the Congress and NIH to help 
build a strong and successful research enterprise.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians
    The American Academy of Family Physicians, representing 100,300 
family physicians and medical students nationwide, urges the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, and 
Education to invest in our Nation's primary care physician workforce in 
the fiscal year 2013 appropriations bill to promote the efficient, 
effective delivery of healthcare.
    We recommend that the Committee provide the Health Resources and 
Services Administration and the Agency for Healthcare Research and 
Quality:
  --At least $71 million for Health Professions Primary Care Training 
        and Enhancement, authorized under Title VII, Section 747 of the 
        Public Health Service Act (PHSA);
  --$10 million for Teaching Health Centers development grants (PHSA 
        Title VII, Sec. 749A);
  --$4 million for Rural Physician Training Grants (PHSA Title VII, 
        Sec. 749B);
  --$122.2 million for the Office of Rural Health Policy (PHSA 
        Sec. Sec. 301, 330A, and 338J, and Sec. Sec. 711 and 1820(j), 
        Title XVIII of the Social Security Act);
  --At least $300 million for the National Health Service Corps (PHSA 
        Sec. 338A, B, and I);
  --$120 million for the Primary Care Extension program (PHSA 
        Sec. 399V-1) in fiscal year 2013; and
  --$3 million for the National Health Care Workforce Commission (ACA 
        Sec. 5101).
          health resources and services administration (hrsa)
    The AAFP urges the Committee to provide at least $7 billion for 
HRSA in the fiscal year 2013 appropriations bill. Fundamental to HRSA's 
mission of improving access is supporting efforts to train and place 
the necessary primary care physician workforce. There is ample evidence 
that primary care physicians serve as a strong foundation for a more 
efficient and effective healthcare system. Federal investment not only 
would help to guide health system change to achieve optimal, cost-
efficient health for everyone, but also would support primary care 
medicine training in what the January 2012 Bureau of Labor Statistics 
Projections recognized as ``the most rapidly growing sector in terms of 
employment through 2020.''
    Title VII Health Professions Training Programs.--As the only 
medical specialty society devoted entirely to primary care, the AAFP is 
gravely concerned that a failure to provide adequate funding for the 
Title VII, Section 747, Primary Care Training and Enhancement (PCTE) 
program, will destabilize education and training support for family 
physicians. Between 1998 and 2008, in spite of persistent primary care 
physician shortages, family medicine lost 46 training programs and 390 
residency positions, and general internal medicine lost nearly 900 
positions.\1\ A study published in the Annals of Family Medicine on the 
impact of Title VII training programs found that physicians who work 
with the underserved at Community Health Centers and National Health 
Service Corps sites are more likely to have trained in Title VII-funded 
programs.\2\ Title VII primary care training grants are vital to 
departments of family medicine, general internal medicine, and general 
pediatrics; they strengthen curricula; and they offer incentives for 
training in underserved areas. In the coming years, medical services 
utilization is likely to rise, given the increasing and aging 
population, as well as the insured status of more people. These 
demographic trends will worsen family physician shortages. The AAFP 
urges the Committee to increase the level of Federal funding for 
primary care training to at least $71 million in fiscal year 2013 to 
support the continuing work of grantees and allow for a new grant 
cycle.
---------------------------------------------------------------------------
    \1\ Phillips RL and Turner, BJ. The Next Phase of Title VII Funding 
for Training Primary Care Physicians for America's Health Care Needs. 
Ann Fam Med. 2012;10(2):163-168.
    \2\ Rittenhouse DR, et al. Impact of Title VII training programs on 
community health center staffing and National Health Service Corps 
participation. Ann Fam Med. 2008;6(5):397-405.
---------------------------------------------------------------------------
    Teaching Health Centers.--The AAFP has long called for reforms to 
graduate medical education programs in order to encourage the training 
of primary care residents in nonhospital settings, where most primary 
care is delivered. An excellent first step is the innovative Teaching 
Health Centers program, authorized under Title VII, Sec. 749A, to 
increase primary care physician training capacity now administered by 
HRSA.
    Federal financing of graduate medical education has led to training 
that occurs mainly in hospital inpatient settings, even though most 
patient care is delivered outside of hospitals in ambulatory settings. 
The Teaching Health Centers program provides resources to qualified 
community-based ambulatory care settings that operate a primary care 
residency. We believe that this program requires an investment of $10 
million in fiscal year 2013 for planning grants.
    Rural Health Needs.--HRSA's Office of Rural Health Policy focuses 
on key rural health policy issues and administers targeted rural grant 
programs. As members of the medical specialty most likely to enter 
rural practice, family physicians recognize the need to dedicate 
resources to rural health needs.
    A recent study found that medical school rural programs have had a 
significant impact on rural family physician supply and called for 
wider adoption of that model to substantially increase access to care 
in rural areas, compared with greater reliance on international medical 
graduates or unfocused expansion of traditional medical schools.\3\ 
HRSA's Rural Physician Training Grant Program will help medical schools 
recruit students most likely to practice medicine in rural communities. 
This program will help provide rural-focused experience and increase 
the number of medical school graduates who practice in underserved 
rural communities. The AAFP recommends that the Committee provide $4 
million for the Rural Physician Training Grant Program in fiscal year 
2013.
---------------------------------------------------------------------------
    \3\ Rabinowitz, HK, et al. Medical School Rural Programs: A 
Comparison With International Medical Graduates in Addressing State-
Level Rural Family Physician and Primary Care Supply. Academic 
Medicine, Vol. 87, No. 4/April 2012.
---------------------------------------------------------------------------
    Primary Care in Underserved Areas.--The National Health Service 
Corps (NHSC) recruits and places medical professionals in Health 
Professional Shortage Areas to meet the need for healthcare in rural 
and medically underserved areas. The NHSC provides scholarships or loan 
repayment as incentives for physicians to enter primary care and 
provide healthcare to Americans in Health Professional Shortage Areas. 
By addressing medical school debt burdens, the NHSC also helps to 
ensure wider access to medical education opportunities. The AAFP 
recommends that the Committee provide at least $300 million for the 
National Health Service Corps for fiscal year 2013.
    The AAFP has worked closely with HRSA to promote data-driven 
community health center expansion. The mapping tool developed and 
managed by the Robert Graham Center for Policy Studies in Family 
Practice and Primary Care identifies areas in greatest need of 
federally Qualified Health Centers. Since the launch of the tool on 
July 1, 2010, the UDS Mapper has registered more than 4,500 users; it 
can be found at http://www.udsmapper.org/about.cfm.
           agency for heatlhcare research and quality (ahrq)
    The AAFP supports the work of AHRQ's Center for Primary Care, 
Prevention, and Clinical Partnerships (CP\3\), which serves as the home 
for the AHRQ's Practice-Based Research Network of primary care 
ambulatory practices. This network studies community-based practice.
    Furthermore, we recognize AHRQ as an important resource for primary 
care workforce data. The AAFP asks that the Committee provide at least 
$400 million for AHRQ in fiscal year 2013.
    Primary Care Extension Program.--The AAFP supports AHRQ's Primary 
Care Extension Program to provide information to primary care 
physicians about evidence-based therapies and techniques so that they 
can incorporate them into their practice. As AHRQ develops more 
scientific evidence on best practices and effective clinical 
innovations, the Primary Care Extension Program will disseminate the 
information learned to primary care practices across the Nation in much 
the same way as the Federal Cooperative Extension Service provides 
small farms with the most current agricultural information and 
guidance. The AAFP recommends that the Committee provide $120 million 
for the AHRQ Primary Care Extension program in fiscal year 2013.
               national health care workforce commission
    Appointed on September 30, 2010, the 15-member National Health Care 
Workforce Commission was intended to serve as a national resource with 
a broad array of expertise. The Commission was directed to analyze 
current workforce distribution and needs; evaluate healthcare education 
and training; identify barriers to improved coordination at the 
Federal, State, and local levels and recommend ways to address them; 
and encourage innovations to address population needs, changing 
technology, and other factors.
    There is broad consensus about the waning availability of primary 
care physicians in the United States, but estimates of the severity of 
the regional and local shortages vary. The AAFP supports the work of 
the Commission to analyze primary care shortages and propose 
innovations to help produce the physicians that our Nation needs and 
will need in the future. We request that the Committee provide $3 
million in fiscal year 2013 so that this important Commission can begin 
this important work.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists
    The American Association of Immunologists (AAI), a not-for-profit 
professional society comprised of more than 7,400 of the world's 
leading experts on the immune system, appreciates this opportunity to 
submit this testimony regarding appropriations for the National 
Institutes of Health (NIH) for fiscal year 2013. AAI members work in 
academia, Government, and industry. Most of our members either receive 
funding from NIH to support their research \1\ or depend on the basic 
research conducted by NIH-funded scientists in developing therapeutics 
to prevent or treat disease.\2\ Whether public or private sector; 
basic, translational or clinical; American or international; most 
biomedical researchers rely on the leadership of, and funding from, the 
NIH--the world's premier medical research organization.
---------------------------------------------------------------------------
    \1\ Many AAI members receive grants from the National Institute of 
Allergy and Infectious Diseases, the National Cancer Institute, and the 
National Institute on Aging, as well as other NIH Institutes and 
Centers.
    \2\ NIH funding has a definite impact on the private sector. ``. . 
. [T]he National Bureau of Economic Research concluded that, in 
contrast to the pattern of public spending . . . displacing private 
activity in the economy, a dollar of NIH support for research leads to 
an increase of private medical research of roughly 32 cents.'' Everett 
Ehrlich, An Economic Engine: NIH Research, Employment and the Future of 
the Medical Innovation Sector, http://www.unitedformedicalresearch.com/
wp-content/uploads/2011/05/UMR_Economic-Engine.pdf.
---------------------------------------------------------------------------
    NIH's preeminence--and America's dominance--in advancing medical 
research, discovering treatments and cures, and ``growing'' brilliant 
young scientists has been unchallenged for more than 50 years. However, 
continued erosion of NIH funding has already led to the loss of highly 
qualified scientists and the closures of labs.\3\ For those scientists 
who are able to continue, competing and securing research support 
increasingly occupies the time that could--and should--be dedicated to 
new advances and discoveries.
---------------------------------------------------------------------------
    \3\ FASEB, ``Federal Funding for Biomedical and Related Life 
Sciences Research FY 2013,'' http://www.faseb.org/
LinkClick.aspx?fileticket=10Qs6teI4kY%3D&tabid=64. Everett Ehrlich, 
NIH's Role in Sustaining the U.S. Economy, http://
www.unitedformedicalresearch.com/wp-content/uploads/2012/03/NIHs-Role-
in-Sustaining-the-US-Economy-2011.pdf.
---------------------------------------------------------------------------
    NIH funding is an important driver of our economy. Unlike many 
Federal agencies, NIH distributes most (>80 percent) of its $30.7 
billion budget to scientists in all 50 States, making NIH funding a 
formidable engine for local and national economic growth.\4\ NIH 
funding supports highly skilled jobs focused on improving human and 
animal health; less skilled jobs which support laboratories, academic 
institutions, and a community of employees; \5\ and the training of our 
Nation's future researchers, inventors and innovators. NIH-funded 
discoveries also fuel the success of our Nation's biotechnology and 
pharmaceutical industries.
---------------------------------------------------------------------------
    \4\ NIH funding supports ``almost 50,000 competitive grants to more 
than 300,000 researchers at more than 2,500 universities, medical 
schools, and other research institutions in every State and around the 
world.'' http://nih.gov/about/budget.htm. (March 1, 2012)
    \5\ ``One study estimates that every dollar of NIH support returns 
$2.21 in goods and services in just 1 year, and that on average, every 
NIH grant creates seven high-quality jobs.'' Testimony of Francis S. 
Collins, M.D., Ph.D., March 28, 2012, page 7, http://
www.appropriations.senate.gov/ht-
labor.cfm?method=hearings.view&id=8a1dcace-6f68-4e35-ad94-4409966e2ffb. 
See also Ehrlich, NIH's Role in Sustaining the U.S. Economy (see 
footnote 1, above).
---------------------------------------------------------------------------
The broad reach of the immune system
    All humans and other animals require a properly working immune 
system to survive. Optimally, this system defends against infectious 
agents which require a host to persist and propagate. Many infectious 
diseases, including influenza, HIV/AIDS, tuberculosis, malaria, and the 
common cold, challenge--and sometimes overcome--the defenses mounted by 
the immune system. Other malfunctions result in the immune system 
attacking our normal body tissues, causing ``autoimmune'' diseases or 
disorders, including Type 1 diabetes, multiple sclerosis, rheumatoid 
arthritis, asthma, allergies, inflammatory bowel diseases, and 
lupus.\6\ The immune system also impacts many other diseases and 
conditions, including cancer, Alzheimer's,\7\ obesity, Type II 
diabetes, psoriasis, alopecia areata, and pregnancy loss.
---------------------------------------------------------------------------
    \6\ The immune system works by recognizing and attacking bacteria, 
viruses, and tumor cells inside the body. It is also responsible for 
the rejection response following transplantation of organs or bone 
marrow.
    \7\ Allison Bond, ``Immune Response May Worsen Alzheimer's,'' 
Scientific American, January 18, 2010, http://
www.scientificamerican.com/article.cfm?id=inflamed-neurons.
---------------------------------------------------------------------------
    In addition, urgent public health challenges require understanding 
the immune response to pathogens that might cause the next pandemic; 
man-made and natural infectious organisms (including plague, smallpox 
and anthrax) that could be used for bioterrorism; and environmental 
threats that could cause or exacerbate disease.\8\ Although immunology 
is a relatively young field,\9\ research advances have already yielded 
remarkable progress.\10\ But solving key scientific questions that lead 
to prevention and cures cannot occur without a strong, sustained 
biomedical research enterprise, adequately funded through 
appropriations to NIH.
---------------------------------------------------------------------------
    \8\ To best protect against emergent threats, AAI believes that 
scientists should focus on basic research, including understanding the 
immune response, identifying new pathogens, and developing tools 
(including vaccines) to protect against these pathogens. For example, 
to best protect against an influenza pandemic, scientists should focus 
on basic research to combat seasonal flu, including building capacity, 
pursuing new production methods, and seeking optimized flu vaccines and 
delivery methods.
    \9\ Most of our basic understanding of the immune system has 
developed in the last 50 years, although the first vaccine (against 
smallpox) was developed in 1798.
    \10\ In 2011, three NIH-supported immunologists (the late Ralph 
Steinman, M.D., Bruce Beutler, M.D., and Jules Hoffman, Ph.D.) received 
the Nobel Prize in Medicine for their important contributions to the 
field.
---------------------------------------------------------------------------
Recent immunological discoveries and translation to treatment
    AIDS vaccine.--Study of the immune system has helped lengthen the 
lives of those diagnosed with
    HIV from months in the 1980s to as much as 50 years today.\11\ 
Recently, several key advances have helped us understand how HIV evades 
immune recognition and how to generate more efficacious HIV vaccines. 
In one discovery, scientists were able to visualize neutralizing 
antibodies bound to HIV on a molecular level, determine the nature of 
the interaction, and find a broadly neutralizing antibody that combats 
several strains of HIV.\12\ Such advances may lead to effective 
therapies and vaccines against many viruses, including HIV.
---------------------------------------------------------------------------
    \11\ Anthony S. Fauci, ``After 30 years of HIV/AIDS, real progress 
and much left to do,'' Washington Post, May 27, 2011, http://
www.washingtonpost.com/opinions/after-30-years-of-hivaids-real-
progress-and-much-left-to-do/2011/05/27/AGbimyCH_story.html.
    \12\ Robert Pejchal et al., ``A Potent and Broad Neutralizing 
Antibody Recognizes and Penetrates the HIV Glycan Shield,'' Science 
334, (2011):1097.
---------------------------------------------------------------------------
    Universal Flu vaccine.--Remarkable advances are also being made on 
improved seasonal influenza vaccines and ``universal'' flu vaccines 
that would provide protection against multiple strains of influenza.
    Anti-cancer vaccines.--In testimony submitted to this subcommittee 
in 2009, AAI described a promising new cancer treatment that would 
redirect the immune system to attack cancer cells by manipulating the 
inhibitory molecule CTLA-4. In 2011, the Food and Drug Administration 
(FDA) approved CTLA-4 blockade (ipilimumab) for the treatment of 
metastatic melanoma after Phase III clinical trials showed that 
ipilimumab improved survival for these patients.\13\ In 2010, the first 
therapeutic cancer vaccine (Provenge), for the treatment of prostate 
cancer, was approved by the FDA. This vaccine takes advantage of the 
immune system's ability to sense and then attack cancer cells.\14\ Both 
therapies were based on fundamental immunological discoveries of the 
past several decades and are now guiding the development of numerous 
other therapeutics which direct the immune system to specifically 
attack cancer cells.
---------------------------------------------------------------------------
    \13\ Stephen Hodi et al., ``Improved Survival with Ipilimumab in 
Patients with Metastatic Melanoma,'' N Engl J Med 363, (2010): 711-723.
    \14\ See http://www.fda.gov/NewsEvents/Newsroom/PressAnnouncements/
ucm210174.htm.
---------------------------------------------------------------------------
    Malaria vaccine.--A recent phase III study for the malaria vaccine 
RTS,S showed that the progression of severe disease could be reduced by 
the vaccine by about half, promising data toward the development of a 
vaccine for a disease that is of urgent concern to people worldwide and 
to U.S. troops stationed abroad.
The importance of sustained NIH funding
    AAI greatly appreciates this subcommittee's long history of strong 
bipartisan support for biomedical research. NIH funding has supported 
many excellent projects to advance human health and strengthen the 
Nation's research infrastructure. However, fiscal pressures in recent 
years have resulted in flat or reduced NIH funding. Together with 
increases in biomedical research inflation, these budgets have 
significantly eroded NIH's purchasing power; the President's fiscal 
year 2013 budget would reduce NIH's purchasing power to 2001 
levels.\15\ AAI is deeply concerned that inadequate NIH funding will 
harm ongoing research, weaken the U.S. biomedical research enterprise, 
and enable global competitors to recruit our best scientists.
---------------------------------------------------------------------------
    \15\ FASEB, Predictable and Sustainable Funding for NIH Will Drive 
Innovation and Progress, 2012, http://www.faseb.org/
LinkClick.aspx?fileticket=aDQlNW4adp0%3d&tabid=431.
---------------------------------------------------------------------------
AAI recommendation for NIH funding for fiscal year 2013
    Although AAI believes that NIH needs a substantial infusion of 
funds, we realize that such an increase is unlikely this year. 
Therefore, AAI recommends a budget for NIH of at least $32 billion to 
enable NIH to support existing research projects, fund a limited number 
of excellent new ones, and stabilize the research enterprise. More is 
needed, however, to grow the system or inspire confidence in it, 
particularly among the brightest young students who are increasingly 
hesitant to pursue careers in biomedical research.
AAI priorities for fiscal year 2013
    Biomedical innovation and discovery are best achieved through 
individual investigator-initiated research, i.e., researchers working 
all around the country, whose grant applications are peer-reviewed and 
funded by NIH. ``Top-down'' science, in which the Government specifies 
the type of research it wishes to fund, is less likely to achieve the 
desired goals than funding the best grant applications. AAI is 
concerned, therefore, that the President's budget reduces funding for 
research project grants (RPGs) by $26 million. While NIH's new 
management plan anticipates funding a larger number (672) of new and 
competing RPGs, this reduced funding would require awards to be smaller 
and/or shorter in duration. Although this may be the best way for NIH 
to manage less RPG funding, it will not solve the fundamental problem 
caused by the erosion of the NIH budget: fewer scientists receiving the 
support they need to do their work.
    The President's budget provides an increase of $64 million to the 
National Center for Advancing Translational Sciences (NCATS), including 
an increase of $40 million for the Cures Acceleration Network (CAN). 
Although AAI supports NIH's desire to facilitate the translation of 
basic research from ``bench to bedside,'' AAI questions whether such 
large increases are wise when overall RPG funding is experiencing a 
significant and worrisome decline.
    AAI is concerned about a new administration policy that limits the 
ability of Government scientists to attend privately sponsored 
scientific meetings and conferences.\16\ Government scientists are 
valued members of our organization and contribute significantly to 
scientific advancement in the field. It is as important to AAI to have 
them attend our meetings as it is for them to attend. Dialogue and 
information exchange among scientists from Government, academia, 
industry and private institutes are absolutely essential, and any 
barriers to the participation of Government scientists undermines the 
best interests of science.
---------------------------------------------------------------------------
    \16\ See http://www.hhs.gov/travel/policies/
2012%20policy%20manual.pdf.
---------------------------------------------------------------------------
The NIH Public Access Policy
    As the owner and publisher of The Journal of Immunology (``The 
JI''), AAI believes that the NIH Public Access Policy (``Policy'') 
duplicates publishing services which are already provided cost-
effectively and well by the private sector, including not-for-profit 
scientific societies. AAI and other scholarly publishers already 
publish, and make publicly available, thousands of scientific journals 
with millions of articles that report cutting-edge research. Many 
publishers make abstracts available online immediately and at no cost 
to the public. Most publishers who impose an embargo period (necessary 
to prevent the loss of subscriptions which defray publication costs) 
make available not only the articles supported by NIH funding, but all 
articles regardless of funding source. As a result, many publisher 
websites contain a more complete repository of relevant literature than 
does NIH, and often include the entire archives of the journal.
    NIH should work with, rather than compete with, private publishers 
to enhance public access; address publishers' key concerns, including 
respecting copyright and ensuring journals' continued ability to 
provide quality, independent peer review of NIH-funded research; and 
publicly report on the cost of the Policy.
                               conclusion
    AAI thanks this subcommittee for its strong support for medical 
research, NIH and the thousands of researchers who devote their lives 
to scientific discovery and the prevention, treatment, and cure of 
disease.
                                 ______
                                 
       Prepared Statement of the American Association of Museums
    Chairman Harkin, Ranking Member Shelby, and members of the 
subcommittee, thank you for inviting me to submit this testimony. My 
name is Ford Bell and I serve as President of the American Association 
of Museums (AAM). I also submit this testimony on behalf of the larger 
museum community--including the American Association for State and 
Local History, the Association of Art Museum Directors, the Association 
of Children's Museums, the American Public Gardens Association, and 
Heritage Preservation--to request that the subcommittee make a renewed 
investment in museums in fiscal year 2013. We urge your support for $50 
million for the Office of Museum Services (OMS) at the Institute of 
Museum and Library Services (IMLS).
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, natural history museums, planetariums, 
presidential libraries, science and technology centers, and zoos, among 
others--along with the professional staff and volunteers who work for 
and with museums. AAM is proud to work on behalf of the 17,500 museums 
that employ 400,000 people, spend more than $2 billion annually on K-12 
educational programming, receive more than 90 million visits each year 
from primary and secondary school students, and contribute more than 
$20 billion to local economies.
    IMLS is the primary Federal agency that supports the Nation's 
museums, and OMS awards grants to help museums digitize, enhance and 
preserve their collections; provide teacher training; and create 
innovative, cross-cultural and multi-disciplinary programs and exhibits 
for schools and the public. The 2012-2016 IMLS Strategic Plan lists 
clear priorities: placing the learner at the center of the museum 
experience, promoting museums as strong community anchors, supporting 
museum stewardship of their collections, advising the President and 
Congress on how to sustain and increase public access to information 
and ideas, and serving as a model independent Federal agency maximizing 
value for the American public. IMLS is indeed a model Federal agency.
    In late 2010, a bill to reauthorize IMLS for 5 years was enacted 
(by voice vote in the House and unanimous consent in the Senate). The 
bipartisan reauthorization included several provisions proposed by the 
museum field, including enhanced support for conservation and 
preservation, emergency preparedness and response, and statewide 
capacity building. The reauthorization also specifically supports 
efforts at the State level to leverage museum resources, including 
statewide needs assessments and the development of State plans to 
improve and maximize museum services throughout the State. The bill 
(now Public Law 111-340) authorized $38.6 million for the IMLS Office 
of Museum Services to meet the growing demand for museum programs and 
services. The fiscal year 2012 appropriation of $30,859,000--equal to 
President Obama's fiscal year 2013 budget request--represents a nearly 
15 percent decrease from the fiscal year 2010 appropriation of 
$35,212,000. We urge the subcommittee to provide $50 million for the 
IMLS Office of Museum Services.
    To be clear, museums are essential in our communities for many 
reasons:
  --Museums are key education providers.--Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography, and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, STEM education, youth 
        training, and job preparedness. They reach beyond the scope of 
        instructional programming for schoolchildren by also providing 
        critical teacher training. There is a growing consensus that 
        whatever the new educational era looks like, it will focus on 
        the development of a core set of skills: critical thinking, the 
        ability to synthesize information, the ability to innovate, 
        creativity, and collaboration. Museums are uniquely situated to 
        help learners develop these core skills.
  --Museums create jobs and support local economies.--Museums serve as 
        economic engines, bolster local infrastructure, and spur 
        tourism. Both the U.S. Conference of Mayors and the National 
        Governors Association agree that cultural assets such as 
        museums are essential to attracting businesses, a skilled 
        workforce, and local and international tourism. Museums pump 
        more than $20 billion into the American economy, creating many 
        jobs.
  --Museums address community challenges.--Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities, and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum, some are 
        teaching English as a second language, and some are serving as 
        locations for supervised family visits through the family court 
        system. In 2011, more than 1,500 museums participated in the 
        Blue Star Museums initiative, offering free admission to all 
        active duty and reserve personnel and their families from 
        Memorial Day through Labor Day.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations.--Teachers, students, and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need more help in 
        digitizing collections.
    Grants to museums are highly competitive and decided through a 
rigorous, peer-reviewed process. Even the most ardent deficit hawks 
view the IMLS grantmaking process--the ``regular process''--as a model 
for the Nation. It would take approximately $124.6 million to fund all 
the grant applications that IMLS received from museums in 2011. But 
given the significant budget cuts, many highly rated grant applications 
go unfunded each year:
  --Only 32 percent Museums for America/Conservation Project projects 
        were funded;
  --Only 15 percent National Leadership/21st Century Museum 
        Professionals projects were funded;
  --Only 64 percent Native American/Hawaiian Museum Services projects 
        were funded; and
  --Only 37 percent African American History and Culture projects were 
        funded.
    It should be noted that each time a museum grant is awarded, 
additional local and private funds are also leveraged. In addition to 
the required dollar-for-dollar match required of museums, grants often 
spur additional giving by private foundations and individual donors. A 
recent IMLS study found that 67 percent of museums that received 
Museums for America grants reported that their IMLS grant had 
positioned the museum to receive additional private funding.
    Here are just a few examples of how Office of Museum Services 
funding is used:
  --The Iowa Children's Museum in Coralville will use its $117,769 
        Museums for America grant awarded in 2011 to establish 
        ``MoneyWorks!''--a financial literacy project targeting 
        children aged 4 to 10. The proposed project will empower 
        children by adding active financial literacy experiences to the 
        museum's current CityWorks exhibit. ``MoneyWorks!'' enables 
        children and their families to take on the roles of bank 
        tellers, pizza chefs, doctors, and more in a pretend city 
        environment where they can explore the concepts of earning, 
        spending, saving, and giving. Through basic math skills, 
        creative problem solving, and increased awareness of financial 
        choices and consequences, kids will acquire a lifetime of 
        essential financial literacy skills.
  --The National Czech and Slovak Museum and Library in Cedar Rapids, 
        Iowa, will use its $148,351 Museums for America grant awarded 
        in 2011 to capture the personal stories and family sagas of 
        Czech and Slovak Cold War emigres and recent (post-Velvet 
        Revolution) Czech and Slovak immigrants to America. Beginning 
        in Cedar Rapids and then extending to New York, Chicago, the 
        District of Columbia, Florida, and the San Francisco Bay Area, 
        this project will involve a new permanent exhibition, a 
        traveling exhibit, and an oral history recording booth to be 
        designed, constructed, and implemented in the museum.
  --The University of Northern Iowa Museums in Cedar Falls will use its 
        $149,684 Museums for America grant awarded in 2011 to protect 
        and preserve the archive's resources (9,000 original documents 
        relating to early Iowa education), ensuring public access to 
        this valuable historical information. The historically 
        important Marshall Center School, owned by UNI Museums, 
        maintains a collection of over 3,000 photographs, school board 
        records, oral histories, teacher certificates and contracts, 
        teaching materials, maps, diaries, letters, furnishings, and 
        textbooks from the 1850s to the 1960s. With the addition of the 
        statewide collection of official rural school documents, the 
        UNI Museums' Center for the History of Rural Iowa Education and 
        Culture is poised to become a significant national center for 
        the study of educational, rural, and women's history.
  --The McWane Science Center in Birmingham, Alabama, will use its 
        $140,020 Museums for America grant awarded in 2011 to partner 
        with the W.J. Christian public school in Birmingham to provide 
        teacher training workshops, classroom outreach programs, 
        science laboratories and programs, and a school-based science 
        resource center. The partnership is designed to pair a formal, 
        public school with an informal education institution to provide 
        low-income and disadvantaged students with the opportunity to 
        access quality learning environments, equipment, and 
        laboratories. The project will result in a revised science 
        curriculum and professional development resources for science 
        teachers. The project aims to engage students in science and 
        inspire them to pursue opportunities for advanced science 
        education. The Science Education Partnership will help further 
        the museum's mission of ``changing lives through science and 
        wonder'' by serving as an extension of the school-based science 
        classroom.
  --The Alabama Space Science Exhibit Commission in Huntsville, 
        Alabama, will use its $150,000 Museums for America grant 
        awarded in 2011 to develop, ``Carrying Out the Mission,'' an 
        exhibit on astronaut training at its museum, the U.S. Space & 
        Rocket Center. The center houses one of the world's largest 
        collections of space artifacts and ``Carrying Out the Mission'' 
        is one part of a 12-module exhibit plan that will use 
        historical artifacts, hands-on interactive stations, two 
        problem-solving computer simulators, and oral histories to 
        explore human space exploration, and in the process inspire 
        current and future generations to engage in science.
  --The Birmingham Civil Rights Institute in Birmingham, Alabama, is 
        using its $129,830 Museum Grants for African American History 
        and Culture awarded in 2010 to better engage its diverse 
        audiences by enhancing the staff capacity to effectively 
        utilize technology. With the recent installation of new 
        interactive exhibits and a fiber optic network, the museum will 
        now develop the skills of its staff to more fully utilize the 
        museum's education programs and services. The museum will hire 
        a computer and information systems assistant to provide 
        technical support for exhibitions and staff functions, and a 
        series of technology training programs will be offered to all 
        staff. The project will promote greater efficiency between the 
        various museum departments through improved communication and 
        coordination, information sharing, data collection and 
        analysis, and external communication with visitors and other 
        stakeholders.
    In closing, I would like to share with you for the record a letter 
to the subcommittee requesting $50 million for the IMLS Office of 
Museum Services signed by 18 of your Senate colleagues. Thank you once 
again for the opportunity to submit this testimony.
                                 ______
                                 
                                      United States Senate,
                                    Washington, DC, March 29, 2012.
Hon. Tom Harkin,
Chairman, Senate Appropriations Subcommittee on Labor, Health and Human 
        Services, and Education and Related Agencies, Washington, DC.
Hon. Richard C. Shelby,
Ranking Member, Senate Appropriations Subcommittee on Labor, Health and 
        Human Services, and Education and Related Agencies, Washington, 
        DC.
    Dear Chairman Harkin and Ranking Member Shelby: We are writing to 
thank you for your support for the Institute of Museum and Library 
Services (IMLS) Office of Museum Services (OMS) and to urge the 
subcommittee to support $50 million for OMS in the fiscal year 2013 
Labor, Health and Human Services and Education Appropriations bill.
    Museums are economic engines--spending more than $20 billion in 
their communities, employing 400,000 Americans, and spurring local 
tourism. Museums are also fostering the kind of critical thinking 
skills and innovation that are necessary to keep our Nation competitive 
in the global economy.
    The demand for museum services is greater than ever. At a time when 
school resources arc strained and many families cannot afford to travel 
or make ends meet, museums are working overtime to fill the gaps--
providing more than 18 million instructional hours to schoolchildren, 
bringing art and cultural heritage, dynamic exhibitions and living 
specimens into local communities, encouraging national service and 
volunteerism, collecting food and other resources for needy families 
and individuals, and offering free or reduced admission to military 
families. Unfortunately, museums are struggling significantly in these 
difficult economic times. They are being forced to cut back on hours, 
educational programming, community services, and jobs. And according to 
the 2005 Heritage Health Index, at least 190 million artifacts are at 
risk, suffering from light damage and harmful and insecure storage 
conditions.
    The Institute of Museum and Library Services--the primary Federal 
agency that supports our Nation's 17,500 museums--was unanimously 
reauthorized in 2010 by both the House and Senate. The agency is highly 
accountable, and its competitive, peer-reviewed grants serve every 
State. Although the agency has been successful in creating and 
supporting advancements in areas such as technology, lifelong community 
learning and conservation and preservation efforts, only a small 
fraction of the Nation's museums are currently being reached, and many 
highly rated grant applications go unfunded each year. The re-
authorization contained several provisions to further support museums, 
particularly at the State level, but much of the recently authorized 
activities cannot be accomplished without meaningful funding.
    We therefore recommend a critical investment in our Nation's 
museums. Specifically, we are requesting $50 million for IMLS Office of 
Museum Services for fiscal year 2013. Again, we appreciate the 
subcommittee's prior support for OMS and request this investment to 
strengthen and sustain the work of our Nation's museums.
            Sincerely,
                    Kirsten E. Gillibrand; Daniel K. Akaka; Max Baucus; 
                            Jeff Bingaman; Richard Blumenthal; Benjamin 
                            L. Cardin; Richard J. Durbin; Tim Johnson; 
                            Frank R. Lautenberg; Patrick J. Leahy; 
                            Barbara A. Mikulski; Jack Reed; Bernie 
                            Sanders; Charles E. Schumer; Jeanne 
                            Shaheen; Debbie Stabenow; Tom Udall; 
                            Sheldon Whitehouse.
                                                     U.S. Senators.
                                 ______
                                 
   Prepared Statement of the Association of American Medical Colleges
    The Association of American Medical Colleges (AAMC) is a not-for-
profit association representing all 137 accredited United States and 17 
accredited Canadian medical schools; nearly 400 major teaching 
hospitals and health systems; and nearly 90 academic and scientific 
societies. Through these institutions and organizations, the AAMC 
represents 128,000 faculty members, 75,000 medical students, and 
110,000 resident physicians.
    The association appreciates the opportunity to address four Federal 
priorities that play essential roles in assisting medical schools and 
teaching hospitals to fulfill their missions of education, research, 
and patient care: the National Institutes of Health (NIH); the Agency 
for Healthcare Research and Quality (AHRQ); health professions 
education funding through the Health Resources and Services 
Administration (HRSA)'s Bureau of Health Professions; and student aid 
through the Department of Education and HRSA's National Health Service 
Corps. The AAMC appreciates the Subcommittee's longstanding, bipartisan 
efforts to strengthen these programs.
    National Institutes of Health.--The NIH is one of the Federal 
Government's greatest achievements. Congress' long-standing support for 
medical research through the NIH has created a scientific enterprise 
that is the envy of the world and has contributed greatly to improving 
the health and well-being of all Americans--indeed of all humankind. 
The foundation of scientific knowledge built through NIH-funded 
research drives medical innovation that improves health through new and 
better diagnostics, improved prevention strategies, and more effective 
treatments.
    The AAMC supports the recommendation of the Ad Hoc Group for 
Medical Research that the Subcommittee recognize NIH as a critical 
national priority by providing at least $32 billion in funding in its 
fiscal year 2013 Labor-HHS-Education appropriations bill. This funding 
recommendation represents the minimum investment necessary to avoid 
further loss of promising research and at the same time allows the 
NIH's budget to keep pace with biomedical inflation.
    More than 83 percent of NIH research funding is awarded to more 
than 3,000 research institutions in every State; at least half of this 
funding supports life-saving research at America's medical schools and 
teaching hospitals. This successful partnership not only lays the 
foundation for improved health and quality of life, but also 
strengthens the nation's long-term economy.
    The AAMC opposes the administration's proposal to retain at 
Executive Level II of the Federal Executive Pay Scale the limit on 
salaries that can be drawn from NIH extramural awards. The reduction in 
the limit in the fiscal year 2012 appropriation comes at a time when 
medical schools' and teaching hospitals' discretionary funds from 
clinical revenues and other sources are increasingly constrained and 
less available to invest in research. As institutions and departments 
divert funds to compensate for the reduction in the salary limit, they 
will have less funding for critical activities such as bridge funding 
to investigators who may be between grants and seed grants and start-up 
packages for young investigators. The lower salary cap will 
disproportionately affect physician investigators, who will be forced 
to make up salaries from clinical revenues, thus leaving less time for 
research. This may serve as a deterrent to their recruitment into 
research careers. The AAMC urges the Subcommittee to restore the limit 
to Executive Level I, as it was for every year since fiscal year 2001.
    Agency for Healthcare Research and Quality.--Complementing the 
medical research supported by NIH, AHRQ sponsors health services 
research designed to improve the quality of healthcare, decrease 
healthcare costs, and provide access to essential healthcare services 
by translating research into measurable improvements in the healthcare 
system. The AAMC firmly believes in the value of health services 
research as the Nation continues to strive to provide high-quality, 
efficient, and cost-effective healthcare to all of its citizens. The 
AAMC joins the Friends of AHRQ in recommending $400 million in base 
discretionary funding for the agency in fiscal year 2013.
    As the lead Federal agency to improve healthcare quality, AHRQ's 
overall mission is to support research and disseminate information that 
improves the delivery of healthcare by identifying evidence-based 
medical practices and procedures. The Friends of AHRQ funding 
recommendation will allow AHRQ to continue to support the full spectrum 
of research portfolios at the agency, from patient safety to patient-
centered health research and other valuable research initiatives. These 
research findings will better guide and enhance consumer and clinical 
decisionmaking, provide improved healthcare services, and promote 
efficiency in the organization of public and private systems of 
healthcare delivery.
    Health Professions Funding.--HRSA's Title VII health professions 
and Title VIII nursing education programs are the only Federal programs 
designed to improve the supply, distribution, and diversity of the 
Nation's healthcare workforce. Through loans, loan guarantees, and 
scholarships to students, and grants and contracts to academic 
institutions and nonprofit organizations, the Title VII and Title VIII 
programs fill the gaps in the supply of health professionals not met by 
traditional market forces. The AAMC joins the Health Professions and 
Nursing Education Coalition (HPNEC) in recommending $520 million for 
these important workforce programs in fiscal year 2013.
    This funding recommendation is necessary to ensure continuation of 
all Title VII and Title VIII programs at least at fiscal year 2012 base 
discretionary levels, while also supporting promising initiatives such 
as the Pediatric Subspecialty Loan Repayment program and other efforts 
to bolster the workforce. The AAMC strongly objects to the 
administration's proposal to eliminate the Area Health Education 
Centers (AHEC), which in 2010 alone, trained more than 50,000 health 
professions students in community-based settings, and the Health 
Careers Opportunity Program (HCOP), which research shows has helped 
students from disadvantaged backgrounds achieve higher grade point 
averages and matriculate into health professions programs. Continued 
support for these and the full spectrum of Title VII programs is 
essential to prepare our next generation of medical professionals to 
adapt to the evolving healthcare needs of the changing population.
    In addition to funding for Title VII and Title VIII, HRSA's Bureau 
of Health Professions also supports the Children's Hospitals Graduate 
Medical Education program. This program provides critical Federal 
graduate medical education support for children's hospitals to prepare 
the future primary care workforce for our Nation's children and for 
pediatric specialty care. The AAMC has serious concerns about the 
President's plan to drastically reduce support for this essential 
program in fiscal year 2013. At a time when the Nation faces a critical 
doctor shortage, any cuts to funding that supports physician training 
will have serious repercussions for Americans' health. We strongly urge 
restoration to the program's fiscal year 2010 level of $317.5 million 
in fiscal year 2013.
    Student Aid and the National Health Service Corps (NHSC).--The AAMC 
urges the committee to sustain student loan and repayment programs for 
graduate and professional students at the Department of Education. The 
average graduating debt of medical students currently exceeds $160,000, 
and typical repayment can range from $300,000 to $450,000. The Budget 
Control Act (BCA, Public Law 112-25) adds another $10,000 to $20,000 to 
total repayment as a result of eliminating graduate and professional 
in-school subsidies, effective July 1, 2012.
    The AAMC opposes any rescissions from the National Health Service 
Corps (NHSC) Fund created under the Affordable Care Act (ACA, Public 
Law 111-142 and Public Law 111-152). The steady, sustained, and certain 
growth established by this mandatory funding for the NHSC has resulted 
in program expansion and innovative pilots such as the Student to 
Service (S2S) Loan Repayment Program that incentivizes fourth year 
medical students to practice primary care in underserved areas after 
residency training. The AAMC further requests that any expansion of 
NHSC eligible disciplines or specialties be accompanied by a 
commensurate increase in NHSC appropriations so as to prevent a 
reduction of awards to current eligible health professions. 
Furthermore, the AAMC believes that such changes are best tested 
through the NHSC State Loan Repayment Program (SLRP), and that funds 
provided for this program should allow the States to define specialty 
and geographic shortages.
    Once again, the AAMC appreciates the opportunity to submit this 
statement for the record and looks forward to working with the 
Subcommittee as it prepares its fiscal year 2013 spending bill.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists

                                 FISCAL YEAR 2013 APPROPRIATIONS REQUEST SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                        Fiscal year--
                                -------------------------------------------------------------  AANA fiscal year
                                     2011 actual          2012 actual         2013 budget        2013 request
----------------------------------------------------------------------------------------------------------------
HHS/HRSA/BHPr Title VIII         Awards amounted to   Grant allocations   Grant allocations   $4 million for
 Advanced Education Nursing,      approx. $3.5         not specified.      not specified.      nurse anesthesia
 Nurse Anesthetist Education      million.                                                     education
 Reserve.
Total for Advanced Education     $64.046 million for  $63.925 million     $83.925 million     $83.925 million
 Nursing, from Title VIII.        Advanced Education   for Advanced        for Advanced        for Advanced
                                  Nursing.             Education Nursing.  Education Nursing.  Education Nursing
Title VIII HRSA BHPr Nursing     $242,387,000.......  $231,948,000......  $251,099,000......  $251,099,000
 Education Programs.
CDC/Division of Healthcare       ...................  ..................  Maintain level      Maintain level
 Quality and Promotion.                                                    funding.            funding
----------------------------------------------------------------------------------------------------------------

    The American Association of Nurse Anesthetists (AANA) is the 
professional association for the 44,000 Certified Registered Nurse 
Anesthetists (CRNAs) and student nurse anesthetists practicing today. 
CRNAs deliver approximately 32 million anesthetics to patients each 
year in the United States. CRNA services include administering the 
anesthetic, monitoring the patient's vital signs, staying with the 
patient throughout the surgery, and providing acute and chronic pain 
management services. CRNAs provide anesthesia for a wide variety of 
surgical cases and ensure that rural medical facilities have access to 
obstetrical, surgical, and trauma stabilization, and pain management 
capabilities. In addition, CRNAs provide the lion's share of anesthesia 
care required by our U.S. Armed Forces through active duty and the 
reserves. Nurse anesthetists are experienced and highly trained 
anesthesia professionals whose record of patient safety in the field of 
anesthesia was bolstered by the Institute of Medicine report in 2000, 
which found that anesthesia is 50 times safer than in the 1980s. (Kohn 
L, Corrigan J, Donaldson M, ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington, DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with a 2010 Health Affairs article, 
``No Harm Found When Nurse Anesthetists Work without Supervision by 
Physicians'' finding that adverse outcomes were no more prevalent in 
States that opted out of the Medicare physician supervision requirement 
of nurse anesthetists than those States that didn't opt-out (Dulisse B, 
Cromwell J. No Harm Found When Nurse Anesthetists Work Without 
Supervision By Physicians. Health Aff. 2010;29(8):1469-1475).
    In addition, a study published in Nursing Research indicates that 
obstetrical anesthesia, whether provided by CRNAs or anesthesiologists, 
is extremely safe, and there is no difference in safety between 
hospitals that use only CRNAs compared with those that use only 
anesthesiologists. (Simonson, Daniel C et al. Anesthesia Staffing and 
Anesthetic Complications During Cesarean Delivery: A Retrospective 
Analysis. Nursing Research, Vol. 56, No. 1, pp. 9-17. January/February 
2007).
Importance of Title VIII Nurse Anesthesia Education Funding
    The nurse anesthesia profession's chief request of the Subcommittee 
is for $4 million to be reserved for nurse anesthesia education and 
$83.925 million for advanced education nursing from the Title VIII 
program. We feel that this funding request is well justified, as we 
know that more baby boomers retiring will not only reduce our nurse 
workforce from retirements but will increase the demand from an aging 
population requiring care. The Title VIII program is an effective means 
to help address the nurse anesthesia workforce demand.
    Increasing funding for advanced education nursing from $63.93 
million in fiscal year 2012 to $83.925 million is necessary to meet the 
continuing demand for nursing faculty and other advanced education 
nursing services throughout the United States. The program provides for 
competitive grants that help enhance advanced nursing education and 
practice and traineeships for individuals in advanced nursing education 
programs.
    There continues to be high demand for CRNA workforce in clinical 
and educational settings. Between 2000-2010, the number of nurse 
anesthesia educational program graduates doubled, with the Council on 
Certification of Nurse Anesthetists (CCNA) reporting 1,075 graduates in 
2000 and 2,375 graduates in 2010. This growth is leveling off somewhat, 
but is expected to continue. The demand for nurse anesthetists 
continues to rise. The problem is not that our 112 accredited programs 
of nurse anesthesia are failing to attract qualified applicants. It is 
that they have to turn them away by the hundreds. The AANA has been 
working with the 112 accredited nurse anesthesia educational programs 
to increase the number of qualified graduates. To truly meet the nurse 
anesthesia workforce challenge, the capacity and number of CRNA schools 
must continue to grow. With the help of competitively awarded grants 
supported by Title VIII funding, the nurse anesthesia profession is 
making significant progress, expanding both the number of clinical 
practice sites and the number of graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, the 
Health Affairs study by Dulisse and Cromwell indicates the safety of 
CRNA care. Another study published recently in Nursing Economic$ 
indicates that costs of educating and training a CRNA from 
undergraduate education through graduate education is roughly 15 
percent of the cost of educating and training an anesthesiologist 
(Hogan, PF, Seifert RF, Moore CS, Simonson BE, Cost Effectiveness 
Analysis of Anesthesia Providers, Nurs Econ. 2010;28(3): 150-169.) This 
study also found that among anesthesia delivery models, CRNAs acting 
independently provide anesthesia services at the lowest economic cost; 
costs for this model are 25 percent less than the second lowest cost 
model in which an anesthesiologist supervises six CRNAs. Nurse 
anesthesia education represents a significant educational cost-benefit 
for supporting CRNA educational programs with Federal dollars vs. 
supporting other, more costly, models of anesthesia education.
    We believe the Subcommittee should allocate $4 million for nurse 
anesthesia education for several reasons. First, as this testimony has 
documented, the funding is cost-effective and needed. Second, this 
particular funding meets a distinct need not met elsewhere; nurse 
anesthesia for rural and medically underserved America is not affected 
by increases in the budget for the National Health Service Corps and 
community health centers, since those initiatives are for delivering 
primary and not surgical healthcare. Third, this funding meets an 
overall objective to increase access to quality healthcare in medically 
underserved America.
Title VIII Funding for Strengthening the Nursing Workforce
    The AANA joins The Nursing Community and the Americans for Nursing 
Shortage Relief (ANSR) Alliance in support of the Subcommittee 
providing a total of $251.099 million in fiscal year 2013 for nursing 
shortage relief through Title VIII. AANA asks that of the $251.099 
million, $83.925 million go to Advanced Education Nursing and $4 
million go to nurse anesthesia. The AANA appreciates the support for 
nurse education funding in fiscal year 2012 from this Subcommittee and 
from the Congress. In the interest of patients, we ask Congress to 
invest in CRNA and nursing educational funding programs. Quality 
anesthesia care provided by CRNAs saves lives, promotes quality of 
life, and makes fiscal sense. This Federal support for Title VIII and 
advanced education nurses will improve patient access to quality 
services and strengthen the Nation's healthcare delivery system.
Safe Injection Practices
    As a leader in patient safety, the AANA has been playing a vigorous 
role in the development and projects of the Safe Injection Practices 
Coalition, intended to reduce and eventually eliminate the incidence of 
healthcare facility acquired infections. Provider education and 
awareness, detection, tracking and response are all extremely important 
to preventing healthcare-associated infections. In the interest of 
promoting safe injection practice and reducing the incidence of 
healthcare facility acquired infections, we recommend the Committee 
maintain its level of funding for CDC's Division of Healthcare Quality 
and Promotion so they can address outbreaks and promote innovative ways 
to adhere to injection safety and infection control guidelines. We also 
hope the committee will support the CDC's efforts around provider 
education and patient awareness activities, as this issue transcends 
provider type and it's important to educate all types of providers and 
patients alike.
                                 ______
                                 
      Prepared Statement of the American Academy of Ophthalmology
                           executive summary
    The American Academy of Ophthalmology requests fiscal year 2013 NIH 
funding of at least $32 billion, which reflects a $1.38 billion, or 4.5 
percent increase over fiscal year 2012, which consists of biomedical 
inflation of 2.8 percent plus modest growth, and is necessary since:
  --After nearly a decade of budgets below biomedical inflation, NIH's 
        inflation-adjusted funding is close to 20 percent lower than 
        fiscal year 2003.
  --Even before adjusting for inflation, enacted spending bills in 
        recent years have cut the NIH budget. The looming sequestration 
        mandated by the Budget Control Act threatens further cuts, 
        estimated by the Congressional Budget Office (CBO) at 8 percent 
        in fiscal year 2013 alone.
    NIH, our Nation's biomedical research enterprise, is unique in 
that:
  --Its basic and clinical research has helped to understand the basis 
        of disease, thereby resulting in innovations in healthcare to 
        save and improve lives.
  --Its research serves an irreplaceable role that the private sector 
        could not duplicate.
  --It has been shown through several studies to be a major force in 
        the economic health of communities across the Nation. The 
        latest United for Medical Research report estimates that NIH 
        funding supported more than 432,000 jobs in 2011, directly or 
        indirectly, and generated more than $62.1 billion in economic 
        activity.
    The American Academy of Ophthalmology requests National Eye 
Institute (NEI) funding at $730 million, commensurate with the overall 
NIH funding increase, especially since:
  --Fiscal year 2012 NEI funding of $702 million reflects little more 
        than 1 percent of the $68 billion annual cost of eye disease 
        and vision impairment in the United States.
  --NEI has funded breakthrough research ranging from determining the 
        genetic basis of eye disease to developing treatments that save 
        and restore sight.
  --In 2009, Congress spoke volumes in passing S. Res. 209 and H. Res. 
        366, which designated 2010-2020 as The Decade of Vision, in 
        which the majority of 78 million baby boomers will turn 65 
        years of age and face greatest risk of aging eye disease. A 
        cut, level funding, or even an inflationary increase is not 
        sufficient for NEI to meet the vision challenges presented by 
        the ``Silver Tsunami.''
 congress must improve upon the president's fiscal year 2013 request, 
since it cuts nei funding by $8.86 million, or 1.2 percent below fiscal 
year 2012, which results in funding close to the base fiscal year 2009 
                                 level
    Although the President's budget request level-funds NIH, it 
proposes to cut NEI by $8.8 million. Although most of this cut reflects 
the NIH Office of AIDS Research pulling its funding from the NEI's 
Studies of Ocular Implications of AIDS (SOCA) clinical trials, which 
established the efficacy of combination antiviral drug therapy in 
treating cytomegalorvirus (CMV) retinitis, the resulting total NEI 
funding of $693 million reflects a funding level just slightly higher 
than that in fiscal year 2009, prior to the addition of American 
Recovery and Reinvestment Act (ARRA) funding. Although the NEI's 
Congressional Justification (CJ) notes that this funding level will 
still enable NEI to increase Research Project Grant (RPG) funding by $3 
million, it will still cut training programs and Research and 
Development contracts.
    NEI is already facing enormous challenges in this Decade of Vision 
2010-2020. Each day, from 2011 to 2029, 10,000 citizens will turn 65 
and be at greatest risk for eye disease, the fast growing African-
American and Hispanic populations will experience a disproportionately 
higher incidence of eye disease, and the epidemic of obesity will 
significantly increase the incidence of diabetic retinopathy.
    The Academy requests NEI funding at $730 million, reflecting 
biomedical inflation plus modest growth commensurate with that of NIH 
overall, since our Nation's investment in vision health is an 
investment in overall health. NEI's breakthrough research is a cost-
effective investment, since it is leading to treatments and therapies 
that can ultimately delay, save, and prevent health expenditures, 
especially those associated with the Medicare and Medicaid programs. It 
can also increase productivity, help individuals to maintain their 
independence, and generally improve the quality of life, especially 
since vision loss is associated with increased depression and 
accelerated mortality.
    The very health of the vision research community is also at stake 
with a decrease in NEI funding. Not only will funding for new 
investigators be at risk, but also that of seasoned investigators, 
which threatens the continuity of research and the retention of trained 
staff, while making institutions more reliant on bridge and 
philanthropic funding. If an institution needs to let staff go, that 
usually means a highly-trained person is lost to another area of 
research or an institution in another State, or even another country.
   fiscal year 2013 nih funding of at least $32 billion, nei at $730 
million lets nei build upon its past record of basic and translational 
                                research
    In late June 2010, NIH Director Francis Collins, M.D., Ph.D. 
recognized NEI's leadership in translational research at an NEI-
sponsored Translational Research and Vision Conference. Just 2 weeks 
earlier, Dr. Collins testified before the House Energy and Commerce 
Committee, stating that:

    ``Twenty years ago we could do little to prevent or treat AMD. 
Today, because of new treatments and procedures based on NIH/NEI 
research, 1.3 million Americans at risk for severe vision loss from AMD 
over the next 5 years can receive potentially sight-saving therapies.''

    With fiscal year 2013 funding at $730 million, NEI can build upon 
its past research in several different areas, including:
    Genetic Basis of Eye Disease.--As NEI Director Paul Sieving, M.D., 
Ph.D. has stated, of the more than 2,000 genes identified to date, more 
than 500, or one-quarter, are associated with both common and rare eye 
diseases. By further understanding the genetic basis of eye disease, 
NEI can study underlying disease mechanisms and develop appropriate 
diagnostic and therapeutic applications for such blinding eye diseases 
as AMD, glaucoma, and retinitis pigmentosa (RP).
  --NEI's AMD Gene Consortium, which consolidates 15 international 
        Genome Wide Association Studies (GWAS) representing over 8,000 
        patients, has validated 8 previously known gene variants and 
        identified 19 new variants.
  --NEI's Glaucoma Human Genetics Collaboration (NEIGHBOR) has 
        identified the first risk variant in a gene thought to play a 
        role in the development of the optic nerve head, the 
        degeneration of which leads to glaucoma and loss of peripheral 
        vision, and then ultimately blindness.
  --The NEI-led human gene therapy clinical trial for neurodegenerative 
        eye disease Leber Congenital Amaurosis (LCA) has resulted to 
        date in 15 patients being treated and experiencing visual 
        improvement. NEI's pioneering work, as well as subsequent 
        refinement of gene therapy techniques, is enabling further 
        research into ocular gene therapy through the launch of NEI-
        funded clinical trials for AMD, choroideremia, Stargardt 
        disease, and Usher Syndrome. The latter three neurodegenerative 
        diseases occur in early childhood and progressively destroy the 
        retina, leading to vision loss and blindness and resulting in a 
        lifetime of direct medical and indirect support costs. NEI is 
        also funding pre-clinical safety trials for human gene therapy 
        for RP, juvenile retinoschisis (``splitting'' of the retina, 
        resulting in vision loss), and achromatopsia (affecting color 
        perception and visual acuity).
    Diabetic Eye Disease.--NEI's Diabetic Retinopathy Clinical Research 
(DRCR) Network found that laser treatment for diabetic macular edema, 
when combined with anti-angiogenic drug treatment, is more effective 
than laser treatment alone and will revolutionize the standard of care 
in place the past 25 years. With the National Institute for Diabetes 
and Digestive and Kidney Diseases (NIDDK) leading a new NIH strategic 
plan to combat diabetes, NEI's research through its various diabetic 
eye disease networks over the past 40 years--in partnership with 
NIDDK--will be more important than ever. For example, about 1-in-5 
individuals in the NEI-funded Los Angeles Latino Eye Study (LALES) was 
newly diagnosed with diabetes during the study, and of those newly 
diagnosed, 23 percent were found to already have diabetic retinopathy.
   blindness and vision loss is a growing public health problem that 
        individuals fear and would trade years of life to avoid
    The NEI estimates that more than 38 million Americans age 40 and 
older experience blindness, low vision, or an age-related eye disease 
such as AMD, glaucoma, diabetic retinopathy, or cataracts. This is 
expected to grow to more than 50 million Americans by year 2020. 
Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of indirect healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. NEI's fiscal year 2012 
funding of $702 million reflects just a little more than 1 percent of 
this annual costs of eye disease. The continuum of vision loss presents 
a major public health problem, as well as a significant financial 
challenge to the public and private sectors.
    Vision loss also presents a real fear to most citizens:
  --In public opinion polls over the past 40 years, Americans have 
        consistently identified fear of vision loss as second only to 
        fear of cancer.
  --NEI's Survey of Public Knowledge, Attitudes, and Practices Related 
        to Eye Health and Disease reported that 71 percent of 
        respondents indicated that a loss of their eyesight would rate 
        as a ``10'' on a scale of 1 to 10, meaning that it would have 
        the greatest impact on their day-to-day life.
  --In patients with diabetes, going blind or experiencing other vision 
        loss rank among the top four concerns about the disease. These 
        patients are so concerned about vision loss diminishing their 
        quality of life that those with nearly perfect vision (20/20 to 
        20/25) would be willing to trade 15 percent of their remaining 
        life for ``perfect vision,'' while those with moderate 
        impairment (20/30 to 20/100) would be willing to trade 22 
        percent of their remaining life for perfect vision. Patients 
        who are legally blind from diabetes (20/200 to 20/400) would be 
        willing to trade 36 percent of their remaining life to regain 
        perfect vision.
    The Academy urges Congress to fund the NIH and NEI at funding 
levels of at least $32 billion and $730 million, respectively, which 
will ensure the momentum of breakthrough vision research and the 
retention of trained vision researchers.
              about the american academy of ophthalmology
    The American Academy of Ophthalmology is the largest national 
membership association of Eye M.D.s. Eye M.D.s are ophthalmologists, 
medical and osteopathic doctors who provide comprehensive eye care, 
including medical, surgical and optical care. More than 90 percent of 
practicing U.S. Eye M.D.s are Academy members, and the Academy has more 
than 7,000 international members.
                                 ______
                                 
        Prepared Statement of the American Academy of Pediatrics
    The American Academy of Pediatrics (AAP), a nonprofit professional 
organization of 60,000 primary care pediatricians, pediatric medical 
subspecialists, and pediatric surgical specialists dedicated to the 
health, safety, and well-being of infants, children, adolescents, and 
young adults, appreciates the opportunity to submit this statement for 
the record in support of strong Federal investments in children's 
health in fiscal year 2013 and beyond. AAP urges all Members of 
Congress to put children first when considering short and long-term 
Federal spending decisions.
    Every adult was once a child. Many adult diseases have their 
origins in childhood. Early and continued investments in our children's 
health are needed to prevent obesity, heart disease, substance use, and 
other chronic conditions that threaten America's health and fiscal 
solvency. As clinicians we not only diagnose and treat our patients, we 
also promote preventive interventions to improve overall health. 
Likewise, as policymakers, you have an integral role in ensuring the 
health of future generations through adequate and sustained funding of 
vital Federal programs.
    The economic strength and prosperity of our Nation rests largely on 
the health and well-being of our children. Therefore, the Nation's 
pediatricians insist that Congress prioritize funding for programs that 
support the healthy development of children and adolescents.
America's children deserve better
    Babies born in the United States are less likely to survive until 
their first birthday than those in 30 other industrialized nations. 
Twenty-two percent of children in the United States now live in 
poverty. Many children suffer from food insecurity, unstable housing, 
family dysfunction, abuse and neglect. Such adverse childhood 
experiences are linked with ``toxic stress,'' a biologic phenomenon 
associated with profound and irreversible changes in brain anatomy and 
chemistry that have been implicated in the development of health-
threatening behaviors and medical complications later in life including 
drug use, obesity, and altered immune function. Adults affected by such 
adverse childhood experiences are more likely to have experienced 
school failure, gang membership, unemployment, violent crime, and 
incarceration.
    Of the world's richest 21 nations, the United States comes in dead 
last in terms of overall health and safety of its children due to poor 
indicators on child health at birth, infant mortality rates, prevalence 
of low birth weight, child immunization rates for children aged 12 to 
23 months, and deaths from accidents or injuries among people aged 0 to 
19 years. America's current generation of children is at risk of having 
shorter life expectancies than their parents. This is unacceptable. 
America's children deserve better. As a Nation we must rise above 
partisan politics and reclaim the health and well-being of our children 
through strong Federal investments in programs that promote and protect 
the health of all children.
Children's healthcare is not the cost driver of overall healthcare 
        spending
    The United States continues to spend less on our children's health, 
education, and general welfare than most other developed nations in the 
world. Children under age 18 represent 30 percent of the total United 
States population, yet healthcare services for infants, children, and 
young adults are only 12 percent of total annual healthcare spending. 
Children, including those with special healthcare needs, make up more 
than 50 percent of all Medicaid recipients, but account for less than 
25 percent of Medicaid costs.
    By contrast, currently over two-thirds of Medicare expenditures are 
for beneficiaries with five or more chronic conditions, conditions like 
diabetes, arthritis, and hypertension that are largely preventable over 
the course of a lifetime. Strong and continued investments during 
childhood are critical to curbing the onset of chronic conditions that 
are growing healthcare costs. Proposed cuts to prevention and public 
health initiatives, community health programs, and child safety net 
services are counterproductive to efforts to reduce Government spending 
and control the deficit in the long-term.
Children's programs are cost-effective and improve our Nation's health 
        and economy
    Every $1 spent on childhood vaccines in the Section 317 
immunization program saves the healthcare system $16.50 in future 
medical costs. Every $1 spent on preventative services for a pregnant 
woman in the Special Supplemental Nutrition Program for Women, Infants, 
and Children saves Medicaid up to $4.20 by reducing the risk of pre-
term birth and its associated costs. Every $1 spent on high-quality 
home visiting programs saves up to $5.70 as a result of improved 
prenatal health, decreased mental health and criminal justice costs, 
and fewer children suffering from abuse and neglect. Our Nation's 
sickest and most vulnerable children rely on Federal programs like 
these to support their physical and mental health needs. Reducing 
funding for vital child health programs during a time when many 
families are still struggling financially will disproportionately hurt 
children.
    The Administration for Children and Families, Centers for Disease 
Control and Prevention, Health Resources and Services Administration, 
and other agencies within the Department of Health and Human Services 
and the Department of Education provide essential services, research, 
and surveillance that help our Nation's children grow into healthy and 
productive citizens. Federal and State partnerships like the Title V 
Maternal and Child Health block grants and Section 317 immunization 
program support families by providing newborn screenings, 
immunizations, preventive health services and medical care that 
children need to be healthy.
    Devoting adequate resources to Federal health programs helps ensure 
children have safe and healthy food at home and school, homes and 
communities free of environmental toxins, and disaster preparedness and 
response systems that address their unique health needs. Federal funds 
support critical programs that address pressing public health 
challenges including: efforts to prevent infant mortality and birth 
defects; healthy child development; antimicrobial resistance and 
infectious diseases; emergency medical services for children; mental 
health and substance abuse prevention; tobacco prevention and 
cessation; unintentional injury and violence prevention; child 
maltreatment prevention; childhood obesity; environmental and chemical 
exposures; poison control; teen pregnancy prevention and family 
planning; health promotion in schools; and medical research and 
innovation.
    Meeting our children's health needs also requires a robust 
pediatric workforce. Children are not just little adults. 
Pediatricians, including medical and surgical specialists, are trained 
to diagnose and treat the unique healthcare needs of children and 
adolescents. Unlike the adult population, our Nation currently faces a 
shortage of pediatric subspecialists, resulting in many children with 
serious acute and chronic illnesses being forced to travel long 
distances--or wait several months--to see a needed pediatric 
subspecialist. Federal support for pediatric workforce programs--Public 
Health Service Act Title VII health professions programs, Children's 
Hospital Graduate Medical Education Program and the Pediatric 
Subspecialty Loan Repayment Program--is crucial to building the 
necessary supply of pediatricians to ensure all children, regardless of 
where they live or their insurance status, have access to timely and 
appropriate healthcare.
Healthier children, healthier future
    On behalf of the 75 million American children and their families 
that we serve and treat, the Nation's pediatricians expect Congress to 
respond to mounting evidence that child health has life-long impacts 
and put children first during appropriations negotiations. Investing in 
children is not only the right thing to do for the long-term physical, 
mental, and emotional health of the population, but is imperative for 
the Nation's long-term fiscal health as well. At a time when States are 
facing unprecedented challenges with dwindling budgets yet rising 
demand for health services, Federal investments in the public health 
infrastructure could not be more important. Federal support for 
children's health programs, such as early brain and child development, 
parenting and health education, and preventive health services, will 
yield high returns for the American economy.
    We fully recognize the Nation's fiscal challenges and respect that 
difficult budgetary decisions must be made; however, we do not support 
funding decisions made at the expense of the health and welfare of 
children and families. Rather, focus on the long-term needs of children 
and adolescents will ensure that the United States can compete in the 
modern, highly educated global marketplace. Strong and sustained 
financial investments in children's healthcare, research, and 
prevention programs will help keep our children healthy and pay 
extraordinary dividends for years to come.
    The American Academy of Pediatrics looks forward to working with 
Members of Congress to prioritize the health of our Nation's children 
in fiscal year 2013 and beyond. If we may be of further assistance 
please contact the AAP Department of Federal Affairs at 202-347-8600 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99f8e9fcebfcf7fafceff0faf1d9f8f8e9b7f6ebfeb7">[email&#160;protected]</a> Thank you for your consideration.
                                 ______
                                 
                  Prepared Statement of AcademyHealth
    AcademyHealth is pleased to offer this testimony regarding the role 
of health services research in improving our Nation's health and the 
performance of the healthcare and public health systems. 
AcademyHealth's mission is to support research that leads to 
accessible, high value, high-quality healthcare, reduces disparities, 
and improves health. We represent the interests of more than 4,000 
scientists and policy experts and 160 organizations that produce and 
use research to improve health and healthcare. We advocate for the 
funding to support health services research; a robust environment to 
produce this research; and its more widespread dissemination and use.
    Health services research studies how to make the healthcare and 
public health systems work better and deliver improved outcomes for 
more people, at greater value. These scientific findings improve health 
systems by informing patient and healthcare provider choices; enhancing 
the quality, efficiency, and value of the care patients receive; 
improving patients' access to care, and supporting efficient community 
wide systems. Health services research both uncovers critical 
challenges confronting our Nation's healthcare system, and seeks ways 
to address them.
    Finding new ways to get the most out of every healthcare dollar is 
critical to our Nation's long-term fiscal health. Like any corporation 
making sure it is developing and providing high-quality products, the 
Federal Government has a responsibility to get the most value out of 
every taxpayer dollar it spends on Federal health programs, including 
Medicare, Medicaid, Children's Health Insurance Program, and veterans' 
and service members' health.
    Funding for research on the quality, value, and organization of the 
health system will deliver real savings for the Federal Government, 
employers, insurers, and consumers. Research into the merits of 
different policy options for delivery system transformation, patient-
centered quality improvement, community health, and disease prevention 
offers policymakers in both the public and private sectors the 
information they need to improve quality and outcomes, identify waste, 
eliminate fraud, increase efficiency and value, and promote personal 
choice.
    Despite the positive impact health services research has had on the 
U.S. healthcare system, and the potential for future improvements in 
quality and value, the United States spends less than one cent of every 
healthcare dollar on this research; research that can help Americans 
spend their healthcare dollars more wisely and make more informed 
healthcare choices.
    AcademyHealth greatly appreciates the subcommittee's historic 
efforts to increase the Federal investment in health services research. 
We respectfully ask that the subcommittee further strengthen the 
capacity of health services research to address the pressing challenges 
America faces in providing access to high-quality, efficient care. The 
following list summarizes AcademyHealth's fiscal year 2013 funding 
recommendations for agencies that support health services research and 
health data under the subcommittee's jurisdiction.
               agency for healthcare research and quality
    AHRQ funds health services research and healthcare improvement 
programs that are transforming people's health in communities in every 
State around the Nation. The science funded by AHRQ provides consumers 
and their healthcare professionals with valuable evidence to make the 
right healthcare decisions for themselves and their families. AHRQ's 
research also provides the basis for protocols that prevent medical 
errors and reduce hospital-acquired infections, and improve patient 
confidence, experiences, and outcomes in hospitals, clinics, and 
physician offices.
    AcademyHealth joins the Friends of AHRQ--an alliance of more than 
250 health professional, research, consumer, and employer organizations 
that support the agency--in recommending an overall funding level of 
$400 million in base discretionary funding for AHRQ in fiscal year 
2013.
    In light of the need for increased funding of health services 
research, AcademyHealth is concerned about the President's use of the 
Patient-Centered Outcomes Research (PCOR) Trust Fund transfer to 
supplant AHRQ's discretionary budget. The PCOR Trust Fund transfer was 
intended to supplement AHRQ's base discretionary budget. In the 
President's fiscal year 2013 budget request, however, $62 million from 
the PCOR Fund transfer is used to supplant AHRQ's existing programs. 
This de facto 10 percent funding cut further compromises AHRQ's ability 
to achieve its statutory mission: generating the broad evidence base on 
healthcare quality, costs, and access necessary to build a high-
quality, high-value healthcare system.
               centers for disease control and prevention
    The National Center for Health Statistics (NCHS) is the Nation's 
principal health statistics agency. Housed within the Centers for 
Disease Control and Prevention (CDC), it provides critical data on all 
aspects of our healthcare system through data cooperatives and surveys 
that serve as a gold standard for data collection around the world. 
AcademyHealth appreciates the subcommittee's leadership in securing 
steady and sustained funding increases for NCHS in recent years. Such 
efforts have allowed NCHS to reinstate some data collection and quality 
control efforts, continue the collection of vital statistics, and 
enhanced the agency's ability to modernize surveys to reflect changes 
in demography, geography, and health delivery.
    We join the Friends of NCHS--a coalition of more than 250 health 
professional, research, consumer, industry, and employer organizations 
that support the agency--in endorsing the President's fiscal year 2013 
request of $162 million in base discretionary funding, to build on your 
previous investments and put the agency on track to become a fully 
functioning, 21st century, national statistical agency.
    The Affordable Care Act recognizes the need for linking the medical 
care and public health delivery systems by authorizing a new CDC 
research program to identify effective strategies for organizing, 
financing, and delivering public health services in real-world 
community settings. AcademyHealth joins the CDC Coalition in seeking 
$7.8 billion for CDC in fiscal year 2013, and seeks new funding for 
public health services and systems research.
                     national institutes of health
    NIH spends approximately $1 billion on health services research 
annually--roughly 3 percent of its entire budget--making it the largest 
Federal sponsor of health services research. We join the Ad Hoc Group 
for Medical Research in seeking at least $32 billion for NIH in fiscal 
year 2013. This funding recommendation represents the minimum 
investment necessary to avoid further loss of promising research and at 
the same time allows the NIH's budget to keep pace with biomedical 
inflation. AcademyHealth believes that NIH should increase the 
proportion of its overall funding that goes to health services research 
to ensure that discoveries from clinical trials are effectively 
translated into health services. We also encourage NIH to foster 
greater coordination of its health services research investment across 
its institutes, and to sustain investment in its Clinical and 
Translational Science Awards (CTSA) as the agency transitions to its 
new National Center for Advancing Translational Sciences (NCATS). The 
CTSA program enables innovative research teams to speed discovery and 
advance science aimed at improving our Nation's health. The program 
encourages collaboration in solving complex health and research 
challenges and finding ways to turn their discoveries into practical 
solutions for patients.
               centers for medicare and medicaid services
    Steady funding decreases for the Office of Research, Development 
and Information have hindered CMS's ability to meet its statutory 
requirements and conduct new research to strengthen public insurance 
programs, which together cover nearly 100 million Americans and 
comprise 45 percent of America's total health expenditures. As these 
Federal entitlement programs continue to pose significant budget 
challenges for both Federal and State governments, it is critical that 
we adequately fund research to evaluate the programs' efficiency and 
effectiveness and seek ways to manage their projected spending growth. 
AcademyHealth supports CMS's discretionary research and development 
budget to improve the effectiveness and efficiency of these programs.
    In conclusion, the accomplishments of health services research 
would not be possible without the leadership and support of this 
subcommittee. We urge the subcommittee to accept our fiscal year 2013 
funding recommendations for the Federal agencies funding health 
services research and health data.
                                 ______
                                 
      Prepared Statement of the Adult Congenital Heart Association
Introduction
    The Adult Congenital Heart Association (ACHA)--a national not-for-
profit organization dedicated to improving the quality of life and 
extending the lives of adults with congenital heart disease (CHD)--is 
grateful for the opportunity to submit written testimony regarding 
fiscal year 2013 funding for congenital heart research and 
surveillance. We respectfully request $2 million for CHD surveillance 
at the Centers for Disease Control and Prevention (CDC) as well as 
additional CHD research at the National Heart, Lung and Blood Institute 
(NHLBI).
Adult Congenital Heart Disease
    Congenital heart defects are the most common group of birth defects 
occurring in nearly 1 percent of all live births, or 40,000 babies a 
year. These malformations of the heart and structures connected to the 
heart either obstruct blood flow or cause it to flow in an abnormal 
pattern. This abnormal heart function can be fatal if left untreated. 
In fact, congenital heart defects remain the leading cause of birth 
defect related infant deaths.
    Many infants born with congenital heart problems require 
intervention in order to survive. Intervention often includes one or 
multiple open-heart surgeries; however, surgery is rarely a long-term 
cure. Children born with heart defects have a significantly decreased 
life expectancy. One in 10 won't survive to adulthood. Among those with 
the most complex heart defects, only half will make it to age 18.
    The success of childhood cardiac intervention has created a new 
chronic disease--congenital heart disease (CHD). Thanks to the increase 
in survival, of the over 2 million people alive today with CHD, more 
than half are adults, increasing at an estimated rate of 5 percent each 
year. Few congenital heart survivors are aware of their high risk of 
additional problems as they age, facing high rates of neuro-cognitive 
deficits, heart failure, rhythm disorders, stroke, and sudden cardiac 
death, and many survivors require multiple operations throughout their 
lifetime. Fifty percent of all congenital heart survivors have complex 
problems for which lifelong care from congenital heart specialists is 
recommended, yet less than 10 percent of adult congenital heart 
patients receive recommended cardiac care. Delays in care can result in 
premature death and disability. In adults, this often occurs during 
prime wage-earning years.
    The public health burden of CHD has yet to be fully assessed. 
However, the limited available research suggests that medical costs 
associated with congenital heart defects are substantial. $1.2 billion 
is the estimated lifetime cost for U.S. children born in a single year 
with one of four major heart defects. It is estimated that in 2009, the 
hospital cost for roughly 27,000 hospital stays for children treated 
primarily for CHD in the United States was nearly $1.5 billion. In the 
same year, hospital costs for roughly 12,000 hospital stays of adults 
treated primarily for CHD was at least $280 million. Investing in CHD 
surveillance and research will improve outcomes for CHD survivors, 
decreasing disability and improving productivity.
ACHA
    ACHA serves and supports the more than 1 million adults with CHD, 
their families and the medical community--working with them to address 
the unmet needs of the long-term survivors of congenital heart defects 
through education, outreach, advocacy, and promotion of ACHD research.
    In order to promote life-saving research and accessible, 
appropriate and quality interventions which, in turn, will reduce the 
public health burden of this chronic disease, ACHA advocates for 
adequate funding of CDC initiatives relating to CHD, and encourages 
funding within the National Institutes of Health (NIH) for CHD 
research. ACHA continues to work with Federal and State policymakers to 
advance policies that will improve and prolong the lives of those 
living with CHD.
    ACHA is also a founding member of the Congenital Heart Public 
Health Consortium (CHPHC). The CHPHC is a group of organizations 
uniting resources and efforts to prevent the occurrence of CHD and 
enhance and prolong the lives of those with CHD through targeted public 
health interventions by enhancing and supporting the work of the member 
organizations. Representatives of Federal agencies serve in an advisory 
capacity. In addition to ACHA, the Alliance for Adult Research in 
Congenital Cardiology, American Academy of Pediatrics, American College 
of Cardiology, American Heart Association, March of Dimes Foundation, 
National Birth Defects Prevention Network, and the National Congenital 
Heart Coalition are all members of the CHPHC.
Federal Support for Congenital Heart Disease Research and Surveillance
    Despite the prevalence and seriousness of the disease, CHD data 
collection and research are limited and almost non-existent for the 
adult CHD population. In 2004, the NHLBI convened a working group on 
CHD, which recommended developing a research network to conduct 
clinical research and establishing a national database of patients.
    In March 2010, the first CHD legislation passed as part of Patient 
Protection and Affordable Care Act (ACA).\1\ The ACA calls for the 
creation of The National Congenital Heart Disease Surveillance System, 
which will collect and analyze nationally representative, population-
based epidemiological and longitudinal data on infants, children, and 
adults with CHD to improve understanding of CHD incidence, prevalence, 
and disease burden and assess the public health impact of CHD. It also 
authorized the NHLBI to conduct or support research on CHD diagnosis, 
treatment, prevention and long-term outcomes to address the needs of 
affected infants, children, teens, adults, and elderly individuals. 
These provisions included in the ACA were originally in the Congenital 
Heart Futures Act (H.R. 1570/S. 621, 111th Congress), which garnered 
bipartisan support in both the House and Senate and was championed by 
Senators Richard Durbin (D-IL) and Thad Cochran (R-MS), Representative 
Gus Bilirakis (R-FL) and former Representative Zack Space (D-OH).
---------------------------------------------------------------------------
    \1\ Patient Protection and Affordable Care Act, Sec. 10411(b).
---------------------------------------------------------------------------
    Recently, the National Center on Birth Defects and Developmental 
Disabilities included preventing congenital heart defects and other 
major birth defects in its recently published 2011-2015 Strategic Plan, 
specifically recognizing the need for understanding the contribution of 
birth defects to longer term outcomes (i.e., beyond infancy) and the 
economic impact of specific birth defects.
The National Congenital Heart Disease Surveillance System at CDC
    As survival improves, so does the need for population-based 
surveillance across the lifespan. Funding to support the development of 
the National Congenital Heart Disease Surveillance System through both 
a pilot adult surveillance program, and the enhancement of the existing 
birth defects surveillance system, will be instrumental in driving 
research, improving interventional outcomes, improving loss to care, 
and assessing healthcare burden. In turn, the National Congenital Heart 
Disease Surveillance System can serve as a model for all chronic 
disease states.
    The current surveillance system is grossly inadequate. There are 
only 14 States currently funded by the CDC to gather data on birth 
defects, presenting limitations in generalizing the information across 
the entire population. Thus, there are significant inconsistencies in 
the methods of collection and reporting across the various State 
systems, which limits the value of the data. Given the absence of 
population-based data across the lifespan, the data we do have excludes 
anyone diagnosed after the age of one, as well as those who are lost to 
care. It is this population, those lost to care, that is of greatest 
concern, and most difficult to identify. Evidence indicates that those 
with CHD are at significant risk for heart failure, rhythm disorders, 
stroke, and sudden cardiac death as they age, requiring ongoing 
specialized medical care. For those who are lost to care, for reasons 
such as limited access to affordable or appropriate care or poor 
education about the need for ongoing care, they often return to the 
system with preventable advanced illness and/or disability. Population-
based surveillance across the lifespan is the only method by which 
these patients can be identified, and, as a result, appropriate 
intervention can be planned. ACHA is currently working with the CDC to 
address these concerns through the National Congenital Heart Disease 
Surveillance System.
    The fiscal year 2012 appropriations bill provided $2 million to the 
CDC for surveillance of congenital heart defects. In February 2013, the 
CDC announced a funding opportunity using these authorized funds. The 
CDC states that the ``purpose of this program is to provide support 
through CDC cooperative agreements for non-research activities to 
develop robust, population-based estimates of the prevalence of CHDs 
focusing on adolescents and adults, and better understand the survival, 
healthcare utilization, and longer term outcomes of adolescents and 
adults affected by CHDs. The program is a pilot and designed as a 
learning collaborative effort between CDC and grantees with potentially 
unique and innovative approaches to monitoring CHDs among adolescents 
and adults.''
    ACHA requests that Congress provide the CDC $2 million in fiscal 
year 2013 to continue to support data collection to better understand 
CHD prevalence and assess the public health impact of CHD. This level 
of funding will support a pilot adult surveillance system and allow for 
the enhancement of the existing birth defects surveillance system.
Funding of Research Related to Congenital Heart Disease at NIH
    Our Nation continues to benefit from the single largest funding 
source for CHD research, the NIH. Yet, as a leading chronic disease, 
congenital heart research is significantly underfunded.
    The NHLBI supports basic and clinical research to establish a 
scientific basis for the prevention, detection, and treatment of CHD. 
The Bench to Bassinet Program is a major effort launched by the NHLBI 
to hasten the pace at which heart research on genetics and basic 
science can be developed into new treatments across the lifespan for 
people with CHD. The overall goal is to provide the structure to turn 
knowledge into clinical practice, and use clinical practice to inform 
basic research.
    ACHA urges Congress to support the NHLBI in efforts to continue its 
work with patient advocacy organizations, other NIH Institutes and 
Centers, and the CDC to expand collaborative research initiatives and 
other related activities targeted to the diverse lifelong needs of 
individuals living with congenital heart disease.
Summary
    Thank you for the opportunity to highlight this important disease 
and the important work done by the CDC and NIH. We know that you face 
many difficult funding decisions for fiscal year 2013 and hope that you 
consider addressing the lifelong needs of those with CHD. By making an 
investment in the research and surveillance of CHD, the return will be 
seen through reduced healthcare costs, decreased disability and 
improved productivity in a population quickly approaching 3 million.
                                 ______
                                 
   Prepared Statement of the American Congress of Obstetricians and 
                             Gynecologists
    The American Congress of Obstetricians and Gynecologists, 
representing 57,000 physicians and partners in women's healthcare, is 
pleased to offer this statement to the Senate Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education. We thank Chairman Harkin, and the entire subcommittee for 
the opportunity to provide comments on some of the most important 
programs to women's health. Today, the United States lags behind other 
nations in healthy births, yet remains high in birth costs. ACOG's 
Making Obstetrics and Maternity Safer (MOMS) initiative seeks to 
improve maternal and infant outcomes through investment in all aspects 
of the cycle of research, including comprehensive data collection and 
surveillance, biomedical research, and translation of research into 
evidence-based practice and programs delivered to women and babies, and 
we urge you to make this a top priority in fiscal year 2013.
data collection and surveillance at the centers for disease control and 
                            prevention (cdc)
    In order to conduct robust research, uniform, accurate and 
comprehensive data and surveillance are critical. The National Center 
for Health Statistics is the Nation's principal health statistics 
agency and collects State data from records like birth certificates 
that give us raw, vital statistics. The birth certificate is the key to 
gathering vital information about both mother and baby during pregnancy 
and labor and delivery. The 2003 United States standard birth 
certificate collects a wealth of knowledge in this area, yet 25 percent 
of States are still not using it. States without these resources are 
likely underreporting maternal and infant deaths and complications from 
childbirth and causes of these deaths remains unknown. Use must be 
expanded to all 50 States, ensuring that uniform, accurate data is 
collected nationwide. ACOG supports the President's fiscal year 2013 
budget request of $16.45 million to modernize the National Vitals 
Statistics System, which would help States update their birth and death 
records systems.
    The Pregnancy Risk Assessment Monitoring System (PRAMS) at CDC 
extends beyond vital statistics and surveys new mothers on their 
experiences and attitudes during pregnancy, with questions on a range 
of topics, including what their insurance covered to whether they had 
stressful experiences during pregnancy, when they initiated prenatal 
care, and what kinds of questions their doctor covered during prenatal 
care visits. By identifying trends and patterns in maternal health, 
researchers better understand indicators of preterm birth. This data 
allows CDC and State health departments to identify behaviors and 
environmental and health conditions that may lead to preterm births. 
Only 40 States use the PRAMS surveillance system today.
    National data on maternal mortality is inconsistent and incomplete 
due to the lack of standardized reporting definitions and mechanisms. 
To capture the accurate number of maternal deaths and plan effective 
interventions, maternal mortality should be addressed through multiple, 
complementary strategies. ACOG recommends that Health and Human 
Services (HHS) fund States in implementing maternal mortality reviews 
that would allow them to conduct regular reviews of all deaths within 
the State to identify causes, factors in the communities, and 
strategies to address the issues. Combined with adoption of the 
recommended birth and death certificates in all States and territories, 
CDC could then collect uniform data to calculate an accurate national 
maternal mortality rate. Results of maternal mortality reviews will 
inform research needed to identify evidence based interventions 
addressing causes and factors of maternal mortality and morbidity.
    ACOG urges Congress to provide $10 million to Health and Human 
Services to assist States in setting up maternal mortality reviews. 
ACOG also urges Congress to provide $50,000 to NIH to hold a workshop 
to identify definitions for severe maternal morbidity and $100,000 to 
HHS to develop a research plan to identify and monitor severe maternal 
morbidity.
     biomedical research at the national institutes of health (nih)
    Biomedical research is critically important to understanding the 
causes of prematurity and developing effective prevention and treatment 
methods. Prematurity rates have increased almost 35 percent since 1981, 
and cost the Nation $26 billion annually, $51,600 for every infant born 
prematurely. Direct healthcare costs to employers for a premature baby 
average $41,610, 15 times higher than the $2,830 for a healthy, full-
term delivery. A breakthrough study conducted by the Eunice Kennedy 
Shriver National Institute for Child Health and Human Development 
(NICHD) last year showed a significant reduction in preterm delivery 
among women with short cervixes who are administered vaginal 
progesterone. The results were especially positive in reducing births 
pre-28 weeks. The results of this study are expected to save the 
healthcare system $500 million a year. Additional research can help 
drive down our prematurity rates further, saving dollars and lives. 
Sustaining the investments at NIH is vital to achieving this goal, and 
therefore ACOG supports a minimum of $32 billion for NIH in fiscal year 
2013.
    Adequate levels of research require a robust research workforce. 
The average investigator is in his/her forties before receiving their 
first NIH grant, a huge disincentive for students considering bio-
medical research as a career. Complicating matters, there is a gap 
between the number of women's reproductive health researchers being 
trained and the need for such research. The NICHD-coordinated Women's 
Reproductive Health Research (WRHR) Career Development program seeks to 
increase the number of ob-gyns conducting scientific research in 
women's health in order to address this gap. To date 170 WRHR Scholars 
have received faculty positions, and 7 new and competing WRHR sites 
were added in 2010.
      public health programs at the health resources and services 
     administration (hrsa) and the centers for disease control and 
                            prevention (cdc)
    Projects at HRSA and CDC are integral to translating research 
findings into evidence-based practice changes in communities. Where NIH 
conducts research to identify causes of preterm birth, CDC and HRSA 
fund programs that provide resources to mothers to help prevent preterm 
birth, and help identify factors contributing to preterm birth and poor 
maternal outcomes. The Maternal Child Health Block Grant at HRSA is the 
only Federal program that exclusively focuses on improving the health 
of mothers and children. State and territorial health agencies and 
their partners use MCH Block Grant funds to reduce infant mortality, 
deliver services to children and youth with special healthcare needs, 
support comprehensive prenatal and postnatal care, screen newborns for 
genetic and hereditary health conditions, deliver childhood 
immunizations, and prevent childhood injuries.
    These early healthcare services help keep women and children 
healthy, eliminating the need for later costly care. Every $1 spent on 
preconception care for women with diabetes can reduce health costs by 
up to $5.19 by preventing costly complications in both mothers and 
babies. Every $1 spent on smoking cessation counseling for pregnant 
women saves $3 in neonatal intensive care costs. The MCH block grant 
has seen an almost $30 million decrease in funding in the past 5 years 
alone. ACOG urges you not to cut the MCH block grant any further and 
for fiscal year 2013 we request $645 million for the block grant to 
maintain its current level of services.
    Family planning is essential to helping ensure healthy pregnancies 
and reducing the risk of preterm birth. The Title X Family Planning 
Program provides services to more than 5 million low-income men and 
women at more than 4,500 service delivery sites. Every $1 spent on 
family planning results in a $4 savings to Medicaid. Services provided 
at Title X clinics accounted for $3.4 billion in healthcare savings in 
2008 alone. ACOG supports $327 million for Title X in fiscal year 2013 
to sustain its level of services.
    The Healthy Start Program through HRSA promotes community-based 
programs that help reduce infant mortality and racial disparities in 
perinatal outcomes. These programs are encouraged to use the Fetal and 
Infant Mortality Review (FIMR) which brings together ob-gyn experts and 
local health departments to help specifically address local issues 
contributing to infant mortality. Today, more than 220 local programs 
in 42 States find FIMR a powerful tool to help reduce infant mortality, 
including understanding issues related to preterm delivery. For over 20 
years, ACOG have partnered with the Maternal and Child Health Bureau to 
sponsor the designated resource center for FIMR Programs, the National 
FIMR Program. ACOG supports $.5 million for HRSA to increase the number 
of Healthy Start programs that use FIMR.
    The Safe Motherhood Initiative at CDC works with State health 
departments to collect information on pregnancy-related deaths, track 
preterm births, and improve maternal outcomes. The Initiative also 
promotes preconception care, a key to reducing the risk of preterm 
birth. For fiscal year 2013, we recommend a sustained funding level of 
at least $44 million for the Safe Motherhood Program, and the inclusion 
of a $2 million preterm birth sub-line to ensure continued support for 
preterm birth research, as authorized by the PREEMIE Act.
    Regional quality improvement initiatives encourage use of evidence-
based quality improvement projects in hospitals and medical practices 
to reduce the rate of preterm birth. Under the Ohio Perinatal Quality 
Collaborative, started in 2007 with funding from CDC, 21 OB teams in 25 
hospitals have decreased scheduled deliveries between 36 and 39 weeks 
gestation, in accordance with ACOG guidelines, significantly reducing 
pre-term births.
    Finally, ACOG is proud to partner with the Department of Health and 
Human Services and the March of Dimes on Strong Start, a multi-faceted 
perinatal health campaign to reduce preterm births. Strong Start 
contains two strategies. The first is a public-private partnership to 
reduce elective deliveries prior to 39 weeks through a public awareness 
campaign and quality improvement efforts. The second is a funding 
opportunity to test innovative prenatal care approaches to reduce 
preterm births for women covered by Medicaid and at risk for preterm 
birth. Strong Start has the potential to make a huge difference in 
reducing the rate of pre-term birth. We urge the subcommittee to 
continue investing in programs like Strong Start.
    Again, we would like to thank the subcommittee for its 
consideration of funding for programs to improve women's health, and we 
urge you to consider our MOMS Initiative in fiscal year 2013.
                                 ______
                                 
        Prepared Statement of the American College of Physicians
    The American College of Physicians (ACP) is pleased to submit the 
following statement for the record on its priorities, as funded under 
the U.S. Department of Health and Human Services, for fiscal year 2013. 
ACP is the largest medical specialty organization and the second-
largest physician group in the United States. ACP members include 
132,000 internal medicine specialists (internists), related 
subspecialists, and medical students.
    As the Subcommittee begins deliberations on appropriations for 
fiscal year 2013, ACP is urging funding for the following proven 
programs to receive appropriations from the Subcommittee:
  --Title VII, Section 747, Primary Care Training and Enhancement, at 
        no less than $71 million;
  --National Health Service Corps, $535,087,442 in discretionary 
        funding, in addition to the $300 million in enhanced funding 
        through the Community Health Centers Fund;
  --National Health Care Workforce Commission, $3 million;
  --Agency for Healthcare Research and Quality, $400 million in base 
        discretionary funding; and
  --Centers for Medicare and Medicaid Services, Operations and 
        Management of Exchanges, $574.5 million.
    The United States is facing a growing shortage of physicians in key 
specialties, most notably in general internal medicine and family 
medicine--the specialties that provide primary care to most adult and 
adolescent patients. With enactment of the Affordable Care Act (ACA), 
we expect the demand for primary care services to increase with the 
addition of 32 million Americans receiving access to health insurance, 
once the law is fully implemented. A recent study projects that there 
will be a shortage of up to 44,000 primary care physicians for adults, 
even before the increased demand for healthcare services that will 
result from near universal coverage is taken into account (Colwill JM, 
Cultice JM, Kruse RL. Will generalist physician supply meet demands of 
an increasing and aging population? Health Aff (Millwood). 2008 May-
June; 27(3):w232-41. Epub 2008 April 29. Accessed at http://
content.healthaffairs.org/content/27/3/w232.full on January 14, 2011.). 
Without critical funding for vital workforce programs, this physician 
shortage will only grow worse. A strong primary care infrastructure is 
an essential part of any high-functioning healthcare system, with over 
100 studies showing primary care is associated with better outcomes and 
lower costs of care (http://www.acponline.org/advocacy/where_we_stand/
policy/primary_shortage.pdf).
    The health professions education programs, authorized under Title 
VII of the Public Health Service Act and administered through the 
Health Resources and Services Administration (HRSA), support the 
training and education of healthcare providers to enhance the supply, 
diversity, and distribution of the healthcare workforce, filling the 
gaps in the supply of health professionals not met by traditional 
market forces, and are critical to help institutions and programs 
respond to the current and emerging challenges of ensuring all 
Americans have access to appropriate and timely health services. Within 
the Title VII program, while we applaud the President's request for $51 
million for the Section 747, Primary Care Training and Enhancement, we 
urge the Subcommittee to fund the program at $71 million, in order to 
maintain and expand the pipeline of primary care production and 
training. The Section 747 program is the only source of Federal 
training dollars available for general internal medicine, general 
pediatrics, and family medicine. For example, general internists, who 
have long been at the frontline of patient care, have benefitted from 
Title VII training models that promoted interdisciplinary training that 
helped prepare them to work with other health professionals, such as 
physician assistants, patient educators and psychologists. Without a 
substantial increase of funding, HRSA will not be able to carry out a 
competitive grant cycle for the second year in a row for physician 
training; the Nation needs new initiatives relating to increased 
training in inter-professional care, the patient-centered medical home, 
and other new competencies required in our developing health system.
    The College urges $535,087,442 in appropriations for the National 
Health Service Corps (NHSC), the amount authorized for fiscal year 2013 
under the ACA; this is in addition to the $300 million in enhanced 
funding the Health and Human Services Secretary has been given the 
authority to provide to the NHSC through the Community Health Care 
Fund. Since enactment of the ACA, the NHSC has awarded nearly $900 
million in scholarships and loan repayment to healthcare professionals 
to help expand the country's primary care workforce and meet the 
healthcare needs of communities across the country and there are nearly 
three times the number of NHSC clinicians working in communities across 
America than there were 3 years ago, increasing Americans' access to 
healthcare. With field strength of more than 10,000 clinicians, NHSC 
provides healthcare services to about 10.5 million patients across the 
country; the increase in funds must be sustained to help address the 
health professionals' workforce shortage and growing maldistribution. 
The programs under NHSC have proven to make an impact in meeting the 
healthcare needs of the underserved, and with more appropriations, they 
can do more.
    We urge the Subcommittee to fully fund the National Health Care 
Workforce Commission, as authorized by the ACA, at $3 million. The 
Commission is authorized to review current and projected healthcare 
workforce supply and demand and make recommendations to Congress and 
the administration regarding national healthcare workforce priories, 
goals, and polices. Members of the Commission have been appointed but 
have not been able to do any work, due to a lack of funding. The 
College believes the Nation needs sound research methodologies embedded 
in its workforce policy to determine the Nation's current and future 
needs for the appropriate number of physicians by specialty and 
geographic areas; the work of the Commission is imperative to ensure 
Congress is creating the best policies for our Nation's needs.
    The Agency for Healthcare Research and Quality (AHRQ) is the 
leading public health service agency focused on healthcare quality. 
AHRQ's research provides the evidence-based information needed by 
consumers, providers, health plans, purchasers, and policymakers to 
make informed healthcare decisions. The College is dedicated to 
ensuring AHRQ's vital role in improving the quality of our Nation's 
health and recommends a base discretionary budget of $400 million. This 
amount will allow AHRQ to continue its critical healthcare safety, 
quality, and efficiency initiatives; strengthen the infrastructure of 
the research field; reignite innovation and discovery; develop the next 
generation of scientific pioneers; and ultimately, help transform 
health and healthcare.
    Finally, ACP is supportive of the Centers for Medicare and Medicaid 
Services, Operations and Management of Exchanges request for $574.5 
million. Such funding will allow the Federal Government to administer 
an insurance exchange, as authorized by the ACA, if a State declines to 
establish one by early 2013 that meets Federal requirements. If the 
Subcommittees decides to deny the requested funds, it may make it much 
more difficult for the Federal Government to organize a federally 
facilitated exchange in those States, raising questions about where and 
how their residents would get coverage. It is ACP's belief that all 
legal Americans--regardless of income level, health status, or 
geographic location--must have access to affordable health insurance.
    In conclusion, the College is keenly aware of the fiscal pressures 
facing the Subcommittee today, but strongly believes the United States 
must invest in these programs in order to achieve a high performance 
healthcare system and build capacity in our primary care workforce and 
public health system. The College greatly appreciates the support of 
the Subcommittee on these issues and looks forward to working with 
Congress as you begin to work on the fiscal year 2013 appropriations 
process.
                                 ______
                                 
 Prepared Statement of the Association for Clinical Research Training, 
 the Association for Patient-Oriented Research, the Clinical Research 
     Forum, and the Society for Clinical and Translational Science
    The Association for Clinical Research Training (ACRT), the 
Association for Patient-Oriented Research (APOR), the Clinical Research 
Forum (CR Forum), and the Society for Clinical and Translational 
Science (SCTS) represent a coalition of professional organizations 
dedicated to improving the health of the public through increased 
clinical and translational research and clinical research training. 
United by the shared priorities of the clinical and translational 
research community, ACRT, APOR, CR Forum, and SCTS advocate for 
increased clinical and translational research at the National 
Institutes of Health (NIH), the Agency for Healthcare Research and 
Quality (AHRQ), and other Federal science agencies.
    On behalf of ACRT, APOR, CR Forum, and SCTS, I would like to thank 
the Subcommittee for its continued support of clinical and 
translational research and clinical research training. The translation 
of basic science to clinical treatment is an integral component of 
modern research and a necessity to developing the treatments and cures 
of tomorrow. We applaud the recent establishment of the National Center 
for Advancing Translational Sciences (NCATS) and its focus on the 
entire spectrum of translational research from the bench to 
implementation in the community. Housing translational research 
activities with a focus on translational science methods at a single 
Center at NIH will allow these programs to achieve new levels of 
success.
    Today, I would like to address a number of issues that cut to the 
heart of the clinical and translational research community's 
priorities, including the Clinical and Translational Science Awards 
program (CTSA) at NIH, career development for clinical researchers, and 
support for comparative effectiveness research at the Federal level.
    As our Nation's investment in biomedical research expands to 
provide more accurate and efficient treatments for patients, we must 
continue to focus on the translation of basic science to clinical 
research. The CTSA program at NIH is an invaluable resource in this 
area, and full funding is critical if we are truly to take advantage of 
the CTSA infrastructure.
Full Funding and Support for the CTSA Program at NIH
    With its establishment in 2006, the CTSA program at NIH began to 
address the need for increased focus on translational research, or 
research that bridges the gap between basic scientific discoveries and 
the bedside. In 2011, the CTSA Consortium reached its expected size of 
60 medical research institutions located throughout the Nation, linking 
them together to energize the discipline of clinical and translational 
science. The CTSAs have an explicit goal of improving healthcare in the 
United States by transforming the biomedical research enterprise to 
become more effectively translational. Specifically, the stated 
strategic goals of the CTSA program are to: (1) build national clinical 
and translational research capability, (2) provide training and career 
development of clinical and translational scientists, (3) enhance 
consortium-wide collaborations, (4) improve the health of our 
communities and the Nation through community engagement and comparative 
effectiveness research, and (5) advance T1 (bench-to-bedside) 
translational research, which transfers knowledge from basic research 
to clinical research.
    Although the promise of the CTSA program is recognized both 
nationally and internationally, it has suffered from a lack of proper 
funding along with NIH and, in the past, the National Center for 
Research Resources (NCRR). In 2006, 16 initial CTSAs were funded, 
followed by an additional 12 in 2007, 14 in 2008, 4 in 2009, 9 in 2010, 
and 5 in 2011. Level-funding at NIH curtailed the growth of the CTSAs, 
preventing recipient institutions from fully implementing their 
programs and causing them to drastically alter their budgets after 
research had already begun. Without enough funding, the CTSAs risk 
jeopardizing not only new research but also the research begun by 
first, second, and third generation CTSAs. Professional judgments have 
determined full funding to be at a level of $700 million.
    We appreciate the difficult economic situation our country is 
currently experiencing, and greatly appreciate the commitment to 
healthcare Congress has demonstrated in recent years. The CTSAs are 
currently funding 60 academic research institutions nationwide at a 
level of $488 million. The translation of laboratory research to 
clinical treatment directly benefits patients suffering from complex 
diseases across all fields of medicine, and impacts all of NIH's 
Institutes and Centers (ICs). The CTSA program has created improved 
translational research capacity and processes from which all NIH's ICs 
stand to benefit.
    In order to fully realize the promise of the CTSAs in transforming 
biomedical research to improve its impact on health, it is imperative 
that the CTSA program receive funding at the level of $700 million in 
fiscal year 2013. Without full funding, CTSAs will be expected to 
operate with fewer resources, curtailing their transformative promise. 
It is also critical that the emphasis on the full spectrum of 
translational research be maintained during the program's transition to 
NCATS.
    It is our recommendation that the Subcommittee support full funding 
of the CTSA program by providing $700 million in fiscal year 2013, and 
that support for the full spectrum of translational research be 
protected during the transition of the CTSA program to NCATS.
Support for Research Training and Career Development Programs through 
        the K Awards
    The future of our Nation's biomedical research enterprise relies 
heavily on the maintenance and continued recruitment of promising young 
investigators. Clinical investigators have long been referred to as an 
``endangered species,'' as financial barriers push medical students 
away from research. This trend must be reversed if we are to continue 
our pursuits of better treatments and cures for patients.
    The T and K series Awards at NIH and AHRQ provide much-needed 
support for the career development of young investigators. As clinical 
and translational medicine takes on increasing importance, there is a 
great need to grow these programs, not to reduce them. Career 
development grants are crucial to the recruitment of promising young 
investigators, as well as to the continuing education of established 
investigators. Reduced commitment to the K-12, K-23, K-24, and K-30 
awards would have a devastating impact on our pool of highly trained 
clinical researchers. Even with the full implementation of the CTSA 
program, it is critical for institutions without CTSAs to retain their 
K-30 Clinical Research Curriculum Awards, as the K-30s remain a highly 
cost-effective method of ensuring quality clinical research training. 
ACRT, APOR, CRF, and SCTS strongly support the ongoing commitment to 
clinical research training through K Awards at NIH and AHRQ.
    We urge the Subcommittee to continue its support for clinical 
research training and career development through the K Awards at NIH 
and AHRQ, in order to promote and encourage investigators working to 
transform biomedical science.
Continuing Support for CER
    Comparative effectiveness research (CER) is the evaluation of the 
impact of different options that are available for treating a given 
medical condition for a particular set of patients. This broad 
definition can include medications, behavioral therapies, and medical 
devices, among other interventions, and is an important facet of 
evidence-based medicine. Both AHRQ and NIH have long histories of 
supporting CER, and the standards for research instituted by these 
agencies serve as models for best practices worldwide. Not only are 
these agencies experienced in CER, they are universally recognized as 
impartial and honest brokers of information. Moreover, their approach 
is supplemental to, not duplicative of, that of the new Patient-
Centered Outcomes Research Institute, and its continued support is 
critical.
    We are pleased that Congress recognizes the importance of these 
activities and believe that the peer review processes and 
infrastructure in place at NIH and AHRQ ensure the highest quality CER. 
We believe that collaboration between the Patient-Centered Outcomes 
Research Institute, NIH, and AHRQ will drive all Federal CER efforts. 
In addition to support for the CTSA program at NIH, we encourage the 
Subcommittee to provide continued support for Patient-Centered Health 
Research at AHRQ.
    Thank you for the opportunity to present the views and 
recommendations of the clinical research training community.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association
    Thank you for the opportunity to submit testimony on behalf of the 
American Diabetes Association (Association). As the Chair of the Board 
of the Association, I am proud to be a representative of the nearly 105 
million American adults and children living with diabetes or 
prediabetes, including my 17-year-old daughter, Leah. My daughter was 
diagnosed with type 1 diabetes on March 16, 2001, at the age of 6, and 
is living a very full life today due in part to the Federal investment 
in diabetes research programs.
    My family and many others have been affected by diabetes. Nearly 26 
million Americans have diabetes, and 79 million have prediabetes, a 
condition that puts them at high risk for developing diabetes. Every 17 
seconds, someone in this country is diagnosed with diabetes. Every day, 
230 people with diabetes undergo an amputation, 120 people enter end-
stage kidney disease programs and 55 people go blind from diabetes. If 
we do not take action, 1 of every 3 children today faces a life with 
diabetes. The diabetes epidemic should not be ignored by anyone, 
including Congress and the administration.
    As the Nation's leading nonprofit health organization providing 
diabetes research, information and advocacy, the Association knows how 
critical it is for our country to increase Federal funding for diabetes 
research and prevention. The Association acknowledges the challenging 
fiscal climate and supports fiscal responsibility, but our country 
cannot afford the consequences of failing to adequately fund diabetes 
research and prevention programs, a cost paid in painful and expensive 
complications. We cannot afford to turn our backs on the promising 
research that provides tools to prevent diabetes, better manage the 
disease, prevent complications, and bring us closer to a cure.
    The rising epidemic of diabetes in America is daunting, but not 
insurmountable. The Association is pressing forward by supporting 
research and expanding education and awareness efforts. But we cannot 
do it alone. The millions of people living with, or at risk for, 
diabetes are looking to Congress now more than ever to step up its 
response to the diabetes epidemic.
    Accordingly, the Association urges the Subcommittee on Labor, 
Health and Human Services, Education and Related Agencies to invest in 
research and prevention efforts reflective of the magnitude of the 
burden diabetes has on our country to change the future of diabetes in 
America. The Association respectfully requests programs at the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) at the 
National Institutes of Health (NIH) and the Division of Diabetes 
Translation (DDT) at the Centers for Disease Control and Prevention 
(CDC) be top priorities in fiscal year 2013.
                               background
    The CDC has warned diabetes is a disabling, deadly, and growing 
epidemic. Last year, the CDC identified the diabetes belt, which 
stretches across 644 counties in 15 States, including my State of South 
Carolina. According to the CDC, 1 in 3 adults in our country will have 
diabetes in 2050 if present trends continue. Among minority 
populations, this ratio will be nearly 1 in 2.
    Diabetes is a chronic disease that impairs the body's ability to 
use food for energy. The hormone insulin, which is made in the 
pancreas, is needed for the body to change food into energy. In people 
with diabetes, either the pancreas does not create insulin, which is 
type 1 diabetes, or the body does not create enough insulin and/or 
cells are resistant to insulin, which is type 2 diabetes. If left 
untreated, diabetes results in too much glucose in the blood stream. 
Blood glucose levels that are too high or too low (as a result of 
medication to treat diabetes) can be life threatening in the short 
term. In the long term, diabetes is the leading cause of kidney 
failure, new cases of adult-onset blindness and non-traumatic lower 
limb amputations as well as a leading cause of heart disease and 
stroke. Additionally, an estimated 18 percent of pregnancies are 
affected by gestational diabetes, a form of glucose intolerance 
diagnosed during pregnancy that places both mother and baby at risk. In 
those with prediabetes, blood glucose levels are higher than normal and 
taking action to reduce their risk of developing diabetes is essential.
    In addition to the physical toll, diabetes also tugs at our purse 
strings. A study by the Lewin Group found when factoring in the costs 
of undiagnosed diabetes, prediabetes, and gestational diabetes, the 
total cost of diabetes and related conditions in the United States in 
2007 was $218 billion. That same year, medical expenditures due to 
diabetes totaled $116 billion, including $27 billion for diabetes care, 
$58 billion for chronic diabetes-related complications, and $31 billion 
for excess general medical costs. Indirect costs resulting from 
increased absenteeism, reduced productivity, disease-related 
unemployment disability and loss of productive capacity due to early 
mortality totaled $58 billion. Approximately $1 out of every $5 for 
healthcare is spent caring for someone with diagnosed diabetes, while 
$1 in $10 for healthcare is directly attributed to diabetes. Further, 
one-third of Medicare expenses are associated with treating diabetes 
and its complications.
    A greater Federal investment in diabetes research at the NIDDK at 
the NIH, and prevention, surveillance, control, and research work 
currently being done by the DDT at the CDC is crucial for finding a 
cure and improving the lives of those living with, or at risk for, 
diabetes. Additionally, the National Diabetes Prevention Program is 
working to dramatically decrease the number of new diabetes cases in 
high-risk individuals.
    Accordingly, for fiscal year 2013, the Association requests funding 
for the following programs:
  --$2.216 billion for the NIDDK. This level of funding will act to 
        offset years of decreased or flat funding combined with bio-
        medical inflation that has lead to cutbacks in promising 
        research. It will also demonstrate Congress' commitment to 
        science and research in the face of this deadly epidemic.
  --$86.3 million for the DDT's critical prevention, surveillance and 
        control programs. Even as proposals to consolidate the CDC's 
        chronic disease programs, including the DDT circulate, expanded 
        investment in the DDT will produce much larger savings in 
        reduced acute, chronic, and emergency care spending.
  --$80 million for the implementation of the National Diabetes 
        Prevention Program.
 the national institute of diabetes and digestive and kidney diseases 
                           (niddk) at the nih
    NIDDK is leading the way in supporting research across the country 
that moves us closer to a cure and better treatments for diabetes. 
Researchers are working on a variety of projects in each of your States 
representing hope for the millions of individuals with diabetes. The 
Association is extremely worried that without increased funding, the 
NIDDK will slow or halt promising research that would enable 
individuals with the disease to live healthier, more productive lives. 
It is our understanding the percentage of research grants NIDDK was 
able to fund decreased last year and is expected to decrease again this 
year without additional funding.
    Thanks to research at the NIDDK, people with diabetes now manage 
their disease with a variety of insulin formulations and regimens far 
superior to those used in decades past. For example, the continuous 
glucose monitor and insulin pump my daughter uses allow her to better 
manage her blood glucose levels--and better pave the way to a healthier 
future.
    Examples of NIDDK-funded breakthroughs include: new drug therapies 
for type 2 diabetes; the advent of modern treatment regimens that have 
reduced the risk of costly complications like heart disease, stroke, 
amputation, blindness and kidney disease; ongoing development of the 
artificial pancreas, a closed looped system combining continuous 
glucose monitoring with insulin delivery; and research showing modest 
weight loss through dietary changes and increased physical activity can 
reduce the risk of type 2 diabetes by 58 percent, the foundation for 
the National Diabetes Prevention Program at the DDT.
    Increased fiscal year 2013 funding would allow the NIDDK to support 
additional research in order to build upon past successes, improve 
prevention and treatment, and close in on a cure. For example, 
additional funding will support a new comparative effectiveness 
clinical trial testing different medications for type 2 diabetes. 
Additionally, increased funding will continue to support researchers 
studying how insulin-producing beta cells develop and function, with an 
ultimate goal of creating therapies for replacing damaged or destroyed 
beta cells in people with diabetes. Funding will also support a 
clinical trial testing vitamin D in the prevention of type 2 diabetes, 
and support ongoing studies on the environmental triggers of disease, 
which could identify an infectious cause of type 1 diabetes and lead to 
a vaccine.
         the division of diabetes translation (ddt) at the cdc
    The President's fiscal year 2013 budget proposal includes a 
proposal to consolidate certain programs at CDC, including the DDT. 
While we think coordination across chronic disease programs at CDC is 
an important endeavor, Congress must ensure the needs of people with, 
and at risk for, diabetes are adequately addressed. For such a 
coordinated effort to be successful, significant resources must be 
provided. In addition, there must be a clear design focusing precisely 
on chronic diseases with similar risk factors and populations, allowing 
for the delivery of primary, secondary and tertiary prevention, and 
ensuring performance measures result in improved prevention of chronic 
disease and complications.
    Given that the DDT's funding has not kept pace with the magnitude 
of the growing diabetes epidemic, the Federal investment in DDT 
programs should be substantially increased to a minimum of $86.3 
million in fiscal year 2013 regardless of the organization of chronic 
disease programs at CDC and even as the evaluation of the 
administration's proposal continues. As the dialogue moves forward 
about how best to address chronic disease prevention, the DDT should be 
the centerpiece in the Federal Government's efforts in this regard and 
its State and national expertise should be maintained.
    Preserving the DDT's expertise is vital. The DDT works to eliminate 
the preventable burden of diabetes through proven educational programs, 
best practice guidelines, and applied research. It performs vital work 
in both primary prevention of diabetes and in preventing its 
complications. Funding for the DDT must focus on maintaining State-
based Diabetes Prevention and Control Programs, supporting the National 
Diabetes Education Program, defining the diabetes burden through the 
use of public health surveillance, and translating research findings 
into clinical and public health practice.
    The DDT's work in this regard is organized into several key 
components, which are also part of the part of the President's fiscal 
year 2013 budget proposal. As outlined in the Obama administration's 
budget these include: (1) the implementation of strategies that support 
and reinforce healthful behaviors and expand access to healthy choices; 
(2) health systems interventions to improve the delivery and use of 
clinical and other preventive services; and (3) community-clinical 
linkage enhancement to better support chronic disease self-management.
    For example, the DDT's Diabetes Prevention and Control Programs 
(DPCPs), located in all 50 States, the District of Columbia, and all 
U.S. territories work to prevent diabetes, lower blood glucose and 
cholesterol levels, and reduce diabetes-related emergency room visits 
and hospitalizations. These activities are designed to improve 
education and awareness of diabetes by engaging health providers, 
health systems and community-based organizations to ensure that these 
outcomes are achieved. Additionally, DDT funding also supports vital 
and groundbreaking translational research like the Search for Diabetes 
in Youth study, a collaboration between the DDT and the NIDDK designed 
to determine the impact of type 2 diabetes in youth in order to improve 
prevention efforts aimed at young people. This work is illustrative of 
efforts at DDT to transform clinical research into cutting-edge tools 
to track the diabetes epidemic and prevent new cases and help 
individuals with diabetes to avoid complications.
    With additional funding, the DDT will be able to expand the efforts 
of DPCPs to improve primary, secondary and tertiary prevention efforts 
at the State and local levels. Given the dramatic decreases in funding 
for State and local health departments, supporting the work of the 
DPCPs is more critical than ever to ensure access to diabetes care and 
services. Additionally, increased funding for the DDT is needed to 
allow it to build upon its work in reducing health disparities through 
vital programs such as the Native Diabetes Wellness Program, which 
furthers the development of effective health promotion activities and 
messages tailored to American Indian/Native Alaskan communities. These 
resources will also enable the DDT to expand its translational research 
studies, leading to improved public health interventions.
                the national diabetes prevention program
    The CDC's National Diabetes Prevention Program (NDPP) supports the 
national network of community-based sites where trained staff will 
provide those at high risk for diabetes with cost-effective, group-
based lifestyle intervention programs.
    The NDPP is a proven and inexpensive means of combating a growing 
epidemic. Research has shown the NDPP can reduce the risk of type 2 
diabetes by 58 percent for individuals with prediabetes. Furthermore, 
the NDPP costs approximately $300 per participant, as compared to an 
average of $6,649 in annual healthcare costs for the treatment of a 
person with diabetes. The Urban Institute has estimated a nationwide 
expansion of this type of diabetes prevention program will save a total 
of $190 billion over 10 years. The Association urges Congress to 
provide $80 million for the NDPP in fiscal year 2013, funding needed to 
bring this program to scale nationwide using rigorous standards 
established by DDT.
                               conclusion
    Not a day passes that I don't imagine a world free of diabetes and 
all its burdens on my daughter. This future is possible and the 
Association is counting on Congress to significantly expand its 
investment of programs to prevent, treat, and cure diabetes. As you 
consider the fiscal year 2013 funding levels for the NIDDK, the DDT, 
and the NDPP, we urge you to remember diabetes is an epidemic growing 
at an astonishing rate and will overwhelm the healthcare system with 
tragic consequences unless our elected officials take action. Thank you 
for the opportunity to submit this testimony. The Association looks 
forward to working with you to stop diabetes.
                                 ______
                                 
    Prepared Statement of the American Dental Education Association
    The American Dental Education Association (ADEA), on behalf of all 
61 dental schools in the United States, 700 dental residency training 
programs, nearly 600 allied dental programs, as well as more than 
12,000 faculty who educate and train the nearly 50,000 students and 
residents attending these institutions, submits this statement for the 
record and for your consideration as you begin to prioritize fiscal 
year 2013 appropriation requests.
    ADEA urges you to preserve the funding and fundamental structure of 
Federal programs that provide access to oral healthcare for underserved 
populations, funding for cutting-edge oral research, access to careers 
in dentistry and oral health services and funding for programs that 
help promote diversity in the healthcare professions. Oral health 
services are provided through our campuses and offsite dental clinics 
where students and faculty provide patient care as dental homes to the 
uninsured and underserved populations. However, in order to continue to 
provide these services, there must be adequate funding.
    We are asking the committee to protect and maintain adequate 
funding for the dental programs in Title VII of the Public Health 
Service Act; the National Institutes of Health (NIH) and the National 
Institute of Dental and Craniofacial Research (NIDCR); the Dental 
Health Improvement Act; Part F of the Ryan White HIV/AIDS Treatment and 
Modernization Act: the Dental Reimbursement Program and the Community-
Based Dental Partnerships Program; and State-Based Oral Health Programs 
at the Centers for Disease Control and Prevention. These programs 
enhance and sustain State oral health departments, fund public health 
programs proven to prevent oral disease, fund research to eradicate 
dental disease, and fund programs to develop an adequate workforce of 
dentists with advanced training to serve all segments of the population 
including children, the elderly, and those suffering from chronic and 
life-threatening diseases. We elaborate below the merits of each 
program.
$32 million for Primary Oral Healthcare Workforce Improvements (HHS)
    ADEA, recognizing the constrained fiscal situation the Congress and 
the Nation face, does not request an increase in the President's 
request in these funds, but rather respectfully suggests a reallocation 
of the funds requested. Specifically, we ask for $8 million for General 
Dental Residencies; $8 million for Pediatric Dental Residencies; $5.7 
million for dental accounts under Title VII; and, $10.7 million for 
DHIA.
    The dental programs in Title VII, Section 748 of the Public Health 
Service Act that provide training in general, pediatric, and public 
health dentistry and dental hygiene are critical. Support for these 
programs will help to ensure there will be an adequate oral healthcare 
workforce to care for the American public. The funding supports pre-
doctoral oral health education and postdoctoral pediatric, general, and 
public health dentistry training. The investment that Title VII makes 
not only helps to educate dentists and dental hygienists, but also 
expands access to care for underserved populations.
    Additionally, Section 748 addresses the shortage of professors in 
dental schools with the dental faculty loan repayment program and 
faculty development courses for those who teach pediatric, general, or 
public health dentistry or dental hygiene. There are currently over 300 
open faculty positions in dental schools. These two programs provide 
schools with assistance in recruiting and retaining faculty. ADEA is 
increasingly concerned that the oral health research community is not 
growing and that the pipeline of new researchers is inadequate to 
address future needs.
    The President's fiscal year 2013 request proposes $228 million for 
Title VII health professions, a $40 million (15 percent) cut below the 
current fiscal year. The budget request proposes no new funds for the 
Title VII Health Careers Opportunity Program (HCOP) and Area Health 
Education Centers (AHEC) program. HCOP helps schools provide 
opportunities to students from disadvantaged backgrounds to develop the 
skills needed to enter the health professions. While the AHEC program 
is focused on exposing medical students and health professions students 
to primary care and practice in rural and underserved communities. It 
is anticipated that the AHEC program grantees will continue their 
efforts to provide interprofessional/interdisciplinary training to 
health professions students with an emphasis on primary care
    ADEA is pleased that last year's committee report included language 
supporting opportunities for advanced training for dentists and dental 
educational institutional faculty loan repayment programs because of 
its recognition of the shortage of pediatric and public health 
dentists. Those who complete a general dentistry residency are eligible 
to receive additional training which allows them to take on complex 
cases of patients with autoimmune or systemic diseases. The Committee 
expressed its concern, shared by the academic dentistry community, 
about the growing aging population and agrees with the Committee's 
suggestion that HRSA create a grant program to provide access to 
unpaid, volunteer dental services for medically necessary but otherwise 
uncovered and unaffordable dental treatment that would cover the 
salaries and other employment costs of professionals who verify the 
medical and financial needs, including the absence of other insurance 
coverage, of individual patients potentially eligible for such 
services.
    During the current fiscal year HRSA anticipates providing nearly 
$10.5 million in continuation funding for advanced training of dentists 
through the Postdoctoral and Dental Faculty Loan Repayment Programs. It 
will also provide $10 million in new grants under the Dental Health 
Improvement Act, State Oral Health Workforce grant program, and the 
Faculty Development in General, Pediatric and Public Health Dentistry 
and Dental Hygiene Program.
    These are important achievements. But momentum and focus cannot be 
lost by not funding, in fiscal year 2013, programs that assist in 
identifying and encouraging the future generations of dental 
professionals who will serve the most in need of access to adequate 
dental care. There is no higher priority in the allocation of Federal 
resources to training programs than to directly increase the number of 
primary care dental providers for these patients.
$32 billion for the National Institutes of Health, including $450 
        million for the National Institute of Dental and Craniofacial 
        Research (NIDCR)
    Discoveries stemming from dental research have reduced the burden 
of oral diseases, led to better oral health for millions of Americans, 
and uncovered important associations between oral and systemic health. 
Dental researchers are poised to make breakthroughs that can result in 
dramatic progress in medicine and health, such as repairing natural 
form and function to faces destroyed by disease, accident, or war 
injuries; diagnosing systemic disease from saliva instead of blood 
samples; and deciphering the complex interactions and causes of oral 
health disparities involving social, economic, cultural, environmental, 
racial, ethnic, and biological factors. Dental research is the 
underpinning of the profession of dentistry. With grants from NIDCR, 
dental researchers in academic dental institutions have built a base of 
scientific and clinical knowledge that has been used to enhance the 
quality of the Nation's oral health and overall health.
    Also, dental scientists are putting science to work for the benefit 
of the healthcare system through translational research, comparative 
effectiveness research, health information technology, health research 
economics, and further research on health disparities. NIDCR continues 
to make disparities a priority with continued funding for the Centers 
for Research to Reduce Disparities in Oral Health at Boston University; 
the University of California at San Francisco; the University of 
Colorado at Denver; the University of Florida; and the University of 
Washington.
$19 million for Part F of the Ryan White HIV/AIDS Treatment and 
        Modernization Act: Dental Reimbursement Program (DRP) and the 
        Community-Based Dental Partnerships Program
    Patients with compromised immune systems are more prone to oral 
infections like periodontal disease and tooth decay. By providing 
reimbursement to dental schools and schools of dental hygiene, the 
Dental Reimbursement Program (DRP) provides access to quality dental 
care for people living with HIV/AIDS while simultaneously providing 
educational and training opportunities to dental residents, dental 
students, and dental hygiene students who deliver the care. DRP is a 
cost-effective Federal/institutional partnership that provides partial 
reimbursement to academic dental institutions for costs incurred in 
providing dental care to people living with HIV/AIDS.
$107 million for Title VII Diversity and Student Aid Programs
    $24 million for Centers of Excellence (COE).
    $60 million for Scholarships for Disadvantaged Students (SDS).
    $22 million for Health Careers Opportunity Program (HCOP).
    $1.2 million for Faculty Loan Repayment Program (FLRP).
    Title VII Diversity and Student Aid programs play a critical role 
in helping to diversify the health profession's student body and 
thereby the healthcare workforce. For the last several years, these 
programs have not enjoyed adequate funding to sustain the progress that 
is necessary to meet the challenges of an increasingly diverse U.S. 
population. ADEA is most concerned that the administration did not 
request any funds for HCOP. HCOP helps schools provide opportunities to 
students from disadvantaged backgrounds to develop the skills needed to 
enter the health professions. These programs are significant because 
students from disadvantaged backgrounds are more likely to return to 
those areas to serve the communities.
$25 million for the Division of Oral Health at the Centers for Disease 
        Control and Prevention (CDC)
    The CDC Division of Oral Health expands the coverage of effective 
prevention programs. The program increases the basic capacity of State 
oral health programs to accurately assess the needs of the State, 
organize and evaluate prevention programs, develop coalitions, address 
oral health in State health plans, and effectively allocate resources 
to the programs. This strong public health response is needed to meet 
the challenges of oral disease affecting children, and vulnerable 
populations.
    We are disappointed that the President's request represents only a 
marginal increase over fiscal year 2012 appropriated levels, well below 
an amount needed to keep up with inflation. The appropriated level for 
fiscal year 2012 and the request for fiscal year 2013 are below the 
inadequate level of fiscal year 2011 appropriations. We look forward to 
sharing information with the committee in the coming weeks about the 
impact that the current path of funding will have on the overall health 
and preparedness of the Nation's States and communities.
    Thank you for your consideration of this request. ADEA looks 
forward to working with you to ensure the continuation of congressional 
support for these critical programs. Please feel free to use us as a 
resource. We can be reached by contacting Yvonne Knight, J.D., Senior 
Vice President for Advocacy and Governmental Relations, ADEA Policy 
Center, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42292c2b252a363b02232627236c2d30256c">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the American Dental Hygienists' Association
    On behalf of the American Dental Hygienists' Association (ADHA), 
thank you for the opportunity to submit testimony regarding 
appropriations for fiscal year 2013. ADHA appreciates the 
subcommittee's past support of programs that seek to improve the oral 
health of Americans and to bolster the oral health workforce. Oral 
health is a part of total health and authorized oral healthcare 
programs require appropriations support in order to increase the 
accessibility of oral health services, particularly for the 
underserved.
    ADHA is the largest national organization representing the 
professional interests of more than 150,000 licensed dental hygienists 
across the country. In order to become licensed as a dental hygienist, 
an individual must graduate from an accredited dental hygiene education 
program and successfully complete a national written and a State or 
regional clinical examination. Dental hygienists are primary care 
providers of oral health services and are licensed in each of the 50 
States. Hygienists are committed to improving the Nation's oral health, 
a fundamental part of overall health and general well-being.
    In the past decade, the link between oral health and total health 
has become more apparent and the significant disparities in access to 
oral healthcare services have been well documented. At the State and 
local level, policymakers and consumer advocates have been pioneering 
innovations to extend the reach of the oral healthcare delivery system 
and improve oral health infrastructure. At this time, when 130,000 
million Americans struggle to obtain the oral healthcare required to 
remain healthy, Congress has a great opportunity to support oral health 
prevention, infrastructure and workforce efforts that will make care 
more accessible and cost-effective.
    ADHA urges full funding of all authorized oral health programs and 
describes some of the key oral health programs below:
    Title VII Program Grants to Expand and Educate the Dental 
Workforce--Fund at a level of $32 million in fiscal year 2013.--A 
number of existing grant programs offered under Title VII support 
health professions education programs, students, and faculty. ADHA is 
pleased dental hygienists are recognized as primary care providers of 
oral health services and are included as eligible to apply for several 
grants offered under the ``General, Pediatric, and Public Health 
Dentistry'' grants.
    With millions more Americans eligible for dental coverage in coming 
years, it is critical that the oral health workforce is bolstered. 
Dental and dental hygiene education programs currently struggle with 
significant shortages in faculty and there is a dearth of providers 
pursuing careers in public health dentistry and pediatric dentistry. 
Securing appropriations to expand the Title VII grant offerings to 
additional dental hygienists and dentists will provide much needed 
support to programs, faculty, and students in the future.
    ADHA recommends funding at a level of $32 million for fiscal year 
2013.
    Alternative Dental Health Care Provider Demonstration Project 
Grants--Fund at a level of $10 million in fiscal year 2013.--Congress 
recognized the need to improve the oral healthcare delivery system when 
it authorized the Alternative Dental Health Care Provider Demonstration 
Grants, Section 340G-1 of the Public Health Service Act. The 
Alternative Dental Health Care Providers Demonstration Grants program 
is a Federal grant program that recognizes the need for innovations to 
be made in oral healthcare delivery to bring quality care to the 
underserved by pilot testing new models. This is an opportunity for 
dental education programs, health centers, public-private partnerships 
and other eligible entities to apply for funding that will allow for 
innovation, within the confines of State laws, to further develop the 
dental workforce and extend the reach of the oral healthcare system. 
This grant program, administered by the Health Resources and Services 
Administration (HRSA), would fund workforce innovations, including 
building on the existing dental hygiene workforce, utilizing medical 
providers, and pilot testing new providers, like dental therapists and 
advanced practice dental hygienists, who practice in accordance with 
State practice acts.
    A number of dental hygiene-based models are listed as eligible for 
the grants, including advanced practice dental hygienists, public 
health hygienists and independent practice dental hygienists. 
Currently, 35 States have policies that allow dental hygienists to work 
in community-based settings (like public health clinics, schools, and 
nursing homes) to provide preventive oral health services without the 
presence or direct supervision of a dentist. Among the 35 direct access 
States are the Senators' home States of Iowa, Wisconsin, Washington 
State, Rhode Island, Arkansas, Ohio, Texas, South Carolina and Kansas. 
Direct access to dental hygiene services is especially critical for 
vulnerable populations like children, the elderly, and the 
geographically isolated who often struggle to overcome transportation, 
lack of insurance coverage, and other barriers to oral healthcare.
    Dental workforce expansion is one of many areas that need to be 
addressed as we move forward with efforts to increase access to oral 
healthcare services to those who are currently not able to obtain the 
care needed to maintain a healthy mouth and body. The authorizing 
statute makes clear that pilots must ``increase access to dental care 
services in rural and underserved communities'' and comply with State 
licensing requirements. Such new providers are already authorized in 
Minnesota and are under consideration in Connecticut, Vermont, Kansas, 
Maine, New Hampshire, Washington State and several other States.
    The fiscal year 2012 Labor, Health and Human Services funding bill 
included language designed to block funding for this important 
demonstration program. We seek your leadership in removing this 
unjustified prohibition on funding for the Alternative Dental Health 
Care Providers Demonstration Grants. This is a grant program to explore 
new ways of delivering oral healthcare in rural and underserved areas 
in compliance with State law. There is unanimity in the call for new 
types of dental providers and there simply is no health policy 
justification for the prohibition.
    Please keep the following points in mind as you consider funding 
this dental workforce grant program for the underserved:
  --The existing dental delivery model has increased in efficiency and 
        is highly effective for those who have access to a dental 
        office and are covered through insurance. However, the system 
        fails the more than 80 million Americans who lack dental 
        insurance, those who are geographically isolated, and those who 
        are unable to travel to a private dental office for treatment.
  --Reports that these workforce pilots will allow non-dentists to do 
        dental surgery/irreversible procedures are unfounded. All 
        grants must, by statute, be conducted in accordance with State 
        law. The grant program cannot authorize or allow non-dentists 
        to perform irreversible/surgical dental procedures unless State 
        law allows for the provision of such services.
  --All pilots must be specifically designed to increase access in 
        rural and other underserved areas. This is a dental workforce 
        grant program for the underserved.
  --Nearly 48 million Americans live in dental health professional 
        shortage areas according to the Health Resources and Services 
        Administration (HRSA), and HRSA included funding for this 
        program in its fiscal year 2012 and fiscal year 2013 budget 
        justifications.
  --An estimated 9,500 new dental practitioners are needed to end the 
        Nation's dental care shortages. New types of models must be 
        explored and, by statute, HRSA must contract with IOM to 
        evaluate the demonstrations, which will yield valuable 
        information to inform decisions about the dental workforce of 
        the future.
  --All evidence available demonstrates the safety and quality of care 
        delivered by non-dentist providers, including for Dental Health 
        Aide Therapists in Alaska. Dental therapists have successfully 
        been in practice overseas for nearly a century. Funding to 
        support pilot testing of new dental workforce models will yield 
        additional data on the economic viability of new oral health 
        providers.
  --The Alternative Dental Health Care Providers Demonstration Program 
        is a grant program to pilot dental workforce innovations that, 
        by statute, must ``increase access to dental healthcare 
        services in rural and other underserved communities'' and must 
        be compliant with ``all applicable State licensing 
        requirements.'' New types of dental providers are essential to 
        solving the Nation's oral health access crisis and this grant 
        program will help determine what types of providers are viable.
    ADHA, along with more than 60 other oral healthcare organizations, 
advocated for funding of this important program. Without the 
appropriate supply, diversity and distribution of the oral health 
workforce, the current oral health access crisis will only be 
exacerbated.
    ADHA recommends funding at a level of $10 million for fiscal year 
2013 to support these vital demonstration projects.
    Oral Health Prevention and Education Campaign--Fund at a level of 
$5 million in fiscal year 2013.--A targeted national campaign led by 
the Centers for Disease Control to educate the public, particularly 
those who are underserved, about the benefits of oral health prevention 
could vastly improve oral health literacy in the country. While 
significant data has emerged over the past decade drawing the link 
between oral health and systemic diseases like diabetes, heart disease, 
and stroke, many remain unaware that neglected oral health can have 
serious ramifications to their overall health. Data is also emerging to 
highlight the role that poor oral health in pregnant women has on their 
children, including a link between periodontal disease and low-birth 
weight babies.
    ADHA advocates an allocation of $5 million in fiscal year 2013 for 
a national oral health prevention and education campaign.
    School-Based Sealant Programs--Fund at a level sufficient to ensure 
school-based sealant programs in all 50 States.--Sealants have long-
proven to be low-cost and effective in preventing dental caries 
(cavities), particularly in children. While most dental disease is 
fully preventable, dental caries remains the most common childhood 
disease, five times more common than asthma, and more than half of all 
children age 5-9 have a cavity or filling.
    The CDC noted that data collected in evaluations of school-based 
sealant programs indicates the programs are effective in stopping and 
preventing dental decay. Significant progress has been made in 
developing best practices for school-based sealant programs, yet most 
States lack well developed programs as a result of funding shortfalls. 
ADHA encourages the transfer of funding from the Public Health and 
Prevention Fund sufficient to allow CDC to meaningfully fund school-
based sealant programs in all 50 States in fiscal year 2013.
    Oral Health Programming within the Centers for Disease Control--
Fund at a level of $25 million in fiscal year 2013.--ADHA joins with 
others in the dental community in urging $25 million for oral health 
programming within the Centers for Disease Control. This funding level 
will enable CDC to continue its vital work to control and prevent oral 
disease, including vital work in community water fluoridation. Federal 
grants to facilitate improved oral health leadership at the State 
level, support the collection and synthesis of data regarding oral 
health coverage and access, promote the integrated delivery of oral 
health and other medical services, enable States to innovate new types 
of oral health programs and promote a data-driven approach to oral 
health programming.
    ADHA advocates for $25 million in funding for grants to improve and 
support oral health infrastructure and surveillance.
    Dental Health Improvement Grants--Fund at a level of $20 million in 
fiscal year 2013.--HRSA administered dental health improvement grants 
are an important resource for States to have available to develop and 
carry out State oral health plans and related programs. Past grantees 
have used funds to better utilize the existing oral health workforce to 
achieve greater access to care. Previously awarded grants have funded 
efforts to increase diversity among oral health providers in Wisconsin, 
promote better utilization of the existing workforce including the 
extended care permit (ECP) dental hygienist in Kansas, and in Virginia 
implement a legislatively directed pilot program to allow patients to 
directly access dental hygiene services.
    ADHA supports funding of HRSA dental health improvement grants at a 
level of $20 million for fiscal year 2013.
    National Institute of Dental and Craniofacial Research--Fund at a 
level of $450 million in fiscal year 2013.--The National Institute of 
Dental and Craniofacial Research (NIDCR) cultivates oral health 
research that has led to a greater understanding of oral diseases and 
their treatments and the link between oral health and overall health. 
Research breeds innovation and efficiency, both of which are vital to 
improving access to oral healthcare services and improved oral status 
of Americans in the future.
    ADHA joins with others in the oral health community to support 
NIDCR funding at a level of $450 million in fiscal year 2013.
                               conclusion
    ADHA appreciates the difficult task appropriators face in 
prioritizing and funding the many meritorious programs and grants 
offered by the Federal Government. In addition to the items listed, 
ADHA joins other oral health organizations in support for continued 
funding of the Dental Reimbursement Program (DRP) and the Community-
Based Dental Partnerships Program established under the Ryan White HIV/
AIDS Treatment and Modernization Act ($14 million for fiscal year 2013) 
as well as block grants offered by HRSA's Maternal Child Health Bureau 
($8 million for fiscal year 2013). ADHA also supports full funding for 
community health centers, and urges HRSA be directed to further bolster 
the delivery of oral health services at community health centers, 
including through the use of new types of dental providers.
    ADHA remains a committed partner in advocating for meaningful oral 
health programming that makes efficient use of the existing oral health 
workforce and delivers high quality, cost-effective care.
                                 ______
                                 
             Prepared Statement of the Arthritis Foundation
    On behalf of the over 50 million Americans--or one and five adults 
who live with the heavy burden of arthritis--the pain, disability, cost 
and more; The Arthritis Foundation would like to provide 
recommendations for the Labor Health and Human Services (Labor HHS) 
budget for fiscal year 2013.
    The Arthritis Foundation is committed to raising awareness and 
reducing the unacceptable impact of arthritis, which strikes one in 
every five adults and 300,000 children, and is the Nation's leading 
cause of disability. To conquer this painful, debilitating disease, we 
support education, research, advocacy and other vital programs and 
services.
    The Arthritis Foundation would like to comment on three specific 
agencies of jurisdiction of the Labor-HHS Appropriations Subcommittee, 
the National Institutes of Health (NIH) and in particular the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases (NIAMS), 
the Health Services Resources Administration (HRSA) and the Centers for 
Disease Control (CDC).
               summary request--arthritis related funding
    The Arthritis Foundation strongly recommends that funding research 
funding at the National Institutes of Health and specifically at the 
National Institute of Arthritis and Musculoskeletal and Skin Diseases 
(NIAMS) should both be increased at least 4.5 percent which would be 
the minimum level to maintain current research and account for 
inflation. NIH funding should be allocated $32 billion for fiscal year 
2013 and NIAMS should be funded at $559 million to fund critical 
research on arthritis and other related diseases at the Institute. For 
the over 300,000 children with Juvenile Arthritis (JA), access to a 
pediatric rheumatologist in most States is a challenge. A HRSA report 
to Congress in 2007 highlighted the lack of a pediatric rheumatologist 
for most children with juvenile arthritis; in fact, many States have 
less than two pediatric rheumatologists who treat these patients. The 
Arthritis Foundation strongly urges Congress to support the President's 
budget allocation of $5 million significantly less than the $30 million 
authorized to support loan repayment for pediatric specialists. 
Finally, the President' once again proposes to consolidate the Center 
for Disease Control's (CDC) disease programs including the CDC 
Arthritis Program into one chronic disease program. Last year Congress 
rejected a similar proposal, and the Arthritis Foundation continues to 
have concerns about consolidation. We instead request that Congress 
provide an increase ($10 million) to expand the CDC Arthritis Program 
to $23 million for fiscal year 2013. These additional funds would allow 
the Program to expand to 10 additional States.
 arthritis related research investments at the national institutes of 
   health (nih): fudning for the national insttute of arthritis and 
               musculoskeletal and skin diseases (niams)
    Research holds the key to preventing, controlling, and curing 
arthritis, the Nation's leading cause of disability. The prevalence, 
impact and disabling pain continues to increase. 50 million Americans--
one in five adults--have arthritis now. Within 20 years, the Centers 
for Disease Control and Prevention (CDC) estimate 67 million adults or 
25 percent of the population will have arthritis. Arthritis limits the 
daily activities of 21 million Americans and accounts for $128 billion 
annually in economic costs. The National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS) supports research into the 
causes, treatment, and prevention of arthritis and musculoskeletal and 
skin diseases. The critical research done at NIAMS improves the quality 
of life for people with arthritis and decreases the overall burden of 
the disease. Two examples include:
  --Cartilage regeneration studies for patients with osteoarthritis 
        (OA), which afflicts 27 million Americans. This innovation 
        could lead to the first disease-reversing drug to be available 
        for patients with OA.
  --A randomized, controlled trial on effectiveness of daily calcium 
        supplementation for increasing bone mineral density in children 
        with JA. The trial found that supplementation resulted in a 
        small, but statically significant, increase in total body 
        mineral density compared with a placebo in children with JA.
    The Arthritis Foundation recommends at least $32 billion for fiscal 
year 2013 ($559 million for NIAMS) representing a 4.5 percent increase 
in funding, the minimum level to maintain current research and account 
for inflation.
          hrsa pediatric subspeciality loan repayment program
    Juvenile arthritis is one of the most common childhood diseases, 
affecting more children than cystic fibrosis and muscular dystrophy. 
Currently, there are less than 250 pediatric rheumatologists in the 
United States and about 90 percent of those are clustered in and around 
large cities. Pediatric rheumatology has one of the smallest numbers of 
doctors of any pediatric subspecialty. Of those children with juvenile 
arthritis, only one-fourth see a pediatric rheumatologist due to their 
scarcity. The other 75 percent of juvenile arthritis patients see 
either pediatricians (who tend not to be trained in how to care for 
juvenile arthritis) or adult rheumatologists, who aren't trained to 
deal with pediatric issues. Issues such as whether it's the stunted 
bone growth that can result from arthritis and its treatment, or the 
unwillingness of an adolescent to take his medicine. There are 
currently six States that do not have a single practicing pediatric 
rheumatologist and eight States with only one pediatric rheumatologist.
    The pediatric subspecialty loan repayment program was authorized by 
Section 5203 of the Affordable Care Act (ACA) in March 2010. The 
program would incentivize training and practice in pediatric medical 
subspecialties, like pediatric rheumatology, in underserved areas 
across the United States. The program would offer up to $35,000 in loan 
forgiveness for each year of service for a maximum of 3 years. The 
program was authorized for $30 million for fiscal year 2010 through 
fiscal year 2014, but has yet to be appropriated any funding. The 
Arthritis Foundation supports the President's request of $5 million to 
fund the Pediatric Subspecialty Loan Repayment Program.
            center for disease control: cdc arthrits program
    Arthritis is a complex family of more than 100 different diseases 
or conditions that destroys joints, bones, muscles, cartilage and other 
connective tissues, hampering or halting physical movement. It is the 
most common cause of disability in the United States, striking people 
of all ages, races and ethnicities and currently affects 1 in 5 
Americans. Its impact on the economy is about $128 billion including 
over $81 billion in direct costs for expense like physicians visits and 
surgical interventions.
    The goal of the CDC Arthritis Program is to improve the quality of 
life for people affected by arthritis and other rheumatic conditions by 
working with States and other partners to (1) increase awareness about 
appropriate arthritis self-management activities, (2) expanding the 
reach of programs proven to improve the quality of life for people with 
arthritis and (3) decrease the overall burden of arthritis as well as 
its associated disability, work and activity limitations.
    Overall, the Foundation supports the public health community 
recommendation to fund the CDC at $7.8 billion for fiscal year 2013. 
Unfortunately, the Foundation has concerns about the CDC Arthritis 
Program. The President's budget for fiscal year 2013 again, proposes to 
combine existing chronic disease programs (including those for 
diabetes, heart disease, arthritis, stroke and cancer) into a single 
consolidated program. Last year Congress rejected a similar proposal, 
and the Arthritis Foundation continues to have concerns about 
consolidation. With the rising burden of arthritis and other chronic 
diseases, along with the mounting fiscal pressures your panel faces, 
now is not the time to undermine the extensive arthritis public health 
infrastructure which has been erected across the country.
    We instead request that Congress provide a slight increase ($10 
million) to expand the CDC Arthritis Program to $23 million for fiscal 
year 2013. These additional funds would allow the Program to expand to 
10 additional States. Additional funding would allow the CDC Arthritis 
Programs to expand into 10 new States. These State-based programs would 
(1) increase evidence based interventions, such as the Arthritis 
Foundation's Walk with Ease Program, into more communities; (2) reach 
diverse populations by funding partnership activities; and (3) support 
the OA Action Alliance, a coalition committed to elevating OA as a 
national priority. www.oaactionalliance.org.
    The Arthritis Foundation appreciates the opportunity to provide 
recommendations to the Senate Labor, Health and Human Services 
Committee on recommendations for fiscal year 2013.
    If you have questions about these comments please don't hesitate to 
contact the Arthritis Foundation. Questions about HRSA requests--Kim 
Beer, Director, Government Relations, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7ccc5c2c2d5e7c6d5d3cfd5ced3ced489c8d5c0">[email&#160;protected]</a> or Maria 
Spencer, Director, Federal Affairs for NIH/CDC <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99f4eae9fcf7fafcebd9f8ebedf1ebf0edf0eab7f6ebfeb7">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the Alzheimer's Foundation of America
    On behalf of the Alzheimer's Foundation of America (AFA), a New 
York-based national nonprofit organization that unites more than 1,600 
member organizations nationwide with the goal of providing optimal care 
and services to individuals confronting dementia, and to their 
caregivers and families, we are making the following appropriations 
requests for programs impacting Alzheimer's disease research and 
caregiving services in the fiscal year 2013 budget. These Federal 
programs and support services are vital to advancing promising clinical 
research, providing necessary respite care and promoting best practice 
tools to family caregivers.
    Specifically, AFA makes the following appropriations requests for 
these specific agencies and programs:
    National Institutes of Health (NIH).--Adequate investment in 
scientific research that could lead to new treatments and cures is 
critical in order to reduce long-term healthcare costs. The President's 
fiscal year 2013 budget calls for an additional $80 million for 
clinical research into Alzheimer's disease. AFA urges the Subcommittee 
to honor the President's budget request to help fund effective 
pharmaceutical therapies to prevent, cure or slow the progression of 
Alzheimer's disease and provide the necessary seed money to implement 
and facilitate the ambitious and laudable goals of the National Plan to 
Address Alzheimer's Disease.
    AFA also urges the Subcommittee to include $32 billion in total 
funding for NIH, as recommended by the Ad Hoc Group for Medical 
Research, in the fiscal year 2013 appropriations bill. Even if funding 
remains flat, NIH's actual budget will still be effectively cut as 
spending will not be able to keep pace with the predicted 3.5 percent 
in biomedical inflation.
    National Institute on Aging (NIA).--Since NIA is the primary agency 
responsible for Alzheimer's disease research, AFA urges that the 
Subcommittee include a minimum budget appropriation of $1.4 billion, an 
increase of $300 million for NIA.
    NIA leads the national scientific effort to understand the nature 
of aging in order to promote the health and well-being of older adults, 
whose numbers are projected to rise dramatically in the coming years 
due to increased life expectancy and the aging of the baby boom 
generation.
    This funding is essential to increase the NIA's baseline to a level 
consistent with comparable research initiatives conducted under the 
auspices of NIH, and to support additional research into Alzheimer's 
disease and related dementias.
    Cures Acceleration Network (CAN).--AFA recommends $100 million to 
fund this important program. CAN was established within the Office of 
the Director of the NIH to aid in speeding the translation of basic 
scientific discoveries into treatments for diseases like Alzheimer's 
and getting them faster to market.
    U.S. Department of Health and Human Service's Prevention and Public 
Health Fund (PPHF).--The President's fiscal year 2013 budget request 
proposes $1.25 billion from the PPHF to supplement the budgets of the 
Centers for Disease Control and Prevention ($903 million), Substance 
Abuse and Mental Health Services Administration ($105 million), and the 
Agency for Healthcare Research and Quality ($12 million), among other 
agencies. The request also proposes $80 million from the fund to 
support Alzheimer's disease research and related initiatives. However, 
the ``extenders bill'' (Public Law 112-96), amends the fund to allow $1 
billion in fiscal year 2013, rather than the original $1.25 billion.
    AFA urges the Subcommittee to maintain the President's proposed 
budget request of $1.25 billion for PPHF and preserve the $80 million 
earmarked for Alzheimer's disease grants. Utilizing public health funds 
to pay physicians is truly a case of ``robbing Peter to pay Paul'' and 
could increase overall healthcare costs if funding for preventive 
services and caregiver training are slashed.
    Administration on Aging programs (AoA).--AFA would like to single 
out the following programs within the AoA that are critical to 
individuals with Alzheimer's disease and their caregivers:
  --National Family Caregiver Support Program (NFCSP).--NFCSP provides 
        grants to States and territories, based on their share of the 
        population aged 70 and over, to fund a range of supportive 
        services that assist family and informal caregivers in caring 
        for their loved ones at home for as long as possible, thus 
        providing a more patient-friendly and cost-effective approach 
        than institutional care. Last year's appropriation of $153 
        million cannot possibly keep up with the need for respite care 
        as our population ages. AFA urges that $192 million be 
        appropriated to support this important program.
  --Lifespan Respite Care Program (LRCP).--AFA urges the Subcommittee 
        to commit $50 million of LRCP in fiscal year 2013. LRCP 
        provides competitive grants to State agencies working with 
        Aging and Disability Resource Centers and nonprofit State 
        respite coalitions or organizations to make quality respite 
        care available and accessible to family caregivers regardless 
        of age or disability by establishing State Lifespan Respite 
        Systems. The Lifespan Respite Care Act was signed into law in 
        2006, but received no funding until 2009. Last year, only $2 
        million was appropriated to this successful, yet deeply 
        underfunded program.
  --Alzheimer's Disease Supportive Services Program (ADSSP).--The 
        President's budget requests an additional $5.5 million to 
        restore funding for the ADSSP, which was reduced in the fiscal 
        year 2012 appropriation. In addition, the request complements 
        the Alzheimer's Initiative recently announced by HHS, which 
        calls for an additional $26 million for caregiver support, 
        provider education, public awareness and improvements in data 
        infrastructure. AFA supports funding of $12 million for this 
        program; in addition, we ask the Subcommittee to build upon the 
        administration's request for funding.
    Food and Drug Administration (FDA).--AFA supports funding of the 
FDA at $2.656 billion, an increase of $150 million or 6 percent more 
than appropriated in fiscal year 2012. FDA activities are necessary to 
ensure proper evaluation and testing of pharmaceutical treatments for 
Alzheimer's disease before they enter the market. In addition, the 
science is becoming more complex, and FDA plays an increasingly 
important and often resource-intensive role in pharmaceutical 
innovation. AFA's request is in line with the appropriations request 
being recommended by the Alliance for a Stronger FDA and the coalition 
to Accelerate Cure/Treatments for Alzheimer's Disease (ACT-AD).
    Taken together, these programs represent a lifeline to families who 
care for a loved one with Alzheimer's disease and provide hope to 
Americans living with the disease and those who face it in the future 
that there will be funding for a cure. AFA thanks the Subcommittee for 
the opportunity to present its recommendations and looks forward to 
working with you through the appropriations process. Please contact 
Eric Sokol, AFA's vice president of public policy, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9bcaab6b2b6b599b8b5a3bfbdb7f7b6abbe">[email&#160;protected]</a> 
if you have any questions or require further information.
                                 ______
                                 
  Prepared Statement of the American Foundation for Suicide Prevention
    Chairman Harkin, Ranking Member Shelby and members of the 
Committee. The American Foundation for Suicide Prevention (AFSP) thanks 
you for the opportunity to provide testimony on the funding needs of 
Federal agencies and programs that play a critical role in suicide 
prevention efforts.
    AFSP is the leading national not-for-profit organization 
exclusively dedicated to understanding and preventing suicide through 
research, education and advocacy, and to reaching out to people with 
mental disorders and those impacted by suicide. You can find more 
information at www.asfp.org.
    Data from the Centers for Disease Control for 2009 (latest 
available) shows that suicide is the 10th leading cause of death in the 
United States (36,547) and the third leading cause of death in teens 
and young adults from ages 15-24. Nearly 1.1 million Americans attempt 
suicide each year and another 8 million have suicidal thoughts. Suicide 
in 1 year costs the United States $36 billion in lost wages and work 
productivity.
    In order to more effectively combat this public health crisis, AFSP 
urges the Committee approve funding at the levels requested for the 
following programs/agencies for fiscal year 2013:
Garrett Lee Smith Memorial Act Programs
    We respectfully request that Garrett Lee Smith Memorial Act (GLSMA) 
youth suicide prevention grant programs receive $48.2 million for 
fiscal year 2013.
    Since 2005, the Substance Abuse and Mental Health Services 
Administration (SAMHSA) has awarded GLSMA grants to 45 State programs, 
12 tribal programs, and 78 colleges and universities for programs to 
help reduce youth suicides rates. State grantees include: Alaska, 
Arizona, Colorado, Connecticut, District of Columbia, Delaware, 
Florida, Georgia, Guam, Hawaii, Iowa, Idaho, Indiana, Kentucky, 
Louisiana, Massachusetts, Maryland, Maine, Michigan, Missouri, 
Mississippi, North Carolina, North Dakota, Nebraska, New Hampshire, New 
Mexico, Nevada, New York, Ohio, Oklahoma, Oregon, Pennsylvania, Rhode 
Island, South Carolina, South Dakota, Tennessee, Texas, Utah, Virginia, 
Vermont, Washington, Wisconsin, West Virginia, and Wyoming.
    Funding for the Act is directed to three programs administered by 
SAMHSA. We request $5 million for the Suicide Prevention Technical 
Assistance Center to support its mission of providing technical 
assistance and support to grantees. We request $35 million for the 
Youth Suicide Early Intervention and Prevention Strategies grant 
program. These grants help States and tribes develop and implement 
statewide youth suicide early intervention and prevention strategies 
that will raise awareness and educate people about mental illness and 
the risk of suicide, help young people at risk of suicide take the 
first step toward seeking help, and allow States to expand access to 
treatment options. Finally, we request $8.2 million to fund the Mental 
and Behavioral Health Services on Campus matching-grant program for 
colleges and universities to help raise awareness about youth suicide, 
as well as enable those institutions to train students and faculty to 
identify and intervene when youth are in crisis, and develop a system 
to refer students for care.
Support Federal Investment in Suicide Prevention Research at NIMH for 
        Fiscal Year 2012
    Strategic investments in disease research have produced declines in 
deaths, and the same types of investments are necessary to reduce 
deaths by suicide. In fiscal year 2011 (latest data) only $41 million 
was devoted directly to suicide research. AFSP urges Congress to 
increase the investment in suicide prevention research at the National 
Institutes of Mental Health by 15 percent, or $6.15 million.
    It is illuminating to compare the number of suicide deaths with the 
number of deaths in several major disease categories against the direct 
dollars spent on research in those areas (see below). In fact, the 
Institute of Medicine, in their 2002 report ``Reducing Suicide: A 
National Imperative,'' stated the following: ``There is every reason to 
expect that a national consensus to declare war on suicide and to fund 
research and prevention at a level commensurate with the severity of 
the problem will be successful, and will lead to highly significant 
discoveries as have the wars on cancer, Alzheimer's disease, and 
AIDS.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Maintain Vital Funding for SAMHSA Suicide Prevention Programs and 
        Mental Health Services
    As the lead Government agency charged with implementation of 
suicide prevention initiatives, AFSP urges this Committee to provide 
$1.022 billion for SAMHSA's Center for Mental Health Services in fiscal 
year 2013. By this action Congress will recognize the important role 
SAMHSA plays in healthcare delivery and mental health services.
    As the lead Government agency charged with implementation of 
suicide prevention initiatives, SAMHSA has supported the establishment 
of a national toll-free hotline (the National Suicide Prevention 
Lifeline), a technical assistance center (the Suicide Prevention 
Resource Center), and a youth suicide prevention grant program for 
States and colleges (authorized and funded under the Garrett Lee Smith 
Memorial Act). Since its launch in January 2005, the Suicide Prevention 
Lifeline has answered more than 1 million calls and has 140 active 
crisis centers in 48 States. Beginning in 2008, SAMHSA's National 
Survey on Drug Use and Health asked respondents about suicide attempts 
and whether or not they had previously acknowledged major depression. 
This was an important first step forward in suicide surveillance, 
promoting greater attention to the interrelationship of suicide, 
substance abuse and depression. Moreover, the Agency also has been 
supporting the identification, development and promotion of best 
practices in suicide prevention, focusing on risk and protective 
factors related to suicide, with particular attention to mental health 
and substance abuse issues affecting suicide risk.
Support Federal Investment in Data Collection in Fiscal Year 2013
    To design effective suicide prevention strategies, we must first 
have complete, accurate and timely information about deaths by suicide. 
The National Violent Death Reporting System (NVDRS) provides this 
information, which is essential to improve State and Federal suicide 
prevention activities. Current funding of $3.5 million allows only 18 
States to participate in this program. This Committee approved an 
additional $1.5 million in fiscal year 2011; however, the bill never 
got signed into law. AFSP urges this Committee to appropriate $5 
million for the NVDRS in fiscal year 2013.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Provide Funding for Depression Centers of Excellence (DCOE)
    This Committee included $10 million for the DCOE in the fiscal year 
2011 mark up as a down payment toward studying Depression, the most 
common psychiatric diagnosis associated with suicide. AFSP urges 
Congress to appropriate funds to the DCOE at the highest levels 
possible in fiscal year 2013.
    Depression Centers of Excellence would increase access to the most 
appropriate and evidence-based depression care and develop and 
disseminate evidence-based treatment standards to improve accurate and 
timely diagnosis of depression and bipolar disorders. Additionally, 
they would create a national database for large-sample effectiveness 
studies and a repository of evidence-based interventions and programs 
for depression and bipolar disorders. They would also utilize the 
network of centers as an ongoing national resource for public and 
professional education and training, with the goal of advancing 
knowledge and eradicating stigma of these mental disorders.
    Chairman Harkin, Ranking Member Shelby and Members of the 
Committee. AFSP once again thanks you for the opportunity to provide 
testimony on the funding needs of Federal Agencies and programs that 
play a critical role in suicide prevention efforts.
    Suicide robs families, communities and societies of tens of 
thousands of its citizens. In a single year, in the United States 
alone, suicide is responsible for the deaths of nearly 37,000 people of 
all ages and costs an estimated $36 billion annually in lost wages and 
work productivity. With your help, we can assure those tasked with 
leading the Federal Government's response to this public health crisis 
will have the resources necessary to effectively prevent suicide.
                                 ______
                                 
          Prepared Statement of the American Heart Association
    Despite considerable progress in the fight against heart disease, 
stroke and other forms of cardiovascular disease, CVD remains our 
Nation's No. 1 and most costly killer, with one person dying from it 
every 39 seconds. CVD is also a major cause of disability, costing our 
country an estimated $298 billion in medical expenses and lost 
productivity in 2008. Today, an estimated 83 million adults suffer from 
CVD. In addition, risk factors for CVD, such as obesity, diabetes, and 
high blood pressure, are on the rise. At age 40, the lifetime risk for 
CVD is 2 in 3 for men and more than 1 in 2 for women. Many are 
surprised to learn that CVD is the leading cause of death in women, 
outweighing cancer and other diseases.
    Unfortunately, these startling statistics will likely worsen. A 
recent study projects that by the year 2030, more than 40 percent of 
adults in the United States will live with the effects of CVD at a cost 
exceeding $1 trillion annually that would impoverish both the healthy 
and the ill. The graying of America's baby boomers along with the 
volatile growth in medical spending are the key drivers of these rising 
costs. Compounding this dire situation, heart disease and stroke 
prevention, research, and treatment programs remain not only woefully 
underfunded, but there is no steady and dependable stream of resources 
for the National Institutes of Health (NIH) to mount a long-term 
strategy to fight this terrible disease, enhance prevention and foster 
best care.
    CVD is the No. 1 killer in each State, except Alaska. Yet, research 
has shown that it is mostly preventable when treatable risk factors, 
such as high blood pressure and smoking, are addressed.
    Where one lives can affect survival from a deadly type of heart 
disease--sudden cardiac arrest. Only 21 States received fiscal year 
2010 funds for Health Resources and Services Administration's Rural and 
Community Access to Emergency Devices Program (HRSA) to save lives from 
SCA.
    To avoid a looming CVD crisis, American Heart Association 
challenges Congress to prioritize prevention. Evidence-based prevention 
programs must reach people where they live, work and play. Prevention 
must be a keystone to encourage early age heart healthy and stroke-free 
habits.
    Thanks to the insight of Department of Health and Human Services, 
heart attack and stroke prevention will likely improve. AHA proudly 
partners with HHS to effect and achieve Million Hearts. Co-led by 
Centers for Disease Control and Prevention (CDC) and Centers of 
Medicare and Medicaid Services, this public-private partnership seeks 
to prevent 1 million heart attacks and strokes in 5 years.
    In this time of budgetary belt-tightening, AHA lauds Congress for 
providing a glimmer of hope to the 1-in-3 adult CVD sufferers in the 
United States by wisely investing in the NIH, HRSA, CDC, and in the 
Prevention and Public Health Fund for fiscal year 2012. While we 
advocated for higher increases, these funds will help improve our 
Nation's physical and fiscal health. Stable and sustained fiscal year 
2013 funding is critical to advance heart disease and stroke research, 
prevention and treatment. However, the failure of the Joint Select 
Committee on Deficit Reduction to agree on a plan to reduce deficits 
will result in automatic across-the-board cuts in January 2013. Based 
on current projections, nearly every CVD research and prevention 
program will be cut by 9 percent.
     funding recommendations: investing in the health of our nation
    Sadly, promising research remains unfunded that could stem the 
increase of heart disease and stroke risk factors. Also, too many 
Americans die from CVD while proven prevention efforts beg for 
resources for widespread implementation. Now is the time to boost 
research, prevention and treatment of our Nation's leading and most 
costly killer. If Congress fails to capitalize on the progress of the 
past 50 years, Americans will pay more in lives lost and healthcare 
costs. Our recommendations below address the issues in a thorough and 
fiscally responsible way.
Capitalize on Investment for the National Institutes of Health (NIH)
    NIH-funded research prevents and cures disease, generates economic 
growth, fosters innovation, and preserves the U.S. role as the world 
leader in pharmaceuticals and biotechnology. NIH sponsored studies have 
revolutionized patient care. Further, NIH remains the single largest 
funder of basic research--the starting point for all medical advances 
and an essential function of the Federal Government. The private sector 
cannot fill this gap because there is no guarantee that this type of 
research will lead to an instant or profitable product or cure.
    NIH research produces major returns on investment by developing new 
technologies that create high-paying jobs. Also, the typical NIH grant 
supported about seven mainly high-tech full-time or part-time jobs in 
fiscal year 2007. In fiscal year 2010, NIH created nearly a half 
million U.S. jobs and produced about $70 billion in economic activity. 
Each dollar NIH distributes in a grant returns $2.21 in goods and 
services to the local community in 1 year.
    However, with sequestration looming, NIH faces an estimated 9 
percent or $2.8 billion cut, reducing its budget to the 2004 level. 
Since NIH invests in each State and in 90 percent of congressional 
districts, thousands of jobs will be lost, with a ripple effect on our 
fragile economic recovery. Such draconian budget cuts will both 
endanger NIH's role as the world leader in medical research--when our 
competitors are escalating their investment--and will severely delay 
research and development of disease treatments and cures.
    American Heart Association Advocates.--We ask for a fiscal year 
2013 appropriation of $32 billion for NIH to build on successes to save 
lives, improve health, spur our economy and spark innovation. Also, we 
urge Congress to protect NIH from across-the-board cuts for the 
aforesaid reasons.
Enhance Funding for NIH Heart and Stroke Research: A Proven and Wise 
        Investment
    From 1998 to 2008, death rates for coronary heart disease and 
stroke fell nearly 29 percent and 35 percent respectively. Yet, more 
must be done to improve lives and to prevent these illnesses. Declines 
in these deaths are directly linked to NIH research, with scientists 
now on the verge of exciting discoveries that could lead to game-
changing treatments and even cures. For example, the largest U.S. 
stroke rehabilitation study showed that intensive, home-based physical 
therapy as well as a more complex program using a body weight-supported 
treadmill can improve walking. Both programs resulted in superior 
walking ability as compared to usual care.
    One of the largest-ever NIH-sponsored analyses of CVD lifetime 
risks demonstrated that middle-age adults with one or more classic CVD 
risk factors have a much greater chance of suffering a major CVD event. 
Further, it showed traditional risk factors predicted one's long-term 
development of CVD more than just age. Also, NIH studies identified 29 
genetic variants that influence blood pressure, providing new clues for 
control, and demonstrated that those at highest risk of a second stroke 
should undergo aggressive medical treatment rather than with a stent.
    In addition to saving lives, NIH research can cut healthcare costs. 
For example, the first NIH tPA drug trial resulted in a 10-year net 
$6.47 billion drop in stroke healthcare costs. Also, the Stroke 
Prevention in Atrial Fibrillation Trial 1 produced a 10-year net 
savings of $1.27 billion.
Cardiovascular Disease Research: National Heart, Lung, and Blood 
        Institute (NHLBI)
    In spite of lower mortality rates and many promising avenues, there 
is still no cure for CVD. With an aging population, demand will only 
increase to find better ways for Americans to live healthy and 
productive lives, despite CVD. Stable and sustained NHLBI funding is 
needed to build on investments that provided grants to use genetics to 
identify and treat those at greatest risk of heart disease; hasten drug 
development to reduce high cholesterol and blood pressure; and create 
tailored strategies to treat, slow or prevent heart failure. Other key 
studies include an analysis of whether lower blood pressure than now 
recommended further reduces risk of heart disease, stroke, and 
cognitive decline. Sustained critical funding will allow for aggressive 
implementation of other priority initiatives in the cardiovascular 
strategic plan.
Stroke Research: National Institute of Neurological Disorders and 
        Stroke (NINDS)
    An estimated 795,000 Americans will suffer a stroke this year, and 
more than 134,000 will die from one. Many of the 7 million survivors 
face severe physical and mental disabilities and emotional distress. In 
addition to the physical and emotional toll, stroke cost a projected 
$34 billion in medical expenses and lost productivity for 2008. The 
future does not bode well. A recent study projects stroke prevalence 
will increase 25 percent over the next 20 years, striking more than 10 
million individuals with direct medical costs rising 238 percent over 
the same time period.
    Stable and sustained NINDS funding is required to capitalize on 
investments to prevent stroke, protect the brain from damage and 
enhance rehabilitation. This includes initiatives to: (1) determine if 
MRI brain imaging can assist in selecting stroke victims who could 
benefit from the clot busting drug tPA beyond the 3-hour treatment 
window; (2) assess chemical compounds that might shield brain cells 
during a stroke; and (3) advance stroke rehabilitation by studying if 
the brain can be helped to ``rewire'' itself after a stroke. Enhanced 
funding will also allow for proactive initiation and implementation of 
the NINDS' novel stroke planning process to develop priorities to 
advance the most promising prevention, treatment and recovery research.
    American Heart Association Advocates.--While AHA supports increased 
funding for all the 18 NIH Institutes and centers that conduct heart 
and stroke research, we specifically recommend that NHLBI be funded at 
$3.214 billion and NINDS at $1.698 billion for fiscal year 2013.
Increase Funding for the Centers for Disease Control and Prevention 
        (CDC)
    Prevention is the best way to protect the health of Americans and 
reduce CVD's costs. Yet, effective prevention strategies are not being 
implemented due to inadequate funds. In addition to conducting research 
and evaluation and developing a surveillance system, the Division for 
Heart Disease and Stroke Prevention (DHDSP) manages Sodium Reduction 
Communities, Paul Coverdell National Acute Stroke Registry, and State 
Heart Disease and Stroke Prevention Program. The State program also 
promotes the ``A-B-C-S'' of prevention: appropriate aspirin therapy, 
blood pressure control, cholesterol management and smoking cessation.
    The DHDSP manages WISEWOMAN that serves uninsured and under-insured 
low-income women ages 40 to 64. It helps them avoid heart disease and 
stroke by providing preventive health services, referrals to local 
healthcare providers--as needed--and lifestyle counseling and 
interventions tailored to risk factors to promote lasting behavior 
change. From July 2008 to June 2010, it served over 70,000 women. In 
this timeframe, 89 percent of them were found to have at least one risk 
factor and 28 percent had three or more. Yet, over 43,000 of them 
participated in at least one session to address them.
    American Heart Association Advocates.--AHA concurs with the CDC 
Coalition in asking for $7.8 billion for CDC's ``core programs.'' We 
recommend $75 million to bolster the DHDSP and $37 million for 
WISEWOMAN to add States and serve more women. We also join with the 
Friends of the NCHS in asking for $162 million for the National Center 
for Health Statistics.
Restore Funding for Rural and Community Access to Emergency Devices 
        (AED) Program
    About 90 percent of sudden cardiac arrest victims die outside of a 
hospital. However, prompt CPR and defibrillation, with an automated 
external defibrillator, can more than double their chances of survival. 
Communities with comprehensive AED programs have reached survival rates 
of about 40 percent. HRSA's Rural and Community AED Program provides 
competitive grants to States to buy AEDs, train lay rescuers and first 
responders in their use and place AEDs where SCA is likely to occur--
and with tangible results. From September 2007 to August 2008, 3,051 
AEDs were bought and 10,287 people were trained. Due to this effort, 
almost 800 patients were saved between August 1, 2009 and July 31, 
2010. Requests for these AED grant dollars have exceeded available 
limited funds. In fiscal year 2009, less than 8 percent of the 
applicants were funded and only 21 States received funds in fiscal year 
2010. We applaud Congress for restoring this program to its fiscal year 
2010 level for fiscal year 2012. However, HRSA transferred $1.4 million 
to the AIDS Drug Assistance program, thereby diminishing the positive 
impact of the funding increase.
    American Heart Association Advocates.--We ask for a fiscal year 
2013 appropriation of $8.927 million to restore the Rural and Community 
AED Program to its fiscal year 2005 level as 47 States were funded.
Increase Funding for the Agency for Healthcare Research and Quality 
        (AHRQ)
    AHRQ develops scientific evidence to improve healthcare and 
provides patients and caregivers with vital evidence to make the right 
decisions about their care. AHRQ's research also enhances quality and 
efficiency of healthcare.
    American Heart Association Advocates.--AHA joins Friends of AHRQ in 
advocating for $400 million for AHRQ to preserve its vital initiatives.
                               conclusion
    Cardiovascular disease continues to wreak a deadly, disabling and 
costly toll on Americans. Our funding recommendations for NIH, CDC and 
HRSA outlined above will save lives and cut rising healthcare costs. We 
urge Congress to seriously consider our proposals that represent a wise 
investment for our Nation and for the health and well-being of this and 
future generations.
                                 ______
                                 
      Prepared Statement of the Ad Hoc Group for Medical Research
    The Ad Hoc Group for Medical Research is a coalition of more than 
300 patient and voluntary health groups, medical and scientific 
societies, academic and research organizations, and industry. We 
appreciate the opportunity to submit this statement in support of 
enhancing the Federal investment in biomedical, behavioral, and 
population-based research conducted and supported by the National 
Institutes of Health (NIH).
    We are deeply grateful to the Subcommittee for its long-standing 
and bipartisan leadership in support of NIH. These are difficult times 
for our Nation and for people all around the globe, but science and 
innovation are the key to a better future. To ensure continued 
improvement of our Nation's health and to sustain our global leadership 
in medical research, the Ad Hoc Group for Medical Research recommends 
at least $32 billion for NIH in fiscal year 2013.
NIH: A Public-Private Partnership to Save Lives and Provide Hope
    The partnership between NIH and America's scientists, medical 
schools, teaching hospitals, universities, and research institutions is 
a unique and highly productive relationship, leveraging the full 
strength of our Nation's research enterprise to foster discovery, 
improve our understanding of the underlying cause of disease, and 
develop the next generation of medical advancements. More than 83 
percent of NIH research funding is awarded to more than 3,000 research 
institutions located in every State. These are funded through almost 
50,000 competitive, peer-reviewed grants and contracts to more than 
350,000 researchers.
    Research funded by NIH has contributed to nearly every medical 
treatment, diagnostic tool, and medical device developed in modern 
history, and we are all enjoying longer, healthier lives thanks to the 
Federal Government's wise investment in this lifesaving agency. From 
the major advances--including a nearly 70 percent reduction in the 
death rate for coronary heart disease and stroke--to moving stories of 
personalized medicine--such as children with rare diseases like dopa-
responsive dystopia, whose prognosis has been transformed from severely 
disabled to happy and healthy through genomic medicine--NIH's role in 
improving human health has been extraordinary. For example:
  --Between 1990 and 2007, death rates in the United States for all 
        cancers combined decreased by 22 percent for men and 14 percent 
        for women, resulting in 898,000 fewer deaths from the disease 
        during this time period;
  --Genomic advances have led us to the brink of approval for a new 
        drug for cystic fibrosis, which tragically affects 30,000 
        Americans, whose current average life expectancy is only 37 
        years;
  --Remarkable breakthroughs in HIV/AIDS announced within the past year 
        have put the possibility of an AIDS-free world within sight; 
        and
  --We are within reach of a universal influenza vaccine, eliminating 
        the need for annual flu shots.
    NIH research impacts the full spectrum of the human experience, 
resulting in a 40 percent decline in infant mortality over the past 20 
years, as well as a 30 percent decrease in chronic disability among 
seniors. For patients and their families, the scientific opportunities 
addressed by NIH provide hope.
    NIH is the world's premiere supporter of peer-reviewed, 
investigator-initiated basic research. This fundamental understanding 
of how disease works and insight into the cellular, molecular, and 
genetic processes underlying life itself, including the impact of 
social environment on these processes, underpin our ability to conquer 
devastating illnesses. The application of the results of basic research 
to the detection, diagnosis, treatment, and prevention of disease is 
the ultimate goal of medical research. Ensuring a steady pipeline of 
basic research discoveries while also supporting the translational 
efforts absolutely necessary to bring the promise of this knowledge to 
fruition requires a sustained investment in NIH.
NIH Supports Jobs, the Economy, and Innovation
    The research supported by NIH drives not only medical progress but 
also local and national economic activity, creating skilled, high-
paying jobs and fostering new products and industries. A report 
released in March by United for Medical Research showed NIH directly 
and indirectly supported more than 432,000 jobs nationwide, while 
generating $62.1 billion in new economic activity. Another report, 
produced by Tripp Umbach, calculated a $2.60 return on investment for 
every dollar spent on research at American medical schools and teaching 
hospitals.
    At the same time, the private sector depends on the basic research 
funded by NIH to fuel the next generation of drugs, diagnostics, and 
devices. Chris Viehbacher, CEO of Sanofi, recently warned of the 
negative impact on the drug industry that withdrawal of support for NIH 
would have, saying, ``I don't think there's enough appreciation in the 
United States about what a jewel the NIH is. It's fundamentally 
important to health everywhere in the world that the NIH be properly 
funded.''
    NIH also plays a significant role in supporting the next generation 
of innovators, the young and talented scientists and physicians who 
will be responsible for the breakthroughs of tomorrow. As competition 
for NIH grant funding reaches historically high levels, there is a real 
and present danger of losing our best and brightest minds at a time 
when scientific opportunity has never been better. Only with an 
increase in funding can NIH continue to attract the highest quality 
research talent from all over the world. The challenges of maintaining 
a cadre of physician-scientists to facilitate translation of basic 
research to human medicine, ensuring a biomedical workforce that 
reflects the racial and gender diversity of our citizenry, and 
maximizing our Nation's human capital to solve our most pressing health 
problems will only be addressed through continued support of NIH.
NIH is Critical to U.S. Competitiveness
    While the United States maintains our preeminence in biomedical 
research, we must not take for granted the agency that established us 
as the world life sciences leader. Even as we have seen NIH's budget 
eroded by inflation--with a purchasing power 20 percent lower than it 
was in fiscal year 2003--other nations have emulated our example and 
begun to invest in what can only be described as a life science 
revolution. A 2011 report by the Milken Institute warned that the 
United States was beginning to lose its competitive edge in the 
biomedical sciences, stating, ``Europe and Japan are working to close 
the gap, while China, India, and Singapore have made impressive strides 
. . . These efforts are part of larger economic development plans that 
increasingly focus on cultivating biomedical innovation for its 
economic contributions and high-wage jobs.'' To illustrate this, a 
single Chinese company, BGI (formerly the Beijing Genomics Institute) 
has recently acquired more genomic sequencing capacity in terms of 
machines and people than the entire United States sequencing capacity 
combined.
    In the past 6 months alone, we have heard ambitious pledges from 
India, the European Union, Russia, and China to commit substantial 
funding to research, even as the world struggles to recover from 
unprecedented fiscal challenges. Talented medical researchers from all 
over the world, who once flocked to the United States for training and 
stayed to contribute to our innovation-driven economy, are now 
returning to better opportunities in their home countries.
    According to a new national public opinion poll commissioned by 
Research!America, more than half of likely voters doubt that the United 
States will be the world leader in science, technology, and healthcare 
by the year 2020. The findings reveal deep concerns among Americans 
about the country's ability to maintain its world-class status in 
innovation, research and development before the next decade.
    We cannot afford to lose that intellectual capacity, much less the 
jobs and industries fueled by medical research. The United States has 
been the leader in medical research because of bipartisan recognition 
of the critical role played by NIH. To maintain our dominance, we must 
reaffirm this commitment to provide NIH the funds needed to maintain 
our competitive edge.
NIH: A Priority in Challenging Times
    The Ad Hoc Group's funding recommendation represents the minimum 
investment necessary to avoid further loss of promising research and at 
the same time allows the NIH's budget to keep pace with biomedical 
inflation. Even before adjusting for inflation, enacted spending bills 
in recent years have imposed cuts on the NIH budget and the agency can 
now fund only one in six highly meritorious grant applications it 
receives--the lowest in history. Accordingly, NIH's ability to sustain 
current research capacity and encourage promising new areas of science 
is significantly limited. More distressing, the looming sequestration 
mandated by the Budget Control Act threatens to continue this trend 
with further cuts estimated between 7 and 10 percent in fiscal year 
2013 alone.
    We recognize the tremendous challenges facing our Nation's economy 
and acknowledge the difficult decisions that must be made to restore 
our country's fiscal health. Nevertheless, we believe strongly that NIH 
is part of the solution to the Nation's economic restoration, and we 
are thankful that the Subcommittee has recognized that role in its past 
support. Strengthening our commitment to medical research, through 
funding NIH, is a critical element in ensuring the health and well-
being of the American people and our economy.
    Therefore, the Ad Hoc Group for Medical Research respectfully 
requests that NIH be recognized as an urgent national priority as the 
Subcommittee prepares the fiscal year 2013 appropriations bill.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    This statement includes the fiscal year 2013 recommendations of the 
Nation's Tribal Colleges and Universities (TCUs), covering three areas 
within the Department of Education.
                     higher education act programs
    Strengthening Developing Institutions.--Titles III and V of the 
Higher Education Act support institutions that enroll large proportions 
of financially disadvantaged students and that have low per-student 
expenditures. TCUs, funded under Title III-A Sec. 316, which are truly 
developing institutions, are providing quality higher education 
opportunities to some of the most rural, impoverished, and historically 
underserved areas of the country. The goal of HEA--Titles III/V 
programs is ``to improve the academic quality, institutional management 
and fiscal stability of eligible institutions, in order to increase 
their self-sufficiency and strengthen their capacity to make a 
substantial contribution to the higher education resources of the 
Nation.'' The TCU Title III-A program is specifically designed to 
address the critical, unmet needs of their American Indian students and 
communities, in order to effectively prepare them to succeed in a 
global, competitive workforce. Yet, in fiscal year 2011 this critical 
program was cut by over 11 percent and by another 4 percent in fiscal 
year 2012. The TCUs urge the Subcommittee to appropriate $30 million in 
fiscal year 2013 for HEA Title III-A section 316, which is slightly 
less than the fiscal year 2010 appropriated funding level.
    TRIO.--Retention and support services are vital to achieving the 
national goal of having the highest percentage of college graduates 
globally by 2020. TRIO programs, such as Student Support Services and 
Upward Bound were created out of recognition that college access is not 
enough to ensure advancement and that multiple factors work to prevent 
the successful completion of higher education for many low-income and 
first-generation students and students with disabilities. Therefore, in 
addition to maintaining the maximum Pell Grant award level, it is 
critical that Congress also sustains student assistance programs such 
as Student Support Services and Upward Bound so that low-income and 
minority students have the support necessary to allow them to remain 
enrolled in and ultimately complete their postsecondary courses of 
study.
    Pell Grants.--The importance of Pell Grants to TCU students cannot 
be overstated. A majority of TCU students receive Pell Grants, 
primarily because student income levels are so low and they have far 
less access to other sources of financial aid than students at State-
funded and other mainstream institutions. Within the TCU system, Pell 
Grants are doing exactly what they were intended to do--they are 
serving the needs of the lowest income students by helping them gain 
access to quality higher education, an essential step toward becoming 
active, productive members of the workforce. However, beginning July 1, 
2012, new Department of Education regulations will be imposed, limiting 
Pell eligibility to 12 full-time semesters. This change in policy will 
impede many TCU students from attaining a postsecondary degree, which 
is widely recognized as being critical for access to, and advancement 
in, today's highly technical workforce. Recent placement tests 
administered at TCUs indicated that 62 percent of first-time entering 
students required remedial math, 55 percent needed remedial writing, 
and 46 percent required remedial reading. Students requiring 
remediation can use as much as a full year of eligibility enhancing 
their math, and or reading/writing skills, thereby hampering their 
future postsecondary degree plans. A prior national goal was to provide 
access to quality higher education opportunities for all students 
regardless of economic means, at which TCUs have been extremely 
successful. While the new national goal is to produce the graduates 
with postsecondary degrees by 2020, this policy does not advance that 
goal. On the contrary, the new regulations will cause many low-income 
students to once again abandon their dream of a postsecondary degree, 
as they will simply not have the means to pursue it. The goal of a 
well-trained technical workforce will be greatly compromised. This new 
policy recalls the adage ``penny wise-pound foolish.'' The TCUs urge 
the Subcommittee to continue to fund this essential program at the 
highest possible level, and to direct the Secretary of Education to 
implement a process to waive the very restrictive 12 semester Pell 
Grant eligibility for TCU students.
            perkins career and technical education programs
    Tribally Controlled Postsecondary Career and Technical 
Institutions.--Section 117 of the Carl D. Perkins Career and Technical 
Education Act provides a competitively awarded grant opportunity for 
tribally chartered and controlled career and technical institutions. 
AIHEC requests $8,200,000 to fund grants under Sec. 117 of the Perkins 
Act, a modest increase of $54,000 over the President's fiscal year 2013 
budget request.
    Native American Career and Technical Education Program (NACTEP).--
NACTEP (Sec. 116) reserves 1.25 percent of appropriated funding to 
support American Indian career and technical programs. The TCUs 
strongly urge the Subcommittee to continue to support NACTEP, which is 
vital to the continuation of career and technical education programs 
offered at TCUs that provide job training and certifications to remote 
reservation communities.
  american indian adult and basic education (office of vocational and 
                            adult education)
    This program supports adult basic education programs for American 
Indians offered by State and local education agencies, Indian tribes, 
agencies, and TCUs. Despite a lack of funding, TCUs must find a way to 
continue to provide much-in-demand adult basic education classes for 
those American Indians that the present K-12 Indian education system 
has failed. Before many individuals can even begin the course work 
needed to learn a productive skill, they first must earn a GED or, in 
some cases, even learn to read. There is an extensive need for adult 
basic educational programs, and TCUs must have adequate and stable 
funding to provide these essential activities. TCUs request that the 
Subcommittee direct that $8 million of the funds appropriated annually 
for the Adult Education State Grants be made available to make 
competitive awards to TCUs to help meet the growing demand for adult 
basic education and remediation program services on their respective 
reservations.
  justifications for fiscal year 2013 appropriations requests for tcus
    Tribal colleges and our students are already disproportionately 
impacted by efforts to reduce the Federal budget deficit and control 
Federal spending. The final fiscal year 2011 continuing resolution 
eliminated all of the Department of Housing and Urban Development's MSI 
community-based programs, including a critical TCU-HUD facilities 
program. TCUs were able to maximize leveraging potential, often 
securing even greater non-Federal funding to construct and equip Head 
Start and early childhood centers; student and community computer 
laboratories and public libraries; and student and faculty housing in 
rural and remote communities where few or none of these facilities 
existed. Important STEM programs, operated by the National Science 
Foundation and NASA were cut, and for the first time since the NSF 
program was established in fiscal year 2001, no new TCU-STEM awards 
were made in fiscal year 2011. Additionally, TCUs and their students 
suffer the impact of cuts to programs such as GEAR-UP, TRIO, SEOG, and 
are greatly impacted by the new highly restrictive Pell eligibility 
criteria more profoundly than mainstream institutions of higher 
education, which can realize economies of scale due to large 
endowments, alternative funding sources, including the ability to 
charge higher tuition rates and enroll more financially stable 
students, and access to affluent alumni. The loss of opportunity that 
cuts to DoEd, HUD, and NSF programs represent to TCUs, and to other 
MSIs, is magnified by cuts to workforce development programs within the 
Department of Labor, nursing and allied health professions tuition 
forgiveness and scholarship programs operated by the Department of 
Health and Human Services, and an important TCU-based nutrition 
education program planned by USDA. Combined, these cuts strike at the 
most economically disadvantaged and health-challenged Americans.
    We respectfully ask the Members of the Subcommittee for their 
continued support of the nation's TCUs and full consideration of our 
fiscal year 2013 appropriations needs and recommendations.
                                 ______
                                 
 Prepared Statement of the Alliance of Information and Referral Systems
    The Alliance of Information and Referral Systems (AIRS) thanks you 
for providing the opportunity to submit testimony as you consider an 
fiscal year 2013 Labor-HHS, Education appropriations bill. AIRS is the 
national voice of Information and Referral/Assistance (I&R/A) and 
includes a membership of over 1,200 I&R/A providers in both public and 
private organizations, which includes 2-1-1 providers. Our primary 
purpose for submitting this testimony is to urge you to support Title 
IIIB--Supportive Services funding of the Older Americans Act (OAA) as 
this provides Federal funding to the States for I&R/A.
    As you know, in the President's fiscal year 2011 and fiscal year 
2012 budget, an increase of $48 million was proposed for Title IIIB of 
the OAA. AIRS was disappointed that an increase to IIIB was not 
recommended in the President's fiscal year 2013 budget. Given the 
economic climate, Information and Referral/Assistance (I&R/A) is a 
lifeline, bringing people and services together. Last year, AIRS 
members answered about 25 million calls for help. A top focus of the 
calls included housing, food, caregiver support, mental health, 
healthcare, transportation, employment, education and disaster 
services.
    Comprehensive and specialized I&R/A programs help people in every 
community and operate as a critical component of the health and human 
services delivery system. I&R/A organizations have databases of 
programs and services and disseminate information through a variety of 
channels to individuals and communities.
    While our preference is for an increase of $48 million to be 
reflected in this year's appropriations, at a minimum, we encourage you 
to maintain the funding level of $367 million for Title III B of the 
Older Americans Act. Thank you for your consideration as well as the 
opportunity to submit this testimony.
                                 ______
                                 
          Prepared Statement of the American Lung Association
    The American Lung Association is pleased to present our 
recommendations for fiscal year 2013 to the Labor, Health and Human 
Services, and Education Appropriations Subcommittee. The public health 
and research programs funded by this committee will prevent lung 
disease and improve and extend the lives of millions of Americans. 
Founded in 1904 to fight tuberculosis, the American Lung Association is 
the oldest voluntary health organization in the United States. The 
American Lung Association is the leading organization working to save 
lives by improving lung health and preventing lung disease through 
education, advocacy and research.
                  a sustained investment is necessary
    Mr. Chairman, investments in prevention and wellness pay near- and 
long-term dividends for the health of the American people. A recent 
study published in the American Journal of Public Health showed 
Washington State saved $5 in tobacco-related hospitalization costs for 
every $1 the State invested in its tobacco control and prevention 
program from 2000-2009. In order to save healthcare costs in the long-
term, investments must be made in proven public health interventions 
including tobacco control, asthma programs and TB infrastructure.
Lung Disease
    Each year, more than 400,000 Americans die of lung disease. It is 
America's number three killer, responsible for 1 in every 6 deaths. 
More than 33 million Americans suffer from a chronic lung disease and 
it costs the economy an estimated $173 billion each year. Lung diseases 
include: lung cancer, asthma, chronic obstructive pulmonary disease 
(COPD), tuberculosis, pneumonia, influenza, sleep disordered breathing, 
pediatric lung disorders, occupational lung disease and sarcoidosis.
Improving Public Health and Maintaining Our Investment in Medical 
        Research
    The American Lung Association strongly supports increasing overall 
CDC funding to $7.8 billion in order for CDC to carry out its 
prevention mission and to assure an adequate translation of new 
research into effective State and local programs.
    The United States must also maintain its commitment to medical 
research. While our focus is on lung disease research, we support 
increasing the investment in research across the entire NIH with 
particular emphasis on the National Heart, Lung and Blood Institute, 
the National Cancer Institute, the National Institute of Allergy and 
Infectious Diseases, the National Institute of Environmental Health 
Sciences, the National Institute of Nursing Research, the National 
Institute on Minority Health and Health Disparities and the Fogarty 
International Center.
The Prevention and Public Health Fund
    The American Lung Association strongly supports the Prevention and 
Public Health Fund established in the Affordable Care Act and asks the 
Committee to oppose any attempts to divert or use the Fund for any 
purposes other than what it was originally intended. The Prevention 
Fund provides funding to critical public health initiatives, like 
community programs that help people quit smoking, support groups for 
lung cancer patients, and classes that teach people how to avoid asthma 
attacks. Money from the Prevention Fund has also been used to pay for 
the new CDC media campaign ``Tips from Former Smokers'' which resulted 
in over 33,000 people calling 1-800-QUIT-NOW during the campaign's 
first week of air. This represents a 128 percent increase in calls from 
the previous week.
Tobacco Use
    Tobacco use is the leading preventable cause of death in the United 
States, killing more than 443,000 people every year. Over 46 million 
adults and 3.6 million youth in the United States smoke. Annual 
healthcare and lost productivity costs total $193 billion in the United 
States each year.
    Given the magnitude of the tobacco-caused disease burden and how 
much of it can be prevented, the CDC Office on Smoking and Health (OSH) 
should be much larger and better funded. Historically, Congress has 
failed to invest in tobacco control--even though public health 
interventions have been scientifically proven to reduce tobacco use, 
the leading cause of preventable death in the United States. This 
neglect cannot continue if the Nation wants to prevent disease, promote 
wellness and reduce healthcare costs. The American Lung Association 
supports the President's budget request and urges that $197.1 million 
be appropriated to OSH for fiscal year 2013.
Asthma
    Asthma is highly prevalent and expensive. More than 25 million 
Americans currently have asthma, of whom 7 million are children. Asthma 
prevalence rates are over 37 percent higher among African-Americans 
than whites. Asthma is also the third leading cause of hospitalization 
among children under the age of 15 and is a leading cause of school 
absences from chronic disease. Asthma costs our healthcare system over 
$50.1 billion annually and indirect costs from lost productivity add 
another $5.9 billion, for a total of $56 billion annually.
    The American Lung Association strongly opposes the proposal in the 
President's budget request that would merge the National Asthma Control 
Program with the Healthy Homes/Lead Poisoning Prevention Program and 
further reduce funding for both. The Lung Association asks this 
Committee to retain the National Asthma Control Program as a stand-
alone program and appropriate $25.3 million to it in fiscal year 2013. 
In addition, we recommend that the National Heart, Lung, and Blood 
Institute receive $3.214 billion and the National Institute of Allergy 
and Infectious Diseases receive $4.689 billion, and that both agencies 
continue their investments in asthma research in pursuit of treatments 
and cures.
Lung Cancer
    Over 370,000 Americans are living with lung cancer. During 2011, 
approximately 221,000 new cases of lung cancer were diagnosed, and in 
2008, over 158,000 Americans died from lung cancer. Survival rates for 
lung cancer tend to be much lower than those of most other cancers. 
African-Americans are more likely to develop and die from lung cancer 
than persons of any other racial group.
    Lung cancer receives far too little attention and focus. Given the 
magnitude of lung cancer and the enormity of the death toll, the 
American Lung Association strongly recommends that the NIH and other 
Federal research programs commit additional resources to lung cancer. 
The National Lung Screening Trial showed promising results for a small 
segment of the population at high risk for developing lung cancer but 
more research must be done in order to see if others would similarly 
benefit. We support a funding level of $5.296 billion for the National 
Cancer Institute and urge more attention and focus on lung cancer.
Chronic Obstructive Pulmonary Disease (COPD)
    COPD is the third leading cause of death in the United States. It 
has been estimated that 13.1 million patients have been diagnosed with 
some form of COPD and as many as 24 million adults may suffer from its 
consequences. In 2008, 137,693 people in the United States died of 
COPD. The annual cost to the Nation for COPD in 2010 was projected to 
be $49.9 billion. We strongly support funding the National Heart, Lung, 
and Blood Institute and its lifesaving lung disease research program at 
$3.214 billion. The American Lung Association also asks the Committee 
to continue its support of the National Heart, Lung, and Blood 
Institute working with the CDC and other appropriate agencies to 
prepare a national action plan to address COPD, which should include 
public awareness and surveillance activities.
Influenza
    Public health experts warn that 209,000 Americans could die and 
865,000 would be hospitalized if a moderate flu epidemic hits the 
United States. To prepare for a potential pandemic, the American Lung 
Association supports funding the Federal CDC Influenza efforts at 
$159.6 million.
Tuberculosis (TB)
    There are an estimated 10 million to 15 million Americans who carry 
latent TB infection, and it is estimated that 10 percent of these 
individuals will develop active TB disease. In 2010, there were 11,182 
cases of active TB reported in the United States. While declining 
overall TB rates are good news, the emergence and spread of multi-drug 
resistant TB and totally drug resistant TB also poses a significant 
public health threat. We request that Congress increase funding for 
tuberculosis programs at CDC to $243 million for fiscal year 2013.
Additional Priorities
    We strongly encourage improved disease surveillance and health 
tracking to better understand diseases like asthma. We support an 
appropriations level of $35 million for the Environment and Health 
Outcome Tracking Network. We strongly recommend at least $52.8 million 
in funding for the Healthy Communities program and that it remain a 
separate, stand-alone program. This program supports investments in 
communities to identify and improve policies and environmental factors 
influencing health and reduce the burden of chronic diseases.
                               conclusion
    Mr. Chairman, lung disease is a continuing, growing problem in the 
United States. It is America's number three killer, responsible for 1 
in 6 deaths. Progress against lung disease is not keeping pace with 
progress against other major causes of death and more must be done. The 
level of support this committee approves for lung disease programs 
should reflect the urgency illustrated by the impact of lung disease.
                       fiscal year 2013 requests
Centers for Disease Control and Prevention (CDC)
    Increase overall CDC funding--$7.8 billion
    Funding Healthy Communities--$52.8 million
    Office on Smoking and Health--$197.1 million
    Asthma programs--$25.3 million
    Environment and Health Tracking Network--$35 million
    Tuberculosis programs--$243 million
    CDC influenza preparedness--$159.6 million
    NIOSH--$522.3 million
    Prevention and Public Health Fund--Please Protect the Fund
National Institutes of Health (NIH)
    Increase overall NIH funding--$32 billion
    National Heart, Lung, and Blood Institute--$3.214 billion
    National Cancer Institute--$5.296 billion
    National Institute of Allergy and Infectious Diseases--$4.689 
billion
    National Institute of Environmental Health Sciences--$717.9 million
    National Institute of Nursing Research--$151.178 million
    National Institute on Minority Health and Health Disparities--
$288.678 million
    Fogarty International Center--$72.7 million
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs
    The Association of Maternal and Child Health Programs (AMCHP), is 
pleased to submit testimony describing our request for $645 million in 
funding for fiscal year 2013 for the Title V Maternal and Child Health 
(MCH) Services Block Grant. This funding request is level with fiscal 
year 2012 and represents an $85 million decrease from its highest level 
of $730 million in fiscal year 2003. While this request does not 
address all of the needs of pregnant women, children and children with 
special healthcare needs, we recognize that in the current budget 
climate a request for increased funding would come at the detriment of 
other public health programs designed to promote optimal health for the 
very populations our programs serve.
    Additionally, we are gravely concerned about the proposed cuts to 
the Centers for Disease Control and Prevention (CDC). We urge you to 
recognize the value of health in improving the lives of American 
families. Further cuts to any programs that promote and protect the 
health of all Americans may seem penny wise but are definitely pound 
foolish.
    In 2010 the Title V MCH Services Block Grant provided support and 
services to 41 million American women, infants and children, including 
children with special healthcare needs. It has been proven a cost 
effective, accountable, and flexible funding source used to address the 
most critical, pressing and unique MCH needs of each State. States and 
jurisdictions use the Title V MCH Services Block Grant to design and 
implement a wide range of maternal and child health programs that meet 
national and State needs. Although specific initiatives may vary among 
the States and jurisdictions, all of them work with local, State, and 
national partners to accomplish the following:
  --Reduce infant mortality and incidence of disabling conditions among 
        children.
  --Increase the number of children appropriately immunized against 
        disease.
  --Increase the number of children in low-income households who 
        receive assessments and follow-up diagnostic and treatment 
        services.
  --Provide and ensure access to comprehensive perinatal care for 
        women; preventative and child care services; comprehensive 
        care, including long-term care services, for children with 
        special healthcare needs; and rehabilitation services for blind 
        and disabled children.
  --Facilitate the development of comprehensive, family centered, 
        community-based, culturally competent, coordinated systems of 
        care for children with special healthcare needs.
    In addition to providing services to over 40 million Americans, 
Title V MCH Services Block Grant programs save Federal and State 
governments' money by ensuring that people receive preventive services 
to avoid more costly chronic conditions later in life. Below are some 
examples of the cost effectiveness of maternal and child health 
interventions and the role of the Title V MCH Block Grant.
  --Comprehensive prenatal care is associated with reduced incidence of 
        low birth weight and infant mortality. State MCH programs link 
        uninsured women to available prenatal services, and coordinate 
        closely with State Medicaid programs to improve outreach and 
        enrollment services to eligible women. Preconception health is 
        a focus of many State MCH programs that work to improve women's 
        health prior to pregnancy in order to improve pregnancy related 
        outcomes.
  --Total medical costs are lower for exclusively breastfed infants 
        than never-breastfed infants since breastfed infants typically 
        need fewer sick care visits, prescriptions and 
        hospitalizations. State MCH programs promote breastfeeding by 
        developing educational materials for new mothers on 
        breastfeeding practices and providing information on 
        breastfeeding to all residents of their States through 
        websites, toll free telephone lines and coordinating with other 
        local and State programs.
  --Studies demonstrate that every $1 spent on smoking cessation 
        counseling for pregnant women saves $3 in neonatal intensive 
        care costs. State MCH programs fund state-wide smoking 
        cessation or ``quit lines'' for pregnant women and provide 
        education within their State about the dangers of smoking 
        during pregnancy, helping moms and moms-to-be quit smoking and 
        reducing their risk of premature birth.
  --Every $1 spent on preconception care programs for women with 
        diabetes can reduce health costs by up to $5.19 by preventing 
        costly complications in both mothers and babies. Investing $10 
        per person per year in community based disease prevention could 
        save more than $16 billion annually within 5 years. State MCH 
        and Chronic Disease programs work together at the State and 
        community levels to educate women, children and families about 
        the importance of physical activity, nutrition and obesity 
        prevention throughout the lifespan.
  --Early detection of genetic and metabolic conditions can lead to 
        reductions in death and disability as well as saved costs. For 
        example, phenylketonuria (PKU) a rare metabolic disorder 
        affects approximately 1 of every 15,000 infants born in the 
        United States. Studies have found that PKU screening and 
        treatment represent a net direct costs savings. State MCH 
        programs are responsible for assuring that newborn screening 
        systems are in place statewide and that clinicians are alerted 
        when follow up is required.
  --Early detection of physical and intellectual disabilities results 
        in more efficient and effective treatment and support for 
        children with special healthcare needs. High-quality programs 
        for children at risk produce strong economic returns ranging 
        from about $4 per dollar invested to over $10 per dollar 
        invested. State MCH programs administer the State and 
        territorial Early Childhood Comprehensive Systems Initiative to 
        support State and community efforts to strengthen, improve and 
        integrate early childhood service systems.
  --The injuries incurred by children and adolescents in 1 year create 
        total lifetime economic costs estimated at more than $50 
        billion in medical expenses and lost productivity. State MCH 
        programs examine data and translate it into information and 
        policy to positively impact the incidence of infant mortality 
        and other factors that may contribute to child deaths. State 
        MCH programs invest in injury prevention programs, including 
        State and local initiatives to promote the proper use of child 
        safety seats and helmets. Additionally State MCH programs 
        promote safe sleeping practices to prevent Sudden Infant Death 
        Syndrome (SIDS).
  --The total cost of adolescent health risk behaviors is estimated to 
        be $435.4 billion per year. Risky behaviors have impact on the 
        health and well-being of adolescents included smoking, binge 
        drinking, substance abuse, suicide attempts and high risk 
        sexual behavior. State MCH programs and their partners address 
        access to healthcare, violence, mental health and substance 
        use, reproductive health and prevention of chronic disease 
        during adulthood. State MCH programs often support State 
        adolescent health coordinators who work to improve the health 
        of adolescents within their States and territories.
    Members of Congress contend that savings in such as these will not 
be realized in the near future and therefore won't result in immediate 
savings in these tight fiscal times. But today we can highlight a real-
time example of how the Title V MCH Services Block Grant has played a 
role in helping save millions in annual healthcare costs. In Ohio, 
Title V played a lead role in providing funding for the Ohio Perinatal 
Quality Collaborative (OPQC). The OPQC is charged with reducing preterm 
births and improving outcomes of preterm newborns. Using the Institute 
for Healthcare Improvement Breakthrough Series, OPQC worked with 20 
maternity hospitals (47 percent of all births in the State) through a 
collaborative focused on several obstetric improvement projects. OPQC 
reports that as a result of their efforts over 9,000 births are full 
term and that approximately 250 NICU admissions have been avoided. OPQC 
estimates approximately $10 million in annual healthcare cost savings. 
Other States have similar initiatives and we are tracking their 
successes.
    The Title V MCH Services block grant is the foundation upon which 
State and territorial maternal and child health programs are built. 
Without a Federal investment the aforementioned savings will not be 
realized and our Nation's ability to address the most pressing needs of 
these vulnerable populations will not be possible. The Title V MCH 
Service Block Grant supports a system which treats a whole person, not 
by their specific disease and AMCHP therefore strongly urge you to 
sustain this investment at $645 million in fiscal year 2013.
    In addition to the Title V MCH block grant AMCHP is extremely 
concerned about current proposals to cut funding from other core 
programs designed to assure the health of our Nation's families. We 
strongly urge you to sustain funding for the Centers for Control and 
Prevention (CDC). It is short sighted and counterproductive to further 
cut discretionary funding for prevention in the interest of deficit 
reduction. CDC programs should be protected from further cuts that will 
have profound consequences on our capacity to address the needs of the 
most vulnerable.
                                 ______
                                 
 Prepared Statement of the Association of Minority Health Professions 
                                Schools
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wayne J. 
Riley, Chairman of the Board of Directors of the Association of 
Minority Health Professions Schools (AMHPS) and the President and Chief 
Executive Officer of Meharry Medical College. AMHPS, established in 
1976, is a consortium of our Nation's 12 historically black medical, 
dental, pharmacy, and veterinary medicine schools. The members are two 
dental schools at Howard University and Meharry Medical College; four 
colleges of medicine at The Charles Drew University, Howard University, 
Meharry Medical College, and Morehouse School of Medicine; five schools 
of pharmacy at Florida A&M University, Hampton University, Howard 
University, Texas Southern University, and Xavier University; and one 
college of veterinary medicine at Tuskegee University. In all of these 
roles, I have seen firsthand the importance of minority health 
professions institutions and the Title VII Health Professions Training 
programs.
    Mr. Chairman, I speak for our institutions, when I say that the 
minority health professions institutions and the Title VII Health 
Professionals Training programs address a critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. 
Furthermore, even after the landmark passage of health reform, it is 
important to note that our Nation's health professions workforce does 
not accurately reflect the racial composition of our population. For 
example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. Mr. Chairman, I would like to share with you how 
your committee can help AMHPS continue our efforts to help provide 
quality health professionals and close our Nation's health disparity 
gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need--even in austere 
financial times.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA)--during the Bush administration--entitled ``The 
Rationale for Diversity in the Health Professions: A Review of the 
Evidence'' found that minority health professionals serve minority and 
other medically underserved populations at higher rates than non-
minority professionals. The report also showed that; minority 
populations tend to receive better care from practitioners who 
represent their own race or ethnicity, and non-English speaking 
patients experience better care, greater comprehension, and greater 
likelihood of keeping follow-up appointments when they see a 
practitioner who speaks their language. Studies have also demonstrated 
that when minorities are trained in minority health profession 
institutions, they are significantly more likely to: (1) serve in rural 
and urban medically underserved areas, (2) provide care for minorities 
and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    In fiscal year 2013, funding for the Title VII Health Professions 
Training programs must be robust, especially the funding for the 
Minority Centers of Excellence (COEs) and Health Careers Opportunity 
Program (HCOPs). In addition, the funding for the National Institutes 
of Health (NIH)'s National Institute on Minority Health and Health 
Disparities (NIMHD), as well as the Department of Health and Human 
Services (HHS)'s Office of Minority Health (OMH), should be preserved.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions to the training 
of minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs. For fiscal year 2013, I recommend a 
funding level of $24.602 million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. For fiscal year 2013, I recommend a funding level 
of $22.133 million for HCOPs.
National Institutes of Health
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI), newly moved to the National 
Institute on Minority Health and Health Disparities has a long and 
distinguished record of helping our institutions develop the research 
infrastructure necessary to be leaders in the area of health 
disparities research. Although NIH has received unprecedented budget 
increases in recent years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2013.
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professions institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through its Centers of Excellence 
program. For fiscal year 2013, I recommend funded increases 
proportional with the funding of the overall NIH, with increased FTEs.
Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: 
assisting medically underserved communities with the greatest need in 
solving health disparities and attracting and retaining health 
professionals; assisting minority institutions in acquiring real 
property to expand their campuses and increase their capacity to train 
minorities for medical careers; supporting conferences for high school 
and undergraduate students to interest them in health careers, and 
supporting cooperative agreements with minority institutions for the 
purpose of strengthening their capacity to train more minorities in the 
health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2013, I recommend a funding level 
of $65 million for the OMH.
Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions (HBGI) program (Title III, Part B, Section 326) is 
extremely important to AMHPS. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2013, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
AMHPS' member institutions and the Title VII Health Professions 
Training programs and the historically black health professions schools 
can help this country to overcome health disparities. Congress must be 
careful not to eliminate, paralyze or stifle the institutions and 
programs that have been proven to work. The Association seeks to close 
the ever widening health disparity gap. If this subcommittee will give 
us the tools, we will continue to work towards the goal of eliminating 
that disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
         Prepared Statement of the American Nurses Association
    The American Nurses Association (ANA) appreciates the opportunity 
to comment on fiscal year 2013 appropriations for the Title VIII 
Nursing Workforce Development Programs and Nurse-Managed Health 
Clinics. Founded in 1896, ANA is the only full-service professional 
association representing the interests of the Nation's 3.2 million 
registered nurses (RNs) through its State nurses associations, and 
organizational affiliates. The ANA advances the nursing profession by 
fostering high standards of nursing practice, promoting the rights of 
nurses in the workplace, and projecting a positive and realistic view 
of nursing.
    As the largest single group of clinical healthcare professionals 
within the health system, licensed registered nurses are educated and 
practice within a holistic framework that views the individual, family 
and community as an interconnected system that can keep us well and 
help us heal. As the Nation works toward restructuring the healthcare 
system by focusing on expanding access, decreasing cost, and improving 
quality; a significant investment must be made in strengthening the 
nursing workforce.
    ANA is grateful to the Subcommittee for your past commitment to 
Title VIII funding, and we understand the immense fiscal pressures the 
Subcommittee is facing. However, we respectfully request you support 
$251 million for the Nursing Workforce Development programs authorized 
under Title VIII of the Public Health Service Act in fiscal year 2013. 
Additionally, we respectfully request $20 million for the Nurse-Managed 
Health Clinics authorized under Title III of the Public Health Service 
Act in fiscal year 2013.
                  demand for nurses continues to grow
    A sufficient supply of nurses is critical in providing our Nation's 
population with quality healthcare now and into the future. Registered 
Nurses (RNs) and Advanced Practice Registered Nurses (APRNs) are the 
backbone of hospitals, community clinics, school health programs, home 
health and long-term care programs, and serve patients in many other 
roles and settings. The Bureau of Labor Statistics' (BLS) Employment 
Projections for 2010-2020 state the expected number of practicing 
nurses will grow from 2.74 million in 2010 to 3.45 million in 2020, an 
increase of 712,000 or 26 percent.
    Contrary to the good news that there are a growing number of 
nurses, the current nurse workforce is aging. According to the 2008 
National Sample Survey of Registered Nurses, over 1 million of the 
Nation's 2.6 million practicing RNs are over the age of 50. Within this 
population, more than 275,000 nurses are over the age of 60. As the 
economy continues to rebound, many of these nurses will seek 
retirement, leaving behind a significant deficit in the number of 
experienced nurses in the workforce. According to Douglas Staiger, 
author of a New England Journal of Medicine study, the nursing shortage 
will ``re-emerge'' from 2010 and 2015 as 118,000 nurses will stop 
working full time as the economy grows.
    Furthermore, as of January 1, 2011 baby boomers began turning 65 at 
the rate of 10,000 a day. With this aging population, the healthcare 
workforce will need to grow as there is an increase in demand for 
nursing care in traditional acute care settings as well as the 
expansion of non-hospital settings such as home care and long-term 
care.
    The BLS projections explain a need for 495,500 replacements in the 
nursing workforce, bringing the total number of job openings for nurses 
due to growth and replacements to 1.2 million by 2020. A shortage of 
this magnitude would be twice as large as any shortage experienced by 
this country since the 1960s. Cuts to Title VIII funding would be 
detrimental to the healthcare system and the patients we serve.
           title viii: nursing workforce development programs
    The Nursing Workforce Development programs, authorized under Title 
VIII of the Public Health Service Act (42 U.S.C. 296 et seq.), include 
programs such as Nursing Loan Repayment Program and Scholarships 
Program, (Sec. 846, Title VIII, PHSA); Advanced Nursing Education (ANE) 
Grants; (Sec. 811), Advanced Education Nursing Traineeships, (AENT); 
Nurse Anesthetist Traineeships (NAT): Comprehensive Geriatric Education 
Grants, (Sec. 855, Title VIII, PHSA); Nurse Faculty Loan Program, (Sec. 
846A, Title VIII, PHSA); and Nursing Workforce Diversity Grants, (Sec. 
821). These programs support the supply and distribution of qualified 
nurses to meet our nation's healthcare needs.
    Without support for Title VIII funding and nursing education; there 
will be a shortage of nurse educators. With a shortage of nurse 
educators, schools will have to turn away nursing students. With less 
financial assistance to deserving nursing students; there will be fewer 
nursing students. With fewer nursing students, there will be fewer 
nurses. As noted above, the nursing shortage will have a detrimental 
impact on the entire healthcare system.
    Numerous studies have shown that nursing shortages contribute to 
medical errors, poor patient outcomes, and increased mortality rates. A 
study published in the March 17, 2011 issue of the New England Journal 
of Medicine shows that inadequate staffing is tied to higher patient 
mortality rates. The study supports findings of previous studies and 
finds that higher than typical rates of patient admissions, discharges, 
and transfers during a shift were associated with increased mortality--
an indication of the important time and attention needed by RNs to 
ensure effective coordination of care for patients at critical 
transition periods.
    Over the last 48 years, Title VIII programs have provided the 
largest source of Federal funding for nursing education; offering 
financial support for nursing education programs, individual students, 
and nurse educators. These programs bolster nursing education at all 
levels, from entry-level preparation through graduate study and in many 
areas including rural and medically underserved communities.
    The American Association of Colleges of Nursing's (AACN) Title VIII 
Student Recipient Survey gathers information about Title VIII dollars 
and its impact on nursing students. The 2011-2012 survey, which 
included responses from over 1,600 students, stated that Title VIII 
programs played a critical role in funding their nursing education. The 
survey showed that 68 percent of the students receiving Title VIII 
funding are attending school full-time. Between fiscal year 2005 and 
2010 alone, the Title VIII programs supported over 400,000 nurses and 
nursing students as well as numerous academic nursing institutions, and 
healthcare facilities.
    However, current funding levels are falling short of the growing 
need. In fiscal year 2008 (most recent year statistics are available), 
the Health Resources and Services Administration (HRSA) was forced to 
turn away 92.8 percent of the eligible applicants for the Nurse 
Education Loan Repayment Program (NELRP), and 53 percent of the 
eligible applicants for the Nursing Scholarship program due to a lack 
of adequate funding. These programs are used to direct RNs into areas 
with the greatest need--including community health centers, departments 
of public health, and disproportionate share hospitals. Additionally 
according to the AACN Title VIII Student Recipient Survey, a record 
58,327 qualified applicants were turned away due to insufficient 
clinical teaching sites, a lack of faculty, limited classroom space, 
insufficient preceptors and budget cuts.
    Monies you appropriate for these programs help move nurses into the 
workforce without delay. Your investment in programs, and the nurses 
that participate, is returned by more students entering into the 
profession and serving in rural and underserved areas; by nurses 
continuing with their education and studying to be nurse practitioners, 
thereby addressing our Nation's growing need for primary care 
providers; or by going on to become a nurse faculty member and teaching 
the next generation of nurses. While the ANA appreciates the continued 
support of this Subcommittee, we are concerned that Title VIII funding 
levels have not been sufficient to address the growing nursing 
shortage. Registered Nurses (RNs) and Advanced Practice Nurses (APRNs) 
are key providers whose care is linked directly to the availability, 
cost, and quality of healthcare services. For these reasons and many 
more, we again respectfully request you appropriate $251 million for 
the Nursing Workforce Development programs authorized under Title VIII 
of the Public Health Service Act in fiscal year 2013.
                      nurse-managed health clinics
    A healthcare system must value primary care and prevention to 
achieve an improved health status of individuals, families and the 
community. Nurses are strong supporters of community and home-based 
models of care. We believe that the foundation for a wellness-based 
healthcare system is built in these settings and reduces the amount of 
both financial expenditures and human suffering. ANA supports the 
renewed focus on new and existing community-based programs such as 
Nurse Managed Health Centers (NMHCs).
    Currently, there are more than 200 Nurse Managed Health Centers 
(NMHCs) in the United States which have provided care to over 2 million 
patients annually. ANA believes that Nurse Managed Health Centers 
(NMHCs) are an efficient, cost-effective way to deliver primary 
healthcare services. NMHCs are effective in disease prevention and 
early detection, management of chronic conditions, treatment of acute 
illnesses, health promotion, and more. These clinics are also used as 
clinical sites for nursing education.
    The ANA again respectfully requests the committee provide $20 
million for the Nurse-Managed Health Clinics authorized under Title 
VIII of the Public Health Service Act in fiscal year 2013.
    Thank you for your time and your attention to this matter.
                                 ______
                                 
   Prepared Statement of the American National Red Cross and United 
                           Nations Foundation
    Chairman Tom Harkin, Ranking Member Richard Shelby, and Members of 
the Subcommittee, the American Red Cross and the United Nations 
Foundation appreciate the opportunity to submit testimony in support of 
measles control activities of the U.S. Centers for Disease Control and 
Prevention (CDC). The American Red Cross and the United Nations 
Foundation recognize the leadership that Congress has shown in funding 
CDC for these essential activities. We sincerely hope that Congress 
will continue to support the CDC during this critical period in measles 
control.
    In 2001, CDC--along with the American Red Cross, the United Nations 
Foundation, the World Health Organization, and UNICEF--founded the 
Measles Initiative, a partnership committed to reducing measles deaths 
globally. The current U.N. goal is to reduce measles deaths by 95 
percent by 2015 compared to 2000 estimates. The Measles Initiative is 
committed to reaching this goal by providing technical and financial 
support to governments and communities worldwide.
    The Measles Initiative has achieved ``spectacular'' results by 
supporting the vaccination of more than 1 billion children. Largely due 
to the Measles Initiative, global measles mortality dropped 74 percent, 
from an estimated 535,300 deaths in 2000 to 139,300 in 2010 (the latest 
year for which data is available). During this same period, measles 
deaths in Africa fell by 85 percent.

     FIGURE 1.--ESTIMATED NUMBER OF GLOBAL MEASLES DEATHS, 2000-2010
------------------------------------------------------------------------
                                                                Number
------------------------------------------------------------------------
2000.......................................................        535.3
2001.......................................................        528.8
2002.......................................................        373.8
2003.......................................................        484.3
2004.......................................................        331.4
2005.......................................................        384.8
2006.......................................................        227.7
2007.......................................................        130.1
2008.......................................................        137.5
2009.......................................................        177.9
2010.......................................................        139.3
------------------------------------------------------------------------

    Working closely with host governments, the Measles Initiative has 
been the main international supporter of mass measles immunization 
campaigns since 2001. The Initiative mobilized more than $870 million 
and provided technical support in more than 60 developing countries on 
vaccination campaigns, surveillance and improving routine immunization 
services. From 2000 to 2010, an estimated 9.6 million measles deaths 
were averted as a result of these accelerated measles control 
activities at a donor cost of less than $200/death averted, making 
measles mortality reduction one of the most cost-effective public 
health interventions.
    Nearly all the measles vaccination campaigns have been able to 
reach more than 90 percent of their target populations. Countries 
recognize the opportunity that measles vaccination campaigns provide in 
accessing mothers and young children, and ``integrating'' the campaigns 
with other life-saving health interventions has become the norm. In 
addition to measles vaccine, Vitamin A (crucial for preventing 
blindness in under nourished children), de-worming medicine (reduces 
malnutrition), and insecticide-treated bed nets (ITNs) for malaria 
prevention are distributed during vaccination campaigns. The scale of 
these distributions is immense. For example, more than 42 million ITNs 
were distributed in vaccination campaigns in the last few years. The 
delivery of multiple child health interventions during a single 
campaign is far less expensive than delivering the interventions 
separately, and this strategy increases the potential positive impact 
on children's health from a single campaign.
    The extraordinary reduction in global measles deaths contributed 
nearly 25 percent of the progress to date toward Millennium Development 
Goal #4 (reducing under five child mortality). However, since 2009, 
Africa has experienced outbreaks affecting 28 countries, resulting in a 
four-fold increase in reported measles cases and in 2011, Europe 
experienced over 30,000 cases with half of these cases in one country--
France. These outbreaks highlight the fragility of the last decade's 
progress. If mass immunization campaigns are not continued, measles 
deaths will increase rapidly with more than half a million deaths 
estimated for 2013 alone.
    To achieve the 2015 goal and avoid a resurgence of measles the 
following actions are required:
  --Fully implementing activities, both campaigns and strengthening 
        routine measles coverage, in India since it is the greatest 
        contributor to the global burden of measles.
  --Sustaining the gains in reduced measles deaths, especially in 
        Africa, by strengthening immunization programs to ensure that 
        more than 90 percent of infants are vaccinated against measles 
        through routine health services before their first birthday as 
        well as conducting timely, high quality mass immunization 
        campaigns.
  --Acceleration of MCV2 introduction in eligible countries with 
        support from the GAVI Alliance.
  --Securing sufficient funding for measles-control activities both 
        globally and nationally. The Measles Initiative faces a funding 
        shortfall of an estimated United States $112 million for 2012-
        2015. Implementation of timely measles campaigns is 
        increasingly dependent upon countries funding these activities 
        locally. The decrease in donor funds available at global level 
        to support measles elimination activities makes increased 
        political commitment and country ownership of the activities 
        critical for achieving and sustaining the global goal of 
        reducing measles mortality by 95 percent and supporting 
        regional measles elimination goals.
    If these challenges are not addressed, the remarkable gains made 
since 2000 will be lost and a major resurgence in measles deaths will 
occur.
    By controlling measles cases in other countries, U.S. children are 
also being protected from the disease. Measles can cause severe 
complications and death. A resurgence of measles occurred in the United 
States between 1989 and 1991, with more than 55,000 cases reported. 
This resurgence was particularly severe, accounting for more than 
11,000 hospitalizations and 123 deaths. Since then, measles control 
measures in the United States have been strengthened and endemic 
transmission of measles cases have been eliminated here since 2000. 
However, importations of measles cases into this country continue to 
occur each year. The costs of these cases and outbreaks are 
substantial, both in terms of the costs to public health departments 
and in terms of productivity losses among people with measles and 
parents of sick children. Studies show that a single case of measles in 
the United States can cost between $100,000 and $200,000 to control. 
The United States had 222 measles cases in 2011, the highest in 15 
years and Canada experienced a large outbreak of over 800 cases.
The Role of CDC in Global Measles Mortality Reduction
    Since fiscal year 2001, Congress has provided between $43.6 and 
$49.3 million annually in funding to CDC for global measles control 
activities. These funds were used toward the purchase of measles 
vaccine for use in large-scale measles vaccination campaigns in more 
than 80 countries in Africa and Asia, and for the provision of 
technical support to Ministries of Health. Specifically, this technical 
support includes:
  --Planning, monitoring, and evaluating large-scale measles 
        vaccination campaigns;
  --Conducting epidemiological investigations and laboratory 
        surveillance of measles outbreaks; and
  --Conducting operations research to guide cost-effective and high 
        quality measles control programs.
    In addition, CDC epidemiologists and public health specialists have 
worked closely with WHO, UNICEF, the United Nations Foundation, and the 
American Red Cross to strengthen measles control programs at global and 
regional levels. While it is not possible to precisely quantify the 
impact of CDC's financial and technical support to the Measles 
Initiative, there is no doubt that CDC's support--made possible by the 
funding appropriated by Congress--was essential in helping achieve the 
sharp reduction in measles deaths in just 10 years.
    The American Red Cross and the United Nations Foundation would like 
to acknowledge the leadership and work provided by CDC and recognize 
that CDC brings much more to the table than just financial resources. 
The Measles Initiative is fortunate in having a partner that provides 
critical personnel and technical support for vaccination campaigns and 
in response to disease outbreaks. CDC personnel have routinely 
demonstrated their ability to work well with other organizations and 
provide solutions to complex problems that help critical work get done 
faster and more efficiently.
    In fiscal year 2011 and fiscal year 2012, Congress appropriated 
approximately $49 million each year to fund CDC for global measles 
control activities. This amount represents a $2.7 million decrease from 
2010. The American Red Cross and the United Nations Foundation 
respectfully request a return to fiscal year 2010 funding levels ($52 
million) for fiscal year 2013 for CDC's measles control activities to 
protect the investment of the last decade, and prevent a global 
resurgence of measles and a loss of progress toward Millennium 
Development Goal #4.
    Your commitment has brought us unprecedented victories in reducing 
measles mortality around the world. In addition, your continued support 
for this initiative helps prevent children from suffering from this 
preventable disease both abroad and in the United States.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
      Prepared Statement of Americans for Nursing Shortage Relief
    The undersigned organizations of the ANSR Alliance greatly 
appreciate the opportunity to submit written testimony regarding fiscal 
year 2013 appropriations for the Title VIII Nursing Workforce 
Development Programs at the Health Resources and Services 
Administration (HRSA) and the Nurse Managed Health Clinics as 
authorized under Title III of the Public Health Service Act. We 
represent a diverse cross-section of healthcare and other related 
organizations, healthcare providers, and supporters of nursing issues 
that have united to address the national nursing shortage. ANSR stands 
ready to work with Congress to advance programs and policy that will 
ensure our Nation has a sufficient and adequately prepared nursing 
workforce to provide quality care to all well into the 21st century. 
The Alliance, therefore, urges Congress to:
  --Appropriate $251 million in funding for Nursing Workforce 
        Development Programs under Title VIII of the Public Health 
        Service Act at the Health Resources and Services Administration 
        (HRSA) in fiscal year 2013.
  --Appropriate $20 million in fiscal year 2013 for the Nurse Managed 
        Health Clinics as authorized under Title III of the Public 
        Health Service Act.
The Nursing Shortage
    Nursing is the largest healthcare profession in the United States. 
According to the National Council of State Boards of Nursing, there 
were nearly 3.854 million licensed RNs in 2010. Nurses and advanced 
practice nurses (nurse practitioners, nurse midwives, clinical nurse 
specialists, and certified registered nurse anesthetists) work in a 
variety of settings, including primary care, public health, long-term 
care, surgical care facilities, schools, and hospitals. The March 2008 
study, The Future of the Nursing Workforce in the United States: Data, 
Trends, and Implications, calculates an adjusted projected demand of 
500,000 full-time equivalent registered nurses by 2025. According to 
the U.S. Bureau of Labor Statistics, employment of registered nurses is 
expected to grow by 26 percent from 2010 to 2020 resulting in 711,900 
new jobs. Based on these scenarios, the shortage presents an extremely 
serious challenge in the delivery of high quality, cost-effective 
services.
Build Capacity of Nursing Education Programs and Enhance Nursing 
        Research
    New models of overall healthcare delivery are being developed to 
address a range of challenges in healthcare and impact the structure of 
the workforce and care delivery. Government estimates indicate the 
nursing shortage only promises to worsen due to an insufficient supply 
of individuals matriculating in nursing schools, an aging existing 
workforce, and the inadequate availability of nursing faculty to 
educate and train the next generation of nurses. At the exact same time 
that the nursing shortage is expected to worsen, the baby boom 
generation is aging and the number of individuals with serious, life-
threatening, and chronic conditions requiring nursing care will 
increase. Consequently, more must be done today by the Government to 
help ensure an adequate nursing workforce for the patients of today and 
tomorrow.
    A particular focus on securing and retaining adequate numbers of 
faculty is essential to ensure that all individuals interested in--and 
qualified for--nursing school can matriculate in the year that they are 
accepted. The National League for Nursing found that in the 2009-2010 
academic year,
  --42 percent of qualified applications to prelicensure RN programs 
        were turned away.
  --One in four (25.1 percent) of prelicensure RN programs turned away 
        qualified applicants.
  --Four out of five (60 percent) of prelicensure RN programs were 
        considered ``highly selective'' by national college admissions 
        standards, accepting less than 50 percent of applications for 
        admission.
    Aside from having a limited number of faculty, nursing programs 
struggle to provide space for clinical laboratories and to secure a 
sufficient number of clinical training sites at healthcare facilities.
    ANSR supports the need for sustained attention on the efficacy and 
performance of existing and proposed programs to improve nursing 
practices and strengthen the nursing workforce. The support of research 
and evaluation studies that test models of nursing practice and 
workforce development is integral to advancing healthcare for all in 
America. Investments in research and evaluation studies have a direct 
effect on the caliber of nursing care. Our collective goal of improving 
the quality of patient care, reducing costs, and efficiently delivering 
appropriate healthcare to those in need is served best by aggressive 
nursing research and performance and impact evaluation at the program 
level.
Strengthen the Capacity of the National Nursing Public Health 
        Infrastructure
    Nurses make a difference in the lives of patients from disease 
prevention and management to education to responding to emergencies. 
Nearly half of Americans suffer from one or more chronic conditions and 
chronic disease accounts for 70 percent of all deaths. An October 2008 
report issued by Trust for America's Health entitled ``Blueprint for a 
Healthier America'' found that the health and safety of Americans 
depends on the next generation of professionals in public health. 
Further, existing efforts to recruit and retain the public health 
workforce are insufficient. New policies and incentives must be created 
to make public service careers in public health an attractive 
professional path, especially for the emerging workforce and those 
changing careers.
    Public health nursing is the critical resources for healthy 
communities. Nurses are key healthcare workers that can help our Nation 
achieve its public health goals and protect our Nation from the full 
impact of disasters, both natural and man-made. Data from the 2000 
National Sample Survey of Registered Nurses (conducted by the Health 
Resources Services Administration, Division of Nursing) indicate that 
the number of registered nurses (RNs) employed in public/community 
health settings with the title ``public health nurse'' has decreased 
from 39 percent in 1980 to just 17.6 percent in 2000. Even in the 
overall public/community nursing group, there was a decrease of almost 
16 percent between 1996 and 2000.
    The shortage of school nurse positions contributes to holes in the 
healthcare safety net for all children. The Institute of Medicine 
report, ``The Future of Nursing: Leading Change, Advancing Health'', 
points out that with an expected increase in the number of children who 
have complex medical, genetic and mental/behavioral health conditions 
that require more nursing oversight, school nursing provides the 
expertise and coordination to assure that children receive the care 
they need.
Summary
    RNs, advanced practice registered nurses, and nursing faculty are 
all critically necessary to sustain an adequate supply of nurses 
available to deliver quality healthcare. The U.S. nursing shortage is 
part of a larger worldwide nursing shortage. The international scope of 
this problem makes it an immediate and critical need for our Nation to 
develop additional strategies to appeal to men and women to pursue 
nursing and teaching nursing as a profession. Congress specifies the 
mission of Title VIII is to ensure a sufficient national supply of 
nurses; Title VIII programs must be adequately funded to fulfill that 
important mission. ANSR requests $251 million in funding for Nursing 
Workforce Development Programs under Title VIII of the Public Health 
Service Act at HRSA and $20 million for the Nurse Managed Health 
Clinics under Title III of the Public Health Service Act in fiscal year 
2013.
                   list of ansr member organizations
Academy of Medical-Surgical Nurses
American Academy of Ambulatory Care Nursing
American Academy of Nurse Practitioners
American Academy of Nursing
American Association of Nurse Anesthetists
American Association of Nurse Assessment Coordination
American Association of Occupational Health Nurses
American College of Nurse-Midwives
American Organization of Nurse Executives
American Psychiatric Nurses Association
American Society for Pain Management Nursing
American Society of PeriAnesthesia Nurses
American Society of Plastic Surgical Nurses
Association for Radiologic & Imaging Nursing
Association of Pediatric Hematology/Oncology Nurses
Association of State and Territorial Directors of Nursing
Association of Women's Health, Obstetric & Neonatal Nurses
Citizen Advocacy Center
Dermatology Nurses' Association
Developmental Disabilities Nurses Association
Emergency Nurses Association
Infusion Nurses Society
International Association of Forensic Nurses
International Nurses Society on Addictions
International Society of Nurses in Genetics, Inc.
Legislative Coalition of Virginia Nurses
National Association of Clinical Nurse Specialists
National Association of Hispanic Nurses
National Association of Neonatal Nurses
National Association of Neonatal Nurse Practitioners
National Association of Nurse Massage Therapists
National Association of Nurse Practitioners in Women's Health
National Association of Orthopedic Nurses
National Association of Registered Nurse First Assistants
National Association of School Nurses
National Black Nurses Association
National Council of State Boards of Nursing
National Council of Women's Organizations
National Gerontological Nursing Association
National League for Nursing
National Nursing Centers Consortium
National Nursing Staff Development Organization
National Organization for Associate Degree Nursing
National Student Nurses' Association, Inc.
Nurses Organization of Veterans Affairs
Pediatric Endocrinology Nursing Society
Preventive Cardiovascular Nurses Association
RN First Assistants Policy & Advocacy Coalition
Society of Gastroenterology Nurses and Associates, Inc.
Society of Pediatric Nurses
Society of Trauma Nurses
Women's Research & Education Institute
Wound, Ostomy and Continence Nurses Society
                                 ______
                                 
      Prepared Statement of the American Psychological Association
    The American Psychological Association (APA) appreciates that the 
Committee is accepting outside witness testimony addressing the fiscal 
year 2013 Labor-HHS-Education appropriations bill. APA is a scientific 
and professional organization representing psychology in the United 
States, with 154,000 members and affiliates. APA's mission is to 
advance the creation, communication, and application of psychological 
knowledge to benefit society and improve people's lives. Although APA 
and its members have broad interests in many of the programs under the 
Subcommittee's jurisdiction, in this statement we highlight critical 
activities and funding needs in five agencies: the National Institutes 
of Health, Administration on Aging, Centers for Disease Control and 
Prevention, the Health Resources and Services Administration, and the 
Substance Abuse and Mental Health Services Administration.
    Substance Abuse and Mental Health Services Administration 
(SAMHSA).--SAMHSA's three component agencies have the primary Federal 
responsibility to mobilize and improve mental health and addiction 
services in the United States. The Center for Mental Health Services 
promotes improvements in mental health services that enhance the lives 
of adults who experience mental illnesses and children with serious 
emotional disorders; fills unmet and emerging needs; bridges the gap 
between research and practice; and strengthens data collection to 
improve quality and enhance accountability.
    APA strongly recommends that Congress allocate the fully authorized 
amount ($50 million) for SAMHSA's National Child Traumatic Stress 
Network (NCTSN) program which works to aid the recovery of children, 
families, and communities impacted by a wide range of trauma, including 
physical and sexual abuse, natural disasters, sudden death of a loved 
one, the impact of war on military families, and much more. 
Specifically, APA recommends that SAMHSA increase the number of NCTSN 
grantees and maintain the collaborative model envisioned in the 
original authorization.
    Racial and ethnic minorities represent 30 percent of our Nation's 
population, but only 23 percent of doctoral recipients in psychology, 
social work and nursing. The Minority Fellowship Program (MFP) is a 
unique workforce development initiative that trains ethnic minority 
mental and behavioral healthcare professionals to provide services to 
underserved communities. APA urges Congress to maintain level funding 
for MFP ($5.1 million). This funding is needed given the recent 
expansion of the program by granting eligibility to additional 
disciplines to participate.
    Administration on Aging (AoA).-- Older adults are one of the 
fastest growing segments of the U.S. population and approximately 25 
percent of older Americans have a mental or behavioral health problem. 
In particular, older white males (age 85 and over) currently have the 
highest rates of suicide of any group in the United States. 
Accordingly, APA urges an expanded effort to address the mental and 
behavioral health needs of older adults including implementation of the 
mental and behavioral health provisions in the Older Americans Act 
Amendments of 2006, to provide grants to States for the delivery of 
mental health screening, and treatment services for older individuals 
and programs to increase public awareness and reduce the stigma 
associated with mental disorders in older individuals. APA also 
recommends that AoA designate an officer to administer mental health 
services for older Americans.
    Family caregivers play an essential role in providing long-term 
services and supports for the chronically ill and aging. For this 
reason APA supports the Lifespan Respite Care Program and urges 
Congress to appropriate $5 million for this initiative.
    National Institutes of Health (NIH).--The APA supports the 
recommendation of the Ad Hoc Group for Medical Research that the 
Subcommittee recognize the National Institutes of Health (NIH) as a 
critical national priority by providing at least $32 billion in funding 
in fiscal year 2013. This recommendation represents the minimum 
investment necessary to avoid further loss of promising research and at 
the same time allows the NIH's budget to keep pace with biomedical 
inflation.
    While there are many programs at NIH worthy of being highlighted, 
we want to mention some initiatives that are critically important to 
APA's member scientists. Regarding the proposed reorganization of 
substance use, abuse and addiction research at NIH, APA has long been 
concerned that substance use, abuse and addiction research is 
significantly underfunded when weighed against the public health and 
public safety impact associated with alcohol, tobacco, and illicit 
substance use. Any newly reorganized entity must be greater than the 
sum of its parts. This Committee should encourage NIH to fully 
integrate the substance use and related research portfolios of all 
other NIH Institutes and Centers in order to develop a new 
infrastructure for conducting that research with particular attention 
to tobacco, comorbid mental health disorders, and other compulsive use 
behaviors. NIH should establish rigorous and transparent baselines to 
define current funding levels, and the allocation of those funds across 
the existing NIH Institutes and Centers to ensure the ability to assess 
the evolution of the portfolios and effectiveness of any organizational 
change. This Committee should encourage the continued active 
involvement of extramural scientists at every stage of this process as 
well as the Office of Behavioral and Social Sciences Research.
    To its credit NIH is moving quickly to identify the reasons, 
documented in a recent Science article, that black investigators are 
significantly less likely to receive RO1 awards than investigators from 
other racial groups. The Committee should encourage NIH to devote all 
necessary resources to this investigation and subsequent corrective 
action. Additional efforts should go toward enhancing the pipeline of 
minority investigators. The Office of Behavioral and Social Sciences 
Research should be commended for its support of a workshop addressing 
ways to establish a comprehensive and cohesive process to track the 
efforts of Government, universities, private foundations and 
associations to enhance minority participation in the sciences.
    APA is concerned that the budget of the Office of Behavioral and 
Social Sciences Research has been flat, at $27 million, for 3 years, 
and urges the Committee to provide an inflationary increase at a 
minimum.
    The National Institute on Aging (NIA) has been the focus of 
additional resources from the administration so that it may push 
forward its research on Alzheimer's disease, now that Congress has 
passed legislation authorizing a National Plan for Alzheimer's 
research, care and services. The Committee is encouraged to give full 
support to the NIA budget.
    Biomedical approaches to HIV prevention are most effective when 
they are combined with behavioral approaches. With recent scientific 
advances demonstrating the promise of biomedical HIV prevention 
interventions, behavioral research is needed more than ever to bolster 
medication adherence and treatment uptake, to document real-world 
decisionmaking processes associated with biomedical interventions, and 
to better understand potential unintended and/or undesired consequences 
of biomedical interventions. APA encourages the Committee to continue 
to press the National Institute on Mental Health to support a robust 
HIV/AIDS behavioral prevention research agenda that examines these 
factors, and includes operations research to optimize combination HIV 
prevention.
    Health Resources and Services Administration (HRSA), Bureau of 
Health Professions.--The APA requests that the Subcommittee include 
$4.5 million for the Graduate Psychology Education Program (GPE) within 
HRSA. An exemplary ``two-for-one'' Federal activity, this nationally 
competitive grant program supports the training of psychology graduate 
students while they provide mental and behavioral health services. In 
rural and urban underserved communities, services are provided under 
supervision at no charge to underserved populations, such as children, 
older adults, chronically ill persons, victims of abuse or trauma, 
including returning military personnel, veterans and their families, 
and the unemployed. To date there have been 125 grants in 32 States to 
universities and hospitals throughout the Nation. All psychology 
graduate students who benefited from GPE funds are expected to work 
with underserved populations and over 80 percent will work in 
underserved areas immediately after completing the training.
    The GPE Program is specifically authorized at between $10 million 
and $12 million per year by the Public Health Service Act [Section 
756(a)(2)]. Also Section 755(b)(1)(J) provides broader additional 
authority. HRSA receives appropriations for the program under its 
``Mental and Behavioral Health'' account in the Labor-HHS 
appropriations bill. GPE was included in the President's budget at its 
current funding level of $3 million.
    Established in 2002, GPE grants have supported the 
interdisciplinary training of over 3,000 graduate students of 
psychology and other health professions to provide integrated 
healthcare services to underserved populations. The fiscal year 2013 
GPE funding request will focus especially on providing services to 
returning military personnel, veterans and their families, unemployed 
persons and others affected by the economic downturn, and older adults 
in underserved communities. Also the GPE funding request will also be 
used to create training opportunities at our Nation's Federally 
Qualified Health Centers, which play a critical role in meeting the 
healthcare needs of our nation's underserved persons.
    Centers for Disease Control and Prevention (CDC).--As a member of 
the Centers for Disease Control and Prevention (CDC) Coalition, APA 
supports a minimum budget of $7.8 billion for CDC core programs in 
fiscal year 2013. CDC programs play a key role in maintaining a strong 
public health infrastructure, protecting Americans from public health 
threats and emergencies, and in reducing healthcare costs and 
strengthening the Nation's health system. The Prevention and Public 
Health Fund and other fund transfers heavily supplant program budgets 
in the fiscal year 2013 President's budget. The proposed $664 million 
cut to CDC's budget authority in the President's budget request would 
amount to a $1.4 billion decrease in CDC's budget authority since 
fiscal year 2010. APA urges the Subcommittee to restore this cut.
    APA is disappointed to see a decrease in funding of over 10 percent 
for the Prevention Research Centers (PRC) program in the President's 
budget request. A focus on prevention is essential to improving health 
in America and the PRC network of community, academic, and public 
health partners makes significant contributions to research on 
evidenced based approaches in health promotion. APA urges Congress to 
designate specific funding for the program again in fiscal year 2013, 
including the resources necessary to support the Prevention Research 
Centers so that this network of academic institutions and organizations 
can continue to contribute widely and effectively to prevention 
science.
    As a member of the Friends of the National Center for Health 
Statistics (NCHS), APA endorses the President's fiscal year 2013 
request of $162 million in funding for the agency's base discretionary 
budget. The health data collected by NCHS, on chronic disease 
prevalence, healthcare disparities, emergency room use, teen pregnancy, 
infant mortality, causes of death, and rates of insurance, to name a 
few, are essential to the Nation's statistical and public health 
infrastructure. Your leadership in securing steady and sustained 
funding increases for NCHS over the last 5 fiscal years has helped NCHS 
rebuild after years of underinvestment and restored the collection of 
essential health data. In particular, APA is pleased with the Center's 
progress in the past year field testing data collection methods for 
sexual orientation, and hopes for the expedient incorporation of this 
data, as well as that on gender identity, into the National Health 
Interview Survey and other appropriate surveys.
    APA is pleased to see the increase in funding for the National 
Center for HIV/AIDS, Viral Hepatitis, STD, and TB Prevention in the 
President's fiscal year 2013 budget, and in particular the $40.2 
million increase in funding for domestic HIV/AIDS prevention and 
research in line with the National HIV/AIDS Strategy. APA supports the 
maximum possible funding for HIV/AIDS prevention for fiscal year 2013 
to scale up combination HIV prevention. APA urges CDC to make 
additional funds available for screening for mental health and 
substance use disorders in HIV testing programs; behavioral 
interventions to optimize biomedical interventions; and operations 
research to inform implementation of high impact HIV prevention.
    As a member of the Injury and Violence Prevention Stakeholder 
Coalition, convened by the Safe States Alliance, APA supports 
restoration of the CDC Injury Center to its fiscal year 2011 level of 
$147 million and restoration of the Preventive Health and Health 
Services Block Grant to its fiscal year 2011 level of $100 million. The 
Injury Center and the Preventive Health and Health Services Block Grant 
are critical to the State and local injury and violence prevention 
efforts.
    Again, APA is grateful for the opportunity to present these 
recommendations for fiscal year 2013.
                                 ______
                                 
      Prepared Statement of the American Public Health Association
    The American Public Health Association is the oldest and most 
diverse organization of public health professionals and advocates in 
the world dedicated to promoting and protecting the health of the 
public and our communities. We are pleased to submit our views 
regarding fiscal year 2013 funding for the Centers for Disease Control 
and Prevention, the Health Resources and Services Administration and 
school-based health programs. We urge you to take our recommendations 
into consideration as you work to develop the fiscal year 2013 Labor-
HHS-Education appropriations bill.
CDC
    APHA believes that Congress should support CDC as an agency--not 
just the individual programs that it funds. In our best judgment--given 
the challenges and burdens of chronic disease, a potential influenza 
pandemic, terrorism, disaster preparedness, new and reemerging 
infectious diseases and our many unmet public health needs and missed 
prevention opportunities--CDC will require funding of at least $7.8 
billion for CDC's programs in fiscal year 2013. We are deeply 
disappointed with the proposed $664 million cut to CDC's budget 
authority contained in the President's fiscal year 2013 budget 
proposal. In fact, when including the President's fiscal year 2013 
request, CDC's budget authority would have been decreased by a 
staggering $1.4 billion since fiscal year 2010. While CDC has received 
and the President's fiscal year 2013 budget proposal directs 
significant funding from the Prevention and Public Health Fund to CDC, 
we believe this funding is essentially supplanting many of the cuts 
made to CDC's budget authority. We urge you to restore this cut to 
CDC's budget authority and to support the $1 billion available through 
Prevention and Public Health Fund in fiscal year 2013.
    By translating research findings into effective intervention 
efforts, CDC is a critical source of funding for many of our State and 
local programs that aim to improve the health of our communities. 
Perhaps more importantly, Federal funding through CDC provides the 
foundation for our State and local public health departments, 
supporting a trained workforce, laboratory capacity and public health 
education communications systems. We urge you to restore the proposed 
elimination of the Preventive Health and Health Services Block grant in 
the President's budget, which is a critical source of funding for State 
and local public health agencies.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the potential onset of a worldwide influenza pandemic, 
in addition to the many other natural and man-made threats that exist 
in the modern world, CDC has become the Nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak.
    CDC serves as the lead agency for bioterrorism and other public 
health emergency preparedness and response and must receive sustained 
support for its preparedness programs in order for our Nation to meet 
future challenges. Given the challenges of terrorism and disaster 
preparedness, and our many unmet public health needs and missed 
prevention opportunities we urge you to provide adequate funding for 
State and local capacity grants. Unfortunately, this is not a threat 
that is going away.
    The President's fiscal year 2013 budget proposes to consolidate a 
number of chronic disease programs within CDC to promote better 
coordination. If it is to be effective, we believe this proposal, the 
Coordinated Chronic Disease Prevention and Health Promotion program, 
must receive the resources needed to provide our States and communities 
increased and sustainable funding to effectively improve efforts to 
reduce the burden of chronic disease.
    We encourage the Subcommittee to restore funding for CDC's National 
Center for Environmental Health. Since 2009, NCEH funding has been cut 
by 25 percent. We urge the committee to restore funding for the Healthy 
Homes and Lead Poisoning Prevention program and to main the program and 
Asthma program as separate and distinct programs. We ask the 
Subcommittee to continue its recent efforts to maintain CDC's capacity 
to help the Nation prepare for and adapt to the potential health 
effects of climate change by providing CDC with level funding for 
climate change and health activities.
    We also urge you to restore funding for the Education and Research 
Centers and for the Agriculture, Forestry and Fishing Program (AFF) 
within the budget for the National Institute for Occupational Safety 
and Health which are proposed for elimination in the President's 
budget. These programs play an important role in protecting the health 
and safety of American workers.
HRSA
    HRSA operates programs in every State and territory and thousands 
of communities across the country and is a national leader in providing 
health services for individuals and families. The agency serves as a 
health safety net for the medically underserved, including the nearly 
50 million Americans who were uninsured in 2010 and 60 million 
Americans who live in neighborhoods where primary healthcare services 
are scarce. To respond to these challenges, APHA believes that the 
agency will require an overall funding level of at least $7 billion for 
fiscal year 2013.
    Our request of $7 billion represents the amount necessary for HRSA 
to continue to meet the healthcare needs of the American public. 
Anything less will undermine the efforts of HRSA programs to improve 
access to quality healthcare for millions of our neediest citizens. 
Additionally, we remain concerned about the deep cuts the agency has 
endured over the past few years; HRSA's discretionary budget has been 
reduced by more than $1.2 billion since fiscal year 2010. Cuts of this 
magnitude have had a serious negative impact on the agency's ability to 
carry out critical public health programs and services for millions of 
Americans. Therefore, our requested level of funding is necessary to 
ensure HRSA is able to implement public health programs including 
training for public health and healthcare professionals, providing 
primary care services through community health centers, improving 
access to care for rural communities, supporting maternal and child 
healthcare programs and providing healthcare to people living with HIV/
AIDS.
    Some of the major healthcare initiatives conducted by HRSA include:
  --Health Professions programs that support the education and training 
        of primary care physicians, nurses, dentists, optometrists, 
        physician assistants, public health personnel and other allied 
        health providers; improve the distribution and diversity of 
        health professionals in medically underserved communities and 
        ensure a sufficient and capable health workforce able to 
        provide care for all Americans and respond to the growing 
        demands of our aging and increasingly diverse population. In 
        addition, the Patient Navigator Program helps individuals in 
        underserved communities, who suffer disproportionately from 
        chronic diseases, navigate the health system.
  --Primary Care programs that support more than 7,000 community health 
        centers and clinics in every State and territory, improving 
        access to preventive and primary care in geographically 
        isolated and economically distressed communities. In addition, 
        the health centers program targets populations with special 
        needs, including migrant and seasonal farm workers, homeless 
        individuals and families, and those living in public housing.
  --Maternal and Child Health programs including the Title V Maternal 
        and Child Health Block Grant, Healthy Start and others support 
        a myriad of initiatives designed to promote optimal health, 
        reduce disparities, combat infant mortality, prevent chronic 
        conditions, and improve access to quality healthcare for more 
        than 40 million women and children, including children with 
        special healthcare needs.
  --HIV/AIDS programs that provide assistance to metropolitan and other 
        areas most severely affected by the HIV/AIDS epidemic; support 
        comprehensive care, drug assistance and support services for 
        people living with HIV/AIDS; provide education and training for 
        health professionals treating people with HIV/AIDS; and address 
        the disproportionate impact of HIV/AIDS on women and 
        minorities.
  --Family Planning Title X services that ensure access to a broad 
        range of reproductive, sexual, and related preventive 
        healthcare for more than 5.2 million poor and low-income women, 
        men and adolescents at nearly 4,400 health centers nationwide. 
        This program helps improve maternal and child health outcomes 
        and promotes healthy families.
  --Rural Health programs improve access to care for the more than 60 
        million Americans who live in rural areas. These programs 
        support community-based disease prevention and health promotion 
        projects, help rural hospitals and clinics implement new 
        technologies and strategies, and build health system capacity 
        in rural and frontier areas.
  --Special Programs that include the Organ Procurement and 
        Transplantation Network, the National Marrow Donor Program, the 
        C.W. Bill Young Cell Transplantation Program, and National Cord 
        Blood Inventory, which help people who need potentially life-
        saving transplants by connecting patients, doctors, donors, and 
        researchers to the resources they need to live longer, 
        healthier lives.
School Health
    Nearly one-third of students in the United States do not graduate 
from high school, and for Black, Latino and American Indian students, 
the number is half. As indicated in Healthy People 2020, the leading 
indicator determining health status in the United States is graduation 
from high school. Thus, graduation from high school is not only a 
predictor of economic success but also of long-term health.
    Some of the social factors that influence whether or not a student 
remains in school and graduates simultaneously influence their health 
and vice versa. That is why these factors are also included in the 
adolescent health objectives of Healthy People 2020. A number of 
studies now recognize the cause and effect between social determinants 
of health and achievement. The October 2011 issue of the Journal of 
School Health identified seven educationally related health disparities 
that contribute to the achievement gap and ultimately school dropout: 
(1) hunger, (2) aggression and violence, (3) teen pregnancy, (4) 
asthma, (5) vision, (6) physical, and (7) inattention and 
hyperactivity.
    SBHCs can address these issues and improve educational success of 
at-risk students. Studies have also shown that SBHCs create the 
conditions needed for educational success by meeting student's physical 
and mental healthcare needs. They have been shown to reduce 
absenteeism, improve grade point average, and improve the overall 
school climate.
    We urge you to provide the $50 million in fiscal year 2013 for 
operation of school-based health centers as authorized in the Patient 
Protection and Affordable Care Act. We also urge you to consider the 
social factors that influence health and ultimately graduation and ask 
you to provide $120 million for programs in the Office of Safe and 
Healthy Students in the U.S. Department of Education.
Conclusion
    In closing, we emphasize that public health programs require 
stronger financial investments at every stage. Funding for these 
programs makes up only a fraction of Federal spending and continued 
cuts to public health and prevention programs will not balance our 
budget, it will only lead to increased costs to our healthcare system. 
Successes in biomedical research must be translated into tangible 
prevention opportunities, screening programs, lifestyle and behavior 
changes and other population-based interventions that are effective and 
available for everyone. Without a robust and sustained investment in 
our Nation's public health programs and agencies, we will fail to meet 
the mounting health challenges facing our Nation.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) appreciates the 
opportunity to submit this statement supporting funding for the Low-
Income Home Energy Production Assistance Program (LIHEAP) for fiscal 
year 2013.
    APPA has consistently supported an increase in the authorization 
level for LIHEAP. The administration's fiscal year 2013 budget requests 
$3 billion for LIHEAP--a cut of $452 million from fiscal year 2012 
levels. APPA supports extending the current level of $5.1 billion for 
the program.
    APPA is the national service organization representing the 
interests of over 2,000 municipal and other State and locally owned 
utilities throughout the United States (all but Hawaii). Collectively, 
public power utilities deliver electricity to 1 of every 7 electricity 
consumers (approximately 46 million people), serving some of the 
Nation's largest cities. However, the vast majority of APPA's members 
serve communities with populations of 10,000 people or less.
    APPA is proud of the commitment that its members have made to their 
low-income customers. Many public power systems have low-income energy 
assistance programs based on community resources and needs. Our members 
realize the importance of having in place a well-designed, low-income 
customer assistance program combined with energy efficiency and 
weatherization programs in order to help consumers minimize their 
energy bills and lower their requirements for assistance. While highly 
successful, these local initiatives must be coupled with a strong 
LIHEAP program to meet the growing needs of low-income customers. In 
the last several years, volatile home-heating oil and natural gas 
prices, severe winters, high utility bills as a result of dysfunctional 
wholesale electricity markets and the effects of the economic downturn 
have all contributed to an increased reliance on LIHEAP funds. Even at 
$5.1 billion, LIHEAP cannot provide assistance to all who qualify for 
the program. Cutting this program by $2.5 billion would have very 
serious consequences for those who rely on the program.
    Also, when considering LIHEAP appropriations this year, we 
encourage the subcommittee to provide advanced funding for the program 
so that shortfalls do not occur in the winter months during the 
transition from one fiscal year to another. LIHEAP is one of the 
outstanding examples of a State-operated program with minimal 
requirements imposed by the Federal Government. Advanced funding for 
LIHEAP is critical to enabling States to optimally administer the 
program.
    Thank you again for this opportunity to relay our support for 
increased LIHEAP funding for fiscal year 2013.
                                 ______
                                 
Prepared Statement of the Association of Public Television Stations and 
                    the Public Broadcasting Service
    On behalf of America's 361 public television stations, we 
appreciate the opportunity to submit testimony for the record on the 
importance of Federal funding for local public television stations.
Corporation for Public Broadcasting--Fiscal Year 2015 Request: $445 
        million, 2-year advance funded
    More than 40 years after the inception of public broadcasting, 
local stations continue to serve as the treasured educational and 
cultural institutions envisioned by their founders, reaching America's 
local communities with unique, essential and unsurpassed programming 
and services.
    Public television treats its audience as citizens rather than mere 
consumers. We provide essential services to all Americans, not just the 
18-49 year olds to whom advertisers hope to appeal to because of that 
age group's spending habits. We serve everyone, everywhere, every day, 
for free.
    Public broadcasting serves the public good--in education, public 
affairs, public safety, the preservation of the national memory and 
celebration of the American culture, and many other areas--and richly 
deserves public support. The overwhelming majority of Americans agree. 
In a recent bipartisan poll conducted by Hart Research Associates/
American Viewpoint, nearly 70 percent of American voters, including 
majorities of self-identifying Republicans, Independents, and Democrats 
support continued Federal funding for public broadcasting. In addition, 
the same poll shows that Americans consider PBS to be the second most 
appropriate expenditure of public funds, behind only national defense.
    Federal support for CPB and local public television stations has 
resulted in a nationwide system of locally owned and controlled, 
trusted, community-driven and community responsive media entities.
    We seek Federal funding for public broadcasting because we are part 
of the Nation's public service infrastructure, just like public 
libraries, public schools and public highways.
    Furthermore, the power of digital technology has enabled stations 
to greatly expand their delivery platforms to reach Americans where 
they are increasingly consuming media--online and on-demand--in 
addition to on-air. At the same time that stations are expanding their 
services and the impact they have in their communities, stations are 
also facing unprecedented funding challenges--presenting them with the 
greatest financial hurdles in their 40 year history. Funding from 
traditional sources such as individuals, corporate underwriters, 
foundations and State governments has become increasingly more 
challenging to secure in this difficult economy. Continued Federal 
support for public broadcasting is more important now than ever before.
    Funding through CPB is absolutely essential to public television 
stations. Stations rely on the Federal investment to develop local 
programming, operate their facilities, pay their employees and provide 
community resources on-air, online and on-the-ground. This funding is 
particularly important to rural stations that struggle to raise local 
funds from individual donors due to the smaller and often economically 
strained population base. At the same time it is often more costly to 
serve rural areas due to the topography and distances between 
communities.
    More than 70 percent of funding appropriated to CPB reaches local 
stations in the form of Community Service Grants (CSGs). On average, 
Federal spending makes up approximately 15 percent of local television 
station's budgets. However, for many smaller and rural stations, 
Federal funding represents more than 30-50 percent (and in a handful of 
instances, an even larger percentage) of their total budget. For all 
stations, this Federal funding is the ``lifeblood'' of public 
broadcasting, providing critical seed money to local stations which 
leverage each $1 of the Federal investment to raise over $6 from State 
legislatures, private foundations and corporations, and ``viewers like 
you.''
    A 2007 GAO report concluded that Federal funding, such as CSGs, is 
an irreplaceable source of revenue, and that ``substantial growth of 
non-Federal funding appears unlikely.'' It also found that ``cuts in 
Federal funding could lead to a reduction in staff, local programming 
or services.'' This study was conducted before the severe economic 
recession that struck in 2008, and its findings may be even more acute 
today.
    At an annual cost of about $1.37 per year for each American--
compared with $68 in Japan and $83 in Great Britain--public 
broadcasting is a smart investment. This successful public-private 
partnership creates important economic activity while providing an 
essential educational and cultural service. Public broadcasting 
directly supports over 24,000 jobs, and the vast majority of them are 
in local public television and radio stations in hundreds of 
communities across America.
    In addition, the advent of digital technology has created enormous 
potential for stations, allowing them to bring content to Americans in 
new, innovative ways while retaining our fundamental public service 
mission. Public television stations are now utilizing a wide array of 
digital tools to expand their current roles as educators, local 
conveners and vital sources of trusted information at a time when their 
communities need them most. For example, in an effort to confront the 
dropout crisis in America's high schools, CPB has developed the 
American Graduate initiative, a significant investment and partnership 
with local stations and their communities to address this daunting 
problem that could have disastrous effects on America's future if it is 
not soon addressed. Together with schools and organizations that are 
already addressing the dropout crisis, the stations are providing their 
resources and services to raise awareness, coordinate action with 
community partners, and work directly with students, parents, teachers, 
mentors, volunteers and leaders to lower the drop-out rate in their 
respective communities.
    Public television is the Nation's largest classroom. Local stations 
provide free, cutting edge, educational content for all Americans so 
that regardless of their family's income, children have access to safe, 
non-commercial media that helps prepare them for success in school and 
has been proven to help close the achievement gap.
    Stations are also responding to the needs of the 21st century 
classroom by expanding digital educational resources for teachers, 
students and parents alike. For example, stations are working together 
with PBS to create an online portal, PBS Learning Media, where 
educators can access standards-based, curriculum-aligned digital 
learning objects created from public television content as well as 
material from the Library of Congress, National Archives, and other 
contributors to the Department of Education's Learning Registry. 
Stations are also building homegrown learning platforms like Maryland 
Public Television's Thinkport online system, which the State 
superintendent of schools has credited with helping raise Maryland's 
students to the top of the student achievement rankings nationwide.
    Local public television stations have also embraced the 
opportunities of digital technology as a way to help address emergency 
response and homeland security issues in their communities. Stations 
like Las Vegas PBS have integrated their digital technology with local 
public safety officials to provide enhanced emergency communications 
that better aide the responders and provide citizens with needed 
information during a crisis. Vegas PBS is also the largest job trainer 
in Nevada, and this manifold mission of service is being emulated by 
public television stations nationwide.
    Local public television stations serve as essential communications 
hubs in their communities providing unparalleled local coverage of 
news, current events, and State legislatures that encourages every 
American to become a more informed citizen. Public television is the 
place for real public affairs programming, real news, real history, 
real science, real art that makes us think, teaches us useful things, 
and inspires us to be a better, more sophisticated, more civilized, 
more successful people. We bring the wonders of the world--Broadway 
shows, the finest museums, the best professors and much more--to the 
most remote places in our country.
    In order for our stations to continue playing this vital role in 
their communities, APTS and PBS respectfully request $445 million for 
CPB, 2-year advance funded for fiscal year 2015.
    Two-year advance funding is essential to the mission of public 
broadcasting. This longstanding practice, which was proposed by 
President Ford and embraced by Congress in 1976, establishes a firewall 
insulating programming decisions from political interference, enables 
the leveraging of funds to ensure a successful public-private 
partnership, and provides stations with the necessary lead time to plan 
in-depth programming.
    The 2-year advance funding mechanism insulates programming 
decisions from political influence, as President Ford and the Congress 
intended in their initial proposal for advance funding.
    Public television's history of editorial independence has paid off 
in unprecedented levels of public trust--for the ninth consecutive 
year, the American people have ranked public broadcasting as one of the 
most trusted national institutions. Advance funding and the firewall it 
provides is vital to maintaining this credibility among the American 
public.
    In addition, local public broadcasting stations are able to 
leverage the 2-year advance funding to raise State, local and private 
funds, ensuring the continuation of this strong public-private 
partnership. These Federal funds act as essential seed money for 
fundraising efforts at every station, no matter its size.
    Finally, the 2-year advance funding mechanism also gives stations 
and producers the critical lead time needed to plan and produce high-
quality programs. The signature series that demonstrate the depth and 
breadth of public television, like Ken Burns' ``The Civil War'' and 
Henry Hampton's ``Eyes on the Prize'', take several years to produce. 
Ken Burns's documentary schedule is already planned through 2019, and 
it will educate the Nation on subjects ranging from the Dust Bowl to 
the Vietnam war to the history of country music.
    The fact that stations know they will have funding to support 
projects like these in advance is critical for producers to be able to 
actively develop groundbreaking projects. In addition to national 
programming, 2-year advance funding is essential to the creation of 
local programming over multiple fiscal years as stations convene the 
community to identify needs, recruit partners, conduct research, 
develop content and deliver services.
    The 2-year advance funding is essential for stations as they 
continue to plan the production of the unparalleled programming and 
local services that educate, inspire, inform and entertain the American 
people in the unique way only public broadcasting can.
Ready To Learn--Fiscal Year 2013 Request: $27.3 million (Department of 
        Education)
    The Ready to Learn Television competitive grant program's success 
in improving children's literacy and preparing them for school is 
proven and unquestioned. Ready to Learn combines the power of public 
media's on-air and online educational content with on-the-ground local 
station community engagement to build the literacy skills of children 
between the ages of two and eight, especially those from low-income 
families or those most lacking reading skills.
    Over the last 5 years, 60 independent studies have proven the 
effectiveness of public media's Ready to Learn approach. In one study 
pre-schoolers who were exposed to a curriculum composed of programming 
and interactive games from top Ready to Learn programs, including 
``SUPER WHY!'', ``Between the Lions'' and ``Sesame Street'', outscored 
children who received a comparison (science) curriculum in all five 
measures of early literacy. In addition, use of Ready to Learn 
curriculum has been proven to help close the achievement gap by 
enabling low-income students to catch up to their peers from high-
income households as shown when comparing standardized reading 
assessments.
    Pivoting off of this success in literacy, public media will expand 
its Ready to Learn effort to include early math skills to continue 
helping bridge the achievement gap by further innovating educational 
media content, educating kids inside and outside the classroom, and 
engaging local communities. This will include developing new content 
like a PBS KIDS TV math series and three new math TV pilots. In 
addition to the content, new tools will be provided including a 
sophisticated progress tracking system that equips parents and 
educators with the means to measure student progress, in real time. 
Ready to Learn will continue to be rigorously evaluated for its appeal 
and efficacy, so that the program can continue to offer America's 
youngest citizens the tools they need to succeed in school and in life.
    In addition to being research-based and teacher tested, the Ready 
to Learn Television program also provides excellent value for our 
Federal dollars. In the last 5-year grant round, public broadcasting 
leveraged an additional $50 million in funding to augment the $73 
million investment by the Department of Education for content 
production. Without the investment of the Federal Government, this 
supplemental funding would likely end.
    The President's budget proposes consolidating Ready to Learn into a 
larger grant program. APTS and PBS are concerned that the consolidation 
of this program could lead to the elimination of this critical program 
that has been the driving force behind the creation of public 
television's unparalleled children's educational programming. The 
proposed budget would significantly weaken Ready to Learn's unique 
local-national partnership between communities and their public media 
stations and PBS with its national scope and resources. This local-
national partnership has made Ready to Learn tremendously efficient and 
effective and is a key element of the successful operation of the 
program. Consolidation or elimination of the Ready to Learn Television 
program would severely affect the ability of local stations to respond 
to their communities' educational needs, removing the critical 
resources provided by this program for children, parents and teachers.
    Ready to Learn symbolizes the mission of public media and is a 
shining example of a public-private partnership as Federal funds are 
leveraged to create the most appealing and impactful children's 
educational content that is supplemented by online and on-the-ground 
resources. Without the Ready to Learn program, millions of families 
would lose access to this incredible high-quality education content, 
especially low-income and underserved households for whom this program 
is targeted.
    We urge the Committee to maintain the Ready to Learn Television 
program as a stable line-item in the fiscal year 2013 budget and resist 
the calls for consolidation. APTS and PBS respectfully request level 
funding of $27.3 million for the Ready to Learn Television program in 
fiscal year 2013.
    One hundred seventy million Americans regularly rely on public 
broadcasting--on television, on the radio, online, and in the 
classroom--because we provide them something they need that no one else 
in the media world provides: A place to think. A place to learn. A 
place to grow. A tool for the citizen. None of this would be possible 
without the Federal investment in public broadcasting.
    We request that Congress continue its commitment to this highly 
successful public-private partnership by continuing to provide level 
funding for the 2-year advance of the Corporation for Public 
Broadcasting and the Ready to Learn Program.
                                 ______
                                 
     Prepared Statement of the Association of Rehabilitation Nurses
                              introduction
    On behalf of the Association of Rehabilitation Nurses (ARN), I 
appreciate having the opportunity to submit written testimony to the 
Senate L-HHS Appropriations Subcommittee regarding funding for nursing 
and rehabilitation related programs in fiscal year 2013. ARN represents 
nearly 12,000 rehabilitation nurses that work to enhance the quality of 
life for those affected by physical disability and/or chronic illness. 
ARN understands that Congress has many concerns and limited resources, 
but believes that chronic illnesses and physical disabilities are heavy 
burdens on our society that must be addressed.
            rehabilitation nurses and rehabilitation nursing
    Rehabilitation nurses help individuals affected by chronic illness 
and/or physical disability adapt to their condition, achieve their 
greatest potential, and work toward productive, independent lives. We 
take a holistic approach to meeting patients' nursing and medical, 
vocational, educational, environmental, and spiritual needs. 
Rehabilitation nurses begin to work with individuals and their families 
soon after the onset of a disabling injury or chronic illness. We 
continue to provide support and care, including patient and family 
education, which empowers these individuals when they return home, or 
to work, or school. The rehabilitation nurse often teaches patients and 
their caregivers how to access systems and resources.
    Rehabilitation nursing is a philosophy of care, not a work setting 
or a phase of treatment. We base our practice on rehabilitative and 
restorative principles by: (1) managing complex medical issues; (2) 
interprofessional collaboration with other specialists; (3) providing 
ongoing patient/caregiver education; (4) setting goals for maximum 
independence; and (5) establishing plans of care to maintain optimal 
wellness. Rehabilitation nurses practice in all settings, including 
freestanding rehabilitation facilities, hospitals, long-term subacute 
care facilities/skilled nursing facilities, long-term acute care 
facilities, comprehensive outpatient rehabilitation facilities, home 
health, and private practices, just to name a few.
    As we celebrate the 2 year anniversary of the Affordable Care Act 
(ACA)--which focused on creating a system that will increase access to 
quality care, emphasizes prevention, and decreases costs--it is 
critical that a substantial investment be made in the nursing workforce 
programs and in the scientific research that provides the basis for 
nursing practice. To ensure that patients receive the best quality care 
possible, ARN supports Federal programs and research institutions that 
address the national nursing shortage and conduct research focused on 
nursing and medical rehabilitation, e.g., traumatic brain injury. 
Therefore, ARN respectfully requests that the Subcommittee provide 
increased funding for the following programs:
nursing workforce and development programs at the health resources and 
                     services administration (hrsa)
    ARN supports efforts to resolve the national nursing shortage, 
including appropriate funding to address the shortage of qualified 
nursing faculty. Rehabilitation nursing requires a high-level of 
education and technical expertise, and ARN is committed to assuring and 
protecting access to professional nursing care delivered by highly 
educated, well-trained, and experienced registered nurses for 
individuals affected by chronic illness and/or physical disability.
    According to the Health Resources and Services Administration 
(HRSA), in 2010, our healthcare workforce experienced a shortage of 
more than 400,000 nurses.\1\ The demand for nurses will continue to 
grow as the baby-boomer population ages, nurses retire, and the need 
for healthcare intensifies. Implementation of the new health reform law 
will also increase the need for a well-trained and highly skilled 
nursing workforce. The Institute of Medicine has released 
recommendations on how to help the nursing workforce meet these new 
demands, but we are destined to fall short of these lofty goals if 
there are not enough nurses to facilitate change.
---------------------------------------------------------------------------
    \1\ http://bhpr.hrsa.gov/healthworkforce/reports/nursing/
rnbehindprojections/4.htm.
---------------------------------------------------------------------------
    According to the U.S. Bureau of Labor Statistics, nursing is the 
Nation's top profession in terms of projected job growth, with more 
than 581,500 new nursing positions being created through 2018.\2\ These 
positions are in addition to the existing jobs that healthcare 
employers have not been able to fill. Educating new nurses to fill 
these gaping vacancies is a great way to put Americans back to work and 
simultaneously enhance an ailing healthcare system.
---------------------------------------------------------------------------
    \2\ http://www.bls.gov/oco/ocos083.htm#outlook.
---------------------------------------------------------------------------
    ARN strongly supports the national nursing community's request of 
$251 million in fiscal year 2013 funding for Federal Nursing Workforce 
Development programs at HRSA.
  national institute on disability and rehabilitation research (nidrr)
    The National Institute on Disability and Rehabilitation Research 
(NIDRR) provides leadership and support for a comprehensive program of 
research related to the rehabilitation of individuals with 
disabilities. As one of the components of the Office of Special 
Education and Rehabilitative Services at the U.S. Department of 
Education, NIDRR operates along with the Rehabilitation Services 
Administration and the Office of Special Education Programs.
    The mission of NIDRR is to generate new knowledge and promote its 
effective use to improve the abilities of people with disabilities to 
perform activities of their choice in the community, and also to expand 
society's capacity to provide full opportunities and accommodations for 
its citizens with disabilities. NIDRR conducts comprehensive and 
coordinated programs of research and related activities to maximize the 
full inclusion, social integration, employment and independent living 
of individuals of all ages with disabilities. NIDRR's focus includes 
research in areas such as: employment, health and function, technology 
for access and function, independent living and community integration, 
and other associated disability research areas.
    ARN strongly supports the work of NIDRR and encourages Congress to 
provide the maximum possible fiscal year 2013 funding level.
             national institute of nursing research (ninr)
    ARN understands that research is essential for the advancement of 
nursing science, and believes new concepts must be developed and tested 
to sustain the continued growth and maturation of the rehabilitation 
nursing specialty. The National Institute of Nursing Research (NINR) 
works to create cost-effective and high-quality healthcare by testing 
new nursing science concepts and investigating how to best integrate 
them into daily practice. Through grants, research training, and 
interprofessional collaborations, NINR addresses care management of 
patients during illness and recovery, reduction of risks for disease 
and disability, promotion of healthy lifestyles, enhancement of quality 
of life for those with chronic illness, and care for individuals at the 
end of life. NINR's broad mandate includes seeking to prevent and delay 
disease and to ease the symptoms associated with both chronic and acute 
illnesses. NINR's recent areas of research focus include the following:
  --End of life and palliative care in rural areas;
  --Research in multi-cultural societies;
  --Bio-behavioral methods to improve outcomes research; and
  --Increasing health promotion through comprehensive studies.
    ARN respectfully requests $150 million in fiscal year 2013 funding 
for NINR to continue its efforts to address issues related to chronic 
and acute illnesses.
                      traumatic brian injury (tbi)
    According to the Brain Injury Association of America, 1.7 million 
people sustain a traumatic brain injury (TBI) each year.\3\ This figure 
does not include the 150,000 cases of TBI suffered by soldiers 
returning from wars in Afghanistan and conflicts around the world.
---------------------------------------------------------------------------
    \3\ http://www.biausa.org/living-with-brain-injury.htm.
---------------------------------------------------------------------------
    The annual national cost of providing treatment and services for 
these patients is estimated to be nearly $60 million in direct care and 
lost workplace productivity. Continued fiscal support of the Traumatic 
Brain Injury Act will provide critical funding needed to further 
develop research and improve the lives of individuals who suffer from 
traumatic brain injury.
    Continued funding of the TBI Act will promote sound public health 
policy in brain injury prevention, research, education, treatment, and 
community-based services, while informing the public of needed support 
for individuals living with TBI and their families.
    ARN strongly supports the current work being done by the Centers 
for Disease Control and Prevention (CDC) and HRSA on TBI programs. 
These programs contribute to the overall body of knowledge in 
rehabilitation medicine.
    ARN urges Congress to support the following fiscal year 2013 
funding requests for programs within the TBI Act: $10 million for CDC's 
TBI registries and surveillance, prevention and national public 
education and awareness efforts; $8 million for the HRSA Federal TBI 
State Grant Program; and $4 million for the HRSA Federal TBI Protection 
and Advocacy Systems Grant Program.
                               conclusion
    ARN appreciates the opportunity to share our priorities for fiscal 
year 2013 funding levels for nursing and rehabilitation programs. ARN 
maintains a strong commitment to working with Members of Congress, 
other nursing and rehabilitation organizations, and other stakeholders 
to ensure that the rehabilitation nurses of today continue to practice 
tomorrow. By providing the fiscal year 2013 funding levels detailed 
above, we believe the Subcommittee will be taking the steps necessary 
to ensure that our Nation has a sufficient nursing workforce to care 
for patients requiring rehabilitation from chronic illness and/or 
physical disability.
                                 ______
                                 
   Prepared Statement of the Association for Research in Vision and 
                             Ophthalmology
Biomedical research investment
    Fiscal year 2013 is a pivotal time for the United States as the 
Nation's leaders work hard toward the goal of recovering from an 
historic economic recession. We agree with the President that education 
and innovation are crucial investments for growing the economy and 
creating jobs. We understand that difficult decisions have to be made 
about fiscal year 2013 appropriation priorities, with imposed counter 
pressures from the Budget Control Act. We urge Congress to carefully 
consider the long term impact of not investing in research and 
development (R&D) while other nations (e.g., China and India) increase 
their investment, and while the United States faces a critical need to 
control inflating healthcare costs. We were happy to see the importance 
of R&D investment reflected in the President's budgets for the National 
Science Foundation, the Department of Energy, and the Department of 
Agriculture. We think the Presidential budget for NIH, which did not 
maintain funding levels, is a mistake. Our Nation faces unprecedented 
aging eye disease costs; these will radically increase without proper 
investment in research that leads to treatments and cures.
Americans want biomedical research investment
    The American public recognizes the importance of biomedical 
research and is more likely to support candidates who support Federal 
biomedical research.\1\ Specifically, ``85 percent of likely voters are 
concerned about the impact of a decreased Federal investment in 
research, including the possibility of scientists leaving their 
profession or moving abroad to countries with a stronger research 
investment.'' \1\ Biomedical research investment is a long term 
strategy to ensure economic competitiveness of the United States. Each 
dollar NIH spends on research results in a two-fold economic return to 
local economies. NIH funding supports half a million U.S. jobs, 
including extramural research supported by 325,000 scientists at more 
than 3,000 institutions.\2\ In 2010, NIH funding ``directly and 
indirectly supported 487,900 jobs nationwide, leading to 15 States 
experiencing job growth of 10,000 or more.'' \2\ The spending results 
in complementary private investments,\2\ not even accounting for local 
growth near new research infrastructure (e.g., restaurants/other 
services). Unfortunately, 55,000 jobs were lost when American Recovery 
and Reinvestment Funding ended.\2\ Research is a marathon, not a 
sprint. Sustained investment over time is needed for progress. We urge 
elected representatives to consider what constituents value when making 
decisions about NIH funding appropriations.
---------------------------------------------------------------------------
    \1\ Research!America March 14, 2012 public opinion poll.
    \2\ United for Medical Research, May 2011, NIH Role in Sustaining 
the U.S. Economy.
---------------------------------------------------------------------------
    ARVO has two major requests for the Senate:
  --To recognize funding for the NIH as a national priority by funding 
        NIH in fiscal year 2013 at least $32 billion.
  --To recognize vision health as a national priority by funding the 
        NEI at $730 million.
    The requested funding levels will enable NIH and NEI to keep pace 
with inflation and continue extraordinary progress made toward 
improving vision health of the American public. Blindness prevention 
and vision restoration are crucial for reducing healthcare costs, 
maintaining productivity, ensuring independence, enhancing quality of 
life, enabling safe mobility and navigation of affected individuals and 
the community (e.g., driving safety). The $730 million requested for 
NEI is a small amount, considering the annual cost of eye disease 
(estimated in U.S. adults at $51.4 billion/year in 2007).\3\ The annual 
economic cost did not account for child eye care costs or the baby 
boomer demographic entered this decade, when the number of people 
turning 65-years-old each day rose from 1,000 people per day to 6,000 
people per day, continuing until 2029. Future eye care costs will be in 
proportion to the number of children affected by diabetic and other eye 
disease and the number of adults affected by aging eye diseases.\4\
---------------------------------------------------------------------------
    \3\ Prevent Blindness America, 2007, The Economic Impact of Vision 
Problems.
    \4\ Alliance for Aging Research, 2012, The Silver Book: Vision 
Loss, Volume II.
---------------------------------------------------------------------------
Biomedical infrastructure in crisis
    Rep. Paul Ryan (R-WI) outlined a 10-year Federal spending reduction 
plan earlier this month that did not recognize the crucial role that 
biomedical research spending plays for the economic growth and well-
being of our country. Meanwhile, the biomedical research institutions 
of our Nation, whose goal it is to address the national health needs 
through research are economically stressed from a variety of sources 
including: State budget restrictions, decreased availability of bridge 
and philanthropic funding, and added expenses from increased regulatory 
administrative costs detailed below.
Salary caps derail clinical research, new research programs and junior 
        researchers
    On January 20, 2012 NIH issued guidance on congressionally imposed 
salary caps, effectively reducing Executive Level II salaries by 
$20,000. This decision might look like an insignificant 1 percent 
budget reduction from a policy perspective. However, from a local 
perspective on individual institutions, this decision generated more 
interest than any other policy report by our organization in the past 4 
years. Below are some preliminary institutional administrative reports 
on the local impact.
  --The cap disproportionately affects clinician-scientists, who 
        already make lower salaries than their colleagues in private 
        practice and industry settings. Effectively, this cap pushes 
        them out of research at a time when the United States is 
        placing more emphasis on translational research.
  --Clinical departments are ceasing to offer seed money for new 
        faculty to jumpstart new research programs.
  --Post-doctoral researchers in clinical departments are being let go 
        (at the most vulnerable stage in their career) to address lost 
        NIH salary reimbursements. Post-docs are highly trained, 
        relatively poorly paid (around $40,000/year) junior 
        investigators, who frequently fall between the cracks as they 
        are not faculty, staff, or students.
  --John's Hopkins alone estimates the current salary cap will result 
        in a loss of $6.8 million per year in recoverable facility and 
        administration (F&A) costs, in addition to an earlier cap that 
        resulted in a $10 million per year loss in recoverable F&A.
Increased costs and reduced capacity
    A set of new guidelines for the care and use of animals is being 
implemented by NIH. The spirit and intent of the guidelines are 
currently being followed in a manner consistent with the scientific 
community concerns to limit the number of animals used and ensure they 
are not subjected to unnecessary discomfort and pain. However, the 
prescriptive nature of the new guidelines have the potential to be 
interpreted as regulations that leave little room for professional 
judgment based on local infrastructure and study specific variables. An 
uncertainty about interpretation of the guidelines by inspectors is 
certain to initiate changes in housing at great expense and loss of 
capacity to individual institutions.
    Transportation of animals is also being targeted. Non-human 
primates, while infrequently used in vision research, are very 
important and critical for certain studies. Members are starting to 
rely on expensive charters to ship research animals, as airlines are 
being targeted by passionate anti-animal research advocates.
    The regulatory, public policies and transportation issues for 
animal research are initiating a shift for pharmaceutical companies to 
move pharmaceutical testing to countries with less stringent 
regulations and easier access to research animals, which will be 
unfortunate for the humane treatment of animals and will mean a loss of 
jobs in the United States.
Approval path to a product graveyard
    Members who conduct translational studies report that the Food and 
Drug Administration (FDA) has a lack of a defined approval process for 
ophthalmic drugs. They report that it is difficult to attract investors 
for clinical trials in part because prior endeavors failed due to 
inappropriate endpoints or measurements. Investors simply will not 
invest in trials when they have to guess what steps are necessary to 
achieve regulatory approval. We understand why such challenges exist 
within FDA as the FDA has had to move from regulatory oversight of U.S. 
drugs/devices/biologics to an international oversight environment with 
limited budget for additional staff/resources. Yet, the FDA approval 
process is a critical barrier to product approval, a process that 
European countries made more efficient. Some companies and investors 
now start their studies in Europe instead of the United States, with a 
resulting loss of U.S. jobs due to these differences in regulatory 
environments.
So much vision progress at stake
    The very health of the vision research community is at stake with 
the proposed declines in NEI funding. Not only will funding for new 
investigators be at risk, but also that of seasoned investigators, 
which threatens the continuity of research and the retention of trained 
staff. When institutions must release staff due to lack of extramural 
funding, highly trained people are lost to the field. This is 
unfortunate. As NEI's fiscal year 2013 budget Director's overview 
stated, ``NEI made a considerable investment in basic research that is 
now creating unprecedented opportunities to develop new treatments that 
address the root cause of vision loss''. Examples of progress made with 
prior vision research investments include the following examples.
  --Better age-related macular degeneration therapies are expected to 
        reduce the incidence of legal blindness by 72 percent and 
        visual impairment by 37 percent in 2 years.\4\
  --Current treatments for abnormal blood vessel growth in diabetic 
        retinopathy patients reduced the rate of legal blindness within 
        5 years from 50 percent to less than 5 percent.\4\ Fifty 
        percent of treated patients experienced improved visual 
        function within 1 year. Laser treatment and vitrectomy reduced 
        the risk of blindness in patients with severe diabetic 
        retinopathy by 90 percent.\4\
  --Prescription eye drops delay or prevent 50 percent of glaucoma 
        cases in African Americans.\4\
  --Treatments that delay/prevent diabetic retinopathy now save the 
        United States $1.6 billion annually.\4\
    In summary, ARVO requests NEI funding at $730 million, reflecting 
biomedical inflation plus modest growth commensurate with that of NIH 
overall, since our Nation's investment in vision health is an 
investment in overall health. NEI's breakthrough research is a cost-
effective investment, since it is leading to treatments and therapies 
that can ultimately delay, save, and prevent health expenditures, 
especially those associated with the Medicare and Medicaid programs. It 
can also increase productivity, help individuals to maintain their 
independence, and generally improve the quality of life, especially 
since vision loss is associated with increased depression and 
accelerated mortality.
About ARVO
    ARVO is the world's largest international association of vision 
scientists (scientists who study diseases and disorders of the eye). 
More than 7,000 members are supported by NIH grant funding. Vision 
science is a multi-disciplinary field, but the NEI is the only 
freestanding NIH institute with a mission statement that specifically 
addresses vision research. ARVO supports increased fiscal year 2013 NIH 
funding.
    ARVO is also a member of the National Alliance for Eye and Vision 
Research, and supports their testimony. www.eyeresearch.org
                                 ______
                                 
                  Prepared Statement of Autism Speaks
    Chairman Harkin, Ranking Member Shelby, and members of the 
subcommittee, thank you for the opportunity to offer testimony on the 
importance of continued funding for autism.
    My name is Peter Bell and I am executive vice president of programs 
and services for Autism Speaks. My responsibilities at Autism Speaks 
include overseeing the foundation's family services and Government 
relations activities. I also serve as an advisor to our science 
division. Autism Speaks is the world's leading autism science and 
advocacy organization. Since its inception in 2005, Autism Speaks has 
committed over $173 million to autism research as well as developing 
innovative resources for individuals with autism and their families. 
Our mission is to change the future for those who live with autism. We 
do this through funding science, raising awareness, helping families, 
and advocating for those who live on the spectrum.
    I am also the proud father of a child with autism. His name is 
Tyler and he recently turned 19. In 1996 when my wife and I first heard 
the words ``your son has autism,'' we were stunned. Our only reference 
to autism at the time was from the Oscar-winning movie ``Rain Man.'' We 
had never known anyone with autism, nor did we know any families who 
had a child with autism. I suspect this would have been true for most 
of you on this committee. However, today, I'm willing to wager that 
every one of you personally knows someone or some family who is touched 
by autism. Each year, nearly 50,000 families hear those same words--
``your child has autism.''
    Twenty years ago, the experts estimated that 1 of every 2,500 
children had autism. The latest statistic, announced on March 29 by the 
Centers for Disease Control and Prevention (CDC), is 1 in 88, 1 in 54 
for boys. Increasingly we hear the word ``epidemic'' associated with 
autism in America. But we at Autism Speaks are hearing something else 
from the families in our community and it is getting louder by the day.
    And that is the question, ``what is our Government doing to 
confront this public health crisis?'' We are increasingly frustrated 
and frankly confused by what appears to be a lack of will from 
Washington. When the number of people on the spectrum is going up, why 
are the dollars for autism research and prevention going down?
    When Bob and Suzanne Wright founded Autism Speaks in 2005, they 
were shocked that a disorder as prevalent as autism commanded so little 
in terms of resources devoted to research and treatment when compared 
to other, less common disorders. Working together with thousands of 
families affected by autism, we were able to enact the Combating Autism 
Act of 2006. Signed by President Bush, this historic act was considered 
to be the most comprehensive piece of single-disease legislation ever 
passed by Congress. Last year, working with many of you in bipartisan 
fashion, the Combating Autism Act was reauthorized when President Obama 
signed a 3-year reauthorization into law on September 30.
    Autism Speaks and the 1 million plus members of our community are 
of course grateful for this funding. But we also recognize it provides 
but a fraction of the billion dollar a year commitment that had been 
promised by President Obama, a commitment that better reflects the 
actual need for funding meaningful research, treatment, and services. 
That disappointment has now been compounded by fears that the funding 
that was authorized just last September may now be in jeopardy as a 
result of this year's appropriations process.
    Funding for the CDC to continue prevalence research under the 
President's budget request was $700,000 below the $22 million 
authorized funding level and then inexplicably incorporated within the 
Prevention and Public Health Fund created under the Affordable Care 
Act. As you know, recent legislation reduces the fund by 20 percent in 
fiscal year 2013, further jeopardizing the CDC's autism surveillance 
activities. Since 2000, funding for this work has always been included 
within the CDC's total discretionary budget authority. It should 
continue there. Autism Speaks requests that you include $22 million for 
autism activities within the National Birth Defects Center, within 
CDC's discretionary budget authority.
    Further, we urge you to fully fund the basic and clinical research 
initiatives for autism at the levels called for under the Combating 
Autism Reauthorization Act (CARA). Specifically, we ask you to support 
at least $161 million for the NIH's autism research programs and $48 
million for HRSA's autism research, treatment, and training activities. 
We also urge the Subcommittee to fund CDC's autism activities within 
CDC's Discretionary Budget Authority.
    As I mentioned earlier, Autism Speaks has committed more than $173 
million through private fundraising to scientific research studies, 
fellowships, and scientific initiatives. Other private foundations have 
contributed in excess of $125 million. But we can't do this alone. We 
ask that Congress restore full funding as authorized under CARA for 
autism research, surveillance and treatment. And we ask that Washington 
treat autism as the epidemic it has become.
                                 ______
                                 
        Prepared Statement of the American Society of Hematology
    The American Society of Hematology (ASH) thanks the subcommittee 
for the opportunity to submit written testimony on the fiscal year 2013 
Departments of Labor, Health and Human Services, and Education 
appropriations bill.
    ASH represents approximately 14,000 clinicians and scientists 
committed to the study and treatment of blood and blood-related 
diseases. These diseases encompass malignant disorders such as 
leukemia, lymphoma, and myeloma; life-threatening conditions, including 
thrombosis and bleeding disorders; and congenital diseases such as 
sickle cell anemia, thalassemia, and hemophilia. In addition, 
hematologists have been pioneers in the fields of bone marrow 
transplantation, stem cell biology and regenerative medicine, gene 
therapy, and the development of many drugs for the prevention and 
treatment of heart attacks and strokes.
    Over the past 60 years, American biomedical research has led the 
world in probing the nature of human disease. This research has led to 
new medical treatments, saved innumerable lives, reduced human 
suffering, and spawned entire new industries. This research would not 
have been possible without support from the National Institutes of 
Health (NIH). NIH-funded research drives medical innovation that 
improves health and quality of life through new and better diagnostics, 
improved prevention strategies, and more effective treatments. 
Discoveries gained through basic research yield the medical advances 
that improve the fiscal and physical health of the country.
    Funding for hematology research has been an important component of 
this investment in the Nation's health. With the advances gained 
through an increasingly sophisticated understanding of how the blood 
system functions, hematologists have changed the face of medicine 
through their dedication to improving the lives of patients. As a 
result, children are routinely cured of acute lymphoblastic leukemia 
(ALL); more than 90 percent of patients with acute promyelocytic 
leukemia (APL) are cured with a drug derived from vitamin A; older 
patients suffering from previously lethal chronic myeloid leukemia 
(CML) are now effectively treated with well-tolerated pills; and 
patients with multiple myeloma are treated with new classes of drugs.
    Hematology advances also help patients with other types of cancers, 
heart disease, and stroke. Blood thinners effectively treat or prevent 
blood clots, pulmonary embolism, and strokes. Death rates from heart 
attacks are reduced by new forms of anticoagulation drugs. Stem cell 
transplantation can cure not only blood diseases but also inherited 
metabolic disorders, while gene therapy holds the promise of 
effectively treating even more genetic diseases. Even modest 
investments in hematology research have yielded large dividends for 
other disciplines.
Fiscal Year 2013 Funding Request
    ASH supports the recommendation of the Ad Hoc Group for Medical 
Research that the Subcommittee recognize NIH as a critical national 
priority by providing at least $32 billion in funding in the fiscal 
year 2013 Labor-HHS-Education appropriations bill. This funding 
recommendation represents the minimum investment necessary to avoid 
further loss of promising research and at the same time allows the 
NIH's budget to keep pace with biomedical inflation.
    It is critically important that our country continues to capitalize 
on the momentum of previous investments to drive research progress to 
develop new treatments for serious disorders, train the next generation 
of scientists, create jobs, and promote economic growth and innovation. 
Adequate funding is necessary for NIH to sustain current research 
capacity and encourage promising new areas of science and cures.
For Fiscal Year 2013, ASH Seeks Congressional Support for the Following 
        Activities
    In fiscal year 2013, ASH also urges the Subcommittee to recognize 
the following areas of hematology research that have shown impressive 
progress and offer the potential of future advances:
            Stem Cells and Regenerative Medicine: Improving Current 
                    Technologies to Cure Blood Disorders
    Hematologists have been at the forefront of research in stem cell 
biology by studying blood cell development and exploring stem cells' 
potential to repair damaged tissue, fight infections, and reduce 
autoimmune diseases. The techniques and principles used by 
hematologists in studying the blood system stem cells have been applied 
to stem cells from many other tissues with great success, spawning a 
huge research effort across all areas of medicine.
    Researchers have made significant progress in developing re-
programmed adult cells, called induced pluripotent stem (iPS) cells, 
which can subsequently develop into any tissue of the body. iPS cells 
can be generated and used in patients who have genetic blood diseases 
as well as other complex diseases because they will not be attacked by 
a patient's own immune system, they serve as a continuous source of 
cells, and they are amenable to genetic manipulation.
    Recent research has suggested that iPS cells can be manipulated to 
become blood stem cells and can be used as a transplant source for 
patients who do not have a matched donor. This will greatly enhance 
bone marrow and cord blood stem cell transplantation for the treatment 
of blood cancers and other hematologic disorders and subsequently 
inform our understanding of transplantation-related morbidities for 
other organs. iPS-generated red blood cells from rare blood types also 
could be used in blood banking as reagents to identify patients and 
blood units suitable for transfusion.
    Future stem cell advances are highly dependent on the ability to 
transplant stem cells at high efficiencies and then have them perform 
well once transplanted. However, several barriers remain that currently 
prevent the clinical translation of iPS cell technology. Compared to 
other sources of stem cells, iPS cells have slower growth kinetics, are 
more genomically unstable, and have decreased efficiency for 
differentiation. These barriers are also important areas for future 
research.
    ASH applauds the efforts of the National Heart, Lung, and Blood 
Institute (NHLBI) to conduct further research in the development of 
blood stem cells from iPS cells and to address the barriers to the 
clinical translation of iPS cell technology.
            Research in Sickle Cell Trait and Exercise-Related Illness
    Sickle cell disease (SCD) is an inherited blood disorder that 
affects 80,000-100,000 Americans, mostly but not exclusively of African 
ancestry. SCD causes production of abnormal hemoglobin, resulting in 
severe anemia, pain, other devastating disabilities, and, in some 
cases, premature death.
    Eight to 10 percent of African-Americans have sickle cell trait. 
Individuals with sickle cell trait do not have SCD, but are carriers of 
one defective gene associated with SCD. Millions of Americans with 
sickle cell trait enjoy normal life spans without serious health 
consequences. At the same time, possible health risks have been 
reported for individuals with sickle cell trait including increased 
incidence of renal failure and malignancy, thromboembolic disorders, 
splenic infarction as a high altitude complication, and exertion-
related sudden death.
    In April 2010, the National Collegiate Athletic Association (NCAA) 
adopted a policy requiring Division I institutions to perform sickle 
cell trait testing for all incoming student athletes. This policy has 
been controversial because there are no high quality (well-controlled, 
hypothesis-driven, prospective) studies on sickle cell trait and 
exertional collapse or evidence to justify it.
    There is a need for increased biomedical and population-based 
research on sickle cell trait and its relation to exertion-related 
illness as well as other conditions. Based on its 2010 Consensus 
Conference on this topic, NHLBI has identified a research agenda and 
ASH, the American Academy of Sports Medicine, and the NCAA have met to 
discuss potential studies to pursue. It is important that the research 
agenda is moved forward collaboratively under the direction of the 
NHLBI.
Conclusion
    Hematology research offers enormous potential to better understand, 
prevent, treat, and cure a number of blood-related and other 
conditions. Recent investments have created dramatic new research 
opportunities, spurring advancements and precipitating the promise of 
personalized medicine that will yield far-reaching health and economic 
benefits. Trials to find new therapies and cures for millions of 
Americans with blood cancers, bleeding disorders, clotting problems, 
and genetic diseases are just a few of the important projects that 
could be delayed unless NIH continues to receive predictable and 
sustained funding.
    ASH urges the Subcommittee to continue to be a champion for 
research and support at least $32 billion in funding for NIH in fiscal 
year 2013. The American people are depending on you to ensure the 
Nation does not lose the health and economic benefits of our 
extraordinary commitment to medical research.
    Thank you again for the opportunity to submit testimony. Please 
contact Tracy Roades, ASH Research Advocacy Manager, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6d2d4c9c7c2c3d5e6cec3cbc7d2c9cac9c1df88c9d4c1">[email&#160;protected]</a>, or Ulyana Desiderio, PhD, ASH Senior Manager 
for Scientific Affairs, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="780d1c1d0b111c1d0a111738101d15190c1714171f0156170a1f">[email&#160;protected]</a>, if you have any 
questions or need further information concerning hematology research or 
ASH's fiscal year 2013 funding request.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following statement on the fiscal year 2013 appropriation for the 
Centers for Disease Control and Prevention (CDC). The ASM is the 
largest single life science organization in the world with 
approximately 38,000 members. The ASM strongly supports the leadership 
role of CDC, in partnership with State and local health departments and 
global organizations, in safeguarding the public health and protecting 
against infectious disease threats through surveillance, laboratory 
diagnosis, and control and prevention strategies.
    The ASM is greatly concerned that the proposed fiscal year 2013 
budget for CDC of $5.1 billion represents a decrease of $664 million, 
or 11.6 percent. The CDC budget may be reduced in fiscal year 2013 by 
an additional 8 percent as the result of an across-the-board, 
sequestration provision in the Budget Control Act. The fiscal year 2013 
decreases accelerate declines in CDC's funding that have occurred in 
the past several years. Such cuts will inevitably have a severe impact 
on CDC's ability to protect the Nation from disease threats and public 
health emergencies. CDC oversees programs that are critical to 
addressing vaccine preventable diseases, foodborne diseases, pandemic 
influenza, vector-borne and zoonotic diseases, high consequence 
pathogens, antimicrobial resistance, healthcare acquired infections, 
and outbreak response activities. Because of declining funding for CDC 
in recent years, its core infectious disease budget has eroded and 
these reductions threaten core epidemiology, laboratory and 
surveillance capacity, as well as modern technologies and methods to 
ensure that CDC laboratories, researchers and outbreak response teams 
are able to continue critical infectious disease activities. In the 
past, declines in resources for prevention and control of infectious 
diseases have resulted in disease reemergence, leading to significantly 
higher costs for the healthcare system and for disease containment 
efforts. The ominous increase in measles cases seen in the United 
States in 2011 is an example of the potential for disease reemergence 
when public health programs are not optimized.
    Although concerned about CDC's overall budget, the ASM does support 
those areas that have received funding increases. These include the 
proposed increase for the National Center for Emerging and Zoonotic 
Infectious Diseases (NCEZID) of $27 million and for the National Center 
for HIV/AIDS, Viral Hepatitis, Sexually Transmitted Infections and 
Tuberculosis Prevention of $35 million. The NCEZD includes CDC's 
antimicrobial resistance activities for surveillance, data collection 
and stewardship which require additional resources to address the 
danger of pathogens resistant to antibiotics. The ASM is pleased to see 
the increase of $17 million for food safety activities to restore and 
improve State and local surveillance and outbreak response capacity and 
move toward implementation of CDC's provisions of the Food Safety 
Modernization Act including Centers of Excellence. The ASM also 
supports the increase of $12.6 million for the National Healthcare 
Safety Network (NHSN). This investment is needed as the number of 
hospitals, long term care facilities, and hemodialysis centers that are 
now using NHSN has risen dramatically in the last 2 years in response 
to State and Federal efforts to control healthcare associated 
infections. The additional funds for NHSN will allow CDC to maintain 
and update the system to meet the increased demands and optimally 
target prevention and control measures.
    The ASM is concerned about the proposed cut of $15.5 million in 
funding to State and local preparedness and response capacity which 
threatens the Nation's preparedness for infectious disease outbreaks 
and other hazards. The strategic national stockpile is reduced by $64 
million in the administration's proposed budget. CDC is one of the few 
Federal agencies providing continuous surveillance, detection and 
response for chemical, biological, radiological and nuclear threats, as 
well as natural disasters, outbreaks and epidemics. CDC fulfills this 
critical role by supporting State and local health departments, 
safeguarding deadly pathogens, managing the strategic national 
stockpile, creating national tracking and surveillance systems and 
overseeing the national laboratory network. The fiscal year 2013 budget 
represents a decrease of $54 million below fiscal year 2012 for these 
critical activities, including elimination of funding for the Academic 
Centers for Public Health Preparedness. We urge Congress to reject 
these reductions and to restore funding for these important programs.
CDC Funding Supports Strategies to Protect Public Health
    CDC activities are critical to preventing disease and disability 
across the United States and abroad. Through partnerships with local, 
State, Federal, and international institutions, CDC has created disease 
prevention campaigns that combine scientific research, public education 
and training of health professionals, case surveillance systems, and 
prevention protocols. Only programs of wide scope and complexity like 
those administered by CDC can be effective against major health issues, 
such as drug resistant pathogens and microbial threats to the Nation's 
food supply.
    Antimicrobial Resistance.--Both United States and global health 
officials list microorganisms resistant to available drugs as one of 
their top priorities. According to the World Health Organization (WHO), 
there are about 440,000 new cases of multidrug resistant tuberculosis 
(MDR TB) each year and at least 150,000 MDR TB deaths. Drug resistant 
cases of malaria and cholera are rising in number, and healthcare 
facilities worldwide are beset by unacceptable rates of AR infections 
like methicillin resistant Staphylococcus aureus (MRSA) and Clostridium 
difficile infections (CDI). Recently CDC surveillance has collected 
case reports from across the United States of bacteria, including E. 
coli, that produce Klebsiella pneumoniae carbapenemase (KPC), an enzyme 
that makes bacteria resistant to most known treatments.
    In large part due to CDC partnerships and prevention initiatives, 
there has been a 60 percent reduction of MRSA in Veterans 
Administration facilities and a 2010 report demonstrated a significant 
MRSA decline in United States healthcare settings in general. CDC data 
also show that rates of MRSA bloodstream infections in hospitalized 
patients fell nearly 50 percent from 1997 to 2007. Last November, CDC 
initiated a new antibiotic tracking system within its National 
Healthcare Safety Network (NHSN) for monitoring in hospital antibiotic 
use electronically. Promotion of appropriate antimicrobial stewardship 
is a critical component of a comprehensive program to reverse the 
impact of antibiotic resistance.
    Healthcare Associated Infections (HAIs).--Pathogens like MRSA that 
are increasingly resistant to therapeutics are particularly alarming 
among vulnerable patients being treated for other medical conditions. 
Last year CDC expanded its NHSN surveillance system from 3,400 to 5,000 
hospitals, hemodialysis and long term acute care facilities, and other 
facilities faced with patient infections acquired in house. NHSN data 
are strong evidence that CDC education and surveillance programs 
achieve gains against these infections. For example, infections 
reported to NHSN that declined in 2010 included a 33 percent reduction 
in central line associated bloodstream infections and 35 percent among 
critical care patients. Such declines result in billions of dollars of 
cost savings to the healthcare system, although the economic and human 
costs of HAIs remain far too high. CDC estimates that 1 out of 20 
hospitalized patients will develop an infection while receiving 
treatment for other conditions. Continued investments in addressing 
other costly healthcare associated infections such as surgical site 
infections and ventilator associated pneumonia should have similar 
impacts to those seen with bloodstream infections.
    Immunization.--CDC campaigns have made impressive progress against 
childhood vaccine preventable diseases in the United States and, 
jointly with WHO and other stakeholders, worldwide. A recent CDC report 
listing the most significant global public health achievements in the 
past decade included various vaccination programs that prevent 2.5 
million deaths every year among young children, that is, measles, 
polio, and diphtheria tetanus pertussis vaccinations. Global mortality 
from measles has declined from an estimated 733,000 deaths in 2000 to 
164,000 in 2008. Since 1988, polio incidence has fallen by 99 percent, 
from more than 350,000 cases to 1,410 in 2010, with four remaining 
endemic countries. In December, CDC activated its Emergency Operations 
Center to strengthen its partnership with the Global Polio Eradication 
Initiative. However, more than 1 million infants and young children 
still die from vaccine preventable pneumococcal disease and rotavirus 
diarrhea every year, and multiple other diseases take lives that could 
be saved through immunization. However, as noted above, the increase in 
measles cases seen in the United States in 2011 and similar increases 
in pertussis in 2010-2011 demonstrates the importance of continued 
investment in vaccination programs to keep these diseases at bay.
    The CDC continues to make progress in raising immunization coverage 
levels for some of the newly available vaccines. In the United States, 
vaccinating infants against rotavirus has shown impressive gains 
against a major cause of severe diarrhea in infants and young children. 
Before introduction of the rotavirus vaccines in 2006, the pathogen was 
responsible for about 200,000 emergency room visits and 55,000-70,000 
hospitalizations per year. Intensive immunization campaigns resulted in 
high percentages of protected children, responsible for a 75 percent 
decline in rotavirus related hospitalizations in 2007-2008 compared 
with pre vaccine levels. Federal estimates indicate that for every 
dollar invested in immunizing Americans, we save $10.20 in direct 
medical costs.
    Food Safety.--Based on surveillance data, CDC believes that 
foodborne contaminants are responsible for about 128,000 United States 
hospitalizations annually. The 31 known microbial pathogens linked to 
foodborne illness account for an estimated 9.4 million of the roughly 
47.8 million illnesses yearly, the remaining blamed on ``unspecified 
agents.'' Five pathogens targeted by CDC account for more than 90 
percent of the identified agent cases: norovirus, Salmonella, 
Clostridium perfringens, Campylobacter, and Staphylococcus aureus. The 
agency's food safety activities utilize multiple tools that include 
case reporting systems, public and food processor education, and 
product recalls. CDC will support five Food Safety Centers of 
Excellence at State health departments across the country. A 2011 CDC 
report summarizing 15 years of case surveillance showed that illnesses 
from E. coli O157 have been cut nearly in half and the overall rates of 
six foodborne infections have been reduced by 23 percent, but warned 
that Salmonella caused infections have risen 10 percent. However, 
problems like the 2011 outbreak of listeriosis associated with 
cantaloupes, the deadliest foodborne outbreak in the United States in 
decades, demonstrates the importance of prompt recognition and response 
to foodborne disease, including laboratory capacity to make the 
diagnosis and fingerprint the strains.
    Public Safety and Preparedness.--The ASM is concerned that the 
administration's fiscal year 2013 budget decreases funding for some 
important CDC biodefense and emergency preparedness activities. 
Programs like the Strategic National Stockpile build our national 
capabilities against both intentionally released and naturally 
occurring infectious agent threats. The agency oversees a national 
laboratory network, develops science based expertise in numerous health 
threats, and serves as primary first responder during sporadic disease 
outbreaks, epidemics, and a broad spectrum of other crises. With State 
and local budgets strained economically, it is all the more important 
that CDC is able to fully support health departments across the 
country. The ASM also urges Congress recognize that funding is needed 
to ensure CDC's own laboratories and personnel continue to serve as 
national and global leaders against infectious disease and other health 
threats.
CDC Funding Supports Research and Education to Prevent Infectious 
        Disease
    The CDC Office of Infectious Diseases (OID), which oversees the 
National Center for Immunization and Respiratory Diseases, the National 
Center for Emerging and Zoonotic Infectious Diseases, and the National 
Center for HIV/AIDS, Viral Hepatitis, STD and TB Prevention addresses 
antimicrobial resistance, chronic viral hepatitis, food and water 
safety, healthcare associated infections, HIV/AIDS, respiratory 
infections, vaccine preventable diseases, and zoonotic and vectorborne 
diseases. The ASM strongly supports funding for OID efforts to 
identify, treat, and prevent a long list of infectious diseases that 
kill millions each year. CDC's infectious disease programs play a 
critical role in protecting all Americans from the dangers of microbial 
threats, and we cannot allow these important functions to continue to 
erode.
    The ASM urges Congress to provide needed new resources in fiscal 
year 2013 for the CDC budget to strengthen science based programs that 
have so effectively investigated, controlled, and, most importantly, 
prevented disease and disability. This funding is critical to 
maintaining the CDC laboratories, expert personnel, education and 
prevention campaigns, and CDC supported collaborations that work 
together daily to protect people in this Nation and worldwide.
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition
    The American Society for Nutrition (ASN) appreciates the 
opportunity to submit testimony regarding fiscal year 2013 
appropriations for the National Institutes of Health (NIH) and the 
Centers for Disease Control and Prevention's National Center for Health 
Statistics (NCHS). Founded in 1928, ASN is a nonprofit scientific 
society with more than 4,500 members in academia, clinical practice, 
Government and industry. ASN respectfully requests $32 billion for the 
National Institutes of Health, and we urge you to adopt the President's 
request of $162 million for the National Center for Health Statistics 
in fiscal year 2013.
    Basic and applied nutrition research on the relationship between 
nutrition and chronic disease, nutrient composition, and nutrition 
monitoring are critical for the health of all Americans and the U.S. 
economy. Awareness of the growing epidemic of obesity and the 
contribution of chronic illness to burgeoning healthcare costs has 
highlighted the need for improved information on dietary components, 
dietary intake, strategies for dietary change and nutritional 
therapies. The health costs of obesity alone are estimated at $147 
billion each year. This enormous health and economic burden is largely 
preventable, along with the many other chronic diseases that plague the 
United States. It is for this reason that we urge you to consider these 
recommended funding levels for two agencies under the Department of 
Health and Human Services that have profound effects on nutrition 
research, nutrition monitoring, and the health of all Americans--the 
National Institutes of Health and the National Center for Health 
Statistics.
National Institutes of Health
    The National Institutes of Health (NIH) is the Nation's premier 
sponsor of biomedical research and is the agency responsible for 
conducting and supporting 86 percent (approximately $1.4 billion) of 
federally funded basic and clinical nutrition research. Nutrition 
research, which makes up about 4 percent of the NIH budget, is truly a 
trans-NIH endeavor, being conducted and funded across multiple 
Institutes and Centers. Some of the most promising nutrition-related 
research discoveries have been made possible by NIH support. In order 
to fulfill the full potential of biomedical research, including 
nutrition research, ASN recommends an fiscal year 2013 funding level of 
$32 billion for the NIH, a modest increase over the current funding 
level of $30.64 billion.
    The modest increase we recommend is necessary to maintain both the 
existing and future scientific infrastructure. The discovery process--
while it produces tremendous value--often takes a lengthy and 
unpredictable path. Economic stagnation is disruptive to training, 
careers, long range projects and ultimately to progress. NIH needs 
sustainable and predictable budget growth to achieve the full promise 
of medical research to improve the health and longevity of all 
Americans. It is imperative that we continue our commitment to 
biomedical research and continue our Nation's dominance in this area by 
making the NIH a national priority.
    Over the past 50 years, NIH and its grantees have played a major 
role in the growth of knowledge that has transformed our understanding 
of human health, and how to prevent and treat human disease. Because of 
the unprecedented number of breakthroughs and discoveries made possible 
by NIH funding, scientists are helping Americans to live healthier and 
more productive lives. Many of these discoveries are nutrition-related 
and have impacted the way clinicians prevent and treat heart disease, 
cancer, diabetes and other chronic diseases. By 2030, the number of 
Americans age 65 and older is expected to grow to 72 million, and the 
incidence of chronic disease will also grow. Sustained support for 
basic and clinical research is required if we are to successfully 
confront the healthcare challenges associated with an older, and 
potentially sicker, population.
CDC National Center for Health Statistics
    The National Center for Health Statistics (NCHS), housed within the 
Centers for Disease Control and Prevention, is the Nation's principal 
health statistics agency. The NCHS provides critical data on all 
aspects of our healthcare system, and it is responsible for monitoring 
the Nation's health and nutrition status through surveys such as the 
National Health and Nutrition Examination Survey (NHANES), that serve 
as a gold standard for data collection around the world. Nutrition and 
health data, largely collected through NHANES, are essential for 
tracking the nutrition, health and well-being of the American 
population, and are especially important for observing nutritional and 
health trends in our Nation's children.
    Nutrition monitoring conducted by the Department of Health and 
Human Services in partnership with the U.S. Department of Agriculture 
Agricultural Research Service is a unique and critically important 
surveillance function in which dietary intake, nutritional status, and 
health status are evaluated in a rigorous and standardized manner. 
Nutrition monitoring is an inherently governmental function and 
findings are essential for multiple Government agencies, as well as the 
public and private sector. Nutrition monitoring is essential to track 
what Americans are eating, inform nutrition and dietary guidance 
policy, evaluate the effectiveness and efficiency of nutrition 
assistance programs, and study nutrition-related disease outcomes. 
Funds are needed to ensure the continuation of this critical 
surveillance of the nation's nutritional status and the many benefits 
it provides.
    Through learning both what Americans eat and how their diets 
directly affect their health, the NCHS is able to monitor the 
prevalence of obesity and other chronic diseases in the United States 
and track the performance of preventive interventions, as well as 
assess ``nutrients of concern'' such as calcium, which are consumed in 
inadequate amounts by many subsets of our population. Data such as 
these are critical to guide policy development in the area of health 
and nutrition, including food safety, food labeling, food assistance, 
military rations and dietary guidance. For example, NHANES data are 
used to determine funding levels for programs such as the Supplemental 
Nutrition Assistance Program (SNAP) and the Women, Infants, and 
Children (WIC) clinics, which provide nourishment to low-income women 
and children.
    To continue support for the agency and its important mission, ASN 
recommends an fiscal year 2013 funding level of $162 million for NCHS. 
Sustained funding for NCHS can help to ensure uninterrupted collection 
of vital health and nutrition statistics, and will help to cover the 
costs needed for technology and information security upgrades that are 
necessary to replace aging survey infrastructure.
    Thank you for your support of the NIH and the NCHS, and thank you 
for the opportunity to submit testimony regarding fiscal year 2013 
appropriations. Please contact John E. Courtney, Ph.D., Executive 
Officer, if ASN may provide further assistance. He can be reached at 
9650 Rockville Pike, Bethesda, Maryland 20814 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f151c100a0d0b111a063f110a0b0d160b16101151100d1851">[email&#160;protected]</a>
                                 ______
                                 
        Prepared Statement of the American Society of Nephrology
                           executive summary
    The American Society of Nephrology (ASN) requests $32 billion in 
funding for the National Institutes of Health (NIH) and $2.03 billion 
in funding for NIH's National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK) in the fiscal year 2013 Labor-HHS-Education 
appropriations bill.
    ASN is dedicated to the study, prevention, and treatment of kidney 
disease, and the society respects your leadership and commitment to 
both preventing illness and maintaining fiscal responsibility. 
Estimates of chronic kidney disease (CKD) in the United States suggest 
that it affects more than 26 million, or 1 in 9, Americans, and more 
than 550,000 of them have irreversible kidney failure.
    Without research funded by NIH broadly and NIDDK specifically, 
research leading to advances in the care and treatment of adults and 
children afflicted with kidney disease would not be conducted.
    For instance, hereditary diseases such as cystinosis--a metabolic 
disorder that affects the kidneys, eyes, thyroid, pancreas, and brain--
can now be treated to prevent or delay its worst effects on children. 
Although cystinosis is a relatively rare disease, this achievement 
highlights that advancing understanding of the genetics of kidney 
diseases in children enables us to address a previously untreatable 
condition as well as gain significant insight into the mechanisms of 
other kidney conditions.
    In addition, investigative studies supported by NIH and NIDDK 
generated a groundbreaking discovery that helps explain racial/ethnic 
disparities that increase risks for kidney disease, which can lead to 
earlier detection and treatment. The recent finding that African-
Americans with variant APOL1 genes are at increased risk of kidney 
disease is a crucial step in understanding why this sector of our 
population is four times more likely to have kidney failure than non-
Hispanic whites.
    Funding from NIH and NIDDK also enabled research that could improve 
ESRD patients' heart health and physical wellness: patients receiving 
daily in-center dialysis had better outcomes compared to conventional 
thrice-weekly dialysis. The discovery of these advantages has 
significant implications for the future of dialysis care for patients 
with end-stage renal disease (ESRD).
    A funding increase of 4 percent for NIH and 4.5 percent for NIDDK 
would continue the important work that is necessary to move the model 
from curative healthcare, where interventions occur late in the natural 
history of a disease, to a preemptive model in which the onset of 
disease is significantly delayed or even prevented--saving taxpayer 
funds and creating a better quality of life for Americans.
    ESRD is covered by Medicare regardless of a patient's age or 
disability status. Consequently, preventing kidney disease and 
advancing the effectiveness of therapies for kidney failure--starting 
with innovative research at NIDDK--would have a greater impact at the 
highest level of costs within the Centers for Medicare and Medicaid 
Services. Perhaps most importantly, in human terms, the applied 
research will help prevent greater suffering among those who would 
otherwise progress to an even greater level of illness.
    Sustained, predictable investment in research is the only way that 
scientific investigations can be effective and lead to new discoveries. 
With funding from NIH and NIDDK, scientists have been able to pursue 
cutting-edge basic, clinical and translational research. While ASN 
fully understands the difficult economic environment and the intense 
pressure you are under as an elected official to guide America forward 
during these tough times, the society firmly believes that funding NIH 
at $32 billion and NIDDK at $2.03 billion will continue to create jobs, 
support the next generation of investigators, and ultimately improve 
public health.
    Several recent studies have concluded that Federal support for 
medical research is a major force in the economic health of communities 
across the Nation.
    It is critically important that the Nation continue to capitalize 
on previous investments to drive research progress, train the next 
generation of scientists, create new jobs, promote economic growth, and 
maintain leadership in the global innovation economy--particularly as 
other countries increase their investments in scientific research.
    Most important, a failure to maintain and strengthen NIH and 
NIDDK's ability to support the groundbreaking work of researchers 
across the country carries a palpable human toll, denying hope to the 
millions of patients awaiting the possibility of a healthier tomorrow.
    ASN strongly recommends that the fiscal year 2013 Labor-HHS-
Education appropriations bill uphold its longstanding legacy of 
bipartisan support for biomedical research by providing funding of no 
less than $32 billion for NIH and $2.03 billion for NIDDK.
    Should you have any questions or wish to discuss NIH, NIDDK, or 
kidney disease research in more detail, please contact ASN Manager of 
Policy and Government Affairs Rachel Shaffer at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b29333a3d3d3e291b3a28357634353732353e7534293c75">[email&#160;protected]</a>
                               about asn
    The American Society of Nephrology (ASN) is a 501(c)(3) nonprofit, 
tax-exempt organization that leads the fight against kidney disease by 
educating the society's 13,500 physicians, scientists, and other 
healthcare professionals, sharing new knowledge, advancing research, 
and advocating the highest quality care for patients. For more 
information, visit ASN's website at www.asn-online.org.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB) we 
would like to thank the Subcommittee for its support of the National 
Institutes of Health (NIH). ASPB and its members recognize the 
difficult fiscal environment our Nation faces, but believe investments 
in scientific research will be a critical step toward economic 
recovery. ASPB asks that the Subcommittee Members encourage increased 
support for plant biology research within NIH; such research has 
contributed in innumerable ways to improving the lives of people 
throughout the world.
    ASPB is an organization of approximately 5,000 professional plant 
biology researchers, educators, graduate students, and postdoctoral 
scientists with members in all 50 States and throughout the world. A 
strong voice for the global plant science community, our mission--
achieved through work in the realms of research, education, and public 
policy--is to promote the growth and development of plant biology, to 
encourage and communicate research in plant biology, and to promote the 
interests and growth of plant scientists in general.
Plant Biology Research and America's Future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of domestic fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, pharmaceuticals, and building materials; and in 
the understanding of basic biological principles that underpin 
improvements in the health and nutrition of all Americans.
    Despite the fact that foundational plant biology research underpins 
vital advances in practical applications in health, agriculture, 
energy, and the environment, the amount of money invested in 
understanding the basic function and mechanisms of plants is relatively 
small. This is especially true when considering the significant 
positive impact plants have on the Nation's economy and in addressing 
some of our most urgent challenges in health and nutrition.
    Understanding the importance of these areas and in order to address 
future challenges, ASPB organized the Plant Science Research Summit 
held in September 2011. With funding from the National Science 
Foundation, U.S. Department of Agriculture (USDA), Department of 
Energy, and the Howard Hughes Medical Institute, the Summit brought 
together representatives from across the full spectrum of plant science 
research to identify critical gaps in our understanding of plant 
biology that must be filled over the next 10 years or more in order to 
address the grand challenges facing our Nation and our planet. The 
grand challenges identified at the Summit include:
  --To feed everyone well, now and in the future, advances in plant 
        science research will be needed for higher yielding, more 
        nutritious crop varieties able to withstand a variable climate.
  --Innovations leading to improvements in water use, nutrient use, and 
        disease and pest resistance that reduce the burden on the 
        environment are needed and will allow for improved ecosystem 
        services, such as clean air, clean water, fertile soil, and 
        biodiversity benefits, such as pest suppression and 
        pollination.
  --To fuel the future with clean energy--and to ensure that our Nation 
        meets its fuel requirements--improvements are needed in current 
        biofuels technologies, including breeding, crop production 
        methods, and processing.
  --For all the benefits that advances in plant science bestow, to have 
        lasting, permanent benefit they must be economically, socially, 
        and environmentally sustainable.
    In spring 2012, a report from the Plant Science Research Summit 
will be published. This report will further detail priorities and needs 
to address the grand challenges.
Plant Biology and the National Institutes of Health
    The mission of the NIH is to pursue ``fundamental knowledge about 
the nature and behavior of living systems and the application of that 
knowledge to extend healthy life and reduce the burdens of illness and 
disability.'' Plant biology research is highly relevant to this 
mission.
    Plants are often the ideal model systems to advance our 
``fundamental knowledge about the nature and behavior of living 
systems,'' as they provide the context of multi-cellularity while 
affording ease of genetic manipulation, a lesser regulatory burden, and 
inexpensive maintenance requirements than the use of animal systems. 
Many basic biological components and mechanisms are shared by both 
plants and animals. For example, a property known as RNA interference, 
which has potential application in the treatment of human disease, was 
first noted in plants. Upon further elucidation in other plants and 
animals, this research earned two American scientists, Andrew Fire and 
Craig Mello, the 2006 Nobel Prize in Physiology or Medicine.
    Health and Nutrition.--Plant biology research is also central to 
the application of basic knowledge to ``extend healthy life and reduce 
the burdens of illness and disability.'' Without good nutrition, there 
cannot be good health. Indeed, a World Health Organization study on 
childhood nutrition in developing countries concluded that over 50 
percent of the deaths of children less than 5 years of age could be 
attributed to malnutrition's effects in exacerbating common illnesses 
such as respiratory infections and diarrhea. Strikingly, most of these 
deaths were not linked to severe malnutrition but only to mild or 
moderate nutritional deficiencies. Plant biology researchers are 
working today to improve the nutritional content of crop plants by 
increasing the availability of nutrients and vitamins such as iron, 
vitamin E, and vitamin A.
    By contrast, obesity, cardiac disease, and cancer take a striking 
toll in the developed world. Research to improve the lipid composition 
of plant fats and efforts to optimize concentrations of plant compounds 
that are known to have anti-carcinogenic properties, such as the 
glucosinolates found in broccoli and cabbage, and the lycopenes found 
in tomato will help in addressing these concerns. Ongoing development 
of crop varieties with tailored nutraceutical content is an important 
contribution that plant biologists are making toward realizing the goal 
of personalized medicine, especially personalized preventative 
medicine.
    Drug Discovery.--Plants are also fundamentally important as sources 
of both extant drugs and drug discovery leads. In fact, over 10 percent 
of the drugs considered by the World Health Organization to be ``basic 
and essential'' are still exclusively obtained from flowering plants. A 
recent example of the importance of plant-based pharmaceuticals is the 
anti-cancer drug taxol, which was discovered as an anti-carcinogenic 
compound from the bark of the Pacific yew tree through collaborative 
work involving scientists at the NIH National Cancer Institute and 
plant biologists at the USDA. Originally, taxol could only be obtained 
from the tree bark itself, but additional research led to the 
elucidation of its molecular structure and eventually to its chemical 
synthesis in the laboratory. Taxol is just one example of the estimated 
200,000 secondary plant compounds that will continue to provide a 
fruitful source of new drug leads, particularly if collaborations such 
as the one described above can be fostered and funded. With additional 
research support from NIH, plant biologists can lead the way to 
developing new medicines and biomedical applications to enhance the 
treatment of devastating diseases.
Conclusion
    The NIH does recognize that plants help serve its mission. However, 
because the boundaries of plant biology research are permeable and 
because information about plants integrates with many different 
disciplines that are highly relevant to NIH, ASPB asks the Subcommittee 
to provide direction to NIH to support additional plant biology 
research in order to help pioneer new discoveries and new methods in 
biomedical research.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. For more information about ASPB, 
please see www.aspb.org.
                                 ______
                                 
     Prepared Statement of the American Society for Pharmacology & 
                       Experimental Therapeutics
    The American Society for Pharmacology and Experimental Therapeutics 
(ASPET) is pleased to submit written testimony in support of the 
National Institutes of Health (NIH) fiscal year 2013 budget. ASPET is a 
5,100 member scientific society whose members conduct basic, 
translational, and clinical pharmacological research within the 
academic, industrial and government sectors. Our members discover and 
develop new medicines and therapeutic agents that fight existing and 
emerging diseases, as well as increase our knowledge regarding how 
therapeutics affects humans.
    ASPET recommends a budget of at least $32 billion for the NIH in 
fiscal year 2013. Research funded by the NIH improves public health, 
stimulates our economy and improves global competitiveness. Sustained 
growth for the NIH should be an urgent national priority. Flat funding 
or cuts to the NIH budget will delay advances in medical research, 
jeopardizing potential cures, eliminate jobs, and threaten American 
leadership and innovation in biomedical research.
    A $32 billion budget for the NIH in fiscal year 2013 will provide a 
modest 4 percent increase to the agency and help restore NIH to more 
sustainable growth. Currently, the NIH cannot begin to fund all the 
high quality research that needs to be accomplished. After several 
years of flat funding and spending cuts enacted in 2011, the NIH's 
funding environment has reached a critical point:
  --Adjusted for inflation, the fiscal year 2012 budget and the 
        President's fiscal year 2013 budget proposal are $4 billion 
        lower than the peak year of fiscal year 2003;
  --The number of research project grants funded by NIH has declined 
        every year since 2004, and NIH is projected to fund 3,100 fewer 
        grants in fiscal year 2012-2013 than in fiscal year 2004; and
  --Success rates have fallen more than 14 percent in a decade and are 
        projected to decline further in fiscal year 2012 and fiscal 
        year 2013.
    If flat funding continues or if additional cuts are mandated to the 
NIH budget for fiscal year 2013 and beyond, research that improves the 
quality of life will be delayed or stopped, and fewer clinical trials 
will be conducted. International competitors will continue to gain on 
this highly innovative U.S. enterprise, and we will lose a generation 
of young scientists who see no prospects for careers in biomedical 
research. Flat or reduced funding for NIH will mean that the agency 
would have to dramatically reduce new awards and many research projects 
in progress would not receive sufficient funding to complete ongoing 
work, thus representing a waste of valuable research resources.
    An fiscal year 2013 NIH budget of $32 billion would help to begin 
to restore momentum to NIH funding. A $32 billion fiscal year 2013 NIH 
budget will help the agency manage its research portfolio effectively 
without too much disruption of existing grants to researchers 
throughout the country. The NIH, and the entire scientific enterprise, 
cannot rationally manage boom or bust funding cycles. Scientific 
research takes time. Only through steady, sustainable and predictable 
funding increases can NIH continue to fund the highest quality 
biomedical research to help improve the health of all Americans and 
continue to make significant economic impact in many communities across 
the country. An fiscal year 2013 NIH budget of $32 billion will help 
NIH move to more fully exploit promising areas of biomedical research 
and translate the resulting findings into improved healthcare.
Diminished Support for NIH will Negatively Impact Human Health
    Diminished funding for NIH will mean a loss of scientific 
opportunities to discover new therapeutic targets and will create 
disincentives to young scientists to commit to careers in biomedical 
science. A difficult Federal funding environment becomes more 
problematic as economic difficulties have led to less investment by the 
pharmaceutical industry and diminished venture capital needed by the 
biotech industry. Previous investments in NIH research have been 
instrumental in improving human health. However, a greater investment 
in research is needed to help improve the lives of many afflicted by 
chronic diseases:
  --Parkinson's disease is estimated to afflict over 1 million 
        Americans at an annual cost of $26 billion. The discovery of 
        Levodopa was a breakthrough in treating the disease and allows 
        patients to lead relatively normal, productive lives. It is 
        estimated that treatments slowing the progress of disease by 10 
        percent could save the United States $327 million a year. 
        Current treatments slow progression of the disease, but more 
        research is needed to identify the causes of the disease and 
        help to develop better therapies.
  --More than 38 million Americans are blind or visually impaired, and 
        that number will grow with an aging population. Eye disease and 
        vision loss cost the United States $68 billion annually. NIH 
        funded research has developed new treatments that delay or 
        prevent diabetic retinopathy, saving $1.6 billion a year. 
        Discovery of gene variations in age-related macular 
        degeneration could result in new screening tests and preventive 
        therapies.
  --One in eight older Americans suffer from Alzheimer's disease at 
        annual costs of more than $200 billion. It is estimated that by 
        2050 more than 14 million Americans will live with the disease 
        with projected costs of $1.1 trillion (in 2012 dollars). 
        Although there are new clinical candidates for Alzheimer's 
        disease in development, more basic research is needed to focus 
        on new molecular targets and potential cures for this disease. 
        Inadequate funding will delay and prevent improved treatment of 
        the disease.
  --Heart disease and stroke are the number one and three killers of 
        Americans, respectively. Cardiovascular disease costs the 
        United States more than $350 billion annually. Death rates from 
        cardiovascular disease have fallen by 50 percent since 1970. 
        Statin drugs that reduce cholesterol help to prevent heart 
        disease and stroke, decrease recurrence of heart attacks and 
        improve survival rates for heart transplant patients.
  --Cancer is the second leading cause of death in the United States. 
        The NIH estimates that the annual cost of the disease is over 
        $228 billion. NIH research has shown that human papillomavirus 
        (HPV) vaccines protect against persistent infection by the two 
        types of HPV that cause approximately 70 percent of cervical 
        cancers. NIH funded researchers are using nanotechnology to 
        develop probes that could pinpoint the location of tumors and 
        deliver drugs directly to cancer cells. NIH funded basic 
        research built the foundation for one of the most revolutionary 
        FDA approved new treatments for melanoma and helped launch the 
        ear of modern personalized medicine.
  --NIH-funded investigators discovered an enzyme that may act as a 
        tumor suppressor, therapeutic target, and clinical biomarker in 
        patients with colorectal cancer. Clinical trials are now 
        underway to study its role as a possible novel chemoprevention 
        approach to prevent colorectal cancer and determine the utility 
        of the enzyme as a prognostic and predictive marker for staging 
        patients with disease. The enzyme is also being used as a 
        vaccine target to prevent recurrent disease. Studies are 
        underway evaluating this enzyme's role in regulating appetite 
        and as a possible novel therapeutic target to prevent obesity, 
        diabetes, and metabolic syndrome.
  --Finding new uses for existing drugs is difficult but could be life 
        saving and cost effective. NIH-funded researchers using new 
        bioinformatic approaches have discovered that a drug designed 
        to treat heartburn also inhibited the growth of human lung 
        tumors in laboratory mice. Without adequate support for NIH 
        funding, this type of discovery may become impossible and 
        potential clinical benefits will not be realized.
  --There are almost 7,000 rare diseases, each afflicting fewer than 
        200,000 individuals. More than 350 drugs have been approved for 
        rare diseases since passage of the Orphan Drug Act in 1983. The 
        number of new drugs in development is increasing rapidly as 
        researchers gain a better understanding of the underlying 
        molecular and genetic causes of disease. Diminished support for 
        NIH will prevent new and ongoing investigations into rare 
        diseases that FDA estimates almost 90 percent are serious or 
        life-threatening.
    NIH-funded studies have also indicated that adopting intensive 
lifestyle changes delayed onset of type-2 diabetes by 58 percent, and 
that progesterone therapy can reduce premature births by 30 percent in 
at-risk women. Historically, our past investment in basic biological 
research has led to many innovative medicines. The National Research 
Council reported that of the 21 drugs with the highest therapeutic 
impact, only 5 were developed without input from the public sector. The 
significant past investment in the NIH has provided major gains in our 
knowledge of the human genome, resulting in the promise of 
pharmacogenomics and a reduction in adverse drug reactions that 
currently represent a major worldwide health concern. Already, there 
are several examples where complete human genome sequence analysis has 
pinpointed disease-causing variants that have led to improved therapy 
and cures. Although the costs for such analyses have been reduced 
dramatically by technology improvements, widespread use of this 
approach will require further improvements in technology that will be 
delayed or obstructed with inadequate NIH funding.
Investing in NIH Helps America Compete Economically
    A $32 billion budget in fiscal year 2013 will also help the NIH 
train the next generation of scientists. This investment will help to 
create jobs and promote economic growth. Limiting or cutting the NIH 
budget will mean forfeiting future discoveries to other countries.
    Worldwide, other nations continue to invest aggressively in 
science. China has grown its science portfolio with annual increases to 
the research and development budget averaging over 23 percent annually 
since 2000. And while Great Britain has imposed strict austerity 
measures to address that Nation's debt problems, the British 
conservative party had the foresight to keep its strategic investments 
in science at current levels. The European Union, despite austerity 
measures and the severe debt problems of its member nations, has 
proposed to increase spending on research and innovation by 45 percent 
between 2014 and 2020.
    NIH research funding catalyzes private sector growth. More than 83 
percent of NIH funding is awarded to over 3,000 universities, medical 
schools, teaching hospitals and other research institutions in every 
State. One national study by an economic consulting firm found that 
Federal (and State) funded research at the Nation's medical schools and 
hospitals supported almost 300,000 jobs and added nearly $45 billion to 
the U.S. economy. NIH funding also provides the most significant 
scientific innovations of the pharmaceutical and biotechnology 
industries.
    Inadequate funding for NIH means more than a loss of scientific 
potential and discovery. As we have noted, failing to help meet the 
NIH's scientific potential has led to a significant reduction in 
research grants and the resulting phasing-out of high quality research 
programs and jobs lost.
Conclusion
    ASPET appreciates the many competing and important spending 
decisions the Subcommittee must make. The Nation's deficit and debt 
problems are great. However, NIH and the biomedical research enterprise 
face a critical moment. The agency's contribution to the Nation's 
economic and physical well-being should make it one of the Nation's top 
priorities. With enhanced and sustained funding, NIH has the potential 
to address many of the more promising scientific opportunities that 
currently challenge medicine. A $32 billion fiscal year 2013 NIH budget 
will allow the agency to begin moving forward to full program capacity, 
exploiting more scientific opportunities for investigation, and 
increasing investigator's chances of discoveries that prevent, diagnose 
and treat disease. NIH should be restored to its role as a national 
treasure, one that attracts and retains the best and brightest to 
biomedical research and provides hope to millions of individuals 
afflicted with illness and disease.
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene
    The American Society of Tropical Medicine and Hygiene (ASTMH)--the 
principal professional membership organization representing, educating, 
and supporting scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals dedicated to the 
prevention and control of tropical diseases--appreciates the 
opportunity to submit testimony to the Senate Labor, Health and Human 
Services, and Education Appropriations Subcommittee.
    The benefits of U.S. investment in tropical diseases are both 
humanitarian and diplomatic. With this in mind, we respectfully request 
that the Subcommittee provide at least $32 billion for the NIH, and 
fully fund CDC in the fiscal year 2013 LHHS appropriations bill to 
allow them to maintain their current activities and research priorities 
to ensure a continued U.S. Government investment in global health and 
tropical medicine research and development:
National Institutes of Health
    Malaria and neglected tropical disease treatment, control, and 
research and development efforts within the National Institute of 
Allergy and Infectious Diseases;
    An expanded focus on the treatment, control, and research and 
development for new tools for diarrheal disease within the NIH; 
specifically the inclusion of enteric infections on the Research, 
Condition, and Disease Categorization (RCDC) process on the Research 
Portfolio Online Reporting Tools (RePORT) website; and
    Research capacity development in countries where populations are at 
heightened risk for malaria, neglected tropical diseases (NTDs), and 
diarrheal diseases through the Fogarty International Center.
The Centers for Disease Control and Prevention
    The Center for Global Health, which includes CDC's work in malaria 
and NTDs; and
    The National Center for Emerging & Zoonotic Infectious Diseases, 
which houses the Emerging and Zoonotic Infectious Disease Program and 
the Vector-Borne Disease Program that are responsible for protecting 
the United States from new and emerging infections.
              return on investment of u.s.-funded research
    CDC and NIH play essential roles in research and development for 
tropical medicine and global health. Both agencies are at the forefront 
of the new science that leads to tools to combat malaria and NTDs. This 
research provides jobs for American researchers and an opportunity for 
the United States to be a leader in the fight against global disease, 
in addition to creating lifesaving new drugs and diagnostics to some of 
the poorest, most at-risk people in the world.
                            tropical disease
    Most tropical diseases are prevalent in either sub-Saharan Africa, 
parts of Asia (including the Indian subcontinent), or Central and South 
America. Many of the world's developing nations are located in these 
areas; thus, tropical medicine tends to focus on diseases that impact 
the world's most impoverished individuals.
    Malaria and Parasitic Disease.--Malaria remains a global emergency 
affecting mostly poor women and children; it is an acute, sometimes 
fatal disease. Despite being treatable and preventable, malaria is one 
of the leading causes of death and disease worldwide. Approximately 
every 30 seconds, a child dies of malaria--a total of about 800,000 
under the age of 5 every year. The World Health Organization estimates 
that one-half of the world's people are at risk for malaria and that 
there are 108 malaria-endemic countries. Additionally, WHO has 
estimated that malaria reduces sub-Saharan Africa's economic growth by 
up to 1.3 percent per year.
    Neglected Tropical Diseases, also known as Diseases of Poverty.--
NTDs are a group of chronic parasitic diseases, such as hookworm, 
elephantiasis, schistosomiasis, and river blindness, which represent 
the most common infections of the world's poorest people. These 
infections have been revealed as the stealth reason why the ``bottom 
billion''--the 1.4 billion poorest people living below the poverty 
line--cannot escape poverty, because of the effects of these diseases 
on reducing child growth, cognition and intellect, and worker 
productivity.
    Diarrheal disease.--The child death toll due to diarrheal illnesses 
exceeds that of AIDS, tuberculosis, and malaria combined. In poor 
countries, diarrheal disease is second only to pneumonia as the cause 
of death among children under 5 years old. Every week, 31,000 children 
in low-income countries die from diarrheal diseases.
    The United States has a long history of leading the fight against 
tropical diseases that cause human suffering and pose financial burden 
that can negatively impact a country's economic and political 
stability. Tropical diseases, many of them neglected for decades, 
impact U.S. citizens working or traveling overseas, as well as our 
military personnel. Furthermore, some of the agents responsible for 
these diseases can be introduced and become established in the United 
States (like West Nile virus), or might even be weaponized.
                     national institutes of health
    National Institute of Allergy and Infectious Diseases.--A long-term 
investment is critical to achieve the drugs, diagnostics, and research 
capacity needed to control malaria and NTDs. NIAID is the lead 
institute for malaria and NTD research.
    ASTMH encourages the subcommittee to:
  --Increase funding for NIH to expand the agency's investment in 
        malaria, NTDs, and diarrheal disease research and to coordinate 
        that work with other Government agencies to maximize resources 
        and ensure development of basic discoveries into usable 
        solutions;
  --Specifically invest in NIAID to support its role at the forefront 
        of these efforts to developing the next generation of drugs, 
        vaccines, and other interventions; and
  --Urge NIH to include enteric infections and neglected diseases in 
        its RCDC process on the RePORT website to outline the work that 
        is being done in these important research areas.
    Fogarty International Center (FIC).--Biomedical research has 
provided major advances in the treatment and prevention of malaria, 
NTDs, and other infectious diseases. These benefits, however, are often 
slow to reach the people who need them most. FIC plays a critical role 
in strengthening science and public health research institutions in 
low-income countries. FIC works to strengthen research capacity in 
countries where populations are particularly vulnerable to threats 
posed by malaria, NTDs, and other infectious disease. This maximizes 
the impact of U.S. investments and is critical to fighting malaria and 
other tropical diseases.
    ASTMH encourages the subcommittee to:
  --Allocate sufficient resources to FIC in fiscal year 2013 to 
        increase these efforts, particularly as they address the 
        control and treatment of malaria, NTDs, and diarrheal disease.
             the centers for disease control and prevention
    Malaria and Parasitic Disease.--Malaria has been eliminated as an 
endemic threat in the United States for over 50 years, and CDC remains 
on the cutting edge of global efforts to reduce the toll of this deadly 
disease. CDC efforts on malaria and parasitic disease fall into three 
broad categories: prevention, treatment, and monitoring/evaluation of 
efforts. The agency performs a wide range of basic research within 
these categories, such as:
  --Conducting research on antimalarial drug resistance to inform new 
        strategies and prevention approaches;
  --Assessing new monitoring, evaluation, and surveillance strategies;
  --Conducting additional research on malaria vaccines, including field 
        evaluations; and
  --Developing innovative public health strategies for improving access 
        to antimalarial treatment and delaying the appearance of 
        antimalarial drug resistance.
    ASTMH encourages the subcommittee to:
  --Fund a comprehensive approach to effective and efficient malaria 
        and parasitic disease, including adequately funding the 
        important contributions of CDC in malaria and parasitic disease 
        at no less than $18 million.
    Neglected Topical Diseases.--CDC currently receives zero dollars 
directly for NTD work outside of parasitic diseases; however, this 
should be changed to allow for more comprehensive work to be done on 
NTDs at the CDC. CDC has a long history of working on NTDs and has 
provided much of the science that underlies the global policies and 
programs in existence today. This work is important to any global 
health initiative, as individuals are often infected with multiple NTDs 
simultaneously.
    ASTMH encourages the subcommittee to:
  --Provide direct funding to CDC to continue its work on NTDs, 
        including but not limited to parasitic diseases; and
  --Urge CDC to continue its monitoring, evaluation, and technical 
        assistance in these areas as an underpinning of efforts to 
        control and eliminate these diseases.
    Vector-Borne Disease Program (VBDP).--Through the VBDP, researchers 
are able to practice essential surveillance and monitoring activities 
that protect the United States from deadly infections before they reach 
our borders. The world is becoming increasingly smaller as 
international travel increases and new pathogens are introduced quickly 
into new environments. We have seen this with SARS, avian influenza, 
and now, dengue fever, in the United States. Arboviruses like dengue, 
and others, such as chikungunya, are a constant threat to travelers, 
and to Americans generally.
    Dengue fever, a disease with increased risk for Americans as the 
weather warms and dengue cases increase, is an example of why it is 
imperative that CDC be able to continue its disease monitoring and 
surveillance activities to protect the country from new and emerging 
threats like dengue and other arboviruses. Dengue fever, a viral 
disease transmitted by the Aedes mosquito, recently reemerged as a 
threat to Americans, with documented cases in the Florida Keys. Dengue 
usually results in fever, headache, and chills, but hemorrhagic dengue 
fever can cause severe internal bleeding, loss of blood, and even 
death. Because the Aedes mosquito is urban dwelling and often breeds in 
areas of poor sanitation, dengue is a serious concern for poor 
residents of costal, urban areas in Texas, Louisiana, Mississippi, 
Alabama, and Florida.
    ASTMH encourages the subcommittee to:
  --Ensure that CDC maintain these important activities by continuing 
        CDC funding for VBDP activities through the National Center for 
        Emerging and Infectious Zoonotic Diseases.
                               conclusion
    Thank you for your attention to these important United States and 
global health matters. We know Congress and the American people face 
many challenges in choosing funding priorities, and we hope you will 
provide the requested fiscal year 2013 resources to those programs 
identified above that meet critical needs for Americans and people 
around the world. ASTMH appreciates the opportunity to share its 
expertise, and we thank you for your consideration of these requests 
that will help improve the lives of Americans and the global poor.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
National Institutes of Health..........................         32,000
    National Heart, Lung and Blood Institute...........          3,214
    National Institute of Allergy and Infectious                 4,701
     Disease...........................................
    1National Institute of Environmental Health                    717.7
     Sciences..........................................
    Fogarty International Center.......................             72.7
    National Institute of Nursing Research.............            151
Centers for Disease Control and Prevention.............          7,800
    National Institute for Occupational Safety and                 293.6
     Health............................................
    Asthma Programs....................................             25.3
    Div. of Tuberculosis Elimination...................            243
    Office on Smoking and Health.......................            197.1
    National Sleep Awareness Roundtable (NSART)........              1
------------------------------------------------------------------------

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview. Founded in 1905, the ATS 
is an international education and scientific society of 15,000 members 
that focuses on respiratory and critical care medicine. The ATS's 
15,000 members help prevent and fight respiratory disease through 
research, education, patient care and advocacy.
Lung Disease in America
    Diseases of breathing constitute the third leading cause of death 
in the United States, responsible for 1 of every 7 deaths. Diseases 
affecting the respiratory (breathing) system include chronic 
obstructive pulmonary disease (COPD), lung cancer, tuberculosis, 
influenza, sleep disordered breathing, pediatric lung disorders, 
occupational lung disease, sarcoidosis, asthma, and critical illness. 
The death rate due to COPD has doubled within the last 30 years and is 
still increasing, while the rates for the other three top causes of 
death (heart disease, cancer and stroke) have decreased by over 50 
percent. The number of people with asthma in the United States has 
surged over 150 percent since 1980 and the root causes of the disease 
are still not fully known.
            National Institutes of Health
    The NIH is the world's leader in groundbreaking biomedical health 
research into the prevention, treatment and cure of diseases such as 
lung cancer, COPD and tuberculosis. Due to the combination of funding 
that has not kept pace with biomedical research and inflation and the 
rising costs of doing research, the number of research project grants 
supported by the NIH is now at the lowest level since 2001. The success 
rate for NIH grants has plummeted to below 13 percent, meaning that 
more than 87 percent of meritorious research is not being funded. 
Without a funding increase to sustain the research pipeline, the NIH 
will be forced to reduce the number of research grants funded, which 
will result in the halting of vital research into diseases affecting 
millions around the world. We ask the subcommittee to provide $32 
billion for the NIH in fiscal year 2013.
    Despite the rising lung disease burden, lung disease research is 
underfunded. In fiscal year 2011, lung disease research represented 
just 23.4 percent of the National Heart, Lung, and Blood Institute's 
(NHLBI) budget. Although COPD is the third leading cause of death in 
the United States, research funding for the disease is a fraction of 
the money invested for the other leading causes of death.
            Centers for Disease Control and Prevention
    In order to ensure that health promotion and chronic disease 
prevention are given top priority in Federal funding, the ATS supports 
a funding level for the Centers for Disease Control and Prevention 
(CDC) that enables it to carry out its prevention mission, and ensure a 
translation of new research into effective State and local public 
health programs. We ask that the CDC budget be adjusted to reflect 
increased needs in chronic disease prevention, infectious disease 
control, including TB control and occupational safety and health 
research and training. The ATS recommends a funding level of $7.8 
billion for the CDC in fiscal year 2013.
COPD
    COPD is the third leading cause of death in the United States and 
the third leading cause of death worldwide. CDC estimates that 12 
million patients have COPD; an additional 12 million Americans are 
unaware that they have this life threatening disease. In 2010, the 
estimated economic cost of lung disease in the United States was $186 
billion, including $117 billion in direct health expenditures and $69 
billion in indirect morbidity and mortality costs.
    Despite the growing burden of COPD, the United States does not have 
a public health action plan on the disease. The ATS urges Congress to 
direct the NHLBI to develop a national action plan on COPD, in 
coordination with the Centers for Disease Control and Prevention (CDC) 
to expand COPD surveillance, development of public health interventions 
and research on the disease and increase public awareness of the 
disease. The NHLBI has shown successful leadership in educating the 
public about COPD through the COPD Education and Prevention Program.
    CDC has an additional role to play in this work. We urge CDC to 
include COPD-based questions to future CDC health surveys, including 
the National Health and Nutrition Evaluation Survey (NHANES) and the 
National Health Information Survey (NHIS).
Tobacco Control
    Cigarette smoking is the leading preventable cause of death in the 
United States, responsible for 1 in 5 deaths annually. The ATS is 
pleased that the Department of Health and Human Services has made 
tobacco use prevention a key priority. The CDC's Office of Smoking and 
Health coordinates public health efforts to reduce tobacco use. In 
order to significantly reduce tobacco use within 5 years, as 
recommended by the subcommittee in fiscal year 2010, the ATS recommends 
a total funding level of $197 million for the Office of Smoking and 
Health in fiscal year 2013.
Pediatric Lung Disease
    The ATS is pleased to report that infant death rates for various 
lung diseases have declined for the past 10 years. In 2007, of the 10 
leading causes of infant mortality, 4 were lung diseases or had a lung 
disease component. Many of the precursors of adult respiratory disease 
start in childhood. Many children with respiratory illness grow into 
adults with COPD. It is estimated that 7.1 million children suffer from 
asthma. While some children appear to outgrow their asthma when they 
reach adulthood, 75 percent will require life-long treatment and 
monitoring of their condition. The ATS encourages the NHLBI to continue 
with its research efforts to study lung development and pediatric lung 
diseases.
Asthma
    Asthma is a significant public health problem in the United States. 
Approximately 25 million Americans currently have asthma. In 2009, 
3,445 Americans in 2009 died as a result of asthma exacerbations. 
Asthma is the third leading cause of hospitalization among children 
under the age of 15 and is a leading cause of school absences from 
chronic disease. The disease costs our healthcare system over $50.1 
billion per year. African-Americans have the highest asthma prevalence 
of any racial/ethnic group and the age-adjusted death rate for asthma 
in this population is three times the rate in whites.
    The President's fiscal year 2013 budget request proposes to merge 
the CDC's National Asthma Control Program with the Healthy Homes/Lead 
Poisoning Prevention Program and recommends funding cuts to the 
combined programs of over 50 percent. The ATS is deeply concerned that 
this proposal would drastically reduce States' capacity to implement a 
proven public health response to this disease. Asthma public health 
interventions are cost effective. A study published in the American 
Journal of Respiratory Critical Care recently found that for every 
dollar invested in asthma interventions, there was a $36 benefit. We 
ask that in your appropriations request for fiscal year 2013 that 
funding for CDC's National Asthma Control Program be maintained at a 
funding level of at least $25.3 million and that the National Asthma 
Control Program remain as a distinct, stand-alone program.
Sleep
    Several research studies demonstrate that sleep-disordered 
breathing and sleep-related illnesses affect an estimated 50-70 million 
Americans. The public health impact of sleep illnesses and sleep 
disordered breathing is still being determined, but is known to include 
increased mortality, traffic accidents, lost work and school 
productivity, cardiovascular disease, obesity, mental health disorders, 
and other sleep-related comorbidities. Despite the increased need for 
study in this area, research on sleep and sleep-related disorders has 
been underfunded. The ATS recommends a funding level of $1 million in 
fiscal year 2013 to support activities related to sleep and sleep 
disorders at the CDC, including for the National Sleep Awareness 
Roundtable (NSART), surveillance activities, and public educational 
activities. The ATS also recommends an increase of funding for research 
on sleep disorders at the Nation Center for Sleep Disordered Research 
(NCSDR) at the NHLBI.
Tuberculosis
    Tuberculosis (TB) is the second leading global infectious disease 
killer, claiming 1.4 million lives each year. It is estimated that 9-12 
million Americans have latent tuberculosis. Drug-resistant TB poses a 
particular challenge to domestic TB control due to the high costs of 
treatment and intensive healthcare resources required. Treatment costs 
for multidrug-resistant (MDR) TB range from $100,000 to $300,000. The 
global TB pandemic and spread of drug resistant TB present a persistent 
public health threat to the United States.
    Despite declining rates, persistent challenges to TB control in the 
United States remain. Specifically: (1) racial and ethnic minorities 
continue to suffer from TB more than majority populations; (2) foreign-
born persons are adversely impacted; (3) sporadic outbreaks occur, 
outstripping local capacity; (4) continued emergence of drug 
resistance; and (5) there are critical needs for new diagnostics, 
treatment and prevention tools.
    The Comprehensive Tuberculosis Elimination Act (CTEA, Public Law 
110-392), enacted in 2008, reauthorized programs at CDC with the goal 
of putting the United States back on the path to eliminating TB. The 
ATS, recommends a funding level of $243 million in fiscal year 2013 for 
CDC's Division of TB Elimination, as authorized under the CTEA, and 
encourages the NIH to expand efforts to develop new tools to reduce the 
rising global TB burden.
Critical Illness
    The burden associated with the provision of care to critically ill 
patients is enormous, and is anticipated to increase significantly as 
the population ages. Approximately 200,000 people in the United States 
require hospitalization in an intensive care unit because they develop 
a form of pulmonary disease called Acute Lung Injury. Despite the best 
available treatments, 75,000 of these individuals die each year from 
this disease. To put that in context, that is the approximately the 
number of deaths each year due to breast cancer, colon cancer, and 
prostate cancer combined. This disease can be triggered by a variety of 
causes, including infections, drowning, traumatic accidents, burn 
injuries, blood transfusions and inhalation of toxic substances. 
Investigation into diagnosis, treatment and outcomes in critically ill 
patients should be a high priority, and the NIH should be encouraged 
and funded to coordinate investigation related to critical illness in 
order to meet this growing national imperative.
Fogarty International Center
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. FIC has created 
supplemental TB training grants for these institutions to train 
international health professionals in TB treatment and research. The 
ATS recommends Congress provide $72.8 million for FIC in fiscal year 
2013, to allow expansion of the TB training grant program from a 
supplemental grant to an open competition grant.
Researching and Preventing Occupational Lung Disease
    The ATS urges the subcommittee to provide at least level funding 
for the National Institute for Occupational Safety and Health (NIOSH). 
NIOSH, within the Centers for Disease Control and Prevention (CDC), is 
the primary Federal agency responsible for conducting research and 
making recommendations for the prevention of work-related illness and 
injury. NIOSH provides national and world leadership to avert workplace 
illness, injury, disability, and death by gathering information, 
conducting scientific research, and translating this knowledge into 
products and services. NIOSH supports programs in every State to 
improve the health and safety of workers.
    The ATS appreciates the opportunity to submit this statement to the 
subcommittee.
                                 ______
                                 
       Prepared Statement of the American Urogynecologic Society
    Founded in 1979, the American Urogynecologic Society (AUGS) is a 
professional organization of 1,400 physicians and allied health 
professionals who are dedicated to caring for women with pelvic floor 
disorders (PFD) that include pelvic organ prolapse, stress urinary 
incontinence, and defecatory disorders such as constipation and fecal 
incontinence.
    As the largest U.S. professional organization dedicated to caring 
for women with PFDs, AUGS is committed to advancing this vastly 
understudied field as a means to improve the quality of life of women 
worldwide. We are pleased to submit testimony to the Appropriations 
Subcommittee on Labor, Health and Human Services, Education, and 
Related Agencies requesting a greater commitment to biomedical research 
focused on female pelvic floor disorders, including incontinence.
Impact of Pelvic Floor Disorders
    Female pelvic floor disorders (PFD) represent an under-appreciated, 
but major public health burden with high prevalence, impairment of 
quality of life, and substantial economic costs. These disorders, which 
include urinary and fecal incontinence as well as pelvic organ prolapse 
(POP) (pelvic organs protruding outside of the body), affect 25 percent 
of women aged 40-59. Women with PFDs suffer from pressure, pain, 
embarrassment, and frequently social isolation. However, because PFDs 
are rarely fatal and are underreported by those affected, public 
attention is sparse. While many of us take bladder and bowel control 
for granted, for those that suffer, day-to-day life is not routine. 
Prevalence dramatically increases with age; 50 percent of women over 80 
suffer from uncontrollable leakage of urine or stool and/or POP. As the 
United States population ages, PFDs will become an even greater public 
health issue that cannot be ignored.
    List of research priorities for PFDs:
  --Expand research into understanding what causes some women to suffer 
        from PFDs, while other women are spared.
  --Foster collaborations between clinician scientists, basic 
        researchers, and translational scientists.
  --Facilitate clinical effectiveness studies through the development 
        of large practice-based networks, registries, or multi-
        institutional databases.
    Amount requested: $25 million in fiscal year 2013.
    Since fiscal year 1999 (14 fiscal years), the National Institute of 
Child Health and Human Development (NICHD), National Institute of 
Diabetes, Digestive, and Kidney Diseases (NIDDK) and the National 
Institute on Aging (NIA) have provided $150 million (or $10.7 million 
per annum) to PFD research (NIH Reporter query 4/21/12 [search criteria 
= ``pelvic floor'']). This funding has resulted in several important 
discoveries and programs, briefly summarized here:
  --The prevalence of the most common PFDs is better understood. 
        (Nygaard, Brown, Bharucha, Guise)
  --Using increasingly well-characterized knockout mouse models, the 
        role of modeling and remodeling of connective tissue 
        constituents for pelvic floor support has been better 
        elucidated. (Moalli, Word, Chen, Clark)
  --Utilizing magnetic resonance imaging and 3D ultrasound, the 
        functional (and dysfunctional) anatomy of pelvic floor organ 
        support by deep pelvic floor muscles is being explored. 
        (Delancey, Ashton-Miller, Dietz)
  --The role of peripheral nerve injury in the function of sphincteric 
        muscles has been evaluated in rodents, in some nonhuman 
        primates, and in humans. (Damaser, Wai, Pierce, Kuehl, Weidner)
  --Genetic determination of disease expression is currently being 
        explored in populations of families. (Norton)
  --Major NIH-funded networks (the Pelvic Floor Disorders Network and 
        the Urinary Incontinence Treatment Network) have provided new 
        insights from well-conceived clinical trials that are being 
        incorporated into routine practice.
    Although these studies have led to important advances in PFD 
research, they have also unveiled a wealth of unanswered questions that 
only can be addressed with ongoing funded research. Given the potential 
for further critical research in this area and the large proportion of 
the population affected by these disorders, we respectfully request a 
significant increase in funding to $25 million in fiscal year 2013 in 
order to build on the work already done. By providing at least $32 
billion in funding to the National Institutes of Health in the fiscal 
year 2013 Labor-HHS-Education appropriations bill, there would be 
enough of an increase to also allow NICHD and NIDDK to appropriately 
provide for this requested increase in PFD research, as well.
Further Detail Regarding Research Priorities for PFDS
    NICHD, NIDDK and NIA need to expand research into understanding 
what causes some women to suffer from PFDs, while other women are 
spared.
    Rationale.--Unlike many other disease processes, the underlying 
causes of PFDs are poorly understood, and thus, our ability to 
accurately determine which woman will be affected is rudimentary. 
Because of these significant knowledge gaps, efforts to develop 
effective preventive strategies and long-term treatment options remain 
empiric, rather than based on understanding of the underlying 
mechanisms of disease. This, in turn, likely contributes to the lack of 
long-term success of existing therapies. For example, women who suffer 
from urinary incontinence due to a condition called ``overactive 
bladder'' only achieve moderate improvements with currently approved 
medications. Furthermore, those that do get relief frequently 
discontinue medication because of equally bothersome side effects. An 
accurate understanding of disease mechanisms and varied expression of 
the disease is critical for advancing prevention strategies and 
developing new treatments. Better understanding of treatment failures 
will additionally serve to achieve our ultimate goal of improving the 
lives of millions of women who suffer from these highly prevalent 
disorders.
    Research Goal.--Encourage diverse research methodologies such as 
biomechanics, bioinformatics, genomics and proteomics, cellular biology 
and epidemiology. Below two research initiatives aimed at expanding 
research in the pathophysiology and phenotypes of PFDs are briefly 
outlined. To achieve this goal AUGS recommends the following:
  --Pathophysiology.--Scientific understanding of tissue-specific 
        abnormalities that underlie female PFDs is in its infancy with 
        many competing concepts and hypotheses that do not have 
        unifying themes. It is unclear whether the abnormalities 
        presently associated with pelvic floor dysfunction are due to 
        acute or repeated injury, deterioration, or inherent 
        abnormalities of the structures studied. Investigations are 
        urgently needed into the mechanisms underlying observed changes 
        in the skeletal and smooth muscles of the pelvic floor; 
        autonomic, peripheral and central nervous systems; and the 
        connective tissues of the pelvic floor.
    --Create a multi-center discovery network of expert centers focused 
            on the pathophysiology of PFD to develop coordinated 
            research.
    --Publish RFAs to fund the required mechanistic research into the 
            basic causes of the occurrence and progression of PFD.
  --Phenotyping.--Accurate disease/disorder categorization is uniformly 
        critical to high-quality research; however, current knowledge 
        of various forms of urinary and fecal incontinence and POP is 
        limited. The process of developing definitions of ``disease/
        disorder'' requires the use of epidemiologic, biologic, 
        molecular and computational methodologies for complex processes 
        such as PFDs. Therefore AUGS recommends:
    --Publish a specific RFA to fund multidisciplinary research on how 
            to phenotype PFD.
    --Once the process has been defined, fund a consortium of centers 
            focused on multidisciplinary approaches to accurately 
            phenotype pelvic floor disorders.
    NIH Institutes need to foster collaborations between clinician 
scientists, basic researchers, and translational scientists.
    Rationale.--The Inaugural AUGS Research Summit 2010 recommended a 
variety of complex research topics to advance understanding in PFDs, 
all of which require multidisciplinary expertise. It is critical to 
prioritize enhancing partnerships between clinician scientists and 
basic/translational scientists to maximize the bi-directional flow of 
research.
    Research Goals.--We propose the following near-term action items to 
achieve this priority.
  --Using the RFA and PA mechanisms, include basic science research in 
        ongoing and new large collaborative/network trials. This would 
        allow basic scientists to create a tissue bank and access data 
        and tissues collected from diverse yet well-characterized 
        populations. Additionally, research grant requirements could be 
        redefined so that large clinical studies are required to 
        include a basic science component. This would encourage 
        clinicians to think about the mechanisms leading to their 
        observations and outcomes, and basic scientists to base their 
        investigations on clinical perspective in their areas of 
        expertise.
  --Develop seed funding mechanisms focused on bringing 
        multidisciplinary experts together to plan and design studies 
        in Female Pelvic Medicine and Reconstructive Surgery. Primary 
        barriers preventing collaborative groups from receiving funding 
        are the protected time necessary for investigators to plan and 
        funds for them to generate pilot data together to produce 
        meaningful proposals.
  --Increase ongoing communications between NICHD, NIDDK, NIA and 
        Office of Research on Women's Health (ORWH) to align their 
        goals and strategies in Female Pelvic Medicine and 
        Reconstructive Surgery research. This also includes identifying 
        scientific officers within these NIH Institutes and ORWH with 
        specific responsibilities of advocacy for basic science/
        multidisciplinary research projects in Female Pelvic Medicine 
        and Reconstructive Surgery. This organization at the level of 
        the NIH would better focus research priorities and reduce 
        redundancy, translating into better use of resources.
    NICHD, NIDDK and the Agency for Healthcare Research and Quality 
should work together and facilitate clinical effectiveness studies 
through the development of large practice-based networks, registries, 
or multi-institutional databases.
    Rationale.--Finding safe and cost-effective treatments for PFDs is 
of the utmost importance; however, the pipeline from bench to bedside 
is laborious. Women, in the meantime, continue to suffer from and seek 
treatment for PFDs. Research focused on comparative effectiveness, 
health behavior, cost-effectiveness and implementation science are 
crucial to provide safe, effective care to the many women who suffer 
from pelvic floor dysfunction in the immediate term. In order to make 
such research possible, it is imperative to develop an infrastructure 
that allows the study of treatment effectiveness or how treatments 
perform in a more ``real world'' setting. Broader participation in such 
efforts would be facilitated by the development of a system to 
encourage non-NIH funded investigators to contribute patients to 
ongoing multicenter trials or cohort studies. To achieve these goals, 
we recommend the following immediate actions:
  --Establish evidence-based outcome measures.--Currently, clinical 
        research is limited by the variability (across studies) in 
        techniques for measurement of clinically relevant outcomes. 
        Therefore, uniform evidence-based outcome measures should be 
        selected or developed to allow cross-study comparisons and 
        meta-analyses.
    --To select and develop this ``bank'' of measures, an 
            interdisciplinary team should be convened and should 
            include representatives from traditional Federal funding 
            and oversight entities, as well as broad representation of 
            other stakeholders including professional societies, and 
            patients. The minimum data set proposed by the NIH 
            Standardization of Terminology for Researchers in Female 
            Pelvic Floor Disorders (2001) should be revised. The 
            concept of a clinical outcome measure that balances 
            improvement in pre-existing symptoms with the development 
            of new symptoms and complications should be explored.
    --A library for clinical measurements in research should be 
            established, including those that apply to both affected 
            and unaffected individuals and including minority 
            populations; such measures must be available in Spanish. 
            Uniform measures across centers would promote comparisons 
            of treatment outcomes in various settings and populations. 
            In addition, this would facilitate the identification of 
            quality indicators that assess the balance between benefits 
            and harms.
  --Practice-based networks.--The past 10 years has seen substantial 
        progress with respect to high-quality clinical trials in the 
        evaluation and treatment of PFDs. This will be crucial to 
        ensure high quality as well as cost-effective care for our 
        aging population.
    --Develop practice-based networks for clinical research for short 
            and long-term (5 years or more) outcomes. The challenges 
            are to engage practicing physicians in research, to 
            encourage patients to participate in clinical trials, and 
            to ensure best research practices in this context.
    --Develop a web-based comprehensive database for data collection. 
            Ideally, this database would interface not only with the 
            central repository, but also with the local medical record.
  --Support a national registry for permanent surgical implants used in 
        POP surgery.--The past decade has seen an unprecedented 
        increase in the development of new surgical implants, many with 
        uncertain long-term effects. Indeed, in 2008 the FDA issued a 
        Public Health Notification and in 2011 a Safety Update 
        regarding ``serious complications associated with transvaginal 
        placement of surgical mesh''. Such a registry would allow the 
        tracking and study of long-term efficacy and safety outcomes as 
        well as the improved identification of rare adverse events 
        associated with the use of these implants.
    We thank you, Mr. Chairman, and the Subcommittee, for your support 
of research regarding Pelvic Floor Disorders and thank you for the 
opportunity to share these comments.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    We are grateful to the Animal Welfare Institute (AWI) subcommittee 
for this opportunity to offer testimony as you consider budget 
priorities for fiscal year 2013. This testimony addresses the National 
Institutes of Health (NIH), but does not make any funding requests.
    Thanks to the 2009 National Academy of Sciences (NAS) report 
``Scientific and Humane Issues in the Use of Random Source Dogs and 
Cats in Research'', and to ongoing concern on the part of Congress, the 
NIH has begun the process of prohibiting its extramural researchers 
from acquiring dogs and cats from random source Class B dealers. The 
ban on the acquisition of cats from these dealers will take effect on 
October 1, and the ban on the acquisition of dogs is scheduled to take 
effect in 2015.
    It should be clarified that the NAS report addressed extramural 
research funded by NIH, not NIH's internal research endeavors. There 
was no need--NIH had ceased using Class B dog and cat dealers in its 
own research over 20 years ago, recognizing the problems--both ethical 
and scientific--caused by acquiring animals from sources that treat 
dogs and cats inhumanely; fail to provide proper veterinary care and 
the basic necessities of life such as clean water, food, and shelter; 
acquire animals through fraud and deception; and are constantly under 
investigation for apparent violations of the Animal Welfare Act. In 
fact, in a 2010 article in Science (David Grimm, ``Dog Dealers' Days 
May Be Numbered,'' Vol. 327, 26 February 2010, p. 1076-1077), Dr. 
Robert Whitney, director of NIH's animal resources program for 20 
years, is quoted as saying, ``By using these animals, we risk losing 
our credibility with the public. It's an Achilles' heel for research.'' 
Even so, and even in the face of congressional concern, NIH had 
steadfastly refused to hold its outside grant recipients to the same 
high standards it was requiring of its intramural researchers. We 
commend NIH for taking the NAS report recommendations and Congress' 
concerns to heart and moving forward to end its support for the Class B 
dealer system.
    As a result of the NAS report, ongoing congressional interest, 
intensive (and overly expensive) oversight, and evaporating demand for 
their dogs and cats, very few of these dealers remain. Of the eight 
remaining random source Class B dog and cat dealers, one is still under 
a license suspension, one has received an Official Warning/Violation of 
Federal Regulations, and three others remain under investigation. Cases 
are still pending against two dealers who have given up their licenses; 
one of them was indicted on a number of Federal charges, including 
conspiracy, aggravated identity theft, mail fraud, and making false 
statements to a Federal agency.
    However, even with positive steps toward ending the Class B dealer 
system as a source of dogs and cats for research, it is too early for 
Congress to take its eye off the ball. Until the Pet Safety and 
Protection Act is enacted, thus putting a permanent end to the supply 
of animals to research through Class B dealers, the potential will 
exist for the system to reconstitute itself. In light of this, it is 
vital that Congress take every opportunity to underscore its continuing 
vigilance on this issue. We therefore respectfully ask the subcommittee 
to include the following language in its report:

    ``The Committee wishes to acknowledge that NIH has made progress in 
moving to end the use of Class B random source dealers as suppliers of 
dogs and cats to its grant recipients by recently announcing a ban, 
effective October 1, 2012, on the acquisition of cats from Class B 
random source dealers. The Committee urges NIH to move as expeditiously 
as possible to implement the ban on the acquisition of dogs from Class 
B random source dealers, preferably before, but certainly no later 
than, 2015, and to ensure that the ban covers not only future grant 
awards but also those in place at the time the ban goes into effect. 
Finally, the Committee requests that NIH provide regular reports to the 
Committee on the status of this process.''

    Thank you for your consideration of this request.
                                 ______
                                 
     Prepared Statement of the Brain Injury Association of America
    Chairman Harkin and Ranking Member Shelby, thank you for the 
opportunity to submit this written testimony with regard to the fiscal 
year 2013 Labor-HHS-Education appropriations bill. This testimony is on 
behalf of the Brain Injury Association of America (BIAA), our national 
network of State affiliates, and hundreds of local chapters and support 
groups from across the country.
    In the civilian population alone every year, more than 1.7 million 
people sustain brain injuries from falls, car crashes, assaults and 
contact sports. Males are more likely than females to sustain brain 
injuries. Children, teens and seniors are at greatest risk.
    Recently, we are seeing an increasing number of service members 
returning from the conflicts in Iraq and Afghanistan with TBI, which 
has been termed one of the signature injuries of the war. Many of these 
returning service members are undiagnosed or misdiagnosed and 
subsequently they and their families will look to community and local 
resources for information to better understand TBI and to obtain vital 
support services to facilitate successful reintegration into the 
community.
    For the past 13 years Congress has provided minimal funding through 
the HRSA Federal TBI Program to assist States in developing services 
and systems to help individuals with a range of service and family 
support needs following their loved one's brain injury. Similarly, the 
grants to State Protection and Advocacy Systems to assist individuals 
with traumatic brain injuries in accessing services through education, 
legal and advocacy remedies are woefully underfunded. Rehabilitation, 
community support and long-term care systems are still developing in 
many States, while stretched to capacity in others. Additional numbers 
of individuals with TBI as the result of war-related injuries only adds 
more stress to these inadequately funded systems.
    BIAA respectfully urges you to provide States with the resources 
they need to address both the civilian and military populations who 
look to them for much needed support in order to live and work in their 
communities.
    With broader regard to all of the programs authorized through the 
TBI Act, BIAA specifically requests:
  --$10 million (+$4 million) for the Centers for Disease Control and 
        Prevention TBI Registries and Surveillance, Brain Injury Acute 
        Care Guidelines, Prevention and National Public Education/
        Awareness;
  --$8 million (+$1 million) for the Health Resources and Services 
        Administration (HRSA) Federal TBI State Grant Program; and
  --$4 million (+$1 million) for the HRSA Federal TBI Protection & 
        Advocacy (P&A) Systems Grant Program.
    CDC--National Injury Center.--The Centers for Disease Control and 
Prevention's National Injury Center is responsible for assessing the 
incidence and prevalence of TBI in the United States. The CDC estimates 
that 1.7 million TBIs occur each year and 3.4 million Americans live 
with a life-long disability as a result of TBI. In addition, the TBI 
Act as amended in 2008 requires the CDC to coordinate with the 
Departments of Defense and Veterans Affairs to include the number of 
TBIs occurring in the military. This coordination will likely increase 
CDC's estimate of the number of Americans sustaining TBI and living 
with the consequences.
    CDC also funds States for TBI registries, creates and disseminates 
public and professional educational materials, for families, caregivers 
and medical personnel, and has recently collaborated with the National 
Football League and National Hockey League to improve awareness of the 
incidence of concussion in sports. CDC plays a leading role in helping 
standardize evidence based guidelines for the management of TBI and $1 
million of this request would go to fund CDC's work in this area.
    HRSA TBI State Grant Program.--The TBI Act authorizes the HHS, 
Health Resources and Service Administration (HRSA) to award grants to 
(1) States, American Indian Consortia and territories to improve access 
to service delivery and to (2) State Protection and Advocacy (P&A) 
Systems to expand advocacy services to include individuals with 
traumatic brain injury. For the past 13 years the HRSA Federal TBI 
State Grant Program has supported State efforts to address the needs of 
persons with brain injury and their families and to expand and improve 
services to underserved and unserved populations including children and 
youth; veterans and returning troops; and individuals with co-occurring 
conditions
    In fiscal year 2009, HRSA reduced the number of State grant awards 
to 15, in order to increase each monetary award from $118,000 to 
$250,000. This means that many States that had participated in the 
program in past years have now been forced to close down their 
operations, leaving many unable to access brain injury care.
    Increasing the program to $8 million will provide funding necessary 
to sustain the grants for the 21 States currently receiving funding 
along with the 3 additional States added this year and to ensure 
funding for 4 additional States. Steady increases over 5 years for this 
program will provide for each State including the District of Columbia 
and the American Indian Consortium and territories to sustain and 
expand State service delivery; and to expand the use of the grant funds 
to pay for such services as Information & Referral (I&R), systems 
coordination and other necessary services and supports identified by 
the State.
    HRSA TBI P&A Program.--Similarly, the HRSA TBI P&A Program 
currently provides funding to all State P&A systems for purposes of 
protecting the legal and human rights of individuals with TBI. State 
P&As provide a wide range of activities including training in self-
advocacy, outreach, information and referral and legal assistance to 
people residing in nursing homes, to returning military seeking 
veterans benefits, and students who need educational services.
    Effective Protection and Advocacy services for people with 
traumatic brain injury is needed to help reduce Government expenditures 
and increase productivity, independence and community integration. 
However, advocates must possess specialized skills, and their work is 
often time-intensive. A $4 million appropriation would ensure that each 
P&A can move toward providing a significant PATBI program with 
appropriate staff time and expertise.
    NIDRR TBI Model Systems of Care.--Funding for the TBI Model Systems 
in the Department of Education is urgently needed to ensure that the 
Nation's valuable TBI research capacity is not diminished, and to 
maintain and build upon the 16 TBI Model Systems research centers 
around the country.
    The TBI Model Systems of Care program represents an already 
existing vital national network of expertise and research in the field 
of TBI, and weakening this program would have resounding effects on 
both military and civilian populations. The TBI Model Systems are the 
only source of non-proprietary longitudinal data on what happens to 
people with brain injury. They are a key source of evidence-based 
medicine, and serve as a ``proving ground'' for future researchers.
    In order to make this program more comprehensive, Congress should 
provide $11 million (+$1.5 million) in fiscal year 2012 for NIDRR's TBI 
Model Systems of Care program, in order to add one new Collaborative 
Research Project. In addition, given the national importance of this 
research program, the TBI Model Systems of Care should receive ``line-
item'' status within the broader NIDRR budget.
    We ask that you consider favorably these requests for the CDC, the 
HRSA Federal TBI Program, and the NIDRR TBI Model Systems Program to 
further data collection, increase public awareness, improve medical 
care, assist states in coordinating services, protect the rights of 
persons with TBI, and bolster vital research.
                                 ______
                                 
Prepared Statement of the Communities Advocating Emergency AIDS Relief 
                           (CAEAR) Coalition
    On behalf of the tens of thousands of individuals living with HIV/
AIDS to whom members of the Communities Advocating Emergency AIDS 
Relief (CAEAR) Coalition provide care, I thank Chairman Harkin and 
Ranking Member Shelby for affording us the opportunity to submit 
testimony regarding increased funding for the Ryan White HIV/AIDS 
Program.
    The Communities Advocating Emergency AIDS Relief (CAEAR) Coalition 
is a national membership organization which advocates for sound Federal 
policy, program regulations, and sufficient appropriations to meet the 
care, treatment, support service and prevention/wellness needs of 
people living with HIV/AIDS and the organizations that serve them, 
focusing on ensuring access to high quality healthcare and the evolving 
role of the Ryan White Program.
A Wise Investment in a Program That Works
    The Ryan White Program works. In its Program Assessment Rating Tool 
(PART), the White House Office of Management and Budget (OMB) gave the 
Ryan White Program its highest possible rating of ``effective''--a 
distinction shared by only 18 percent of all programs rated. According 
to OMB, effective programs ``set ambitious goals, achieve results, are 
well-managed and improve efficiency.'' Even more impressively, OMB's 
assessment of the Ryan White Program found it to be in the top 1 
percent of all Federal programs in the area of ``Program Results and 
Accountability.'' Out of the 1,016 Federal programs rated--98 percent 
of all Federal programs--the Ryan White Program was 1 of 7 that 
received a score of 100 percent in ``Program Results and 
Accountability.''
    The Ryan White Program serves as the indispensable safety net for 
thousands of low-income, uninsured or underinsured people living with 
HIV/AIDS.
  --Part A provides much-needed funding to the 52 major metropolitan 
        areas hardest hit by the HIV/AIDS epidemic with severe needs 
        for additional resources to serve those living with HIV disease 
        in their communities.
  --Part B assists States and territories in improving the quality, 
        availability, and organization of healthcare and support 
        services for individuals and families with HIV.
  --The AIDS Drug Assistance Program (ADAP) in Part B provides life-
        saving, urgently needed medications to people living with HIV/
        AIDS in all 50 States and the territories.
  --Part C provides grants to 345 faith- and community-based primary 
        care health clinics and public health providers in 49 States, 
        Puerto Rico and the District of Columbia. These clinics play a 
        central role in the delivery of HIV-related medical services to 
        underserved communities, people of color, and rural areas where 
        Part C funded clinics provide the only HIV specific medical 
        services available in the region.
  --Part F AETC supports training for healthcare providers to identify, 
        counsel, diagnose, treat, and manage individuals with HIV 
        infection and to help prevent high-risk behaviors that lead to 
        infection. It has 130 program sites with coverage in all 50 
        States.
    CAEAR Coalition's fiscal year 2013 funding requests for Part A, 
Part B base and ADAP, and Part C reflect the amounts authorized by 
Congress in the most recent authorization of the program.
    There continues to be an increasing gap between the number of 
people living with HIV/AIDS in the United States in need of care and 
the Federal resources available to serve them. Between 2001 and 2009 
the number of people living with AIDS grew 44 percent and yet funding 
for medical care and support services in communities with the greatest 
burden of HIV disease grew less than 12 percent between 2001 and 2011. 
Similarly, funding for Part C--funded, faith and community-based 
primary care clinics, which provide medical care for people living with 
HIV/AIDS in remote, rural and geographically isolated, urban 
communities nationwide, grew by only 11 percent between 2001 and 2012 
as the number of people they care for grew by 52 percent. The 
authorized amounts we request would not fully address these funding 
deficiencies, but would begin to reduce the still growing gaps in 
funding.
    We thank you in advance for your consideration of our comments and 
our request for:
  --$789.5 million for Part A to support grants to the cities where 
        most people with HIV/AIDS live and receive their care and 
        treatment.
  --$502.9 million for Part B base to provide additional needed 
        resources to the States to bolster the public health response 
        statewide regardless of location.
  --$1,123.3 million in funding for the ADAP line item in Part B so 
        uninsured and underinsured people with HIV/AIDS can access the 
        anti-HIV and other prescribed medications they need to survive.
  --$285.8 million for Part C to support grants to faith- and 
        community-based organizations, healthcare agencies, and 
        clinics.
  --$42.2 million to fund the 11 regional centers funded under by Part 
        F AETC to offer specialized clinical education and consultation 
        to frontline providers.
Sufficient Funding for Ryan White Programs Saves Money and Saves Lives
    Increased funding for Ryan White Programs will reap a significant 
health return for minimal investment. Data show that Part A and Part C 
programs have reduced HIV-related hospital admissions by 30 percent 
nationally and by up to 75 percent in some locations. The programs 
supported by the Ryan White HIV/AIDS Program also have been critical in 
reducing AIDS mortality by 70 percent. The Ryan White Program works, 
resulting in both economic stimulus and social savings by helping keep 
people, stable, healthy and productive.
Growing Needs as More Tested and Entering Care
    The Centers for Disease Control and Prevention (CDC) estimates that 
as of 2008 there were 1,178,350 persons living with HIV/AIDS in the 
United States. This represents an increase of approximately 7 percent 
from the previous estimate in 2006. Among persons initially diagnosed 
with HIV infection during 2008, one-third (33 percent) received an AIDS 
diagnosis within 12 months. These late diagnoses represent missed 
opportunities for treatment and prevention.
    The fiscal year 2013 appropriation presents a crucial opportunity 
to provide the Ryan White Program with the levels of funding needed to 
address a growing epidemic in young men, as the CDC continues to 
increase efforts to expand HIV testing so people living with HIV know 
their status, control their health, and protect others.
    CAEAR Coalition supports efforts to help individuals infected with 
HIV learn their status at the earliest possible time. However, CAEAR 
Coalition is concerned about the unmet demand for services created by 
insufficient resources at the Federal level. Researchers estimate that 
CDC's expanded HIV testing guidelines will bring an additional 46,000 
people into care over 5 years and significantly reduce the 20 percent 
of people living with HIV who do not know they are infected and 
therefore are not in care. Bringing these individuals into care will 
save large sums of money in the long run, but requires an initial 
investment now. Research clearly shows that averting a single HIV 
infection saves $221,365 in lifetime healthcare costs \1\, and getting 
people on anti-HIV treatment early lowers levels of HIV circulating in 
the body and reduces potential transmissions \2\--saving lives and 
money in the long term--but we must invest now in care and treatment to 
reap those rewards. Caring for individuals early in their disease will 
increase the cost of care by $2.7 billion over 5 years and the majority 
of those costs will fall to Federal discretionary programs like the 
Ryan White Program and will not be offset by entitlement programs.\3\
---------------------------------------------------------------------------
    \1\ Holtgrave DR, Briddell K, Little E, Bendixen AV, Hooper M, 
Kidder DP, et al. Cost and threshold analysis of housing as an HIV 
prevention intervention. AIDS & Behavior.(2007)11(Suppl 2), S162-S166.
    \2\ Montaner J, Lima VD, Barrios R, et al. Association of highly 
active antiretroviral therapy coverage, population viral load, and 
yearly new HIV diagnoses in British Columbia, Canada: a population-
based study. The Lancet (2010) 376(9740): 532-539.
    \3\ Martin EG, Paltiel AD, Walensky, RP, Schackman BR, Expanded HIV 
Screening in the United States: What Will It Cost Government 
Discretionary and Entitlement Programs? A Budget Impact Analysis. Value 
in Health (2010) 13: 893--902.
---------------------------------------------------------------------------
    Community-based providers are stretched to provide high-quality 
care with the scarce resources available. CAEAR Coalition is concerned 
that many HIV expert medical staff are scheduled to retire and the 
persistent financial pressures may accelerate the loss of trained 
professionals in the field. This additional pressure on an already 
overburdened system will leave many of the more than 200,000 HIV-
infected individuals who do not know their HIV status without access to 
the care they need.
    State budget cuts have created a continuing and growing ADAP 
funding crisis as a record number of people are in need of ADAP 
services due to the economic downturn. As of April 2012, there are 
3,079 people on ADAP waiting lists in 10 States. Additionally, ADAP 
waiting lists and other cost-containment measures, including limited 
formularies, reducing eligibility, or removing already enrolled people 
from the program, are clear evidence that the need for HIV-related 
medications continues to outstrip availability. ADAPs are forced to 
make difficult trade-offs between serving a greater number of people 
living with HIV/AIDS with fewer services or serving fewer people with 
more services. Additional resources are needed to reduce and prevent 
further use of cost-containment measures to limit access to ADAPs and 
to allow all State ADAPs to provide a full range of HIV antiretrovirals 
and treatment for opportunistic infections.
    The number of clients entering the 349 Part C community health 
centers and outpatient clinics has consistently increased over the last 
5 years. Over 255,000 unduplicated persons living with HIV/AIDS receive 
medical care in Part C-funded community health centers and clinics each 
year. These faith- and community-based HIV/AIDS providers are 
staggering under the burden of treatment and care after years of 
funding cuts prior to the modest increase in recent years. The success 
of the CDC's routine HIV testing recommendations has generated new 
clients for Part C-funded health centers and clinics too, but 
unfortunately with no increase in funding to provide the high quality 
healthcare services and treatment access people with HIV/AIDS require.
Ryan White-Funded Programs are Economic Engines in their Communities
    Ryan White-funded programs, including many community health 
centers, are small businesses providing jobs, vendor contracts and 
other types of economic development to low-income, urban and rural 
communities, frequently serving as anchors for existing and new 
businesses and investments. These organizations employ people in their 
communities, providing critical entry-level jobs, community-based 
training and career building.
    For example, a large, urban community health center brings an 
estimated economic impact of $21.6 million, employing 281 people, and a 
small, rural health center has an estimated economic impact of $3.9 
million, employing 52 people. Investing in AIDS care and treatment is 
an investment in jobs and community development in communities that 
need it most.
Ryan White Program Key to Meeting the Goals of the National HIV/AIDS 
        Strategy
    CAEAR Coalition is eager to work with Congress to meet the 
challenges posed by the HIV/AIDS epidemic. In 2013, we have the 
collective chance to implement the community-embraced healthcare goals 
and policies in the National HIV/AIDS Strategy (NHAS). The National 
Strategy is an opportunity to reinvigorate the Nation's response to the 
HIV/AIDS epidemic and stop its relentless movement into our 
communities. The Ryan White HIV/AIDS Program is key to reaching the 
NHAS goals of reducing new HIV infections, increasing access to care 
and improving health outcomes for people living with HIV/AIDS, and 
reducing HIV-related health disparities. Ryan White provides HIV/AIDS 
care and treatment services to a significantly higher proportion of 
racial/ethnic minorities and women than their representation among 
reported AIDS cases--suggesting the programs and resources are targeted 
to underserved and marginalized populations. Early care and treatment 
are more critical than ever because we can help those infected learn 
their status and get into care and treatment in order to improve their 
own health and the health of their communities.
    The Ryan White Program's history of accomplishments for public 
health and people living with HIV/AIDS is a wonderful legacy for the 
U.S. Congress. There continues to be a vast need for additional 
resources to address the healthcare and treatment needs of people 
living with HIV across the country. In recognition of its high level of 
effectiveness and validation over time from credible Federal Government 
institutions, CAEAR urges the committee to provide the Ryan White HIV/
AIDS Program with the funding levels authorized by Congress for fiscal 
year 2013.
                                 ______
                                 
     Prepared Statement of the Council of Academic Family Medicine
                   fiscal year 2013 funding requests
    Concerning.--Health Resources and Services Administration (HRSA), 
Title VII Primary Care Training and Enhancement (Section 747 of Public 
Health Service Act (PHS)), Title VII, Sections 749A and B, the Teaching 
Health Center Development Grants and the Rural Physician Training 
Grants, the Agency for Healthcare Research and Quality (AHRQ) and its 
Primary Care Extension Program, and the National Health Workforce 
Commission.
    The member organizations of the Council of Academic Family Medicine 
(CAFM) are pleased to submit testimony on behalf of programs under the 
jurisdiction of the Health Resources and Services Administration (HRSA) 
and the Agency for Healthcare Research and Quality (AHRQ). The programs 
we support in our testimony are ones that deliver an investment in our 
Nation's workforce and health infrastructure. They are a down payment 
on a U.S. healthcare system with a foundation of primary care that will 
produce better health outcomes and reduce the ever rising costs of 
healthcare. We understand that hard decisions must be made in these 
difficult fiscal times, but even in this climate we hope the Committee 
will recognize that the production of a robust primary care workforce 
for the future is a necessary investment that cannot wait.
    Members of both parties agree there is much that must be done to 
support primary care provider production and to nourish the development 
of a high quality, highly effective primary care workforce to serve as 
a foundation for our healthcare system. Providing strong funding for 
these programs is essential to the development of a robust workforce 
needed to provide this foundation.
    We urge the Committee to appropriate at least $71 million for the 
health professions program, Primary Care Training and Enhancement, 
authorized under Title VII, Section 747 of the Public Health Service 
Act in order to allow for a new competitive cycle for physician primary 
care training grants.
Primary Care Training and Enhancement
    The Primary Care Training and Enhancement Program (Title VII, 
Section 747 of the Public Health Service Act) has a long history of 
providing indispensible funding for the training of primary care 
physicians. With each successive reauthorization, Congress has modified 
the Title VII health professions programs to address relevant workforce 
needs. The most recent authorization directs the Health Resources and 
Services Administration (HRSA) to prioritize training in the new 
competencies relevant to providing care in the patient-centered medical 
home model. It also calls for the development of infrastructure within 
primary care departments for the improvement of clinical care and 
research critical to primary care delivery, as well as innovations in 
team management of chronic disease, integrated models of care, and 
transitioning between healthcare settings.
    We urge you to support at least a $71 million appropriation for the 
Primary Care Training and Enhancement program funded through the Labor-
HHS-Education appropriations bill. This funding level is necessary to 
permit a competitive grant cycle for physician primary care training 
grants. Without additional funding, this will be the second year in a 
row there are insufficient funds to conduct a grant cycle. In a time of 
increasing primary care need, we urge you to recognize the importance 
of maintaining and expanding the pipeline of primary care production 
and training. Funding for primary care training is an investment in the 
future restraint of healthcare spending, as well as in improved health 
outcomes.
    Level funding for primary care training is not enough. With the 
allocation of 15 percent of the appropriations of the Primary Care 
Training and Enhancement program line for physician assistant training, 
Congress has taken steps to alleviate the shortfall in physician 
assistant training. However, not funding a competitive cycle for 
physicians stifles opportunities for inter-professional, team-based 
training. The Nation needs new initiatives relating to increased 
training in inter-professional care, the patient-centered medical home, 
and other new competencies required in our developing health system. 
Such initiatives will be impossible to implement without a competitive 
grant cycle. Now is the time to ensure that critical funding for the 
Primary Care Training and Enhancement program takes place. We cannot 
allow the primary care pipeline to dry up.
    Key advisory bodies such as the Institute of Medicine (IOM) and the 
Congressional Research Service (CRS) have also called for increased 
funding. The IOM (December 2008) pointed to the drastic decline in 
Title VII funding and described these health professions workforce 
training programs as ``an undervalued asset.'' The CRS found that 
reduced funding to the primary care cluster has negatively affected the 
programs during a time when more primary care is needed (February 
2008).
    According to the Robert Graham Center, (Title VII's decline: 
Shrinking investment in the primary care training pipeline, Oct. 2009), 
``the number of graduating U.S. allopathic medical students choosing 
primary care declined steadily over the past decade, and the proportion 
of minorities within this workforce remains low.'' Unfortunately, this 
decline coincides with a decline in primary care training funding--
funding that we know is associated with increased primary care 
physician production and practice in underserved areas. The report goes 
on to say that ``the Nation needs renewed or enhanced investment in 
programs like Title VII that support the production of primary care 
physicians and their placement in underserved areas.''
    A recent study in the Annals of Family Medicine (Phillips and 
Turner, March/April 2012) stated that ``Meeting this increased demand 
[for primary care physician production] requires a major investment in 
primary care training.'' The study continues, ``Expansion of Title VII, 
Section 747 with the goal of improving access to primary care would be 
an important part of a needed, broader effort to counter the decline of 
primary care. Failure to launch such a national primary care workforce 
revitalization program will put the health and economic viability of 
our Nation at risk.''
    Title VII has a profound impact on States across the country and is 
vital to the continued development of a workforce designed to care for 
the most vulnerable populations and meet the needs of the 21st century.
    The evidence is clear:
  --Demonstration projects and international experiences that 
        preferentially invest in primary care can reduce spending, 
        particularly for inpatient and emergency department care 
        (Health Affairs, March-April 2009).
  --``There is compelling evidence that healthcare outcomes and costs 
        in the United States are strongly linked to the availability of 
        primary care physicians. For each incremental primary care 
        physician (PCP), there is 1.44 fewer deaths per 10,000 persons. 
        Patients with a regular primary care physician have lower 
        overall healthcare costs than those without one.'' (Council on 
        Graduate Medical Education (COGME) December, 2010)
  --Hospital readmission after discharge is often a costly failing of 
        the U.S. healthcare system to adequately manage patients who 
        are ill. Increasing the number of family physicians (FPs) is 
        associated with significant reductions in hospital readmissions 
        and substantial cost savings. (Robert Graham Center, 2011)
Agency for Health Care Research and Quality (AHRQ)
    As mentioned above, the overall health of a population is directly 
linked to the strength of its primary healthcare system. Primary care 
research includes: translating science into the practice of medicine 
and caring for patients, understanding how to better organize 
healthcare to meet patient and population needs, evaluating innovations 
to provide the best healthcare to patients, and engaging patients, 
communities, and practices to improve health.
    Research related to the most common acute, chronic, and comorbid 
conditions that primary care clinicians care for on a daily basis is 
lacking. AHRQ supports research to improve healthcare quality, reduce 
costs, advance patient safety, decrease medical errors, and broaden 
access to essential services. This research is key to helping create a 
robust primary care system for our Nation--one that delivers higher 
quality of care and better health while reducing the rising cost of 
care. Despite this need, little is known about how patients can best 
decide how and when to seek care, introduce and disseminate new 
discoveries into real life practice, and how to maximize appropriate 
care. And yet, the majority of research funding supports research of 
one specific disease, organ system, cellular, or chemical process--not 
for primary care.
    One cogent example of how AHRQ funded research is making a 
difference in primary care practices is a study on ``Care Coordination 
Accountability Measures for Primary Care Practice,'' published in 
January, 2012. This report builds on earlier work and presents measures 
``that are well suited for use by health plans and insurers to assess 
the quality of coordination in primary care practices and by primary 
care practices themselves to assess their own performance.'' This type 
of research requires sufficient funding for AHRQ so it can help 
researchers address the problems confronting our health system today.
    We recommend the Committee fund AHRQ at a base, discretionary level 
of at least $400 million for fiscal year 2013.
Primary Care Extension Program
    The Primary Care Extension Program was modeled after the successful 
United States Agriculture Extension Service. This program, under Title 
III of the Public Health Service Act, is designed to support and assist 
primary care providers with the adoption and incorporation of 
techniques to improve community health. As the authors of an article 
describing this concept (JAMA, June 24, 2009) have stated, ``To 
successfully redesign practices requires knowledge transfer, 
performance feedback, facilitation, and HIT support provided by 
individuals with whom practices have established relationships over 
time. The farming community learned these principles a century ago. 
Primary care practices are like small farms of that era, which were 
geographically dispersed, poorly resourced for change, and inefficient 
in adopting new techniques or technology, but vital to the Nation's 
well-being.''
    Congress agreed with the authors that ``practicing physicians need 
something similar to the agricultural extension agent who was so 
transformative for farming,'' and authorized this program at $120 
million for fiscal year 2011 and 2012.
    We recommend the Committee fund the Primary Care Extension program 
at the authorized level of $120 million for fiscal year 2013.
Rural Physician Training Grants
    ``Rural Physician Training Grants,'' Title VII Section 749B of the 
Public Health Service Act, were developed to increase the supply of 
rural physicians by authorizing grants to medical schools which 
establish or expand rural training. The program would provide grants to 
produce rural physicians of all specialties. It would help medical 
schools recruit students most likely to practice medicine in 
underserved rural communities, provide rural-focused training and 
experience, and increase the number of medical graduates who practice 
in underserved rural communities.
    According to a July 2007 report of the Robert Graham Center 
(Medical school expansion: An immediate opportunity to meet rural 
healthcare needs), data show that although 21 percent of the U.S. 
population lives in rural areas, only 10 percent of physicians practice 
there. The Graham Center study describes the educational pipeline to 
rural medical practice as ``long and complex.'' There are multiple 
tactics needed to reverse this situation, and this grant program 
includes several of them. Strategies to increase the number of 
physicians practicing in rural areas include ``increasing the number of 
rural-background students in medical school, selecting the ``right'' 
students and giving them the ``right'' content and experiences to train 
them for rural practice.'' This is exactly what this grant program is 
designed to do.
    We request the Committee provide the fully authorized amount of $4 
million in fiscal year 2013 for Title VII Section 749B Rural Physician 
Training Grants.
Teaching Health Centers
    Teaching Health Centers (THC) are community health centers or other 
similar venues that sponsor residency programs and provide residents 
with their ambulatory training experiences in the health center. This 
training in the community, rather than solely at the hospital bedside 
is one of the hallmarks of family medicine training. However, payment 
issues have always caused a tension and struggle between the hospital, 
which currently receives reimbursement for residents it sponsors when 
they train in the hospital, and programs that require training in non-
hospital settings.
    We are pleased that THC's operations are currently funded through a 
mandatory appropriations trust fund of $230 million over 5 years, and 
it is essential that these important centers continue to be funded 
through this mandatory appropriation.
Teaching Health Center Development Grants
    This program is designed to provide residency programs and 
community health centers grant funding to plan for a transition in 
sponsorship, or the establishment of new programs. In the first year of 
the program there were already 11 community-based entities from States 
across the country that committed to train 44 additional primary care 
residents: the second year of the program brought 11 additional 
grantees into the program, expanding both the scope of specialties 
trained and increasing the number of full-time equivalent residents 
trained to 143. This demonstration of early success of the program 
should not go unnoticed or unsupported. The limiting factor to the 
program is not the operating funds, but the ability of residencies to 
plan for the change in their sponsorship. Funding Teaching Health 
Center Development Grants will help fulfill the promise of these 
innovative programs.
    We recommend the Committee appropriate the full authorized amount 
for the Title VII Teaching Health Centers development grants of at 
least $10 million for fiscal year 2013.
Workforce Commission
    We have recognized the need, and called for a national commission 
on health workforce issues for many years. We appreciate the work of 
this Committee in funding the National Workforce Commission at $3 
million for fiscal year 2012 and were disappointed the final bill 
didn't contain funding for the Commission.
    We ask the Committee to continue to recommend $3 million for the 
National Workforce Commission at $3 million for fiscal year 2013.
                                 ______
                                 
 Prepared Statement of the Centers for Disease Control and Prevention 
                               Coalition
    The CDC Coalition (c/o American Public Health Association) is a 
nonpartisan coalition of more than 140 organizations committed to 
strengthening our Nation's prevention programs. Our mission is to 
ensure that health promotion and disease prevention are given top 
priority in Federal funding, to support a funding level for the Centers 
for Disease Control and Prevention (CDC) that enables it to carry out 
its critical mission, and to assure an adequate translation of new 
research into effective State and local programs. Coalition member 
groups represent millions of public health workers, clinicians, 
researchers, educators, and citizens served by CDC programs.
    The CDC Coalition believes that Congress should support CDC as an 
agency--not just the individual programs that it funds. In the best 
judgment of the CDC Coalition--given the challenges and burdens of 
chronic disease, a potential influenza pandemic, terrorism, disaster 
preparedness, new and reemerging infectious diseases and our many unmet 
public health needs and missed prevention opportunities--we believe the 
agency will require funding of at least $7.8 billion for CDC's programs 
in fiscal year 2013. We are deeply disappointed with the proposed $664 
million cut to CDC's budget authority contained in the President's 
fiscal year 2013 budget proposal. In fact, when including the 
President's fiscal year 2013 request, CDC's budget authority would have 
been decreased by a staggering $1.4 billion since fiscal year 2010. 
While CDC has received and the President's fiscal year 2013 budget 
proposal directs significant funding from the Prevention and Public 
Health Fund to CDC, we believe this funding is essentially supplanting 
cuts made to CDC's budget authority. As you know, the Prevention and 
Public Health Fund was intended to supplement and not supplant the base 
funding of our public health agencies and programs. We urge you to 
restore this cut to CDC's budget authority and to support the $1 
billion available through Prevention and Public Health Fund in fiscal 
year 2013.
    By translating research findings into effective intervention 
efforts, CDC has been a key source of funding for many of our State and 
local programs that aim to improve the health of communities. Perhaps 
more importantly, Federal funding through CDC provides the foundation 
for our State and local public health departments, supporting a trained 
workforce, laboratory capacity and public health education 
communications systems.
    CDC serves as the command center for our Nation's public health 
defense system, conducting surveillance and detection of emerging and 
reemerging infectious diseases. With the potential onset of a worldwide 
influenza pandemic, in addition to the many other natural and man-made 
threats that exist in the modern world, the CDC has become the 
Nation's--and the world's--expert resource and response center, 
coordinating communications and action and serving as the laboratory 
reference center.
    CDC serves as the lead agency for bioterrorism and other public 
health emergency preparedness and must receive sustained support for 
its preparedness programs in order for our Nation to meet future 
challenges. Given the challenges of terrorism and disaster 
preparedness, and our many unmet public health needs and missed 
prevention opportunities we urge you to provide adequate funding for 
State and local capacity grants.
    Heart disease remains the Nation's No. 1 killer. In 2009, over 
599,000 people in the United States died from heart disease, accounting 
for nearly 25 percent of all U.S. deaths. More women than men die of 
heart disease and stroke each year, and in 2009, females had higher 
rates of stroke mortality than males. Stroke is the fourth leading 
cause of death and is a leading cause of disability. In 2009, stroke 
killed almost 129,000 people (60 percent of them women), accounting for 
about 1 of every 19 deaths.
    Cancer is the second most common cause of death in the United 
States. There are 1,638,910 new cancer cases and 577,190 deaths from 
cancer expected in 2012. The financial cost of cancer is also 
significant. According to the National Institutes of Health, in 2007 
the overall cost for cancer in the United States was more than $226.8 
billion: $103.8 billion for direct medical costs, $123 billion for 
indirect mortality costs (cost of lost productivity due to premature 
death). Among the ways CDC is fighting cancer, is through funding the 
National Breast and Cervical Cancer Early Detection Program that helps 
low-income, uninsured and medically underserved women gain access to 
lifesaving breast and cervical cancer screenings and provides a gateway 
to treatment upon diagnosis. CDC also funds grants to all 50 States to 
develop Comprehensive Cancer Control plans, bringing together a broad 
partnership of public and private stakeholders to set joint priorities 
and implement specific cancer prevention and control activities 
customized to address each State's particular needs.
    Although more than 25.8 million Americans have diabetes, nearly 7 
million cases are undiagnosed. In 2010, about 1.9 million people aged 
20 years or older were newly diagnosed with diabetes. Diabetes is the 
leading cause of kidney failure, nontraumatic lower-limb amputations, 
and new cases of blindness among adults in the United States. The total 
direct and indirect costs associated with diabetes were $178 billion in 
2007. Preventive care such as routine eye and foot examinations, self-
monitoring of blood glucose, and glycemic control could reduce these 
numbers.
    Arthritis is the most common cause of disability in the United 
States, striking 50 million Americans of all ages, races and 
ethnicities. CDC's Arthritis Program plays a critical role in 
addressing this growing public health crisis.
    Over the last 25 years, obesity rates have doubled among adults and 
children, and tripled in teens. Obesity, diet and inactivity are cross-
cutting risk factors that contribute significantly to heart disease, 
cancer, stroke and diabetes. CDC funds programs to encourage the 
consumption of fruits and vegetables, encourage sufficient exercise, 
and to develop other habits of healthy nutrition and activity. An 
estimated 443,000 people die prematurely every year due to tobacco use. 
CDC's tobacco control efforts seek to prevent tobacco addition in the 
first place, as well as help those who want to quit. We must continue 
to support these vital programs and reduce tobacco use in the United 
States.
    Each day more than 3,800 young people initiate cigarette smoking. 
At the same time, according to CDC, only 1 out of 3 high school 
students participate in daily physical education classes. Seventy-eight 
percent of high school students do not eat the recommended number of 
servings of fruits and vegetables, while 1 in 3 children and 
adolescents are overweight or obese. And every year, more than 400,000 
teen girls give birth and nearly half of all sexually transmitted 
diseases occur in young people between the ages of 15 and 24. CDC plays 
a critical role in ensuring good public health and health promotion in 
our schools.
    CDC provides national leadership in helping control the HIV 
epidemic by working with community, State, national, and international 
partners in surveillance, research, prevention and evaluation 
activities. CDC estimates that about 1.1 million Americans are living 
with HIV, 21 percent of who are undiagnosed. Also, the number of people 
living with HIV is increasing, as new drug therapies are keeping HIV-
infected persons healthy longer and dramatically reducing the death 
rate. Prevention of HIV transmission is the best defense against the 
AIDS epidemic that has already killed more than 619,400 in the United 
States and is devastating populations around the globe.
    The United States has the highest rates of sexually transmitted 
diseases (STDs) in the industrialized world. More than 19 million new 
infections occur each year, almost half of them among young people. CDC 
estimates that STDs, including HIV, cost the U.S. healthcare system as 
much as $17 billion annually. An adequate investment in STD prevention 
could save millions in annual healthcare costs in the future.
    CDC and its National Center for Health Statistics collect data on 
chronic disease prevalence, health disparities, emergency room use, 
teen pregnancy, infant mortality and causes of death. The health data 
collected through the Behavioral Risk Factor Surveillance System, Youth 
Risk Behavior Survey, Youth Tobacco Survey, National Vital Statistics 
System, and National Health and Nutrition Examination Survey are an 
essential part of the Nation's statistical and public health 
infrastructure.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC is helping States address serious disparities in 
infant mortality, breast and cervical cancer, cardiovascular disease, 
diabetes, HIV/AIDS and immunizations. Our members are committed to 
ending the disparities and we encourage the Subcommittee to provide 
adequate funds for these efforts.
    CDC oversees immunization programs for children, adolescents and 
adults, and is a global partner in the ongoing effort to eradicate 
polio worldwide. The value of adult immunization programs to improve 
length and quality of life, and to save healthcare costs, is realized 
through a number of CDC programs, but there is much work to be done and 
a need for sound funding to achieve our goals. Influenza vaccination 
levels remain low for adults. Levels are substantially lower for 
pneumococcal vaccination and significant racial and ethnic disparities 
in vaccination levels persist among the elderly. In addition, 
developing functional immunization registries in all States will be 
less costly in the long run than maintaining the incomplete systems 
currently in place. Childhood immunizations provide one of the best 
returns on investment of any public health program. For every dollar 
spent on seven vaccines recommended in the childhood series, $16.50 is 
saved in direct and indirect costs. An estimated 14 million cases of 
childhood disease and 33,000 deaths are prevented each year through 
timely immunization. Despite the incredible success of the program, it 
faces serious financial challenges.
    Injuries are the leading causes of death for persons aged 1-44 
years. Unintentional injuries and violence such as older adult falls, 
unintentional drug poisonings, child maltreatment and sexual violence 
accounts for over 35 percent of emergency department visits annually. 
Annually, injury and violence cost the United States approximately $406 
billion in direct and indirect medical costs including lost 
productivity. Unintentional injury consistently remains the leading 
cause of death among young Americans ages 1-34 with the majority of 
unintentional fatal injuries caused by motor vehicle traffic 
fatalities. CDC's Injury Center works to prevent unintentional and 
violence-related injuries to minimize the consequences of injuries when 
they occur by researching the problem; identifying the risk and 
protective factors; developing and testing interventions and ensuring 
widespread adoption of proven strategies.
    One in every 33 babies born each year in the United States is born 
with one or more birth defects. Birth defects are the leading cause of 
infant mortality. Children with birth defects who survive often 
experience lifelong physical and mental disabilities. More than 50 
million people in the United States currently live with a disability, 
and 17 percent of children under the age of 18 have a developmental 
disability. The National Center on Birth Defects and Developmental 
Disabilities at CDC conducts programs to protect and improve the health 
of children and adults by preventing birth defects and developmental 
disabilities; promoting optimal child development and health and 
wellness among children and adults with disabilities.
    CDC's National Center for Environmental Health is essential to 
protecting the health and well-being of the American public from 
threats associated with West Nile virus, climate change, terrorism, E. 
coli, lead-based paint and other hazards. NCEH funds programs to reduce 
the burden of asthma in our States and communities and to track the 
impact of environmental exposures on our health. We ask you to support 
adequate funding for these vital programs which has been significantly 
reduced over the past several years.
    We thank you for your past support and urge you to adopt our fiscal 
year 2013 request of $7.8 billion for CDC's programs.
                                 ______
                                 
     Prepared Statement of the Christopher & Dana Reeve Foundation
    Senator Harkin, Ranking Member Shelby and Members of the 
Subcommittee, thank you for the opportunity to submit testimony in 
support of funding for the National Center on Birth Defects and 
Developmental Disabilities (NCBDDD) within the Centers for Disease 
Control and Prevention, as well as on the importance of a strong 
Federal investment in medical research at the National Institutes of 
Health (NIH).
    I am Matthew Reeve, the eldest son of Christopher Reeve, and I have 
served on the Board of the Christopher & Dana Reeve Foundation since 
2006. I also serve on the Foundation's Quality of Life Committee, which 
funds programs across all 50 States and around the globe to help people 
living with paralysis become more fully integrated members of society.
    The Foundation is dedicated to both curing spinal cord injury by 
funding innovative research and to improving the quality of life for 
nearly 6 million people currently living with paralysis and those that 
care for them. Since its inception, the Foundation has provided $100 
million in research grants to more than 750 researchers, and has 
provided over $15 million to almost 2,000 organizations across the 
country through our Quality of Life grants program.
    It is a priority of the Reeve Foundation to ensure that individuals 
living with spinal cord injury and paralysis have access to the 
resources and tools necessary to live life to their fullest abilities. 
When my father suffered his injury in 1995, the world was a different 
place for those living with a spinal cord injury. I was 15 years old at 
the time of his accident, and I remember those first few weeks after 
his injury very clearly. I will never forget the sense of helplessness 
that we all felt, coupled with the knowledge that in an instant my 
father's life, as well as that of our entire family, had changed 
forever. Being active one day, and immobile the next, thrusts you and 
your family into an entirely new existence. Every day we found that 
there were more questions to be answered yet information and services 
were limited and difficult to locate. The unanswered issues we faced 
were outside the expertise of the doctors, nurses and staff at the 
Intensive Care Unit. We felt that we had nowhere to turn. Following our 
family's experience, my stepmother Dana was determined to do whatever 
she could to ensure that other families did not encounter the same 
problem.
    Led by her charge, over the past 10 years the Reeve Foundation has 
created a national resource center to help individuals and their 
families navigate a complicated healthcare system and to provide them 
with the tools and information they need to lead a productive and 
fulfilling life. The Paralysis Resource Center (PRC) funded through the 
NCBDDD, partners with organizations across the country to offer 
programs that promote independent and healthy living for all 
individuals living with paralysis. Currently, the PRC provides services 
to over 500,000 individuals annually, and is indispensable in providing 
vital information and services that the paralysis community depends 
upon each day. The PRC provides patients with access to state-of-the-
art therapies focused on improving health and mobility; guidance for 
evaluating rehab facilities and redesigning a home to make it wheel 
chair accessible; referrals to community support programs; and 
information and resources on a full range of topics related to 
paralysis and issues that arise from secondary complications.
    The Foundation is extremely proud of the infrastructure that has 
been built through support from NCBDDD, as well as the programs that 
serve the disability community beyond spinal cord injury and paralysis. 
NCBDDD was established by Congress in 2000, and is the only entity 
within the Federal Government that focuses on the specific needs of 
many of our Nation's most fragile populations. The Foundation is very 
concerned about both the funding and structure of the Center in the 
President's budget. The President's fiscal year 2013 budget recommends 
a funding level of $126 million, a decrease of $11 million, for NCBDDD. 
To achieve these reductions, CDC has indicated that they plan to focus 
on cutting research, resource, surveillance programs, and information 
centers. These programs are a critical component of our Nation's public 
health infrastructure, and cutting them puts the infrastructure we have 
worked so hard to create at great risk. Second, in an effort to create 
efficiencies and cost savings, the President's budget proposes 
consolidation of funding for Federal agencies, including the CDC. 
Within the CDC is a proposal to consolidate the ten disability 
programs' funding lines that fall under the NCBDDD Division of Human 
Development and Disability into one.
    Last year, a similar consolidation of NCBDDD was proposed in the 
President's budget. In response, and under your leadership Chairman 
Harkin, Congress included report language in the fiscal year 2012 L-HHS 
Appropriations Subcommittee conference report rejecting the proposed 
consolidation and directing the CDC to conduct a needs assessment 
before moving forward with future consolidation proposals. Members of 
the disability community came together to work with Congress to stop 
consolidation from moving forward because we knew that consolidation of 
disability programs funded through NCBDDD would be devastating not only 
for the spinal cord injury and paralysis population, but for the entire 
disabled community. We are grateful for the support shown by you, 
Chairman Harkin, and your Subcommittee. However, despite the 
congressional direction, consolidation is back in this year's budget 
and is not accompanied by the conference committee's requests.
    On behalf of the Christopher & Dana Reeve Foundation, and the 
nearly 6 million individuals affected by spinal cord injury and 
paralysis, I ask that this Subcommittee once again reject the proposed 
NCBDDD consolidation included in the President's budget and direct CDC 
to conduct a needs assessment which reflects the impact of 
consolidation on the disability groups represented by NCBDDD.
    Programs funded through the NCBDDD are making an active difference 
in the lives of millions of individuals living with a disability. For 
the paralysis community, funding for the PRC is essential in the day-
to-day lives of thousands of individuals living with paralysis. I am 
incredibly grateful for the ongoing support this committee has shown 
the disability community and for the relationships we have built on 
behalf of the Foundation.
    A core mission of the Reeve Foundation is to invest in research to 
develop effective treatments for acute and chronic spinal cord injury. 
But we cannot do it alone. A strong Federal investment in medical 
research at the NIH is critical in the quest for better cures and 
treatments for the paralysis community. The Foundation supports an 
appropriation of $32 billion for NIH in fiscal year 2013. The NIH funds 
some of the most groundbreaking research in the areas of spinal cord 
injury and paralysis and a strong Federal investment is critical so we 
can achieve our shared goal.
    NIH grants have supported the basic science of locomotor training 
and advanced the current research being conducted in epidural 
stimulation. NIH has also funded the Tongue Drive System, which is a 
wireless device that enables people with high-level spinal cord 
injuries to operate a computer and maneuver an electrically powered 
wheelchair simply by moving their tongues. These are examples of how 
NIH is turning research into reality and changing the lives of those 
living with paralysis. We need the support of this Subcommittee to 
ensure that NIH receives the necessary funding to continue to advance 
this critical research.
    As you move forward with the budget process we look forward to 
working with this Subcommittee to stop consolidation of the NCBDDD 
until the impact of the consolidation on the communities served by 
NCBDDD is addressed, as well as ensuring a strong Federal investment in 
medical research at the NIH.
    Thank you again, Mr. Chairman, for the opportunity to submit my 
testimony on behalf of the Foundation.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network
    The Children's Environmental Health Network (CEHN or the Network) 
providing testimony on fiscal year 2013 appropriations, especially 
appropriations for the Centers for Disease Control and Prevention (CDC) 
and the National Institute of Environmental Health Sciences (NIEHS), an 
institute within the National Institutes of Health (NIH).
    This year, the Children's Environmental Health Network is 
celebrating its 20th anniversary as a national nonprofit organization 
whose mission is to protect the developing child from environmental 
hazards and promote a healthier environment. The Network's Board and 
committee members include internationally recognized experts in 
children's environmental health science and policy who serve on key 
Federal advisory panels and scientific boards. We recognize that 
children, in our society, have unique moral standing.
    The Network is deeply concerned about the health of the Nation's 
children and urges the Subcommittee to help all children grow up in 
healthy environments by embracing its role in protecting our 
environment and our health.
    American competiveness depends on having healthy educated children 
who grow up to be healthy productive adults. Yet, growing numbers of 
our children are diagnosed with chronic and developmental illnesses and 
disabilities. The National Academy of Sciences estimates that toxic 
environmental exposures play a role in 28 percent of neurobehavioral 
disorders in children and this does not include other conditions such 
as asthma or cancers. Thus, it is vital that the Federal programs and 
activities that protect children from environmental hazards receive 
adequate resources.
    CEHN urges the Subcommittee to provide funding at or above the 
requested levels for the following CDC and NIEHS activities: National 
Center for Environmental Health; National Asthma Control Program and 
the Healthy Homes/Lead Poisoning Prevention Program; National 
Environmental Public Health Tracking Program; National Institute of 
Environmental Health Sciences; Children's Environmental Health Research 
Centers of Excellence; and National Children's Study.
Centers for Disease Control and Prevention (CDC)
    The CDC is the Nation's leader in public health promotion and 
disease prevention, and should receive top priority in Federal funding. 
CDC continues to be faced with unprecedented challenges and 
responsibilities. CEHN urges you to support a funding level of $7.8 
billion for CDC's core programs in fiscal year 2013.
    Within CDC, the National Center for Environmental Health (NCEH) is 
particularly important to protect the environmental health of young 
children. NCEH programs, such as its efforts to continue and expand 
biomonitoring and its national report card on exposure information, are 
key national assets. CEHN is thus deeply concerned about the proposed 
severe cuts to CDC's environmental public health programs in the 
President's fiscal year 2013 budget. NCEH has absorbed a 
disproportionately large share of the imposed cuts. Since fiscal year 
2009, NCEH funding has been cut approximately 25 percent.
    We strongly recommend that the National Asthma Control Program and 
the Healthy Homes/Lead Poisoning Prevention Program remain separate and 
distinct programs. The National Asthma Control Program works to reduce 
the burden of asthma, which affects 25 million Americans including 7 
million children. The 36 State and territorial programs funded by the 
National Asthma Control Program include surveillance, environmental 
measures to reduce exposure to indoor and outdoor air pollutants, 
awareness and self-management education, and appropriate healthcare 
services.
    The Healthy Homes and Lead Poisoning Prevention Program, serves the 
12.3 million children with harmful lead levels. The 35 State programs 
funded by the program screen children for lead poisoning, track the 
incidence of the disease, inspect homes for environmental hazards, and 
conduct community lead poisoning prevention initiatives.
    The goals of the two programs as well as their target patient 
groups and methods of delivering services are markedly different. We 
strongly support maintaining the separation of these two programs to 
enable them to continue to fulfill their distinct missions.
    We support reinstatement of CDC's Healthy Homes and Lead Poisoning 
Prevention Program at $29 million (the same as fiscal year 2011 and 
support an additional valuable targeted increase (8.6 percent) to 
certain NCEH programs.
    CDC's National Environmental Public Health Tracking Program tracks 
environmental hazards and the diseases they may cause and coordinates 
and integrates local, State and Federal health agencies' collection of 
critical health and environmental data. Public health officials need 
integrated health and environmental data so that they can protect the 
public's health. We urge you to reverse the CDC operating plan for 
fiscal year 2011 and 2012, which eliminated all budget authority for 
this vital program. We urge you to support additional funding for the 
program in fiscal year 2013. Its biomonitoring activities allow the 
measurement of the actual levels of more than 450 chemicals and 
nutritional indicators in people's bodies. This information helps 
public health officials to determine which population groups are at 
high risk for exposure and adverse health effects, assess public health 
interventions, and monitor exposure trends over time.
National Institutes of Health (NIH)
    The National Institute of Environmental Health Sciences (NIEHS) is 
the leading institute conducting research to understand how the 
environment influences the development and progression of human 
disease. Children are uniquely vulnerable to harmful substances in 
their environment, and the NIEHS plays a critical role in uncovering 
the connections between environmental exposures and children's health. 
Thus, it plays a vital role in our efforts to understand how to protect 
children, whether it is identifying and understanding the impact of 
substances that are endocrine disruptors or understanding childhood 
exposures that may not affect health until decades later.
    NIEHS' fiscal year 2013 President's budget is at $684 million 
(exclusive of Superfund amounts under Subcommittee on the Interior, 
Environment, and Related Agencies appropriations). This represents a 
reduction of $725,000 from NIEHS' fiscal year 2012 budget, which will 
have an impact on their program and research on children's 
environmental health. CEHN, therefore, urges you to set NIEHS' fiscal 
year 2013 budget at least to its fiscal year 2012 level.
Children's Environmental Health Research Centers of Excellence
    The Children's Environmental Health Research Centers, jointly 
funded by the NIEHS and the U.S. Environmental Protection Agency (EPA), 
play a key role in providing the scientific basis for protecting 
children from environmental hazards. With their modest budgets, which 
have been unchanged for more than 10 years, these Centers generate 
valuable research. A unique aspect of these Centers is the requirement 
that each Center actively involves its local community in a 
collaborative partnership, leading both to community-based 
participatory research projects and to the translation of research 
findings into child-protective programs and policies. The scientific 
output of these centers has been outstanding. For example, findings 
from four Centers clearly showed that prenatal exposure to a widely 
used pesticide affected developmental outcomes at birth and early 
childhood. This was important information to EPA's decisionmakers in 
their regulation of this pesticide.
    Several Centers have established longitudinal cohorts, which have 
resulted in valuable research results. The Network is concerned that as 
a Center's multi-year grant ends and the Center is shuttered, these 
cohorts and the invaluable information they can provide are being lost. 
The Network urges the Subcommittee to assure that NIEHS has the funding 
and the direction to support Centers in continuing these cohorts.
    The work of these Centers has also shown us that, in addition to 
research regarding a specific pollutant or health outcome, research is 
desperately needed in understanding the totality of the child's 
environment--for example, all of the exposures the child experiences in 
the home, school, and child care environment--and how to evaluate those 
multiple factors. CEHN urges you to support these Centers, to assure 
they receive full funding and are extended and expanded as described 
above.
National Children's Study
    The National Children's Study (NCS) is examining the effects of 
environmental influences on the health and development of more than 
100,000 children across the United States, following them from before 
birth until age 21. This landmark longitudinal cohort study--involving 
a consortium of agencies including NIEHS and CDC--will be one of the 
richest research efforts ever geared toward studying children's health 
and development and will form the basis of child health guidance, 
interventions, and policy for generations to come. We urge the 
Subcommittee to assure that the NCS retains on its original focus on 
environmental chemicals and assure that the communities most at risk 
are well represented in the cohort. While the NCS is housed at NICHD, 
it must be a multi-agency study and it must be responsive to its 
mission and to its partner agencies.
    Investments in programs that protect and promote children's health 
will be repaid by healthier children with brighter futures. Protecting 
our children--those born as well as those yet to be born--from 
environmental hazards is truly a national security issue. Cutting or 
weakening programs that protect children from harmful chemicals in 
their environment is not only very costly to our Nation (for example, 
the Clean Air Act Amendments of 1990 have saved $1 trillion in 
healthcare costs). Such cuts will reduce the number of exceptionally 
bright children.
    We understand that our Federal budget faces many long-term 
challenges, but we also believe strongly that a commitment to and 
strong investment in environmental public health activities will be 
critical to our Nation's long-term fiscal and physical health. We thank 
you for considering these recommendations.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why CEHN asks you to 
give priority to these programs. Thank you for the opportunity to 
comment.
                                 ______
                                 
   Prepared Statement of the Coalition of EPSCoR/IDeA States and the 
                    Mississippi Research Consortium
    Mr. Chairman and Members of the Subcommittee; thank you for the 
opportunity to submit this statement regarding fiscal year 2013 funding 
for the National Institutes of Health's Institutional Development Award 
or ``IDeA'' Program. My name is Dr. David Shaw and I am the Vice 
President for Research and Economic Development at Mississippi State 
University. I submit this testimony on behalf of the Coalition of 
EPSCoR/IDeA States and the Mississippi Research Consortium (MRC) to 
include the following research institutions in our State: University of 
Southern Mississippi (USM), University of Mississippi (UM)/University 
of Mississippi Medical Center (UMMC), Mississippi State University 
(MSU), and Jackson State University (JSU).
Impact of the IDeA Program on Mississippi
    Please allow me to describe how the INBRE and COBRE programs have 
dramatically impacted the biomedical landscape across the State of 
Mississippi.
            INBRE
    Mississippi's INBRE is located on the campus of the USM in 
Hattiesburg, Mississippi. A statewide network, the INBRE includes all 
five research-intensive institutions, six Partner Undergraduate 
Institutions (PUIs) and eight Outreach Institutions. The MS-INBRE 
represents the largest network of institutions in Mississippi with the 
mission to promote biomedical research and training in the State. The 
instrumentation core of the project includes the Genomics Facility 
located at the UMMC, the Imaging Facility located at the USM, and the 
Proteomics Core located at MSU. These facilities are available to all 
Mississippi scientists and students at no cost thus providing access to 
high cost equipment that promotes biomedical research in the State. The 
Bioinformatics Core is a new initiative through the INBRE that has 
brought together bioinformatics faculty from across Mississippi who 
serves as the backbone providing support and resources in research, 
training and education, and infrastructure.
    MS-INBRE continues to build on existing interdisciplinary 
collaborations, create new collaborative efforts, address the serious 
cyberinfrastructure needs in Mississippi, and train students in 
bioinformatics at the Partner Undergraduate Institutions. Particularly, 
many students would not have the opportunity to participate in 
biomedical research training without this funding which in turn means 
that we lose a lot of brain power and disenfranchise a lot of bright 
students in Mississippi.
    The established research labs at PUIs have made a great impact on 
the number of undergraduate students trained in biomedical research. 
The ``success rate'' is defined as the percentage successfully pursing 
biomedical career via graduate school, professional school, teaching or 
working in research.
  --Undergraduates trained via 12-week intensive summer internships = 
        313 (success rate = 90 percent).
  --Undergraduates trained via working in MS-INBRE PUI labs = 127 
        (success rate 94 percent).
  --Total Mississippi undergraduate students trained = 440.
    Please note the importance of the opportunity that this funding has 
provided for these students who otherwise would have not had the 
research training. These students are the future researchers, 
clinicians, scientists, teachers, policymakers, etc. If we do not 
continue to provide these opportunities, Mississippi, and our Nation, 
will fall even farther behind other countries in STEM areas.
  --Training our students to work with faculty and help write grant 
        proposals has been successful: 54 funded projects with 14 more 
        currently pending.
      Examples from NIH: 3 R01; 1 R21; 12 R15; 5 Publications: 119 
        peer-reviewed pubs; 6-Presentations at scientific meetings: 
        386.
            COBRE in Mississippi
    University of Mississippi (UM).--UM's first COBRE project, the 
Center for Psychiatric Neuroscience (CPN), was initiated 9 years ago at 
the University of Mississippi Medical Center in Jackson. The CPN is 
dedicated to generating knowledge about the relationships between 
neurobiology and clinical psychiatry. Over the past 9 years, CPN has 
made major strides toward its goal of becoming a depression research 
center that is innovative, multidisciplinary and increasingly 
independently funded; COBRE funding in the past 9 years has supported 
CPN-affiliated faculty in successfully competing for $9,082,910 in 
Federal grants and $923,702 in foundation grants. COBRE's support has 
been instrumental in achieving this--and continues to be instrumental.
    CPN has developed focuses in the areas of depression and alcohol 
dependence; both of these are recognized as highly prevalent, serious 
concerns in the United States. Of all mental illnesses, depression is 
the most common; it is a serious, persistent and potentially life-
threatening medical illness affecting nearly 10 million American adults 
in any year (Healthy People 2010). It is estimated that lost 
productivity due to depression costs $44 billion per year in the United 
States (Stewart et al., 2003). Although antidepressant medications and 
psychotherapy provide some benefit to many people, depression continues 
to be a chronic and potentially life-threatening illness. New treatment 
strategies remain a high priority for many reasons: depression is a 
complex syndrome of variable symptoms; the sites of pathology in the 
brain appear to be multiple; and, most significantly, only about 50 
percent of individuals with depression show full remission in response 
to currently available therapies (Berton and Nestler, 2006). Alcohol 
use disorders are also very common in the United States, with 
approximately 7 percent of adults being alcohol dependent. There is a 
high correlation between alcohol use disorders and other psychiatric 
problems. Shrinkage of the brain is significantly present in alcohol-
dependent subjects, and the development of new therapies is impeded by 
a lack of understanding of the precise mechanism leading to this 
pathological shrinkage.
    Projects funded by the CPN have been unique in describing the 
monoamine and excitatory amino acid neurotransmitter systems, and the 
contributions of vascular, gender-specific and aging-related risk 
factors to the pathophysiology of depression and alcohol dependence. 
Groundbreaking observations on the roles of neurons and glia, cerebral 
vasculature, aging, gender, transcription factors, serotonin and 
glutamate in depression as well as alcohol dependence have been 
reported by a critical mass of faculty of the CPN and its academic 
home, UMMC's Department of Psychiatry and Human Behavior. The CPN has 
provided an excellent environment for junior, mid-level and senior 
investigators working in close collaboration with leading national 
centers and scientists to carry out the projects building on these 
novel insights into the pathophysiology of depression and alcoholism.
    The University of Mississippi's second COBRE project, Center of 
Research Excellence in Natural Products Neuroscience (CORE-NPN), was 
initiated 5 years ago at the university's main campus in Oxford to 
evaluate the effects of natural products on the central nervous system 
(CNS). CORE-NPN has developed a multidisciplinary team committed to 
studying the neuroscientific properties of natural products and 
identifying potential new targets for the treatment of various 
disorders. CORE-NPN builds on UM's existing strengths at the National 
Center for Natural Products Research (NCNPR), the Nation's only 
university-affiliated research center devoted to improving human health 
and agricultural productivity through the discovery, development, and 
commercialization of pharmaceuticals and agrochemicals derived from 
natural products. With the development of the NIGMS COBRE CORE-NPN, the 
research capacity of NCNRP to discover new drugs for unmet therapeutic 
needs has skyrocketed. CORE-NPN has allowed UM's investigators to 
synergize their efforts with the resources provided through the 
existing NCNPR to develop an unmatched program in natural products 
neuroscience.
    CORE-NPN has allowed faculty in the NCNPR (and other UM 
departments) to develop expertise in a previously unavailable area. 
Expertise exists among the CORE-NPN faculty to extract and purify the 
chemical constituents of plants, microbes, and marine organisms; to 
perform bioassay-guided fractionation to rapidly identify active 
natural products from complex mixtures of metabolites; to elucidate the 
chemical structures of isolated natural products; to scale up these 
quantities for research; to perform in vitro characterization of their 
actions; and to perform in vivo behavioral studies to further evaluate 
their properties, therapeutic potential, and liabilities. Additional 
expertise exists to further modify promising leads into even better 
therapeutic compounds, perform limited toxicity tests, formulate drug 
delivery systems, and to conduct small-scale clinical trials in 
collaboration with UMMC. CORE-NPN participating faculty continue to 
increase their funding success rate. The growing number of faculty 
awards in natural product neuroscience has a strongly beneficial impact 
on UM (home of the State's only School of Pharmacy) and in turn on the 
reputations of the center's faculty and staff. Further, the CORE-NPN's 
research-intensive programs provide quality research and 
interdisciplinary training for students, enhance recruitment efforts, 
and further the development of novel natural products as potential 
therapeutic agents.
    A solid core of natural product researchers developed during Phase 
1 of the COBRE at UM are making cutting-edge discoveries on the 
endocannabinoid, opioid and sigma systems. The endocannabinoid system 
is regarded as a major regulatory system in the central and peripheral 
nervous systems and is involved in the modulation of a variety of 
physiological processes; among them is control of emotional behavior, 
suggesting the involvement of this system in the pathogenesis of mental 
disorders. The endocannabinoid system is also linked to appetite, 
emesis, pain, hypertension, and cardiac remodeling. CORE-NPN 
researchers have made novel observations of natural products from 
Cannabis on appetite in rodents; are evaluating the potential 
usefulness in treating depression with several novel phytocannabinoids; 
are developing computational models that can be used to predict a 
compound's ability to have affinity for the cannabinoid receptors; and 
have developed novel agents that attenuate the effects of cocaine and 
methamphetamine. The COBRE program funding has allowed UM to develop 
several pre-clinical candidates that might have utility in managing 
obesity, wasting syndrome, depression, anxiety, and drug addiction, and 
more. The critical mass of scientists working in the CNS area has 
increased from 5 to 23 scientists as a result of COBRE Phase 1 funding, 
and the significant rise in endocannabinoid-related publications 
reveals strong development by the CORE-NPN that is innovative, 
multidisciplinary, and moving toward the goal of independent funding 
for its programs.
    As part of the COBRE program, investigators are mentored to foster 
and facilitate their development as young scientists. The ability to 
secure external funding is the major index of success showing the 
transition from ``young investigator'' to ``independent scientist.'' 
The graph below, of fiscal year Federal grant funding, outlines the 
year-to-year progression in external funding awards obtained since the 
inception of CORE-NPN. This effort resulted in a total of 38 grant 
awards and included: 13-R-type NIH grants, 1-ARRA Supplement, 5-NSF, 1-
F32, 2-HRSA, 2-NOAA, 1-DOD, and 1-P50, among others.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This increase in funding dollars is directly related to the number 
of applications the young faculty members made while enrolled in the 
COBRE Mentoring Plan. The 38 grant awards have been a result of 113 
Federal grant applications and 24 grant foundation applications 
submitted by the enrolled faculty. Overall, the mentorship has resulted 
in a success rate of 34 percent for NIH grant awards, which is much 
greater than the national average.
    Mississippi State University.--Mississippi State University was 
awarded a COBRE in 2002-2008 and the benefits of that center are still 
obvious. The funding supported research on the susceptibility of the 
dopamine neurons in the Nurr1-null heterozygous mice to neurotoxin 
exposure. The best lab space in the College of Veterinary Medicine is 
the Wise Center which was designed and renovated using COBRE funds. 
Frequently used equipment was obtained. Most importantly, the three 
faculty members who were involved by the end of the previous COBRE as 
junior investigators have received NIH funding, and one of them has 
been consistently averaging more than 5 peer reviewed publications per 
year.
    MSU currently has a pending COBRE application which involves an 
area of research that is already one of our strongest--infectious 
diseases. With the mentoring, research, and infrastructure funding from 
the COBRE, we expect to develop teams that will be competitive for 
center grants and individuals competitive for research grants from 
major funding agencies.
    The COBRE program is even more important to MSU and similar 
institutions in recent years than it was when the first one was awarded 
at MSU. Because the success rate for NIH grant applications is so low 
nationally, it is difficult for anyone to compete for this funding, and 
it is particularly difficult when the applicant is located at an 
institution that is not well known for its biomedical research. The 
COBRE will give five of MSU's most promising junior investigators an 
opportunity to build their scientific reputation by supporting their 
research, and it will give them formalized internal and external 
mentoring needed to teach them the skills and to help them build their 
professional networks needed for success. This will make our 
investigators better collaborators for other researchers in Mississippi 
and will enhance collaborations that already exist. It will also 
provide research support for investigators who have already shown 
interest and skill in commercializing their research ideas (two of our 
COBRE application leaders and one junior investigator have taken steps 
toward development of intellectual property, up to and including 
formation of a company).
    Despite these successes, our task is far from complete. Funding 
disparities between the States remain and may have a detrimental impact 
on our national self-interest. And that is why the IDeA program is so 
important. It is helping to ensure that all regions of the country 
participate in biomedical research and education. Citizens from all 
States should have the opportunity to benefit from the latest 
innovations in healthcare, which are most readily available in centers 
of biomedical research excellence.
    On behalf of the MRC, I express gratitude to this Subcommittee for 
the efforts it has made over the years to provide increased funding for 
IDeA, in particular this committee's work to ensure a funding increase 
in fiscal year 2012. I hope that you will continue to invest in this 
program, which is so important to almost half of the States in the 
Union. The importance of this program, especially to junior 
investigators who are starting to become competitive for NIH funding, 
should not be underestimated. They should not receive the wrong message 
by cutting or even possibly eliminating funding for their research 
after encouraging them to pursue a career in biomedical research.
    On behalf of the EPSCoR/IDeA Coalition, the MRC, and our partner 
institutions across Mississippi, I thank the Subcommittee for the 
opportunity to submit this testimony.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
    On behalf of the Cystic Fibrosis Foundation and the approximately 
30,000 people with cystic fibrosis (CF) in the United States, we are 
pleased to submit the following testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies requesting $32 billion for the National Institutes of Health 
(NIH) in fiscal year 2013. Particularly, the CF Foundation urges the 
Committee to support NIH's National Center for Advancing Translational 
Sciences (NCATS), programs under the NCATS umbrella including the 
Therapeutics for Rare and Neglected Diseases (TRND) program, and 
collaborative efforts by NIH and the Food and Drug Administration (FDA) 
such as the Regulatory Science Initiative and the FDA-NIH Joint 
Leadership Council.
                         about cystic fibrosis
    Cystic fibrosis is a life-threatening genetic disease for which 
there is no cure. People with CF have two copies of a defective CFTR 
gene, which causes the body to produce abnormally thick, sticky mucus 
that clogs the lungs and results in life-threatening lung infections. 
This mucus also obstructs the pancreas, preventing pancreatic enzymes 
from assisting in the breakdown of food and the absorption of 
nutrients.
    The mission of the Cystic Fibrosis Foundation is to find a cure for 
cystic fibrosis and improve the quality of life for people living with 
the disease. This is accomplished by funding life-saving research and 
working to provide access to quality care and effective therapies for 
people with CF. Through the Foundation's efforts, the life expectancy 
of a child with CF has doubled in the last 30 years. Although real 
progress toward a cure has been made, the lives of young people with CF 
are still cut far too short.
        sustaining the federal investment in biomedical research
    This Committee and Congress are to be commended for their support 
for biomedical research through the years, particularly for increasing 
funding for the NIH and establishing the National Center for Advancing 
Translational Sciences (NCATS) in fiscal year 2012. It is vital that we 
continue to provide robust funding for the NIH, so that it can allow 
patients to benefit from scientific advances like the mapping of the 
human genome, and continue to train the next generation of scientists, 
create new jobs, and promote economic growth.
    We support the recommendation of the Ad Hoc Group for Medical 
Research that the Subcommittee recognize the National Institutes of 
Health (NIH) as a critical national priority by providing at least $32 
billion in funding in the fiscal year 2013 Labor-HHS-Education 
appropriations bill. This funding recommendation represents the minimum 
investment necessary to avoid further loss of promising research and at 
the same time allows the NIH's budget to keep pace with biomedical 
inflation.
    A report from United for Medical Research indicates that funding 
from the National Institutes of Health supported more than 432,000 jobs 
and generated more than $62.1 billion in economic activity in 2011. 
Cutting funding for NIH would not only curb this economic growth, but 
would impede the fight against many of the most serious diseases and 
stifle the scientific progress that makes the United States the 
worldwide leader in biomedical research.
    We urge this Committee and Congress to maintain robust investment 
in biomedical research at the NIH so it can fund critical research 
today that will provide the cures of tomorrow.
          strengthening clinical research and drug development
    In the past two decades the Cystic Fibrosis Foundation has 
pioneered an innovative research approach resulting in a robust 
pipeline of potential therapies that target cystic fibrosis from every 
angle.
    As part of this approach the Foundation created a ``venture 
philanthropy'' model, through which CFF has raised and invested 
hundreds of millions of dollars to help fund cystic fibrosis drugs and 
therapies. Nearly every CF drug and therapy available today was 
supported by the CF Foundation. By providing upfront funding and 
reducing financial risk for drug companies like Vertex Pharmaceuticals, 
CFF has made sure that this rare disease has not been ignored.
    The Foundation has also created a Therapeutics Development Network 
(TDN) to achieve greater efficiency in clinical investigation. 
Challenges inherent in small patient populations, like the availability 
of participants for clinical trials, prompted the Foundation to create 
a network of academic centers and CF care centers that collaborate 
across sectors and share best practices, speeding clinical research on 
promising potential treatments.
    One such treatment developed through this approach is 
Kalydeco<SUP>TM</SUP>, a groundbreaking new drug created by Vertex 
Pharmaceuticals in collaboration with the Cystic Fibrosis Foundation. 
Kalydeco is a breakthrough as it is the first treatment to address the 
underlying cause of cystic fibrosis in 1,200 patients with a particular 
genetic mutation. It has led to tremendous health gains for those who 
take the drug and has opened exciting new doors to research and 
development that may eventually lead to a cure for all people living 
with CF.
    While the CF Foundation has made great progress, still more needs 
to be done for cystic fibrosis and other rare diseases, many of which 
have no treatments available. We are hopeful that the Committee will 
bolster programs that support translating basic scientific research 
into therapies that can make a real difference to vulnerable patient 
populations.
Advancing Translational Science at the NIH
    The CF Foundation strongly urges this Committee to increase funding 
for NIH's newly established National Center for Advancing Translational 
Sciences (NCATS), which will catalyze innovation by improving the 
process by which diagnostics and therapeutics are developed, thereby 
diminishing obstacles to translating basic scientific research into 
treatments. This will make translational science more efficient, less 
expensive, and less risky.
    The specific programs housed in NCATS are integral to this mission, 
including the Clinical and Translational Science Awards (CTSA), the 
Cures Acceleration Network (CAN), and the Therapeutics for Rare and 
Neglected Diseases (TRND) program. They are designed to transform the 
way in which clinical and translational research is conducted and 
funded. NIH Director Dr. Francis Collins has cited the Cystic Fibrosis 
Foundation's successful Therapeutics Development Network as a model for 
TRND's innovative therapeutics development model.
    NCATS is already advancing a number of initiatives. For example, 
NCATS is working with the Defense Advanced Research Projects Agency 
(DARPA) and the FDA to design a tissue chip for drug screening. This 
chip, composed of diverse human cells and tissues, mimics how drugs 
interact in humans. If successful, this chip could make drug safety and 
efficacy assessments more accurate and even make them possible earlier 
in the development process--enabling investigators to concentrate on 
the most promising new drugs.
    Robust funding for NCATS will give industry, academia, and other 
stakeholders the tools and resources needed to speed the development of 
diagnostics and treatments.
Increasing Collaboration
    The CF Foundation urges the Committee to support collaborative 
efforts by the Food and Drug Administration and the National Institutes 
of Health, such as the Regulatory Science Initiative and the FDA-NIH 
Joint Leadership Council. Collaboration between the NIH and FDA has the 
potential to help move innovative new drugs more quickly through the 
development process and into the hands of patients by ensuring that the 
FDA has the resources, strategies, and tools it needs to efficiently 
review and regulate drugs in this ever changing scientific landscape. 
As treatments like Kalydeco are being developed to target specific 
genetic mutations and smaller and smaller populations, it is important 
that the FDA has the expertise it needs to quickly move these drugs 
through the review process.
    Support should also be directed toward the continuation and 
expansion of research networks, such as NIH's pediatric liver disease 
consortium at the National Institute of Diabetes, Digestive, and Kidney 
Diseases (NIDDK). This successful collaboration is helping researchers 
discover treatments not only for CF liver disease but for other 
diseases that affect thousands of children each year.
                       supporting drug discovery
    The Cystic Fibrosis Foundation's clinical research is fueled by a 
drug discovery effort comprised of early stage translational research 
into successful treatments for this disease. Several research projects 
at the NIH could eventually be the key to controlling or curing cystic 
fibrosis.
    For example, the CF Foundation commends NIH for issuing two 
Requests for Applications (RFAs) that specifically target cystic 
fibrosis--one on early lung disease and the other on cystic fibrosis 
related diabetes. The Cystic Fibrosis Foundation also encourages NIH to 
continue its investment in a research program at the University of Iowa 
to study the effects of CF in a pig model. The program, funded through 
research awards from the National Heart, Lung, and Blood Institute 
(NHLBI) and the CF Foundation, bears great promise to help make 
significant developments in the search for a cure.
Understanding CFTR Folding and Trafficking
    The data that emerged from Kalydeco Phase 2 and 3 clinical trials 
is proof that the way in which this drug targets the physiological 
defect that causes CF, called CFTR protein function modulation, is a 
viable therapeutic approach. However, this exciting data was obtained 
from patients with a specific CF mutation which affects only 4 percent 
of the CF population. More research is needed to understand other 
genetic mutations, the most common of which causes multiple negative 
effects, including misfolding and poor activation properties of the 
CFTR protein. We encourage the Committee to increase investment in 
genetic research that can help scientists to better understand this 
more common mutation.
Personalized Medicine
    Strong Federal and private investment in research is bringing 
personalized medicine to the forefront of drug research and 
development. Kalydeco, discussed above, is an outstanding example of 
the power of personalized medicine. If the 4 percent of the CF 
population for which Kalydeco is effective had not been properly 
identified and targeted for this therapy, the studies would have 
concluded that Kalydeco was not effective, because 95 percent of 
patients would not have responded.
    While exciting and promising for patients, the advancement of 
personalized medicine is also expensive, complex, and scientifically 
challenging. For instance, CF doctors are facing difficulties in 
delivering appropriate care to CF patients, as insurance providers will 
not cover certain combinations of medicines that clinicians have found 
to be effective for cystic fibrosis when there is no formal clinical 
data to support it. This puts patients in a difficult position, as 
these clinical trials are unlikely to be performed by pharmaceutical 
companies because they are expensive and treat a very small, targeted 
population. As such, we urge the Committee to provide sustained Federal 
investment in personalized medicine, to help move this burgeoning field 
forward and support the advancement of exciting scientific discoveries.
    The Cystic Fibrosis Foundation has devoted our own resources to 
developing treatments through drug discovery, clinical development, and 
clinical care. Several of the drugs in our pipeline show remarkable 
promise in clinical trials and we are increasingly hopeful that these 
discoveries will bring us even closer to a cure. However, sufficient 
investment in basic science, translational science, clinical research, 
and drug development programs at NIH are vital to continuing these 
successes not only for CF but for all rare diseases.
    We urge the Committee to consider these factors as you craft the 
fiscal year 2013 Labor, Health and Human Services, and Education 
appropriations legislation. We stand ready to work with NIH and 
congressional leaders on the challenging issues ahead. Thank you for 
your consideration.
                                 ______
                                 
         Prepared Statement of the Coalition for Health Funding
    The Coalition for Health Funding is pleased to provide the Senate 
Labor, Health and Human Services, Education and Related Agencies (LHHS) 
appropriations subcommittee with a statement for the record on fiscal 
year 2013 funding levels for health agencies and programs. Since 1970, 
the Coalition has advocated for sufficient and sustained discretionary 
funding for the public health continuum to meet the mounting and 
evolving health challenges confronting the American people.
    Every day, in important ways most Americans don't even realize, the 
Federal Government supports public health programs that keep them safe 
and secure. The agencies and programs of the LHHS: conduct health 
research and discover cures; prevent disease, disability, and injury; 
assure food, water, and drug safety; protect and respond in times of 
crisis; educate the next generation of scientists, healthcare 
providers, and public health professionals; and care for our Nation's 
most vulnerable.
    The Coalition's 76 national, member organizations--representing the 
interests of more than 100 million patients, healthcare providers, 
public health professionals, and scientists--support the belief that 
the Federal Government is an essential partner with State and local 
governments and the nonprofit and private sectors in improving health. 
In this regard, we are very concerned that deficit reduction efforts to 
date--both actual and those under consideration--have relied almost 
exclusively on cuts to public health and other discretionary programs 
to balance the budget. Public health programs have experienced 2 
straight years of funding cuts, and are facing a looming sequester that 
will cut even deeper--as much as $5.7 billion from health programs 
within the subcommittee's jurisdiction.
    These programs make up only a fraction of all Federal spending. 
They are not the root cause of our fiscal crisis, and cutting them 
further will not bring the budget into balance. On the contrary, with 
greater investment, public health programs are an integral part of the 
solution. Evidence abounds--from the Department of Defense to the U.S. 
Chamber of Commerce--that healthy Americans are stronger on the 
battlefield, have higher academic achievement, and are more productive 
in school and on the job. Healthy Americans drive our economic engine, 
and ultimately cost our Nation less in healthcare spending.
    The Coalition realizes the pressure the Congress and the 
administration face to balance the Nation's budget. However, our 
Nation's health has already borne more than its fair share of the 
responsibility for deficit reduction. A few weeks ago, the Coalition 
was joined by more than 900 national, State, and local organizations 
urging the Appropriations Committees to increase investments in public 
health and other programs within the subcommittee's jurisdiction. The 
following list summarizes the Coalition's fiscal year 2013 specific 
funding recommendations for these public health agencies.
                  national institutes of health (nih)
    The Coalition joins the Ad Hoc Group for Medical Research in 
seeking at least $32 billion for NIH in fiscal year 2013. This funding 
recommendation represents the minimum investment necessary to avoid 
further loss of promising research and at the same time allows the 
NIH's budget to keep pace with biomedical inflation. As the primary 
Federal agency responsible for conducting and supporting medical 
research, NIH drives scientific innovation and develops new and better 
diagnostics, improved prevention strategies, and more effective 
treatments.
    NIH also contributes to the Nation's economic strength by creating 
skilled, high-paying jobs; new products and industries; and improved 
technologies. More than 83 percent of NIH research funding is awarded 
to more than 3,000 universities, medical schools, teaching hospitals, 
and other research institutions, located in every State. The Nation's 
longstanding, bipartisan commitment to NIH has established the United 
States as the world leader in medical research and innovation.
            centers for disease control and prevention (cdc)
    The Coalition joins the CDC Coalition in seeking $7.8 billion for 
CDC in fiscal year 2013. This amount is representative of what CDC 
needs to fulfill its core mission in fiscal year 2013; activities and 
programs that are essential to protect the health of the American 
people. CDC continues to be faced with unprecedented challenges and 
responsibilities, ranging from chronic disease prevention, eliminating 
health disparities, bioterrorism preparedness, to combating the obesity 
epidemic. In addition, CDC funds community programs in injury control; 
health promotion efforts in schools and workplaces; initiatives to 
prevent diabetes, heart disease, cancer, stroke, and other chronic 
diseases; improvements in nutrition and immunization; programs to 
monitor and combat environmental effects on health; prevention programs 
to improve oral health; prevention of birth defects; public health 
research; strategies to prevent antimicrobial resistance and infectious 
diseases; and data collection and analysis on a host of vital 
statistics and other health indicators. It is notable that more than 70 
percent of CDC's budget flows out to States and local health 
organizations and academic institutions, many of which are currently 
struggling to meet growing needs with fewer resources.
          health resources and services administration (hrsa)
    The Coalition joins the Friends of HRSA in seeking $7 billion for 
HRSA in fiscal year 2013. HRSA operates programs in every State and 
thousands of communities across the country. It is a national leader in 
providing health services for individuals and families, serving as a 
health safety net for the medically underserved. The requested level of 
funding for fiscal year 2013 is critical to allow the agency to carry 
out critical public health programs and services that reach millions of 
Americans, including developing the public health and healthcare 
workforce; delivering primary care services through community health 
centers; improving access to care for rural communities; supporting 
maternal and child healthcare programs; providing healthcare to people 
living with HIV/AIDS; and many more. In the long term, much more is 
needed for the agency to achieve its ultimate mission of ensuring 
access to culturally competent, quality health services; eliminating 
health disparities; and rebuilding the public health and healthcare 
infrastructure.
   substance abuse and mental health services administration (samhsa)
    The Coalition joins the Mental Health Liaison Group and the 
addictions community in recommending an overall funding level of $3.5 
billion for SAMHSA in fiscal year 2013. According to results from a 
national survey conducted by SAMHSA, 45.1 million American adults in 
the United States experienced mental illness last year. However, only 
two-thirds of adults in the United States with mental illness received 
mental health services. In fact, suicide claims over 36,000 lives 
annually, the equivalent of 94 suicides per day; 1 suicide every 15 
minutes. Last year, 8.7 million adults aged 18 or older thought 
seriously about committing suicide, 2.5 million made a suicide plan, 
and 1.1 million attempted suicide. The funding for community mental 
health services from SAMHSA has never been more critical, especially in 
light of the $3.6 billion reduction in State mental health funding for 
programs serving this vulnerable population.
           agency for healthcare research and quality (ahrq)
    The Coalition joins the Friends of AHRQ in recommending an overall 
funding level of $400 million in base discretionary funding for AHRQ in 
fiscal year 2013. AHRQ funds research and programs at local 
universities, hospitals, and health departments that improve healthcare 
quality, enhance consumer choice, advance patient safety, improve 
efficiency, reduce medical errors, and broaden access to essential 
services--transforming people's health in communities in every State 
around the Nation. Specifically, the science funded by AHRQ provides 
consumers and their healthcare professionals with valuable evidence to 
make the right healthcare decisions for themselves and their families. 
AHRQ's research also provides the basis for protocols that reduce 
hospital-acquired infections, and improve patient confidence, 
experiences, and outcomes.
    The Coalition appreciates this opportunity to provide its fiscal 
year 2013 funding recommendations. During the coming months, our member 
organizations stand ready to work with Members of Congress in 
developing a balanced approach to deficit reduction that will prevent 
the harmful, indiscriminant cuts that will occur under sequestration.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    As the Subcommittee on Labor, Health and Human Services, Education, 
and Related Agencies begins to develop the fiscal year 2013 Labor, HHS, 
Education, and Related Agencies appropriations bill, the Coalition of 
Northeastern Governors (CONEG) urges you to fund the Low Income Home 
Energy Assistance Program (LIHEAP) at the most current authorized level 
of $5.1 billion, with at least $4.5 billion in the core block grant 
program and additional contingency funding for unforeseen emergencies. 
We urge you to provide these funds in a manner consistent with the 1994 
LIHEAP statute--``to assist low-income households, particularly those 
with the lowest incomes that pay a high proportion of household income 
for home energy, primarily in meeting their immediate home energy 
needs.''
    The Governors appreciate the Subcommittee's continued support for 
the Low Income Home Energy Assistance Program, and recognize the 
difficult fiscal challenges facing Congress this year. However, the 
need that the LIHEAP program meets--immediate assistance that allows 
the most the vulnerable low-income households to pay their home energy 
bills--is great and continues to grow.
    LIHEAP is targeted to households whose income hovers near the 
Federal poverty level, which for a two-person household is less than 
$15,000 per year. Over 90 percent of LIHEAP households have at least 
one member defined as ``vulnerable''--elderly, disabled or a small 
child. In addition, a recent National Energy Assistance Directors' 
Association survey found that the number of households with veterans 
receiving LIHEAP assistance has increased by more than 150 percent from 
695,760 in fiscal year 2008 to 1.78 million in fiscal year 2011.
    In the face of recent reductions in LIHEAP funding, the northeast 
States' LIHEAP programs faced a reduction of 20 to 25 percent in their 
fiscal year 2012 allocation compared to fiscal year 2011. This 
reduction creates considerable pressures and challenges in stretching 
the scarce LIHEAP dollars while still providing a meaningful benefit. 
States have responded to the reduced LIHEAP funds in a number of ways. 
For example, eligibility for LIHEAP assistance has been tightened. The 
application season has been reduced. The number of households served 
this season will be lower. Most critically, a number of States have had 
to reduce benefits. Many northeast States have also stretched their own 
limited budgets to provide millions of dollars in supplemental LIHEAP 
funds. Few northeast States will have carry-forward funds at the end of 
the current season. If the fiscal year 2013 appropriations are delayed, 
the lack of carry-forward funds creates an additional challenge for 
cold-weather States, where early winters create the need for benefits 
in the fall. A funding level of $4.5 billion in the block grant program 
provides the certainty that States need to plan and implement a cost-
effective program.
    The threat of reduced LIHEAP funding comes as home heating oil 
prices continue their steady year-to-year rise. According to the most 
recent weekly price reports of the Energy Information Administration 
(March 19, 2012), residential heating oil prices now exceed $4 per 
gallon, and have risen steadily over the past month, even as winter 
temperatures moderate. These rising energy prices continue to erode the 
purchasing power of each LIHEAP dollar received by low-income 
households, particularly in the Northeast, which is more dependent on 
home heating fuel than any other region of the country. Almost 82 
percent of the 8 million U.S. households that use heating oil to heat 
their homes are located in this region, and they have limited options 
to switch to lower-cost residential fuels.
    At current prices, a typical LIHEAP benefit would pay for less than 
30 percent of the total heating expenditure for a household using 800 
gallons of heating oil during the season. Unlike most households that 
heat with natural gas or electricity, households that rely upon 
delivered fuels do not have the protection of a shut-off moratorium. If 
a household cannot afford to purchase home heating fuel, the delivery 
truck simply does not come, and the household is left in the cold. 
Adequate, predictable and timely Federal funding is vital for LIHEAP to 
assist these vulnerable, low-income households faced with increasing 
home energy bills.
    The CONEG Governors appreciate the Subcommittee's continuing 
support for LIHEAP, and urge that it fund the program at $5.1 billion, 
with a $4.5 billion funding level for the core LIHEAP block grant 
program and additional contingency funds provided to address unforeseen 
energy emergencies. An adequate and certain level of funding will help 
States to provide meaningful assistance to some of the Nation's most 
vulnerable low-income households as they attempt to pay their home 
energy bills.
                                 ______
                                 
Prepared Statement of the Commissioned Officers Association of the U.S. 
                         Public Health Service
    The Commissioned Officers Association of the U.S. Public Health 
Service, Inc. (COA), wishes to submit this statement for the record. 
The Association speaks for its members, all of whom are active-duty or 
retired officers of the Commissioned Corps of the U.S. Public Health 
Service (USPHS).
    The Association respectfully makes one request: support for a 
congressionally authorized (but unfunded) workforce program to recruit 
and train public health physicians, dentists, nurses, physician 
assistants, and mental health experts for public service careers in the 
USPHS Commissioned Corps. The program is called the United States 
Public Health Sciences Track. Its annual cost is estimated at $160 
million.
Background and Rationale
    This program was authorized in Section 5315 of the Affordable Care 
Act (Public Law 111-148), which is now before the U.S. Supreme Court. 
Despite the intense controversy surrounding other aspects of this law, 
there has never been, to the Association's knowledge, any opposition 
expressed by any Member of Congress to the Public Health Sciences 
Track. Regardless of the Court's decision, our Nation will still need a 
way to replenish and grow the USPHS Commissioned Corps and its active-
duty force of 6,500 health professionals.
    The Public Health Sciences Track means guaranteed jobs for all 
graduates. This is because there are thousands of unfilled positions, 
i.e., potential billets, for qualified clinicians who are willing to 
serve as uniformed public health professionals in Indian Country 
(especially Alaska and the American southwest) and in underserved urban 
and rural areas in nearly every State.
    USPHS health professionals serve side-by-side with Armed Forces 
personnel at home and abroad, on joint training missions, and even in 
forward operating bases in combat zones. USPHS psychiatric nurses have 
treated injured soldiers and Marines under fire in Afghanistan. At 
home, USPHS psychologists and other mental health specialists are 
detailed to the Department of Defense to treat returning soldiers and 
Marines suffering from traumatic brain injury and post-traumatic stress 
disorder. The USPHS Commissioned Corps is a public health and national 
security force multiplier.
    The Public Health Sciences Track, as set forth in Section 5315 of 
the ACA, would provide for 850 annual scholarships for medical, dental, 
nursing, and public health students who commit to public service in the 
USPHS. Such a program would be the first dedicated pipeline into the 
USPHS Commissioned Corps. The law would reserve ten slots at the 
Uniformed Services University of the Health Sciences (USUHS), which is 
the medical school and research institute for uniformed services 
personnel (Army, Navy, Air Force, Public Health Service). All the rest 
would be distributed among interested schools of medicine, dentistry, 
nursing, etc., based on recommendations of the U.S. Surgeon General.
Funding
    The ACA provision authorizing the Public Health Sciences Track 
identified an existing source of funds. Full support was to come from 
the Public Health and Social Services Emergency Fund. The law directed 
the DHHS Secretary to ``transfer from the Public Health and Social 
Services Emergency Fund such sums as may be necessary'' (Sec. 274). 
That transfer of funds transfer never occurred, and we understand it is 
now precluded by language in the Continuing Resolution (CR). That is 
why an appropriation is necessary to keep this program alive.
    As the Association's Executive Director, I would be pleased to 
expand on these points or to answer any questions.
                                 ______
                                 
     Prepared Statement of the Council for Opportunity in Education
    Over the last several years, our Nation has struggled to overcome 
the greatest economic crisis since the Great Depression. More and more 
Americans are turning to education as a means to lift their families 
out of poverty and empower their local communities. The Federal TRIO 
Programs, which serve approximately 800,000 low-income, potential 
first-generation college graduates, presents a unique, yet ideal 
mechanism to achieve our mutual goals of increased college access and 
completion, enhanced employment prospects for veterans and adults 
returning to the workforce and strengthened status within the global 
marketplace. To that end, I am pleased to submit the following 
recommendations for increases in TRIO funding.
Send Our Returning Veterans Back to the Classroom
    With the winddown of overseas military conflicts, several thousand 
servicemen and -women are returning home and need help to re-enter the 
classroom and re-engage in civilian life and their local communities. 
Yet, there are only 47 of TRIO's Veterans Upward Bound (VUB) programs. 
Through an increase of $13.5 million, Congress could double the 
program's capacity and allow 12,000 veterans (total) to receive TRIO 
services. This is a more than worthwhile investment in those who have 
sacrificed so much for our Nation.
Help More Out-of-Work Adults and Low-Wage Earners Boost Their 
        Employability
    TRIO's Educational Opportunity Centers (EOC) target displaced and 
underemployed workers and guide these prospective students through the 
challenges of obtaining secondary education credentials, selecting and 
enrolling in appropriate postsecondary programs and/or navigating 
through the complex financial aid process. Currently, there are only 
128 EOC programs supporting approximately 192,000 adult learners across 
the country. By infusing just $14.9 million into the EOC program, 
Congress could fund 38 additional programs--increasing the program's 
reach by 30 percent to serve an additional 58,000 students--and provide 
much needed relief to existing programs, which have sustained 
significant funding cuts in recent years.
Increase Retention and Graduation Rates Among Low-Income College 
        Students
    TRIO's Student Support Services (SSS) program helps low-income and 
first-generation students, including students with disabilities, to 
successfully begin and stay in college. Participants receive tutoring, 
counseling, and remedial instruction in order to achieve their goals of 
college completion. Serving nearly 203,000 students through just over 
1,000 programs on college campuses across the country, SSS is ripe for 
investment. By pouring $46.8 million into current programs, Congress 
would allow the host colleges and universities to serve an additional 
32,000 students within a matter of weeks. This would represent a 15 
percent increase in the number of low-income college students served by 
SSS.
Preserve Opportunity for Low-Income and Underrepresented Students to 
        Pursue Graduate Education
    TRIO's Ronald E. McNair Postbaccalaureate Achievement program 
encourages and prepares low-income, first-generation and other 
underrepresented students to achieve doctoral degrees. The McNair 
program provides research opportunities, faculty mentoring and other 
supports necessary for such students to enter into and complete 
challenging degree fields. Recently, the Department of Education (DOE) 
cut funding for this program by $10 million (21 percent) and announced 
an intention to fund one-third fewer programs in the pending grant 
competition. By restoring this funding in fiscal year 2013, Congress 
could restore services to approximately 2,000 students and allow these 
programs to build upon their track record of success in producing 
academics and other thought leaders in disciplines vital to our 
national interest, such as engineering and mathematics.
Restore Services to Students in the Pipeline
    Due to funding cuts, several thousand low-income, potential first-
generation college graduates have missed out on the opportunity to 
participate in TRIO. By infusing $71.4 million into the programs, the 
Congress could allow 55,000 middle and high school students to receive 
services through Talent Search, Upward Bound and Upward Bound Math-
Science.
    With a longstanding history of helping low-income youth and adults 
become the first in their families to earn college degrees, the Federal 
TRIO programs are a ready resource to meet the needs of our veterans, 
adult learners, students with disabilities and other low-income 
students. Even during this time of austerity, it is critically 
important to make sound investments that put our Nation on a sound 
economic path and strengthen communities and families. This strategy 
proposes to do just that.
    In addition to these funding concerns, I would request that your 
subcommittee take particular action to remedy the Department of 
Education's mishandling of these programs.
    Imposing a Competitive Preference Priority that Moves Upward Bound 
grants from many States into Illinois--and particularly into Chicago. 
By adding ``competitive priorities''--and giving extra points to 
institutions and agencies that addressed those priorities--in the 
Upward Bound competition (and also, it is expected, in the Upward Bound 
Math/Science competition), the Department intends to reward 
institutions and agencies that address those priorities. The first of 
three competitive priorities awards applicants an extra 5 points out of 
a total possible of 125 by serving ``Persistently Lowest Achieving 
Schools'' (PLAS) as defined by the Department (and not the applicant's 
State). Because Upward Bound does not serve elementary school students, 
and since many States labeled more elementary schools than secondary 
schools as PLAS, applicants from certain States have a five point 
advantage over most applications from States that concentrated on 
elementary schools as PLAS. As a consequence, for example, institutions 
and agencies serving almost 60 schools in Chicago qualify for the extra 
five points. Meanwhile NO institutions and agencies serving schools in 
Idaho qualify and only a handful of institutions in Montana and 
Connecticut qualify.
    The Upward Bound competition closed Friday, March 16, but it is 
estimated that only about 25 percent of applications qualified for 
extra points under the first competitive priority, serving PLAS. Other 
applicants simply could not earn these points because there were no 
nearby PLAS. It is possible that this issue also raises civil rights 
concerns because among the applicants disadvantaged are those serving 
schools on Indian reservations and applicants serving schools in 
Southern States such as Alabama and West Virginia that have very low 
numbers of qualifying PLAS.
    Despite the fact that Congress provided the Department of Education 
an extra year to prepare for and conduct TRIO competitions, and despite 
the fact that the Appropriations Committee gave specific direction to 
the Department to avoid delays in TRIO competitions in the fiscal year 
2011 Omnibus, ED remains unable to announce grants in a timely fashion. 
In one (of two) TRIO competitions in fiscal year 2011, grants were so 
late that many expired before announcements were made. Those programs, 
Educational Opportunity Centers--which help unemployed and 
underemployed workers and other low-income adults get the education and 
training they need to prepare for good jobs--were forced to close down. 
Many educators were laid off, and many more left their employment given 
the uncertainty surrounding funding continuation. It is anticipated 
that this same problem will again occur all throughout the summer. The 
last time an Upward Bound competition was held, 5 years ago, 
applications had to be submitted in November and grant announcements 
were not made until May. This year, through a series of missteps, the 
Department closed and then re-opened the competition for Upward Bound 
with applications not being finally due until March 16. Although 
current grants to over 300 institutions and agencies will have expired 
by June 1, the Department can provide no assurance that grant 
notifications will be made by that time. Upward Bound staff are already 
receiving termination notices, and very few colleges can plan summer 
programs with no assurance that funds will be available. The situation 
is compounded because--with the end of an infusion of mandatory 
monies--it is known that at least 150 previously funded Upward Bound 
programs will be discontinued.
    These acts demonstrate a lack of due care with the Federal funds 
with which your Subcommittee has entrusted the Department in the 
administration of the TRIO programs. Therefore, in addition to 
addressing the ever-pressing funding needs of TRIO, I respectfully 
request your leadership in remedying the administrative ills noted 
above.
    On behalf of the low-income, first-generation students served by 
TRIO, I thank you for your consideration of this testimony.
                                 ______
                                 
               Prepared Statement of the COPD Foundation
                       summary of recommendations
    The Foundation requests that the National Institutes of Health, 
National Heart, Lung, and Blood Institute, National Institute of 
Allergy and Infectious Diseases and National Institute on Aging, 
increase the investment in Chronic Obstructive Pulmonary Disease and 
that the Centers for Disease Control and Prevention initiate a Federal 
partnership with the COPD community to achieve the following goals:
  --$32 billion for the NIH for fiscal year 2013--that is a 4.5 percent 
        increase for the NIH over its fiscal year 2012 funding level;
  --Promotion of basic science and clinical research related to COPD;
  --Programs to attract and train the best young clinicians for the 
        care of individuals with COPD;
  --Support for outstanding established scientists to work on problems 
        within the field of COPD research;
  --Development of effective new therapies to prevent progression of 
        the disease and control symptoms of COPD; and
  --Expansion of public awareness and targeted detection to promote 
        early diagnosis and treatment.
    Mr. Chairman and members of the Subcommittee thank you for the 
opportunity to submit testimony for the record on behalf of the COPD 
Foundation.
    The COPD Foundation has a clear mission: to develop and support 
programs, which improve the quality of life through research, 
education, early diagnosis, and enhanced therapy for persons whose 
lives are impacted by Chronic Obstructive Pulmonary Disease (COPD). The 
COPD Foundation was established to speed innovations which will make 
treatments more effective and affordable. It also undertakes 
initiatives that result in expanded services for COPD patients and 
improves the lives of patients with COPD through research and education 
that will lead to prevention and someday a cure for this disease.
             copd: third leading cause of death and rising
    COPD is an umbrella term used to describe progressive lung diseases 
including emphysema, chronic bronchitis, refractory (non-reversible) 
asthma, and some forms of bronchiectasis. This disease is characterized 
by increasing breathlessness. The NIH, National Heart, Lung and Blood 
Institute estimates that 12 million adults have COPD and another 12 
million are undiagnosed. Smoking is not the only cause of COPD; second-
hand smoke, occupational dust and chemicals, air pollution and genetic 
factors such as Alpha-1 Antitrypsin Deficiency also cause COPD. Dr. 
Susan Shurin, Acting Director, of NHLBI responsible for the Learn More 
Breathe Better COPD education and awareness program notes that, ``Half 
of the people living with COPD don't know it even though it is 
relatively simple to diagnose with spirometry.''
    COPD while chronic is often characterized by exacerbations that can 
cause considerable lung deterioration that possibly could be avoided 
with medication compliance and education. There are 500,000 to 1 
million hospitalizations for COPD each year, and because of these high 
rates of hospitalizations and readmissions the Affordable Care Act 
targeted COPD as an area of improvement in readmissions. Costs related 
to COPD are rising and estimated to be about $50 billion per year.
    A majority of patients with COPD also have at least one other 
chronic condition and receive care from more than one healthcare 
provider (primary care physicians, pulmonologists, nurses, or 
respiratory therapists). In 2006, the COPD Foundation presented the 
results of its study on co-morbidities at the American Thoracic Society 
International Conference. The COPD and Co-Morbidities Survey identified 
other chronic conditions and the extent of these illnesses, and also 
determine use of medications for these additional illnesses. 81 percent 
of the household sample with COPD described having over six co-morbid 
conditions. Thus it is critical that not only do individuals with COPD 
receive proper diagnosis and treatment but that it is also recognized 
that they will need proper diagnosis and treatment for co-morbid 
conditions that may also be chronic in nature.
    Utilization of Healthcare Services.--Individuals diagnosed with 
COPD and those with COPD who are undiagnosed seek treatment from 
Emergency Services when they find themselves in an episode of severe 
respiratory distress. (Survey: ``Confronting COPD in America'' found 
that in those age 45-54, 27 percent had at least one emergency room 
visit within the past year for their condition.) Common in emergency 
services is to treat the patient by relieving the present distress and 
discharging them with the directive to follow up with their personal 
physician. Relieved that the episode is past, individuals are eager to 
resume their usual schedule and are often unable to afford an office 
visit or don't even have a personal physician. Thus there is no medical 
follow up, leading them to repeat this scenario, requiring expensive 
emergency services again, within months, weeks, or even days. 
Improvement needs to be made in understanding transitions through the 
healthcare delivery system while continuing to meet the immediate 
clinical needs of the COPD patient.
    COPD Foundation Infrastructure is built for Research.--The COPD 
Foundation has worked with the FDA to establish biomarkers that will 
facilitate expedited drug development. The COPD Foundation has worked 
with the National Institutes of Health to encourage funding of research 
that looks at the relationship of COPD and genetics while exceeding its 
goal of recruiting 10,000 research subjects the largest COPD cohort 
ever organized. COPDGene has enrolled more than 10,000 smokers with and 
without COPD across the GOLD stages that includes traditionally 
underserved populations of both Non-Hispanic whites and African-
Americans. The COPD Foundation Research Registry is a confidential 
database of individuals diagnosed with COPD or at risk of developing 
COPD. The Registry was established in 2007 by the COPD Foundation to 
help researchers learn more about COPD and to help people interested in 
COPD research find opportunities to participate. The Registry operates 
under the direction of the COPD Foundation's Board of Directors and is 
guided by an Oversight Committee comprised of leaders in the medical, 
ethical, scientific and COPD communities and ensures the strictest 
confidentiality of participant information.
        the medical needs of the copd community have gone unmet
    While smoking is a predominant cause of COPD it is not the only 
cause. Other significant factors are second hand smoke, occupational 
dusts and chemicals, air pollution, and a genetic cause called alpha-1 
antitrypsin deficiency. The other leading causes of death have seen 
great improvements over the past several decades. While the mortality 
of COPD rose by 163 percent from 1965-1998, the mortality of coronary 
heart disease decreased by 59 percent and the mortality of stroke 
decreased by 64 percent.
    And yet this third leading cause of death is a hidden, silent 
killer. There is a lack of awareness among the public that coughing and 
breathlessness is not a normal sign of aging. Those diagnosed with this 
disease are quick to blame themselves and are ashamed of their disease 
because of the current societal stigma. Many lack the information for 
proper disease self-management, which could easily prevent 
exacerbations and thusly, many hospital and emergency room visits.
    Currently, the only therapy shown to improve survival is 
supplemental oxygen. There are other therapies that can improve 
symptoms but they do not alter the natural history of the disease.
    COPD is fairly easy to detect.--In addition to symptoms of 
breathlessness, cough and sputum production, spirometry is a 
quantitative test that measures air volume and air flow in the lung and 
is relatively easy and inexpensive to administer.
    The COPD Foundation believes that significant Federal investment in 
medical research is critical to improving the health of the American 
people and specifically those affected with COPD. The support of this 
Subcommittee has made a substantial difference in improving the 
public's health and well-being. While this is by no means an exhaustive 
list, the Foundation wishes to recognize and appreciate the efforts of 
the National Institutes of Health in creating the COPD Clinical 
Research Network, for conducting a COPD state of the science 
conference, and launching a national education campaign.
    Chronic disease have a profound human and economic toll on our 
Nation. Nearly 125 million Americans today are living with some form of 
chronic condition. The Foundation recognizes that the Centers for 
Disease Control and Prevention understands that COPD is one of the only 
top 10 causes of death that is on the increase, however, COPD has not 
been designated the resources to be a major focus of the CDC. The 
Foundation urges the Subcommittee to encourage the CDC to expand its 
data collection efforts and to expand programs aimed at education and 
prevention of the general public and healthcare providers.
    COPD is a condition that has a high probability of improvability 
via research with the potential for new evidence to improve patient 
health, well being, and the quality of care.
             specific areas of concern and recommendations
    The Foundation requests that the National Institutes of Health, 
National Heart Lung, and Blood Institute, National Institute of Allergy 
and Infectious Diseases and National Institute on Aging, increase the 
investment in Chronic Obstructive Pulmonary Disease and that the 
Centers for Disease Control and Prevention initiate a Federal 
partnership with the COPD community to achieve the following goals:
  --Promotion of basic science and clinical research related to COPD;
  --Programs to attract and train the best young clinicians for the 
        care of individuals with COPD;
  --Support for outstanding established scientists to work on problems 
        within the field of COPD research;
  --Development of effective new therapies to prevent progression of 
        the disease and control symptoms of COPD; and
  --Expansion of public awareness and targeted detection to promote 
        early diagnosis and treatment.
                                 ______
                                 
    Prepared Statement of the College on Problems of Drug Dependence
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit testimony to the Subcommittee in support of the 
National Institute on Drug Abuse. The College on Problems of Drug 
Dependence (CPDD), a membership organization with over 800 members, has 
been in existence since 1929. It is the longest standing group in the 
United States addressing problems of drug dependence and abuse. The 
organization serves as an interface among governmental, industrial and 
academic communities maintaining liaisons with regulatory and research 
agencies as well as educational, treatment, and prevention facilities 
in the drug abuse field. CPDD also often works in collaboration with 
the World Health Organization.
    Drug abuse is costly to Americans; it ruins lives, while tearing at 
the fabric of our society and taking a huge financial toll on our 
resources. Beyond the unacceptably high rates of morbidity and 
mortality, drug abuse is often implicated in family disintegration, 
loss of employment, failure in school, domestic violence, child abuse, 
and other crimes. Placing dollar figures on the problem; smoking, 
alcohol and illegal drug use results in an exorbitant economic cost on 
our nation, estimated at over $600 billion annually. We know that many 
of these problems can be prevented entirely, and that the longer we can 
delay initiation of any use, the more successfully we mitigate future 
morbidity, mortality and economic burdens.
    Over the past three decades, NIDA-supported research has 
revolutionized our understanding of addiction as a chronic, often-
relapsing brain disease--this new knowledge has helped to correctly 
situate drug addiction as a serious public health issue that demands 
strategic solutions. By supporting research that reveals how drugs 
affect the brain and behavior and how multiple factors influence drug 
abuse and its consequences scholars supported by NIDA continue to 
advance effective strategies to prevent people from ever using drugs 
and to treat them when they cannot stop.
    NIDA supports a comprehensive research portfolio that spans the 
continuum of basic neuroscience, behavior and genetics research through 
medications development and applied health services research and 
epidemiology. While supporting research on the positive effects of 
evidence-based prevention and treatment approaches, NIDA also 
recognizes the need to keep pace with emerging problems. We have seen 
encouraging trends--significant declines in a wide array of youth drug 
use--over the past several years that we think are due, at least in 
part, to NIDA's public education and awareness efforts. However, areas 
of significant concern, such as prescription drug abuse, remain and we 
support NIDA in its efforts to find successful approaches to these 
difficult problems.
    Recognizing that so many health research issues are inter-related, 
CPDD requests that the subcommittee provide at least $32 billion for 
the National Institutes of Health, which is a $1.3 billion or 4.3 
percent increase over fiscal year 2012. This will allow NIH to keep up 
with inflation. Because of the critical importance of drug abuse 
research for the health and economy of our Nation, we also request that 
you provide a proportionate increase for the National Institute on Drug 
Abuse.
    In addition, to highlight certain priority research areas within 
NIDA's portfolio, we respectfully request that you include the 
following language in the Committee report accompanying the fiscal year 
2013 funding recommendation for the National Institute on Drug Abuse:

    ``Medications Development.--With the recent reduction in the 
efforts of the pharmaceutical industry to develop new medications to 
treat diseases of the brain, the Committee encourages NIDA to continue 
to increase their efforts to develop medications to treat diseases of 
addiction. Reasonable success has occurred in the past and recent 
advances in knowledge support this effort.
    ``Translational Research.--The Committee encourages NIDA to 
continue its efforts to increase our knowledge of how genetics, age, 
environment and other factors affect the use of experimental drugs and 
the development of addiction.
    ``Education.--The educational efforts of NIDA to inform the public 
of the deleterious effects of abused substances and the life-
threatening dangers of drug addiction are recognized and encouraged. 
Progress in this area has contributed to the decreased abuse of 
nicotine and its long term medical consequences, including death. 
Adolescents and returning veterans and their families are at a high 
risk for drug abuse and therefore should be areas of concentration for 
these educational efforts.
    ``Prevention and Treatment.--The Committee recognizes the reported 
increase in abuse of marijuana and prescription drugs and encourages 
NIDA to support innovative approaches to prevent and treat this abuse 
and the resulting harmful effects. The concentration in these areas 
should compliment efforts to prevent and treat addiction of all abused 
substances.
    ``Prescription Drug Abuse.--Prescription drug abuse has been the 
focus of much work by NIDA and its grantees and although significant 
progress has been made, the Committee encourages NIDA to maintain its 
comprehensive leadership role in the effort to halt this epidemic.
    ``Military Personnel, Veterans, and Their Families.--The Committee 
commends NIDA for its successful efforts to coordinate and support 
research with the Department of Veterans Affairs and other NIH 
institutes on substance abuse and associated problems among U.S. 
military personnel, veterans and their families. Many military 
personnel need help confronting war-related problems including 
traumatic brain injury, post-traumatic stress disorder, depression, 
anxiety, sleep disturbances, and substance abuse, including tobacco, 
alcohol and other drugs. Many of these problems are interconnected and 
contribute to individual health and family relationship crises, yet 
there has been little research on how to prevent and treat the unique 
characteristics of wartime-related substance abuse issues. The 
Committee encourages NIDA to continue work in this area.''

    The Nation's previous investment in scientific research to further 
understand the effects of abused drugs on the body has increased our 
ability to prevent and treat addiction. As with other diseases, much 
more needs be done to improve prevention and treatment of these 
dangerous and costly diseases. Our knowledge of how drugs work in the 
brain, their health consequences, how to treat people already addicted, 
and what constitutes effective prevention strategies has increased 
dramatically due to support of this research. However, since the number 
of individuals continuing to be affected is still rising, we need to 
continue the work until this disease is both prevented and eliminated 
from society.
    We understand that the fiscal year 2013 budget cycle will involve 
setting priorities and accepting compromise, however, in the current 
climate we believe a focus on substance abuse and addiction, which 
according to the World Health Organization account for nearly 20 
percent of disabilities among 15-44 year olds, deserve to be 
prioritized accordingly. We look forward to working with you to make 
this a reality. Thank you for your support for the National Institute 
on Drug Abuse.
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present you with testimony. The Charles Drew University 
is distinctive in being the only dually designated Historically Black 
Graduate Institution and Hispanic Serving Institution in the Nation. We 
would like to thank you, Mr. Chairman, for the support that this 
subcommittee has given to our University to produce minority health 
professionals to eliminate health disparities as well as do 
groundbreaking research to save lives.
    The Charles Drew University is located in the Watts-Willowbrook 
area of South Los Angeles. Its mission is to prepare predominantly 
minority doctors and other health professionals to care for underserved 
communities with compassion and excellence through education, clinical 
care, outreach, pipeline programs and advanced research that makes a 
rapid difference in clinical practice. The Charles Drew University has 
established a national reputation for translational research that 
addresses the health disparities and social issues that strike hardest 
and deepest among urban and minority populations.
Health Resources and Services Administration
    Title VII Health Professions Training Programs.--The health 
professions training programs administered by the Health Resources and 
Services Administration (HRSA) are the only Federal initiatives 
designed to address the longstanding under representation of minorities 
in health careers. HRSA's own report, ``The Rationale for Diversity in 
the Health Professions: A Review of the Evidence,'' found that minority 
health professionals disproportionately serve minority and other 
medically underserved populations, minority populations tend to receive 
better care from practitioners of their own race or ethnicity, and non-
English speaking patients experience better care, greater comprehension 
and greater likelihood of keeping follow-up appointments when they see 
a practitioner who speaks their language. Studies have also 
demonstrated that when minorities are trained in minority health 
professions institutions, they are significantly more likely to: (1) 
serve in medically underserved areas, (2) provide care for minorities 
and (3) treat low-income patients.
    Minority Centers of Excellence.--The purpose of the COE program is 
to assist schools, like Charles Drew University, that train minority 
health professionals, by supporting programs of excellence. The COE 
program focuses on improving student recruitment and performance; 
improving curricula and cultural competence of graduates; facilitating 
faculty and student research on minority health issues; and training 
students to provide health services to minority individuals by 
providing clinical teaching at community-based health facilities. For 
fiscal year 2013, the funding level for COE should be $24.602 million.
    Health Careers Opportunity Program.--Grants made to health 
professions schools and educational entities under HCOP enhance the 
ability of individuals from disadvantaged backgrounds to improve their 
competitiveness to enter and graduate from health professions schools. 
HCOP funds activities that are designed to develop a more competitive 
applicant pool through partnerships with institutions of higher 
education, school districts, and other community based entities. HCOP 
also provides for mentoring, counseling, primary care exposure 
activities, and information regarding careers in a primary care 
discipline. Sources of financial aid are provided to students as well 
as assistance in entering into health professions schools. For fiscal 
year 2013, the HCOP funding level of $22.133 million is recommended.
National Institutes of Health
    National Institute on Minority Health and Health Disparities.--The 
NIMHD is charged with addressing the longstanding health status gap 
between under-represented minority and non-minority populations. The 
NIMHD helps health professional institutions to narrow the health 
status gap by improving research capabilities through the continued 
development of faculty, labs, telemedicine technology and other 
learning resources. The NIMHD also supports biomedical research focused 
on eliminating health disparities and developed a comprehensive plan 
for research on minority health at NIH. Furthermore, the NIMHD provides 
financial support to health professions institutions that have a 
history and mission of serving minority and medically underserved 
communities through the COE program and HCOP. For fiscal year 2013, an 
increase proportional to NIH's increase is recommended for NIMHD as 
well as additional FTEs.
    Research Centers at Minority Institutions.--RCMI, now at NIMHD, has 
a long and distinguished record of helping institutions like The 
Charles Drew University develop the research infrastructure necessary 
to be leaders in the area of translational research focused on reducing 
health disparities research. Although NIH has received some budget 
increases over the last 5 years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2013.
Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: 
assisting medically underserved communities, supporting conferences for 
high school and undergraduate students to interest them in health 
careers, and supporting cooperative agreements with minority 
institutions for the purpose of strengthening their capacity to train 
more minorities in the health professions. For fiscal year 2013, I 
recommend a funding level of $65 million for OMH to support these 
critical activities.
Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions program (Title III, Part B, Section 326) is extremely 
important to MMC and other minority serving health professions 
institutions. The funding from this program is used to enhance 
educational capabilities, establish and strengthen program development 
offices, initiate endowment campaigns, and support numerous other 
institutional development activities. In fiscal year 2013, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
Conclusion
    Despite all the knowledge that exists about racial/ethnic, socio-
cultural and gender-based disparities in health outcomes, the gap 
continues to widen. Not only are minority and underserved communities 
burdened by higher disease rates, they are less likely to have access 
to quality care upon diagnosis. As you are aware, in many minority and 
underserved communities preventative care and research are inaccessible 
either due to distance or lack of facilities and expertise. As noted 
earlier, in just one underserved area, South Los Angeles, the number 
and distribution of beds, doctors, nurses and other health 
professionals are as parlous as they were at the time of the Watts 
Rebellion, after which the McCone Commission attributed the so-named 
``Los Angeles Riots'' to poor services--particularly access to 
affordable, quality healthcare. The Charles Drew University has proven 
that it can produce excellent health professionals who ``get'' the 
mission--years after graduation they remain committed to serving people 
in the most need. But, the university needs investment and committed 
increased support from Federal, State and local governments and is 
actively seeking foundation, philanthropic and corporate support.
    Even though institutions like The Charles Drew University are 
ideally situated (by location, population, community linkages and 
mission) to study conditions in which health disparities have been well 
documented, research is limited by the paucity of appropriate research 
facilities. With your help, the Life Sciences Research Facility will 
translate insight gained through research into greater understanding of 
disparities and improved clinical outcomes. Additionally, programs like 
Title VII Health Professions Training programs will help strengthen and 
staff facilities like our Life Sciences Research Facility.
    We look forward to working with you to lessen the huge negative 
impact of health disparities on our Nation's increasingly diverse 
populations, the economy and the whole American community.
    Mr. Chairman, thank you again for the opportunity to present 
testimony on behalf of The Charles Drew University. It is indeed an 
honor.
                                 ______
                                 
       Prepared Statement of the Council on Social Work Education
    On behalf of the Council on Social Work Education (CSWE), I am 
pleased to offer this written testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Agencies for inclusion in the official subcommittee record. I 
will focus my testimony on the importance of fostering a skilled, 
sustainable, and diverse social work workforce to meet the healthcare 
needs of the Nation through professional education, training and 
financial support programs for social workers at the Department of 
Health and Human Services (HHS).
    CSWE is a nonprofit national association representing more than 
3,000 individual members and more than 650 master's and baccalaureate 
programs of professional social work education. Founded in 1952, this 
partnership of educational and professional institutions, social 
welfare agencies, and private citizens is recognized by the Council for 
Higher Education Accreditation (CHEA) as the single accrediting agency 
for social work education in the United States. Social work education 
focuses students on leadership and direct practice roles helping 
individuals, families, groups, and communities by creating new 
opportunities that empower people to be productive, contributing 
members of their communities.
    Recruitment and retention in social work continues to be a serious 
challenge that threatens the workforce's ability to meet societal 
needs. The Bureau of Labor Statistics estimates that employment for 
social workers is expected to grow faster than the average for all 
occupations through 2018, particularly for social workers specializing 
in the aging population and working in rural areas. In addition, the 
need for social workers specializing in mental health and substance use 
is expected to grow by almost 20 percent more than the 2008-2018 
decade.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics. 2009. Occupational Outlook 
Handbook, 2010-11 Edition: Social Workers, http://data.bls.gov/cgi-bin/
print.pl/oco/ocos060.htm. Retrieved March 28, 2012.
---------------------------------------------------------------------------
    CSWE understands the difficult funding decisions the Congress is 
faced with this year given the fragile state of the United States 
economy. In these challenging times, it is my hope that the 
subcommittee will prioritize funding for health professions training in 
fiscal year 2013 to help to ensure that the Nation continues to foster 
a sustainable, skilled, and culturally competent workforce that will be 
able to keep up with the increasing demand for social work services and 
meet the unique healthcare needs of diverse communities.
health resources and services administration (hrsa) title vii and title 
                    viii health professions programs
    CSWE urges the subcommittee to provide $520 million in fiscal year 
2013 for the health professions education programs authorized under 
titles VII and VIII of the Public Health Service Act and administered 
through HRSA. HRSA's title VII and title VIII health professions 
programs represent the only Federal programs designed to train 
healthcare providers in an interdisciplinary way to meet the healthcare 
needs of all Americans, including the underserved and those with 
special needs. These programs also serve to increase minority 
representation in the healthcare workforce through targeted programs 
that improve the quality, diversity, and geographic distribution of the 
health professions workforce. The title VII and title VIII programs 
provide loans, loan guarantees and scholarships to students, and grants 
to institutions of higher education and nonprofit organizations to help 
build and maintain a robust healthcare workforce. Social workers and 
social work students are eligible for funding from the suite of title 
VII health professions programs.
    The title VII and title VIII programs were reauthorized in 2010, 
which helped to improve the efficiency of the programs as well as 
enhance efforts to recruit and retain health professionals in 
underserved communities. Recognizing the severe shortages of mental and 
behavioral health providers within the healthcare workforce, a new 
title VII program was authorized in the Patient Protection and 
Affordable Care Act (Public Law 111-148). The Mental and Behavioral 
Health Education and Training Grants program would provide grants to 
institutions of higher education (schools of social work and other 
mental health professions) for faculty and student recruitment and 
professional education and training. The program received first-time 
funding of $10 million in the final fiscal year 2012 appropriations 
bill. The President's budget request for fiscal year 2013 would reduce 
funding to $5 million. CSWE urges the subcommittee to maintain funding 
for this new and critically needed program at $10 million in fiscal 
year 2013. This is the only program in the Federal Government that is 
explicitly focused on recruitment and retention of social workers and 
other mental and behavioral health professionals.
  substance abuse and mental health services administration (samhsa) 
                      minority fellowship program
    The goal of the SAMHSA Minority Fellowship Program (MFP) is to 
achieve greater numbers of minority doctoral students preparing for 
leadership roles in the mental health and substance use fields. 
According to SAMHSA, minorities make up approximately one-fourth of the 
population, but only 10 percent of mental health providers come from 
ethnic minority communities. CSWE is one of six grantees of this 
critical program and administers funds to exceptional minority doctoral 
social work students. Other grantees include national organizations 
representing nursing, psychology, psychiatry, marriage and family 
therapy, and professional counselors. SAMHSA makes grants to these six 
organizations, who in turn recruit minority doctoral students into the 
program from the six distinct professions.
    CSWE urges the subcommittee to appropriate $5.7 million for the MFP 
in fiscal year 2013, which is equal to the fiscal year 2012 enacted 
level. The President's budget request for fiscal year 2013 proposes a 
23.4 percent cut to the program, which if appropriated would 
significantly reverse progress made over the last several years by 
bringing funding down to the lowest level in nearly 5 years. This cut 
would translate to a reduction in the number of minority mental health 
professions trained to serve vulnerable populations. Each of the MFP 
grantee organizations, including CSWE, would be forced to significantly 
scale back the support provided to minority doctoral students. With 
respect to the social work doctoral fellows, a 23 percent cut would 
have the following impacts:
  --The program would not have sufficient funds to cover the stipend 
        increase for CSWE's current class of 25 fellows and would need 
        to eliminate all other financial support to the fellows;
  --Fellows would not have funds to attend CSWE's Annual Program 
        Meeting, which represents the only face-to-face meeting of 
        fellows from doctoral programs located in different parts of 
        the United States and is essential to professional development 
        and collaborative networking; and
  --There would be no tuition support (currently set at $500 per 
        student) to fellows to assist them in timely degree completion.

                       SAMHSA BREAKDOWN OF THE MINORITY FELLOWSHIP PROGRAM FUNDING REQUEST
                     [This program is funded through three separate accounts within SAMHSA]
----------------------------------------------------------------------------------------------------------------
                                                                     Requested      President's
                                                                      program       fiscal year     Fiscal year
                                                                      funding      2013 request    2012 funding
----------------------------------------------------------------------------------------------------------------
Programs of Regional and National Significance, Center for            $5,089,000      $3,755,000      $5,089,000
 Mental Health Services (CMHS)..................................
Programs of Regional and National Significance, Center for               546,000         546,000         546,000
 Substance Abuse Treatment (CSAT)...............................
Programs of Regional and National Significance, Center for                71,000          71,000          71,000
 Substance Abuse Prevention (CSAP)..............................
                                                                 -----------------------------------------------
      Total, MFP funding........................................  ..............  ..............       5,706,000
----------------------------------------------------------------------------------------------------------------

    Since its inception, the MFP has helped support doctoral-level 
professional education for more than 1,000 ethnic minority social 
workers, psychiatrists, psychologists, psychiatric nurses, and family 
and marriage therapists. Still, the program continues to struggle to 
keep up with the demands that are plaguing these health professions. 
Severe shortages of mental health professionals often arise in 
underserved areas due to the difficulty of recruitment and retention in 
the public sector. Nowhere are these shortages more prevalent than 
within Tribal communities, where mental illness and substance use go 
largely untreated and incidences of suicide continue to increase. 
Studies have shown that ethnic minority mental health professionals 
practice in underserved areas at a higher rate than nonminorities. 
Furthermore, a direct positive relationship exists between the numbers 
of ethnic minority mental health professionals and the utilization of 
needed services by ethnic minorities.
    Level funding is needed simply to maintain the program's current 
capacities to provide education and training for minority mental health 
and substance use professionals. Much work is still needed in order to 
adequately address the mental health needs of minority populations; 
maintaining funding for the MFP is a small step the subcommittee can 
take in fiscal year 2013.
    Thank you for the opportunity to express these views. Please do not 
hesitate to call on CSWE should you have any questions or require 
additional information.
                                 ______
                                 
  Prepared Statement of the College of Veterinary Medicine, Nursing & 
                   Allied Health, Tuskegee University
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Tsegaye 
Habtemariam, dean of the College of Veterinary Medicine, Nursing, and 
Allied Health at Tuskegee University. The mission (purpose) of Research 
and Advanced Studies at the College of Veterinary Medicine, Nursing & 
Allied Health (CVMNAH) is to transform trainees into ambassadors of the 
Tuskegee tradition to benefit man and animals. Such a tradition is 
honed in the ``one medicine-one health'' concept that for decades has 
guided our academic mission, to expand biosciences and create bridges 
between veterinary medicine, agricultural and food sciences on one side 
and human health and welfare on the other.
    Mr. Chairman, I speak for our institutions, when I say that the 
minority health professions institutions and the Title VII Health 
Professionals Training programs address a critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. 
Furthermore, even after the landmark passage of health reform, it is 
important to note that our Nation's health professions workforce does 
not accurately reflect the racial composition of our population. For 
example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. Mr. Chairman, I would like to share with you how 
your committee can help Tuskegee continue our efforts to help provide 
quality health professionals and close our Nation's health disparity 
gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need--even in austere 
financial times.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA)--during the Bush administration--entitled ``The 
Rationale for Diversity in the Health Professions: A Review of the 
Evidence'' found that minority health professionals serve minority and 
other medically underserved populations at higher rates than non-
minority professionals. The report also showed that; minority 
populations tend to receive better care from practitioners who 
represent their own race or ethnicity, and non-English speaking 
patients experience better care, greater comprehension, and greater 
likelihood of keeping follow-up appointments when they see a 
practitioner who speaks their language. Studies have also demonstrated 
that when minorities are trained in minority health profession 
institutions, they are significantly more likely to: (1) serve in rural 
and urban medically underserved areas, (2) provide care for minorities 
and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    In fiscal year 2013, funding for the Title VII Health Professions 
Training programs must be robust, especially the funding for the 
Minority Centers of Excellence (COEs) and Health Careers Opportunity 
Program (HCOPs). In addition, the funding for the National Institutes 
of Health (NIH)'s National Institute on Minority Health and Health 
Disparities (NIMHD), as well as the Department of Health and Human 
Services (HHS)'s Office of Minority Health (OMH), should be preserved.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions to the training 
of minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs. For fiscal year 2013, I recommend a 
funding level of $24.602 million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. For fiscal year 2013, I recommend a funding level 
of $22.133 million for HCOPs.
National Institutes of Health
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI), newly moved to the National 
Institute on Minority Health and Health Disparities has a long and 
distinguished record of helping our institutions develop the research 
infrastructure necessary to be leaders in the area of health 
disparities research. Although NIH has received unprecedented budget 
increases in recent years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2013.
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professions institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through its Centers of Excellence 
program. For fiscal year 2013, I recommend funded increases 
proportional with the funding of the overall NIH, with increased FTEs.
Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: 
assisting medically underserved communities with the greatest need in 
solving health disparities and attracting and retaining health 
professionals; assisting minority institutions in acquiring real 
property to expand their campuses and increase their capacity to train 
minorities for medical careers; supporting conferences for high school 
and undergraduate students to interest them in health careers, and 
supporting cooperative agreements with minority institutions for the 
purpose of strengthening their capacity to train more minorities in the 
health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2013, I recommend a funding level 
of $65 million for the OMH.
Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions (HBGI) program (Title III, Part B, Section 326) is 
extremely important to AMHPS. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2013, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
AMHPS' member institutions and the Title VII Health Professions 
Training programs and the historically black health professions schools 
can help this country to overcome health disparities. Congress must be 
careful not to eliminate, paralyze or stifle the institutions and 
programs that have been proven to work. CVMNAH seeks to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work toward the goal of eliminating that 
disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation
    Summary of recommendations for fiscal year 2013:
  --$32 billion for the National Institutes of Health (NIH) and 
        concurrent percentage increases across its institutes and 
        centers.
  --Continue to support the Dystonia Coalition within the Rare Disease 
        Clinical Research Network (RDCRN) coordinated by the Office of 
        Rare Diseases Research (ORDR).
  --Expand dystonia research at NIH through the National Institute on 
        Neurological Disorders and Stroke (NINDS), the National 
        Institute on Deafness and Other Communication Disorders 
        (NIDCD), and the National Eye Institute (NEI).
    Dystonia is a neurological movement disorder characterized by 
involuntary muscle spasms that cause the body to twist, repetitively 
jerk, and sustain postural deformities. Focal dystonia affects specific 
parts of the body, while generalized dystonia affects multiple parts of 
the body at the same time. Some forms of dystonia are genetic but 
dystonia can also be caused by injury or illness. Although dystonia is 
a chronic and progressive disease, it does not impact cognition, 
intelligence, or shorten a person's life span. Conservative estimates 
indicate that between 300,000 and 500,000 individuals suffer from some 
form of dystonia in North America alone. Dystonia does not 
discriminate, affecting all demographic groups. There is no known cure 
for dystonia and treatment options remain limited.
    Although little is known regarding the causes and onset of 
dystonia, two therapies have been developed and proved particularly 
useful to control patients' symptoms. Botulinum toxin (Botox/Myobloc) 
injections and deep brain stimulation (DBS) have shown varying degrees 
of success alleviating dystonia symptoms. Until a cure is discovered, 
the development of management therapies such as these remains vital, 
and more research is needed to fully understand the onset and 
progression of the disease in order to better treat patients.
Dystonia Research at the National Institutes of Health (NIH)
    Currently, dystonia research at NIH is conducted through the 
National Institutes on Neurological Disorders and Stroke (NINDS), the 
National Institute on Deafness and Other Communication Disorders 
(NIDCD), the National Eye Institute (NEI), and the Office of Rare 
Diseases Research (ORDR).
    ORDR coordinates the Rare Disease Clinical Research Network (RDCRN) 
which provides support for studies on the natural history, 
epidemiology, diagnosis, and treatment of rare diseases. RDCRN includes 
the Dystonia Coalition, a partnership between researchers, patients, 
and patient advocacy groups to advance the pace of clinical research on 
cervical dystonia, blepharospasm, spasmodic dysphonia, craniofacial 
dystonia, and limb dystonia. The Dystonia Coalition has made tremendous 
progress in recruiting patients for clinical trials and funding four 
promising studies that hold great hope for advancing understanding and 
treatment of primary focal dystonias. The DMRF urges the subcommittee 
to continue its support for the Dystonia Coalition within the Rare 
Disease Clinical Research Network at ORDR.
    The majority of dystonia research at NIH is conducted through 
NINDS. NINDS has utilized a number of funding mechanisms in recent 
years to study the causes and mechanisms of dystonia. These grants 
cover a wide range of research including the genetics and genomics of 
dystonia, the development of animal models of primary and secondary 
dystonia, molecular and cellular studies in inherited forms of 
dystonia, epidemiology studies, and brain imaging. The DMRF urges the 
subcommittee to support NINDS in conducting and expanding critical 
research on dystonia.
    NIDCD and NEI also support research on dystonia. NIDCD has funded 
many studies on brainstem systems and their role in spasmodic 
dysphonia. Spasmodic dysphonia is a form of focal dystonia which 
involves involuntary spasms of the vocal cords causing interruptions of 
speech and affecting voice quality. NEI focuses some of its resources 
on the study of blepharospasm. Blepharospasm is an abnormal, 
involuntary blinking of the eyelids which can cause blindness due to a 
patient's inability to open their eyelids. DMRF encourages partnerships 
between NINDS, NIDCD and NEI to further dystonia research.
    In summary, the DMRF recommends the following for fiscal year 2013:
  --$32 billion for NIH and a proportional increase for its Institutes 
        and Centers.
  --Continued support for the Dystonia Coalition within the Rare 
        Diseases Clinical Research Network at ORDR.
  --Increased portfolio of dystonia research at NIH through NINDS, 
        NIDCD, NEI, and ORDR.
The Dystonia Medical Research Foundation (DMRF)
    The Dystonia Medical Research Foundation was founded over 30 years 
ago and has been a membership-driven organization since 1993. Since its 
inception, the goals of DMRF have remained to advance research for more 
effective treatments of dystonia and ultimately find a cure; to promote 
awareness and education; and support the needs and well being of 
affected individuals and their families.
    Thank you for the opportunity to present the views of the dystonia 
community, we look forward to providing any additional information.
                                 ______
                                 
           Prepared Statement of the Elder Justice Coalition
    The Elder Justice Coalition (EJC) thanks you for providing an 
opportunity to submit testimony as you consider a fiscal year 2013 
Labor-HHS, and Education appropriations bill. The EJC is a 3,000 member 
strong, nonpartisan organization dedicated to advocating for funding 
for the Elder Justice Act (EJA) and related elder abuse prevention 
legislation. The EJA was passed over 2 years ago and while authorized 
funding for the EJA is $195 million per year, for the second year in a 
row, zero funds have been appropriated for the EJA. Two years later, 
vulnerable older adults who should be protected by the law are 
confronted with the same threats of abuse, neglect, and exploitation.
    The President's fiscal year 2012 budget requested a total of $21.5 
million for the EJA. We strongly supported that level last year and 
continue to this year. This funding was targeted for State adult 
protective services (APS) operations and the Long-Term Care Ombudsman 
Program. APS workers are often the first responders to cases of abuse 
and neglect. They are faced with increasing and complex caseloads yet; 
there is no dedicated Federal funding stream for APS programs. The 
Long-Term Care Ombudsman Program provides resident advocacy to elders 
and adults with disabilities who live in long-term care settings. This 
program is consistently underfunded.
    According to the Department of Justice, 1 out of every 10 older 
adults are victims of elder abuse. A 2011 study on elder abuse 
prevalence indicated that out of 23.5 elder abuse cases, only 1 is 
reported. For financial exploitation, the ratio is an astounding 43.9 
to 1 reported. A 2011 study found that the annual financial loss by 
victims of elder financial abuse is at least $2.9 billion, a 12 percent 
increase from the $2.6 billion estimated in a similar 2009 study.
    We urge you to include a minimum appropriation of $21.5 million for 
the Elder Justice Act in your fiscal year 2013 Labor-HHS appropriations 
bill. We feel the President's fiscal year 2013 request of $ 8 million 
is simply inadequate. We ask you to consider the fact that funds we 
invest in elder abuse prevention today will save Medicaid and Medicare 
dollars that elder abuse victims might otherwise need.
    We thank you for your consideration and please feel free to contact 
me with questions or concerns.
                                 ______
                                 
         Prepared Statement of the Eldercare Workforce Alliance
    Mr. Chairman and Members of the Subcommittee: We are writing on 
behalf of the Eldercare Workforce Alliance (EWA), which is comprised of 
29 national organizations united to address the immediate and future 
workforce crisis in caring for an aging America. As the Subcommittee 
begins consideration of funding for programs in fiscal year 2013, the 
Alliance \1\ asks that you consider $48.7 million in funding for the 
geriatrics health professions and direct-care worker training programs 
that are authorized under Titles VII and VIII of the Public Health 
Service Act as follows:
---------------------------------------------------------------------------
    \1\ The positions of the Eldercare Workforce Alliance reflect a 
consensus of 75 percent or more of its members. This testimony reflects 
the consensus of the Alliance and does not necessarily represent the 
position of individual Alliance member organizations.
---------------------------------------------------------------------------
  --$40.3 million for Title VII Geriatrics Health Professions Programs;
  --$3.4 million for direct care workforce training; and
  --$5 million for Title VIII Comprehensive Geriatric Education 
        Programs.
    Geriatrics health profession and direct-care worker training 
programs are integral to ensuring that America's healthcare workforce 
is prepared to care for the Nation's rapidly expanding population of 
older adults.
    We appreciate President Obama's commitment to targeting resources 
to the programs which are most critical to meeting our Nation's 
challenges in a time of fiscal constraint. Funding included in his 
fiscal year 2013 budget for the Geriatrics Health Professions programs 
administered through the Health Resources and Services Administration 
(HRSA) under Title VII and Title VIII of the Public Health Service Act 
is one such critical target. His request represents a welcome, though 
still inadequate, investment in equipping the Nation's healthcare 
workforce to meet the needs of America's older adults. HRSA's budget 
justification recognizes the immediacy of the eldercare workforce 
crisis by identifying ``enhancing geriatric/elder care training and 
expertise'' as one of their top five priorities.
    At a minimum, EWA asks Congress to support the full amount of the 
President's request for these programs, and to consider the importance 
of the additional investments needed in order to realize the healthcare 
workforce goals set forth in the recently released draft National 
Action Plan on Alzheimer's and the bipartisan commitment to enhancing 
the primary care workforce of which geriatrics is a part. According to 
a 2008 MedPAC report, among physicians who specifically train in and 
provide primary care, geriatricians spend the most time providing non-
procedural primary care with 65 percent of their payments derived from 
primary care services such as office and home visits and visits to 
patients in non-acute settings.\2\ Geriatrics and gerontological health 
professionals typically care for the 20 percent of Medicare 
beneficiaries who account for 80 percent of Medicare costs. The 
Geriatrics Health Professions programs support geriatrics faculty and 
programs that we need to train other members of the care team to 
provide the type of multidisciplinary care that is the hallmark of 
geriatrics.
---------------------------------------------------------------------------
    \2\ Medicare Payment Advisory Commission, Report to the Congress: 
Reforming the Delivery System (Washington: MedPAC, June 2008), chap. 2, 
p.34.
---------------------------------------------------------------------------
    In light of current fiscal constraints, EWA specifically requests 
$48.7 million in funding for the following programs administered 
through the Health Resources and Services Administration (HRSA) under 
Title VII and VIII of the Public Health Service Act.
Title VII: Geriatrics Health Professions Appropriations Request: $40.3 
        Million
    Title VII Geriatrics Health Professions programs are the only 
Federal programs that: (1) seek to increase the number of faculty with 
geriatrics expertise in a variety of disciplines; and (2) offer 
critically important training for the healthcare workforce overall to 
improve the quality of care for America's elders.
    Geriatric Academic Career Awards (GACA).--The goal of this program 
is to promote the development of academic clinician educators in 
geriatrics.
  --Program Accomplishments.--In Academic Year 2010-2011, the GACA 
        Program funded 68 full-time junior faculty awardees. These 
        awardees provided interdisciplinary training in geriatrics to 
        38,392 health professionals in clinical geriatrics; provided 
        interdisciplinary team training to 6,617 clinical staff in 
        various geriatric clinical settings; and provided geriatric 
        services to 57,364 geriatric patients who are underserved and 
        uninsured patients in acute care, geriatric ambulatory care, 
        long-term care, and geriatric consultation services settings. 
        HRSA, through the Affordable Care Act, expanded the awards to 
        be available to more disciples. EWA strongly supports and 
        requests adequate funding for future expansion. Currently, new 
        awardees are selected only every 5 years and to meet the need 
        for clinician educators in all disciplines, EWA believes that 
        we need to invest more in this program in order to develop 
        adequate numbers of faculty to provide this training. 
        Specifically, these academic career development awards should 
        be available to clinician educators annually. EWA's fiscal year 
        2013 request of $5.5 million includes will support current GAC 
        Awardees in their development as clinician educators.
    Geriatric Education Centers (GEC).--The goal of the Geriatric 
Education Centers is to provide quality interdisciplinary geriatric 
education and training to the health professions workforce including 
geriatrics specialists and non-specialists.
  --Program Accomplishments.--In Academic Year 2010-2011, the 45 GEC 
        grantees developed and provided 2,103 education and training 
        offerings to health professions students, faculty, and 
        practitioners related to care of older adults. 
        Interdisciplinary education and training was provided to 10,703 
        interdisciplinary teams. The grantees provided education and 
        training to 64,414 health professions students, faculty, and 
        practitioners. The GECs provide much needed education and 
        training. As part of the ACA, Congress authorized a 
        supplemental grant award program that will train additional 
        faculty through a mini-fellowship program. The program provides 
        training to family caregivers and direct care workers. Our 
        funding request of $22.7 million includes support for the core 
        work of 45 GECs and $2.7 million awarded to 24 GECs that would 
        be funded to undertake development of mini-fellowships under 
        the supplemental grants program included in ACA.
    Geriatric Training Program for Physicians, Dentists, (GTPD) and 
Behavioral and Mental Health Professions.--The goal of the GTPD is to 
increase the number and quality of clinical faculty with geriatrics and 
cultural competence, including retraining mid-career faculty in 
geriatrics.
  --Program Accomplishments.--In Academic Year 2010-2011, 13 non-
        competing continuation grants were supported. A total of 54 
        physicians, dentists and psychiatry fellows provided geriatric 
        care to 24,139 older adults across the care continuum. 
        Geriatric physician fellows provided healthcare to 13,788 older 
        adults; geriatric dental fellows provided healthcare to 4,834 
        older adults; and geriatric psychiatric fellows provided 
        healthcare to 5,516 older adults. This program supports 
        training additional faculty in medicine, dentistry, and 
        behavioral and mental health so that they have the expertise, 
        skills and knowledge to teach geriatrics and gerontology to the 
        next generation of health professionals in their disciplines. 
        EWA's funding request of $8.8 million will support 13 
        institutions to continue this important faculty development 
        program.
    Geriatric Career Incentive Awards Program.--Congress authorized 
this new program through the ACA. It offers grants to foster greater 
interest among a variety of health professionals in entering the field 
of geriatrics, long-term care, and chronic care management. EWA's 
funding request of $3.3 million supports implementation of this new 
program.
Title VII Direct-Care Worker Training Program Appropriations Request: 
        $3.4 million
    Direct-care workers help older people carry out the basic 
activities of daily living and are critical to ensuring an adequate 
geriatrics workforce. More than 1 million additional direct-care 
workers will be needed by 2018, according to the latest employment 
projections.
    Training Opportunities for Direct Care Workers.--In the ACA 
Congress approved a program administered by HHS that will offer 
advanced training opportunities for direct care workers. While this 
vital training program was left out of President Obama's budget, EWA 
believes Congress must fund it to create new employment opportunities 
by offering new skills through training. EWA's funding request of $3.4 
million will support the Department of Labor to establish this unique 
grant program to support community colleges in increasing the 
geriatrics knowledge and expertise of this workforce.
Title VIII Geriatrics Nursing Workforce Development Programs 
        Appropriations Request: $5 million
    These programs, administered by the HRSA, are the primary source of 
Federal funding for advanced education nursing, workforce diversity, 
nursing faculty loan programs, nurse education, practice and retention, 
comprehensive geriatric education, loan repayment, and scholarship.
    Comprehensive Geriatric Education Program.--The goal of this 
program is to provide quality geriatric education to individuals caring 
for the elderly.
  --Program Accomplishments.--In Academic Year 2010-2011, 27 non-
        competing Comprehensive Geriatric Education (CGEP) grantees 
        provided education and training to 3,645 registered nurses, 
        1,238 registered nursing students, 870 direct service workers, 
        569 licensed practical/vocational nurses, 264 faculty and 5,344 
        allied health professionals. This program supports additional 
        training for nurses who care for the elderly; development and 
        dissemination of curricula relating to geriatric care; and 
        training of faculty in geriatrics. It also provides continuing 
        education for nurses practicing in geriatrics.
    Traineeships for Advanced Practice Nurses.--Through the ACA, the 
Comprehensive Geriatric Education Program is being expanded to include 
advanced practice nurses who are pursuing long-term care, 
geropsychiatric nursing or other nursing areas that specialize in care 
of elderly.
    EWA's funding request of $5 million supports the training of nurses 
who care for older adults and offer traineeships to nurses under the 
newly implemented traineeship program.
    On behalf of the members of the Eldercare Workforce Alliance, we 
commend you on your past support for geriatric workforce programs and 
ask that you join us in supporting the geriatrics workforce at this 
critical time--for all older Americans deserve quality of care, now and 
in the future.
    Thank you for your consideration.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2013 appropriation of $32 
billion for the National Institutes of Health (NIH) as the first step 
of a program of sustained growth that will keep pace with increasing 
scientific opportunities and return to the demonstrated capacity of the 
research enterprise.
    As a federation of 26 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by NIH, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    Research funded by NIH is essential for improving health, reducing 
human suffering, and protecting the Nation against new and emerging 
health threats. As a result of the prior investment in medical research 
at NIH, scientists have developed vaccines to protect our citizens from 
cervical cancer, flu, and meningitis; increased survival rates from the 
most common form of childhood leukemia, which are now at 90 percent; 
and combined effective medicines and a broad base of knowledge about 
lifestyle changes to reduce the death rate for heart disease by more 
than 60 percent and stroke by 70 percent. Many of these advances arose 
from non-medically targeted investigations designed to explain basic 
molecular, cellular, and biological mechanisms.
    More recently, researchers supported by NIH found that a saliva 
sample from a newborn can be used to quickly and effectively detect 
cytomegalovirus (CMV) infection, a major cause of hearing loss in 
children. CMV is the most common infection passed by a mother to her 
unborn child. As many as 30,000 children are infected with the virus at 
birth; and 10 to 15 percent of them are at risk for developing hearing 
loss. Monitoring infected children for signs of hearing loss as they 
grow is the best way to ensure they get early treatment, but they often 
show no symptoms. Better CMV screening at birth could help doctors 
determine which patients to monitor for symptoms so they can be treated 
as quickly as possible. NIH researchers also discovered that a 
noninvasive technique that uses light therapy to selectively destroy 
cancerous cells in mice without harming surrounding tissue could 
eventually be used to treat tumors in humans, a process known as 
photoimmunotherapy. Using photoimmunotherapy, scientists were able to 
dramatically shrink tumors in mice after a single dose of infrared 
light therapy. This method has the potential to replace some surgical, 
radiation, and chemotherapy treatments. Last year, an international HIV 
prevention trial funded by NIH was named the ``Breakthrough of the 
Year'' by the journal Science. Researchers found that if HIV-infected 
heterosexual individuals began taking antiretroviral medicines when 
their immune systems are relatively healthy, as opposed to delaying 
therapy until the disease has advanced, they are 96 percent less likely 
to transmit the virus to their uninfected partners. The study 
convincingly demonstrated that antiretroviral medications cannot only 
treat but also prevent the transmission of HIV infection among 
heterosexual individuals, adding to the existing base of public health 
strategies that can be used to make a significant impact on the HIV 
pandemic.
    These successes are the direct result of a vigorous medical 
research effort. Sustaining this robust enterprise is crucial for 
meeting the known and unknown challenges that are surely coming, such 
as the increasing numbers of Alzheimer's disease sufferers as the baby 
boomer generation ages, the increasing incidence of obesity-associated 
type 2 diabetes, and potential threats through bioterrorism.
    In addition to improving health, support for medical research 
contributes to the Nation's economy. Over 80 percent of NIH funds are 
distributed through competitive grants to more than 300,000 scientists 
who work at universities, medical schools, and other research 
institutions in nearly every congressional district in the United 
States. It is critically important that the Nation continue to 
capitalize on previous investments to drive research progress, train 
the next generation of scientists, promote economic growth, and 
maintain leadership in the global innovation economy, particularly as 
other countries increase their investments in scientific research.
Predictable and Sustainable Funding Will Drive Innovation and Progress
    The broad program of research supported by NIH is essential for 
improving our understanding of diseases and is a primary source of new 
innovations in healthcare and other areas, but because of the scale, 
scope, and time involved, it is the kind of investment that private 
industry could not afford to undertake. Unfortunately, due to several 
years of flat funding and spending cuts enacted in 2011, the NIH budget 
is insufficient to fund all of the critical research that needs to be 
done. Furthermore, the rising costs of research and a loss of 
purchasing power in the NIH budget have led to a decrease in the number 
of research grants awarded to investigators. Data \1\ from the NIH 
website recently analyzed by FASEB demonstrate how difficult times have 
become:
---------------------------------------------------------------------------
    \1\ http://www.faseb.org/
LinkClick.aspx?fileticket=aDQlNW4adp0%3d&tabid=431.
---------------------------------------------------------------------------
  --In constant dollars (adjusted for inflation), the fiscal year 2012 
        budget and the President's proposal for fiscal year 2013 are $4 
        billion lower than the peak year (fiscal year 2003) and at the 
        lowest level since fiscal year 2001.
  --The number of research project grants funded by NIH has declined 
        every year since 2004. This trend is projected to continue in 
        fiscal year 2012 and fiscal year 2013, when NIH will fund 3,100 
        fewer grants than in fiscal year 2004.
  --Success rates have fallen more than 14 percentage points in the 
        past decade and are expected to decline even further in fiscal 
        year 2012 and 2013.
    This analysis clearly demonstrates that we have lost ground. If 
supplemental appropriations are considered, the decline is much 
greater. NIH reached a capacity of more than $35 billion in fiscal year 
2010-2011. The high demand for stimulus funding, and the exceptional 
research that it yielded, illustrate that the capacity of the research 
system is at least $35 billion.
    NIH needs sustainable and predictable budget growth in order to 
continue important scientific investigations that improve the health of 
all Americans. Advances in research will enhance our ability to respond 
quickly to new health threats and exciting NIH initiatives currently 
underway are poised to accelerate our progress in the search for cures. 
It would be tragic if we could not capitalize on the many opportunities 
before us. The discovery of a universal vaccine to protect adults and 
children against both seasonal and pandemic flu; nanomedicine that can 
target cancer cells precisely, with limited impact on healthy cells; 
and development of gene chips and DNA sequencing technologies that can 
predict risk for high blood pressure, kidney disease, diabetes, and 
obesity are just a few of the research breakthroughs that will be 
delayed if we fail to sustain the investment in NIH.
    Maintaining the current level of effort requires an increase equal 
to the biomedical research and development price index (BRDPI), which 
is projected to be 2.8 percent for fiscal year 2013, and additional 
funds are essential to take advantage of the exciting and urgent 
opportunities in science and medicine available today. A 1.7 percent 
increase above BRDPI could provide support for nearly 170 additional 
research grants. To prevent further erosion of the Nation's capacity 
for biomedical research, FASEB recommends an appropriation of at least 
$32 billion for NIH in fiscal year 2013.
    Thank you for the opportunity to offer FASEB's support for NIH.
                                 ______
                                 
  Prepared Statement of Friends of the Health Resources and Services 
                             Administration
    On behalf of the Friends of the Health Resources and Services 
Administration (HRSA), we write to respectfully request a minimum 
overall funding level of $7 billion for fiscal year 2013 for HRSA. As a 
national leader in providing health services for individuals and 
families, HRSA, operates programs in every State, territory, and 
thousands of communities across the country. The agency serves as a 
health safety net for the medically underserved, including the 50 
million Americans who were uninsured in 2010 and 60 million Americans 
who live in neighborhoods with scarce primary healthcare services.
    The Friends of HRSA is a nonprofit and non-partisan alliance of 
more than 180 national organizations, collectively representing 
millions of public health and healthcare professionals, academicians, 
and consumers. The coalition's principal goal is to ensure that HRSA's 
broad health programs have continued support in order to reach the 
populations presently underserved by the Nation's patchwork of health 
services.
    While we recognize the reality of the current fiscal climate, our 
request of $7 billion represents the minimum amount necessary for HRSA 
to continue meeting the healthcare needs of the American public--
anything less will undermine the efforts of HRSA programs to improve 
access to quality healthcare for millions of our Nation's most 
vulnerable citizens. Additionally, the Friends of HRSA remains 
concerned about the deep cuts the agency has endured over the past few 
years--HRSA's discretionary budget has been reduced by more than $1.2 
billion since fiscal year 2010. Cuts of this magnitude have had a 
serious negative impact on the agency's ability to carry out critical 
public health programs and services for millions of Americans, and as a 
result, have the potential to lead to significant increased costs to 
our healthcare system in the long term. Therefore, our requested level 
of funding is necessary to ensure support for the continued 
implementation of HRSA programs including:
  --Health Professions programs that support the education and training 
        of primary care physicians, nurses, dentists, optometrists, 
        physician assistants, nurse practitioners, clinical nurse 
        specialists, public health personnel, mental and behavioral 
        health professionals, pharmacists, and other allied health 
        providers; improve the distribution and diversity of health 
        professionals in medically underserved communities and ensure a 
        sufficient and capable health workforce able to provide care 
        for all Americans and respond to the growing demands of our 
        aging and increasingly diverse population. In addition, the 
        Patient Navigator Program helps individuals in underserved 
        communities, who suffer disproportionately from chronic 
        diseases, navigate our complex health system.
  --Primary Care programs that support more than 7,000 community health 
        centers and clinics in every State and territory, improving 
        access to preventive and primary care in geographically 
        isolated and economically distressed communities. In addition, 
        the health centers program targets populations with special 
        needs, including migrant and seasonal farm workers, homeless 
        individuals and families, and those living in public housing.
  --Maternal and Child Health programs that include the Title V 
        Maternal and Child Health Block Grant, Healthy Start, and 
        others support a myriad of initiatives designed to promote 
        optimal health, reduce disparities, combat infant mortality, 
        prevent chronic conditions, and improve access to quality 
        healthcare for more than 40 million women and children, 
        including children with special healthcare needs.
  --HIV/AIDS programs that provide assistance to metropolitan and other 
        areas most severely affected by the HIV/AIDS epidemic; support 
        comprehensive care, drug assistance and support services for 
        people living with HIV/AIDS; provide education and training for 
        health professionals treating people with HIV/AIDS; and, 
        address the disproportionate impact of HIV/AIDS on women and 
        minorities.
  --Family Planning Title X services that ensure access to a broad 
        range of reproductive, sexual, and related preventive 
        healthcare for more than 5.2 million poor and low-income women, 
        men, and adolescents at nearly 4,400 health centers nationwide. 
        This program helps improve maternal and child health outcomes 
        and promotes healthy families.
  --Rural Health programs that improve access to care for the more than 
        60 million Americans who live in rural areas. Rural Health 
        Outreach and Network Development Grants, Rural Health Research 
        Centers, Rural and Community Access to Emergency Devices 
        Program, among other programs support community-based disease 
        prevention and health promotion projects, help rural hospitals 
        and clinics implement new technologies and strategies, and 
        build health system capacity in rural and frontier areas.
  --Special Programs that include the Organ Procurement and 
        Transplantation Network, the National Marrow Donor Program, the 
        C.W. Bill Young Cell Transplantation Program, and National Cord 
        Blood Inventory, which help people who need potentially life-
        saving transplants by connecting patients, doctors, donors, and 
        researchers to the resources they need to live longer, 
        healthier lives.
    This investment is necessary to sufficiently fund these important 
HRSA services and programs that continue to face increasing demands. We 
urge you to consider HRSA's role in strengthening the foundation of 
health service delivery and safety net programs, which are critical 
components of any comprehensive plan to secure our Nation's progress 
and drive down long-term healthcare costs. By supporting HRSA today, we 
can build on the successes of the past to improve the public's health 
and achieve health equity through access to quality services, a skilled 
health workforce, and innovative programs in the future.
    The members of the Friends of HRSA thank you for considering our 
request for $7 billion for HRSA in the fiscal year 2013 Labor-HHS-
Education appropriations bill and we appreciate the opportunity to 
submit our recommendation to the Subcommittee.
                                 ______
                                 
  Prepared Statement of the Friends of the National Institute on Aging
    Senator Harkin, Senator Shelby, and members of the Subcommittee, on 
behalf of the Friends of the National Institute on Aging (FoNIA) at the 
National Institutes of Health (NIH), thank you for the opportunity to 
provide testimony in support of the National Institute on Aging (NIA) 
and to comment on the need for sustained, long-term growth in aging 
research.
    The FoNIA is a coalition of over 50 academic, patient-centered and 
not-for-profit organizations that conduct, fund or advocate for 
scientific endeavors to improve the health and quality of life for 
Americans as we age. As a coalition, we support the continuation and 
expansion of NIA research activities and seek to raise awareness about 
important scientific progress in the area of aging research currently 
sponsored by the Institute.
    To ensure that progress in Nation's biomedical, social, and 
behavioral research continues, the Coalition endorses the Ad Hoc Group 
for Medical Research in supporting $32 billion for NIH in fiscal year 
2013. Given the unique funding challenges facing the NIA, and the range 
of promising scientific opportunities in the vast, diverse field of 
aging research, the FoNIA ask the subcommittee to recommend that NIA 
receive $1.4 billion in fiscal year 2013.
The NIA Mission
    Established in 1974, NIA leads the national scientific effort to 
understand the nature of aging in order to promote the health and well 
being of older adults. NIA's mission consists of four components:
  --Support and conduct genetic, biological, clinical, behavioral, 
        social, and economic research on aging.
  --Foster the development of research and clinician scientists in 
        aging.
  --Provide research resources.
  --Disseminate information about aging and advances in research to the 
        public, healthcare professionals, and the scientific community, 
        among a variety of audiences.
    The NIA fulfills this mission by supporting both extramural 
research at universities and medical centers across the United States 
and intramural research at laboratories in Baltimore and Bethesda, 
Maryland.
Research Activities and Advances
    Adding to its strong record of progress throughout its 38-year 
history, recent NIA-supported activities and advances have contributed 
to improving the health and well-being of older people worldwide. Below 
is a summary of some of these most recent activities and advances.
Alzheimer's Disease
    Alzheimer's disease (AD) is the most common cause of dementia in 
the elderly. Between 2.6 million and 5.1 million Americans aged 65 
years and older may have AD, with a predicted increase to 13.2 million 
by 2050. While researchers have achieved greater understanding of the 
disease, there is no cure. In light of the exploding aging population, 
which will more than double between 2010 and 2050 to 88.5 million or 20 
percent of the population, scientists are in a race against time to 
prevent an unprecedented AD epidemic threatening our older population.
    NIA is the lead Federal research agency for Alzheimer's disease 
(AD). In this regard, the Institute coordinates trans-NIH AD 
initiatives and encourages collaboration with other Federal agencies 
and private research entities. As illustration of its leadership role, 
NIA is leading the Alzheimer's Disease Research Summit on May 14 and 
15, 2012 at which officials representing Federal agencies, scientific 
researchers, providers, caregivers, patients and their families will 
convene to develop final recommendations to the National Alzheimer's 
Project Act Advisory Council.
    The NIA's support of important AD research has contributed to 
important recent advances. For example, the identification of relevant 
Alzheimer's Disease (AD) biomarkers through the groundbreaking 
Alzheimer's Disease Neuroimaging Initiative, along with a deeper 
understanding of the disease's pathology and clinical course, have 
facilitated the first revision of the clinical diagnostic criteria for 
AD in 27 years. These new criteria address for the first time the use 
of imaging and biomarkers in blood and spinal fluid, and unlike the 
previous guidelines they cover the full spectrum of the disease, from 
mild cognitive impairment (MCI) through clinical dementia. To expand 
and intensify the translation of basic research findings into clinical 
studies and human trials, NIA, the National Institute of Neurological 
Diseases and Stroke, and the National Institute of Mental Health 
support an AD Translational and Drug Discovery Initiative that 
currently funds over 40 projects, including a number of pilot clinical 
trials. In a recent, highly promising pilot trial, a nasal-spray form 
of insulin delayed memory loss and preserved cognition in people with 
cognitive deficits ranging from MCI to moderate AD. A larger-scale 
study to confirm and extend these results is under development.
Increasing Healthy Life Span
    Through its Division of Aging Biology, NIA supports research to 
improve understanding of the basic biological mechanisms underlying the 
process of aging and age-related diseases. The program's primary goal 
is to provide the biological basis for interventions in the process of 
aging, which is the major risk factor for many chronic diseases 
affecting older people. Recent significant findings that could help 
advance understanding of a range of chronic diseases, include the 
discovery of the drug rapamycin, which has been shown to extend median 
lifespan in a mouse model. Grantees supported by this program have also 
identified genetic pathways that regulate the maintenance of the stem 
cell microenvironment in aging tissues.
    In 2011, the NIA Division of Aging Biology led the formation of the 
Trans-NIH GeroScience Interest Group (GIG). This working group, which 
is comprised currently of 19 NIH Institutes and Centers was formed to 
encourage trans-NIH discussion and coordination of research activities 
focusing on mechanisms underlying age-related changes, including those 
that could lead to increased disease susceptibility (e.g. stress, 
inflammation, etc.). Another major goal of the GIG is to raise 
awareness both inside and outside the NIH of the relevant role aging 
biology plays in the development of age-related processes and chronic 
disease. To achieve this goal, the working group is planning seminars 
that will feature internal and external speakers, as well as symposia 
and workshops. With additional funding, the GIG could play an 
instrumental role in developing trans-NIH initiatives, including 
funding opportunities and Common Fund initiatives, to encourage 
research on basic biology of aging and its relationship to earlier life 
events, exposures, and diseases. The FoNIA believe the GIG is an 
important development that will result in greater coordination of aging 
research activities and resources across the NIH.
Behavioral and Social Science Research
    The Division of Behavioral and Social Research Program supports 
social and behavioral research to increase understanding of the aging 
process at the individual, institutional, and societal levels. Research 
areas include the behavioral, psychological, and social changes 
individuals undergo throughout the adult lifespan; participation of 
older people in the economy, families, and communities; the development 
of interventions to improve the health and cognition of older adults; 
and the societal impact of population aging and of trends in labor 
force participation, including fiscal effects on the Medicare and 
Social Security programs.
    One of the Division's signature projects, the Health and Retirement 
Study (HRS), is recognized as the Nation's leading source of combined 
data on health and financial circumstances of Americans over age 50. 
HRS data have been cited in over 1,700 scientific papers and have 
informed findings regarding the effects of early-life exposures on 
later-life health, variables associated with cognitive and functional 
decline in later life, and trends in retirement, savings, and other 
economic behaviors. It is so respected that the study is being 
replicated in 30 other countries. In March 2012, HRS took an important 
step forward by announcing that genetic data from approximately 13,000 
individuals were posted to dbGAP, the NIH's online genetics database. 
The data are comprised of approximately 2.5 million genetic markers 
from each person and are immediately available for analysis by 
qualified researchers. These data will enhance the ability of 
researchers to track the onset and progression of diseases and 
conditions affecting the elderly.
    NIA also continues to support research on the economic implications 
of aging and healthcare reform. In an ongoing study, the State of 
Oregon randomly assigned 10,000 low-income uninsured adults to the 
State's Medicaid program (out of a pool of 90,000 individuals who 
applied). The initial results from this study indicate that enrollees 
increased use of healthcare services and therefore program costs, but 
also reported improved health and well-being and reduced financial 
strain.
Funding Challenges
    Despite its ability to support important research projects and 
programs, the NIA faces unique funding challenges. While the current 
dollars appropriated to NIA seem to have risen significantly since 
fiscal year 2003, when adjusted for inflation, they have decreased 
almost 18 percent in the last 9 years. Further, according to the NIH 
Almanac, out of each dollar appropriated to NIH, only 3.6 cents goes 
toward supporting the work of the NIA-compared to 16.5 cents to the 
National Cancer Institute, 14.6 cents to the National Institute of 
Allergy and Infectious Diseases, 10 cents to the National Heart, Lung 
and Blood Institute, and 6.3 cents to the National Institute of 
Diabetes and Digestive and Kidney Diseases. Finally, despite enacting 
cost cutting measures, such as differing paylines for projects costing 
above and below $500,000 and a decrease in non-competing commitments, 
NIA's success rate remained below the average NIH success rate between 
2008 and 2011.
    The undeniable rise in the U.S. aging population is another factor 
justifying the need for increasing the NIA budget. According to the 
U.S. Census Bureau, the number of people age 65 and older will more 
than double between 2010 and 2050 to 88.5 million or 20 percent of the 
population; and those 85 and older will increase three-fold to 19 
million. Aging is a major risk factor for numerous diseases and 
disorders. These factors justify the need to provide NIA with $1.4 
billion, an increase of $300 million over the Institute's fiscal year 
2011 level, in fiscal year 2013. It is important to note that this 
funding level is not only endorsed by the FoNIA and the Leadership 
Conference on Aging, but also was endorsed by over 500 scientists 
nationwide who signed a letter to Dr. Collins in December 2011, 
requesting this amount.
Conclusion
    We thank you, Mr. Chairman, and the Subcommittee for supporting the 
NIA and, again, for the opportunity to express our support for the 
Institute and its important research.
                                 ______
                                 
 Prepared Statement of the Friends of the National Institute of Child 
                  Health and Human Development (NICHD)
    The Friends of the National Institute of Child Health and Human 
Development (NICHD) is a coalition of more than 100 organizations, 
representing scientists, physicians, healthcare providers, patients, 
and parents, concerned with the health and welfare of women, children, 
families, and people with disabilities. We are pleased to submit 
testimony to support the extraordinary work of the Eunice Kennedy 
Shriver National Institute of Child Health and Human Development.
    We would like to urge all members of Congress to continue sustained 
and predictable funding for the National Institutes of Health (NIH). To 
ensure that progress in basic, translational and clinical research is 
sustained, the Coalition joins the Ad Hoc Group for Medical Research in 
supporting a fiscal year 2013 appropriation of at least $32 billion for 
NIH.
    The Coalition has a particular interest in the important research 
conducted and supported by the NICHD. Since its establishment in 1963, 
the NICHD has made great strides in meeting the objectives of its broad 
biomedical and behavioral research mission. The NICHD mission and 
portfolio includes a focus on women's health and human development, 
including research on child development, before and after birth; 
maternal, child, and family health; learning and language development; 
reproductive biology and population issues; and medical rehabilitation.
    Although the NICHD has made significant contributions to the well-
being of children, women, and families, much remains to be done. With 
sufficient resources, the NICHD could build upon the promising 
initiatives described in this testimony and produce new insights into 
human development and solutions to health and developmental problems 
for the world and for the Nation--including the families living in your 
districts. For fiscal year 2013, the Friends of NICHD support an 
appropriation of at least $1.37 billion for NICHD.
New Discoveries
    Scientific breakthroughs supported by NICHD specifically serve to 
prevent and treat many of the Nation's most devastating health 
problems, such as infant mortality and low birthweight, birth defects, 
intellectual and developmental disabilities, pediatric AIDS, and the 
reproductive and gynecologic health of women throughout their 
lifespans. Adding to its strong record of progress over the past 50 
years, recent advances by the NICHD have contributed to the health and 
well-being of our Nation and world. Several highlights are:
    Prematurity.--Biomedical research is critically important to 
understanding the causes of prematurity and developing effective 
prevention and treatment methods. Prematurity rates have increased 
almost 35 percent since 1981 at a cost to the Nation of $26 billion 
annually--$51,600 for every infant born prematurely. Direct healthcare 
costs to employers for a premature baby average $41,610, 15 times 
higher than the $2,830 for a healthy, full-term delivery. A 
breakthrough study conducted by NICHD last year showed a significant 
reduction in preterm delivery among women with short cervixes who are 
administered vaginal progesterone. The results were especially positive 
in reducing births pre-28 weeks. The results of this study are expected 
to save the healthcare system $500 million a year. Additional research 
can help drive down our prematurity rates further, saving dollars and 
lives.
    Autism.--Scientists funded through an NICHD-funded Infant Brain 
Imaging Study have discovered patterns of brain development in the 
first 2 years of life that are distinct in children who are later 
diagnosed with autism spectrum disorder (ASD). The study results show 
differences in brain structure at 6 months of age, the earliest such 
structural changes have been recorded in ASDs. ASDs involve 
communication and social difficulties as well as repetitive behavior 
and restricted interests. Many early behavioral signs of ASDs are not 
apparent until the first year of age. Typically, ASDs are diagnosed at 
age 3 or older. According to the U.S. Centers for Disease Control and 
Prevention (CDC), ASDs affect 1 of 88 children in the United States (1 
in 54 for boys).
    Childhood Obesity.--According to the CDC, obesity now affects 17 
percent of all children and adolescents in the United States--triple 
the rate from just one generation ago and nearly one-third of all 
adults are now classified as obese, a figure that has more than doubled 
over the last 30 years. Health risks associated with being overweight 
or obese include type 2 diabetes, high blood pressure, high 
cholesterol, asthma, and arthritis, among other risks. While promoting 
healthy behaviors and physical activity is critical to child health, 
studies have also demonstrated that genetics could also play a factor. 
NIH-supported researchers have also identified locations at two genes, 
which, when mutated, appear to increase the likelihood of common 
childhood obesity. Earlier studies have identified genes associated 
with obesity in extremely obese youth and in adults, but the current 
study is the first to identify two genes associated with the less 
severe, more common form of obesity.
    Cognitive Development.--NICHD sponsors research on reading and 
reading disabilities, with the goal of identifying those factors that 
help English speaking children, bilinguals, and children who learn 
English as a second language become proficient in reading and writing 
in English. In 2009, 21 percent of U.S. children spoke a language other 
than English at home. According to a recent study sponsored by the 
NICHD, children who grow up learning to speak two languages are better 
at switching between tasks than are children who learn to speak only 
one language, which serves as an indicator of executive functioning 
skills such as the ability to pay attention, plan organize, and 
strategize. However, the study also found that bilinguals are slower to 
acquire vocabulary than are monolinguals, because bilinguals must 
divide their time between two languages while monolinguals focus on 
only one.
    Population Research.--In late 2011, an NICHD-supported analysis of 
over 5 million medical records showed that pregnant women assaulted by 
an intimate partner are at increased risk of giving birth to infants at 
lower birth weights. Babies born at low birth weights are at higher 
risk for SIDS, heart and breathing problems, and learning disabilities. 
The American College of Obstetricians and Gynecologists used this 
information in developing physician training materials for screening 
patients for intimate partner violence.
Future Research Opportunities
    Although the studies mentioned above have unquestionably made 
significant contributions to the well-being of our children and 
families, there is still much to discover about ways to improve health, 
learning, and quality of life. NICHD recently undertook a ``visioning'' 
process to identify critical scientific opportunities and goals for the 
coming decade to explore how biomedical, social and behavioral research 
could improve public health and prevention across its research 
portfolio. We support the Institute's efforts to achieve their goals as 
well as those scientific opportunities below, all of which can only be 
achieved with adequate Federal investments.
    Learning to Read, Write and Compute.--There is valuable research 
underway at NICHD on behavioral science, genetics, trans-disciplinary 
topics examining issues related to etiology, classification and 
definition, and prevention and remediation of learning disabilities 
(LD) impacting listening, speaking, reading, writing and math with an 
emphasis on co-morbid conditions (e.g., ADHD). Because individuals with 
LD continue to represent the largest population of school-age students 
identified for special education services in K-12 schools and continue 
to struggle to read, write and compute at the same rate as their 
peers--yet individuals with LD do not have intellectual disabilities--
NICHD continues to conduct innovative research to study the 
neurological processes of the brain with an integrative approach, 
including the use of fMRI and MRI. Such integration in the research 
includes pursuing answers to how the brain processes information 
including the underlying neurological processes that support learning 
to read, write and compute. NICHD's ongoing work continues to better 
inform best practices to improve classroom instruction and learning so 
that more struggling students successfully exit high school ready to 
attend college or receive career training.
    Intellectual and Developmental Disabilities.--Ongoing support of 
the research in intellectual and developmental disabilities being 
undertaken at the Eunice Kennedy Shriver Intellectual and Developmental 
Disabilities Research Centers (IDDRC) is essential. The IDDRCs have 
made outstanding contributions toward understanding the causes of a 
wide range of developmental disabilities including autism, Fragile X 
syndrome, Down syndrome, autism spectrum disorders (ASD), mitochondrial 
and other genetic/genomic disorders and environmentally induced 
disorders. IDDRCs have collaborated with each other to leverage 
resources and scientific capital on such efforts as developing a shared 
contact registry of individuals with Fragile X syndrome that will 
become a national resource to support investigators interested in 
studies involving this condition. Recent genetic and biomedical 
advances over the past few years hold the promise for understanding the 
threats to healthy and full development and ultimately to the 
prevention and amelioration of the impact of many disabilities. 
Additional resources are needed to help bring about progress in 
expanding registries to include larger samples across different 
disorders, support and mentor new investigators, and develop 
opportunities for translational research efforts to take advantage of 
recent findings.
    Contraceptive Research and Development.--Through its investment in 
contraceptive evaluation research, NICHD plays a key leadership role in 
ensuring acceptability and effective use of existing products in 
various settings and populations and in addressing behavioral issues 
related to fertility and contraceptive use. Specific opportunities and 
research priorities in the area of contraceptive evaluation include 
evaluation of the safety and effectiveness of hormonal contraceptive 
options for women who are overweight or obese. The Institute's 
investment in contraceptive development research is critical for 
producing new contraceptive modalities that offer couples options with 
fewer side-effects and additional non-contraceptive health benefits. 
Specific opportunities and research priorities in the area of 
contraceptive development include the need for non-hormonal 
contraception, post-coital contraception and multipurpose prevention 
technologies that would prevent both pregnancy and sexually transmitted 
infections.
    Reproductive Sciences.--Through its investment in reproductive 
science, NICHD conducts research to improve women's health by 
developing innovative medical therapies and technologies and improving 
existing treatment options for gynecological conditions affecting 
overall health and fertility. The Institute's reproductive science 
research makes a vital contribution to women's health by focusing on 
serious conditions that have been overlooked and underfunded, despite 
the fact that the impact many women. For example, the NICHD's Pelvic 
Floor Disorders Network is conducting research to improve treatment of 
extremely painful gynecological conditions that affect 25 percent of 
American women. Specific opportunities and research priorities in 
infertility research include the need for treatments for disorders such 
as endometriosis, polycystic ovarian syndrome (PCOS) and uterine 
fibroids which can prevent couples from achieving desired pregnancies.
    Rehabilitation Research.--The NICHD houses the National Center for 
Medical Rehabilitation Research (NCMRR). This Center fosters the 
development of scientific knowledge needed to enhance the health, 
productivity, independence, and quality-of-life of people with 
disabilities. A primary goal of Center-supported research is to bring 
the health related problems of people with disabilities to the 
attention of the best scientists in order to capitalize upon the myriad 
advances occurring in the biological, behavioral, and engineering 
sciences.
    Longitudinal Research.--NICHD's investments in longitudinal, large 
scale databases, provide rich, in-depth resources for researchers 
across the demographic, behavioral, social and population sciences. As 
public resources, these accessible databases enable scientists 
worldwide to conduct research on linkages between family, neighborhood 
and school environments, socio-economic status and behaviors that 
impact health outcomes in particular. Among the most important 
databases are the Add Health Study, the Panel Study of Income Dynamics, 
Fragile Families and Child Well Being.
    Building Scientific Capacity.--Adequate levels of research require 
a robust research workforce. The average investigator is in his/her 
forties before receiving their first NIH grant, a huge disincentive for 
students considering biomedical research as a career. Complicating 
matters, there is a gap between the number of women's reproductive 
health researchers being trained and the need for such research. The 
NICHD-coordinated Women's Reproductive Health Research (WRHR) Career 
Development program seeks to increase the number of ob-gyns conducting 
scientific research in women's health in order to address this gap. To 
date 170 WRHR Scholars have received faculty positions, and 7 new and 
competing WRHR sites were added in 2010.
Conclusion
    We deeply appreciate the consistent interest and support Congress 
has shown for the NIH and NICHD. As your committee moves forward on the 
Labor, HHS Appropriations bill, we urge you to provide NIH and NICHD 
with funding levels that meet current needs for addressing health 
issues across the lifespan. Thank you in advance for your consideration 
of our views and we look forward to continuing to work with you on 
these critical issues.
                                 ______
                                 
  Prepared Statement of the Friends of the National Institute on Drug 
                                 Abuse
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit testimony to the Subcommittee in support of the 
National Institute on Drug Abuse. The Friends of the National Institute 
on Drug Abuse (FON) is a coalition of over 150 scientific and 
professional societies, patient groups, and other organizations 
committed to, preventing and treating substance use disorders as well 
as understanding their causes through the research agenda of the 
National Institute on Drug Abuse (NIDA). We are pleased to provide 
testimony in support of the work carried out by scholars around the 
country whose work is supported by NIDA.
    Drug abuse is costly to Americans; it ruins lives, while tearing at 
the fabric of our society and taking a huge financial toll on our 
resources. Beyond the unacceptably high rates of morbidity and 
mortality, drug abuse is often implicated in family disintegration, 
loss of employment, failure in school, domestic violence, child abuse, 
and other crimes. Placing dollar figures on the problem; smoking, 
alcohol and illegal drug use results in an exorbitant economic cost on 
our Nation, estimated at over $600 billion annually. We know that many 
of these problems can be prevented entirely, and that the longer we can 
delay initiation of any use, the more successfully we mitigate future 
morbidity, mortality and economic burdens.
    Over the past three decades, NIDA-supported research has 
revolutionized our understanding of addiction as a chronic, often-
relapsing brain disease--this new knowledge has helped to correctly 
situate drug addiction as a serious public health issue that demands 
strategic solutions. By supporting research that reveals how drugs 
affect the brain and behavior and how multiple factors influence drug 
abuse and its consequences, scholars supported by NIDA continue to 
advance effective strategies to prevent people from ever using drugs 
and to treat them when they cannot stop.
    NIDA supports a comprehensive research portfolio that spans the 
continuum of basic neuroscience, behavior and genetics research through 
medications development and applied health services research and 
epidemiology. While supporting research on the positive effects of 
evidence-based prevention and treatment approaches, NIDA also 
recognizes the need to keep pace with emerging problems. We have seen 
encouraging trends--significant declines in a wide array of youth drug 
use--over the past several years that we think are due, at least in 
part, to NIDA's public education and awareness efforts. However, areas 
of significant concern, such as prescription drug abuse, remain and we 
support NIDA in its efforts to find successful approaches to these 
difficult problems.
    Recognizing that so many health research issues are inter-related, 
we request that the subcommittee provide at least $32 billion for the 
National Institutes of Health, which is a $1.3 billion or 4.3 percent 
increase over fiscal year 2012. This will allow NIH to keep up with 
inflation. Because of the critical importance of drug abuse research 
for the health and economy of our Nation, we also request that you 
provide a proportionate increase for the National Institute on Drug 
Abuse.
    In addition, to highlight certain priority research areas within 
NIDA's portfolio, we respectfully request that you include the 
following language in the committee report accompanying the fiscal year 
2013 funding recommendation for the National Institute on Drug Abuse:

    ``Medications Development.--With the recent reduction in the 
efforts of the pharmaceutical industry to develop new medications to 
treat diseases of the brain, the Committee encourages NIDA to continue 
to increase their efforts to develop medications to treat diseases of 
addiction. Reasonable success has occurred in the past and recent 
advances in knowledge support this effort.
    ``Translational Research.--The Committee encourages NIDA to 
continue its efforts to increase our knowledge of how genetics, age, 
environment and other factors affect the use of experimental drugs and 
the development of addiction.
    ``Education.--The educational efforts of NIDA to inform the public 
of the deleterious effects of abused substances and the life-
threatening dangers of drug addiction are recognized and encouraged. 
Progress in this area has contributed to the decreased abuse of 
nicotine and its long term medical consequences, including death. 
Adolescents and returning veterans and their families are at a high 
risk for drug abuse and therefore should be areas of concentration for 
these educational efforts.
    ``Prevention and Treatment.--The Committee recognizes the reported 
increase in abuse of marijuana and prescription drugs and encourages 
NIDA to support innovative approaches to prevent and treat this abuse 
and the resulting harmful effects. The concentration in these areas 
should compliment efforts to prevent and treat addiction of all abused 
substances.
    ``Prescription Drug Abuse.--Prescription drug abuse has been the 
focus of much work by NIDA and its grantees and although significant 
progress has been made, the Committee encourages NIDA to maintain its 
comprehensive leadership role in the effort to halt this epidemic.
    ``Military Personnel, Veterans, and Their Families.--The Committee 
commends NIDA for its successful efforts to coordinate and support 
research with the Department of Veterans Affairs and other NIH 
Institutes on substance abuse and associated problems among U.S. 
military personnel, veterans and their families. Many military 
personnel need help confronting war-related problems including 
traumatic brain injury, post-traumatic stress disorder, depression, 
anxiety, sleep disturbances, and substance abuse, including tobacco, 
alcohol and other drugs. Many of these problems are interconnected and 
contribute to individual health and family relationship crises, yet 
there has been little research on how to prevent and treat the unique 
characteristics of wartime-related substance abuse issues. The 
Committee encourages NIDA to continue work in this area.''

    The Nation's previous investment in scientific research to further 
understand the effects of abused drugs on the body has increased our 
ability to prevent and treat addiction. As with other diseases, much 
more needs be done to improve prevention and treatment of these 
dangerous and costly diseases. Our knowledge of how drugs work in the 
brain, their health consequences, how to treat people already addicted, 
and what constitutes effective prevention strategies has increased 
dramatically due to support of this research. However, since the number 
of individuals continuing to be affected is still rising, we need to 
continue the work until this disease is both prevented and eliminated 
from society.
    We understand that the fiscal year 2013 budget cycle will involve 
setting priorities and accepting compromise, however, in the current 
climate we believe a focus on substance abuse and addiction, which 
according to the World Health Organization account for nearly 20 
percent of disabilities among 15-44 year olds, deserve to be 
prioritized accordingly. We look forward to working with you to make 
this a reality. Thank you for your support for the National Institute 
on Drug Abuse.
                                 ______
                                 
              Prepared Statement of the FSH Society, Inc.
    Honorable Chairmen Inouye and Harkin and Ranking Members Cochran 
and Shelby, thank you for the opportunity to submit this testimony.
    I am Daniel Paul Perez, of Bedford, Massachusetts, President and 
CEO of the FSH Society, Inc. and an individual who has lived with 
facioscapulohumeral muscular dystrophy (FSHD) for 49 years. For 
hundreds of thousands of men, women, and children the major consequence 
of inheriting this form of muscular dystrophy is a lifelong progressive 
loss of all skeletal muscles. FSHD is a crippling and life shortening 
disease. No one is immune. It is both genetically and spontaneously 
transmitted to children. It can affect multiple generations and entire 
family constellations.
    I have testified many times before Congress. When I first 
testified, we did not know the mechanism of this disease. Now we do. 
When I first testified, we assumed that FSHD was a rare form of 
muscular dystrophy. Now we understand it to be one of the most, if not 
the most, prevalent form of muscular dystrophy. Congress is responsible 
for this success, through its sustaining support of the National 
Institutes of Health (NIH), enactment of the Muscular Dystrophy CARE 
Act and the collaborations of NIH, the Centers for Disease Control and 
Prevention (CDC), patient groups, and researchers, both here and 
internationally.
    I am testifying in order to document this success and call on 
Congress to take advantage of the system of discovery it has set in 
motion.
Mechanism of FSHD Has Been Described
    On August 19, 2010, Dutch and American researchers published a 
paper which dramatically expanded our understanding of the mechanism of 
FSHD.\1\ The front page story in the New York Times quoted the NIH 
Director, Dr. Francis Collins saying, ``If we were thinking of a 
collection of the genome's greatest hits, this would go on the list.'' 
\2\
---------------------------------------------------------------------------
    \1\ Lemmers, RJ, et al, A Unifying Genetic Model for 
Facioscapulohumeral Muscular Dystrophy, Science 24 September 2010: Vol. 
329 no. 5999 pp. 1650-1653.
    \2\ Kolata, G., Reanimated ``Junk'' DNA Is Found to Cause Disease. 
New York Times, Science. Published online: August 19, 2010 http://
www.nytimes.com/2010/08/20/science/20gene.html.
---------------------------------------------------------------------------
    Two months later, another paper was published that made a second 
critical advance in determining the cause of FSHD.\3\ The research 
shows that FSHD is caused by the inefficient suppression of a gene that 
may be normally expressed only in early development.
---------------------------------------------------------------------------
    \3\ Snider, L., Geng, L.N., Lemmers, R.J., Kyba, M., Ware, C.B., 
Nelson, A.M., Tawil,R., Filippova, G.N., van der Maarel, S.M., 
Tapscott, S.J., and Miller, D.G. (2010). Facioscapulohumeral dystrophy: 
incomplete suppression of a retrotransposed gene. PLoS Genet. 6, 
e1001181.
---------------------------------------------------------------------------
    On January 17, 2012, an international team of researchers led by 
Stephen J. Tapscott, M.D., Ph.D., of the Seattle Fred Hutchinson 
Center's Biology Division, published a third major advance further 
elucidating the mechanisms that can cause the disease genes and 
proteins that damage FSHD muscle cells. The research also discovered 
that one of the genes required for FSHD, called, DUX4 regulates cancer/
testis antigens.\4\ Cancer and testis antigens are abnormally expressed 
in various tumor types, including melanoma and carcinomas of the 
bladder, lung and liver. This allows for the potential of using these 
antigens to create cancer vaccines.
---------------------------------------------------------------------------
    \4\ Geng et al., DUX4 Activates Germline Genes, Retroelements, and 
Immune Mediators: Implications for Facioscapulohumeral Dystrophy, 
Developmental Cell (2012), doi:10.1016/j.devcel.2011.11.013.
---------------------------------------------------------------------------
    This past week has brought five publications with significant 
developments on FSHD. On this day, April 26, 2012, another major 
breakthrough was announced. Researchers who began their careers with 
FSH Society fellowships reported in Cell of an epigenetic activatory 
long non-coding RNA (lncRNA) switch involved in FSHD and human genetic 
disease. This opens the potential to control FSHD by going after the 
master switch that regulates DUX4 and other genes that are necessary to 
cause FSHD. The master switch is a non-protein encoding lncRNA that has 
a normal developmental function and that can cause disease by allowing 
normally quiescent genes to produce too much protein at the wrong time 
and wrong place.\5\ This study published in Cell is important for 
several reasons. First, it further defines a mechanism of disease that 
could help explain the workings of diseases other than FSHD, including 
some forms of diabetes or cancer. Second, it clarifies the mechanism at 
work in FSHD and has identified specific therapeutic targets to achieve 
a treatment for FSHD.
---------------------------------------------------------------------------
    \5\ Cabianca et al., A Long ncRNA Links Copy Number Variation to a 
Polycomb/Trithorax Epigenetic Switch in FSHD Muscular Dystrophy, Cell 
(2012), doi:10.1016/j.cell.2012.03.035.
---------------------------------------------------------------------------
    I am proud to say that many of these researchers have started their 
efforts in FSHD with seed funding from the FSH Society and have 
received continued support from the FSH Society, the National 
Institutes of Health, and the Muscular Dystrophy Association and other 
partners. This shows the power of the collaboration among funders, 
patient groups and researchers to advance the search for cures and 
treatments.
    The renowned FSH Society Scientific Advisory Board (SAB) led and 
chaired by M.I.T. Professor David E. Housman, Ph.D. has made great 
strides in the past 20 years. FSHD had long been thought of as a 
Mendelian disease caused by a defect in a single gene inherited in an 
autosomal dominant fashion. Two decades of work by a small group of 
patients and scientists have shown that, FSHD, is free of damage from 
any protein-encoding gene on the chromosomes that define human life. 
FSH Society seed funding has allowed researchers to understand how FSHD 
works, first in the cell, then at the chromosome level, then at a 
specific address on the chromosome called 4q35, then by discovering 
that the diseases is associated with a shortening or modification of 
repetitive sequences of DNA at 4q35 called D4Z4, then by studying the 
expression of genes and different types of RNA messages from within 
each repeat of D4Z4, and finally how D4Z4 repeat sequences regulate 
gene expression and that mutations and changes of such elements can 
influence the progression of a human genetic disease.
    Even with these breakthroughs, much work remains to be done. Given 
the recent developments in our definition of FSHD, the current 
potential is even greater for intervention strategies, therapeutics, 
and the planning and conducting of trials. We need to be prepared for 
this new era in the science of FSHD by accelerating efforts in the 
following four areas: \6\
---------------------------------------------------------------------------
    \6\ 2011 FSH Society FSHD International Research Consortium, held 
November 7-8, 2011 at DHHS NIH NICHD Boston Biomedical Research 
Institute Senator Paul D. Wellstone MD CRC for FSHD. To read the 
expanded summary and recommendations of the group see: http://
www.fshsociety.org/assets/pdf/
IRCWorkshop2011WorkingConsensusOfPrioritiesGalley.pdf.
---------------------------------------------------------------------------
            Genetics/epigenetics
    It is now broadly accepted that the disregulation of the expression 
of D4Z4/DUX4 plays a major role in FSHD1 (FSHD1A) and FSHD2 (FSHD1B). 
Additional FSHD (modifier) loci are likely to exist.
    FSHD molecular networks.--The relaxation of the chromatin structure 
on permissive chromosome 4 haplotypes leads to activation of downstream 
molecular networks. Importantly, the upstream processes--triggering of 
activation--are equally important. Detailed studies on these processes 
are crucial for insight into the molecular mechanisms of FSHD 
pathogenesis and may contribute to explaining the large intra- and 
interfamily clinical variability. Importantly such work will lead to 
intervention (possibly also prevention) targets.
    Additional FSHD genes.--FSHD2 is characterized by hypomethylation 
of D4Z4 on chromosome 4 as well as chromosome 10. This also leads to 
bursts of DUX4 expression. Identification of the responsible factor 
(gene) and molecular mechanisms is of utmost importance.
            Clinical trial readiness
    It is now broadly accepted that disregulation of the expression of 
D4Z4/DUX4 is at the heart of FSHD1 and FSHD2. This finding opens 
perspectives for intervention along different avenues.
    Clinical Trial Readiness.--Intervention trials are envisaged within 
the next several years. The FSHD field needs to be prepared for this 
crucial step. To design and coordinate this important translational 
process, it was envisaged to install an international task force 
Clinical Trial Readiness (FSHD-CTR), with a proven FSHD-clinician as 
leader.
    Biomarkers.--Sensitive biomarkers are needed to monitor 
intervention: they may also improve diagnosis.
            Model systems
    There are a plethora of cellular and animal models, based on 
different pathogenic (candidate gene) hypotheses. Moreover, the 
phenotypes are very diverse and often difficult to compare with the 
human FSHD phenotype.
    FSHD Model Data Base.--The importance of a systematic database was 
recognized. This data base should contain detailed information on the 
molecular characteristics of the model (design and phenotype).
    Human pathology and bio-banking.--Importantly, this data base 
should also contain well-documented muscle pathology data of patients--
astonishingly difficult to find in the literature. Human cellular 
resources continuously deserve attention.
            Sharing
    Timely sharing of information and resources significantly 
contributes to the progress in the field. There are several initiatives 
that create large repositories of data and resources. Their websites 
should be used for sharing of information (e.g. protocols, guide to 
FSHD muscle pathology (images), model systems, contact information, 
reagents, and resources).
    The pace of discovery and numbers of experts in the field of 
biological science and clinical medicine working on FSHD are rapidly 
expanding. Many leading experts are now turning to work on FSHD not 
only because it is one of the most complicated and challenging problems 
seen in science, but because it represents the potential for great 
discoveries, insights into stem cells and transcriptional processes and 
new ways of treating multiple human diseases.
Surveillance Systems have Improved Understanding of Prevalence
    The consortium, Orphanet, has issued new prevalence data for 
hundreds of orphan diseases in Europe. That report ranks FSHD as the 
most prevalent form of muscular dystrophy.\7\
---------------------------------------------------------------------------
    \7\ Prevalence of rare diseases: Bibliographic data, Orphanet 
Report Series, Rare Diseases collection, November 2011, Number 1: 
Listed in alphabetical order of diseases, http://www.orpha.net/
orphacom/cahiers/docs/GB/
Prevalence_of_rare_diseases_by_alphabetical_list.pdf.
---------------------------------------------------------------------------
    Likewise, the U.S. Centers for Disease Control and Prevention (CDC) 
has presented new data on the prevalence of muscular dystrophies which 
shows FSHD with the second highest prevalence rate 4.4/100,000 (the 
first was myotonic muscular dystrophy.) \8\ \9\ This enhanced 
understanding is due to Congress' foresight in charging CDC to enhance 
its surveillance of muscular dystrophy. We cannot say whether FSHD is 
becoming more prevalent, if the prevalence of other dystrophies such as 
Duchenne's 2.1/100,000 is declining or if older information was just 
inaccurate.\9\ But we can say that congressional action is producing 
better information enabling all of us to make decisions.
---------------------------------------------------------------------------
    \8\ Centers for Disease Control and Prevention. November 7-8, 2011, 
CDC meeting ``Defining a public health approach for muscular dystrophy: 
A model for conditions with high impact/low prevalence''.
    \9\ Centers for Disease Control and Prevention. Prevalence of 
Duchenne/Becker muscular dystrophy among males aged 5-24 years--four 
States, 2007. MMWR Morb Mortal Wkly Rep. 2009 Oct 16; 58(40): 1119-22.
---------------------------------------------------------------------------
Funding Picture has Improved but More is Needed
    Mr. Chairman, these major advances in scientific understanding and 
epidemiological surveillance are not free. They come at a cost. Since 
Congress passed the MD CARE Act, research funding at NIH for muscular 
dystrophy has increased 4-fold. While FSHD research funding has 
increased 12-fold during this period, the level of funding is still 
exceedingly low.

                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal Year
                                     -------------------------------------------------------------------------------------------------------------------
                                        2000      2001      2002      2003      2004      2005      2006      2007      2008     2009     2010     2011
--------------------------------------------------------------------------------------------------------------------------------------------------------
All MD..............................     $12.6     $21       $27.6     $39.1     $38.7     $39.5     $39.9     $47.2      $56      $83      $86      $75
FSHD................................      $0.4      $0.5      $1.3      $1.5      $2.2      $2.0      $1.7      $3         $3       $5       $6       $6
FSHD (percent total MD).............       3         2         5         4         6         5         4         5          5        6        7        8
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: National Institutes of Health (NIH) FSHD Funding and Appropriations.
FSHD Research Dollars (in millions) and FSHD as a Percentage of Total NIH Muscular Dystrophy Funding.
Sources: NIH/OD Budget Office and NIH OCPL and NIH RCDC RePORT.

    We request for fiscal year 2013, a doubling of the 
facioscapulohumeral muscular dystrophy (FSHD) or facioscapulohumeral 
disease research budget at the NIH to $12 million. This will allow an 
expansion of the DHHS NIH Senator Paul D. Wellstone Muscular Dystrophy 
Cooperative Research Centers, an increase in much needed research 
awards, expansion of post-doctoral and clinical training fellowships, 
and a dedicated center to design and conduct clinical trials on animal 
models of FSHD. We need to translate discoveries and treatments for 
FSHD that, according to Dr. Collins ``if we were thinking of a 
collection of the genome's greatest hits, this would go on the list,'' 
\2\ can be rapidly realized if FSHD is one of the diseases that the NIH 
National Center for Advancing Translational Sciences (NCATS), chooses 
to work on.
    Mr. Chairman, the patients and researchers of the FSH Society are 
grateful for the support from Congress and the tremendous efforts of 
many people at the NIH Office of the Director, the National Institute 
of Arthritis and Musculoskeletal and Skin Disease, the National 
Institute on Neurological Disorders and Stroke and the National 
Institute for Child Health and Human Development. We are aware of the 
great pressures on the Federal budget, but cutting the NIH budget and 
research funding for FSHD at this time would be the wrong decision. We 
have come so far with such modest funding. This is not the time to 
lessen our endeavor. This is the time to fully and expeditiously 
exploit the advances for which the American taxpayer has paid.
    As president of a patient organization which raises about $1 
million a year for research, I can tell you that the private sector 
cannot touch the level of funding NIH provides. And we fully appreciate 
your support.
    Thank you for this opportunity to testify before your committee.
                                 ______
                                 
     Prepared Statement of the Global Health Technologies Coalition
    Chairman Rehberg, Ranking Member DeLauro, and members of the 
Committee, thank you for the opportunity to provide testimony on the 
fiscal year 2013 appropriations funding for the National Institutes of 
Health (NIH) and the Centers for Disease Control and Prevention (CDC). 
We appreciate your leadership in promoting the importance of 
international development, in particular global health. We hope that 
your support will continue. I am submitting this testimony on behalf of 
the Global Health Technologies Coalition (GHTC), a group of nearly 40 
nonprofit organizations working together to promote the advancement of 
research and development (R&D) of new global health innovations--
including new vaccines, drugs, diagnostics, microbicides, and other 
tools--to combat global health diseases. The GHTC's members strongly 
believe that to meet the global health needs of tomorrow, it is 
critical to invest in research today so that the most effective health 
solutions are available when we need them. My testimony reflects the 
needs expressed by our member organizations which include nonprofit 
advocacy organizations, policy think-tanks, implementing organizations, 
and many others.\1\ Also, one-third of our members are nonprofit 
product development partnerships (PDPs), which work with partners in 
the private biotechnology, pharmaceutical, and medical device sectors, 
as well as public research institutions, academia, and nongovernmental 
organizations to develop new and more effective life-saving 
technologies for the world's most pressing health issues. We strongly 
urge the Committee to continue its established support for global 
health R&D by (1) sustaining and supporting the U.S. investment in 
global health research and product development, (2) instructing the NIH 
and CDC, in collaboration with other agencies involved in global 
health, to continue their commitment to global health in their R&D 
programs, and to document coordination efforts between agencies for the 
use of Congress and the public, and (3) to encourage the newly formed 
National Center for Advancing Translational Sciences (NCATS) to explore 
supporting all stages of research.
---------------------------------------------------------------------------
    \1\ GHTC member list: http://www.ghtcoalition.org/coalition-
members.php.
---------------------------------------------------------------------------
Critical need for new global health tools
    Our Nation's investments have made historic strides in promoting 
better health around the world: nearly 6 million people living with 
HIV/AIDS now have access to life-saving medicines; new, cost-effective 
tools help us diagnose diseases quicker and more efficiently than ever 
before; and innovative new vaccines are making significant dents in 
childhood mortality. While we must increase access to these and other 
proven, existing health tools to tackle global health problems, it is 
just as critical that we continue to invest in developing the next 
generation of tools to stamp out disease and address current and 
emerging threats. For instance, newer, more robust, and easier to use 
antiretroviral drugs (ARV), particularly for infants and young 
children, are needed to treat and prevent HIV, and even an AIDS vaccine 
that is 50 percent effective has the potential to prevent 1 million HIV 
infections every year. Drug-resistant tuberculosis (TB) is on the rise 
globally, including in the United States, however the only vaccine on 
the market is insufficient at 90 years old, and most therapies are more 
than 50 years old, extremely toxic, and too expensive. New tools are 
also urgently needed to address fatal neglected tropical diseases 
(NTDs) such as sleeping sickness, for which diagnostic tools are 
inadequate and the few drugs available are toxic or difficult to use. 
There are many very promising technology candidates in the R&D pipeline 
to address these and other health issues; however, these tools will 
never be available if the support needed to continue R&D is not 
supported and sustained.
Research and U.S. global health efforts
    The United States is at the forefront of innovation in global 
health technologies. For example, in November 2010, the NIH announced 
the results of the iPrEx clinical trial, a large, multi-country 
research study examining pre-exposure prophylaxis (PrEP).\2\ The study 
found that a daily dose of two anti-retroviral drugs could provide an 
average of 44 percent additional protection to high-risk populations 
who also received a comprehensive package of HIV prevention services. 
Additional studies supported by the CDC and the University of 
Washington confirmed that a daily oral dose of ARV drugs used to treat 
HIV infection can reduce the risk of HIV acquisition among uninfected 
individuals by between 63 and 73 percent.
---------------------------------------------------------------------------
    \2\ iPrex trial. http://www.niaid.nih.gov/news/newsreleases/2010/
Pages/iPrEx.aspx.
---------------------------------------------------------------------------
    The NIH is the largest funder of global health research in the U.S. 
Government, and the agency continues to demonstrate growing interest in 
global health issues, particularly in the area of translational 
research. NIH Director Francis Collins has made global health one of 
his top five priorities for the future of the NIH, and our coalition 
members have been pleased to see this implemented via the launch of a 
new Center for Global Health Studies at the Fogarty International 
Center, new initiatives on global health at the National Cancer 
Institute, and the creation of the new National Center for Advancing 
Translational Sciences (NCATS). Fogarty continues to collaborate with 
the U.S. Department of State's Office of the U.S. Global AIDS 
Coordinator and other agencies on the Medical Education Partnership 
Initiative (MEPI) to develop, expand, and enhance models of medical 
education. This includes enhancing the capacity of local individuals to 
conduct research on global health diseases. Additionally, the Model 
Non-Profit License Agreement for NTDs, HIV, TB, and Malaria 
Technologies was created for nonprofit institutions and PDPs with a 
demonstrated commitment to neglected diseases to apply for the use of 
patented inventions and non-patented biological materials from the NIH 
and the FDA intramural laboratories. Also very recently, a partnership 
between the NIH, the FDA, and GHTC member organization BIO Ventures for 
Global Health has proposed the Global Health Connector--a knowledge 
sharing system for scientists to improve access to valuable compound 
information and data to inform research into neglected tropical 
diseases. Each of these efforts built on the historic work carried out 
by the agency which contributes to improved health around the world.
    With operations in more than 54 countries, the CDC is engaged in 
many global health research efforts. The work of CDC scientists has led 
to major advances against devastating diseases, including the 
eradication of smallpox and early identification of the disease that 
became known as AIDS. Although the CDC is known for its expertise and 
participation in HIV, TB, and malaria programs, it also operates 
several activities for neglected diseases in its National Center for 
Zoonotic, Vector-Borne, and Enteric Diseases. The CDC's Center for 
Global Health employs 1,100 staff members, and has people on the ground 
in 55 countries. The CDC is one of many partners providing support to 
research conducted on the PATH Malaria Vaccine Initiative's RTS,S 
vaccine candidate, as well as vaccine research for dengue and Rift 
Valley Fever. The CDC also conducts important global disease mapping 
and surveillance, including operational research on integrated mapping 
of NTDs over the past year. These activities also increase the 
reliability of estimates of disease burden, measure impact of NTD 
control efforts, and provide a planning tool for national control 
programs. To combat HIV/AIDS, the CDC was involved with the ground-
breaking HIV Prevention Trials Network (HPTN) 052 study, which was the 
first randomized clinical trial to show that treating HIV-infected 
individuals with ART can reduce the risk of sexual transmission of HIV 
to their uninfected partners. Additionally, the CDC's involvement with 
expansion of rapid HIV testing has had a big impact in improving HIV/
AIDS diagnostics. All of these efforts at the CDC and NIH also align 
with the new global health strategy developed by the Office of Global 
Affairs at the U.S. Department of Health and Human Services.
Leveraging the private sector for innovation
    The NIH, CDC, and other U.S. agencies involved in global health R&D 
regularly collaborate with the private sector in developing, 
manufacturing, and introducing important technologies such as those 
described above through public-private partnerships, including product 
development partnerships. These partnerships leverage public-sector 
expertise in developing new tools, partnering with academia, large 
pharmaceutical companies, the biotechnology industry, and governments 
in developing countries to drive greater development of products for 
neglected diseases in which private industries have not historically 
invested. This unique model has generated 16 new global health products 
and has enormous potential for continued success if robustly supported. 
NIH Director Francis Collins has stated that such partnership is key to 
the development of therapies and health tools based on NIH-funded 
research.
Innovation as a smart economic choice
    Global health R&D brings life-saving tools to those who need them 
most, however the benefits of these efforts bring are much broader than 
preventing and treating disease. Global health R&D is also a smart 
economic investment in the United States, where it drives job creation, 
spurs business activity, and benefits academic institutions. Biomedical 
research, including global health, is a $100 billion enterprise in the 
United States. In a time of global financial uncertainty, it is 
important that the United States support industries, such as global 
health R&D, which build the economy at home and abroad.
    History has shown that investing in global health research not only 
saves lives but is also a cost-effective approach to addressing health 
challenges. And an investment made today can help save significant 
money in the future. In the United States alone, for example, polio 
vaccinations during the last 50 years have resulted in a net savings of 
$180 billion, funds that would have otherwise been spent to treat those 
suffering from polio. In addition, new therapies to treat drug-
resistant tuberculosis have the potential to reduce the price of 
tuberculosis treatment by 90 percent and cut health system costs 
significantly. The United States has made smart investments in research 
in the past that have resulted in lifesaving breakthroughs for global 
health diseases, as well as important advances in diseases endemic to 
the United States. We must now build on those investments to turn those 
discoveries into new vaccines, drugs, tests, and other tools.
Recommendations
    In this time of fiscal constraint, support for global health 
research that improves the lives of people around the world--while at 
the same time creating jobs and spurring economic growth at home--
should unquestionably be one of the Nation's highest priorities. In 
keeping with this value, the GHTC respectfully requests that the 
Committee do the following:
  --Sustain and support U.S. investments in global health research and 
        product development within both the CDC and NIH budgets. We ask 
        that this not come at the expense of robust funding for the 
        entire set of global public health accounts, all of which 
        complement each other and ultimately serve the common goal of 
        building a healthier and more prosperous world.
  --Instruct all U.S. agencies in its jurisdiction to continue their 
        commitment to global health in their R&D programs and that 
        leaders at the CDC and NIH work with leaders at other U.S. 
        agencies to ensure that efforts in global health R&D are 
        coordinated, efficient, and streamlined by establishing 
        transparency mechanisms designed to show what global health R&D 
        efforts are taking place and how U.S. agencies are 
        collaborating with each other to make efficient use of the U.S. 
        investment.
  --Request that relevant agencies report on their progress to Congress 
        and that these reports be made publicly available. Past 
        accounting of the health R&D activities at individual agencies, 
        such as the Research, Condition, and Disease Categorization at 
        the NIH, have been very helpful in coordinating efforts between 
        agencies and informing the public and such efforts should be 
        expanded to include neglected disease categorization and 
        extended to provide a comprehensive picture of this investment 
        from all agencies involved in global health R&D. The Committee 
        should request that the CDC and NIH each develop comprehensive 
        strategies to include global health research, product 
        development, and regulation in their activities, in line with 
        the recently released HHS Global Health Strategy.
  --Request that the new National Center for Advancing Translational 
        Sciences (NCATS) explore the benefits of supporting all stages 
        of research instead of stopping at stage two, and that 
        neglected diseases be given the same priority as rare diseases, 
        in order to realize the full potential of the NCATS.
    We respectfully request that the Committee consider inclusion of 
the following language in the report on the fiscal year 2013 Labor, 
Health and Human Services, and Education appropriations legislation:

    ``The Committee recognizes the urgent need for new global health 
technologies in the fight against neglected diseases that 
disproportionately affect low- and middle-income countries, and the 
critical contribution that the NIH, CDC, and FDA make to this through 
health research training operations, research, and regulatory 
capabilities. The Committee also acknowledges the urgent need to 
sustain and support U.S. investment in this important research by fully 
funding these three agencies to carry out their work.
    ``New global health products such as drugs, vaccines, diagnostics, 
and devices are cost-effective public health interventions that play an 
important role in improving global health. The Committee understands 
the positive impact that global health research and development has on 
the U.S. economy through the creation of U.S. jobs and the development 
of foreign markets for U.S. products. The NIH is widely recognized as 
the world leader in basic research, and has supplied invaluable 
breakthroughs that have led to new health tools, saving millions of 
lives globally. Through its Fogarty International Center, the NIH also 
harnesses its wealth of expertise to train the next generation of 
health scientists. The Committee recognizes the important role that 
late-stage research has in fostering the development of urgently needed 
health tools, and encourages the new National Center for Advancing 
Translational Sciences (NCATS) to explore supporting all stages of 
research, particularly for neglected diseases.
    ``The Committee directs the CDC, FDA, and NIH to each develop 
concrete plans to prioritize and incorporate global health research, 
product development, and regulation into the U.S. global health and 
development strategies. These efforts should be undertaken in line with 
the new Health and Human Services (HHS) Global Health Strategy. The 
Committee directs the CDC, FDA, and NIH to work with the Department of 
State, the U.S. Agency for International Development, and the Office of 
the U.S. Global AIDS Coordinator to ensure that these efforts are 
coordinated, efficient, and streamlined across the U.S. Government. The 
CDC, FDA, and NIH shall each make the documentation and results of 
these efforts available to Congress and the public.''

    As a leader in science and technology, the United States has the 
ability to capitalize upon our strengths to help reduce illness and 
death and ultimately eliminate disabling and fatal diseases for people 
worldwide, contributing to a healthier world and a more stable global 
economy. Sustained investments in global health research to develop new 
drugs, vaccines, tests, and other health tools--combined with better 
access to existing methods to prevent and treat disease--present the 
United States with an opportunity to dramatically alter the course of 
global health while building political and economic security across the 
globe.
    On behalf of the members of the GHTC, I would like to extend my 
gratitude to the Committee for the opportunity to submit written 
testimony for the record.
                                 ______
                                 
        Prepared Statement of Goodwill Industries International
    Mr. Chairman, Ranking Member, and Members of the Committee, on 
behalf of Goodwill Industries International (GII), I appreciate this 
opportunity to submit written testimony on Goodwill's fiscal year 2013 
priorities for funding programs administered by the U.S. Departments of 
Labor, Health and Human Services, and Education.
    In 2011, Goodwill raised approximately $4.4 billion in its retail 
stores and other social enterprises and invested 82 percent of its 
privately raised revenues to supplement Federal investments in programs 
that give people the skills they need to reenter the workforce. 
Goodwill provided job training, employment services, and supportive 
services to approximately 4.2 million people, placing nearly 190,000 
people in jobs and employing more than 105,000.
    Now more than ever, with unemployment slowly declining from the 
highest levels experienced in a generation, local Goodwill agencies are 
on the front lines of the fragile recovery assisting people with 
employment barriers, including individuals with disabilities, older 
workers, and Temporary Assistance to Needy Families (TANF) recipients 
who are struggling to find and keep jobs during a stubbornly tight job 
market.
    While Goodwill is proud of these and other achievements, they are 
truly the result of a public-private partnership. As the recovery from 
the worst recession since the Great Depression continues and 
unemployment rates slowly decline from near 10 percent, Goodwill 
Industries understands the difficult challenge that appropriators face 
as they struggle to reduce the deficit while stretching limited 
resources to support an ever-increasing list of national priorities. 
Reducing the deficit is a serious issue that will require all to make 
sacrifices to address the Nation's spending problem while investing in 
integrated strategies that build upon and leverage existing resources 
that will address our Nation's revenue problem.
    While local Goodwill agencies care about a range of Federal funding 
sources, Goodwill urges appropriators to demonstrate that employment 
and training programs are a top priority by providing adequate funding 
for the Workforce Investment Act's adult, dislocated worker, and youth 
funding streams; Community College Partnerships; and the Senior 
Community Service Employment Program (SCSEP).
    Goodwill understands that appropriators face a difficult challenge 
in stretching limited resources to cover an increasing and dynamic 
range of priorities; and Goodwill shares concerns about the Nation's 
mounting debt and the deficit. This year, in particular, Goodwill is 
very concerned that the Budget Control Act's sequestration provision 
could result in an automatic across-the-board cut of approximately 9 
percent. Over the past several years, funding for a number of 
Goodwill's funding priorities has declined significantly, stretching 
resources critically thin. Goodwill is very concerned that decreasing 
funding by an additional 9 percent would have a drastic effect on its 
programs and the people who participate in them.
                        workforce investment act
    Funding for the Workforce Investment Act's youth, adult, dislocated 
worker formulas is one of Goodwill's top funding priorities for fiscal 
year 2013. The U.S. Department of Labor estimates that WIA's three core 
funding streams will help more than 5.2 million people this year to 
receive help finding jobs and accessing education and training that 
aims to improve their future employment prospects. In 2011, 
approximately 125,000 people were referred to local Goodwill agencies 
for employment services through the Workforce Investment Act (WIA).
    Investing 82 percent of its privately raise revenues in 2011, 
Goodwill is doing all it can to supplement the Federal investment in 
job training, employment services, and services that support people's 
efforts to find jobs and advance in careers. In fact, some agencies 
have been doing more than they can by deliberately using their reserves 
in order to provide help to more people than their current revenues 
support. Nevertheless, WIA funds support many agencies' efforts to 
provide skills training, job placement and job retention services to 
people with employment challenges including people with disabilities, 
people who receive welfare, and other job seekers. In addition, several 
agencies are one-stop lead operators or operators in association with 
other service providers. Many agencies are also active on State and 
local workforce boards, and most Goodwill agencies have people referred 
to them through the workforce system.
    The administration's fiscal year 2013 budget proposes approximately 
$2.6 billion for WIA's three main funding streams, and an additional 
$100 million to pay the U.S. Department of Labor's portion of a 
Workforce Innovation Fund to ``support and test promising approaches to 
training, and breaking down program silos, building evidence about 
effective practices, and investing in what works.'' Goodwill believes 
that a Workforce Innovation Fund is a promising idea, is very 
interested in the details, and is encouraged by the administration's 
efforts to increase interagency collaborations and leverage resources 
provided by community-based organizations.
    Goodwill continues to be alarmed by the steady erosion of funding 
for WIA's adult, youth, and dislocated worker funding streams. In 2002, 
when the unemployment rate was 5.8 percent, combined funding for WIA's 
youth, adult, dislocated worker, and funding streams was more than 
$3.67 billion. Ten years later, combined fiscal year 2012 funding for 
WIA's core funding streams and the Workforce Innovation fund is $2.65 
billion--more than $1 billion or 25 percent less than in 2002--yet at a 
time when unemployment remains stubbornly high at more than 8 percent.
    The workforce system is vastly underfunded and preservation of 
WIA's formula funding streams should be a high priority. Therefore, 
Goodwill urges Congress to sustain WIA's adult, dislocated worker, and 
youth funding streams at current funding levels at a minimum. In 
addition, Goodwill supports the administration's proposal to increase 
funding for the Workforce Innovation Fund from $50 million in fiscal 
year 2012 to $100 million in fiscal year 2013.
                     community college partnerships
    Goodwill continues to hear employers express that it remains 
difficult to find workers that have the skills employers seek. In 
response, Goodwill launched the Community College/Career Collaboration 
(C\4\) in 2009 to enhance local agencies' collaboration with community 
colleges to combine their assets and resources to provide easy access 
to education, job training and other supportive services to individuals 
who lack a college or career credential that employers look for.
    Pell grants are an important component of C\4\ because they 
increase access to training and education that lead to high-growth and 
good paying jobs that sustain families and build vibrant communities. 
Therefore the importance of Pell grants has increased dramatically for 
Goodwill. As a result, Goodwill was concerned that the fiscal year 2012 
omnibus appropriations bill included provisions that reduced Pell 
eligibility for many students.
    As members of the Committee know, the administration's fiscal year 
2013 budget proposes to slightly increase the maximum Pell Grant to 
$5,635. In addition, the budget proposes to include up to $8 billion 
for the U.S. Departments of Labor and Education to create a Community 
College Initiative ``to support State and community college 
partnerships with businesses to build the skills of American workers.'' 
Goodwill is intrigued by the proposal and believes that such 
partnerships should leverage the expertise and resources of community-
based organizations that provide the supports students need to develop 
the skills and earn the credentials that employers seek.
    Goodwill urges Congress to protect Pell Grants from efforts to 
further reduce eligibility for many low-income students, and approve 
the President's proposal to increase the maximum Pell Grant to $5,635.
          senior community service employment program (scsep)
    Although the economy is now slowly starting to recover, in 2011, 
millions of people--including more than 2 million who are 55 and older 
were unemployed. Workers who are 55 and older have multiple barriers to 
employment and will be among the last rehired as the economy improves. 
The President's fiscal year 2013 budget again proposes to move SCSEP 
from DOL to the Department of Health and Human Services' Administration 
on Aging. Goodwill is interested in learning more about the move to HHS 
and encourages Congress to debate the proposal when it considers 
reauthorization of the Older Americans Act.
    SCESP helps provide low-income older workers with community 
services employment and private sector job placements. Goodwill is one 
of the newest SCSEP grantees. In 2011, Goodwill's SCSEP participants 
contributed nearly 1.4 million community service hours. Private sector 
placements averaged a starting wage of $9.34 per hour. Individuals 
placed in unsubsidized employment worked an average of nearly 30 hours 
per week. In addition, nearly 35 percent of those placed were into 
positions that offered benefits including health, vacation, and 
retirement.
    Goodwill urges the Subcommittee to increase SCSEP funding by 12 
percent to $500 million. This increase would help absorb increased 
costs and account for an increasing number of people who are over age 
55. Goodwill urges Congress to discuss the proposal to move SCSEP from 
DOL to HHS when it considers reauthorization of the Older Americans 
Act.
                               conclusion
    Goodwill thanks you for considering these requests, and looks 
forward to working with you to help Government meet the serious 
challenges our Nation faces.
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition
    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
recommending $520 million in fiscal year 2013 for the health 
professions education programs authorized under Titles VII and VIII of 
the Public Health Service Act and administered through the Health 
Resources and Services Administration (HRSA). HPNEC is an informal 
alliance of national organizations (https://www.aamc.org/advocacy/
hpnec/members.htm) dedicated to ensuring the healthcare workforce is 
trained to meet the needs of the country's growing, aging, and diverse 
population.
    The Title VII health professions and Title VIII nursing programs 
provide education and training opportunities to a wide variety of 
aspiring healthcare professionals, both preparing them for careers in 
the health professions and helping bring healthcare services to our 
rural and underserved communities. Authorized since 1963, the programs 
are designed to help the workforce adapt to Americans' changing 
healthcare needs. Through loans, loan guarantees, and scholarships to 
students, as well as grants and contracts to academic institutions and 
nonprofit organizations, they are the only Federal programs designed to 
train providers in interdisciplinary settings to meet the needs of the 
country's special and underserved populations, increase minority 
representation in the healthcare workforce, and fill the gaps in the 
supply of health professionals not met by traditional market forces.
    While HPNEC recognizes the Subcommittee faces difficult decisions 
in a constrained budget environment, a continued commitment to programs 
supporting healthcare workforce development should remain a high 
priority. HPNEC's recommendation of $520 million would support 
continuation of all Title VII and Title VIII programs at least at their 
fiscal year 2012 enacted levels, while accommodating additional 
investments recommended by HRSA and HPNEC member organizations based on 
assessments of the Nation's growing workforce needs.
    Residents of underserved rural and urban areas alike already 
struggle to access health providers. Currently, HRSA estimates that 
more than 31,000 additional health practitioners are needed to 
alleviate existing shortages. As the Nation's 77 million baby boomers 
age, they will only require more care; coupled with the millions of 
newly insured individuals entering the system, this increased demand 
for health services will only exacerbate the existing deficit of health 
professionals.
    Failure to fully fund the Title VII and VIII programs would 
jeopardize activities to fill these vacancies and to prepare health 
professionals: to coordinate care for the Nation's expanding elderly 
population; to meet the unique needs of sick and ailing children; to 
practice in rural and other underserved communities; and to improve the 
diversity and cultural competence of the workforce. Given the 
synergistic nature of the programs, significant cuts to or elimination 
of any of the Title VII and Title VIII programs may also reverse the 
progress to date in mitigating such challenges.
    The Title VII and Title VIII programs can be considered in seven 
general categories:
  --The Primary Care Medicine and Oral Health Training programs support 
        education and training of primary care professionals to improve 
        access and quality of healthcare in underserved areas. Two-
        thirds of Americans interact with a primary care provider every 
        year. Approximately one-half of primary care providers trained 
        through these programs work in underserved areas, compared to 
        10 percent of those trained in other programs. The General 
        Pediatrics, General Internal Medicine, and Family Medicine 
        programs provide critical funding for primary care physician 
        training in community-based settings and support a range of 
        initiatives, including medical student and residency training, 
        faculty development, and the development of academic 
        administrative units. The primary care cluster also provides 
        grants for Physician Assistant programs to encourage and 
        prepare students for primary care practice in rural and urban 
        Health Professional Shortage Areas. The General Dentistry, 
        Pediatric Dentistry, and Public Health Dentistry programs 
        provide grants to dental schools and hospitals to create or 
        expand primary care and public health dental residency training 
        programs.
  --Because much of the Nation's healthcare is delivered in remote 
        areas, the Interdisciplinary, Community-Based Linkages cluster 
        supports community-based training of health professionals. 
        These programs are designed to encourage health professionals 
        to return to such settings after completing their training and 
        to encourage collaboration between two or more disciplines. The 
        Area Health Education Centers (AHECs) offer clinical training 
        opportunities to health professions and nursing students in 
        rural and other underserved communities by extending the 
        resources of academic health centers to these areas. AHECs, 
        which leverage State and local matching funds, form networks of 
        health-related institutions to provide education services to 
        students, faculty and practitioners. Geriatric Health 
        Professions programs support geriatric faculty fellowships, the 
        Geriatric Academic Career Award, and Geriatric Education 
        Centers, all designed to bolster the number and quality of 
        healthcare providers caring for older generations. The Graduate 
        Psychology Education program, which supports interdisciplinary 
        training of doctoral-level psychology students with other 
        health professionals, provides mental and behavioral health 
        services to underserved populations (i.e., older adults, 
        children, chronically ill, and victims of abuse and trauma, 
        including returning military personnel and their families), 
        especially in rural and urban communities. The Mental and 
        Behavioral Health Education and Training Grant Program supports 
        the training of psychologists, social workers, and child and 
        adolescent professionals. These programs together work to close 
        the gap in access to quality mental and behavioral healthcare 
        services by increasing the number of trained mental and 
        behavioral health providers since 2002.
  --The Minority and Disadvantaged Health Professionals Training 
        cluster helps improve healthcare access in underserved areas 
        and the representation of minority and disadvantaged 
        individuals in the health professions. Minority Centers of 
        Excellence support increased research on minority health 
        issues, establishment of an educational pipeline, and the 
        provision of clinical opportunities in community-based health 
        facilities. The Health Careers Opportunity Program seeks to 
        improve the development of a competitive applicant pool through 
        partnerships with local educational and community 
        organizations. The Faculty Loan Repayment and Faculty 
        Fellowship programs provide incentives for schools to recruit 
        underrepresented minority faculty. The Scholarships for 
        Disadvantaged Students make funds available to eligible 
        students from disadvantaged backgrounds who are enrolled as 
        full-time health professions students.
  --The Health Professions Workforce Information and Analysis program 
        provides grants to institutions to collect and analyze data to 
        advise future decisionmaking on the health professions and 
        nursing programs. The Health Professions Research and Health 
        Professions Data programs have developed valuable, policy-
        relevant studies on the distribution and training of health 
        professionals, including the Eighth National Sample Survey of 
        Registered Nurses, the Nation's most extensive and 
        comprehensive source of statistics on registered nurses. 
        Reflecting the need for better health workforce data to inform 
        both public and private decisionmaking, the National Center for 
        Workforce Analysis serves as a source of such analyses.
  --The Public Health Workforce Development programs help increase the 
        number of individuals trained in public health, identify the 
        causes of health problems, and respond to such issues as 
        managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies, which 
        receive minimal funding through Medicare GME, provide training 
        in the only medical specialty that teaches both clinical and 
        population medicine to improve community health. This cluster 
        also includes a focus on loan repayment as an incentive for 
        health professionals to practice in disciplines and settings 
        experiencing shortages. The Pediatric Subspecialty Loan 
        Repayment Program offers loan repayment for pediatric medical 
        subspecialists, pediatric surgical specialists, and child and 
        adolescent mental and behavioral health specialists, in 
        exchange for service in underserved areas.
  --The Nursing Workforce Development programs under Title VIII provide 
        training for entry-level and advanced degree nurses to improve 
        the access to, and quality of, healthcare in underserved areas. 
        These programs provide the largest source of Federal funding 
        for nursing education, providing loans, scholarships, 
        traineeships, and programmatic support that, between fiscal 
        year 2005 and 2010, supported over 400,000 nurses and nursing 
        students as well as numerous academic nursing institutions and 
        healthcare facilities. Each year, nursing schools turn away 
        tens of thousands of qualified applications at all degree 
        levels due to an insufficient number of faculty, clinical 
        sites, classroom space, clinical preceptors, and budget 
        constraints. At the same time, the need for nursing services 
        and licensed, registered nurses is expected to increase 
        significantly over the next 20 years. The Advanced Education 
        Nursing program awards grants to train a variety of nurses with 
        advanced education, including clinical nurse specialists, nurse 
        practitioners, certified nurse-midwives, nurse anesthetists, 
        public health nurses, nurse educators, and nurse 
        administrators. Workforce Diversity grants support 
        opportunities for nursing education for students from 
        disadvantaged backgrounds through scholarships, stipends, and 
        retention activities. Nurse Education, Practice, and Retention 
        grants help schools of nursing, academic health centers, nurse-
        managed health centers, State and local governments, and other 
        healthcare facilities to develop programs that provide nursing 
        education, promote best practices, and enhance nurse retention. 
        The Loan Repayment and Scholarship Program repays up to 85 
        percent of nursing student loans and offers full-time and part-
        time nursing students the opportunity to apply for scholarship 
        funds in exchange for 2 years of practice in a designated 
        nursing shortage area. The Comprehensive Geriatric Education 
        grants are used to train RNs who will provide direct care to 
        older Americans, develop and disseminate geriatric curriculum, 
        train faculty members, and provide continuing education. The 
        Nurse Faculty Loan program provides a student loan fund 
        administered by schools of nursing to increase the number of 
        qualified nurse faculty.
  --The loan programs under Student Financial Assistance support 
        financially disadvantaged health professions students. The 
        Nursing Student Loan (NSL) is for undergraduate and graduate 
        nursing students with a preference for those with the greatest 
        financial need. The Primary Care Loan (PCL) program provides 
        loans in return for dedicated service in primary care. The 
        Health Professional Student Loan (HPSL) program provides loans 
        for financially needy health professions students based on 
        institutional determination. These programs are funded out of 
        each institution's revolving fund and do not receive Federal 
        appropriations. The Loans for Disadvantaged Students program 
        provides grants to institutions to make loans to health 
        professions students from disadvantaged backgrounds.
    By improving the supply, distribution, and diversity of the 
Nation's healthcare professionals, the Title VII and Title VIII 
programs not only prepare aspiring professionals to meet the Nation's 
workforce needs, but also help to improve access to care across all 
populations. Further, with the Bureau of Labor Statistics projecting 
that the healthcare industry will generate 3.2 million jobs through 
2018 (more than any other industry), these programs can help 
individuals in reaching their career goals and communities in filling 
their health needs. The multi-year nature of health professions 
education and training, coupled with provider shortages across many 
disciplines and in many communities, necessitate a strong, continued, 
and reliable commitment to the Title VII and Title VIII programs.
    While HPNEC members understand the immense fiscal pressures facing 
the Subcommittee, we respectfully urge support for $520 million for the 
Title VII and VIII programs to ensure the next generation of health 
professionals is equipped to address the Nation's healthcare 
complexities. We look forward to working with the Subcommittee to 
prioritize the health professions programs in fiscal year 2013 and into 
the future.
                                 ______
                                 
           Prepared Statement of the Harm Reduction Coalition
    We thank you for the opportunity to submit testimony regarding 
fiscal year 2013 Appropriations. Our testimony focuses on the urgency 
of scaling up Federal overdose prevention efforts.
    The Centers for Disease Control and Prevention (CDC) reports that 
``Drug overdose death rates in the United States have more than tripled 
since 1990 and have never been higher. In 2008, more than 36,000 people 
died from drug overdoses, and most of these deaths were caused by 
prescription drugs . . . there is currently a growing, deadly epidemic 
of prescription painkiller abuse . . . the misuse and abuse of 
prescription painkillers was responsible for more than 475,000 
emergency department visits in 2009, a number that doubled in just 5 
years.''
    In a recent CDC Morbidity and Mortality Weekly Report (MMWR), 
findings ``suggest that distribution of naloxone and training in its 
administration might have prevented numerous deaths from opioid 
overdoses . . . To address the substantial increases in opioid-related 
drug overdose deaths, public health agencies could consider 
comprehensive measures that include teaching laypersons how to respond 
to overdoses and administer naloxone to those in need.''
    Naloxone is a prescription medication and opioid antidote which 
effectively reverses the effects of an opioid overdose. Within moments 
of its administration, naloxone restores breathing to a normal rate. 
There is no potential for abuse of naloxone and it will cause no effect 
in a person who has not taken opioids. However despite the powerful 
life-saving properties of naloxone, it is underutilized. Many health 
professionals lack awareness of the value of layperson-administered 
naloxone, and do not prescribe it to their patients for whom they have 
prescribed opioids.
    Broader recognition of the signs and symptoms of an overdose--and 
knowledge of how to respond (e.g., rescue breathing, administering 
naloxone, calling emergency services, etc.)--are essential to saving 
lives. HHS, the Department of Justice, and other agencies have been 
working to address prescription drug misuse, abuse, and diversion, but 
there is no coordinated Federal public health effort focused on helping 
the public and health professionals understand the signs and risks of 
overdose and learn how to prevent deaths from drug overdose.
    To that end, as advocates dedicated to preventing deaths from 
opioid overdose, we request that the Subcommittee consider including 
report language in the fiscal year 2013 appropriations bill which urges 
the Department of Health and Human Services and appropriate Federal 
agencies to adopt the following priorities:
  --Take steps to increase awareness of--and access to--the use of 
        Naloxone, a prescription drug that when administered can 
        prevent opioid overdose death. Specifically:
    --All Federal agencies involved in research, policies, regulation, 
            and programs related to opioid misuse should coordinate 
            efforts and develop and disseminate information about 
            naloxone to healthcare professionals, individuals, and 
            families and otherwise take other steps to facilitate its 
            use, so that lives can be saved.
    --The Department of Health and Human Services should coordinate a 
            national public health campaign to increase awareness of 
            the signs and symptoms of overdose and improve 
            understanding of the steps that individuals can take to 
            save the life of someone who is experiencing an overdose. 
            Such a national campaign should include information 
            regarding the use of naloxone, rescue breathing, and 
            calling emergency services, such as 9-1-1 and/or poison 
            control centers.
    --CDC, working in collaboration with the Substance Abuse Mental 
            Health Services Administration (SAMHSA) and the Health 
            Resources and Services Administration (HRSA), should enable 
            best practices, by providing technical assistance and 
            toolkits for community programs and health professionals 
            who wish to distribute naloxone.
  --Increase Federal surveillance and data collection regarding opioid 
        use, misuse, and deaths to ensure that policies and programs 
        are designed to target the actual causes of opioid misuse and 
        death and to monitor the impact of any new efforts on: access 
        to pain management; incidence and prevalence of opioid misuse; 
        and overdose deaths from opioids.
  --Support increased access to--and funding of--drug treatment and 
        recovery.
  --Continue Federal investment in the basic, clinical, and 
        translational research supported by the National Institute of 
        Drug Abuse (NIDA).
    The Harm Reduction Coalition believes that these measures are 
critical to meeting the goal of reversing the overdose epidemic in the 
United States.
    We thank you for your consideration of the important issues.
                                 ______
                                 
      Prepared Statement of the Interstitial Cystitis Association
    Thank you for the opportunity to present the views of the 
Interstitial Cystitis Association (ICA) regarding the importance of 
interstitial cystitis (IC) public awareness activities and research.
    ICA was founded in 1984 and remains the only nonprofit organization 
dedicated to improving the lives of those affected by IC. The 
Association provides an important avenue for advocacy, research, and 
education relating to this painful condition. Since its founding, the 
ICA has acted as a voice for those living with IC, enabling support 
groups and empowering patients. The ICA advocates for the expansion of 
the IC knowledge-base and the development of new treatments, including 
investigator initiated research. Finally, ICA works to educate 
patients, healthcare providers, and the public at large about IC.
    IC is a condition that consists of recurring pelvic pain, pressure, 
or discomfort in the bladder and pelvic region; it is often associated 
with urinary frequency and urgency. This condition may also be referred 
to as painful bladder syndrome (PBS), bladder pain syndrome (BPS), and 
chronic pelvic pain. It is estimated that as many as 12 million 
Americans have IC symptoms, more people than Alzheimer's, breast 
cancer, and autism combined. Approximately two-thirds of these patients 
are women, though this condition does severely impact the lives of men 
as well. IC has also been seen in children; in fact, many adults with 
IC report having experienced urinary problems during childhood. 
However, there has been little information published about children and 
IC, therefore statistics on IC, diagnostic tools, and treatments 
specific to children and IC are very limited.
    The exact cause of IC is unknown and treatment options are limited. 
There is no diagnostic test for IC, so diagnosis is made only after 
excluding other urinary/bladder conditions, possibly causing 1 or more 
years delay between onset of the symptoms and treatment. When 
healthcare providers are not properly educated about IC, patients may 
suffer for years before receiving an accurate diagnosis and appropriate 
treatment.
    The effects of IC are pervasive and insidious, damaging work life, 
psychological well-being, personal relationships, and general health. 
The impact of IC on quality of life is equally as severe as rheumatoid 
arthritis and end-stage renal disease. Health-related quality of life 
in women with IC is worse than in women with endometriosis, vulvodynia, 
and overactive bladder. IC patients have significantly more sleep 
dysfunction, higher rates of depression, anxiety, and sexual 
dysfunction.
    Some studies also suggest that certain conditions occur more 
commonly in people with IC than in the general population. Some of 
these include allergies, irritable bowel syndrome, endometriosis, 
vulvodynia, fibromyalgia, and migraine headaches. Chronic fatigue 
syndrome, pelvic floor dysfunction, and Sjogren's syndrome have also 
been reported.
IC Public Awareness and Education
    As IC is a condition that often takes years diagnosis, patients 
live in pain with no answers for many years. The IC Education and 
Awareness Program at the Centers for Disease Control and Prevention 
(CDC) plays a major role in increasing the public's awareness of this 
devastating disease and is the only program in the Nation which 
promotes public awareness of IC.
    The public outreach of the CDC program includes public service 
announcements on major networks and the Internet. Further, the CDC 
program has provided resources to make information on IC available to 
patients and the public though videos, booklets, publications, 
presentations, educational kits, websites, blogs, Facebook pages, and a 
YouTube channel. For providers, this program has included the 
development of an IC newsletter with information on IC treatments, 
research, news, and events; targeted mailings to providers; and 
exhibits at national medical conferences.
    This program is a source of information for patients whose doctors 
have limited time or information, and many doctors recommend it to 
their patients as a resource. Many doctors are hesitant to treat IC 
patients because of the amount of time it takes to treat the condition 
and the lack of answers available. For this reason, it is especially 
critical for this program to provide patients with information about 
what they can do to manage this painful condition and lead a normal 
life.
    In order to continue these vitally important initiatives, it is 
critical that the CDC IC Education and Awareness Program be continued 
and receive a specific appropriation of $660,000 for fiscal year 2013. 
The ICA also encourages continued support for the National Center for 
Chronic Disease Prevention and Health Promotion, through which the IC 
program is supported.
Research Through the National Institutes of Health
    The National Institutes of Health (NIH), mainly through the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), maintains a robust research portfolio on IC, including five 
major studies that yielded significant new information. The RAND IC 
Epidemiology (RICE) study found that nearly 2.7-6.7 percent of adult 
women have symptoms consistent with IC and will prove important to the 
future development of clinical trials and epidemiological studies. The 
IC Genetic Twin study found environmental factors, rather than genetic 
factors, to be substantial risk factors of developing IC. The Events 
Preceding Interstitial Cystitis (EPIC) study yielded significant 
information linking non-bladder conditions and infectious agents to the 
development of IC in many newly diagnosed IC patients. The findings of 
the EPIC study have been reinforced in a Northwestern University study 
which found that an unusual form of toxic bacterial molecule (LPS) has 
an impact the development of IC as a result of an infectious agent. 
Finally, the Urologic Pelvic Pain Collaborative Research Network 
(UPPCRN) indicated promising results for a new therapy for IC patients.
    Research currently underway also holds great promise to increase 
our understanding of IC, and thus find new treatments and a cure. The 
Multidisciplinary Approach to the Study of Chronic Pelvic Pain (MAPP) 
Research Network holds great potential to understanding the underlying 
issues related to IC, other conditions possibly associated with IC, and 
new information related to flares of the condition. Research at the 
Office of Research on Women's Health (ORWH), specifically through 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health, also shows great promise for learning more about IC. 
Additionally, the investigator-initiated research portfolio will 
continue to support research relating to fundamental issues relating to 
IC and pelvic pain, including new avenues for interdisciplinary 
research and new treatment options. Continued research will assist in 
the development of new treatment and therapies to relieve this 
condition.
    We applaud the recent establishment of the National Center for 
Advancing Translational Sciences (NCATS) at NIH. Housing translational 
research activities at a single Center at NIH will allow these programs 
to achieve new levels of success. Initiatives like CAN are critical to 
overhauling the translational research process and overcoming the 
research ``valley of death'' that currently plagues treatment 
development. In addition, new efforts like taking the lead on drug 
repurposement hold the potential to speed new treatment to patients. We 
ask that you support NCATS and provide adequate resources for the 
Center in fiscal year 2013.
    In order for positive IC research to reach its full potential, it 
is essential that NIH continue to receive funding which will allow it 
to continue and expand on past and current research. For this reason, 
we recommend a funding level of $32 billion for fiscal year 2013. We 
also recommend the continuation of the MAPP study and research focused 
on IC in children.
    Thank you for the opportunity to present the views of the 
interstitial cystitis community.
                                 ______
                                 
    Prepared Statement of the Infectious Diseases Society of America
    The Infectious Diseases Society of America (IDSA) represents more 
nearly 10,000 infectious diseases (ID) physicians and scientists 
devoted to patient care, prevention, public health, education, and 
research. Investment in ID research and public health efforts, through 
lead Department of Health and Human Services (HHS) agencies, can reduce 
healthcare costs, save lives, and create jobs. IDSA urges you to 
provide strong funding for the following agencies:
National Institutes of Health (NIH)
            National Institute of Allergy and Infectious Disease 
                    (NIAID)
    IDSA supports funding for NIH of at least $32 billion for fiscal 
year 2013, as well as an additional $500 million to support NIAID's 
antibacterial resistance and antibacterial drug and diagnostics R&D 
program. NIAID conducts and supports needed research on antibiotic 
resistance as well as research and development (R&D) of new antibiotics 
and diagnostics. Infections are becoming increasingly resistant to 
existing antibiotics, and the number of new antibiotics in development 
has plummeted. NIAID is establishing a vital new clinical trials 
network on antibiotic-resistant infections and it needs sufficient 
funding. The Committee also should urge NIAID to form a blue ribbon 
panel of experts to create an antibacterial resistance strategic plan 
to assist in prioritizing research in this area.
    Advancements in diagnostic tools are needed as well. Rapid point-
of-care diagnostics improve physicians' ability to prescribe 
antibiotics appropriately, which can improve patient care and survival, 
limit the development of resistance, contain healthcare costs, and 
identify patients eligible for antibiotic clinical trials. IDSA 
requests that the Committee report urge NIAID to consult with 
stakeholders to explore the feasibility of creating a biorepository of 
prospectively collected specimens (e.g., tissue, sputum, blood, urine) 
to ease diagnostics R&D by reducing redundant specimen collection and 
assuring quality specimens and data.
    NIAID also plays an important role in funding research leading to 
new types of treatments for tuberculosis, fungal and viral diseases, as 
well as vaccines.
    IDSA remains concerned with limiting the salary of NIH extramural 
researchers to Executive Level II ($179,700--a reduction of $20,000 
from the Executive Level I cap used the past 10 years). The reduction 
will disproportionately affect physician investigators and serve as a 
deterrent to their research careers at a time when we are already 
struggling to remain globally competitive. IDSA urges Congress to 
restore the NIH grantee salary cap to Executive Level I.
Centers for Disease Control and Prevention (CDC)
    IDSA supports at least $7.8 billion in funding for the Centers for 
Disease Control and Prevention's (CDC) programs for fiscal year 2013.
            National Center for Emerging and Zoonotic Infectious 
                    Diseases (NCEZID)
    NCEZID houses CDC's antimicrobial resistance activities. CDC should 
be commended for creating an advisory group of non-government experts 
on antimicrobial resistance. Funding reductions to State and local 
public health laboratories (which are part of the National 
Antimicrobial Resistance Monitoring System--NARMS) hamper efforts to 
track resistance and understand its causes. Public health laboratories 
and PulseNet are also vital to detecting and tracking foodborne disease 
and identifying opportunities to increase food safety. The Emerging 
Infections Program (EIP) is a national resource for surveillance, 
prevention, and control of emerging infectious diseases whose 
activities include bacterial and food borne disease surveillance, 
influenza activities, and efforts to track and prevent healthcare-
associated infections, about 70 percent of which are caused by 
resistant pathogens.
    The United States must improve data collection on antibiotic use to 
define the overuse and misuse of antibiotics that drives resistance. 
Specifically, IDSA recommends that the Committee report encourage CDC, 
in coordination with its partners on the Interagency Task Force on 
Antimicrobial Resistance (ITFAR), to issue a report to Congress 
comparing European and American antibiotic surveillance and data 
collection capacities, including recommendations for the collection of 
more comprehensive data in the United States.
    The adoption of antimicrobial stewardship programs is crucial to 
foster the appropriate use of antibiotics and preserve these drugs' 
effectiveness. The Committee report should urge CDC to work in 
partnership with the Centers for Medicare and Medicaid Services (CMS) 
to continue promoting the uptake of stewardship programs in all 
healthcare facilities.
            National Healthcare Safety Network (NHSN) and the EpiCenter 
                    Program
    IDSA supports the President's request for $27.5 million for NHSN, 
which conducts high-quality tracking and monitoring of deadly 
healthcare-associated infections (HAIs), of which over 70 percent are 
caused by resistant pathogens. NHSN also funds the EpiCenter Program--a 
CDC collaboration with five academic centers focused on developing, 
implementing, and evaluating strategies to improve healthcare quality 
and assure patient safety. Past investment has yielded significant 
healthcare cost-savings and produced more than 150 peer-review 
publications.
            National Center for Immunization and Respiratory Diseases
    Section 317 Immunization Program.--Support for CDC's Section 317 
must be sustained. Section 317 supports access to (including obtaining 
and storing) vaccines, establishment and maintenance of vaccine 
registries, education of providers and the public, and promoting 
vaccination of healthcare workers (HCWs). Of tremendous concern, 
vaccination rates for adults range from 26 percent to 65 percent. 
Registries are one vital tool to improve these rates. Forty-nine States 
have childhood vaccination registries, but only 20 percent of adults 
have immunization information in a registry. The Committee should urge 
CDC to continue helping States expand immunization registries with a 
focus on improving information-sharing about patients' vaccination 
histories across providers and generating vaccination reminders, 
especially for adults.
    It is critical that HCWs receive the influenza vaccination. During 
the last influenza season, 63.5 percent of healthcare workers received 
the influenza vaccination according to CDC. The Committee should urge 
CDC to work in partnership with CMS to ensure that all healthcare 
workers receive the annual influenza vaccination.
            Public Health Preparedness and Response Activities
    CDC plays a central role in public health emergency preparedness 
and response. Funding is needed to provide coordination, guidance and 
technical assistance to State and local governments; support the 
Strategic National Stockpile; strengthen epidemiologic and public 
health laboratory capacity; and provide effective communications during 
an emergency.
            The National Center for HIV, Viral Hepatitis, STD and TB 
                    Prevention
    IDSA supports a minimum increase of $40.2 million for HIV 
prevention and $10 million for viral hepatitis at the CDC. CDC plays a 
vital role in reducing new HIV infections through evidence-based 
prevention, including routine HIV screening. Hepatitis B and C affect 
nearly 6 million Americans and can lead to chronic liver disease, 
cirrhosis, liver cancer and liver failure that claim 15,000 lives each 
year. Increasing rates of gonorrhea are a critical concern because drug 
resistant strains have reduced our ability to treat these infections. 
Outbreaks of tuberculosis (TB) continue to occur throughout the United 
States. Multi-drug-resistant TB poses a particular challenge due to the 
very high costs of treatment. Funding is needed to detect, treat, and 
prevent these infections.
Prevention and Public Health Fund (PPHF)
    The PPHF has filled gaps in core public health funding that should 
be sustained in CDC's base appropriation. The PPHF should be maintained 
for its true purpose--investment in innovative public health efforts. 
The PPHF has made important new investments in epidemiology and 
laboratory capacity; public health workforce training; preventing HIV/
AIDS and viral hepatitis; increasing immunization rates; and reducing 
health care-associated infections.
Assistant Secretary for Preparedness and Response (ASPR)
            Biomedical Advanced Research and Development Authority 
                    (BARDA)
    IDSA supports the administration's proposed $547 million for BARDA. 
BARDA facilitates advanced R&D of medical countermeasures (MCMs), 
including new antibiotics for intentional attacks and naturally 
emerging infections. This funding is particularly needed for antibiotic 
R&D, given the plummeting private investment in this area.
            Independent Strategic Investment Firm
    IDSA also supports the administration's proposal to establish an 
MCM Strategic Investor with an initial funding level of $50 million. 
This new entity will fill a significant void by partnering with small 
``innovator'' companies and private investors to address urgent needs, 
including novel antimicrobials for multidrug-resistant organisms and 
diagnostics.
Designate Leads on Antibiotic Development and Resistance
    The Committee report should urge HHS to designate leaders to fill 
voids and facilitate coordination and expert input into Federal 
antimicrobial resistance efforts by: (1) designating a lead agency to 
explore antibiotic R&D public private collaborations similar to those 
being established in the European Union; (2) establishing a lead office 
and director for the Interagency Task Force on Antimicrobial Resistance 
(ITFAR) and providing funding for the ITFAR to implement its action 
plan; (3) creating an advisory board of non-government experts that 
would work with the ITFAR and its director to establish priorities and 
ensure progress toward achieving their goals; (4) permitting non-
government experts to serve on the US/EU Trans-Atlantic Task Force on 
Antimicrobial Resistance.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders
    Thank you for the opportunity to present the views of the 
International Foundation for Functional Gastrointestinal Disorders 
(IFFGD) regarding the importance of functional gastrointestinal and 
motility disorders (FGIMD) research.
    Established in 1991, IFFGD is a patient-driven nonprofit 
organization dedicated to assisting individuals affected by FGMIDs, and 
providing education and support for patients, healthcare providers, and 
the public. IFFGD also works to advance critical research on FGIMDs in 
order to provide patients with better treatment options, and to 
eventually find cures. IFFGD has worked closely with NIH on many 
priorities, including the NIH State-of-the-Science Conference on the 
Prevention of Fecal and Urinary Incontinence in Adults through the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), the National Institute of Child Health and Human Development 
(NICHD), and the Office of Medical Applications of Research (OMAR). I 
served on the National Commission on Digestive Diseases (NCDD), which 
released a long-range road map for digestive disease research in 2009, 
entitled Opportunities and Challenges in Digestive Diseases Research: 
Recommendations of the National Commission on Digestive Diseases.
    The need for increased research, more effective and efficient 
treatments, and the hope for discovering a cure for FGIMDs are close to 
my heart. My own personal experiences of suffering from FGIMDs 
motivated me to establish IFFGD 20 years ago. I was shocked to discover 
that despite the high prevalence of these conditions among all 
demographic groups worldwide, such an appalling lack of dedicated 
research existed. This lack of research translates into a dearth of 
diagnostic tools, treatments, and patient supports. Even more shocking 
is the lack of awareness among both the medical community and the 
general public, leading to significant delays in diagnosis, frequent 
misdiagnosis, and inappropriate treatments including unnecessary 
medication and surgery. It is unacceptable for patients to suffer 
unnecessarily from the severe, painful, life-altering symptoms of 
FGIMDs due to a lack of awareness and education.
    The majority of FGIMDs have no cure and treatment options are 
limited. Although progress has been made, the medical community still 
does not completely understand the mechanisms of the underlying 
conditions. Without a known cause or cure, patients suffering from 
FGIMDs face a lifetime of chronic disease management, learning to adapt 
to intolerable, disruptive symptoms. The medical and indirect costs 
associated with these diseases are enormous; estimates range from $25-
$30 billion annually. Economic costs spill over into the workplace, and 
are reflected in work absenteeism and lost productivity. Furthermore, 
the emotional toll of these conditions affects not only the individual 
but also the family. FGIMDs do not discriminate, affecting all ages, 
races and ethnicities, and genders.
Irritable Bowel Syndrome (IBS)
    IBS affects 30 to 45 million Americans; conservatively, at least 1 
out of every 10 people. Between 9 to 23 percent of the worldwide 
population suffers from IBS, resulting in significant human suffering 
and disability. IBS as a chronic disease is characterized by a group of 
symptoms that may vary from person to person, but typically include 
abdominal pain and discomfort associated with a change in bowel 
pattern, such as diarrhea and/or constipation. As a ``functional 
disorder,'' IBS affects the way the muscles and nerves work, but the 
bowel does not appear to be damaged on medical tests. Without a 
definitive diagnostic test, many cases of IBS go undiagnosed or 
misdiagnosed for years. It is not uncommon for IBS suffers to have 
unnecessary tests and treatments, including surgery, before receiving a 
proper diagnosis. Even after IBS is identified, treatment options are 
sorely lacking and vary widely from patient to patient. What is known 
is that IBS often requires a multidisciplinary approach to research and 
treatment.
    IBS can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
this disorder may distance themselves from social events and work, and 
may even fear leaving their home. Stigma surrounding bowel habits may 
act as barrier to treatment, as patients are not comfortable discussing 
their symptoms with doctors. Because IBS symptoms are relatively common 
and not life-threatening, many people dismiss their symptoms or attempt 
to self-medicate with over-the-counter medications. In order to 
overcome these barriers to treatment, ensure more timely and accurate 
diagnosis, and reduce costly, unnecessary procedures, outreach to 
physicians and the general public remains critical.
Fecal Incontinence
    At least 12 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly; it crosses all age groups from children 
to older adults, but is more common among women and the elderly of both 
sexes. Often it is a symptom associated with neurological diseases and 
many cancer treatments. Yet, as a society, we rarely hear or talk about 
the bowel disorders associated with spinal cord injuries, multiple 
sclerosis, diabetes, prostate cancer, colon cancer, uterine cancer, and 
other diseases.
    Causes of fecal incontinence include: damage to the anal sphincter 
muscles, damage to the nerves of the anal sphincter muscles or the 
rectum, loss of storage capacity in the rectum, diarrhea, or pelvic 
floor dysfunction. Several of these injuries may occur as a result of 
military service. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most attempt to hide the 
problem for as long as possible. They withdraw from friends and family, 
and often limit work or education efforts. Incontinence in the elderly 
burdens families and is the primary reason for nursing home admissions, 
an already significant social and economic burden in our aging 
population.
    In November 2002, IFFGD sponsored a consensus conference entitled, 
Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities. 
Among other outcomes, the conference resulted in six key research 
recommendations including more comprehensive identification of quality 
of life issues, improved diagnostic tests for affecting management 
strategies and treatment outcomes, development of new drug treatment 
compounds, development of strategies for primary prevention of fecal 
incontinence associated with childbirth, and attention to the stigmas 
that apply to individuals with fecal incontinence.
    In December 2007, IFFGD collaborated with NIDDK, NICHD, and OMAR on 
the NIH State-of-the-Science Conference on the Prevention of Fecal and 
Urinary Incontinence in Adults. The goal of this conference was to 
assess the state of the science and outline future priorities for 
research on both fecal and urinary incontinence, including the 
prevalence and incidence of fecal and urinary incontinence, risk 
factors and potential prevention, pathophysiology, economic and quality 
of life impact, current tools available to measure symptom severity and 
burden, and the effectiveness of both short and long term treatment. 
More research in these priority areas is necessary to improve the lives 
of those who suffer from fecal incontinence.
    NIDDK recently launched a Bowel Control Awareness Campaign (BCAC) 
to educate the public about fecal incontinence. This campaign provides 
resources for healthcare providers, information about clinical trials, 
and information about lifestyle changes and advice for individuals 
suffering from bowel control issues. The BCAC is an important step in 
reaching out to patients, and we encouraged continued support for this 
campaign. Further research on fecal incontinence is critical to improve 
patient quality of life and implement the research goals of the NCDD.
Gastroesophageal Reflux Disease (GERD)
    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
stomach contents into the esophagus. GERD is often accompanied by 
persistent symptoms, such as chronic heartburn and acid regurgitation. 
Sometimes there are no apparent symptoms, and the presence of GERD is 
revealed when complications become evident. One uncommon but serious 
complication is Barrett's esophagus, a potentially pre-cancerous 
condition. Symptoms of GERD vary from person to person. The majority of 
people with GERD have mild symptoms, with no visible evidence of tissue 
damage and little risk of developing complications. There are several 
treatment options available for individuals suffering from GERD. 
Nonetheless, treatment is not always effective, and long-term 
medication use and surgery expose individuals to risks of side-effects 
or complications.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 8 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.
Gastroparesis
    Gastroparesis, or delayed gastric emptying, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting, or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions, including being present in 
30 percent to 50 percent of patients who have diabetes mellitus. A 
person with diabetic gastroparesis may have episodes of high and low 
blood sugar levels due to the unpredictable emptying of food from the 
stomach, leading to diabetic complications. Other causes of 
gastroparesis include Parkinson's disease and some medications. In many 
patients, the cause of the gastroparesis cannot be found and the 
disorder is termed idiopathic gastroparesis.
Cyclic Vomiting Syndrome
    Cyclic vomiting syndrome (CVS) is a disorder with recurrent 
episodes of severe nausea and vomiting interspersed with symptom free 
periods. The periods of intense, persistent nausea, vomiting, and other 
symptoms (abdominal pain, prostration, and lethargy) last hours to 
days. Previously thought to occur primarily in pediatric populations, 
it is increasingly understood that this crippling syndrome can occur in 
a variety of age groups including adults. Patients with these symptoms 
often go for years without correct diagnosis. CVS leads to significant 
time lost from school and from work, as well as substantial medical 
morbidity. The cause of CVS is not known. Better understanding, through 
research, of mechanisms that underlie upper gastrointestinal function 
and motility involved in sensations of nausea, vomiting, and abdominal 
pain is needed to help identify at-risk individuals and develop more 
effective treatment strategies.
Support for Critical Research
    IFFGD urges Congress to fund the NIH at level of $32 billion for 
fiscal year 2013. Strengthening and preserving our Nation's biomedical 
research enterprise fosters economic growth and supports innovations 
that enhance the health and well-being of the Nation. Concurrent with 
overall NIH funding, the IFFGD supports growth of research activities 
on FGIMDs, particularly through NIDDK. Increased support for NIDDK will 
facilitate necessary expansion of the research portfolio on FGIMDs 
necessary to grow the medical knowledge base and improve treatment. 
Such support would expedite the implementation of recommendations from 
the NCDD. It is also vital for NIDDK to work with NICHD to expand its 
research on the impact these disorders have on pediatric populations. 
Following years of near level-funding at NIH, research opportunities 
have been negatively impacted across all NIH Institutes and Centers. 
Without additional funding, medical researchers run the risk of losing 
promising research opportunities.
    We applaud the recent establishment of the National Center for 
Advancing Translational Sciences (NCATS) at NIH. Housing translational 
research activities at a single Center at NIH will allow these programs 
to achieve new levels of success. Initiatives like Cures Acceleration 
Network (CAN) are critical to overhauling the research process and 
overcoming the gap in translating basic into clinical research that 
currently plagues treatment development. In addition, new efforts like 
taking the lead on drug repurposement hold the potential to speed new 
treatment to patients. We ask that you support NCATS and provide 
adequate resources for the Center in fiscal year 2013.
    Thank you for the opportunity to present these views on behalf of 
the FGIMD community.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    We are writing in opposition to the fiscal year 2013 budget request 
for the Mine Safety and Health Administration (MSHA), which is part of 
the U.S. Department of Labor. In particular, we urge the subcommittee 
to reject MSHA's proposed reduction of $5 million for grants to States 
for safety and health training of our Nation's miners pursuant to 
section 503(a) of the Mine Safety and Health Act of 1977. Over the past 
several fiscal years, MSHA's budget request for State grants was 
approximately $9 million, which approached the statutorily authorized 
level of $10 million but still did not fully consider inflationary and 
programmatic increases being experienced by the States. We therefore 
urge the subcommittee to restore funding to the statutorily authorized 
level of $10 million for State grants so that States are able to meet 
the training needs of miners and to fully and effectively carry out 
State responsibilities under sections 502 and 503(a) of the Act.
    The Interstate Mining Compact Commission is a multi-state 
governmental organization that represents the natural resource, 
environmental protection and mine safety and health interests of its 24 
member States. The States are represented by their Governors who serve 
as Commissioners.
    IMCC's member States are concerned that without full funding of the 
State grants program, the federally required training for miners 
employed throughout the United States will suffer. States are 
struggling to maintain efficient and effective miner training and 
certification programs in spite of increased numbers of trainees and 
the incremental costs associated therewith. State grants have flattened 
out over the past several years and are not keeping pace with 
inflationary impacts or increased demands for training. The situation 
will likely be further exacerbated by new statutory, regulatory and 
policy requirements that grow out of the various reports and 
recommendations attending the Upper Big Branch accident.
    In MSHA's own budget justification document (at page 72), the 
agency states that: ``Training plays a critical role in preventing 
deaths, injuries, and illnesses on the job. By providing effective 
training, miners are able to recognize possible hazards and understand 
the safe procedures to follow. MSHA will continue its increased 
visibility and emphasis on training because it is critically important 
to making progress in reducing the number of injuries and fatalities.'' 
Furthermore, in a March 5, 2012 communication to State training grant 
recipients, MSHA specifically asked for the States' assistance ``by 
including in your training, as appropriate, information on the [``Rules 
To Live By'' campaign].'' In this same letter, MSHA went on to note 
that ``the number of miners you reach yearly through the training your 
program provides makes your contribution to the success of the program 
all that more important.''
    We are mystified about how MSHA intends to accomplish these stated 
objectives without the training programs that are provided by the 
States pursuant to the grants they receive from MSHA--as has been the 
case since the enactment of the Mine Safety and Health Act in 1977. By 
way of an explanation for the drastic cut to training grants, MSHA 
states on page 73 of its budget justification document that because of 
the ``higher priorities'' placed on its enforcement activities, $5 
million will be ``reallocated'' and that it will ``shift responsibility 
for training back to mine operators.'' As a follow on, MSHA recognizes 
that some training services now provided by States will be ``reduced or 
eliminated'' and that ``operators will become more actively involved 
with their training or find other resources to provide training.'' This 
appears to be an effort by MSHA to begin shifting training 
responsibilities and costs entirely to mine operators. While this idea 
may have merit, we are uncertain about the ability of the mining 
industry to accommodate these new costs (especially small operators) 
and suspect that any realignment of training responsibilities from the 
States to the industry will take considerable time and planning. 
Furthermore, our experience over the past 35 years has demonstrated 
that the States are often in the best place to design and offer this 
training in a way that insures that the goals and objectives of 
sections 502 and 503 of the Mine Safety and Health Act are adequately 
met.
    The first time that the States became aware of this effort to shift 
responsibilities for miner training (and to reduce State grants) was 
upon the release of the Department of Labor's budget on February 13. 
There have been no discussions with the States about the impacts that 
this proposal will have on State training programs or about any sort of 
transition in the way we are currently doing business. To propose such 
a dramatic shift without first consulting the States is inappropriate 
and a denigration of the role the States have played in protecting our 
Nation's miners. Furthermore, to expect such a drastic change in 
operations to occur within a single fiscal year is unrealistic and will 
only result in confusion and potential negative impacts to the 
availability and quality of miner training.
    While we can appreciate MSHA's desire to realign its resources to 
focus on inspection and enforcement, one of the most effective ways to 
insure miner health and safety in the first place is through 
comprehensive and excellent training. MSHA Assistant Secretary Main 
specifically spoke to this in a recent letter he sent to State grant 
recipients wherein he stated: ``As in the past, we are reaching out to 
the grantees, recognizing the positive impact you have in delivering 
training to miners. I am asking that you incorporate, as appropriate, 
training on these types of [fatal] accidents as well as measures needed 
to prevent them. Increased training and awareness is necessary if we 
are to prevent these types of deaths.'' The States have been in the 
forefront of providing this training for over 35 years and are best 
positioned to continue that work into the future. Furthermore, the 
Federal Government's relatively modest investment of money in 
supporting the States to handle this training has paid huge dividends 
in protecting lives and preventing injuries. The States are also able 
to provide these services at a cost well below what it would cost the 
Federal Government to do so.
    As you consider our request to reject MSHA's proposed cut and 
instead to increase MSHA's budget for State training grants, please 
keep in mind that the States play a particularly critical role in 
providing special assistance to small mine operators (those coal mine 
operators who employ 50 or fewer miners or 20 or fewer miners in the 
metal/nonmetal area) in meeting their required training needs. This has 
been a particular focus in those States where metal/non-metal mining 
operations predominate. These are often small operators who cannot 
afford to offer the comprehensive training that is required under 
Section 502 of the Mine Safety and Health Act. Given this 
administration's articulated concerns about the impacts of regulatory 
decisions on small businesses, it is surprising that MSHA would propose 
significant cuts to the training that States provide to these small 
operators. Some States have also recently received requests from the 
VFW to provide ``new miner training'' for returning war veterans in 
order to prepare them for potential employment in the mining industry. 
Without the funding provided to States by MSHA, this may be difficult 
to accomplish in a timely manner, if at all.
    We appreciate the opportunity to submit our views on the MSHA 
budget request as part of the overall Department of Labor budget. 
Please feel free to contact us for additional information or to answer 
any questions you may have.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Good morning to the distinguished Committee Members. Thank you for 
this opportunity. I am honored to present the appropriations request of 
the Lummi Nation for fiscal year 2013.
                         background information
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third largest Tribe in Washington State serving a 
population of over 5,200. The Lummi Nation is a fishing Nation. We have 
drawn our physical and spiritual sustenance from the marine tidelands 
and waters for hundreds of thousands of years. Now the abundance of 
wild salmon is gone, and the remaining salmon stocks do not support 
commercial fisheries. Consequently, our fishers are trying to survive 
off the sale of shellfish products. In 1999 we had 700 licensed fishers 
who supported nearly 3,000 tribal members. Today, we have about 523 
remaining. This means that over 200 small businesses in our community 
have gone bankrupt in the past 15 years. This is the inescapable 
reality the Lummi Nation fishers face without salmon. We were the last 
surviving society of hunters/gatherers within the contiguous United 
States, but we can no longer survive living by the traditional ways of 
our ancestors.
              lummi specific requests--department of labor
    Direct the DOL Office of Indian Energy, Economic and Workforce 
Development to work with the Lummi Nation in support of its 
comprehensive Fisherman's Cove Harbor and Working Water Front Project 
which addresses Indian Energy, Economic and Workforce Development needs 
of the Lummi Nation membership.
    Unemployment on the reservation has been very difficult to address 
with limited on-reservation jobs. Tribal governments need to be able to 
meet the employment and training needs of our membership as well as the 
business development needs of our communities. This is the objective of 
the Lummi Nation Fisherman's Cove Harbor and Working Waterfront 
Project. We need financial assistance to enable our membership to get 
the job skills the local (Reservation and Non-Reservation) labor market 
demands. The Lummi Nation needs to fully develop the Working Waterfront 
Project for the benefit of and to create jobs for the Lummi Nation 
fishers, members and others invested in the marine economy of the 
extreme northwest corner of the United States.
    lummi specific requests--department of health and human services
    Implement ACA and IHCIA.--Direct the Department and the U.S. Indian 
Health Services to fully and completely implement the Indian Specific 
provision of the Affordable Care Act and the newly reauthorized Indian 
Health Care Improvement Act (IHCIA).
    Affordable Care Act and newly reauthorized Indian Health Care 
Improvement Act.--Tribes are dismayed by the lack of support they have 
received in the development and implementation of the following:
  --Long Term and Community Based Care.--The authorization of long term 
        and community based care Tribal communities are among the last 
        to receive access to this all important healthcare option.
  --Tribal Medicaid Program Demonstration Project.--The Act authorizes 
        a demonstration project to enable Tribes to demonstrate their 
        ability to successfully plan, develop, implement and operate 
        Medicaid Programs for the benefit of their membership.
  --Healthcare Insurance Exchanges.--To support the planning 
        development, implementation and operation of tribes as 
        providers of healthcare insurance on the same basis as State 
        are receiving this technical and financial assistance from the 
        Department.
    Support for full and complete implementation of the Indian Specific 
provision of the Lummi Nation requests the committee support the SAMHSA 
Proposed Tribal Block Grant to combat Drug Epidemic among the Lummi 
Nation membership.
    Wellness is the #1 Priority of the Council in 2012-13.--Drug abuse 
is at epidemic proportions on the Lummi Reservation. The proximity of 
the Lummi Reservation to the United States and Canadian borders makes 
for a key ingredient in successful drug trafficking. With that prime 
ingredient add production, transportation, distribution, abuse and drug 
related crimes . . . this is our reality where my people are becoming 
prisoners in our own homes.
    What We Have Done: Our people are seeking a return to health 
through massive consumption of Lummi Nation Health Care resources. We 
have increased the number of Tribal members receiving substance abuse 
treatment and mental health counseling.
    What We Still Need: We are not equipped to keep pace with the 
increasing access and use of heroin and other opiate additive drugs 
that have besieged our ports, borders, communities and citizens. Lummi 
Nation and other Tribes cannot successfully compete with politically 
connected communities and interest groups which receive the majority of 
the funding that is available through the State block grant system. We 
need assistance to secure funding to plan develop, construct and 
implement, programs services and facilities needed to improve health 
and safety in our communities.
    Reauthorization of Head Start.--Lummi Nation is very interested in 
the process of reauthorizing the Head Start Act. Lummi has operated a 
Head Start programs since 1966. Several members of the current elected 
Lummi Nation Tribal Council are graduates of Lummi Nation Head Start.
    Self-governance Option.--Lummi Nation requests that Tribes have an 
option to receive their Head Start program funding as a transfer of 
funds from the Federal Government to the Tribal government on a 
government-to-government basis. All Head Start funding is allocated on 
a continuing basis consistent with the current operations of Self-
Governance Tribes. The Head Start Program has evolved away from its 
original grant based allocation system but has yet to remove the grant 
documents from its award system. It is a grant that acts like a 
transfer of funds.
    Designation Issues.--Tribal governments must not be subject to the 
re-designation process as Grantees for Head Start Program. Due to the 
unique culture of Tribal people, only those competent in the local 
tribal culture are able to assess and assist in the development of 
Tribal children. This is not a job that can be performed by others. We 
ask that the regulations promulgated last year regarding re-designation 
of tribal programs be withdrawn and replaced with regulations that make 
it clear that only service providers who are known to the Tribe and 
approved by the Tribe are eligible participants, in any designation 
and/or re-designation process.
    Head Start Facility.--The Lummi Nation has successfully completed 
several quality improvement plans required as a result of the Head 
Start performance Reviews. Each time we have not been able to address 
the deficits of our Head start Facility. The Tribe has secured a loan 
in the amount of $4.2 million to build a new and expanded Head Start 
Facility. However to meet Head Start performance standards the Tribe 
needs another $1.2 million. This amount will insure that four 
classrooms in the proposed facility will be suitable for special needs 
children. This amount is beyond the Tribe's ability to increase its 
debt load and must be contributed by other sources. Lummi Nation needs 
additional financial assistance to complete this long over-due project.
            lummi specific requests--department of education
    Head Start for Tribal Development--New Head Start Facility.--The 
Lummi Nation requests that the Committee directs BIE and DHHS, 
Children's Bureau support the construction of a new Head Start/day care 
facility for the Lummi Nation membership with technical and financial 
assistance. Lummi has operated a Head Start program since 1966 in the 
same facility. Successive Head Start Performance reviews have 
consistently identified the building as not meeting Head Start 
Performance standards. The Tribe is seeking gap financing in the amount 
of $1.2 million to complete the proposed new facility. These additional 
costs are generated by Head Start Performance and tribal Child Care 
Facility Standards.
    Head Start Program.--Head Start is a development program which is 
supports many early educational objectives. But it is first and 
foremost a child and family development program. The Lummi Nation does 
not support the proposal to transfer the Head Start Program to the 
Department of Education.
    BIE Memorandum of Understanding.--The Lummi Nation is aware that 
the Bureau of Indian Education and the Department of Education are 
close to signing a memorandum of understanding regarding the role of 
the Department of Education in the Bureau operate school system. The 
Lummi Nation notes that no tribes were involved in the development of 
the MOU and that no tribes will be involved in the operation of the 
MOU. This is not acceptable. Tribal governments do not rely on the BIA 
or the BIE to operate their schools. Most of the school operated by the 
Bureau of Indian Education are contract or grant schools which are 
actually operated by Tribal governments. Tribal people sit on our Board 
of Education and Tribal parents participate in the education of their 
children. We firmly object to any action directed at us taken without 
us.
    Revise Federal education laws to strengthen teaching about family 
violence/children violence in a school curricula--initiate renewed 
America by strengthening family values to teaching that all forms of 
violence hurts everyone, not only children.
    Thank you for this opportunity to provide these appropriations 
priorities of the Lummi Nation.
                                 ______
                                 
   Prepared Statement of the Mesothelioma Applied Research Foundation
    Chairman Harkin and Members of the subcommittee, I am grateful for 
the opportunity to provide written testimony. My name is Bonnie 
Anderson and I suffer from peritoneal mesothelioma. I am testifying on 
behalf of the mesothelioma community composed of patients, physicians, 
caregivers and family members. I would like to take this time to stress 
the importance of increased funding for the National Institutes of 
Health (NIH), including the National Cancer Institute (NCI), and the 
Centers for Disease Control and Prevention (CDC), both of which play a 
critical role in finding and delivering treatments for mesothelioma.
    Mesothelioma is an aggressive cancer known to be caused by exposure 
to asbestos. Doctors say it is among the most painful and fatal of 
cancers, as it invades the chest, abdomen and heart, and crushes the 
lungs and vital organs.
    Early in 2001, I began to experience severe stomach pain, diarrhea 
and other general symptoms. These were treated as irritable bowel 
syndrome. Treatment, which included anti-spasmodics and pain 
medication, proved ineffective. I underwent a ridiculous amount of 
tests: blood work, gynecological work-ups, a scope of my bladder, both 
upper and lower GI colonoscopy and endoscopy. After performing the 
latter, my gastroenterologist suggested exploratory surgery, but the 
surgeon thought it unnecessary. A barium enema followed by an X-ray 
also revealed nothing. Another gastroenterologist ordered a CAT scan.
    Finally, in December 2001 my abdomen filled up with ascites. Again 
a CAT scan was ordered, and my gastroenterologist attempted to remove 
the fluid. The procedure was so painful the specialist had to end it 
before he was able to withdraw all of the fluid. Tests taken from the 
fluid returned negative for any cancer cells. But I was still in pain, 
the pressure was horrible and unreal. In February 2002, I was sent to a 
surgeon for a laparoscopy. The surgeon removed 6 liters of fluid and 
was able to see what he described as indoor-outdoor carpet spread all 
over the lining of the abdomen. Before I left the operating room, he 
asked the hospital's pathology department to confirm that he was indeed 
viewing what he suspected: mesothelioma. Pathology confirmed his 
assessment. Though he had been in practice for many years, the surgeon 
confessed he had never seen mesothelioma before--except in a textbook. 
When I woke up, he told my husband John and me the news.
    When we first heard the word ``mesothelioma,'' we didn't know what 
it was. Then the doctor explained it in one word: ``cancer.'' The harsh 
reality for patients with advanced primary peritoneal cancer is a 
median survival time of 12.3 months; 5 year survivals are rare. 
Peritoneal affects the lining of the abdomen. Patients with pleural 
mesothelioma, which affects the lining of the lungs, comprise 85 
percent of the mesothelioma population and face an even more grim 
survival time of only 9 months. Many never have the opportunity to 
speak for themselves like this. I am here 10 years after my diagnosis. 
Fortunately, I am the exception.
    At the time, I was told I had about 6 months to live. With that 
information, my decision was to go into a clinical trial. I 
participated knowing I could face devastating side effects but with the 
hope I could help doctors learn how to treat mesothelioma and possibly 
live a while longer. I am willing to do anything to save my life and 
add precious more minutes to my time with my family. I went through 
many agonizing rounds of appeals with my insurance company in order to 
cover my surgeries and experimental treatment, but I felt this was the 
best course of treatment. I knew if I was going to die from 
mesothelioma, I was going to put it to good use in a clinical trial.
    There are brilliant researchers dedicated to mesothelioma. The Food 
and Drug Administration (FDA) has now approved one drug which has some 
effectiveness, proving that the tumor is not invincible. Biomarkers are 
being identified. Two of the most exciting areas in cancer research--
gene therapy and biomarker discovery for early detection and 
treatment--look particularly promising in mesothelioma. The 
Mesothelioma Applied Research Foundation has made a significant 
investment, funding a total of $7.6 million to support research in 
hopes of giving researchers the first seed grant they need to get 
started. We need the continued partnership with the Federal Government 
to develop the promising findings into effective treatments.
    There are currently several promising research initiatives that are 
giving hope to mesothelioma patients:
  --A vaccine is being developed that would induce an immune response 
        against WT1, a tumor suppressor gene highly expressed in 
        mesothelioma patients. A pilot trial is being conducted in 
        patients with mesothelioma to show that it is safe and 
        immunogenic.
  --The National Mesothelioma Virtual Bank has been established due to 
        a grant from the Centers on Disease Control and Prevention's 
        National Institute on Occupational Safety and Health. The 
        Virtual Bank allows researchers to access a virtual biospecimen 
        registry which supports and facilitates research and 
        collaboration.
    It is efforts like these that give me faith. I am grateful for the 
Federal Government's investment in mesothelioma research and I want to 
see it continued and increased.
    In 2010, the National Cancer Institute funded $8.3 million in 
mesothelioma research. This is a 6 percent decrease from the 2009 
funding level, which had declined 14 percent from 2008. This steady 
decline in funding terrifies me as a patient anxiously awaiting 
development of new treatments. At this juncture unless researchers have 
the funds to continue, patients like myself will have run out of 
treatment options and will die from this disease.
    I pray that improved treatments are developed--ones that aren't so 
severe and work better! I hope that future patients don't have to 
suffer the trial and error approach to being properly diagnosed and 
treated that I endured. More than anything, I wish there was a cure.
    The mesothelioma community asks that the Subcommittee recognize the 
National Institutes of Health (NIH) as a critical national priority by 
providing at least $32 billion in funding in the fiscal year 2013 
Labor-HHS-Education appropriations bill. This funding recommendation 
represents the minimum investment necessary to avoid further loss of 
promising research and at the same time allows the NIH's budget to keep 
pace with biomedical inflation.
    I look to the Labor, Health and Human Services, Education and 
Related Agencies Appropriations subcommittee to provide continued 
leadership and hope to the people like me who develop this deadly 
cancer. You have the power to lead this battle against meso. Thank you 
for the opportunity to submit testimony and for funding the National 
Institutes of Health and the National Cancer Institute at the highest 
possible level so that patients receiving this deadly diagnosis of 
mesothelioma may survive.
                                 ______
                                 
          Prepared Statement of the March of Dimes Foundation
    The 3 million volunteers and 1,200 staff members of the March of 
Dimes Foundation appreciate the opportunity to submit Federal funding 
recommendations for fiscal year 2013. The March of Dimes was founded in 
1938 by President Franklin D. Roosevelt to support research to prevent 
polio. Today, the Foundation aims to improve the health of women, 
infants and children by preventing birth defects, premature birth, and 
infant mortality through scientific research, community services, 
education and advocacy. The March of Dimes is a unique partnership of 
scientists, clinicians, parents, members of the business community and 
other volunteers affiliated with 51 chapters and 213 divisions in every 
State, the District of Columbia and Puerto Rico. The March of Dimes 
recommends the following funding levels for programs and initiatives 
that are essential investments in maternal and child health.
Preterm Birth
    Preterm birth is a serious health problem that costs the United 
States more than $26 billion annually. In 2008, one in eight infants 
was born preterm (before 37 weeks gestation). Preterm birth is the 
leading cause of newborn mortality (death within the first month) and 
the second leading cause of infant mortality (death within the first 
year). Among those who survive, one in five faces health problems that 
persist for life such as cerebral palsy, intellectual disabilities, 
chronic lung disease, blindness and deafness.
    In 2010, the National Center for Health Statistics (NCHS) announced 
that the Nation's preterm birth rate fell below 12 percent for the 
first time in nearly a decade. It represented the fourth consecutive 
year of decline, bringing the rate down 6 percent from the peak of 12.8 
percent in 2006. We believe one of the reasons for the decline was the 
result of legislation enacted in 2006, the PREEMIE Act (Public Law 109-
450), which led to the development of a public-private agenda aimed at 
reducing preterm labor and delivery. The Act mandated a Surgeon 
General's conference to address the growing problem of preterm birth. 
In 2008, more than 200 of the country's foremost experts convened for 2 
days to develop a comprehensive, national strategy to address the 
costly and serious problems of preterm birth. The meeting resulted in 
an action plan that included several overarching themes and 
recommendations. The March of Dimes' fiscal year 2013 funding requests 
regarding preterm birth are based on the recommendations from the 2008 
conference and the PREEMIE Act.
            National Institutes of Health (NIH)
    The March of Dimes supports the recommendation of the Ad Hoc Group 
for Medical Research and urges the Subcommittee to recognize the NIH as 
a critical national priority by providing at least $32 billion in 
funding in the fiscal year 2013 Labor-HHS-Education appropriations 
bill. This funding recommendation represents the minimum investment 
necessary to avoid further loss of promising research and at the same 
time allows the NIH's budget to keep pace with biomedical inflation.
    The March of Dimes commends members of the Subcommittee for their 
continuing support of the National Children's Study (NCS). When fully 
implemented, this study will follow 100,000 children in the United 
States from before birth until age 21. The data will help scientists at 
universities and research organizations across the country and around 
the world identify precursors of diseases and develop new strategies 
for treatment and prevention. The Foundation remains committed to 
supporting a well-designed NCS that promotes research of the highest 
quality and asks the Subcommittee to do the same.
            Eunice Kennedy Shriver National Institute of Child Health 
                    and Human Development (NICHD)
    For fiscal year 2013, the March of Dimes recommends at least $1.37 
billion for the NICHD. This $46 million increase compared to the fiscal 
year 2012 enacted level will enable NICHD to sustain its support for 
intramural preterm birth-related research and clinical research 
conducted through the Maternal-Fetal Medicine Units, Neonatal Research 
Network, and Genomic and Proteomic Network for Preterm Birth Research. 
In addition, the March of Dimes urges the Subcommittee to request that 
NICHD identify the steps and resources necessary to establish one or 
more Transdisciplinary Research Centers for Prematurity, as recommended 
by the Institute of Medicine. The causes of preterm birth are multi-
faceted and necessitate a coordinated and collaborative approach 
integrating many disciplines. In 2011, the March of Dimes and Stanford 
University School of Medicine launched the Nation's first 
transdisciplinary research center dedicated to identifying the causes 
of premature birth. The March of Dimes is committed to opening five 
transdisciplinary centers across the country. A public-private 
partnership combining the resources of NICHD and private organizations 
would significantly enhance the impact of this research.
            Centers for Disease Control and Prevention--Preterm Birth
    The CDC's National Center for Chronic Disease Prevention and Health 
Promotion's Safe Motherhood Program works to promote optimal 
reproductive and infant health. For fiscal year 2013, the March of 
Dimes recommends a sustained funding level of at least $44 million, and 
the inclusion of a $2 million preterm birth sub-line as authorized by 
the PREEMIE Act (Public Law 109-450), to strengthen our national data 
systems to monitor trends and investigate health issues related to 
pregnancy and promote the health of women before, during and after 
pregnancy.
            Centers for Disease Control and Prevention--National Center 
                    for Health Statistics
    The National Center for Health Statistics' (NCHS) vital statistics 
program collects birth and death data that are used to monitor the 
Nation's health status, set research and intervention priorities, and 
evaluate the effectiveness of existing health programs. It is 
imperative that data collected by NCHS be comprehensive and timely. 
Unfortunately, a quarter of the States and territories lack the 
capacity to use the most recent (2003) birth certificate format and 
only two-thirds have adopted the most recent (2003) death certificate 
format. The March of Dimes supports the President's recommendation to 
provide $162 million--a $24 million increase over the fiscal year 2012 
enacted level, which will support States and territories as they 
implement the 2003 Certificates of Birth, Death, and Fetal Deaths and 
aid in the transition to electronic collection of vital events data.
Birth Defects
    According to the Centers for Disease Control and Prevention, an 
estimated 120,000 infants in the United States are born with major 
structural birth defects each year. Genetic or environmental factors, 
or a combination of both, can cause various birth defects, yet the 
causes of more than 70 percent are unknown. Additional Federal 
resources are sorely needed to support research to discover the causes 
of all birth defects and for the development of effective interventions 
to prevent or at least reduce their prevalence.
            Centers for Disease Control and Prevention--National Center 
                    on Birth Defects and Developmental Disabilities 
                    (NCBDDD)
    The NCBDDD conducts programs to protect and improve the health of 
children by preventing birth defects and developmental disabilities and 
by promoting optimal development and wellness among children with 
disabilities. For fiscal year 2013, the March of Dimes requests at 
least level funding of $137 million for NCBDDD. We also encourage the 
Subcommittee to provide sustained funding levels of at least $2 million 
to support folic acid education and $22 million to support birth 
defects research and surveillance--a $2 million increase from fiscal 
year 2012 enacted levels.
    Allocating an additional $2 million to birth defects research and 
surveillance will support genetic analysis of the research samples 
already obtained through the NCBDDD's National Birth Defects Prevention 
Study--the largest case-controlled study of birth defects ever 
conducted. This analysis would enable researchers to identify relevant 
mutations and potential risk factors, which would then lead to 
prevention strategies. In addition, this investment would make possible 
the continuation of NCBDDD's State-based birth defects surveillance 
grant program. Surveillance is the backbone of the public health 
network and its support should be a Subcommittee priority. Because of 
the current fiscal situation facing many States, funding for State-
based surveillance systems is in jeopardy and requires increased 
Federal support to ensure the survival of essential birth defects 
surveillance programs.
    Further, allocating at least $2 million to folic acid education 
will allow the CDC to sustain its effective national education campaign 
aimed at reducing the incidence of spina bifida and anencephaly by 
promoting consumption of folic acid. Since the institution of 
fortification of U.S. enriched grain products with folic acid, the rate 
of neural tube defects has decreased by 26 percent. However, CDC 
estimates that up to 70 percent of neural tube defects could be 
prevented if all women of childbearing age consumed 400 micrograms of 
folic acid daily. Sustained funding levels will ensure CDC can continue 
to educate women on the importance of folic acid.
    The March of Dimes is very concerned about the administration's 
request to consolidate NCBDDD's budget lines into three categories. As 
proposed, the Birth Defects and Developmental Disabilities budget line 
would be renamed Child Health and Development and existing sub-
categories would be eliminated (e.g. Birth Defects, Fetal Alcohol 
Syndrome, Folic Acid) with the exception of Autism. While the March of 
Dimes recognizes and supports program flexibility for CDC management, 
we are concerned that the title ``Child Health and Development'' fails 
to make clear the overall purpose of the programs covered, obscuring 
the urgency and importance of the need for ongoing support from 
Congress. The March of Dimes urges modification of the administration's 
proposal by retaining the term ``Birth Defects'' as a sub-line under 
the category ``Child Health and Development.'' This adjustment is 
needed to ensure that essential activities to reduce birth defects are 
not undermined or otherwise put at risk.
Newborn Screening
    Newborn screening is a vital public health activity used to 
identify genetic, metabolic, hormonal and functional disorders in 
newborns so that treatment can be provided. Screening detects 
conditions in newborns that, if left untreated, can cause disability, 
developmental delays, intellectual disabilities, serious illnesses or 
even death. If diagnosed early, many of these disorders can be 
successfully managed. Across the Nation, State and local governments 
experiencing significant budget shortfalls are considering 
discontinuing screening for certain conditions or postponing the 
purchase of necessary technology. This situation represents a serious 
threat that, if left unresolved, will put infants at risk of permanent 
disability or even death. For fiscal year 2013, the March of Dimes 
urges the subcommittee to provide at least $10 million for HRSA's 
heritable disorders program, as authorized by the Newborn Screening 
Saves Lives Act (Public Law 110-204).
            Agency for Health Care Research and Quality (AHRQ)
    AHRQ supports research to improve healthcare quality, reduce costs 
and broaden access to essential health services. For fiscal year 2013, 
the March of Dimes recommends $400 million for AHRQ to continue its 
important work, including the development and dissemination of maternal 
and pediatric quality measures and comparative effectiveness research. 
Moreover, with the historic enactment of health reform last year, 
AHRQ's research is needed more than ever to build the evidence base 
that will be used to improve health and healthcare coverage.
            Health Resources and Services Administration--Maternal and 
                    Child Health Block Grant
    Title V of the Social Security Act, the Maternal and Child Health 
Block Grant, supports community-based programs aimed at decreasing 
infant mortality, preventing disabling conditions, increasing the 
number of children immunized and improving the overall health of 
mothers and children. Reduced funding threatens the ability of these 
programs to carry on this work. For fiscal year 2013, the March of 
Dimes recommends at least $645 million for the Maternal and Child 
Health Block Grant, level funding from the fiscal year 2012 enacted 
level.
            Centers for Disease Control and Prevention--National 
                    Immunization Program
    Infants are particularly vulnerable to infectious diseases, which 
is why it is critical to protect them through immunization. In 2008, 
the national estimated immunization coverage among children 19-35 
months of age was 76 percent. Childhood immunizations are among the 
most cost-effective preventive health measures. Every dollar invested 
in immunizing a child saves $16.50 in medical and societal costs. The 
CDC's National Immunization Program supports States, communities and 
territorial public health agencies through grants to reduce the 
incidence of disability and death resulting from vaccine-preventable 
diseases. The March of Dimes is requesting $720 million in fiscal year 
2013 for the Section 317 National Immunization Program.
            CDC Polio Eradication
    Since its creation as an organization dedicated to research and 
services related to polio, the March of Dimes has been committed to the 
eradication of this disabling disease. The March of Dimes is requesting 
$126.4 million in fiscal year 2013 for CDC's Polio Eradication Program, 
which would allow CDC to continue its immunization activities in the 
remaining endemic and high-risk countries in Africa and Asia and 
interrupt polio transmission in these regions.
Closing
    The Foundation's volunteers and staff in every State, the District 
of Columbia and Puerto Rico look forward to working with Members of 
this Subcommittee to secure the resources needed to improve the health 
of the nation's mothers, infants and children.

       MARCH OF DIMES: FISCAL YEAR 2013 FEDERAL FUNDING PRIORITIES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                          March of Dimes
                         Program                            fiscal year
                                                           2013 request
------------------------------------------------------------------------
National Institutes of Health (Total)...................      32,000,000
    National Children's Study...........................  ..............
    Common Fund.........................................         569,452
    National Institute of Child Health and Development..       1,370,000
    National Human Genome Research Institute............         534,381
    National Institute on Minority Health and                    292,524
     Disparities........................................
Centers for Disease Control and Prevention (Total)......       7,800,000
    National Center for Birth Defects and Developmental          140,100
     Disabilities (NCBDDD)..............................
        Birth Defects Research and Surveillance.........          22,300
        Folic Acid Campaign.............................           2,800
    Immunization and Respiratory Diseases...............  ..............
        Section 317.....................................         720,000
    Polio Eradication...................................         126,400
    Safe Motherhood.....................................          44,000
        Preterm Birth...................................           2,000
    National Center for Health Statistics...............         162,000
Health Resources and Services Administration (Total)....       7,000,000
    Maternal and Child Health Block Grant...............         640,098
    Heritable Disorders.................................          10,000
    Universal Newborn Hearing...........................          18,660
    Community Health Centers............................       1,500,000
    Healthy Start.......................................         103,532
    Children's Graduate Medical Education...............         317,500
Agency for Healthcare Research and Quality (Total)......         400,000
------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the Medical Library Association and the 
           Association of Academic Health Sciences Libraries
            summary of recommendations for fiscal year 2013
    Continue the commitment to the National Library of Medicine (NLM) 
by increasing funding levels to $372.6 million for fiscal year 2013.
    Continue to support the medical library community's role in NLM's 
outreach, telemedicine, disaster preparedness and health information 
technology initiatives and the implementation of health care reform.
                              introduction
    The Medical Library Association (MLA) and the Association of 
Academic Health Sciences Libraries (AAHSL) thank the Subcommittee for 
the opportunity to submit testimony regarding fiscal year 2013 
appropriations for the National Library of Medicine (NLM), a division 
of the National Institutes of Health (NIH). Working in partnership with 
other parts of the NIH and other Federal agencies, NLM is the key link 
in the chain that translates biomedical research into practice, making 
the results of research readily available worldwide.
    MLA is a nonprofit, educational organization with approximately 
4,000 health sciences information individual and institutional members. 
Founded in 1898, MLA provides lifelong educational opportunities, 
supports a knowledge base of health information research, and works 
with a network of partners to promote the importance of quality 
information for improved health to the healthcare community and the 
public. AAHSL is composed of the libraries of 124 accredited U.S. and 
Canadian medical schools, and 26 associate members. AAHSL supports 
academic health sciences libraries and directors in advancing the 
patient care, research, education and community service missions of 
academic health centers through visionary executive leadership and 
expertise in health information, scholarly communication, and knowledge 
management. Together, MLA and AAHSL address health information issues 
and legislative matters of importance to both our organizations.
           the importance of annual funding increases for nlm
    We are pleased that the President's fiscal year 2013 budget 
proposal provides a funding increase NLM which will bolster its 
baseline budget. In today's challenging budget environment, we 
recognize the difficult decisions Congress faces as it seeks to improve 
our Nation's fiscal stability. We appreciate and thank the Subcommittee 
for its long-time commitment to strengthening NLM's budget and 
encourage you to also consider increasing the NIH budget by providing 
at least $32 billion in your fiscal year 2013 Labor-HHS-Education 
appropriations bill.
    MLA and AAHSL believe that increased funding for NLM is essential 
to maximize the return on the investment in research conducted by the 
NIH and other organizations. By collecting, organizing, and making the 
results of bio-medical information more accessible to other 
researchers, clinicians, business innovators, and the public, NLM 
enables such information to be used more efficiently and effectively to 
drive innovation and improve the Nation's health. This role has become 
more important as the volume of biomedical data produced each year 
expands exponentially, driven by the influx of data from high-
throughput genome sequencing systems and genome-wide association 
studies. NLM plays a critical role in accelerating nationwide 
deployment of health information technology, including electronic 
health records (EHRs) by leading the development, maintenance and 
dissemination of key standards for health data interchange that are now 
required of certified EHRs. NLM also contributes to
    Congressional priorities related to drug safety through its efforts 
to expand its clinical trial registry and results database in response 
to recent legislation requirements, and to the Nation's ability to 
prepare for and respond to disasters. We encourage the Subcommittee to 
provide meaningful annual increases for NLM in the coming years and 
recommend an increase to $372.6 million for fiscal year 2013. Beyond 
fiscal year 2013, it is critical to continue augmenting NLM's baseline 
budget to accommodate expansion of its information resources, services, 
and programs which must collect, organize, and make readily accessible 
rapidly expanding volumes of biomedical knowledge.
Growing Demand for NLM's Basic Services
    The National Library of Medicine is the world's largest biomedical 
library and the source of trusted health information. Every day, 
medical librarians across the Nation assist clinicians, students, 
researchers, and the public in accessing the information they need to 
save lives and improve health. NLM delivers more than a trillion bytes 
of data to millions of users every day that helps researchers advance 
scientific discovery and accelerate its translation into new therapies; 
provides health practitioners with information that improves medical 
care and lowers its costs; and gives the public access to resources and 
tools that promote wellness and disease prevention. Without NLM, our 
Nation's medical libraries would be unable to provide the quality 
information services that our Nation's health professionals, educators, 
researchers and patients have come to expect.
    NLM's data repositories and online integrated services such as 
GenBank, PubMed, and PubMed Central are helping to revolutionize 
medicine and advance science to the next important era which includes 
individualized medicine based on an individual's unique genetic 
differences. GenBank, with its international partners, has become the 
definitive source of gene sequence information and organizing, along 
with NLM's other genetic databases, the volumes of data that are needed 
to detect associations between genes and disease, and translate that 
knowledge into better diagnosis and treatments. Earlier this year, NLM 
launched the Genetic Testing Registry (GTR), a new resource for quickly 
finding information about genetic tests and their providers. The 
registry includes detailed information about available tests, the 
test's purpose and its limitations; the name and location of the test 
provider; whether it is a clinical or research test; what methods are 
used; and what is measured. The registry will provide valuable 
information to healthcare professionals looking for answers related to 
their patients' diseases as well as researchers seeking to identify 
gaps in scientific knowledge.
    PubMed, with more than 20 million citations to the biomedical 
literature, is the world's most heavily used source of information 
about published results of biomedical research. Approximately 700,000 
new citations are added each year, and it is searched more than 2.2 
million times each day. PubMed Central, NLM's freely accessible digital 
repository of biomedical journal articles, has become a valuable 
resource for researchers, clinicians, consumers and librarians. On a 
typical weekday more than 500,000 users download 1 million full-text 
articles.
    We commend the Appropriations Committee for its support of the NIH 
public access policy which requires all NIH-funded researchers to 
deposit their final, peer-reviewed manuscripts in NLM's PubMed Central 
database within 12 months of publication. This highly beneficial policy 
is improving access to timely and relevant scientific information, 
stimulating discovery, informing clinical care, and improving public 
health literacy. We are pleased that other efforts are underway to 
expand public access policies across Federal agencies. The Federal 
Research Public Access Acts, H.R. 4004 and S. 2096, would require 
agencies with annual extramural research portfolios of over $100 
million to develop public access policies related to research conducted 
by employees of that agency. Passage of FRPAA would bring the benefits 
of public access to other research disciplines. Further, because 
research in other disciplines is increasingly relevant to biomedicine, 
broadening public access policies across agencies will support better 
patient care, biomedical research, education, and health information 
technology. We support the work of the Office of Science and Technology 
Policy (OSTP) to implement the scholarly publications requirements in 
Section 103 of the American Competes Reauthorization Act which will 
ensure long-term stewardship and broad public access to the peer-
reviewed scholarly publications resulting from federally funded 
scientific research. MLA and AAHSL have observed firsthand the 
significant benefit of providing public access to publications arising 
from NIH funded research, including its positive benefit-cost ratio, 
return on investment, and efficacy and efficiency to fuel new research, 
discoveries, and therapies, and applaud efforts to further this work in 
other areas.
    As the world's largest and most comprehensive medical library, 
NLM's traditional print and electronic collections continue to steadily 
increase each year. These collections stand at more than 11.4 million 
items--books, journals, technical reports, manuscripts, microfilms, 
photographs and images. By selecting, organizing and ensuring permanent 
access to health sciences information in all formats, NLM is ensuring 
the availability of this information for future generations, making it 
accessible to all Americans, irrespective of geography or ability to 
pay, and ensuring that citizens can make the best, most informed 
decisions about their healthcare.
    Clearly, NLM is a national treasure which is making a difference in 
patients' lives and healthcare outcomes. For example, an MLA member 
shared that recently a surgeon came to the library 12 minutes before 
surgery to find an article on the complex procedure he was about to 
perform. By searching NLM's PubMed/Medline database, the librarian 
found illustrations that guided the surgeon during surgery enabling him 
to save the man's foot.
     encourage nlm partnerships with the medical library community
Outreach and Education
    NLM's outreach programs are essential to MLA and AAHSL membership 
and to the profession. These activities are designed to educate medical 
librarians, health professionals and the general public about NLM's 
services and to train them in the most effective use of these services. 
NLM has taken a leadership role in promoting educational outreach aimed 
at public libraries, secondary schools, senior centers and other 
consumer-based settings. Furthermore, NLM's emphasis on outreach to 
underserved populations assists the effort to reduce health disparities 
among large sections of the American public. One example of NLM's 
leadership is the ``Partners in Information Access'' program which is 
designed to improve the access of local public health officials to 
information needed to prevent, identify and respond to public health 
threats. With more than 6,300 members in communities across the 
country, the National Network of Libraries of Medicine (NN/LM) is well 
positioned to ensure that every public health worker has electronic 
health information services that can protect the public's health.
    NLM is also at the forefront of efforts to provide consumers with 
trusted, reliable health information. Its MedlinePlus system provides 
consumer-friendly information on more than 900 topics in English and 
Spanish, and has become a top destination for those seeking information 
on the Internet, attracting more than 750,000 visitors per day. 
Librarians at Louisiana State University's Health Sciences Center 
Medical Library in Shreveport provide in-person support for patients 
and the public seeking health information and have also established 
``healthelinks.org'', a website with information on diseases and 
conditions, medicines, procedures and surgical operations, lab tests, 
and more from NLM's MedlinePlus system. With help from Congress, NLM, 
NIH and the Friends of NLM launched NIH MedlinePlus Magazine in 
September 2006. This quarterly publication is distributed in doctors' 
waiting rooms and provides the public with access to high-quality, 
easily understood health information. Its readership is now estimated 
at 5 million people nationwide and is poised to grow, thanks to the 
launch of a Spanish/English version, NIH MedlinePlus Salud, in January 
2009. NLM also continues to work with medical librarians and health 
professionals to encourage doctors to provide MedlinePlus ``information 
prescriptions'' to their patients, directing them to relevant 
information on NLM's consumer-oriented MedlinePlus information system. 
This initiative also encourages genetics counselors to prescribe the 
use of NLM's Genetic Home Reference website. Using NLM's new 
MedlinePlus Connect utility, a growing number of clinical care 
organizations are implementing specific links from their electronic 
health record systems to relevant patient education materials in 
MedlinePlus, enabling them to achieve an emerging criterion for 
achieving meaningful use of health information technology. MedinePlus 
Connect was recently named a winner in the HHS Innovates competition.
    NLM also provides access to information about clinical research for 
a wide range of diseases. Launched in February 2000, ClinicalTrials.gov 
contains registration information for some 117,000 trials. The database 
is a free and invaluable resource for patients and families who are 
interested in participating in cutting-edge treatments for serious 
illnesses. In recent years, it has become more valuable for patients, 
clinicians, researchers, and others, including librarians, who help 
patients identify relevant trials and provide clinicians and 
researchers with access to information about specific products such as 
new drugs under study. In response to the Food and Drug Administration 
Amendments Act of 2007, NLM has expanded ClinicalTrials.gov to accept 
summary results of clinical trials, including adverse events. Such 
information is not available systematically from other publicly 
accessible resources, and all too often is not published in the 
scientific literature. The system currently contains results for more 
than 5,000 trials, and the Library receives approximately 50 new 
results submission each week. More than 50,000 users visit the site 
each day.
    MLA and AAHSL applaud the success of NLM's outreach initiatives, 
particularly those initiatives that reach out to the medical libraries 
and health consumers. We ask the Committee to encourage NLM to continue 
to coordinate its outreach activities with the medical library 
community in fiscal year 2013.
                  emergency preparedness and response
    NLM has a long history of programs and resources that support 
disaster preparedness and response activities. Building on its 
experiences in responding to Hurricane Katrina, NLM established a 
Disaster Information Management Research Center to collect and organize 
disaster-related health information, ensure effective use of libraries 
and librarians in disaster planning and response, and develop 
information services to assist responders. The Library responds to 
specific disasters worldwide with specialized information resources 
appropriate to the need, including information on bioterrorism, 
chemical emergencies, fires and wildfires, earthquakes, tornadoes, and 
pandemic disease outbreaks. Recently, the Library launched a Disaster 
Information Apps and Mobile Web sites page designed to provide mobile 
device users access to Web-based content. MLA and NLM continue to 
develop the Disaster Information Specialization (DIS) program aimed at 
building the capacity of librarians and other interested professionals 
to provide disaster-related health information outreach. Currently MLA 
is developing five courses on topics assigned by NLM and based on the 
NLM Disaster Information Curriculum and will include basic and advanced 
topics in Disaster Health Information.
    Working with libraries and U.S. publishers, NLM has established an 
Emergency Access Initiative that makes available free full-text 
articles from hundreds of biomedical journals and reference books for 
use by medical teams responding to disasters. Over the last 2 years, 
this initiative has assisted relief efforts in Japan, Pakistan, and 
Haiti. It organized and made available health information resources 
relevant to the gulf oil spill. MLA and AAHSL see a role for NLM and 
the Nation's health sciences libraries in disaster preparedness and 
response activities, and we ask the Subcommittee to support NLM's role 
in this initiative which has a major objective of ensuring continuous 
access to health information and effective use of libraries and 
librarians when disasters occur.
Health Information Technology and Bioinformatics
    NLM has played a pivotal role in creating and nurturing the field 
of medical informatics which is the intersection of information 
science, computer science and healthcare. Health informatics tools 
include computers, clinical guidelines, formal medical terminologies, 
and information and communication systems. For nearly 35 years, NLM has 
supported informatics research, training and the application of 
advanced computing and informatics to biomedical research and 
healthcare delivery including a variety of telemedicine projects. Many 
of today's informatics leaders are graduates of NLM-funded informatics 
research programs at universities across the country. Many of the 
country's exemplary electronic and personal health record systems 
benefit from NLM grant support.
    The importance of NLM's work in health information technology 
continues to grow as the Nation moves toward more interoperable health 
information technology systems. A leader in supporting, licensing, 
developing and disseminating standard clinical terminologies for free 
nationwide use (e.g., SNOWMED), NLM works closely with the Office of 
the National Coordinator for Health Information Technology (ONCHIT) to 
promote the adoption of inter-operable electronic records, It has 
developed tools to make it easier for EHR developers and users to 
implement accepted health data standards in their systems.
    MLA and AAHSL encourage the Subcommittee to continue their strong 
support for NLM's medical informatics and genomic science initiatives, 
at a point when the linking of clinical and genetic data holds 
increasing promise for enhancing the diagnosis and treatment of 
disease. MLA and AAHSL also support health information technology 
initiatives in ONCHIT that build upon initiatives housed at NLM.
Building and Facility Needs
    The tremendous growth in NLM's basic functions related to the 
acquisition, organization and preservation of its ever-expanding 
collection of biomedical literature, combined with its growing 
contributions to healthcare reform, health information technology, drug 
safety, and exploitation of genomic information is straining the 
Library's physical resources. During times of economic hardship, NLM's 
role becomes increasingly important and it often serves as an archive 
of last resort for medical libraries looking for ways to cut back and 
trim their own collections.
    Digital archiving--once thought to be a solution to the problem of 
housing physical collections--has only added to the challenge, as 
materials must often be stored in multiple formats as new digital 
resources consume increasing amounts of data center storage space. As a 
result, the space needed for computing facilities has also grown, and a 
new facility is urgently needed. This need has been recognized by the 
Subcommittee in Senate Report 108-345 that accompanied the fiscal year 
2005 appropriations bill. However, the economic challenges of the last 
several years have hampered movement on this project.
    While Congress continues to face tremendous funding challenges in 
fiscal year 2013, MLA and AAHSL encourage the Subcommittee to 
acknowledge the need for construction of the new building to take place 
when the Federal budget stabilizes so that information-handling 
capabilities and biomedical research are not jeopardized. At a time 
when medical and health science libraries across the Nation face 
growing financial and space constraints, ensuring that NLM continues to 
serve as the archive of last resort for biomedical collections is 
critical to the medical library community and the public we serve.
    Thank you again for the opportunity to present the views of the 
medical library community.
                                 ______
                                 
             Prepared Statement of Meharry Medical College
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wayne J. 
Riley, President and CEO of Meharry Medical College in Nashville, 
Tennessee. I have previously served as vice-president and vice dean for 
health affairs and governmental relations and associate professor of 
medicine at Baylor College of Medicine in Houston, Texas and as 
assistant chief of medicine and a practicing general internist at 
Houston's Ben Taub General Hospital. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I took you seriously and came here 
prepared to offer my best judgments. First, I want to say that it is 
clear that health disparities among various populations and across 
economic status are rampant and overwhelming. Over the next 10 years, 
we will need to be able to deliver more culturally relevant and 
culturally competent healthcare services. Bringing healthcare delivery 
up to this higher standard can serve as our Nation's own preventive 
healthcare agenda keeping us well positioned for the future.
    Minority health professional institutions and the Title VII Health 
Professions Training programs address this critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. Our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example, African-Americans 
represent approximately 15 percent of the U.S. population while only 2-
3 percent of the Nation's healthcare workforce is African-American.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals have been 
particularly hard-hit as a result of the cuts to the Title VII Health 
Profession Training programs in fiscal year 2006 and fiscal year 2007 
funding resolution passed earlier this Congress. Given their historic 
mission to provide academic opportunities for minority and financially 
disadvantaged students, and healthcare to minority and financially 
disadvantaged patients, minority health professions institutions 
operate on narrow margins. The cuts to the Title VII Health Professions 
Training programs amount to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my medical degree from Morehouse School of Medicine, 
a historically black medical school in Atlanta. I give credit to my 
career in academia, and my being here today, to Title VII Health 
Profession Training programs' Faculty Loan Repayment Program. Without 
that program, I would not be the president of my father's alma mater, 
Meharry Medical College, another historically black medical school 
dedicated to eliminating healthcare disparities through education, 
research and culturally relevant patient care.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2013, I recommend a funding level of $24.602 
million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. Over the last three decades, HCOPs have trained 
approximately 30,000 health professionals including 20,000 doctors, 
5,000 dentists and 3,000 public health workers. For fiscal year 2013, I 
recommend a funding level of $22.133 million for HCOPs.
National Institutes of Health (NIH)
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI) is now housed at the National 
Institute on Minority Health and Health Disparities (NIMHD). RCMI has a 
long and distinguished record of helping our institutions develop the 
research infrastructure necessary to be leaders in the area of health 
disparities research. Although NIH has received unprecedented budget 
increases in recent years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2013.
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities. For fiscal year 2013, I recommend 
that this Institute's funding grow proportionally with the funding of 
the NIH and add additional FTEs.
Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include:
  --Assisting medically underserved communities with the greatest need 
        in solving health disparities and attracting and retaining 
        health professionals,
  --Assisting minority institutions in acquiring real property to 
        expand their campuses and increase their capacity to train 
        minorities for medical careers,
  --Supporting conferences for high school and undergraduate students 
        to interest them in health careers, and
  --Supporting cooperative agreements with minority institutions for 
        the purpose of strengthening their capacity to train more 
        minorities in the health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2013, I recommend a funding level 
of $65 million for the OMH.
Department of Education
    Strengthening Historically Black Graduate Institutions Program.--
The Department of Education's Strengthening Historically Black Graduate 
Institutions program (Title III, Part B, Section 326) is extremely 
important to MMC and other minority serving health professions 
institutions. The funding from this program is used to enhance 
educational capabilities, establish and strengthen program development 
offices, initiate endowment campaigns, and support numerous other 
institutional development activities. In fiscal year 2013, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Meharry Medical College along with other minority health professions 
institutions and the Title VII Health Professions Training programs can 
help this country to overcome health and healthcare disparities. 
Congress must be careful not to eliminate, paralyze or stifle the 
institutions and programs that have been proven to work. Meharry and 
other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work toward the goal of eliminating that 
disparity as we have done for 1,876.
    Thank you, Mr. Chairman, for this opportunity.
                                 ______
                                 
         Prepared Statement of the Morehouse School of Medicine
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. John E. 
Maupin, President of Morehouse School of Medicine (MSM) in Atlanta, 
Georgia. I have previously served as President of Meharry Medical 
College, executive vice-president at Morehouse School of Medicine, 
director of a community health center in Atlanta, and deputy director 
of health in Baltimore, Maryland. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the Title VII Health Professions Training programs.
    I want to say that minority health professional institutions and 
the Title VII Health Professionals Training programs address a critical 
national need. Persistent and sever staffing shortages exist in a 
number of the health professions, and chronic shortages exist for all 
of the health professions in our Nation's most medically underserved 
communities. Furthermore, our Nation's health professions workforce 
does not accurately reflect the racial composition of our population. 
For example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. MSM is a private school with a very public mission 
of educating students from traditionally underserved communities so 
that they will care for the underserved. Mr. Chairman, I would like to 
share with you how your committee can help us continue our efforts to 
help provide quality health professionals and close our Nation's health 
disparity gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Given the historic mission, of institutions like MSM, to provide 
academic opportunities for minority and financially disadvantaged 
students, and healthcare to minority and financially disadvantaged 
patients, minority health professions institutions operate on narrow 
margins. The slow reinvestment in the Title VII Health Professions 
Training programs amounts to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my dental degree from Meharry Medical College, a 
historically black medical and dental school in Nashville, Tennessee. I 
have seen first hand what Title VII funds have done to minority serving 
institutions like Morehouse and Meharry. I compare my days as a student 
to my days as president, without that Title VII, our institutions would 
not be here today. However, Mr. Chairman, since those funds have been 
slowly replenished, we are standing at a cross roads. This committee 
has the power to decide if our institutions will go forward and thrive, 
or if we will continue to try to just survive. We want to work with you 
to eliminate health disparities and produce world class professionals, 
but we need your assistance.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2013, I recommend a funding level of $24.602 
million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional. Over the last three decades, HCOPs have trained 
approximately 30,000 health professionals including 20,000 doctors, 
5,000 dentists and 3,000 public health workers. For fiscal year 2013 I 
recommend a funding level of $22.133 million for HCOPs.
National Institutes of Health (NIH)
    National Institute on Minority Health and Health Disparities.--The 
National Institute on Minority Health and Health Disparities (NIMHD) is 
charged with addressing the longstanding health status gap between 
minority and nonminority populations. The NIMHD helps health 
professional institutions to narrow the health status gap by improving 
research capabilities through the continued development of faculty, 
labs, and other learning resources. The NIMHD also supports biomedical 
research focused on eliminating health disparities and develops a 
comprehensive plan for research on minority health at the NIH. 
Furthermore, the NIMHD provides financial support to health professions 
institutions that have a history and mission of serving minority and 
medically underserved communities through the Minority Centers of 
Excellence program. For fiscal year 2013, I recommend a funding 
increase proportional to any increase given to the NIH and additional 
FTE positions.
    Research Centers at Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI), newly moved to NIMHD, has a long 
and distinguished record of helping our institutions develop the 
research infrastructure necessary to be leaders in the area of health 
disparities research. Although NIH has received unprecedented budget 
increases in recent years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2013.
Department of Health and Human Services
    Office of Minority Health.--Specific programs at OMH include: (1) 
Assisting medically underserved communities with the greatest need in 
solving health disparities and attracting and retaining health 
professionals; (2) assisting minority institutions in acquiring real 
property to expand their campuses and increase their capacity to train 
minorities for medical careers; (3) supporting conferences for high 
school and undergraduate students to interest them in health careers; 
and (4) supporting cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions. The OMH has the potential to play 
a critical role in addressing health disparities, and with the proper 
funding this role can be enhanced. For fiscal year 2013, I recommend a 
funding level of $65 million for the OMH.
Department of Education
    Strengthening Historically Black Graduate Institutions.--The 
Department of Education's Strengthening Historically Black Graduate 
Institutions program (Title III, Part B, Section 326) is extremely 
important to MSM and other minority serving health professions 
institutions. The funding from this program is used to enhance 
educational capabilities, establish and strengthen program development 
offices, initiate endowment campaigns, and support numerous other 
institutional development activities. In fiscal year 2013, an 
appropriation of $65 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Morehouse School of Medicine along with other minority health 
professions institutions and the Title VII Health Professions Training 
programs can help this country to overcome health and healthcare 
disparities. Congress must be careful not to eliminate, paralyze or 
stifle the institutions and programs that have been proven to work. MSM 
and other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work toward the goal of eliminating that 
disparity as we have since our founding day.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials
    The National Association of County and City Health Officials is the 
voice of the 2,800 local health departments that safeguard the health 
of approximately 300 million people across the country. These city, 
county, metropolitan, district, and tribal departments work every day 
to ensure the safety of the water we drink, the food we eat, and the 
air we breathe.
    Local health departments have a unique and distinctive role and set 
of responsibilities in the larger health system and within every 
community. The Nation's current financial challenges are compounded by 
those in State and local governments that have resulted in diminishing 
the ability of local health departments to address community health and 
safety needs. Repeated rounds of budget cuts and layoffs continue to 
erode local health department capacity. According to recent surveys of 
local and State health departments, since 2008 52,000 jobs have been 
lost due to budget reductions.
    To help protect the public's health, we urge the Subcommittee on 
Labor, Health and Human Services, Education and Related Agencies to 
consider the following fiscal year 2013 funding requests:
Public Health Emergency Preparedness
Center: Center for Public Health Preparedness and Response (CDC)
Funding Line: State and Local Preparedness and Response Capability
Sub-line: Public Health Emergency Preparedness Cooperative Agreements 
        (PHEP)
NACCHO request: $715 million
Fiscal Year 2013 President's Budget: $642 million (including CDC 
        Capacity)
Fiscal Year 2012: $643 million (not including CDC Capacity)
    The Public Health Emergency Preparedness (PHEP) cooperative 
agreement program provides funding to support local and State public 
health department capacity and capability to effectively respond to 
public health emergencies including terrorist threats, infectious 
disease outbreaks, natural disasters, and biological, chemical, 
nuclear, and radiological emergencies. Local and State health 
departments work with the Federal Government, law enforcement, 
emergency management, health care, business, education, and religious 
groups to plan, train, and prepare for emergencies so that when 
disaster strikes, communities are prepared. NACCHO opposes the 
administration's proposal to eliminate the separate funding line for 
PHEP and to cut the program by $8 million to pay for CDC programmatic 
operating costs. PHEP grants have been cut by 28 percent since 2004; 
NACCHO supports a return to the fiscal year 2010 funding level of $715 
million.
Hospital Preparedness Program
Assistant Secretary for Preparedness and Response (DHHS)
NACCHO request: $426 million
Fiscal Year 2013 President's Budget: $255 million
Fiscal Year 2012: $380 million
    Administered by the Assistant Secretary for Preparedness and 
Response, the Hospital Preparedness Program (HPP) provides funding to 
local and State health departments to enhance hospital preparedness and 
improve overall surge capacity in the case of public health 
emergencies. The preparedness activities carried out under this program 
strengthen the capabilities of hospitals throughout the country to 
respond to floods, hurricanes, or wildfires, and also include training 
for a potential influenza pandemic or terrorist attack. NACCHO opposes 
the administration's proposal to cut HPP by $120 million. While HPP and 
PHEP grants have been aligned, the first year of alignment is 
``mechanical'' in terms of getting the grant year and the application 
process for both programs in the same funding period. NACCHO supports a 
return to the fiscal year 2010 funding level of $426 million.
Medical Reserve Corps
Office of the Surgeon General (DHHS)
NACCHO request: $12.6 million
Fiscal Year 2013 President's Budget: $10.9 million
Fiscal Year 2012: $11.2 million
    Administered by the Office of the Surgeon General, the Medical 
Reserve Corps (MRC) is a national network of local groups of volunteers 
that work to strengthen their local public health infrastructure and 
preparedness capabilities. Over the past 10 years, the program has 
grown to more than 200,000 volunteers in nearly 1,000 units in 50 
States, the District of Columbia, and several territories. The network 
of MRC volunteers includes medical and public health professionals, as 
well as non-medical volunteers who provide leadership, logistic and 
other support. MRC units are community-based and focus on local needs. 
The workload for these volunteers will increase as a result of the 
reduced health department workforce due to preparedness cuts. NACCHO 
supports a return to the fiscal year 2010 funding level of $12.6 
million.
Chronic Disease Prevention
Center: Center for Chronic Disease Prevention and Health Promotion 
        (CDC)
Funding Line: Community Transformation Grants (CTG)
NACCHO Request: $226 million (including health department eligibility)
Fiscal Year 2013 President's Budget: $146 million
Fiscal Year 2012: $226 million
    The Community Transformation Grant (CTG) program provides resources 
for local communities to address heart attacks, strokes, cancer, 
diabetes, and other chronic diseases which contribute to the soaring 
cost of healthcare in the United States. The grants focus on the 
implementation, evaluation and dissemination of evidence-based 
community preventive health activities in order to develop strategies 
and practices that will enable States, counties, cities and tribes to 
control chronic disease and health disparities. Grantees are charged 
with a 5 percent reduction in death and disability due to tobacco use, 
heart disease and stroke and the rate of obesity through nutrition and 
physical activity in 5 years. Local and State public health departments 
should remain eligible to apply for funding through this important 
initiative in fiscal year 2013 and subsequent fiscal years. NACCHO 
supports the fiscal year 2012 funding level of $226 million for 
Community Transformation Grants.
Center: Center for Chronic Disease Prevention and Health Promotion 
        (CDC)
Funding Line: Coordinated Chronic Disease Prevention and Health 
        Promotion Grant Program
NACCHO Request: $379 million
Fiscal Year 2013 President's Budget: $379 million (+$129 million from 
        fiscal year 2012)
Fiscal Year 2012: $250 million
    Chronic diseases such as heart disease, cancer, stroke and diabetes 
are responsible for 7 of 10 deaths among Americans each year and 
account for 75 percent of healthcare spending. Today's children are in 
danger of becoming the first generation to live shorter, less healthy 
lives than their parents. The Coordinated Chronic Disease Prevention 
and Health Promotion Grants, as proposed in the President's budget, 
will provide local and State health departments flexibility to 
streamline funding to prevent, control, and reduce the burden of 
chronic illness and to address the underlying causes of chronic 
diseases in a more integrated and coordinated fashion. Local health 
departments seek relief from duplicative administrative burden for the 
multiple siloed funding streams resulting in more funding going into 
programs and out to the community.
    At a minimum, NACCHO recommends that Congress encourage CDC to 
provide greater coordination among chronic disease programs and reduce 
duplicative administrative burden. NACCHO recommends the continuation 
of funding for State coordination grants begun in fiscal year 2011 for 
this purpose if funds are not made available for the coordinated 
Chronic Disease Prevention and Health Promotion Grant Program.
Food Safety
Center: Center for Emerging and Zoonotic Infectious Diseases (CDC)
Funding Line: Food Safety
NACCHO Request: $44 million
Fiscal Year 2013 President's Budget: $44 million (+$17 million from 
        fiscal year 2012)
Fiscal Year 2012: $27 million
    Foodborne illness affects 48 million Americans every year, 
resulting in 128,000 hospitalizations and 3,000 deaths. CDC's Food 
Safety program seeks to ensure food safety through surveillance and 
outbreak response. Local and State health departments are an essential 
part of the process that ensures that food is safe to eat at home, at 
community events, in restaurants, and in schools. NACCHO supports the 
administration's $17 million increase as it will advance implementation 
of the Food Safety Modernization Act by enhancing and integrating 
disease surveillance, improving outbreak and response timeliness and 
helping address deficits in local capacity to prevent and stop illness. 
This increase will enable CDC to enhance and integrate disease 
surveillance, improve outbreak response timeliness and help address 
local deficits in capacity to prevent and stop illness. The increase 
also expands the number of Foodborne Diseases Centers for Outbreak 
Response Enhancement (FoodCORE) sites.
Public Health Performance Improvement
Center: Center for Public Health Leadership and Support (CDC)
Funding Line: National Public Health Improvement Initiative
NACCHO Request: $40.2 million
Fiscal Year 2013 President's Budget: $40.2 million
Fiscal Year 2012: $40.2 million
    The National Public Health Improvement Initiative (NPHII) provides 
funding to 74 State, tribal, local and territorial health departments 
to make fundamental changes and enhancements in their organizations and 
practices that improve the delivery and impact of public health 
services. Local and State health departments currently face 
unprecedented financial challenges that threaten their ability to 
prevent disease and promote health in their communities. NPHII 
strengthens health departments by providing staff, training, tools, and 
technical/capacity building assistance dedicated to establishing 
performance management and evidence-based practices that drive improved 
service delivery and better health outcomes. NACCHO supports 
continuation of funding for this important quality improvement program 
for health departments.
317 Immunization Program
Center: National Center for Immunization and Respiratory Diseases (CDC)
Funding Line: 317 Immunization Program
NACCHO Request: $720 million
Fiscal Year 2013 President's Budget: $562.2 million
Fiscal Year 2012: $620.2 million
    The Section 317 Immunization Program provides funds to 50 States, 
six large cities and eight territories for vaccine purchase for at-need 
populations and immunization program operations, including support for 
implementing billing systems for immunization services at public health 
clinics to sustain high levels of vaccine coverage. Childhood 
immunizations are one of the most cost-effective public health 
interventions, saving 42,000 lives and preventing 20 million cases of 
disease annually with an estimated $10.20 in savings for every $1 
invested. Increased funding would expand vaccine purchase grants to 
State and local health departments to cover the many new vaccines and 
expanded recommendations of existing vaccines. Additional funding would 
also strengthen State and local infrastructure to support vaccination 
programs and increase vaccine uptake rates.
    NACCHO opposes the $58 million cut proposed in the President's 
budget. While provisions in the Affordable Care Act (ACA) will expand 
insurance coverage of vaccines recommended by the Advisory Committee on 
Immunization Practices, that doesn't necessarily translate to increased 
vaccination by private physicians. Many private insurers do not 
reimburse physicians for the full cost of vaccine, nor do they cover 
actual administration expenses, causing physicians to stop offering 
immunizations. Health departments will continue to need sufficient 
funding for vaccinations not covered by the ACA expansions, services to 
the underinsured and administrative expenses not reimbursed by 
insurance. Additionally, the ACA expansion will not be fully 
implemented until 2019 while cuts are being proposed now.
    As the Subcommittee drafts the fiscal year 2013 Labor-Health and 
Human Services-Education appropriations bill, NACCHO urges 
consideration of these recommendations for CDC programs critical to 
protecting people and improving the public's health.
                                 ______
                                 
  Prepared Statement of the National Association of Community Health 
                                Centers
Introduction
    Chairman Harkin, Ranking Member Shelby, and Distinguished Members 
of the Subcommittee: My name is Dan Hawkins, and I am the Senior Vice 
President for Public Policy and Research at the National Association of 
Community Health Centers. On behalf of the American health center 
community, including the more than 20 million patients served 
nationwide by health centers, the 131,660 full-time health center 
staff, and countless volunteer board members who serve our centers as 
well as the National Association of Community Health Centers, we want 
to offer our deep thanks and appreciation for this Subcommittee's 
strong bipartisan support of health centers. I also appreciate the 
opportunity to submit testimony for the committee to review as you 
craft the fiscal year 2013 Labor-Health and Human Services-Education 
and Related Agencies appropriations bill.
Health Centers--General Background
    Health Centers are locally owned nonprofit entities that provide 
primary medical, dental, and behavioral healthcare, along with pharmacy 
and a variety of enabling and support services to more than 20 million 
patients today. Currently, there are more than 1,200 health centers 
serving as medical homes at more than 8,000 sites in rural and urban 
underserved communities nationwide, including as you know, in the 
States represented by the members of this Subcommittee.
    By statute and mission, health centers are located in a medically 
underserved area or serve a medically underserved population and 
provide comprehensive primary care services to all community residents 
regardless of insurance status or ability to pay, while offering care 
on a sliding fee scale. This has enabled health centers to become 
healthcare homes to the medically underserved and our Nation's most 
vulnerable populations
    Health centers also have a unique connection to the health needs of 
their communities as they are directed by patient-majority boards, 
ensuring that care is locally controlled and responsive to each 
individual community.
    Health centers specialize in providing high-quality, cost-effective 
primary and preventive healthcare to their patients. Utilizing the 
unique health center model, health centers are able to save the entire 
health system, including the Government and taxpayers, approximately 
$24 billion annually by keeping patients out of costlier healthcare 
settings, such as emergency departments. Indeed, countless published 
studies over many decades have demonstrated that health centers are a 
proven cost saver. Studies have also proven that health centers improve 
the health status in communities, reduce emergency room use, and 
eliminate health disparities amongst their patients. Additionally, 
health centers serve as small businesses and economic drivers in their 
communities creating 200,000 jobs in just 2009.
Fiscal Year 2012 Funding Background
    Thanks to the tireless efforts of this Subcommittee, in fiscal year 
2012 health centers received $2.8 billion in total program funding. 
This includes $1.6 billion in discretionary funding and $1.2 billion in 
mandatory funding for health centers through the Affordable Care Act 
for a total increase of $200 million above fiscal year 2011.
    A portion of this increase will go toward funding some of the over 
1,800 applications for health center expansion currently pending at 
HRSA. We anticipate this will mean health centers opening in over 200 
communities where primary care is currently scarce or non-existent. We 
want to again thank the Subcommittee for their support which is now 
being translated into real healthcare for many of our fellow Americans 
who currently go without access to even basic healthcare.
Overwhelming Demand for Accessible Primary Care
    And yet, even with this tremendous new investment, there is still a 
pressing need for access to primary care services in communities across 
the country. As we recently documented in a new report entitled: Health 
Wanted, the State of Unmet Need for Primary Health Care in America 
(``Health Wanted''), the demand for primary care far exceeds supply all 
across our Nation. Health Wanted documents the principal barriers to 
care: affordability, accessibility, and availability. Within these 
three categories, specific hurdles to accessing primary care include 
lack or type of insurance, limited income, distance, and other factors 
that leave individuals, or whole communities, without care. As Health 
Wanted demonstrates, when health centers locate in underserved areas, 
they overcome these barriers using the unique health center model, 
improving health and producing documented health system savings. The 
report also highlights the multiple indicators, including health 
outcomes, that make the case that many more communities still need a 
health center, and that many of those communities with a health center 
have greater needs than the health center can meet with existing 
funding levels.
    Recent application cycles bear out the research and show that 
health centers are striving to meet this demand for primary care. Right 
now, over 1,800 health center expansion applications are pending at 
HRSA, including:
  --More than 700 new health center applications that remain unfunded. 
        These are communities with no health center and a documented 
        shortage of primary care access.
  --More than 1,100 applications from existing Health Centers for 
        expanded medical, oral and behavioral health, pharmacy, and 
        vision service capacity based on identified unmet need in their 
        communities remain unfunded.
  --129 communities without a Health Center but with documented need 
        have received funding for planning grants, and most will soon 
        be ready to apply to be funded for a new Health Center in their 
        community.
    Health centers are clearly ready to do more to ensure all Americans 
have access to primary and preventive healthcare services. We look 
forward to working with this Subcommittee to translate this readiness 
into a reality.
Fiscal Year 2013 Request
    The President's proposed fiscal year 2013 Health Resources and 
Services Administration (HRSA) fiscal year 2013 budget proposal 
provides $1.58 billion in discretionary funding for the Health Centers 
program. Together with the $1.5 billion in fiscal year 2013 mandatory 
funding available for health centers, health centers could receive a 
net increase of $300 million in total programmatic funding for fiscal 
year 2013 equaling total funding of $3.1 billion.
    We strongly support the President's proposed funding level of $3.1 
billion for health centers, but we are very concerned about the 
administration's proposal to hold back $280 million of the total 
proposed increase of $300 million and instead spread out health center 
growth over a longer period of time. This proposal does not recognize 
the great need outlined above for access to the very primary care 
services provided in health centers. In addition, health centers are 
looking ahead to 2014, when the demand for primary care is expected to 
soar as millions receive health coverage for the first time, many of 
them living in the very communities we serve. The experience of health 
centers in Massachusetts tells us that health centers will become the 
healthcare home for many of these new patients. We must begin to create 
the capacity to serve these patients now. If primary care is not 
available in the communities where the newly insured live, they will 
access care elsewhere, most likely the emergency room or hospital, when 
they are sicker. This will mean poorer health for these patients and 
much higher costs for the system.
    Health centers do, however, share the concern of the 
administration, and many members of this Subcommittee, over the funding 
cliff facing the Health Centers program in fiscal year 2016 when the 
mandatory funding from ACA is slated to end. If not remedied, health 
centers and the thousands of communities and millions of patients they 
serve could face a serious threat. We want to work with members of this 
Subcommittee to forge a bipartisan solution that averts this scenario.
    Health Centers are respectfully requesting a total of no less than 
$3.1 billion in funding for the Health Center program. However, instead 
of holding back funding, we propose that the entire increase be used 
immediately to provide for the expansion of care to 2.5 million new 
patients. We also urge the Subcommittee to consider the long-term 
stability and viability of the program, and the coming cliff in 
funding, while ensuring its continued growth which is so desperately 
needed.
Conclusion
    We understand this Subcommittee will have to make many difficult 
budgetary decisions as you work within the funding limits set for the 
fiscal year 2013 Labor-Health and Human Services-Education 
appropriations bill. We understand that will be no easy task, but we 
ask you to keep in mind that health centers have continually proven to 
be a worthwhile investment by delivering affordable healthcare to those 
who need it most, while generating savings to our health system. We are 
deeply grateful for your longstanding leadership and ask for the 
Subcommittee's continued support for the Health Center program.
    Thank you for your consideration.
                                 ______
                                 
   Prepared Statement of the National Association of Clinical Nurse 
                              Specialists
    The National Association of Clinical Nurse Specialists (NACNS) is a 
national organization that exists to enhance and promote the unique, 
high value contribution of the clinical nurse specialist to the health 
and well-being of individuals, families, groups, and communities, and 
to promote and advance the practice of nursing. There are an estimated 
72,000 registered nurses that have the education and credentials to 
practice as a clinical nurse specialist. NACNS supports funding for 
nursing education and training provided through the Nursing Workforce 
Development programs, authorized under Title VIII of the Public Health 
Service Act (42 U.S.C. 296 et seq.). NACNS also supports funding for 
research initiatives at the National Institute of Nursing Research 
(NINR) under the National Institutes of Health (NIH), and investment in 
the Nurse-Managed Health Clinics, authorized under Title III of the 
Public Health Service Act (42 U.S.C. 254c-1a.)
    Clinical Nurse Specialists (CNSs) are licensed registered nurses 
who have graduate preparation (Master's or Doctorate) in nursing as a 
Clinical Nurse Specialist. They are Advanced Practice Registered Nurses 
(APRNs) in a specialized area of nursing practice in many areas, 
including but not limited to: primary care, pediatrics, geriatrics, 
women's health, critical care, emergency room, specific conditions, 
such as diabetes or oncology, psychiatry and rehabilitation. In 
addition to providing direct patient care, Clinical Nurse Specialists 
influence care outcomes by providing expert consultation for nurses, 
physicians, hospital administrators and other colleagues to implement 
improvements in healthcare delivery systems. Their leadership has led 
to reduced costs and increased quality of care, such as:
  --Reduced Hospital Costs and Length of Stay;
  --Reduced Frequency of Emergency Room Visits;
  --Shortened Hospital Stays;
  --Improved Pain Management Practices;
  --Increased Patient Satisfaction with Nursing Care; and
  --Reduced Medical Complications in Hospitalized Patients.
                 nursing workforce development programs
    The Nursing Workforce Development programs have supported the 
supply and distribution of qualified nurses to meet our Nation's 
healthcare needs since 1964. Since its inception, Title VIII programs 
have supported over hundreds of thousands of nurses from entry-level 
preparation through graduate study, and provide support for 
institutions that educate nurses for practice in rural and medically 
underserved communities. Between fiscal year 2005 and fiscal year 2010 
alone, Title VIII programs have supported over 400,000 nurses and 
nursing students as well as numerous academic nursing institutions and 
healthcare facilities. Today, the Title VIII programs are essential to 
solving the looming national nursing shortage.
    The National Association of Clinical Nurse Specialists respectfully 
request $251 million for the Nursing Workforce Development programs 
authorized under Title VIII of the Public Health Service Act in fiscal 
year 2013. Last year, your Subcommittee provided a significant funding 
boost for Title VIII that helped support the Loan Repayment program and 
Scholarship and Nurse Faculty Loan program. These increases will 
bolster the pipeline of nurses and nurse faculty, which is so critical 
to reversing the nursing shortage. We feel it is extremely important to 
fund these critical programs. This funding not only increases the much 
needed number of nurses but allows individuals to pursue a career in 
nursing, contribute to the healthcare needs of their community and 
build a career to support them and their families in the future.
    The Advanced Education Nursing, Nursing Workforce Diversity, Nurse 
Education, Practice, and Retention, and Comprehensive Geriatric 
Education programs expand nursing school capacity and increase patient 
access to care. Below is a description of these four critical programs.
  --Advanced Education Nursing (AEN) Grants (Sec. 811) support the 
        preparation of RNs in master's and doctoral nursing programs. 
        The AEN grants help to prepare our Nation's nurse 
        practitioners, clinical nurse specialists, nurse midwives, 
        nurse anesthetists, nurse educators, nurse administrators, 
        public health nurses, and other nurse specialists requiring 
        advanced education. In fiscal year 2008 (most current data 
        available), these grants supported the education of 5,649 
        students.
    --AEN Traineeships assist graduate nursing students by providing 
            full or partial reimbursement for the costs of tuition, 
            books, program fees and reasonable living expenses. In 
            fiscal year 2008, this funding helped support 6,675 
            graduate nurses and APRNs.
    --Nurse Anesthetist Traineeships (NAT) support the education of 
            students in nurse anesthetist programs. In some States, 
            Certified Registered Nurse Anesthetists (CRNAs) are the 
            sole anesthesia providers in almost 100 percent of rural 
            hospitals. Much like the AEN Traineeships, the NAT provides 
            full or partial support for the costs of tuition, books, 
            program fees, and reasonable living expenses. In fiscal 
            year 2008, the program supported 2,145 future CRNAs.
  --Workforce Diversity Grants (Sec. 821) prepare disadvantaged 
        students to become nurses. This program awards grants and 
        contract opportunities to schools of nursing, nurse managed 
        health centers, academic health centers, State or local 
        governments, and nonprofit entities looking to increase access 
        to nursing education for disadvantaged students, including 
        racial and ethnic minorities under-represented among RNs. In 
        fiscal year 2008, the program supported 11,638 students.
  --Nurse Education, Practice, and Retention Grants (Sec. 831) help 
        schools of nursing, academic health centers, nurse-managed 
        health centers, State and local governments, and healthcare 
        facilities strengthen programs that provide nursing education. 
        In fiscal year 2008, the priority areas under this program 
        supported 42,761 with an additional 455 students supported by 
        the Integrated Nurse Education Technology program.
  --Comprehensive Geriatric Education Grants (Sec. 855) are awarded to 
        schools of nursing or healthcare facilities to better provide 
        nursing services for the elderly. These grants are used to 
        educate RNs who will provide direct care to older Americans, 
        develop and disseminate geriatric curriculum, prepare faculty 
        members, and provide continuing education. In fiscal year 2008, 
        this program supported 6,514 nurses and nursing students.
                 national institute of nursing research
    The National Association of Clinical Nurse Specialists respectfully 
requests $150 million for the National Institute of Nursing Research in 
fiscal year 2013. The NINR funds research that lays the groundwork for 
evidence-based nursing practice. Nurse-scientists at NINR examine ways 
to improve models of care to deliver safe, high quality, and cost-
effective health services to the Nation. It is critical that we look 
toward the prevention aspect of healthcare as the vehicle for saving 
our system from further financial burden, and the work of NINR supports 
this through research related to care management of patients during 
illness and recovery, reduction of risks for disease and disability, 
promotion of healthy lifestyles, enhancement of quality of life for 
those with chronic illness, and care for individuals at the end of 
life.
         nurse-managed health clinics: expanding access to care
    The National Association of Clinical Nurse Specialists respectfully 
requests $20 million for the Nurse-Managed Health Clinics authorized 
under Title III of the Public Health Service Act in fiscal year 2013. 
NMHCs are healthcare delivery sites managed by APRNs and are staffed by 
an interdisciplinary health provider team that may include physicians, 
social workers, public health nurses, and therapists. These clinics are 
often associated with a school, college, university, department of 
nursing, federally qualified health center, or independent nonprofit 
healthcare agency. NMHCs serve as critical access points to keep 
patients out of the emergency room, saving the healthcare system 
millions of dollars annually. The NMHCs provide care to patients in 
medically underserved regions of the country, including rural 
communities, Native American reservations, senior citizen centers, 
elementary schools, and urban housing developments.
    Without an adequate supply of nurses to care for our Nation, 
including our growing aging population, the healthcare system is not 
sustainable. The NACNS requests $251 million in fiscal year 2013 for 
the HRSA Nursing Workforce Development programs, $150 million for NINR 
and $20 million for the Nurse-Managed Health Clinics authorized under 
Title III of the Public Health Service Act in fiscal year 2013 to 
ensure access to quality care provided by America's nursing workforce
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research
    The National Alliance for Eye and Vision Research (NAEVR) requests 
fiscal year 2013 NIH funding of at least $32 billion, which reflects a 
$1.38 billion, or 4.5 percent increase over fiscal year 2012, which 
consists of biomedical inflation of 2.8 percent plus modest growth, and 
is necessary since:
  --After nearly a decade of budgets below biomedical inflation, NIH's 
        inflation-adjusted funding is close to 20 percent lower than 
        fiscal year 2003.
  --Even before adjusting for inflation, enacted spending bills in 
        recent years have cut the NIH budget. The looming sequestration 
        mandated by the Budget Control Act threatens further cuts, 
        estimated by the Congressional Budget Office (CBO) at 8 percent 
        in fiscal year 2013 alone.
    NIH, our Nation's biomedical research enterprise, is unique in 
that:
  --Its basic and clinical research has helped to understand the basis 
        of disease, thereby resulting in innovations in healthcare to 
        save and improve lives.
  --Its research serves an irreplaceable role that the private sector 
        could not duplicate.
  --It has been shown through several studies to be a major force in 
        the economic health of communities across the Nation. The 
        latest United for Medical Research report estimates that NIH 
        funding supported more than 432,000 jobs in 2011, directly or 
        indirectly, and generated more than $62.1 billion in economic 
        activity.
    NAEVR requests National Eye Institute (NEI) funding at $730 
million, commensurate with the overall NIH funding increase, especially 
since:
  --Proposed fiscal year 2013 NEI funding of $693 million reflects 
        little more than 1 percent of the $68 billion annual cost of 
        eye disease/vision impairment in the United States.
  --The proposed $693 million level is a $14 million cut since fiscal 
        year 2010, translating into 40 research project grants--any one 
        of which could have cured blindness.
  --In 2009, Congress spoke volumes in passing S. Res. 209 and H. Res. 
        366, which designated 2010-2020 as The Decade of Vision, in 
        which the majority of 78 million Loomers will turn 65 years of 
        age and face greatest risk of aging eye disease. A cut, level 
        funding, or even an inflationary increase is not sufficient for 
        NEI to meet the vision challenges presented by the ``Silver 
        Tsunami.''
    Congress must improve upon the President's fiscal year 2013 
request, since it cuts NEI funding by $8.86 million, or 1.2 percent 
below fiscal year 2012, which results in funding close to the base 
fiscal year 2009 level.
    Although the President's budget request level-funds NIH, it 
proposes to cut NEI by $8.8 million. Although most of this cut reflects 
the NIH Office of AIDS Research pulling its funding from the NEI's 
Studies of Ocular Implications of AIDS (SOCA) clinical trials, which 
established the efficacy of combination antiviral drug therapy in 
treating cytomegalorvirus (CMV) retinitis, the resulting total NEI 
funding of $693 million reflects a level just slightly higher than that 
in fiscal year 2009, prior to the addition of American Recovery and 
Reinvestment Act (ARRA) funding. Although the NEI's congressional 
justification (CJ) notes that this funding level will still enable NEI 
to increase Research Project Grant (RPG) funding by $3 million, it will 
still cut training programs and Research and Development contracts.
    The fiscal year 2013 level also results in a net $14 million loss 
of NEI funding since its highest level in fiscal year 2010, which 
translates into about 40 research grants--any one of which could hold 
the promise of curing a blinding eye disease. NEI is already facing 
enormous challenges in this Decade of Vision 2010-2020. Each day, from 
2011 to 2029, 10,000 citizens will turn 65 and be at greatest risk for 
eye disease, the fast growing African-American and Hispanic populations 
will experience a disproportionately higher incidence of eye disease, 
and the epidemic of obesity will significantly increase the incidence 
of diabetic retinopathy.
    NAEVR requests NEI funding at $730 million, reflecting biomedical 
inflation plus modest growth commensurate with that of NIH overall, 
since our Nation's investment in vision health is an investment in 
overall health. NEI's breakthrough research is a cost-effective 
investment, since it is leading to treatments and therapies that can 
ultimately delay, save, and prevent health expenditures, especially 
those associated with the Medicare and Medicaid programs. It can also 
increase productivity, help individuals to maintain their independence, 
and generally improve the quality of life, especially since vision loss 
is associated with increased depression and accelerated mortality.
    The very health of the vision research community is also at stake 
with a decrease in NEI funding. Not only will funding for new 
investigators be at risk, but also that of seasoned investigators, 
which threatens the continuity of research and the retention of trained 
staff, while making institutions more reliant on bridge and 
philanthropic funding. If an institution needs to let staff go, that 
usually means a highly-trained person is lost to another area of 
research or an institution in another State, or even another country.
    Fiscal year 2013 NIH funding of at least $32 billion, NEI at $730 
million lets NEI build upon its past record of basic and translational 
research.
    In late June 2010, NIH Director Francis Collins, M.D., Ph.D. 
recognized NEI's leadership in translational research at an NEI-
sponsored Translational Research and Vision Conference. Just 2 weeks 
earlier, Dr. Collins testified before the House Energy and Commerce 
Committee, stating that:

    ``Twenty years ago we could do little to prevent or treat AMD. 
Today, because of new treatments and procedures based on NIH/NEI 
research, 1.3 million Americans at risk for severe vision loss from AMD 
over the next 5 years can receive potentially sight-saving therapies.''

    With fiscal year 2013 funding at $730 million, NEI can build upon 
its past research, including:
  --Genetic Basis of Eye Disease.--As NEI Director Paul Sieving, M.D., 
        Ph.D. has stated, of the more than 2,000 genes identified to 
        date, more than 500, or one-quarter, are associated with both 
        common and rare eye diseases. By further understanding the 
        genetic basis of eye disease, NEI can study underlying disease 
        mechanisms and develop appropriate diagnostic and therapeutic 
        applications for such blinding eye diseases as AMD, glaucoma, 
        and retinitis pigmentosa (RP).
    --NEI's AMD Gene Consortium, which consolidates 15 international 
            Genome Wide Association Studies (GWAS) representing over 
            8,000 patients, has validated 8 previously known gene 
            variants and identified 19 new variants.
    --NEI's Glaucoma Human Genetics Collaboration (NEIGHBOR) has 
            identified the first risk variant in a gene thought to play 
            a role in the development of the optic nerve head, the 
            degeneration of which leads to glaucoma and loss of 
            peripheral vision, and then ultimately blindness.
    --The NEI-led human gene therapy clinical trial for 
            neurodegenerative eye disease Leber Congenital Amaurosis 
            (LCA) has resulted to date in 15 patients being treated and 
            experiencing visual improvement. NEI's pioneering work, as 
            well as subsequent refinement of gene therapy techniques, 
            is enabling further research into ocular gene therapy 
            through the launch of NEI-funded clinical trials for AMD, 
            choroideremia, Stargardt disease, and Usher Syndrome. The 
            latter three neurodegenerative diseases occur in early 
            childhood and progressively destroy the retina, leading to 
            vision loss and blindness and resulting in a lifetime of 
            direct medical and indirect support costs. NEI is also 
            funding pre-clinical safety trials for human gene therapy 
            for RP, juvenile retinoschisis (``splitting'' of the 
            retina, resulting in vision loss), and achromatopsia 
            (affecting color perception and visual acuity).
  --Diabetic Eye Disease.--NEI's Diabetic Retinopathy Clinical Research 
        (DRCR) Network found that laser treatment for diabetic macular 
        edema, when combined with anti-angiogenic drug treatment, is 
        more effective than laser treatment alone and will 
        revolutionize the standard of care in place the past 25 years. 
        With the National Institute for Diabetes and Digestive and 
        Kidney Diseases (NIDDK) leading a new NIH strategic plan to 
        combat diabetes, NEI's research through its various diabetic 
        eye disease networks over the past 40 years--in partnership 
        with NIDDK--will be more important than ever.
    Blindness and vision loss is a growing public health problem that 
individuals fear and would trade years of life to avoid.
    The NEI estimates that more than 38 million Americans age 40 and 
older experience blindness, low vision, or an age-related eye disease 
such as AMD, glaucoma, diabetic retinopathy, or cataracts. This is 
expected to grow to more than 50 million Americans by year 2020. 
Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of indirect healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. NEI's proposed fiscal 
year 2013 funding of $693 million reflects just a little more than 1 
percent of this annual costs of eye disease. The continuum of vision 
loss presents a major public health problem, as well as a significant 
financial challenge to the public and private sectors.
    Vision loss also presents a real fear to most citizens:
  --In public opinion polls over the past 40 years, Americans have 
        consistently identified fear of vision loss as second only to 
        fear of cancer.
  --NEI's ``Survey of Public Knowledge, Attitudes, and Practices 
        Related to Eye Health and Disease'' reported that 71 percent of 
        respondents indicated that a loss of their eyesight would rate 
        as a ``10'' on a scale of 1 to 10, meaning that it would have 
        the greatest impact on their day-to-day life.
  --In patients with diabetes, going blind or experiencing other vision 
        loss rank among the top four concerns about the disease. These 
        patients are so concerned about vision loss diminishing their 
        quality of life that those with nearly perfect vision (20/20 to 
        20/25) would be willing to trade 15 percent of their remaining 
        life for ``perfect vision,'' while those with moderate 
        impairment (20/30 to 20/100) would be willing to trade 22 
        percent of their remaining life for perfect vision. Patients 
        who are legally blind from diabetes (20/200 to 20/400) would be 
        willing to trade 36 percent of their remaining life to regain 
        perfect vision.
    NAEVR urges Congress to fund NIH and NEI at funding levels of at 
least $32 billion and $730 million, respectively, which ensures the 
momentum of research and retention of trained personnel.
                              about naevr
    The National Alliance for Eye and Vision Research (NAEVR), which 
serves as the ``Friends of the NEI,'' is a 501(c)4 nonprofit advocacy 
coalition comprised of 55 professional (ophthalmology and optometry), 
patient and consumer, and industry organizations involved in eye and 
vision research. Visit NAEVR's Web site at www.eyeresearch.org.
                                 ______
                                 
 Prepared Statement of the National Association of Nutrition and Aging 
                           Services Programs
    On behalf of the National Association of Nutrition and Aging 
Services Programs (NANASP), we thank you for providing an opportunity 
to submit testimony as you consider an fiscal year 2013 Labor, Health 
and Human Services, Education, and Related Agencies appropriations 
bill. NANASP is a national membership organization of nearly 1,000 
members working to provide older adults healthful food and nutrition 
through community-based services. We have 5 members from Montana and 
about 30 members in Connecticut who in turn serve hundreds of older 
adults every day.
    We are writing today to urge you to provide a much needed increase 
in funding for the senior nutrition programs in the Older Americans 
Act. These programs consist of the congregate and home-delivered (Meals 
on Wheels) nutrition programs along with the Nutrition Services 
Incentive Program. Together, these programs are known as the Elderly 
Nutrition Programs and all three keep millions of vulnerable older 
adults healthy and independent in their homes and communities by 
providing nutritious meals and needed socialization.
    These programs were forced to endure level funding in fiscal year 
2012 and if the President's budget was to be adopted, the same fate 
would occur in fiscal year 2013. Level funding is fine if costs 
associated with a program and the need for a program stay level as 
well. That is not the case with the Elderly Nutrition Programs. USDA 
has estimated that food costs are expected to increase by 3 percent. In 
addition, the price of gasoline has risen dramatically (up 12 percent 
since last year) as well as related energy costs which go to the heart 
of the nutrition programs that operate in congregate sites and who 
provide home-delivered meals on a daily basis. These costs have also 
reduced the ranks of volunteers for our programs. On the need side, 
many of our programs continue to have waiting lists or unmet needs.
    We would also proudly point out that the Elderly Nutrition Programs 
represent a sound and solid investment of the Federal dollar. Our 
programs keep seniors at home and in the community and out of nursing 
homes and hospitals because they help prevent hunger and malnutrition. 
In the congregate and home-delivered meal programs, a senior can be fed 
for 1 year for about $1,300. This $1,300 is the same as the cost of 6 
days in a nursing home or 1 day of hospitalization. In addition, for 
every $1 spent on home-delivered meals, an additional $3.35 is 
contributed from State, local, and private funds.
    The Elderly Nutrition Programs celebrate their 40th anniversary 
this year. They have more than proven their value. It is not time to 
pull back on the commitment of the Older Americans Act. We urge you to 
provide the nutrition programs with a modest increase of at least 3 
percent to allow them to keep up with inflation. Level funding in 
reality is a reduction. Only if there is absolutely no other choice 
then do we urge level funding be maintained for fiscal year 2013.
    In closing, another important priority for NANASP is the Senior 
Community Service Employment Program SCSEP. The President's fiscal year 
2013 budget once again proposes funding SCSEP at $448 million, which 
represents a 45 percent cut which was first enacted in fiscal year 
2011. The SCSEP program, also authorized by the Older Americans Act, is 
the only Federal job training program targeted for older adults seeking 
employment and training assistance. Many SCSEP participants work in 
programs that serve older adults, including the Elderly Nutrition 
Programs. We urge you to restore funding for the SCSEP program to 
$600.4 million, the pre-American Recovery and Reinvestment Act funding 
level.
    Thank you for the opportunity to submit this testimony. Please feel 
free to contact us with any questions or if you need additional 
information.
                                 ______
                                 
          Prepared Statement of the National AHEC Organization
    The members of the National AHEC Organization (NAO) are pleased to 
submit this statement for the record recommending $33.145 million in 
fiscal year 2013 for the Area Health Education Center (AHEC) program 
authorized under Titles VII of the Public Health Service Act and 
administered through the Health Resources and Services Administration 
(HRSA). The NAO is the professional organization representing AHECs. 
The AHEC Program is an established and effective national primary care 
training network built on committed partnerships of 53 medical schools 
and academic centers. Additionally, 253 AHEC centers within 48 States 
and tens of thousands of community practitioners are affiliated with 
the AHEC's national clinical training network
    AHEC is one of the Title VII Health Professions Training programs, 
originally authorized at the same time as the National Health Service 
Corps (NHSC) to create a complete mechanism to provide primary care 
providers for Community Health Centers (CHCs) and other direct 
providers of healthcare services for underserved areas and populations. 
The plan envisioned by creators of the legislation was that the CHCs 
would provide direct service. The NHSC would be the mechanism to fund 
the education of providers and supply providers for underserved areas 
through scholarship and loan repayment commitments. The AHEC program 
would be the mechanism to recruit providers into primary health 
careers, diversify the workforce, and develop a passion for service to 
the underserved in these future providers, i.e. Area Health Education 
Centers are the workforce development, training and education machine 
for the Nation's healthcare safety-net programs. The AHEC program is 
focused on improving the quality, geographic distribution and diversity 
of the primary care healthcare workforce and eliminating the 
disparities in our Nation's healthcare system.
    AHECs develop and support the community based training of health 
professions students, particularly in rural and underserved areas. They 
recruit a diverse and broad range of students into health careers, and 
provide continuing education, library and other learning resources that 
improve the quality of community-based healthcare for underserved 
populations and areas.
    The Area Health Education Center program is effective and provides 
vital services and national infrastructure. Nationwide, over 379,000 
students have been introduced to health career opportunities, and over 
33,000 mostly minority and disadvantaged high school students received 
more than 20 hours each of health career exposure. Over 44,000 health 
professions students received training at 17,530 community-based sites, 
and furthermore; over 482,000 health professionals received continuing 
education through AHECs. AHECs perform these education and training 
services through collaborative partnerships with Community Health 
Centers (CHCs) and the National Health Service Corps (NHSC), in 
addition to Rural Health Clinics (RHCs), Critical Access Hospitals, 
(CAHs), Tribal clinics and Public Health Departments.
Justification for Recommendations
    The AHEC network is an economic engine that fuels the recruitment, 
training, distribution, and retention of a national health workforce. 
AHEC stands for JOBS.
  --Primary Care services improve the health of the population, and 
        therefore increase productivity of the U.S. workforce, while at 
        the same time, contain costs within the U.S. healthcare system. 
        Primary care practitioners are the front-line in prevention of 
        disease, providing cost savings in the United States healthcare 
        system.
    --AHECs are critical in the recruitment, training, and retention of 
            the primary care workforce.
  --Research has demonstrated that the community-training network is 
        the most effective recruitment tool for the health professions 
        and those who teach remain longer in underserved areas and 
        communities.
    --AHECs are in almost every county in the United States.
  --With the aging and growing population, the demand for primary care 
        workforce is far outpacing the supply.
    --AHECs continue to educate and train current workforce, as well as 
            recruiting and preparing future workforce
  --In 2010, AHECs trained 476,585 Health Professionals in 48 States in 
        13,842 Health Professions Shortage Areas (HPSAs)--26.4 percent 
        of those trained were physicians (125,818).
    The AHEC network's outcomes are the backbone of the Nation's 
community-based health professions training, with a focus on training 
primary care workforce.
  --HRSA has encouraged functional linkage between Bureau of Primary 
        Care and Bureau of Health Professions Programs. AHECs have 
        partnerships with over 1,000 Community Health Centers 
        nationally to recruit, train, and retain health professionals 
        who have the cultural and linguistic skills to serve in HRSA 
        designated underserved areas.
  --AHECs via a cooperative agreement with HRSA are training 10,000 
        primary care providers throughout the county to address OIF/
        OEF/OND Veteran's mental health, substance abuse, traumatic 
        brain injury and post-traumatic stress for those not utilizing 
        the VA system
                                 ______
                                 
Prepared Statement of the National Assembly on School Based Health Care
    I am grateful for this opportunity to submit written testimony on 
behalf of the National Assembly on School Based Health Care (NASBHC), 
an organization representing the interests of school-based health 
centers and the children and adolescents who depend upon them.
    More than 1,900 school-based health centers provide comprehensive 
primary healthcare for nearly 2 million students--regardless of their 
ability to pay--and in a location that meets children and adolescents 
where they are: at school. School-based health centers are a common-
sense solution to address the severe gaps in educational achievement, 
healthcare access, and future employment potential among children and 
adolescents. School-based health centers are on the frontlines tackling 
challenging and expensive health crises like diabetes, asthma, mental 
health and oral health. School-based health centers keep students 
healthy and learning.
    The Patient Protection and Affordable Care Act (Public Law 111-148; 
section 4101(b)), includes a Federal authorization for school-based 
health center operations. The success of a Federal school-based health 
center authorization was a huge and historical victory for vulnerable 
children and adolescents; now, the Nation's school-based health centers 
need funds to be appropriated in order to continue providing critical 
health services to our Nation's children and adolescents.
    The National Assembly on School Based Health Care respectfully asks 
the Subcommittee to provide $50 million in funding for school-based 
health centers for fiscal year 2013.
    At school-based health centers, developmentally appropriate health 
services are provided by qualified health professionals, incorporating 
the principles and practices of pediatric and adolescent healthcare 
recommended by the American Medical Association, the American Academy 
of Pediatrics, and the American Association of Family Physicians.
    School-based health centers are first-hand witnesses to factors 
that impact student health and academic achievement--including 
bullying, school violence, depression, stress, and poor eating habits--
circumstances often missed by outside health providers. Working within 
the school building, school-based health center staff members are 
uniquely poised to address the many challenges students bring to the 
classroom. Access to competent and appropriate healthcare leads to 
positive academic outcomes as shown in a recent study proving that 
school-based health centers have positive impacts on student 
achievement--particularly increasing grade point averages and 
attendance.
    Sadly, many school-based health centers are struggling to keep 
their doors open. Diminished public and private support, layoffs, and 
hiring freezes have reduced the number of providers on site to deliver 
care. Additionally, school-based health centers have historically faced 
limited patient revenue streams despite decades of providing services 
to Medicaid and CHIP-covered children: the gap between cost and actual 
revenue paid by Medicaid is quite steep in some communities. Average 
payment rates for SBHC visits by Medicaid enrollees range widely. In 
addition, many developmentally appropriate services--mental health, 
heath education, and behavioral risk reduction counseling--are 
oftentimes either not reimbursed or, if so, at a fraction of the cost 
of actual care.
    Restricted and diminishing revenue to support the delivery of 
health services to kids through school-based health centers jeopardizes 
the health and well-being of our Nation's children. Examples of funding 
limitations include:
  --New York.--Suffolk County Department of Health Services suffered 
        reduction in funding and needed to reduce operations. Eastern 
        BOCES School Based Health Center, supported by the county, 
        closed on July 1, 2011. Even worse, UHS Chenango Memorial 
        Hospital decided to close 10 comprehensive school-based health 
        centers which include 5 dental programs prior to the start of 
        this school year.
  --Illinois.--A survey taken by the Illinois Coalition for School 
        Health Centers found that seven school-based health centers in 
        that State have cut programs or staff over the last 4 years due 
        to financial constraints.
  --Arizona.--In January 2009, 10 rural school-based health care 
        centers were shut down because of lack of funding support at 
        the following schools: Aquila Elementary, Arlington Elementary, 
        Buckeye High School, Harquahala Valley community, Liberty 
        Elementary, Paloma Elementary, Palo Verde Elementary, Ruth 
        Fisher Elementary, Rainbow Valley Elementary, and Tolleson High 
        School.
    School-based health centers need direct Federal financial support 
for operations to continue delivering quality comprehensive services to 
our Nation's children and adolescents.
    Thanks to the school-based health center authorization and the path 
it creates toward future reform, if funded, fewer school-based health 
centers will be forced to shut their doors because of State and local 
budget cuts, and more communities that desire to open a health clinic 
at their school will have the critical resources to do so. In her 
statement at the Coalition for Community School's national forum, 
Secretary Sebelius agreed: ``We are thrilled that part of the [health 
reform] legislation calls for an expanded foot print of school-based 
health clinics . . .  I can't think of a better way to deliver primary 
care and preventive care to not only students but their families than 
through school-based clinics.''
    We are pleased that school-based health centers are, at last, a 
federally authorized program. Until funds are appropriated, however, 
there remains no Federal support for their operations. We ask that 
funds be allocated this year to enable school-based health centers to 
keep their doors open, and to give critical resources to communities 
that desire to open health clinics at their schools.
    We recognize that there has been some confusion about capital money 
allocated to school-based health centers in the Affordable Care Act 
under section 4101(a). These funds, although important, are limited to 
capital improvements, land acquisition, and equipment purchases. 
Expenditures for care and personnel are specifically excluded.
    We respectfully request that a $50 million appropriation be 
provided for the school-based health center authorization for fiscal 
year 2013.
                                 ______
                                 
 Prepared Statement of the National Association of State Comprehensive 
                         Health Insurance Plans
    The National Association of State Comprehensive Health Insurance 
Plans (NASCHIP) submits this testimony to urge your support for a 
fiscal year 2013 appropriation of $55 million for the State High Risk 
Pool Funding Extension Act of 2006.
    This funding level would be what our programs received in fiscal 
year 2011. Our programs which operate in 35 States (including Iowa and 
Alabama) and serve more than 200,000 persons with pre-existing 
conditions have been growing consistently year over year. Even with the 
advent of the Pre-Existing Condition Insurance Plans (PCIP) authorized 
under the Patient Protection and Affordable Care Act to serve 
individuals with pre-existing conditions, State pool enrollment 
continues to grow across the country. This is in part due to continued 
erosion of employer-sponsored coverage.
    Fiscal year 2012 funding to support the 35 State high risk pools 
was cut by $11 million or 25 percent. These cuts resulted in higher 
premiums and some of our most vulnerable citizens finding themselves 
unable to afford the healthcare services they need. Nearly half of all 
State high risk pools depend on the funding to directly buy-down 
premiums and other cost shares for low income pool members. Continuing 
with such dramatic cuts to this critical funding will ensure that more 
low income plan members may have to drop coverage altogether as 
premiums will be unaffordable.
    Contrast this to the lagging enrollment numbers for the totally 
separate PCIP program under the Affordable Care Act (with $5 billion in 
funding). The simple fact is not only do our State high risk pool 
programs predate the PCIP program but they are also distinct from PCIP 
because of the subsidy we provide in one-third of our States to low-
income individuals offering discounts of between 18 and 67 percent.
    The administration's budget proposal for fiscal year 2013 slashes 
funding to $22 million, another 50 percent reduction. The 
administration's justification for this draconian cut is based on the 
patently false premise that only 6 months of funding is needed for this 
program is fiscal year 2013 because State exchanges will be fully 
operational and there will no need for the State high risk pool 
program. That is a misreading on the reality of the situation. 
Individuals covered by high risk pools will not be able to access 
insurance in the Exchange marketplace until January 1, 2014 at the 
earliest. Therefore, our State high risk pools will require funding for 
the entire fiscal year 2013 as they will be operational until at least 
December 31, 2013. State exchanges will not be ready to insure State 
high-risk pools members until after the close of fiscal year 2013. 
Funding must be provided to ensure continuation of coverage through 
2013 and a safe transition for these needy individuals in 2014.
    The funding level we seek is to simply allow us to continue our 
important work for the duration of fiscal year 2013; therefore, our 
request is a funding level of $55 million. We suggest as an offset to 
support this funding level come with the authority to allow PCIP funds 
to be used to support State operational grants and low-income subsidies 
for those with preexisting conditions in the 35 States we serve.
    Thank you for your consideration and the opportunity to submit this 
testimony.
                                 ______
                                 
 Prepared Statement of the National Alliance of State and Territorial 
                             AIDS Directors
    The National Alliance of State and Territorial AIDS Directors 
(NASTAD) represents the Nation's chief State health agency staff who 
have programmatic responsibility for administering HIV/AIDS and viral 
hepatitis healthcare, prevention, education, and supportive service 
programs funded by State and Federal governments. On behalf of NASTAD, 
we urge your support for increased funding for Federal HIV/AIDS and 
viral hepatitis programs in the fiscal year 2013 Labor-Health-Education 
appropriations bill, and thank you for your consideration of the 
following critical funding needs for HIV/AIDS, viral hepatitis and STD 
programs in fiscal year 2013. These funding needs support activities 
aligned with the goals set forth in the National HIV/AIDS Strategy 
(NHAS)--a game-changing blueprint for tackling the Nation's HIV/AIDS 
epidemic.
    As we are 30 years into the HIV/AIDS epidemic, we must be mindful 
that HIV/AIDS is still a crisis in the United States, not just abroad. 
HIV/AIDS is an emergency and while there are life-saving medications 
that did not exist 20 years ago, there is still no cure, and 
approximately 50,000 new infections occur annually. The Nation's 
prevention efforts must match our commitment to the care and treatment 
of infected individuals. First and foremost we must address the 
devastating impact on racial and ethnic minority communities, 
particularly African-Americans and Latinos, as well as gay men and 
other men who have sex with men of all races and ethnicities, substance 
users, women and youth. To be successful, we must expand outreach, 
scale-up and consider new and innovative approaches to arrest the 
epidemic here at home.
                  hiv/aids care and treatment programs
    The Health Resources and Services Administration (HRSA) administers 
the $2.4 billion Ryan White Program that provides health and support 
services to more than 500,000 Persons Living with HIV/AIDS (PLWHA). 
NASTAD requests a minimum increase of $270.1 million in fiscal year 
2013 for State Ryan White Part B grants, including an increase of $79.9 
million for the Part B base and $190.2 million for AIDS Drug Assistance 
Programs (ADAPs). With these funds States and territories provide care, 
treatment and support services to PLWHA, who need access to HIV 
clinicians, life-saving and life-extending therapies, and a full range 
of wrap-around support services to ensure adherence to complex 
treatment regimens. All States have reported to NASTAD a significant 
increase in the number of individuals seeking Part B base and ADAP 
services.
    State ADAPs provide medications to low-income uninsured or 
underinsured PLWHA. In fiscal year 2010, over 226,000 clients were 
enrolled in ADAPs nationwide. Due to many factors such as unemployment, 
economic challenges, increased HIV testing and linkages to care, and 
new HIV treatment guidelines calling for earlier therapeutic 
treatments, program demand has increased dramatically. Due to emergency 
funding for ADAPs throughout fiscal year 2012, the waitlists have 
decreased; however, to eliminate waitlists and other cost containment 
measures completely, there is still a need for additional funding. As 
of April 19, 2012, there are 3,079 individuals are on waiting lists in 
10 States to receive their life-sustaining medications through ADAP:
  --Florida: 427 individuals;
  --Georgia: 1,058 individuals;
  --Idaho: 8 individuals;
  --Louisiana: 356 individuals;
  --Montana: 4 individuals;
  --Nebraska: 222 individuals;
  --North Carolina: 140 individuals;
  --South Carolina: 0 individuals;
  --Utah: 0 individuals; and
  --Virginia: 864 individuals.
             hiv/aids prevention and surveillance programs
    One of the major goals of the NHAS is to lower the annual number of 
new infections by 25 percent from 56,300 to 42,225 by 2015. In order to 
meet this ambitious goal, NASTAD requests an increase of $100 million 
above fiscal year 2012 funding levels for State and local health 
department HIV prevention and surveillance cooperative agreements in 
order to provide comprehensive prevention programs. By providing 
adequate resources to State and local health departments to scale up 
HIV prevention and surveillance programs, we will be closer to meeting 
the NHAS goal of reducing new HIV infections by 25 percent by 2015.
    NASTAD is gravely concerned about the unraveling of State public 
health HIV prevention infrastructure in an era where averting new HIV 
infections is paramount. NASTAD requests that of these funds, $41 
million ($27 million for core health department prevention programs and 
$14 million for expanded HIV testing) be used to restore funding to 
health departments who lost resources through PS12-1201: Comprehensive 
Human Immunodeficiency Virus (HIV) Prevention Programs for Health 
Departments to fiscal year 2010 levels. The funding should reinstate 
Category A: HIV Prevention Programs for Health Departments losses and 
Category B: Expanded HIV Testing for Disproportionately Affected 
Populations. NASTAD's analysis indicates that 40 jurisdictions 
(including 34 States, the District of Columbia, three cities and two 
territories) experienced decreases in their core HIV prevention awards 
between fiscal year 2011 and fiscal year 2012. In terms of expanded HIV 
testing 24 jurisdictions (including 20 States, the District of Columbia 
and three cities) experienced a decrease in their awards between fiscal 
year 2010 and fiscal year 2012.
    NASTAD supports targeting resources to where they are most needed 
and innovation in HIV prevention programming. However, since the 
funding levels were lower than the previous year and because funds were 
shifted to some jurisdictions as a result of a new formula based on 
reported HIV cases, dramatic decreases in resources have occurred for 
the majority of States. Unfortunately, cuts of this magnitude erode the 
capacity of many of States to drive down HIV incidence and link newly 
diagnosed individuals to care, both critical goals of the National HIV/
AIDS Strategy. Many health departments are experiencing significant 
challenges as they restructure existing programs in reaction to these 
funding shifts.
    NASTAD also recommends that all jurisdictions be eligible for 
expanded testing resources. Additional analyses indicate that 
approximately $18 million in additional funds are needed for Category 
B, expanded HIV testing, to bring currently funded programs to their 
fiscal year 2010 levels (including the MAI and PPHF resources) and fund 
the remaining programs at tiered levels based on prevalence. If the 
NHAS is to be truly ``national,'' all jurisdictions should receive 
resources under Category B. Currently, expanded HIV testing activities 
serve disproportionately impacted populations: African-Americans, 
Latinos, gay and bisexual men of all races and ethnicities and persons 
who inject drugs. Moreover, the program has been an effective way to 
implement routine HIV testing in clinical settings--increasing the 
number of people who know their HIV status and linking those with HIV 
to care and treatment. During the first 3 years of the program 
approximately 2.6 million tests were conducted with an estimated 28,000 
being confirmed HIV positive. Reducing new HIV infections relies 
heavily on ``knowing your status.'' This program should be expanded 
with adequate funding to ensure that more individuals learn their HIV 
status and are linked to care.
    In addition, NASTAD believes an increase of $40 million should be 
directed toward critical HIV surveillance efforts. HIV surveillance has 
been chronically underfunded in most jurisdictions for over a decade. 
As a result, many States cobble together their HIV surveillance 
programs with resources leveraged from other programs. With the 
significant reallocation of resources to State and local health 
departments through FOA PS12-1201 Comprehensive HIV Prevention Programs 
for Health Departments, the ability of these health departments to 
continue supporting surveillance activities will be greatly diminished. 
Additional resources will allow improvements in core surveillance and 
expand surveillance for HIV incidence, behavioral risk, and receipt of 
care information including CD4 and viral load reporting. HIV 
surveillance data are the mechanism through which the success at 
achieving the goals of the NHAS will be measured. The completeness of 
national HIV surveillance activities is critical to monitor the HIV/
AIDS epidemic and to provide data for targeting with greater precision 
the delivery of HIV prevention, care, and treatment services.
                  viral hepatitis prevention programs
    NASTAD requests an increase of $40 million for a total of $59.3 
million in fiscal year 2013 for the CDC's Division of Viral Hepatitis 
(DVH) for a national testing, education and surveillance initiative as 
outlined in the Division's professional judgment budget submitted to 
Congress last year. We believe that testing to identify over 3 million 
people or 65-75 percent of chronic hepatitis B and C patients who do 
not know they are infected is the highest priority for reducing illness 
and death related to viral hepatitis. Testing must accompany education 
efforts to reach those already infected and at high risk of death and 
of spreading the disease. DVH received an increase of $10 million from 
the Prevention and Public Health Fund in fiscal year 2012 for the 
development of a national screening initiative. NASTAD requests funding 
to continue to support the viral hepatitis screening and testing 
initiative and encourages the Division to make all currently funded 
health departments eligible for funding. Due to the lack of strong 
surveillance data for viral hepatitis, it would be impossible to 
adequately determine which jurisdictions have the highest incidence or 
prevalence of viral hepatitis. Developing a national surveillance 
system is the Division's second highest priority. Surveillance is 
needed to monitor disease trends and evaluate evidence-based 
interventions. Unlike other infectious diseases, viral hepatitis lacks 
a national surveillance system. NASTAD requests funding to State adult 
viral hepatitis prevention coordinators be increased from $5 to $10 
million. Adult Viral Hepatitis Prevention Coordinators are based in 
State health departments and implement and integrate testing, education 
and surveillance into the existing public health infrastructure. States 
and cities receive an average funding award from DVH of $90,000, which 
supports a single staff position and is not sufficient for the 
provision of core prevention services.
    HHS' Viral Hepatitis Action Plan will improve the collaboration and 
coordination of the Federal Government's response and implement the 
Institute of Medicine's (IOM) expert recommendations on controlling and 
preventing viral hepatitis. Funding is needed to support increased 
capacity at the HHS Office of the Assistant Secretary for Health (ASH) 
for supporting the implementation of the HHS Viral Hepatitis Action 
Plan.
                       syringe exchange programs
    NASTAD supports the lifting of the ban on the use of Federal funds 
for syringe exchange programs and opposes any Federal actions which ban 
or increase the bureaucratic, regulatory and reporting requirements on 
syringe access beyond those already in place at the State and local 
level. Syringe exchange programs are a crucial aspect of comprehensive 
HIV and viral hepatitis prevention services. Sharing used syringes is 
the primary reason IDUs become infected with HIV and hepatitis C and 
morbidity and mortality rates among IDUs remain disproportionately 
high. People who inject drugs bear the highest burden of hepatitis C 
(HCV) infection and in some communities as many as 90 percent of IDUs 
are infected with chronic HCV. Research has provided overwhelming 
evidence that access to sterile syringes is effective in reducing 
transmission of HIV, without increasing drug use. The 21-year-old ban 
on the use of Federal funds for syringe exchange programs was lifted in 
December 2009 when the fiscal year 2010 appropriations bill was signed 
into law without this restriction. However, in the fiscal year 2012 
Consolidated Appropriations Act, the Federal ban on syringe exchange 
programs was reinstated in the Labor-HHS appropriations and Financial 
Services appropriations, barring the use of Federal funds for syringe 
exchange in the United States and the District of Columbia.
                        std prevention programs
    NASTAD supports an increase of $26.2 million for a total of $180 
million in fiscal year 2013 for STD prevention, treatment and 
surveillance activities undertaken by State and local health 
departments. CDC's Division of STD Prevention has prioritized four 
disease prevention goals--Prevention of STD-related infertility, STD-
related adverse pregnancy outcomes, STD-related cancers and STD-related 
HIV transmission. CDC estimates that 19 million new infections occur 
each year, almost half of them among young people ages 15 to 24. In 1 
year, the United States spends over $8 billion to treat the symptoms 
and consequences of STDs. Untreated STDs contribute to infant 
mortality, infertility, and cervical cancer. Additional Federal 
resources are needed to reverse these alarming trends and reduce the 
Nation's health spending. The teen pregnancy prevention initiative, 
administered through the Office of Adolescent Health should be expanded 
to include prevention of HIV and STDs and funded at $130 million.
                   prevention and public health fund
    The Prevention and Public Health Fund (PPHF) tackles critical 
epidemics, such as HIV/AIDS and viral hepatitis. The fund is a unique 
opportunity to decrease healthcare spending related to HIV/AIDS 
treatment and care, and invest in viral hepatitis prevention and 
screening efforts. We encourage you to utilize the PPHF to support a 
broad testing and screening initiative that would include neglected 
diseases such as viral hepatitis in order to capture patients before 
they progress in their liver disease and increase costs to public 
healthcare systems, as well as HIV/AIDS prevention initiatives.
    PPHF is urgently needed to address the many emerging health threats 
our country faces through a coordinated, comprehensive, sustainable and 
accountable approach to improving health outcomes and curbing costs. It 
is essential to the health of Americans that we capitalize on the 
opportunity to invest in prevention programs and transform our public 
health system. In order to accomplish this, we must maintain the PPHF. 
The PPHF was used to offset costs for the Middle Class Tax Relief and 
Job Creation Act of 2012, which cut approximately $6.25 billion from 
PPHF over the next 10 years. It is imperative that the Prevention and 
Public Health Fund is not cut further or used again as an offset for 
other programs.
    As you contemplate the fiscal year 2013 Labor, HHS and Education 
appropriations bill, we ask that you consider all of these critical 
funding needs. We thank the Chairman, Ranking Member and members of the 
Subcommittee, for their thoughtful consideration of our 
recommendations. Our response to the HIV, viral hepatitis and STD 
epidemics in the United States defines us as a society, as public 
health agencies, and as individuals living in this country. There is no 
time to waste in our Nation's fight against these infectious and often 
chronic diseases. The Nation's prevention efforts must match our 
commitment to the care and treatment of infected individuals.
                                 ______
                                 
              Prepared Statement of the Nursing Community
    The Nursing Community is a forum comprised of 59 national 
professional nursing membership associations that builds consensus and 
advocates on a wide spectrum of healthcare and nursing issues 
surrounding practice, education, and research. These 59 organizations 
are committed to promoting America's health through the advancement of 
the nursing profession. Collectively, the Nursing Community represents 
nearly 1 million Registered Nurses (RNs), Advanced Practice Registered 
Nurses (APRNs--including certified nurse-midwives, nurse practitioners, 
clinical nurse specialists, and certified registered nurse 
anesthetists), nurse executives, nursing students, nursing faculty, and 
nurse researchers. Together, our organizations work collaboratively to 
support a robust investment in the Nursing Workforce Development 
programs (authorized under Title VIII of the Public Health Service Act 
[42 U.S.C. 296 et seq.]), support research initiatives at the National 
Institute of Nursing Research (NINR), and secure authorized funding for 
Nurse-Managed Health Clinics (Title III of the Public Health Service 
Act) so that our Nation's population receives the highest-quality 
nursing services possible.
Demand for Nurses Continues to Grow
    According to the Bureau of Labor Statistics' Employment Projections 
for 2010-2020, the expected number of practicing nurses will grow from 
2.74 million in 2010 to 3.45 million in 2020, an increase of 712,000 or 
26 percent. The projections further explain the need for 495,500 
replacements in the nursing workforce, bringing the total number of job 
openings for nurses due to growth and replacements to 1.2 million by 
2020.
    Two primary factors contribute to this overwhelming projection. 
First, America's nursing workforce is aging. According to the 2008 
National Sample Survey of Registered Nurses, over 1 million of the 
Nation's 2.6 million practicing RNs are over the age of 50. Within this 
population, more than 275,000 nurses are over the age of 60. As the 
economy continues to rebound, many of these nurses will seek 
retirement, leaving behind a significant deficit in the number of 
experienced nurses in the workforce. Second, America's baby boomer 
population is aging. It is estimated that over 80 million baby boomers 
reached age 65 last year. This population will require a vast influx of 
nursing services, particularly in areas of primary care and chronic 
illness management. A significant investment must be made in the 
education of new nurses to provide the Nation with the nursing services 
it demands.
Addressing the Demand: Title VIII Nursing Workforce Development 
        Programs
    For nearly 50 years, the Nursing Workforce Development programs, 
authorized under Title VIII of the Public Health Service Act, have 
helped build the supply and distribution of qualified nurses to meet 
our Nation's healthcare needs. The Title VIII programs bolster nursing 
education at all levels, from entry-level preparation through graduate 
study, and provide support for institutions that educate nurses for 
practice in rural and medically underserved communities. Today, the 
Title VIII programs are essential to ensure the demand for nursing care 
is met. Between fiscal year 2005 and 2010 alone, the Title VIII 
programs supported over 400,000 nurses and nursing students as well as 
numerous academic nursing institutions, and healthcare facilities.
    The American Association of Colleges of Nursing's (AACN) Title VIII 
Student Recipient Survey gathers information about Title VIII dollars 
and its impact on nursing students. The 2011-2012 survey, which 
included responses from over 1,600 students, stated that the Title VIII 
programs played a critical role in funding their nursing education. The 
survey showed that 68 percent of the students receiving Title VIII 
funding are attending school full time. By supporting full-time 
students, the Title VIII programs are helping to ensure that new nurses 
enter the workforce without delay. The programs also address the 
current demand for primary care providers. Over one-half of respondents 
reported that their career goal is to become a nurse practitioner. 
Approximately 80 percent of nurse practitioners provide primary care 
services throughout the United States. Additionally, several 
respondents identified working in rural and underserved areas as future 
goals, with becoming a nurse faculty member, a nurse practitioner, or a 
nurse researcher as the top three nursing positions for their career 
aspirations.
    The Title VIII programs also address the need for more nurse 
faculty. Data from AACN's 2011-2012 enrollment and graduations survey 
show that nursing schools were forced to turn away 75,587 qualified 
applications from entry-level baccalaureate and graduate nursing 
programs in 2011, citing faculty vacancy as a primary reason. The Title 
VIII Nurse Faculty Loan Program aids in increasing nursing school 
enrollment capacity by supporting students pursuing graduate education 
provided they serve as faculty for 4 years after graduation.
    The Nursing Community respectfully requests $251 million for the 
Nursing Workforce Development programs authorized under Title VIII of 
the Public Health Service Act in fiscal year 2013.
National Institute of Nursing Research: Foundation for Evidence-Based 
        Care
    As 1 of the 27 Institutes and Centers at the National Institutes of 
Health (NIH), the NINR funds research that lays the groundwork for 
evidence-based nursing practice. Nurse-scientists funded by NINR 
examine ways to improve care models to deliver safe, high-quality, and 
cost-effective health services to the Nation. Our country must look 
toward the prevention aspect of healthcare as the vehicle for saving 
our system from further financial burden, and the work of NINR embraces 
this endeavor through research related to care management of patients 
during illness and recovery, reduction of risks for disease and 
disability, promotion of healthy lifestyles, enhancement of quality of 
life for those with chronic illness, and care for individuals at the 
end of life. Moreover, NINR helps to provide needed faculty to support 
the education of future generations of nurses. Training programs at 
NINR develop future nurse-researchers, many of whom also serve as 
faculty in our Nation's nursing school.
    The Nursing Community respectfully requests $150 million for the 
NINR in fiscal year 2013. This level of funding is on par with the Ad 
Hoc Group for Medical Research's $32 billion request for the total NIH 
budget in fiscal year 2013.
Nurse-Managed Health Clinics: Expanding Access to Care
    NMHCs are healthcare delivery sites managed by APRNs and are 
staffed by an interdisciplinary team that may include physicians, 
social workers, public health nurses, and therapists. These clinics are 
often associated with a school, college, university, department of 
nursing, federally qualified health center, or independent nonprofit 
healthcare agency. NMHCs serve as critical access points to keep 
patients out of the emergency room, saving the healthcare system 
millions of dollars annually.
    NMHCs provide care to patients in medically underserved regions of 
the country, including rural communities, Native American reservations, 
senior citizen centers, elementary schools, and urban housing 
developments. The populations within these communities are the most 
vulnerable to chronic illnesses that create heavy financial burden on 
patients and the healthcare system. NMHCs aim to reduce the prevalence 
of disease and create healthier communities by providing primary care 
services and educating patients on health promotion practices. 
Furthermore, NMHCs serve as clinical education training sites for 
nursing students and other health professionals, a crucial aspect of 
NMHCs given that a lack of training sites is commonly identified as a 
barrier to nursing school enrollment.
    The Nursing Community respectfully requests $20 million for the 
Nurse-Managed Health Clinics authorized under Title III of the Public 
Health Service Act in fiscal year 2013.
    Without a workforce of well-educated nurses providing evidence-
based care to those who need it most, including our growing aging 
population, the healthcare system is not sustainable. The Nursing 
Community's request of $251 million for the Title VIII Nursing 
Workforce Development programs, $150 million for the National Institute 
of Nursing Research, and $20 million for Nurse-Managed Health Clinics 
in fiscal year 2013 will help ensure access to quality care provided by 
America's nursing workforce.
       members of the nursing community submitting this testimony
Academy of Medical-Surgical Nurses
American Academy of Nurse Practitioners
American Academy of Nursing
American Association of Colleges of Nursing
American Association of Nurse Anesthetists
American Association of Nurse Assessment Coordination
American College of Nurse Practitioners
American College of Nurse-Midwives
American Nephrology Nurses' Association
American Nurses Association
American Organization of Nurse Executives
American Psychiatric Nurses Association
American Society for Pain Management Nursing
American Society of PeriAnesthesia Nurses
Asian American and Pacific Islander Nurses Association
Association of Community Health Nursing Educators
Association of Nurses in AIDS Care
Association of periOperative Registered Nurses
Association of Rehabilitation Nurses
Association of State and Territorial Directors of Nursing
Association of Women's Health, Obstetric and Neonatal Nurses
Commissioned Officers Association of the U.S. Public Health Service
Dermatology Nurses' Association
Gerontological Advanced Practice Nurses Association
Hospice and Palliative Nurses Association
Infusion Nurses Society
International Association of Forensic Nurses
International Nurses Society on Addictions
International Society of Nurses in Genetics
International Society of Psychiatric Nursing
National American Arab Nurses Association
National Association of Clinical Nurse Specialists
National Association of Nurse Practitioners in Women's Health
National Association of Pediatric Nurse Practitioners
National Black Nurses Association
National Gerontological Nursing Association
National Nursing Centers Consortium
National Organization for Associate Degree Nurses
National Organization of Nurse Practitioner Faculties
Nurses Organization of Veterans Affairs
Oncology Nursing Society
Pediatric Endocrinology Nursing Society
Preventive Cardiovascular Nurses Association
Public Health Nursing Section, American Public Health Association
Society of Urologic Nurses and Associates
Wound, Ostomy and Continence Nurses Society
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
                department of health and human services
Introduction
    The National Congress of American Indians (NCAI) is the oldest and 
largest American Indian organization in the United States. In 1944, 
tribal leaders created NCAI as a response to termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. Since then, NCAI has fought to preserve the 
treaty rights and sovereign status of tribal governments, while 
ensuring that Indian people may fully participate in the political 
system. As the most representative organization of American Indian 
tribes, NCAI serves the broad interests of tribal governments across 
the Nation.
    Tribal nations in the United States are vastly diverse--as are the 
citizens that comprise them--but in the modern era, the common element 
responsible for revitalizing tribal homelands is tribal sovereignty at 
work. Effective self-rule requires that the United States respect 
tribes' inherent rights of self-government and self-determination and 
that the Federal Government honor its trust obligations to Native 
peoples in the Federal budget. Addressing the healthcare needs of 
American Indians and Alaska Natives is one of the most important 
cornerstones of this Federal trust responsibility. The budget for the 
Department of Health and Human Services should carry forward the trust 
responsibility and support tribal self-determination as a key element 
of healthcare reform while continuing the Government's partnership with 
tribes to improve Indian health.
    The foregoing fiscal year 2013 tribal budget program requests have 
been compiled in collaboration with tribal leaders, Native 
organizations, and tribal budget consultation bodies. Tribes 
respectfully request that these recommendations be included in the 
Labor, Health and Human Services, Education, and related agencies 
appropriations process.
Administration on Aging
            Older Americans Act--Title VI
    Provide $30 million for Parts A (Grants for Native Americans) and B 
(Grants for Native Hawaiians) of the Act.
    Provide $8.3 million for the Native American Caregiver Support 
Program, and create a line item for training for tribal recipients.
    Programs under Title VI of the Older Americans Act are the primary 
vehicle for providing nutrition and other direct supportive services to 
American Indian, Alaska Native, and Native Hawaiian elders and their 
caregivers. However, these programs cannot be effective if not 
adequately funded.
            Older Americans Act--Title VII
    Create a tribal set-aside of $2 million under Subtitle B of Title 
VII.
    Subtitle B of Title VII of the Older Americans Act authorizes a 
program for tribes, public agencies, or nonprofit organizations serving 
Native elders to assist in prioritizing issues concerning elder rights 
and to carry out related activities. A $2 million tribal set-aside 
should be created under Subtitle B to ensure that tribes have access to 
funds at a comparable level to States.
            Older Americans Act--Title IV
    Provide $3 million for national minority aging organizations to 
build the capacity of community-based organizations to better serve 
American Indian and Alaska Native seniors.
    Language and cultural barriers severely restrict Native elder 
access to Federal programs for which they are eligible, such as Social 
Security, Medicare, and Medicaid. Funding is needed to build capacity 
for tribal, minority, and other community-based aging organizations to 
serve Native elders and enroll them in programs to which they are 
entitled.
Administration for Children and Families
            Head Start
    Exempt Head Start from budget-related reductions.
    The Indian Head Start program comprehensively integrates education, 
health, and family services in a manner that closely mirrors a 
traditional Indian education model, making Indian Head Start one of the 
most successful Federal programs operating in Indian Country. Despite 
these successes, inflation-adjusted Head Start funding has 
significantly declined in the past decade and as a result, less than 20 
percent of age-eligible Indian children are enrolled in Indian Head 
Start. Recognizing that achieving a significant funding increase in 
fiscal year 2013 will be difficult, Head Start should at least be held 
harmless from any reductions, just as other low-income programs are 
held harmless in the Budget Control Act of 2011.
            Language Preservation Programs
    Provide $12 million for Native language preservation, with $4 
million designated to fund the Esther Martinez Language Programs 
through the Administration for Native Americans.
    Nationwide, tribes are combating the loss of traditional languages 
through culture and language programs. Tribal students in immersion 
programs often perform substantially better academically than Native 
students who have not participated in such programs.\1\ As such, in 
2013, the Federal budget should include $12 million as part of the 
appropriation to the Administration for Native Americans for Native 
language preservation activities, with $4 million designated to support 
Esther Martinez Language Programs' Native language immersion 
initiatives.
---------------------------------------------------------------------------
    \1\ See for example the cases profiled in Pease-Pretty on Top, J. 
(2003). Native American Language Immersion: Innovative Native Education 
for Children & Families. Denver, Colorado: American Indian College 
Fund.
---------------------------------------------------------------------------
            Foster Care Initiative
    Provide $20 million to fund Children's Bureau foster care 
demonstration grants and track tribal awards.
    The goal of this Obama administration initiative is to identify 
innovative strategies that improve outcomes for children in long-term 
foster care. Twenty million dollars in demonstration grants should be 
provided to tribes, States, and localities to test new, innovative 
strategies for improving outcomes for foster care children.
            Child Welfare Services
    Increase the tribal allocation of Title IV-B, Subpart 1 by creating 
a 3 percent set-aside of the total appropriation.
    Provide $200 million for Title IV-B, Subpart 2--the full amount 
authorized for the discretionary component of the program that will 
benefit tribes and States.
    The bare minimum needed to establish a child abuse and neglect 
prevention program in any tribal community is approximately $80,000. 
Title IV-B, Subpart 1 supports a significant portion of this amount, 
yet tribes are hindered in their ability to effectively administer a 
program as the majority of them are only eligible for small grants 
(less than $10,000, in most cases). No other consistent, stable source 
of funding is available to tribal governments to provide basic, 
preventive child welfare services. A 3 percent tribal set-aside of 
Title IV-B, Subpart 1 funding (within a total appropriation of $281.7 
million for this capped entitlement program) will allow for larger 
tribal grants to provide basic child welfare services to support Native 
families and protect Native children.
    In order for tribal courts to advance new practices and improve 
outcomes with children under their jurisdiction, they need access to 
funding that will support capacity building and innovative practices. 
Currently, the Title IV-B, Subpart 1 program allows the use of funds 
for family preservation purposes, but Title IV-B, Subpart 2 (the larger 
of the two programs) does not focus on family preservation. Title IV-B, 
Subpart 2 should be funded at $200 million--the full amount authorized 
under the Act for the discretionary component of the program--so tribes 
will receive increased resources from the 3 percent set-aside.
            Child Abuse Prevention and Treatment Act (CAPTA)
    Provide a separate line item for tribal Title II grants and set-
aside 3 percent of total funding for tribes and tribal consortia.
    Currently, tribes and migrant programs must compete with each other 
for a 1 percent set-aside of the total funding appropriated under Title 
II of CAPTA. Tribes and States have a governmental responsibility to 
ensure that foster care protections are provided to every child that is 
in an out-of-home placement under their jurisdiction and care. A 3 
percent tribal set-aside, listed as a separate line item in the budget, 
will provide a base level of funding for every tribe, regardless of 
size, and give every tribal community an opportunity to establish a 
quality child abuse and neglect prevention program.
            Low-Income Home Energy Assistance Program (LIHEAP)
    Maintain full funding levels for LIHEAP ($4.5 billion), with $51 
million to tribes.
    LIHEAP prevents families from having to make the choice between 
food and heat. With high unemployment and barriers to economic 
development, much of Indian Country cannot afford to pay for the rising 
costs of heat and power. Full funding of LIHEAP is crucial to address 
the extreme need for heating assistance in Indian Country.
Substance Abuse and Mental Health Services Administration
            Behavioral Health
    Provide $40 million to fund the Behavioral Health--Tribal 
Prevention Grant (BH-TPG).
    This proposed SAMHSA grant program has been authorized to award 
grants to tribes to evidence-based prevention practices in tribal 
communities. Funded through the prevention fund (authorized by the 
Affordable Care Act), the BH-TPG will be used to implement 
comprehensive prevention strategies to address the most serious mental 
health and substance abuse issues in tribal communities.
            Suicide Prevention
    Provide a $6 million tribal set-aside for American Indian and 
Alaska Native suicide prevention programs under the Garrett Lee Smith 
Act.
    Suicide has reached epidemic proportions in some tribal 
communities. The Garrett Lee Smith Memorial Act of 2004 is the first 
Federal law to provide specific funding for youth suicide prevention 
programs, authorizing $82 million in grants over 3 years through 
SAMHSA. Currently, tribes must compete with other institutions to 
access these funds. To assist tribal communities in accessing these 
funds, a line-item for tribal-specific resources is necessary.
                          department of labor
    Tribal nations in the United States are vastly diverse--as are the 
citizens that comprise them--but in the modern era, the common element 
responsible for revitalizing tribal homelands is tribal sovereignty at 
work. Effective self-rule requires that the United States respect 
tribes' inherent rights of self-government and self-determination and 
that the Federal Government honor its trust obligations to Native 
peoples in the Federal budget. Investing in the education of American 
Indian and Alaska Native students is not only one most of the most 
important cornerstones of this Federal trust responsibility, but is 
also critical to economic revitalization for both Indian Country and 
the Nation as a whole.
    Research repeatedly demonstrates that investments in education 
contribute to economic growth while also expanding opportunities for 
individual advancement. Unfortunately, when faced with tough budgetary 
decisions, policymakers and elected officials often target education 
and other social welfare budgets that require more long-term 
investments. Even worse, Native youth and families are often the 
hardest hit by these cuts. As a result, schools in Indian Country face 
inadequate Federal support, which leads to a shortage of staff, lack of 
support services, dilapidated facilities, and, ultimately, lower 
student achievement and limited educational opportunities. The Federal 
Government must live up to its commitment to providing a quality 
education for American Indian and Alaska Native students and for all of 
the Nation's students.
    The foregoing fiscal year 2013 tribal budget program requests have 
been compiled in collaboration with tribal leaders, Native 
organizations, and tribal budget consultation bodies. Tribes 
respectfully request that these recommendations be included in the 
Labor, Health and Human Services, Education, and related agencies 
appropriations process.
                        department of education
Culturally Based Education
    Provide $198.4 million for Title VII funding under the Elementary 
and Secondary Education Act.
    Title VII of the Elementary and Secondary Education Act, which 
provides essential support for culturally based education approaches 
for American Indian and Alaska Native students and addresses the unique 
educational and cultural needs of Native students, is severely 
underfunded. It is well-documented that Native students are more likely 
to thrive in environments that support their cultural identities.\2\ 
Title VII has produced many success stories, but increased funding is 
needed in this area to close the achievement gap for Native students 
and to ensure continued support for Native cultures and language 
education.
---------------------------------------------------------------------------
    \2\ Demmert, W.G. & Towner, J.C. (2003). A Review of the Research 
Literature on the Influences of Culturally Based Education on the 
Academic Performance of Native American Students. Portland, Oregon: 
Northwest Regional Educational Laboratory.
---------------------------------------------------------------------------
            Impact Aid Funding
    Provide $1.395 billion for Impact Aid, Title VIII funding under the 
Elementary and Secondary Education Act.
    Impact Aid provides resources to public schools whose tax bases are 
reduced because of Federal activities, including the presence of an 
Indian reservation. Thousands of American Indian and Alaska Native 
youth are served by reservation and other schools eligible for Impact 
Aid, including those located on or near tribal lands and those living 
on military bases.\3\ Yet, Impact Aid funding has not kept pace with 
inflation. Past budgets have also failed to provide appropriate 
allocations for facilities construction, causing a tremendous backlog 
in new construction and leaving many public schools on reservations in 
desperate need of repair.
---------------------------------------------------------------------------
    \3\ DeVoe, J. & Darling-Churchill, K. (2008). Status and Trends in 
the Education of American Indians and Alaska Natives. Washington, DC: 
U.S. Department of Education, National Center for Education Statistics 
(Publication Number NCES 2008-084).
---------------------------------------------------------------------------
            Tribal Education Departments
    Provide $5 million to fund Tribal Education Departments (TEDs).
    Five million dollars should be appropriated to the Department of 
Education to support Tribal Education Departments (TEDs). The 
Elementary and Secondary Education Act of 2001 authorizes this 
appropriation. Congress provided the first appropriation of $2 million 
in the Department of Education's Indian Education National Activities 
line for TEDs in the fiscal year 2012 Consolidated Appropriations Act. 
With continued funding, the impact on Indian education would be 
significant.
    Currently, most tribes fund TEDs with non-Federal sources of 
funding, Federal funding from Johnson O'Malley, and sometimes limited 
Title VII Indian education formula grants from the Elementary and 
Secondary Education Act. TEDs have a wide range of budgets depending 
upon the tribe's overall budget and priorities. TEDs serve thousands of 
American Indian and Alaska Native students nationwide in Bureau of 
Indian Education, tribal, and public schools. TEDs must have adequate 
financial support so they can serve the educational needs of these 
students at a comparable level to the students served by State 
education departments and agencies.
            Tribal Colleges and Universities
    Provide $36 million for Title III-A grants under the Higher 
Education Act.
    Titles III and V of the Higher Education Act, known as Aid for 
Institutional Development programs, support institutions with a large 
proportion of financially disadvantaged students and low cost-per-
student expenditures. Tribal Colleges and Universities (TCUs) clearly 
fit this definition. The Nation's 36 TCUs serve Native and non-Native 
students in some of the most impoverished areas in the Nation, yet they 
are the country's most poorly funded postsecondary institutions. 
Congress recognized the TCUs as emergent institutions, and as such, 
authorized a separate section of Title III (Part A, Sec. 316) 
specifically to address their needs. Additionally, a separate section 
(Sec. 317) was created to address similar needs of Alaska Native and 
Native Hawaiian institutions. Section 316 is divided into two 
competitive grants programs: formula-funded basic development grants 
and competitive single-year facilities construction grants. Thirty-six 
million dollars should be provided in fiscal year 2013 to fund these 
two competitive grant programs.
            Vocational Rehabilitation Services Projects for American 
                    Indians with Disabilities
    Increase Vocational Rehabilitation Services Projects to $67 million 
and create a line item of $5 million for providing outreach to tribal 
recipients.
    According to the U.S. census, 24 percent of American Indians and 
Alaska Natives have a disability. High rates of diabetes, heart 
disease, and preventable accidents are among the issues that contribute 
to this troubling reality. This creates an extraordinary need for 
tribes to support their disabled citizens in becoming self-sufficient. 
Further, tribes have had limited access to funding for vocational 
rehabilitation and job training--such as funds made available under the 
American Recovery and Reinvestment Act (ARRA)--compared to States. An 
increase to $67 million would begin to put tribes on par with State 
governments.
                          department of labor
YouthBuild
    Restore the rural and tribal set-aside in the YouthBuild program 
and create a dedicated 5 percent tribal set aside of at least $4 
million.
    The YouthBuild program assists disadvantaged, low-income youth ages 
16-24 in obtaining education and work skills to be competitive 
candidates in the job market. When the program was transferred to 
Department of Labor in September 2006, the 10 percent set-aside for 
rural and tribal programs was eliminated. Given significant 
unemployment challenges and the growing Native youth population, it is 
essential that the 10 percent tribal and rural set-aside be restored, 
including a dedicated set-aside of 5 percent. Based on fiscal year 2011 
and fiscal year 2012 appropriations, we request a set-aside of at least 
5 percent ($4 million) for tribal programs.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Ahniwake Rose, NCAI Director of Human 
Service Policy, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f2e3d203c2a0f212c2e2661203d28">[email&#160;protected]</a> and Amber Ebarb, NCAI Legislative 
Associate, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9efffbfcffecfcdef0fdfff7b0f1ecf9b0">[email&#160;protected]</a>
                                 ______
                                 
Prepared Statement of the National Council for Diversity in the Health 
                              Professions
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wanda 
Lipscomb, President of the National Council for Diversity in the Health 
Professions (NCDHP) and the Director of the Center of Excellence for 
Culture Diversity in Medical Education at Michigan State University. 
NCDHP, established in 2006, is a consortium of our Nation's majority 
and minority institutions that once house the Health Resources and 
Services (HRSA) Minority Centers of Excellence (COE) and Health Careers 
Opportunities Programs (HCOP) when there was more funding. These 
institutions are committed to diversity in the health professions. In 
my professional life, I have seen firsthand the importance of health 
professions institutions promoting diversity and the Title VII Health 
Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I want to say that minority health 
professional institutions and the Title VII Health Professionals 
Training programs address a critical national need. Persistent and 
severe staffing shortages exist in a number of the health professions, 
and chronic shortages exist for all of the health professions in our 
Nation's most medically underserved communities. Furthermore, our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example while blacks 
represent approximately 15 percent of the U.S. population, only 2-3 
percent of the Nation's health professions workforce is black. Mr. 
Chairman, I would like to share with you how your committee can help 
NCDHP continue our efforts to help provide quality health professionals 
and close our Nation's health disparity gap.
    There is a well established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than non-minority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas, (2) provide care 
for minorities and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals, like the 
NCDHP members, have been particularly hard-hit as a result of the cuts 
to the Title VII Health Profession Training programs in fiscal year 
2006, fiscal year 2007, and fiscal year 2008. Given their historic 
mission to provide academic opportunities for minority and financially 
disadvantaged students, and healthcare to minority and financially 
disadvantaged patients, minority health professions institutions 
operate on narrow margins. The cuts to the Title VII Health Professions 
Training programs amount to a loss of core funding at these 
institutions and have been financially devastating. We have been 
pleased to see efforts to revitalize both COE and HCOP in recent fiscal 
years, but it is important to fully fund the programs at least at the 
fiscal year 2004 level so that more diversity is achieved in our health 
professions.
    Earlier this year with the passage of health reform, the Congress 
showed the importance of the many of the Title VII programs, including 
the Minority Centers of Excellence (COE) and Health Careers 
Opportunities Program (HCOP), by reauthorizing the programs.
    Minority Centers of Excellence.--COEs focus on improving student 
recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2013, I recommend a funding level of $24 million 
for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and non-minority health profession institutions to support 
pipeline, preparatory and recruiting activities that encourage minority 
and economically disadvantaged students to pursue careers in the health 
professions. Many HCOPs partner with colleges, high schools, and even 
elementary schools in order to identify and nurture promising students 
who demonstrate that they have the talent and potential to become a 
health professional.
    Collectively, the absence of HCOPs will substantially erode the 
number of minority students who enter the health professions. Over the 
last three decades, HCOPs have trained approximately 30,000 health 
professionals including 20,000 doctors, 5,000 dentists and 3,000 public 
health workers. For fiscal year 2013, I recommend a funding level of 
$23 million for HCOPs.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
NCDHP member institutions and the Title VII Health Professions Training 
programs can help this country to overcome health and healthcare 
disparities. Congress must be careful not to eliminate, paralyze or 
stifle the institutions and programs that have been proven to work. 
NCDHP seeks to close the ever widening health disparity gap. If this 
subcommittee will give us the tools, we will continue to work towards 
the goal of eliminating that disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
         Prepared Statement of the National Consumer Law Center
    The Federal Low Income Home Energy Assistance Program (LIHEAP) \1\ 
is the cornerstone of Government efforts to help needy seniors and 
families stay warm and avoid hypothermia in the winter, as well as stay 
cool and avoid heat stress (even death) in the summer. LIHEAP is an 
important safety net program for low-income, unemployed and 
underemployed families struggling in this economy. The demand for 
LIHEAP assistance remains at record high levels. In fiscal year 2011, 
the program helped an estimated 9 million low-income households afford 
their energy bills.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. Sec. 8621 et seq.
---------------------------------------------------------------------------
    One of the fastest growing segments of LIHEAP recipients is 
veterans. The number of LIHEAP recipient households with a veteran 
increased from 12 percent of all households served in fiscal year 2008 
to 20 percent of all LIHEAP households in fiscal year 2011.\2\
---------------------------------------------------------------------------
    \2\ LIHEAP Recipients by Veteran Status, NEADA (Dec. 8, 2011). 
Available at www.neada.org.
---------------------------------------------------------------------------
    Unemployment and poverty forecasts for 2013 indicate that the 
number of struggling households will remain at record high levels. In 
light of the crucial safety net function of this program in protecting 
the health and well-being of low-income seniors, the disabled, and 
families with very young children, we respectfully request that LIHEAP 
be fully funded at its authorized level of $5.1 billion for fiscal year 
2013.
LIHEAP Provides Critical Help With Home Energy Bills for The Large 
        Number of Low-Income Households Struggling to Move Forward in 
        These Difficult Economic Times
    Funding LIHEAP at $5.1 billion for the regular program in fiscal 
year 2013 is essential in light of the sharp increase in poverty and 
unemployment. It is telling that even with unusually warm winter 
temperatures, the size of home heating bills still remains beyond the 
ability to pay for struggling households.\3\ Ohio was hard hit by the 
great recession, losing 430,500 jobs.\4\ In that State, the total 
number of disconnections for gas and electric service for the year 
ending December 31, 2011 was 454,445. While the number of 
disconnections in 2011 represents a modest increase over 2010 
disconnections, this growth is cause for concern. Ohio strengthened its 
Percentage of Income Payment Program (PIPP) and other payment plans 
designed to help struggling low-income households afford their energy 
bills,\5\ yet the State faced a 30 percent reduction in LIHEAP funding 
from fiscal year 2011. LIHEAP assistance is critical for helping these 
struggling families afford their heating bills.
---------------------------------------------------------------------------
    \3\ See e.g., Steve Gravelle, Thousands of Iowans Facing Utility 
Shutoff Despite Mild Winter, The Gazette, Mar. 22, 2012. Available at 
http://thegazette.com/2012/03/22/thousands-of-iowans-facing-utility-
shutoff-despite-mild-winter/.
    \4\ The State of Poverty in Ohio: A Path to Recovery, Ohio 
Association of Community Action Agencies (May 2011) at p. iv.
    \5\ Office of the Ohio Consumers' Counsel.
---------------------------------------------------------------------------
    Despite milder winter temperatures this winter and lower natural 
gas bills in Iowa, a record number of low-income households have fallen 
behind on their energy bills. In February 2012, the number of low-
income households with past due energy accounts was the second highest 
on record for this time of year since these data have been tracked. The 
Iowa LIHEAP program estimates that demand for assistance will remain 
strong and that it will be serving close to last year's number of 
applicants, about 95,000 households. However, the size of the energy 
assistance has been cut back 25 percent due to the substantial cuts to 
the LIHEAP funding in fiscal year 2012. Thus, as the data shows, the 
need for LIHEAP remains strong in this sluggish economy despite the 
milder temperatures and the mitigation in natural gas prices.\6\
---------------------------------------------------------------------------
    \6\ Iowa Bureau of Energy Assistance.
---------------------------------------------------------------------------
    Data from Pennsylvania also demonstrate that an unusually mild 
winter cannot make up for cuts to vital energy assistance. Pennsylvania 
experienced a steady increase in enrollment for the regular LIHEAP 
program from fiscal year 2008 to fiscal year 2010, with 371,000 
households served in 2008, 547,000 in fiscal year 2009, and 587,000 in 
fiscal year 2010. However, due to the decreased LIHEAP funds, the 
projection for fiscal year 2012 is down to 425,000. Utilities in 
Pennsylvania that are regulated by the Pennsylvania Public Utility 
Commission (PA PUC) have established universal service programs that 
assist utility customers in paying bills and reducing energy usage. 
Even with these programs, electric and natural gas utility customers 
find it difficult to keep pace with their energy burdens. The PA PUC 
estimates that more than 20,034 households entered the current heating 
season without heat-related utility service. This number includes about 
2,559 households who are heating with potentially unsafe heating 
sources such as kerosene or electric space heaters and kitchen ovens. 
One harmful impact of unaffordable home energy is the abandonment of 
property that is no longer habitable. In mid-December 2011, an 
additional 13,136 residences where electric service was previously 
terminated were vacant and over 5,977 residences where natural gas 
service was terminated were vacant. In 2011, the number of terminations 
increased 60 percent compared with terminations in 2004. As of December 
2011, preliminary data shows that 19.4 percent of residential electric 
customers and 15.8 percent of natural gas customers were overdue on 
their energy bills.\7\
---------------------------------------------------------------------------
    \7\ Pennsylvania Public Utilities Commission.
---------------------------------------------------------------------------
    Unfortunately, the number of households around the country that are 
struggling to make ends meet remains very high due to the slow recovery 
from the great recession. According a Pew Fiscal Analysis Initiative 
report, as of December 2011, 4 million jobless workers (which is more 
than the population of Oregon) have been unemployed for a year or 
longer.\8\ While long-term unemployment has affected all age groups, 
older workers have been hit particularly hard by this downturn.\9\ 
CBO's budget and economic outlook report projects that unemployment 
will average 9.1 percent in 2013,\10\ far from the 5.3 percent that CBO 
estimates is the natural rate of unemployment.\11\ The U.S. Census 
reports the largest number in poverty in 52 years, 46.2 million people 
in 2010.\12\
---------------------------------------------------------------------------
    \8\ Pew Economic Policy Group Fiscal Analysis Initiative, Five 
Long-Term Unemployment Questions, February 1, 2012 at Question 1.
    \9\ Id at Question 3. (``However, among people without jobs, 
unemployed older workers were the most likely to have been jobless for 
a year or more. For example, in the fourth quarter of 2011, more than 
42 percent of unemployed workers older than 55 had been out of work for 
at least a year, a higher percentage than any other age category.'')
    \10\ CBO, The Budget and Economic Outlook: Fiscal Years 2012 to 
2022, Chpt. 2 The Economic Outlook Table 2-1. CBO's Economic 
Projections for Calendar Years 2012 to 2022 (Jan. 2012) at p.27.
    \11\ CBO, The Budget and Economic Outlook: Fiscal Years 2011 to 
2021, Summary (Jan. 2011) at Summary Table 2.
    \12\ U.S. Census, Income, Poverty, and Health Insurance Coverage in 
the United States: 2010 (Sept. 2011) at p.14.
---------------------------------------------------------------------------
    Thus indications are that the demand for LIHEAP in fiscal year 2013 
will remain very strong as this program helps struggling households in 
a number of ways. LIHEAP protects the health and safety of the frail 
elderly, the very young and those with chronic health conditions, such 
as diabetes, that increase susceptibility to temperature extremes. 
LIHEAP assistance also helps keep families together by keeping homes 
habitable during the bitter cold winter and sweltering summers.
LIHEAP Is a Critical Safety Net Program for the Elderly, the Disabled 
        and Households With Young Children
    Dire Choices and Dire Consequences.--Recent national studies have 
documented the dire choices low-income households face when energy 
bills are unaffordable. Because adequate heating and cooling are tied 
to the habitability of the home, low-income families will go to great 
lengths to pay their energy bills. Low-income households faced with 
unaffordable energy bills cut back on necessities such as food, 
medicine and medical care.\13\ The U.S. Department of Agriculture has 
released a study that shows that low-income households, especially 
those with elderly persons, experience very low food security during 
heating and cooling seasons when energy bills are high.\14\ A pediatric 
study in Boston documented an increase in the number of extremely low 
weight children, age 6 to 24 months, in the 3 months following the 
coldest months, when compared to the rest of the year.\15\ Clearly, 
families are going without food during the winter to pay their heating 
bills, and their children fail to thrive and grow. A 2007 Colorado 
study found that the second leading cause of homelessness for families 
with children is the inability to pay for home energy.\16\
---------------------------------------------------------------------------
    \13\ See e.g., National Energy Assistance Directors' Association, 
2011 National Energy Assistance Survey (Nov. 2011) (to pay their energy 
bills, 24 percent of LIHEAP recipients went without food, 37 percent 
went without medical or dental care, 34 percent did not fill or took 
less than the full dose of a prescribed medicine). Available at http://
www.neada.org/news/nov012011.html.
    \14\ Mark Nord and Linda S. Kantor, Seasonal Variation in Food 
Insecurity Is Associated with Heating and Cooling Costs Among Low-
Income Elderly Americans, The Journal of Nutrition, 136 (Nov. 2006) 
2939-2944.
    \15\ Deborah A. Frank, MD et al., Heat or Eat: The Low Income Home 
Energy Assistance Program and Nutritional and Health Risks Among 
Children Less Than 3 years of Age, AAP Pediatrics v.118, no.5 (Nov. 
2006) e1293-e1302. See also, Child Health Impact Working Group, 
Unhealthy Consequences: Energy Costs and Child Health: A Child Health 
Impact Assessment Of Energy Costs And The Low Income Home Energy 
Assistance Program (Boston: Nov. 2006) and the Testimony of Dr. Frank 
Before the Senate Committee on Health, Education, Labor and Pensions 
Subcommittee on Children and Families (March 5, 2008).
    \16\ Colorado Interagency Council on Homelessness, Colorado 
Statewide Homeless Count Summer, 2006, research conducted by University 
of Colorado at Denver and Health Sciences Center (Feb. 2007).
---------------------------------------------------------------------------
    When people are unable to afford paying their home energy bills, 
dangerous and even fatal results occur. In the winter, families resort 
to using unsafe heating sources, such as space heaters, ovens and 
burners, all of which are fire hazards. Space heaters pose 3 to 4 times 
more risk for fire and 18 to 25 times more risk for death than central 
heating. In 2007, space heaters accounted for 17 percent of home fires 
and 20 percent of home fire deaths.\17\ In the summer, the inability to 
keep the home cool can be lethal, especially to seniors. According to 
the CDC, older adults, young children and persons with chronic medical 
conditions are particularly susceptible to heat-related illness and are 
at a high risk of heat-related death. The CDC reports that 3,442 deaths 
resulted from exposure to extreme heat during 1999-2003.\18\ The CDC 
also notes that air-conditioning is the number one protective factor 
against heat-related illness and death.\19\ LIHEAP assistance helps 
these vulnerable seniors, young children and medically vulnerable 
persons keep their homes at safe temperatures during the winter and 
summer and also funds low-income weatherization work to make homes more 
energy efficient.
---------------------------------------------------------------------------
    \17\ John R. Hall, Jr., Home Fires Involving Heating Equipment 
(Jan. 2010) at ix and 33. Also, 40 percent of home space heater fires 
involve devices coded as stoves.
    \18\ CDC, ``Heat-Related Deaths--United States, 1999-2003'' MMWR 
Weekly, July 28, 2006.
    \19\ CDC, ``Extreme Heat: A Prevention Guide to Promote Your 
Personal Health and Safety'' available at http://emergency.cdc.gov/
disasters/extremeheat/heat_guide.asp.
---------------------------------------------------------------------------
    LIHEAP is an administratively efficient \20\ and effective targeted 
health and safety program that works to bring fuel costs within a 
manageable range for vulnerable low-income seniors, the disabled and 
families with young children. LIHEAP must be fully funded at its 
authorized level of $5.1 billion in fiscal year 2013 in light of 
unaffordable, but essential heating and cooling needs of millions of 
struggling households due to the record high unemployment levels during 
the slow recovery from the great recession.\21\
---------------------------------------------------------------------------
    \20\ States can only spend 10 percent or less of their LIHEAP grant 
in administrative and planning costs. 42 U.S.C. Sec. 8624(b)(9).
    \21\ ``A large portion of the economic and human costs of the 
recession and slow recovery remain ahead . . . Those costs fall 
disproportionately on people who lose their jobs, who are displaced 
from their homes, or who own businesses that fail.'' CBO, The Budget 
and Economic Outlook: Fiscal Years 2012 to 2022, Chpt. 2 The Economic 
Outlook at p.26.
---------------------------------------------------------------------------
                                 ______
                                 
     Prepared Statement of the National Council of Social Security 
                        Management Associations
    On behalf of the National Council of Social Security Management 
Associations (NCSSMA), thank you for the opportunity to submit our 
written testimony on the fiscal year 2013 funding for the Social 
Security Administration (SSA). We respectfully request your support of 
full funding of the President's fiscal year 2013 budget request on 
behalf of SSA and the American public we serve.
    NCSSMA is a membership organization of over 3,500 SSA managers and 
supervisors who provide leadership in nearly 1,300 community-based 
Field Offices and Teleservice Centers throughout the country. We are 
the front-line service providers for SSA in communities throughout the 
Nation. We are also the Federal employees who work with many of your 
staff members to resolve problems and issues for constituents who 
receive Social Security benefits. For over 42 years, NCSSMA has 
considered a strong and stable Social Security Administration that 
delivers quality and prompt locally delivered service to the American 
public a top priority. We also consider it a top priority to be good 
stewards of the taxpayers' monies.
    SSA is cost-efficient and appropriations to the agency are an 
excellent investment and return on taxpayer dollars. We are very 
appreciative of the support for SSA that the Subcommittee has provided 
in recent years. The additional funding SSA received in fiscal years 
2008-2010 helped significantly to prevent workloads from spiraling out 
of control and assisted with improving service to the American public. 
However, budgetary constraints in fiscal years 2011-2012 have resulted 
in vital service reductions and many public service repercussions.
    NCSSMA strongly supports the President's fiscal year 2013 budget 
request for SSA, which includes $11.760 billion for the agency's 
administrative expenses through the Limitation on Administrative 
Expenses (LAE) account. We respectfully request the Subcommittee 
provides no less than the President's full SSA budget request in fiscal 
year 2013. Full funding for SSA is critical to maintain staffing in 
front-line components, cover inflationary increases, continue efforts 
to reduce hearings and disability backlogs, and increase deficit-
reducing program integrity work.
Current State of SSA Operations
    NCSSMA has significant concerns about the dramatic growth in SSA 
workloads. We strongly believe that SSA must receive adequate funding 
to maintain service levels vital to 60 million Americans. Despite 
agency strategic planning, expansion of online services, significant 
productivity gains, and the best efforts of management and employees, 
SSA is still faced with many challenges to providing the service that 
the American public has earned and deserves.
    Over the last 8 years, SSA has experienced a dramatic increase in 
Retirement, Survivor, Dependent, Disability, and Supplementary Security 
Income (SSI) claims. The additional claims receipts are driven by the 
ongoing wave of the nearly 80 million baby boomers who will be filing 
for Social Security benefits by 2030--an average of 10,000 per day! By 
fiscal year 2013, retirement and survivor claims will have increased by 
over 30 percent and disability claims will have increased by nearly 25 
percent since fiscal year 2007.
    The need for resources in SSA Field Offices is critical to process 
these additional claims and provide other vital services to the 
American public. Field Offices are responsible for processing 2.6 
million SSI redeterminations in fiscal year 2012, an increase of more 
than 100 percent from fiscal year 2008. Nationally, visitors to Field 
Offices increased from 41.9 million in fiscal year 2007 to 44.9 million 
in fiscal year 2011. SSA continues to experience unprecedented 
telephone call volumes. In fiscal year 2011, SSA completed 62 million 
transactions over the 800 Number network. NCSSMA estimates Field Office 
telephone contacts to be more than 32 million during the same time 
period. The result is a combined total of over 92 million telephone 
contacts annually for SSA.
SSA Funding for Fiscal Year 2012
    NCSSMA strongly supported the President's fiscal year 2012 budget 
request of $12.522 billion for SSA's administrative expenses. Much of 
this increase was needed to cover inflationary costs for fixed 
expenses. Funding at this level would have ensured that SSA could meet 
its public service obligations. Despite SSA's enormous challenges, with 
the Federal deficit concerns, attaining this level of funding was not 
possible. SSA's fiscal year 2012 appropriation for administrative 
funding through the LAE account was $11.446 billion, only $22 million 
above the fiscal year 2011 enacted level.
    Inadequate funding of SSA in fiscal year 2013 would have major 
repercussions for SSA, including a continued hiring freeze, reduction 
of overtime, and postponement of initiatives to improve efficiency. 
Reducing resources at the same time SSA workloads are dramatically 
increasing is a prescription for significant service deterioration and 
workload backlogs. In addition, inadequate fiscal year 2013 funding 
levels will have a collateral negative impact on fiscal year 2014.
Field Office Service Delivery Challenges
    SSA Field Offices are experiencing tremendous stress because of 
ever-increasing workloads and additional customer contacts. The fiscal 
year 2011 and fiscal year 2012 enacted funding levels exacerbated the 
situation and the impact on local Field Offices around the country is 
significant.
  --Frontline feedback from our busiest urban offices indicates that 
        some are seeing their visitor traffic explode with overflowing 
        reception areas and increased waiting times.
  --Most of SSA has been under a hiring freeze because of the current 
        budget constraints. The agency expects to lose 3,000 employees 
        in fiscal year 2012 and 2,000 more in fiscal year 2013. This is 
        in addition to 4,000 lost in fiscal year 2011 resulting in a 
        total loss of 9,000 employees in just 3 years. SSA will have 
        approximately the same number of employees in fiscal year 2013 
        as it did in fiscal year 2007, even though workloads have 
        increased dramatically.
  --SSA projects 45 percent of its employees, including 60 percent of 
        supervisors, will be eligible to retire by fiscal year 2020. 
        Serious concerns exist about SSA's ability to sustain service 
        levels with the tremendous loss of institutional knowledge from 
        front-line personnel.
  --Geographical staffing disparities have occurred with uneven 
        attrition leaving some offices significantly understaffed. This 
        is especially problematic for rural SSA Field Offices, whose 
        customers often live vast distances away, may have no Internet 
        service, and lack access to public transportation.
SSA Online eServices Assist with Service Delivery Challenges
    Expansion of services available to the American public via the 
Internet has helped to alleviate the number of visitors and telephone 
calls to SSA. However, Internet services are not keeping pace with the 
increasing demand for service. High-volume transactions, such as 
requests for Social Security cards and benefit verifications are not 
yet available on the Internet, or are only being used to a limited 
degree. Requests for Social Security cards and benefit verifications 
represent about 35 percent of all transactions completed in SSA Field 
Offices in fiscal year 2011.
    NCSSMA believes that SSA must be appropriately funded in fiscal 
year 2013 and beyond for continued investment in improved, user-
friendly Internet services allowing for more online transactions. If 
individuals were able to successfully conduct SSA business online, the 
results would include fewer contacts with Field Offices and the 800 
Number network, improved efficiencies, and enhanced public service.
Disability Workload Processes
    Nationwide, over 3.3 million new disability claims were processed 
and sent to State Disability Determination Services in fiscal year 
2011, the highest in our history. This surge of increased claims has 
created backlogs. We expect that pending initial disability claims will 
rise to nearly 861,000 in fiscal year 2012 and to over 1.1 million in 
fiscal year 2013. SSA's largest backlogs are hearings appealing initial 
disability decisions processed by the Office of Disability Adjudication 
and Review. Hearing receipts continue to rise, and through March 2012, 
822,757 hearings were pending, which is 117,390 more than at the end of 
fiscal year 2010, and a new all-time high.
    Despite these unprecedented challenges, SSA continues to make 
progress. In fiscal year 2012 (through March), the average processing 
time for a hearing was 350 days, the lowest average time since fiscal 
year 2003. Unfortunately, the number of claims and hearings pending is 
still not acceptable to Americans who need Social Security to support 
their families. Budget constraints in fiscal year 2011 and fiscal year 
2012 impeded progress and prevented SSA from opening eight planned 
Hearing Offices. This significantly threatens to prevent SSA from 
achieving its goal of eliminating the hearings backlog by fiscal year 
2013.
    It is important to understand that annual appropriated funding 
levels for SSA have a critical impact on the hearings backlog. One of 
the most significant reasons for the increase in the hearings backlog 
was the significant underfunding of SSA from fiscal years 2004 through 
2007.
President's Fiscal Year 2013 Budget Request for SSA
    NCSSMA strongly supports the President's fiscal year 2013 budget 
request for SSA and requests that Congress provide full funding to 
maintain public service levels and to allow the agency to:
  --Cover fixed cost increases of $300 million (rent, guards, postage, 
        and employee compensation).
  --Replace about one out of four employees lost in our Field Offices 
        and Processing Centers.
  --Process over 3 million disability and SSI claims along with 5 
        million retirement, survivor, and Medicare claims.
  --Eliminate the disability hearings backlog by conducting hearings 
        for 960,000 cases, 75 percent more than in fiscal year 2007, 
        and reduce processing time for a hearing to 270 days.
  --Complete additional program integrity workloads yielding billions 
        in savings--650,000 medical Continuing Disability Reviews 
        (CDRs) and 2.622 million SSI redeterminations.
    SSA issues over $60 billion in monthly benefit payments to over 60 
million people and the agency takes its stewardship responsibilities 
seriously. The fiscal year 2013 budget request includes $1.024 billion 
dedicated to program integrity. Investment in program integrity reviews 
saves taxpayer dollars and is fiscally prudent in reducing the Federal 
budget and deficit.
  --CDRs determine whether disability benefits should be ceased because 
        of medical improvement. SSA medical CDRs yield $9 in lifetime 
        program savings for every $1 spent.
  --SSI redeterminations review nonmedical factors of eligibility, such 
        as income and resources, to identify payment errors. SSI 
        redeterminations yield a return on investment of $6 in program 
        savings over 10 years for each $1 spent, including Medicaid 
        savings accruals.
    NCSSMA recommends consideration of legislative proposals included 
in the fiscal year 2013 budget request, which can improve the effective 
administration of the Social Security program, with minimal effect on 
program dollars. We believe these proposals have the potential to 
reduce operational costs and increase administrative efficiency. This 
includes enacting the Work Incentives Simplification Pilot (WISP), 
quarterly Federal wage reporting, workers compensation automatic 
reporting, and development of an automated system to report State and 
local pensions.
Conclusion
    NCSSMA recognizes in the current budget environment that it may be 
difficult to provide adequate funding for SSA. However, Social Security 
is one of the most successful Government programs in the world and 
touches the lives of nearly every American family. We are a very 
productive agency and a key component of the Nation's economic safety 
net for the aged and disabled. A strong Social Security program equates 
to a strong America and it must be maintained as such for future 
generations.
    NCSSMA sincerely appreciates the Subcommittee's interest in the 
vital services Social Security provides, and your ongoing support to 
ensure SSA has the resources necessary to serve the American public. We 
respectfully request your support of full funding of the President's 
fiscal year 2013 budget request on behalf of our agency and the 
American public we serve. We would appreciate any assistance you can 
provide in ensuring the American public receives the critical and 
necessary service they deserve from the Social Security Administration.
    On behalf of NCSSMA members nationwide, thank you for the 
opportunity to submit this written testimony.
                                 ______
                                 
    Prepared Statement of the National Energy Assistance Directors' 
                              Association
    The members of National Energy Assistance Directors' Association 
(NEADA), representing the State directors of the Low Income Home Energy 
Assistance Program (LIHEAP) would like to first take this opportunity 
to thank the members of the subcommittee for considering our funding 
request for fiscal year 2013. The program is facing key challenges this 
year as we address the high level of demand for program services as a 
result of continuing weakness in the Nation's economy and high 
unemployment rates.
    LIHEAP is the primary source of heating and cooling assistance for 
some of the poorest families in the United States. In fiscal year 2012, 
the number of households receiving heating assistance remained at 
record levels of about 8.9 million. In addition, close to 600,000 are 
expected to receive cooling assistance. Of these households, 
approximately 20 percent contain at least one member who served in the 
military, a major increase from about 12 percent in 2008.
    Veteran households in fact accounted for almost 35 percent of total 
growth in the program between fiscal year 2008 and 2011. Of specific 
interest, 12 percent of all veterans receiving LIHEAP have served in 
Iraq or Afghanistan. Seven percent of military families are currently 
serving in the military. The increase in veterans' families mirrors the 
overall increase in LIHEAP across the country. It also clearly 
demonstrates that LIHEAP is reaching some of the Nation's poorest 
families--including those who have served their Nation in times of 
peace as well as war.
    Federal funding was decreased in fiscal year 2012 by 25 percent 
from the comparable appropriation level in fiscal year 2011. During 
this period, the average cost of home heating declined by 9.4 percent, 
considerably less than the reduction in funding. The purchasing power 
of the average home heating benefit declined from 42.1 percent to 34.7 
percent. The President's request would further decrease the purchasing 
power of LIHEAP, reducing the average grant to about 30 percent of the 
cost of home heating.

         EST. AVERAGE PERCENT OF HOME HEATING PURCHASED WITH LIHEAP (FISCAL YEAR 2008-FISCAL YEAR 2012)
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
           Fiscal year              Heating oil     Natural gas       Propane       Electricity      All fuels
----------------------------------------------------------------------------------------------------------------
2008............................            15.6            38.6            17.5            38.7            32.5
2009............................            27.4            55.5            27.5            52.6            47.8
2010............................            26.2            64.0            28.7            50.5            49.7
2011............................            18.1            57.6            22.9            43.4            42.1
2012............................            13.8            49.0            18.6            33.8            34.7
----------------------------------------------------------------------------------------------------------------

fiscal year 2013 funding request and fiscal year 2014 advanced funding 
                                request
    For fiscal year 2013 we are requesting that the subcommittee 
restore funding for LIHEAP to the authorized level of $5.1 billion to 
maintain services for the 8.8 million households that received heating 
assistance and the 600,000 expected to receive cooling assistance, and 
provide $600 million in emergency funding authority. The additional 
funds would allow States to restore the average benefit to about 42 
percent of home heating costs plus provide sufficient flexibility in 
the event that heating oil prices remain at record levels and other 
fuel prices increase as a result of the continuing recovery in the 
Nation's economy.
    In addition, to these funding requests, we are concerned that 
States will be hampered in their ability to administer their programs 
efficiently due to the lack of advanced funding. The lack of a final 
program appropriation prior to the beginning of the fiscal year creates 
significant administrative problems for States in setting their program 
eligibility guidelines. In order to address this concern, we are 
requesting advance appropriations of $5.1 billion for fiscal year 2014 
and $600 million in emergency contingency fund authority.
  liheap families are among the nation's poorest and most vulnerable.
    In order to obtain a comprehensive demographic picture of LIHEAP 
recipients and the characteristics of those who are helped as well as 
who would be hurt by the program cuts, NEADA conducted a survey of 
approximately 1,800 households that received LIHEAP benefits in fiscal 
year 2011. The results show that LIHEAP households are among the 
vulnerable in the country.
  --40 percent have someone age 60 or older;
  --72 percent have a family member with a serious medical condition;
  --26 percent use medical equipment that requires electricity;
  --37 percent went without medical or dental care;
  --34 percent did not fill a prescription or took less than their full 
        dose of prescribed medication;
  --19 percent became sick because the home was too cold; and
  --85 percent of people with a medical condition are seniors.
    Many LIHEAP recipients were unable to pay their energy bills:
  --49 percent skipped paying or paid less than their entire home 
        energy bill;
  --37 percent received a notice or threat to disconnect or discontinue 
        their electricity or home heating fuel;
  --11 percent had their electric or natural gas service shut off in 
        the past year due to nonpayment, 24 percent were unable to use 
        their main source of heat in the past year because their fuel 
        was shut off, they could not pay for fuel delivery, or their 
        heating system was broken and they could not afford to fix it; 
        and
  --17 percent were unable to use their air conditioner in the past 
        year because their electricity was shut off or their air 
        conditioner was broken and they could not afford to fix it.
    LIHEAP's impact in many cases goes beyond providing bill payment 
assistance by playing a crucial role in maintaining family stability. 
It enables elderly citizens to live independently and ensures that 
young children have safe, warm homes to live in. Although the 
circumstances that lead each client to seek LIHEAP assistance are 
different, LIHEAP links these stories by enabling people to cope with 
difficult circumstances with dignity.
                          the faces of liheap
    Households of all varieties receive LIHEAP assistance. However, the 
positive impact on the most vulnerable members of society, including 
the elderly, disabled, and very young children, is striking. LIHEAP 
agencies in every State have continued to receive new requests for 
assistance from families struggling in the most difficult economy we 
have seen in decades. Finally, as many of these examples demonstrate, 
LIHEAP is administered in many places by Community Actions Agencies 
with deep ties to the people that they serve. Through their knowledge 
and connection to their communities, in many cases they are able to 
assist people in need at multiple levels, creating backward and forward 
linkages that enable people to regain their footing and start fresh.
Help for the Elderly and Disabled
    The elderly and disabled constitute some of the most vulnerable 
members of society and a large number of those receiving energy 
assistance. Many elderly and disabled clients are in poor health and 
most live on small, fixed incomes. One such recipient, living in 
Oklahoma, relies on LIHEAP throughout the year in order to prevent 
utility shutoff, even planning her expenses around her small benefit. 
After her rent, she is left with approximately $165/month to pay 
electric, phone, natural gas, and water. This $165 must also be used to 
pay for medications not covered by Medicare or Medicaid, and other 
household expenses. She also knows she is eligible for winter heating 
assistance in December, which although it does not cover the entire 
bill, does cover enough to keep her utilities on until the next small 
payment is made in January or February. She is unable to pay all of her 
utilities and purchase medications each month so she alternates the 
utilities she pays. LIHEAP is her lifeline for keeping her utilities 
connected. Without it, she would likely go without medications in order 
to keep her heat and electricity connected.
    Back in December, the Illinois LIHEAP program received a request 
for assistance from an 84 years old woman with no heat. She hadn't had 
a working furnace for more than 2 years. Her daughter brought her in to 
apply for LIHEAP. As her story unfolded the program staff learned that 
she was heating her home with her cook stove and oven. She lives on 
$612 a month social security, and relies on food pantries and LIHEAP to 
make ends meet. Through LIHEAP, she was able to receive a new 90-
percent efficient furnace in December and a payment toward her 
utilities. Representatives from the local community action agency went 
to her home on the final inspection of the furnace and she met both 
with a smile and a hug. She said that she was warm and doing well and 
looking forward to having her house weatherized.
    In Minnesota, an elderly couple was living on only social security 
benefits, totaling $998 a month. They had prided themselves on being 
self-sufficient for many years by keeping their thermostat set at 57 
degrees and dressing in many layers. However, after they were referred 
to the Minnesota Energy Assistance Program, they were able to heat 
their home to a safer temperature, and afford better food. They thanked 
the agency for giving them ``one of the best winters in many years.''
    Those living with disabilities often face seriously challenges in 
affording basic home necessities. One terminally ill 50-year old man 
from Utah who applied for assistance had been hospitalized and released 
several times for his severe health condition and had already had his 
power shut off when he contacted the LIHEAP agency. His utility bill 
had been transferred to his apartment complex's name, which they were 
charging him for, and he was also in danger of eviction. He was living 
on a fixed and limited social security income and a pension. Although 
his income was higher than many LIHEAP recipients, he too was faced 
with making the difficult choice between utility bills, doctor bills, 
food, or medication. His local agency was able to see him through this 
emergency and restore his utility connections, which were vital to 
providing him heat during the cold winter months. LIHEAP allowed him to 
afford the medications he needs without sacrificing heat in his home.
    This past heating season also highlighted how dangerous it can be 
for people living with disabilities to go without heat. In Maine, a 
disabled woman was running out of heating oil. To conserve supplies she 
was forced to turn her heat down extremely low. Her poorly insulted 
home leaked warm air and moisture, eventually resulting in her door 
freezing over completely. Her disability prevented her from removing 
the ice and she became trapped inside her home. Through LIHEAP 
assistance and Maine's Weatherization program, contractors were sent to 
her home to melt the ice from around her door, seal the leaks that 
contributed to her high energy bills, and provide her with fuel to heat 
her home.
    Finally, LIHEAP has been instrumental in improving the lives of 
those faced with challenging health conditions. One Minnesota woman, a 
longtime nurse in St. Paul, Minnesota, was diagnosed with degenerative 
blindness in 2004. She was an avid jogger who completed marathons with 
friends and enjoyed her career as a nurse. As her condition 
deteriorated however, she found it dangerous to drive and nursing 
became too difficult. She was devastated and worried about how she 
would make ends meet without her job. She lived off her retirement 
savings until they were almost exhausted, finally moving into an 
assisted living apartment for low-income residents. Although she had 
always prided herself on being frugal, conserving energy, keeping bills 
low, and maintaining her credit score, she could no longer make it 
without help. With the help of a health assistant, she applied for 
energy assistance. She still lives in her small apartment, still prides 
herself on being frugal and conserving energy.
Children
    LIHEAP is critical for many families with small children and new 
babies. A warm home is a pre-requisite for hospitals to release babies 
and mothers after birth. The following family reached out for energy 
assistance when their child was born during the winter and they could 
not afford to heat their home. The mother had been employed as a full-
time nurse in a nursing home but had been let go when her doctor 
ordered her to rest because her blood pressure was too high. Her 
husband worked in the remodeling business, which was hit hard in the 
recession.
    The family was not able to pay their gas bill and by the time their 
child was born the house was down to 40 degrees. Although they were 
reluctant to ask for help, they contacted the Green Hills Community 
Action Agency. Their energy assistance application was processed within 
a day and the gas was turned back on. In their letter to the agency, 
the family notes how helpful the staff was during a difficult time. The 
mother has since gone back to work and they no longer need energy 
assistance, but they said they would never forget how desperate they 
felt and how much it meant to them to be able to bring their new child 
home to a safe and warm house.
    Older children are also impacted by shut-off notices. One mother 
from Wisconsin had two school age children at home and was facing 
electricity shut-off. The Wisconsin Crisis Assistance payment stopped 
her impending disconnection. The mother's primary concern was the 
effect the disconnection would have on children, who would not be able 
to do their school work at home.
    Illinois was also able to help a single mother of two to restore 
her heat after her gas and electricity were shut off. This recipient 
was forced to send her children to live with family members because the 
home was too cold for them. After she received assistance from LIHEAP 
both of the utilities were restores and her children were able to come 
home. She was so thankful that she even sent the agency a thank you 
card. In it she stated, ``I appreciate your role in helping to turn my 
electricity and gas back on so my kids could come back home. For that 
there are simply not enough ways to say thank you.''
Economic Conditions
    Many families have found themselves in shut-off situations as a 
result of the recession, including many that have never before sought 
energy assistance. One such family in Georgia was living on $330 a week 
in unemployment benefits. A single mother of two children, she was not 
receiving child support and did not have close family members who could 
assist her with bills. Her Georgia Power bill for 2 months was $651, 
and it was scheduled for disconnection when she reached out for energy 
assistance. The amount she owed was clearly unmanageable considering 
her income. The help she received through LIHEAP allowed her to keep 
her power on.
    Another story from Iowa highlights how complicated it can be to 
provide assistance to families whose assets have been completely 
diminished. A single father of two children had been out of liquid 
petroleum for a substantial amount of time. He had tried to deal with 
the situation by shutting off the entire house to just two rooms and 
using space heaters to heat those rooms. His hot water heater was 
fueled by propane, so the family also did not have hot water. They were 
boiling water on the stove for hot water for cleaning and bathing. His 
kids were making the best of the situation and had draped blankets over 
the furnishings to make tents and keep the heat in the enclosed areas. 
Despite these difficult circumstances, he did not reach out for 
assistance until his pipes froze and burst.
    The father was employed, and was working long hours through a temp 
agency but was not making enough to afford the $500 minimum fill for 
his propane company. Although he was qualified for LIHEAP assistance, 
the propane vendor told the agency that because the family was 
completely out of fuel, they would have to have to pay for a leak test, 
and pay a fee for same day delivery. If they did not order a full 250 
gallons, there would be an additional ``under the minimum'' fee. 
Because they were only eligible for $500 of assistance, the fees would 
not allow them to fill to 250 gallons. However, the agency stepped in 
to negotiate with the vendor, and was able to have some of the fees 
removed. Although the family did not receive a full fill, they were 
able to get substantial help, and have their heat and hot water 
restored.
                          the need for liheap
    Households reported enormous challenges despite the fact that they 
received LIHEAP. However, they reported that LIHEAP was extremely 
important. About 64 percent reported that they would have kept their 
home at unsafe or unhealthy temperatures and/or had their electricity 
or home heating fuel discontinued if it had not been for LIHEAP. Almost 
98 percent said that LIHEAP was very or somewhat important in helping 
them to meet their needs. In addition, 53 percent of those who did not 
have their electricity or home heating fuel discontinued said that they 
would have if it had not been for LIHEAP.
    The members of NEADA recognize the difficult budget decisions that 
you face as you consider funding levels for LIHEAP for fiscal year 2013 
and advance funding for fiscal year 2014. We appreciate your interest 
and continued support for LIHEAP. Please feel free to call upon us if 
we can provide you with additional information.
                                 ______
                                 
                     Prepared Statement of Nemours
    Nemours thanks Chairman Harkin, Ranking Member Shelby and members 
of the subcommittee for the opportunity to submit written testimony on 
the fiscal year 2013 Labor, Health an Human Services, Education, and 
Related Agencies appropriations bill. Nemours, one of the Nation's 
leading child health systems, is dedicated to improving children's 
health and well-being by offering a spectrum of clinical treatment, 
research, advocacy, educational health, and prevention services 
extending to families in the communities it serves.
                             about nemours
    Nemours is an internationally recognized children's health system 
that owns and operates the Nemours/Alfred I. duPont Hospital for 
Children in Wilmington, Delaware, along with major pediatric specialty 
clinics in Delaware, Florida, Pennsylvania, and New Jersey. In 2012, it 
will open the full-service Nemours Children's Hospital in Orlando, 
Florida. Established as The Nemours Foundation through the legacy and 
philanthropy of Alfred I. du Pont, Nemours offers pediatric clinical 
care, research, education, advocacy, and prevention programs to all 
families in the communities it serves.
    In addition to its investments in clinical care, education and 
treatment, Nemours has made significant investments in community-based 
prevention programs, policies and practices to reach all children in 
the community, not just those who cross our doors. Nemours Health and 
Prevention Services, an operating division in Newark, Delaware, as well 
as the Florida Prevention Initiative, lead Nemours' prevention work.
Community-based Prevention
    As an integrated health system that is very engaged with the 
community, Nemours sees first-hand the impact of chronic disease on our 
Nation's children. We treat obese young children at our clinics, and we 
know that unhealthy habits that contribute to obesity are starting at a 
very young age. Over 20 percent of preschoolers are obese or 
overweight, an alarming statistic. We know that much of what influences 
their health is outside the realm of the healthcare system, which is 
why we have made and will continue to make significant investments in 
community-based prevention. We believe that investing in clinical and 
community-based prevention is an important way to ensure that children 
grow up to be healthy adults. We are supportive of the Prevention and 
Public Health Fund (Fund) and the potential it holds to address obesity 
and chronic disease. We are disappointed that to help finance the 
Sustainable Growth Rate (SGR), Congress made significant cuts to the 
fund. Physician reimbursement and prevention should not be pitted 
against one another. Instead, physicians must be enlisted in the fight 
to prevent disease and should be working closely with other community-
based partners to help families and children lead healthy, active 
lifestyles, as is the case with Nemours-employed physicians. We urge 
the subcommittee to utilize the resources provided from the Fund to 
support the integration of clinical and community-based prevention and 
to evaluate the outcomes associated with those investments. In 
particular, we are supportive of Community Transformation Grants.
Community Transformation Grants (CDC)
    Community Transformation Grants (CTGs) draw upon the best of what 
we know works: strong coalitions, multi-sector, public-private 
partnerships, evidence-based approaches, and evaluation. In Delaware, 
Nemours has successfully used this combination of approaches to stem 
the rising childhood obesity curve between 2006 and 2008. CTGs allow us 
to build upon this foundation and spread what works to other 
communities. The purpose of the grants is to support the 
implementation, evaluation, and dissemination of evidence-based 
community preventive health activities in order to reduce chronic 
disease rates, prevent the development of secondary conditions, address 
health disparities, and develop a stronger evidence-base of effective 
prevention programming. We urge the subcommittee to provide $226 
million for CTGs in fiscal year 2013, the level of support provided in 
fiscal year 2012.
Children's Hospital Graduate Medical Education (HRSA)
    Another important priority for Nemours is the healthcare workforce, 
particularly the pediatric workforce. Children's hospitals care for 
large numbers of children with complex health conditions. In order to 
achieve high-quality clinical care and outcomes, these specialty 
hospitals need to have well-trained residents and physicians. The 
Children's Hospital Graduate Medical Education (CHGME) provides support 
for Graduate Medical Education (GME) to freestanding children's 
hospitals that train resident physicians. The program was created to 
correct an unintended inequity in the level of Federal Graduate Medical 
Education funding for pediatric teaching hospitals, as opposed to other 
types of hospitals that are tied to the number of Medicare 
beneficiaries being treated at the hospital. Free-standing children's 
hospitals generally do not provide care to Medicare-eligible patients, 
and were largely left out of the GME financing system. While CHGME has 
helped address this inequity, support for children's hospitals still 
lags behind Medicare support for adult teaching hospitals.
    CHGME supports 55 free-standing children's hospitals in 30 States. 
Of the 8,111 general pediatric residents in this country, approximately 
45 percent of them train at a CHGME institution. Of the 4,883 pediatric 
subspecialist residents in the country, 51 percent of them train at a 
CHGME institution. In 2010, CHGME supported the training of almost 
6,000 pediatric resident physicians. Upon completion of their training, 
pediatric resident physicians become the primary care, specialty, and 
subspecialty physicians that care for our children in the community. 
This is a very important contribution to training our pediatric 
workforce, which continues to experience shortages, particularly in 
pediatric specialty care. A 2009 survey by the National Association of 
Children's Hospitals and Related Institutions (NACHRI), now Children's 
Hospital Association, found that national shortages contribute to 
vacancies in children's hospitals that commonly last 12 months or 
longer for a number of pediatric specialties. These vacancies often 
result in longer wait times for children to see pediatric specialists.
    Over 300 residents are trained each year at the Alfred I. duPont 
Hospital for Children (AIDHC). They are on the front line for families 
at our hospital, caring for patients 24 hours a day. They are also 
training to become future clinicians who will practice independently in 
general pediatrics specialties and subspecialties. In the outpatient 
department, they become the primary care physicians (under attending 
supervision) for numerous children. These trainees are also learning to 
become researchers to advance pediatric medicine in the future.
    The residents at AIDHC engage in many learning and volunteer 
opportunities. During daily conferences, medical students, residents, 
and attending physicians all come together to share knowledge and 
discuss complex cases. Residents participate in retreats where our 
attending physicians teach them about important topics such as patient 
safety, reducing medical errors, end of life care, and communicating 
with families. Along with an attending physician, residents volunteer 
on Wednesday evenings to provide care at homeless shelters in 
Wilmington. Some volunteer internationally, providing health education, 
medical care and immunizations in Haiti and Guatemala. These training 
components require the active participation of and close oversight by 
the attending physician.
    Unfortunately, the President's budget proposes reducing funding for 
this program to $88 million in fiscal year 2013. We urge Congress to 
reject this short-sighted cut and to continue to provide support for 
training the next generation of pediatricians, pediatric specialists 
and pediatric researchers. In fiscal year 2013, Nemours urges the 
subcommittee to provide flat funding for the CHGME program ($265 
million), at a minimum.
Child Care and Development Block Grant--Child Care Quality Initiative 
        (ACF)
    From high obesity rates to poor literacy levels, children in the 
United States face a host of obstacles to achieving the goal of living 
healthy, happy, and productive lives. It is alarming that over 20 
percent of pre-school aged children are obese or overweight, and 
reading failure affects 30 percent of our Nation's children. In order 
to ensure the healthy development of our children, we must reach them 
in as many settings as possible, including the places where they live, 
learn, and play. Approximately 12 million children in the United States 
spend time in child care outside their homes, making it a critical 
setting affecting the health and development of our Nation's children. 
To that end, we must ensure that we are providing the highest quality 
early care and education possible.
    The President's budget proposal includes $300 million for a Child 
Care Quality Initiative within the Child Care and Development Block 
Grant (CCDBG) to help ensure that children enter kindergarten ready to 
succeed. This initiative seeks to build on the progress of the Race to 
the Top--Early Learning Challenge (RTT-ELC). Nemours supports 
investments in improving the quality of child care programs by ensuring 
that child care providers have the training to help them meet higher-
quality standards. Nemours supports funding the President's request for 
a Child Care Quality Initiative to improve the quality of early 
childhood programs in the United States, promote positive child 
outcomes, and ensure that our children enter kindergarten healthy and 
ready to learn.
                               conclusion
    Nemours appreciates the opportunity to submit written testimony. As 
an integrated child health system, we have prioritized investments in 
clinical and community-based prevention and our workforce because we 
believe that in the long-run these investments will bend the health 
curve and the cost curve. We recognize that the Nation's fiscal 
situation requires a close examination of the programs and priorities 
that the Federal Government funds. As you make these critical funding 
decisions, we hope that prevention, quality and the healthcare 
workforce will remain priorities of the subcommittee in fiscal year 
2013.
                                 ______
                                 
             Prepared Statement of the Nephcure Foundation
    Summary of recommendations for fiscal year 2013:
  --$32 billion for the National Institutes of Health (NIH) and a 
        corresponding increase to the National Institute of Diabetes 
        and Digestive and Kidney Diseases (NIDDK).
  --Continue to support the Nephrotic Syndrome Rare Disease Clinical 
        Research Network at the Office of Rare Diseases Research 
        (ORDR).
  --Support continued expansion of the FSGS/NS research portfolio at 
        NIDDK and the National Institute on Minority Health and Health 
        Disparities (NIMHD) by funding more research proposals for 
        glomerular disease.
    Nephrotic syndrome (NS) is a collection of signs and symptoms 
caused by diseases that attack the kidney's filtering system. These 
diseases include focal segmental glomerulosclerosis (FSGS), Minimal 
Change Disease (MCD) and Membranous Nephropathy (MN). When affected, 
the kidney filters leak protein from the blood into the urine and often 
cause kidney failure which requires dialysis or kidney transplantation. 
According to a Harvard University report, 73,000 people in the United 
States have lost their kidneys as a result of FSGS. Unfortunately, the 
causes of FSGS and other filter diseases are very poorly understood.
    FSGS is the second leading cause of NS and is especially difficult 
to treat. There is no known cure for FSGS and current treatments are 
difficult for patients to endure. These treatments include the use of 
steroids and other dangerous substances which lower the immune system 
and contribute to severe bacterial infections, high blood pressure and 
other problems in patients, particularly child patients. In addition, 
children with NS often experience growth retardation and heart disease. 
Finally, NS caused by FSGS, MCD or MN is idiopathic and can often 
reoccur, even after a kidney transplant.
    FSGS disproportionately affects minority populations and is five 
times more prevalent in the African-American community. In a 
groundbreaking study funded by NIH, researchers found that FSGS is 
associated with two APOL1 gene variants. These variants developed as an 
evolutionary response to African sleeping sickness and are common in 
African-Americans.
    FSGS has a large social impact in the United States. FSGS leads to 
end-stage renal disease (ESRD) which is one of the most costly chronic 
diseases to manage. In 2007, the Medicare program alone spent $24 
billion, 6 percent of its entire budget, on ESRD. In 2005, FSGS 
accounted for 12 percent of ESRD cases in the United States, at an 
annual cost of $3 billion. It is estimated that there are currently 
approximately 20,000 Americans living with ESRD due to FSGS.
    Research on FSGS could achieve tremendous savings in Federal 
healthcare costs and reduce health status disparities. For this reason, 
and on behalf of the thousands of families that are significantly 
affected by this disease, we recommend the following:
  --$32 billion for the National Institutes of Health (NIH) and a 
        corresponding increase to the National Institute of Diabetes 
        and Digestive and Kidney Diseases (NIDDK).
  --Continue to support the Nephrotic Syndrome Rare Disease Clinical 
        Research Network (NEPTUNE) at the Office of Rare Diseases 
        Research (ORDR).
  --Support continued expansion of the FSGS/NS research portfolio at 
        NIDDK and the National Institute on Minority Health and Health 
        Disparities (NIMHD) by funding more research proposals for 
        glomerular disease.
Encourage FSGS/NS Research at NIH
    There is no known cause or cure for FSGS and scientists tell us 
that much more research needs to be done on the basic science behind 
FSGS/NS. More research could lead to fewer patients undergoing ESRD and 
tremendous savings in healthcare costs in the United States.
    With collaboration from other Institutes and Centers, ORDR 
established the Rare Disease Clinical Research Network. This network 
provided an opportunity for the NephCure Foundation, the University of 
Michigan, and other university research health centers to come together 
to form the Nephrotic Syndrome Study Network (NEPTUNE). NEPTUNE is 
developing a database of NS patients who are interested in 
participating in clinical trials which would alleviate the problem 
faced by many rare disease groups of not having access to enough 
patients for research. We urge the subcommittee to continue its support 
for RDCRN and for NEPTUNE, which has tremendous potential to make 
significant advancements in NS and FSGS research.
    The NephCure Foundation is also grateful to the NIDDK for issuing a 
program announcement (PA) that serves to initiate grant proposals on 
glomerular disease. This PA was issued in March 2007 and utilizes the 
R01 mechanism to award funding to glomerular disease researchers. In 
February 2010 the PA was re-released and is now scheduled to expire in 
2013. We ask the subcommittee to encourage NIDDK to continue to issue 
glomerular disease PAs.
    Due to the disproportionate burden of FSGS on minority populations, 
the NephCure Foundation feels that it is appropriate for NIMHD to 
develop an interest in this research. We ask the subcommittee to 
encourage ORDR, NIDDK, and NIMHD to collaborate on research that 
studies the incidence and cause of this disease among minority 
populations. We also ask the Subcommittee to urge NIDDK and the NIMHD 
to undertake culturally appropriate efforts aimed at educating minority 
populations about glomerular disease.
                                 ______
                                 
      Prepared Statement of the National Hispanic Council on Aging
    The National Hispanic Council on Aging (NHCOA)--the leading 
national organization working to improve the lives of Hispanic older 
adults, their families, and caregivers--thanks you for the opportunity 
to submit written testimony. Wisely investing in the future and 
implementing programs that will strengthen our country is a 
particularly daunting task given the limited resources and constraints 
at hand. Therefore, NHCOA recognizes the difficult decisions that lie 
ahead for your committee. We write to you today to express our support 
for the fiscally sensible programs created by the Older Americans Act, 
and to request they be appropriated sufficient funds to ameliorate the 
impending cuts of the Budget Control Act of 2011.
    For more than 30 years, NHCOA has been a strong voice dedicated to 
ensuring our Nation's Hispanic seniors--the fastest growing segment of 
the United State's rapidly expanding aging population--can age 
healthily and with dignity. Alongside its Hispanic Aging Network of 
nearly 40 community-based organizations across the country, NHCOA 
reaches 10 million Hispanics each year. NHCOA integrates research, 
policy, and practice to tackle the unique challenges Latino seniors 
face as they age, and by educating and empowering them to be better 
advocates for themselves. As an integral part of this mission, NHCOA 
incorporates a special focus on families and caregivers of Hispanic 
older adults in all its programmatic priorities, recognizing the 
paramount importance of family in the Latino community.
    Older Americans Act programs, implemented by the Administration on 
Aging, effectively serve older adults across the country, while also 
providing a wide variety of services that are flexible enough to meet 
the needs of every community. The Older Americans Act authorizes 
programs that train families to support their loved ones, put people 
back to work, put food on the table, eliminate elder abuse, and help 
communities develop the policies they need to help their older adults 
age with dignity. Because of programs that provide basic necessities 
like Meals on Wheels, there are fewer older adults having to choose 
between putting food on the table and filling their prescription. As 
appropriators, your support is critical for the continued success of 
these lifesaving programs.
    The population of Hispanic older adults, as well as the population 
of older adults in general, is growing rapidly. Every 7 seconds, today, 
and for the next 20 years, someone in the United States will turn 60. 
In terms of the Hispanic community, we have about 3 million Latino 
elders. By 2050, that number will increase to 17 million. Moreover, the 
Hispanic community as a whole is projected to grow to 30 percent of the 
entire U.S. population by 2050. That means nearly 1 in 3 people will be 
Hispanic. By 2019, the Latino senior population will become the largest 
non-White elder population in the United States.
    Funding for the programs of the Older Americans Act has not grown 
to match this population increase. Therefore, the impending cuts of the 
Budget Control Act of 2011 will decrease its ability to keep pace with 
the growth of the U.S. aging population. A reduction in these services 
will mean that fewer people will have access to home delivered meals, 
communities will have less funding to operate senior centers, and 
families will have less support in caring for their loved ones. These 
programs make a vital difference in communities across the country, but 
to keep effectively serving the growing population, an adequate level 
of funding is imperative.
    Hispanics face a variety of challenges that make aging particularly 
difficult. Many Hispanic older adults have spent their lives in jobs 
that have not helped them prepare for their later years. Low-wage, 
physically demanding jobs are all too common in the Latino community, 
and these jobs offer little in the way of healthcare and pension 
benefits. As a result, many Hispanics enter their golden years with 
little money saved and little or no previous access to health 
insurance. Cultural and linguistic differences are additional barriers 
to accessing needed services. All of these economic, physical, and 
social factors combined result in Hispanic older adults earning below 
average Social Security benefits, enduring chronic health problems at 
disparate rates, and having a harder time gaining access to needed 
services.
    Last year, an organization called Hispanics in Philanthropy 
released a study about the programs of the Older Americans Act and the 
difficulties those programs faced in serving Hispanic communities. The 
study found that many communities were unable to deliver the services 
and information necessary to help Hispanic older adults, despite being 
readily available. Many communities lack the financial resources to 
hire and train new workers to serve the rapidly aging Hispanic 
population. Appropriating more money for Older Americans Act programs 
will allow communities to better serve their older adults and also to 
embrace their growing diversity.
    NHCOA has worked and spoken with Hispanic older adults and their 
families across the country, and though the needs and concerns of the 
population are diverse, they were unified in their support for the 
Older Americans Act as a main vehicle to address the struggles of 
simply making ends meet in their community. Every day, Hispanic older 
adults must decide what to sacrifice--food on the table, rent and 
utilities, or medications. Family members juggle multiple jobs to care 
for older adults in their families and are unaware of existing 
opportunities for caregiver training. Incidents of elder abuse are not 
reported because older adults do not know where to turn. Hispanic older 
adults also suffer disproportionately from chronic medical conditions 
like diabetes, are less likely to manage hypertension, and are 
significantly more likely to suffer from HIV/AIDS. With sufficient 
funding, however, the Older Americans Act is unequipped to adequately 
address these problems.
    Funding Older Americans Act programs is a wise investment in the 
future. Nutrition and health management programs, which are proven 
effective at reaching Hispanic older adults, can keep minor health 
problems from becoming chronic, or even life threatening conditions. 
The National Family Caregiver Support Program offers trainings and 
services that are flexible enough to meet the needs of every community. 
Elder abuse prevention programs have the potential to save lives. 
Through small investments that help older adults age in dignity, we can 
achieve real savings in more costly programs, such as Medicare and 
Medicaid. Furthermore, making an investment to train service providers 
on how to effectively work with a diversifying older adult population 
is a necessary preemptive measure and cannot happen at a better time.
    NHCOA respectfully asks that your committee provide increased 
funding to Older Americans Act programs to help them withstand the 
impending cuts from the Budget Control Act of 2011. This increased 
appropriation will not only allow communities to maintain the services 
and supports they already offer, but it will also improve their 
capacity to serve the rapidly growing diverse older adult population in 
the United States.
                                 ______
                                 
       Prepared Statement of the National Head Start Association
    Chairman Harkin, Ranking Member Shelby, thank you for allowing the 
National Head Start Association (NHSA) submit testimony in support of 
funding for Head Start and Early Head Start in fiscal year 2013. Head 
Start is a national commitment to provide critical early education, 
health, nutrition, child care, parent involvement and family support 
services in return for a lifelong measurable impact on the low-income 
children and families. Today, as our Nation's children face greater 
obstacles than ever, there is a significant need to prepare the next 
generation for success in school and later in life, and Head Start has 
a proven track record of accomplishing this. NHSA is grateful that 
Congress and the President made a solid commitment to quality early 
childhood education in fiscal year 2012 by providing funding to 
maintain services for children currently served by Head Start and Early 
Head Start programs.
    Quality early education prepares the Nation's youngest children for 
a lifetime of learning. In fact, studies show that for every $1 
invested in a Head Start child, society earns at least $7 back through 
increased earnings, employment, and family stability; and decreased 
welfare dependency, crime costs, grade repetition, and special 
education. But the economy has taken a toll on the program as well. 
During this most recent recession, Head Start and Early Head Start 
directors have experienced rapidly rising operating costs that may 
eventually affect their ability to maintain program size.
    NHSA hopes that this Subcommittee will support the administration's 
drive to improve accountability, as well as account for the rising cost 
of maintaining programs. Though we appreciate the President's request 
for an $85 million increase over the fiscal year 2012 enacted level, 
after extensive conversations and input from the field we recognize 
that it is not enough. The Head Start community is proposing an 
increase of $325 million over fiscal year 2012 to provide the funding 
necessary to ensure that Head Start centers can meet the rising costs 
of service for an additional school year, improve access for vulnerable 
infants, and meet the requirements of the 2007 Head Start 
Reauthorization Act.
Head Start Fixed Costs Rising
    Though funding for Head Start has increased significantly in recent 
budget years, the cost of serving families has risen at a much faster 
pace. When surveyed, a full 83 percent of Head Start centers reported 
that their costs have increased just over the past year--in fact, 25 
percent of those who responded report that their fixed costs, including 
maintenance, transportation, and insurance, have increased by more than 
11 percent over the last 12 months. In some areas, rent on facilities 
alone has gone up between 5-10 percent. It is an enormous task to keep 
costs low for what is a very comprehensive model.
    Though center directors have some flexibility to streamline and try 
to be more efficient, there are limits to how far they can go. Most 
centers have already laid off staff, closed facilities and consolidated 
programs to save costs, and are leaning more than ever on other 
community partners to help provide health, employment, and other 
services that are required by the model. The Head Start community is 
reaching its limit on how far it can take this practice, given 
statutory quality standards. The only logical next step for many 
programs may in fact be to change their service delivery method which 
can result in moving from full-day to part-day service, or worse, 
reducing the number of children it can enroll.
    Energy costs have gone up significantly, and an overwhelming 
majority of programs are finding it difficult to keep up with fuel 
costs for the transportation of kids to and from the center. This is 
particularly challenging in rural areas. One Idaho Tribal Head Start 
program spends an astonishing $1,000 per month on gasoline. They 
believe that they must continue to provide transportation because, as 
the director says, ``Many of our families can barely afford gas for 
work, let alone transport their child to Head Start.''
    Deferred maintenance of Head Start centers poses its challenges as 
well. At one Western Iowa Head Start, they spent $53,000 on one bus 
that only holds 16 kids--to replace one of their buses among a fleet 
that is nearly 20 years old. Many other centers, operating in older 
facilities, hope the roof will hold out one more year, or that the 
playground equipment will remain solid and safe. Most programs must 
wait until the end of a program year to decide what can be fixed within 
the budget. Regardless, the centers are judged by frequent monitors who 
have the ability to demand change when they see a potential hazard--
with the additional funds being requested, Head Start directors could 
do more to prevent potential safety hazards.
    Head Start programs also need to adapt to changing regulations. The 
Consumer Product Safety Commission released new rules regarding crib 
safety and Early Head Start programs must now replace all their cribs. 
Head Start centers also must implement new data systems that will track 
more nuanced child outcomes data. Even the smallest programs report 
costs upwards of $5,000 just for the tracking software. The City of 
Chicago Head Start program is spending an unexpected $12,000 on new 
cribs this year, and has spent a staggering $3,000,000 on new data 
collection systems.
    Finally, Head Start centers must provide health insurance for 
staff. These costs have increased rapidly. In Louisiana, the Iberville 
Parish Council Head Start, which serves 360 children and employs 61 
teachers and staff at 6 centers, has struggled to make ends meet 
because of rising health insurance and other costs. Ultimately, the 
Parish Council voted to relinquish control of the program entirely and 
turn it over to the Federal Government rather than tell families they 
could not serve their children because it, as a local entity, could not 
afford to continue subsidizing the increasing costs. The director said 
of the decision, ``The Federal Government wants you to run a Cadillac 
program on Chevrolet prices.''
Head Start Salaries Are Noncompetitive
    Another pressing cost concern that is directly related to a child's 
progress is the quality of teachers. Five years ago, a bipartisan 
Congress passed, and President George W. Bush signed, the Improving 
Head Start for School Readiness Act of 2007 (Public Law 110-134). 
Included in this reauthorization were a number of welcomed quality 
improvement measures for Head Start and Early Head Start programs; 
particularly, requirements for more-qualified teachers.
    Specifically, by September 30, 2013, at least 50 percent of Head 
Start teachers nationally are required to have a Bachelor's Degree, an 
Advanced Degree, or an equivalent degree in a field related to early 
childhood education. I am pleased to share that the Head Start 
community has already met this requirement.
    In order to achieve compliance, Head Start directors encouraged 
their staff to obtain degrees. When possible they helped supplement 
tuition and costs in order to ensure that staff would stay on once the 
degree was obtained. But the market for early childhood teachers with 
college degrees is very competitive and it has become extremely 
difficult to keep these credentialed employees in place. Qualified 
staff comes at a price, a price the Head Start budget does not easily 
afford.
    According to data collected by the PIR, in 2010, a Head Start 
teacher with a CDA made on average $22,329 per year; a teacher with a 
graduate degree $35,194. The average across all Head Start teachers is 
$27,880. This is, according to the Center for Law and Social Policy, 
considerably less than the average salary for a preschool teacher in 
elementary in secondary schools, which was $42,150 in 2010. Young 
graduates of education schools, moreover, are not choosing early 
education as a viable career path.
    A Bachelor's degree qualifies them for any number of jobs outside 
of early education. Some employees leave to work for the local bank or 
another business, where the salaries and benefits much more competitive 
and better for their families. After all, many of these newly 
credentialed individuals were once Head Start parents themselves, due 
to the early focus on ``parents as teachers.'' We cannot and do not 
fault them for rising out of poverty to make a better life for 
themselves and their families.
    This constant turnover is disruptive to Head Start children and 
families, and is another burden on center directors who must find 
qualified individuals to take their place, complete background checks 
and have them fully oriented to the complicated expectations of the 
program. With noncompetitive salaries, this is very difficult. In rural 
areas, it is nearly impossible--the labor pool is limited, and 
relatively unchanging.
Designation Renewal System
    One of the most anticipated provisions of the 2007 Head Start Act 
will require Head Start grantees designated as low-performing to 
compete for the continuation of their grant. Different from the Head 
Start grant termination process, this additional accountability 
measure, the Designation Renewal System, is an enormous undertaking for 
the Office of Head Start (OHS) and will certainly require additional 
funds to execute. NHSA supports the Administration for Children and 
Families' request for additional staff to ensure that the renewal 
competitions are executed in a fair, transparent, and effective manner.
    Last December, OHS began the first stages of the DRS by informing 
an initial 132 grantees that would recompete for their funding. We are 
very concerned with the potential impacts of transitioning a Head Start 
program from one organization to another, in particular the impact on 
children and families.
    We therefore appreciate the administration's request for $40 
million as a ``rainy day fund'' and understand these funds may indeed 
be necessary. However, we hope that if any of these funds are not 
utilized that they will be reinvested in the training and technical 
assistance activity funds available to grantees. During this time of 
change in the program, especially as new organizations may become Head 
Start grantees; it will be helpful to assist everyone in our continued 
drive to sustain excellence and remain compliant with all of the more 
than 1,700 separate Head Start regulations.
The Gap Between Early Head Start and Head Start
    When NHSA talks to the dedicated Head Start directors across the 
country about how they could better serve their communities, so many of 
them say they wish they could get to more children earlier. Across all 
Head Start programs, centers are only able to serve less than 3 percent 
of eligible infants.
    The waiting lists are increasingly long, especially as the economy 
continues to present significant challenges to the poor. Today, one in 
five children are born into poverty--and eligible for Early Head Start. 
In one center in Burien, Washington, the Early Head Start program 
serves 30 infants, 10 of which are homeless, and 7 of which are 
``special needs'' children. There are currently over 50 families on the 
waitlist. Knowing all we know about the effectiveness of intervention 
in these early years, NHSA strongly supports even a small investment in 
increasing access to Early Head Start.
Centers of Excellence
    Last, the National Head Start Association supports continued 
investment in the now 20 Centers of Excellence in Early Childhood that 
were named, but only partially funded, over the last 2 years--in the 
following localities: Greensburg, Pennsylvania; Baltimore, Maryland; 
Mount Vernon, Ohio; Houghton, Michigan; Owensboro, Kentucky; Morganton, 
North Carolina; Birmingham, Alabama; Denver, Colorado; Albuquerque, New 
Mexico; Dunkirk, New York; Laguna, New Mexico; Rock Island, Illinois; 
Reno, Nevada; Modesto, California; Marshalltown, Iowa; Elmsford, New 
York; Tulsa, Oklahoma; Hugo, Oklahoma; Mayaguez, Puerto Rico; and 
Chattanooga, Tennessee. The resources and tools these Centers have 
designed and provided to the Head Start community are effective, well-
designed, and serve as models for other Early/Head Start programs to 
emulate. Their innovative practices and peer-learning approaches will 
be much more in demand as practitioners adjust to the requirements of 
the 2007 law.
Head Start Works
    Since 1965, Head Start (and now Early Head Start as well) has been 
providing a proven, evidence-based comprehensive program to prepare at-
risk children and families for a stable, successful life. Head Start 
improves the odds and the options for at-risk kids for a lifetime. 
Research shows that Head Start has genuine cost benefits--
conservatively, it is estimated to yield a benefit-cost ratio as large 
as $7 to $1.\1\
---------------------------------------------------------------------------
    \1\ Ludwig, J. and Phillips, D. (2007). The Benefits and Costs of 
Head Start. Social Policy Report. 21 (3: 4); Meier, J. (2003, June 20). 
Interim Report. Kindergarten Readiness Study: Head Start Success. 
Preschool Service Department, San Bernardino County, California.
---------------------------------------------------------------------------
    Head Start saves hard-earned tax dollars by decreasing the need for 
children to receive special education services in elementary 
schools.\2\ Data analysis of a recent Montgomery County Public Schools 
evaluation found that a MCPS child receiving full-day Head Start 
services when in Kindergarten requires 62 percent fewer special 
education services and saves taxpayers $10,100 per child annually.\3\ 
States can save $29,000 per year for each person that they don't need 
to incarcerate because Head Start children are 12 percent less likely 
to have been charged with a crime.\4\
---------------------------------------------------------------------------
    \2\ Barnett, W. (2002, September 13). The Battle Over Head Start: 
What the Research Shows. Presentation at a Science and Public Policy 
Briefing Sponsored by the Federation of Behavioral, Psychological, and 
Cognitive Sciences.
    \3\ NHSA Public Policy and Research Department analysis of data 
from a Montgomery County Public Schools evaluation. See Zhao, H. & 
Modarresi, S. (2010, April). Evaluating lasting effects of full-day 
prekindergarten program on school readiness, academic performance, and 
special education services. Office of Shared Accountability, Montgomery 
County Public Schools.
    \4\ Reuters. (2009, March). Cost of locking up Americans too high: 
Pew study; Garces, E., Thomas, D. and Currie, J. (2002, September). 
Longer-term effects of Head Start. American Economic Review, 92 (4): 
999-1012.
---------------------------------------------------------------------------
    A study released by the National Bureau of Economic Research shows 
that Head Start parents are more actively engaged in their children's 
academic careers long after the child has entered kindergarten, a key 
ingredient of a learning environment that leads to future success.\5\ 
The Baltimore Education Research Consortium (BERC) released findings in 
March 2012 related to chronic absenteeism in Kindergarten--which 
studies have shown to relate to poorer overall academic achievement as 
late as 5th grade. BERC's research shows that students who had attended 
Head Start showed the highest attendance rates in kindergarten and the 
lowest level of chronic absence in first through third grades.\6\ These 
non-test-score findings help illustrate the long-term viability of the 
program--today, the more than 27 million Head Start graduates are 
working every day in our communities to make our country and our 
economy strong.
---------------------------------------------------------------------------
    \5\ National Bureau of Economic Research. (2011, December). 
Children's Schooling and Parents' Investment in Children: Evidence from 
the Head Start Impact Study (Working Paper No. 17704). Cambridge, MA: 
A. Gelber & A. Isen.
    \6\ Baltimore Education Research Consortium (2012, March). Early 
Elementary Performance and Attendance in Baltimore City Schools' Pre-
Kindergarten and Kindergarten. Baltimore, Maryland: F. Connelly & 
Olson, L.
---------------------------------------------------------------------------
    Head Start families with their increased health literacy also show 
immediate healthcare benefits, including lower Medicaid costs-on 
average $232 per family. The program has also reduced mortality rates 
from preventable conditions for 5- to 9-year olds by as much as 50 
percent.\7\ Studies have shown that the program reduces healthcare 
costs for employers and individuals because Head Start children are 
less obese,\8\ 8 percent more likely to be immunized,\9\ and 19 to 25 
percent less likely to smoke as an adult.\10\
---------------------------------------------------------------------------
    \7\ Ludwig, J. and Phillips, D. (2007) Does Head Start improve 
children's life chances? Evidence from a regression discontinuity 
design. The Quarterly Journal of Economics, 122 (1): 159-208.
    \8\ Frisvold, D. (2006, February). Head Start participation and 
childhood obesity. Vanderbilt University Working Paper No. 06-WG01.
    \9\ Currie, J. and Thomas, D. (1995, June). Does Head Start Make a 
Difference? The American Economic Review, 85 (3): 360.
    \10\ Anderson, K.H., Foster, J.E., & Frisvold, D.E. (2009). 
Investing in health: The long-term impact of Head Start on smoking. 
Economic Inquiry, 48 (3), 587-602.
---------------------------------------------------------------------------
    The Head Start community understands the budgetary pressures the 
Federal Government is facing and is so very grateful for the commitment 
shown by this Congress and the President to keep early learning, and 
Head Start in particular, a priority. The research shows that the 
``achievement gap'' is apparent as early as the age of 18 months--we 
will spend substantially more downstream if these same young people are 
not prepared to graduate high-school, attend college and lead 
prosperous lives. We urge the Subcommittee to fully invest in Head 
Start and Early Head Start to improve accountability, increase access, 
and ensure that we have a stable and prosperous workforce for 
generations to come.
                                 ______
                                 
          Prepared Statement of the National Kidney Foundation
    End Stage Renal Disease (ESRD), which requires dialysis or 
transplantation for survival, is the only disease-specific coverage 
under Medicare, regardless of age or other disability. At the end of 
2009, the number of Americans with ESRD totaled 558,239, including 
113,908 new patients that year. Furthermore, CKD represented almost 8 
percent of the Medicare population age 65 and over in 2009, but 22 
percent of Medicare costs for this age group. Complicating the cost and 
human toll is the fact that CKD is a disease multiplier; patients are 
very likely to be diagnosed with diabetes, cardiovascular disease, or 
hypertension.
    Despite this tremendous social and economic impact, no national 
public health program focusing on early detection and treatment existed 
until fiscal year 2006, when Congress provided $1.8 million to initiate 
a Chronic Kidney Disease Program at the Centers for Disease Control and 
Prevention (CDC). Congressional interest regarding kidney disease 
education and awareness also is found in section 152 of the Medicare 
Improvements for Patients and Providers Act of 2008 (MIPPA, Public Law 
110-275), which directed the Secretary to establish pilot projects to 
increase screening for Chronic Kidney Disease (CKD) and enhance 
surveillance systems to better assess the prevalence and incidence of 
CKD. Cost-effective treatments exist to potentially slow progression of 
kidney disease and prevent its complications, but only if individuals 
are diagnosed before the latter stages of CKD.
    The CDC program is designed to identify members of populations at 
high risk for CKD, develop community-based approaches for improving 
detection and control, and educate health professionals about best 
practices for early detection and treatment. The National Kidney 
Foundation respectfully urges the Committee to maintain line-item 
funding in the amount of $2.2 million for the Chronic Kidney Disease 
Program at CDC. Continued support will benefit kidney patients and 
Americans who are at risk for kidney disease, advance the objectives of 
Healthy People 2020 and the National Strategy for Quality Improvement 
in Health Care, and fulfill the mandate created by section 152 of 
MIPPA.
    The prevalence of CKD in the United States is higher than a decade 
earlier. This is partly due to the increasing prevalence of the related 
diseases of diabetes and hypertension. It is estimated that CKD affects 
26 million adult Americans \1\ and that the number of individuals in 
this country with CKD who will have progressed to kidney failure, 
requiring chronic dialysis treatments or a kidney transplant to 
survive, will grow to 712,290 by 2015 \2\. Kidney disease is the 8th 
leading cause of death in the United States, after having been the 9th 
leading cause for many years. Furthermore, a task force of the American 
Heart Association noted that decreased kidney function has consistently 
been found to be an independent risk factor for cardiovascular disease 
(CVD) outcomes and all-cause mortality and that the increased risk is 
present with even mild reduction in kidney function.\3\ Therefore 
addressing CKD is a way to achieve one of the priorities in the 
National Strategy for Quality Improvement in Health Care: Promoting the 
Most Effective Prevention and Treatment of the Leading Causes of 
Mortality, Starting with Cardiovascular Disease.
---------------------------------------------------------------------------
    \1\ Josef Coresh, et al. ``Prevalence of Chronic Kidney Disease in 
the United States,''JAMA, November 7, 2007.
    \2\ D.T. Gilbertson, et al., Projecting the Number of Patients with 
End-Stage Renal Disease in the United States to the Year 2015. J Am Soc 
Nephrol 16: 3736-3741, 2005.
    \3\ Mark J. Sarnak, et al. Kidney Disease as a Risk Factor for the 
Development of Cardiovascular Disease: A Statement from the American 
Heart Association Councils on Kidney in Cardiovascular Disease, High 
Blood Pressure Research, Clinical Cardiology, and Epidemiology and 
Prevention. Circulation 2003: 108: 2154-69.
---------------------------------------------------------------------------
    CKD is often asymptomatic, especially in the early stages, and, 
therefore goes undetected without laboratory testing. In fact, some 
people remain undiagnosed until they have reached CKD Stage 5, 
requiring dialysis or a kidney transplant. Accordingly, Healthy People 
2020 Objective CKD-2 is to ``increase the proportion of persons with 
chronic kidney disease (CKD) who know they have impaired renal 
function.'' Screening and early detection provides opportunity for 
interventions to foster awareness, adherence to medications, risk 
factor control, and improved outcomes. Additional data collection is 
required to precisely define the incremental benefits of early 
detection on kidney failure, cardiovascular events, hospitalization and 
mortality. Increasing the proportion of persons with CKD who know they 
are affected requires expanded public and professional education 
programs and screening initiatives targeted at populations who are at 
high risk for CKD. As a result of consistent congressional support, the 
National Center for Chronic Disease Prevention and Health Promotion at 
CDC has instituted a series of projects that could assist in attaining 
the Healthy People 2020 objective. However, this forward momentum will 
be stifled and CDC's investment in CKD to date jeopardized if line-item 
funding is not continued. Congress rejected the administration's 
proposal to consolidate funding for chronic disease programs for fiscal 
year 2012 and we urge you to oppose it for fiscal year 2013 as well.
    As noted in CDC's Preventing Chronic Disease: April 2006, Chronic 
Kidney Disease meets the criteria to be considered a public health 
issue: (1) the condition places a large burden on society; (2) the 
burden is distributed unfairly among the overall population; (3) 
evidence exists that preventive strategies that target economic, 
political, and environmental factors could reduce the burden; and (4) 
evidence shows such preventive strategies are not yet in place. 
Furthermore, CDC convened an expert panel in March 2007 to outline 
recommendations for a comprehensive public health strategy to prevent 
the development, progression, and complications of CKD in the United 
States.
    The CDC Chronic Kidney Disease program has consisted of three 
projects to promote kidney health by identifying and controlling risk 
factors, raising awareness, and promoting early diagnosis and improved 
outcomes and quality of life for those living with CKD. These projects 
have included the following:
  --Demonstrating effective approaches for identifying individuals at 
        high risk for chronic kidney disease through State-based 
        screening (CKD Health Evaluation and Risk Information Sharing, 
        or CHERISH).
  --Conducting an economic analysis by the Research Triangle Institute, 
        under contract with the CDC, on the economic burden of CKD and 
        the cost-effectiveness of CKD interventions.
  --Establishing a surveillance system for Chronic Kidney Disease in 
        the U.S. Development of a surveillance system by collecting, 
        integrating, analyzing, and interpreting information on CKD 
        using a systematic, comprehensive and feasible approach will be 
        instrumental in prevention and health promotion efforts for 
        this chronic disease. The CDC CKD surveillance project has 
        built a basic system from a number of data sources, produced a 
        report and beta-tested a website. The next steps include 
        exploring State-based CKD surveillance data ideal for public 
        health interventions through the State department of health.
    We believe it is possible to distinguish between the CKD program 
and other categorical chronic disease initiatives at CDC, because the 
CKD program does not provide funds to State health departments. 
Instead, CDC has been making available seed money for feasibility 
studies in the areas of epidemiological research and health services 
investigation. Because the CKD program does not provide funds to State 
health departments, we maintain it should be exempted from the changes 
in the structure and budget of the National Center for Chronic Disease 
Prevention and Health Promotion, at least until surveillance planning, 
and studies of detection feasibility and economic impact are completed.
    In summary, undetected Chronic Kidney Disease can lead to costly 
and debilitating irreversible kidney failure. However, cost-effective 
interventions are available if patients are identified in the early 
stages of CKD. With the continued expressed support of Congress, the 
National Kidney Foundation is confident a feasible detection, 
surveillance and treatment program can be established to slow, and 
possible prevent, the progression of kidney disease.
    Thank you for your consideration of our testimony.
                                 ______
                                 
         Prepared Statement of the National League for Nursing
    The National League for Nursing (NLN) is the premiere organization 
dedicated to promoting excellence in nursing education to build a 
strong and diverse nursing workforce to advance the Nation's health. 
With leaders in nursing education and nurse faculty across all types of 
nursing programs in the United States--doctorate, master's, 
baccalaureate, associate degree, diploma, and licensed practical--the 
NLN has more than 1,200 nursing school and healthcare agency members, 
36,000 individual members, and 27 regional constituent leagues.
    The NLN urges the subcommittee to fund the following Health 
Resources and Services Administration (HRSA) nursing programs:
  --The Nursing Workforce Development Programs, as authorized under 
        Title VIII of the Public Health Service Act, at $251.099 
        million in fiscal year 2013; and
  --The Nurse-Managed Health Clinics, as authorized under Title III of 
        the Public Health Service Act, at $20 million in fiscal year 
        2013.
                  nursing education is a jobs program
    According to the U.S. Bureau of Labor Statistics (BLS), the 
registered nurse (RN) workforce will grow by 26 percent from 2010 to 
2020, resulting in 711,900 new jobs. This growth in the RN workforce 
represents the largest projected numeric job increase from 2010 to 2020 
for all occupations. The April 6, 2012, BLS Employment Situation 
Summary--March 2012 likewise reinforces the strength of the nursing 
workforce to the Nation's job growth. While the Nation's overall 
unemployment rate was little changed at 8.2 percent for March 2012, the 
employment in healthcare increased in March with the addition of 26,000 
jobs at ambulatory healthcare services, hospitals, and nursing and 
residential care facilities.
    Nursing is the predominant occupation in the healthcare industry, 
with more than 3.854 million active, licensed RNs in the United States 
in 2010. BLS notes that healthcare is a critically important industrial 
complex in the Nation. Growing steadily even during the depths of the 
recession, healthcare is virtually the only sector that added jobs to 
the economy on a net basis since 2001. Over the last 12 months, 
healthcare added 365,800 jobs, or an average of 30,480 jobs per month.
    The Nursing Workforce Development Programs provide training for 
entry-level and advanced degree nurses to improve the access to, and 
quality of, healthcare in underserved areas. The Title VIII nursing 
education programs are fundamental to the infrastructure delivering 
quality, cost-effective healthcare. The NLN applauds the subcommittee's 
bipartisan efforts to recognize that a strong nursing workforce is 
essential to a health policy that provides high-value care for every 
dollar invested in capacity building for a 21st century nurse 
workforce.
    The current Federal funding falls short of the healthcare 
inequities facing our Nation. Absent consistent support, recent boosts 
to Title VIII will not fulfill the expectation of paying down on asset 
investments to generate quality health outcomes; nor will episodic 
increases in funding fill the gap generated by a 14-year nurse and 
nurse faculty shortage felt throughout the entire United States health 
system.
               the nurse pipeline and education capacity
    Although the recession resulted in some stability in the short-term 
for the nurse workforce, policymakers must not lose sight of the long-
term growing demand for nurses in their districts and States. The NLN's 
findings from its Annual Survey of Schools of Nursing--Academic Year 
2009-2010 cast a wide net on all types of nursing programs, from 
doctoral through diploma, to determine rates of application, 
enrollment, and graduation. Key findings include:
  --Expansion of nursing education programs impeded by shortage of 
        faculty and clinical placements. The overall capacity of 
        prelicensure nursing education continues to fall well short of 
        demand. Fully 42 percent of all qualified applications to basic 
        RN programs were met with rejection in 2010. Associate degree 
        in nursing (ADN) programs rejected 46 percent of qualified 
        applications, compared with 37 percent of baccalaureate of 
        science in nursing (BSN) programs. Notably, the Nation's 
        practical nursing (PN) programs turned away 40 percent of 
        qualified applications. A strong correlation exists between the 
        shortage of nurse faculty and the inability of nursing programs 
        to keep pace with the demand for new RNs. Increasing the 
        productivity of education programs is a high priority in most 
        States, but faculty recruitment is a glaring problem that will 
        grow more severe. Without faculty to educate our future nurses, 
        the shortage cannot be resolved.
  --Yield rates continued to grow. Yield rates--a classic indicator of 
        the competitiveness of college admissions--remain 
        extraordinarily high among pre- and post-licensure nursing 
        programs. A stunning 94 percent of all applicants accepted into 
        ADN programs, and 93 percent of those accepted in PN programs, 
        went on to enroll in 2010. Yield rates among the other program 
        types were nearly as high, averaging 89 percent for RN-to-BSN 
        programs; 86 percent for RN diploma programs, master's in 
        nursing (MSN) programs, and doctoral programs; and 84 percent 
        for BSN programs.
              nurse shortage affected by faculty shortage
    A strong correlation exists between the shortage of nurse faculty 
and the inability of nursing programs to keep pace with the demand for 
new RNs. Increasing the productivity of education programs is a high 
priority in most States, but faculty recruitment is a glaring problem 
that likely will grow more severe. Without faculty to educate our 
future nurses, the shortage cannot be resolved.
    The NLN's findings from the 2009 Faculty Census show that:
  --Shortages of faculty and clinical placements impeded expansion.--A 
        shortage of faculty continues to be cited most frequently as 
        the main obstacle to expansion by RN-to-BSN and doctoral 
        programs--indicated by 47 and 53 percent, respectively. By 
        contrast, prelicensure programs are more likely to point to a 
        lack of available clinical placement settings as the primary 
        obstacle to expanding admissions.
  --Inequities in faculty salaries added to shortage difficulties.--
        Despite a national shortage of nurse educators, in 2009 the 
        salaries of nurse educators remained notably below those earned 
        by similarly ranked faculty across higher education. At the 
        professor rank nurse educators suffer the largest deficit with 
        salaries averaging 45 percent lower than those of their non-
        nurse colleagues. Associate and assistant nursing professors 
        were also at a disadvantage, earning 19 and 15 percent less 
        than similarly ranked faculty in other fields, respectively.
  --Faculty staffing deficit expected to intensify as workforce reaches 
        retirement age.--The percentage of faculty ages 30 to 45 and 
        ages 46 to 60 both dropped by 3 percent between 2006 and 2009. 
        At the same time the percentage of full-time educators over age 
        60 grew dramatically from only 9 percent in 2006 to nearly 16 
        percent in 2009. Overall, 57 percent of part-time educators and 
        nearly 76 percent of full-timers were over the age of 45 in 
        2009.
                   title viii federal funding reality
    Today's undersized supply of appropriately prepared nurses and 
nurse faculty does not bode well for our Nation. The Title VIII Nursing 
Workforce Development Programs are a comprehensive system of capacity-
building strategies that provide students and schools of nursing with 
grants to strengthen education programs, including faculty recruitment 
and retention efforts, facility and equipment acquisition, clinical lab 
enhancements, and loans, scholarships, and services that enable 
students to overcome obstacles to completing their nursing education 
programs. HRSA's Title VIII data below provide perspective on a few of 
the current Federal investments.
    Nurse Education, Practice, Quality, and Retention Grants (NEPQR).--
NEPQR funds projects addressing the critical nursing shortage via 
initiatives designed to expand the nursing pipeline, promote career 
mobility, provide continuing education, and support retention. In 
fiscal year 2011, NEPQR funded 106 infrastructure grants, including the 
Nursing Assistant and Home Health Aide program awarding grants to 10 
colleges or community-based training programs.
    Comprehensive Geriatric Education Program (CGEP).--CGEP funds 
training, curriculum development, faculty development, and continuing 
education for nursing personnel who care for older citizens. In 
academic year 2010-2011, 27 non-competing CGEP grantees provided 
education to 3,645 RNs, 1,238 RN students, 870 direct service workers, 
569 licensed practical/vocational nurses, 264 faculty, and 5,344 allied 
health professionals.
    Advanced Nursing Education (ANE) Program.--ANE supports 
infrastructure grants to schools of nursing for advanced practice 
programs preparing nurse-midwives, nurse anesthetists, clinical nurse 
specialists, nurse administrators, nurse educators, public health 
nurses, or other advanced level nurses. In academic year 2010-11, the 
ANE Program supported 151 advanced nursing education projects and 
enrolled 7,863 advanced nursing education students.
                  nurse-managed health clinics (nmhc)
    NMHCs are defined as a nurse-practice arrangement, managed by 
advanced practice registered nurses, that provides primary care or 
wellness services to underserved or vulnerable populations. NMHCs are 
associated with a school, college, university, or department of 
nursing, federally qualified health center, or independent nonprofit 
health or social services agency.
    NMHCs deliver comprehensive primary healthcare services, disease 
prevention, and health promotion in medically underserved areas for 
vulnerable populations. Approximately 58 percent of NMHC patients 
either are uninsured, Medicaid recipients, or self-pay. The complexity 
of care for these patients presents significant financial barriers, 
heavily affecting the sustainability of these clinics. While providing 
access points in areas where primary care providers are in short 
supply, expansion of NMHCs also increases the number of structured 
clinical teaching sites available to train nurses and other primary 
care providers. Appropriating $20 million in fiscal year 2013 to NMHCs 
would increase access to primary care for thousands of uninsured people 
in rural and underserved urban communities.
    The NLN can state with authority that the deepening health 
inequities, inflated costs, and poor quality of healthcare outcomes in 
this country will not be reversed until the concurrent shortages of 
nurses and qualified nurse educators are addressed. Your support will 
help ensure that nurses exist in the future who are prepared and 
qualified to take care of you, your family, and all those who will need 
our care. Without national efforts of some magnitude to match the 
healthcare reality facing our Nation today, a calamity in nurse 
education and in health care generally may not be avoided.
    The NLN urges the subcommittee to strengthen the Title VIII Nursing 
Workforce Development Programs by funding them at a level of $251.099 
million in fiscal year 2013. We also recommend that the Nurse-Managed 
Health Clinics, as authorized under Title III of the Public Health 
Service Act, be funded at $20 million in fiscal year 2013.
                                 ______
                                 
         Prepared Statement of the National Minority Consortia
    The National Minority Consortia (NMC) \1\ submits this statement on 
the fiscal year 2015 advance appropriations for the Corporation for 
Public Broadcasting (CPB). The NMC is a coalition of five national 
organizations dedicated to bringing unique voices and perspectives from 
America's diverse communities into all aspects of public broadcasting 
and other media, including content transmitted digitally over the 
Internet. Our role has been crucial to public broadcasting's mission 
for over 35 years. We are unique in the services we provide minority 
producers for access, training and support. The NMC delivers important 
and timely public interest content to our communities and to public 
broadcasting. We ask the committee to:
---------------------------------------------------------------------------
    \1\ Center for Asian American Media; Latino Public Broadcasting; 
National Black Programming Consortium/Black Public Media; Native 
American Public Telecommunications; Pacific Islanders in 
Communications.
---------------------------------------------------------------------------
  --Direct CPB to increase its efforts for diverse programming with 
        commensurate increases for minority programming and for 
        organizations and stations located within underserved 
        communities;
  --Include report language, which recognizes the contribution of the 
        NMC and directs that the CPB partnership with us be expanded. 
        Specifically:

        ``The committee recognizes the importance of the partnership 
            CPB has with the National Minority Public Broadcasting 
            Consortia, which helps develop, acquire, and distribute 
            public television programming to serve the needs of African 
            American, Asian American, Latino, Native American, Pacific 
            Islander, and other viewers. As communities in the Nation 
            welcome increased numbers of citizens of diverse ethnic 
            backgrounds, local public television stations should strive 
            to meet these viewers' needs. With an increased focus on 
            programming to meet local community needs, the committee 
            encourages CPB to support and expand this critical 
            partnership.''; and

  --Provide fiscal year 2015 advance appropriation for CPB of $445 
        million, in order to develop content that reaches across 
        traditional media boundaries, such as those separating 
        television and radio. We feel strongly that CPB should be 
        directed to engage in transparent and fair funding practices 
        that guarantee all applicants equal access to these public 
        resources. In particular, we urge Congress to direct CPB to 
        insert language in all of its funding guidelines that 
        encourages and rewards public media that fully represents and 
        reaches a diverse American public.
    While public broadcasting continues to uphold strong ethics of 
responsible journalism and thoughtful examination of American history, 
life and culture, it has not kept pace with our rapidly changing public 
as far as diversity is concerned. Members of minority groups continue 
to be underrepresented on programming and oversight levels within and 
in content production. This is unacceptable in America today, where 
minorities comprise over 35 percent of the population.
    Public broadcasting has the potential to be particularly important 
for our growing minority and ethnic communities, especially as we 
transition to a broadband-enabled, 21st century workforce that relies 
on the skills and talent of all of our citizens. While there is a niche 
in the commercial broadcast and cable world for quality programming 
about our communities, it is in the public broadcasting sphere where 
minority communities and producers should have more access and capacity 
to produce diverse high-quality programming for national audiences. We 
therefore, urge Congress to insert strong language in this act to 
ensure that this is the case and that these opportunities are made 
available to minorities and other underserved communities.
    About the National Minority Consortia.--With primary funding from 
the CPB, the NMC serves as an important component of American public 
television as well as content delivered over the Internet. By training 
and mentoring the next generation of minority producers and program 
managers as well as brokering relationships between content makers and 
distributors (such as PBS, APT and NETA), we are in a perfect position 
to ensure the future strength and relevance of public television and 
radio television programming from and to our communities.
    Each Consortia organization is engaged in cultivating ongoing 
relationships with the independent producer community by providing 
technical assistance and program funding, support and distribution. 
Often the funding we provide is the initial seed money for a project. 
We also provide numerous hours of programming to individual public 
television and radio stations, programming that is beyond the reach of 
most local stations. To have a real impact, we need funding that 
recognizes and values the full extent of minority participation in 
public life.
    CPB Funds for the National Minority Consortia.--The NMC receives 
funds from two portions of the CPB budget: organizational support funds 
from the Systems Support and programming funds from the Television 
Programming funds. The organizational support funds we receive are used 
for operations requirements and also for programming support activities 
and for outreach to our communities and systemwide within public 
broadcasting. The programming funds are re-granted to producers, used 
for purchase of broadcast rights and other related programming 
activities. Each organization solicits applications from our 
communities for these funds. A brief description of our organizations 
follows:
  --Center for Asian American Media.--CAAM's mission is to present 
        stories that convey the richness and diversity of Asian 
        American experiences to the broadest audience possible. We do 
        this by funding, producing, distributing and exhibiting works 
        in film, television and digital media. Over our 32-year history 
        we have provided funding for more than 200 projects, many of 
        which have gone on to win Academy, Emmy and Sundance awards, 
        examples of which are ``Daughter from Danang''; ``Of Civil 
        Rights and Wrongs: The Fred Korematsu Story''; and ``Maya Lin: 
        A Strong Clear Vision''. CAAM presents the annual San Francisco 
        International Asian American Film Festival and distributes 
        Asian American media to schools, libraries and colleges. CAAM's 
        newest department, Digital Media, is becoming a respected 
        leader in bringing innovative content and audience engagement 
        to public media. CAAM is partnering with Pacific Islanders in 
        Communications on a documentary about Youtube ukulele sensation 
        Jake Shimabukuro.
  --Latino Public Broadcasting.--LPB supports the development, 
        production and distribution of public media content that is 
        representative of Latino people, or addresses issues of 
        particular interest to Latino Americans. Since 1998, LPB has 
        awarded over $8 million to Latino Independent Producers, and 
        provided over 150 hours of compelling programming to public 
        television. LPB supports over 300 Latino filmmakers per year 
        through professional development initiatives. LPB also produces 
        ``Voces'', the only Latino anthology series on public 
        television. In addition, LPB presented the PBS concert special, 
        ``In Performance at the White House: Fiesta Latina'', that was 
        re-broadcast on Telemundo and V-me and Latin Music USA, a four 
        part series about the history and impact of Latino music on 
        American culture which reached 14.7 million viewers, 16 percent 
        of whom were Hispanic households (well above the PBS average). 
        Currently LPB is working on ``The Latino Americans'', a 
        bilingual 6 part series about the history of Latinos in the 
        United States. This past year, LPB launched the Equal Voice 
        Community Engagement Campaign using the documentary film 
        ``Raising Hope: The Equal Voice Story'', a film about 
        strategies to overcome poverty. The community engagement 
        campaign helped PBS stations demonstrate how they too can 
        become advocates for their communities. Currently, LPB is 
        working on a 6 hour series titled ``The Latino Americans'', 
        about the history of Latinos in the United States.
  --NBPC/Black Public Media works to increase capacity in diverse 
        communities to create, distribute and use public media. 
        Throughout its history, its mission has been two-fold: building 
        capacity in new generations of creators of social issue media 
        and broadening the pool of stakeholders in public media 
        institutions. Over the past 5 years, in addition to supporting 
        producers who create programming for public television and 
        other platforms, NBPC/Black Public Media has convened and 
        mentored over 500 digital media professionals and created the 
        Public Media Corps (PMC) to address an urgent need in our 
        communities at the grassroots level. Currently entering its 
        third year, the PMC, in partnership with K-12 schools, 
        libraries and universities, is a framework for supporting 
        creative, sustainable and community-initiated methods for using 
        media and media-technology in underserved communities by 
        deploying public media content and tools. In 2012, we presented 
        the fourth season of its critically acclaimed series ``AfroPop: 
        the Ultimate Cultural Exchange'', which features independent 
        perspectives from the African diaspora, including the African 
        continent, the Caribbean and the Americas, as well as numerous 
        hours of prime-time television programming to PBS. Currently, 
        NBPC/Black Public Media is in production on a television 
        special and related engagement activities that support CPB's 
        American Graduate initiative to combat the drop out crisis in 
        American public schools and two new web-exclusive content 
        series by emerging black filmmakers.
  --Native American Public Telecommunications.--NAPT shares Native 
        stories with the world. We advance media that represents the 
        experiences, values, and cultures of American Indians and 
        Alaska Natives. Founded in 1977, through various media--public 
        television and radio and the Internet--NAPT brings awareness of 
        Indian and Alaska Native issues. In 2011 NAPT presented seven 
        Native American documentaries to PBS stations nationwide and 
        offered producers and educators numerous workshops related to 
        media maker topics including ``Media for Change: Documentary 
        Film in Education and Social Issues'' that allowed NAPT to 
        build learning objects to teach Native American History and fit 
        all of its curricular materials to the set of core standards. 
        In addition, NAPT continues to target and work and with 
        stations to bring new voices into the public broadcasting 
        system using new media civic engagement technology and support. 
        NAPT is currently developing curriculum and community 
        engagement strategies to support CPB's American Graduate 
        initiative that extends the reach of the Nebraska Educational 
        Telecommunications' documentary ``Standing Bear's Footsteps'' 
        through a partnership with NBPC's Public Media Corps, Southern 
        Ponca Tribe of Oklahoma and Northern Ponca Tribe of Nebraska.
  --Pacific Islanders in Communications.--Since 1991, PIC has delivered 
        programs and training that bring voice and visibility to 
        Pacific Islander Americans. PIC produced the award winning film 
        ``One Voice'' which tells the story of the Kamehameha Schools 
        Song Contest. Other PBS broadcasts include ``There Once Was an 
        Island'', about the devastating effects of global warming on 
        the Pacific Islands and ``Polynesian Power: Islanders in Pro 
        Football''. Currently PIC is developing a multi-part series, 
        ``Expedition: Wisdom'', in partnership with the National 
        Geographic Society. PIC offers a wide range of development 
        opportunities for Pacific Island producers through travel 
        grants, seminars and media training. Producer training programs 
        are held in the U.S. territories of Guam and American Samoa, as 
        well as in Hawai`i, on a regular basis. This year the PIC 
        series Pacific Heartbeat premieres on American Public 
        Television.
    Thank you for your consideration of our recommendations. We see new 
opportunities to increase diversity in programming, production, 
audience, and employment in the new media environment, and we thank 
Congress for support of our work on behalf of our communities.
                                 ______
                                 
          Prepared Statement of the National Marfan Foundation
NMF fiscal year 2013 LHHS appropriations recommendations
    $7.8 billion for CDC, an increase of $1.7 billion over fiscal year 
2012, including proportional increases for the National Center for 
Chronic Disease Prevention and Health Promotion (NCCDPHP) and the 
National Center on Birth Defects and Developmental Disabilities 
(NCBDDD) to facilitate critical Marfan syndrome and related connective 
tissue disorders education and awareness activities.
    $32 billion for NIH, an increase of $1.3 billion over fiscal year 
2012, including proportional increases for the National Heart, Lung, 
and Blood Institute (NHLBI); National Center for Advancing 
Translational Sciences (NCATS); National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS); and other NIH Institutes and 
Centers to facilitate adequate growth in the Marfan syndrome and 
related connective tissue disorders research portfolios.
    Chairman Harkin, Ranking Member Shelby, and distinguished members 
of the Subcommittee, thank you for the opportunity to submit testimony 
on behalf of NMF. It is my honor to represent the estimated 200,000 
Americans who are affected by Marfan syndrome or a related condition 
before you.
    Marfan syndrome is a genetic disorder of the connective tissue that 
can affect many areas of the body, including the heart, eyes, skeleton, 
lungs and blood vessels. It is a progressive condition and can cause 
deterioration in each of these body systems. The most serious and life-
threatening aspect of the syndrome is a weakening of the aorta. The 
aorta is the largest artery carrying oxygenated blood from the heart. 
Over time, many Marfan syndrome patients experience a dramatic 
weakening of the aorta which can cause the vessel to dissect and tear.
    Aortic dissection is a leading killer in the United States, and 20 
percent of the people it affects have a genetic predisposition, like 
Marfan syndrome, to developing the complication. Early surgical 
intervention can prevent a dissection and strengthen the aorta and the 
aortic valves, especially when preventive surgery is performed before a 
dissection occurs.
    The NMF is a nonprofit voluntary health organization founded in 
1981. NMF is dedicated to saving lives and improving the quality of 
life for individuals and families affected by the Marfan syndrome and 
related disorders. The Foundation has three major goals: (1) To provide 
accurate and timely information about the Marfan syndrome to affected 
individuals, family members, physicians, and other health 
professionals; (2) to provide a means for those with Marfan syndrome 
and their relatives to share in experiences, to support one another, 
and to improve their medical care; and (3) to support and foster 
research.
    NMF is deeply appreciative of this Subcommittee's historic support 
for critical public health programs at CDC and NIH, particularly 
programs focused on addressing life-threatening genetic disorders such 
as Marfan syndrome. Under your leadership NIH through NHLBI and NIAMS 
has been able to expand research in this area and advance our 
scientific understanding of the condition. In addition, CDC through 
NCCDPHP and NCBDDD has the resources necessary to implement life-saving 
awareness and education activities that can prevent thoracic aortic 
aneurysms and dissections. We urge you to once again prioritize funding 
for public health programs in fiscal year 2013 to ensure that these 
activities can continue to improve the quality of life for Americans 
affected by Marfan syndrome and related connective tissue disorders.
    To follow, please find NMF's fiscal year 2013 appropriations 
recommendations for CDC and NIH. Thank you for your time and your 
consideration of these recommendations.
Centers for Disease Control and Prevention
    NMF joins the other voluntary patient and medical organizations 
comprising the public health community in requesting that you support 
CDC by providing the agency with an appropriation of $7.8 billion in 
fiscal year 2013. Such a funding increase would allow CDC to undertake 
critical Marfan syndrome and related connective tissue disorders 
education and awareness activities, which would help prevent deadly 
thoracic aortic aneurysms and dissections.
    In 2010, the American College of Cardiology and the American Heart 
Association issued landmark practice guidelines for the treatment of 
thoracic aortic aneurysms and dissections. NMF is promoting awareness 
of the new guidelines in collaboration with other organizations through 
a new Coalition known as ``TAD''; the Thoracic Aortic Disease 
Coalition. The TAD Coalition is presently comprised of 10 organizations 
that are coordinating efforts to help promote the Guidelines to 
healthcare professionals and to raise public awareness of various 
aortic diseases and the associated risk factors.
    The CDC would be an invaluable partner in the ongoing campaign to 
save lives and improve health outcomes by promoting the new Guidelines 
to healthcare providers and raising public awareness of risk factors. 
In this regard, we ask the Subcommittee encourage CDC to identify 
appropriate staff at the NCCDPHP and NCBDDD to participate in TAD 
Coalition activities. It is our hope that involving CDC in the 
activities of the TAD Coalition will lead to a lasting partnership and 
collaboration on critical outreach campaigns.
National Institutes of Health
    NMF joins the other voluntary patient and medical organizations 
comprising the public health community in requesting that you support 
NIH by providing the agency with an appropriation of $32 billion in 
fiscal year 2013. This modest 4 percent funding increase would ensure 
that biomedical research inflation does not result in a loss of 
purchasing power at NIH, critical new initiatives like the Cures 
Acceleration Network (CAN) are adequately supported, and the Marfan 
syndrome research portfolio can continue to progress.
    National Heart, Lung, and Blood Institute.--First and foremost, NMF 
applauds NHLBI for its leadership in advancing a landmark clinical 
trial on Marfan syndrome. Under the direction of Dr. Lynn Mahoney and 
Dr. Gail Pearson, the Institute's Pediatric Heart Network (PHN) has 
spearheaded a multicenter study focused on the potential benefits of a 
commonly prescribed blood pressure medication (losartan) on aortic 
growth in Marfan syndrome patients.
    Marfan syndrome patients (age 6 months to 25 years) are now 
enrolled in the study. Patients are randomized onto either losartan or 
atenolol (a beta blocker that is the current standard of care for 
Marfan patients with an enlarged aortic root). We anxiously await the 
results of this first-ever clinical trial for our patient population. 
It is our hope that losartan will emerge as the new standard-of-care 
and greatly reduce the need for surgery in at-risk patients.
    NMF is proud to actively support the losartan clinical trial in 
partnership with PHN. Throughout the life of the trial we have provided 
support for patient travel costs, coverage of select echocardiogram 
examinations, and funding for ancillary studies. These ancillary 
studies will explore the impact that losartan has on other 
manifestations of Marfan syndrome. The Foundation asks for your 
continued support to ensure this critical study continues to move 
forward.
    Secondarily, NMF is grateful for the Subcommittee's previous 
recommendations encouraging NHLBI to support research on surgical 
options for Marfan syndrome patients.
    For the past several years, the NMF has supported an innovative 
study looking at outcomes in Marfan syndrome patients who undergo 
valve-sparing surgery compared with valve replacement. Initial findings 
were published recently in the Journal of Thoracic and Cardiovascular 
Surgery. Some short term questions have been answered, most importantly 
that valve-sparing can be done safely on Marfan patients by an 
experienced surgeon. The consensus among the investigators however is 
that long-term durability questions will not be answered until patients 
are followed for at least 10 years.
    Confirming the utility and durability of valve sparing procedures 
will save our patients a host of potential complications associated 
with valve replacement surgery. In this regard, we ask that you 
encourage NHLBI to consider working with the Genetically Triggered 
Thoracic Aortic Aneurysms and Cardiovascular Conditions Registry or 
GenTAC to identify ways we can partner moving forward to facilitate 
continuation of the aforementioned outcomes study.
    Finally, in 2007, NHLBI convened a ``Working Group on Research in 
Marfan Syndrome and Related Conditions.'' This panel was comprised of 
experts in all aspects of basic and clinical science related to the 
disorder. The panel was charged with identifying key recommendations 
for advancing the field of research in the coming decade.
    In addition to laying out a roadmap for research, the working group 
found that, ``Scientific opportunities to advance this field are 
conferred by technological advances in gene discovery, the ability to 
dissect cellular processes at the molecular level and imaging, and the 
establishment of multi-disciplinary teams.'' The barriers to progress 
are addressed through the research recommendations, which are also 
consistent with goals and challenges identified in the NHLBI Strategic 
Plan.
    National Center for Advancing Translational Sciences.--The 
Foundation applauds the recent establishment of NCATS at NIH. Housing 
translational research activities at a single Center at NIH will allow 
these programs to achieve new levels of success. Initiatives like CAN 
are critical to overhauling the translational research process and 
overcoming the research ``valley of death'' that currently plagues 
treatment development. In addition, new efforts such as taking the lead 
on drug repurposement hold the potential to speed new treatment to 
patients, particularly patients who struggle with rare or neglected 
conditions. NMF asks that you support NCATS and provide adequate 
resources for the Center in fiscal year 2013.
    National Institute of Arthritis and Musculoskeletal and Skin 
Diseases.--NMF is proud of its longstanding partnership with NIAMS. Dr. 
Steven Katz has been a strong proponent of basic research on Marfan 
syndrome during his tenure as NIAMS Director and has generously 
supported several ``Conferences on Heritable Disorders of Connective 
Tissue.'' Moreover, the Institute has provided invaluable support for 
the program project entitled, ``Consortium for Translational Research 
in Marfan Syndrome,'' which has enhanced our understanding of the 
disorder and increased the ability to stop the disease progression 
using a drug-based therapy. The discoveries of fibrillin-1, TGF-beta, 
and their role in muscle regeneration and connective tissue function 
were made possible in part through collaboration with NIAMS.
    As the losartan trial continues to move forward, we hope to expand 
our partnership with NIAMS to support related studies that fall under 
the mission and jurisdiction of the Institute. One of the areas of 
great interest to researchers and patients is the role that losartan 
may play in strengthening muscle tissue in Marfan patients. NMF would 
welcome an opportunity to partner with NIAMS on this and other 
research. In this regard, we ask that you encourage NIAMS to expand its 
support for research aimed at identifying effective therapies for 
heritable connective tissue disorders to reduce the number of premature 
deaths from these chronic and complex conditions.
    Thank you again for your time and your consideration of our fiscal 
year 2013 appropriations requests. Please contact me if you have any 
questions or if you would like any additional information.
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to provide testimony regarding funding of critically 
important Federal programs that impact those affected by multiple 
sclerosis. Multiple sclerosis (MS) is an unpredictable, often disabling 
disease of the central nervous system that interrupts the flow of 
information within the brain, and between the brain and body. Symptoms 
range from numbness and tingling to blindness and paralysis. The 
progress, severity, and specific symptoms of MS in any one person 
cannot yet be predicted, but advances in research and treatment are 
moving us closer to a world free of MS. Most people with MS are 
diagnosed between the ages of 20 and 50, with at least two to three 
times more women than men being diagnosed with the disease. MS affects 
more than 400,000 people in the United States.
    MS stops people from moving. The National MS Society exists to make 
sure it doesn't. The National MS Society sees itself as a partner to 
the Government in many critical areas. As we advocate for NIH research, 
we do so as an organization that funds approximately $40 million 
annually in MS research through funds generated through the Society's 
fundraising efforts. And as we advocate for lifespan respite funding, 
we do so as an organization that works to provide some level of respite 
relief for caregivers. So while we're here to advocate for Federal 
funding, we do it as an organization that commits tens of millions of 
dollars each year to similar or complementary efforts as those being 
funded by the Federal Government. Through these efforts, our goal is to 
see a day when MS has been stopped, lost functions restored, and a cure 
is at hand.
    The National MS Society recommends the following funding levels for 
agencies and programs that are of vital importance for the lives of 
Americans living with MS.
                     lifespan respite care program
    Many caregivers are family members who provide care full time 
because of the needs of the patient. As you can imagine, the caregivers 
get worn out and need a break once in a while. That's why respite care 
services are so important--to provide caregivers with a chance to have 
a break and get refreshed. These services are a critical part of 
ensuring quality home-based care for people living with MS. Because of 
the importance of these services, the National MS Society requests the 
inclusion of $5 million in the fiscal year 2013 Labor-HHS-Education 
appropriations bill to fund lifespan respite programs. The Lifespan 
Respite Care Program, enacted in 2006, provides competitive grants to 
States to establish or enhance statewide lifespan respite programs, 
improve coordination, and improve respite access and quality. States 
provide planned and emergency respite services, train and recruit 
workers and volunteers, and assist caregivers in gaining access to 
services. Perhaps the most critical aspect of the program for people 
living with MS is that lifespan respite serves families regardless of 
special need or age--literally across the lifespan. Much existing 
respite care has age eligibility requirements and since MS is typically 
diagnosed between the ages of 20 and 50, lifespan respite programs are 
often the only open door to needed respite services.
    Up to one-quarter of individuals living with MS require long-term 
care services at some point during the course of the disease. Often, a 
family member steps into the role of primary caregiver to be closer to 
the individual with MS and to be involved in care decisions. According 
to a 2011 AARP report, 61.6 million family caregivers provided care at 
some point during 2009 and the value of their uncompensated services 
was approximately $450 billion per year--more than total Medicaid 
spending and almost as high as Medicare spending. Family caregiving, 
while essential, can be draining and stressful, with caregivers often 
reporting difficulty managing emotional and physical stress, finding 
time for themselves, and balancing work and family responsibilities. 
The impact is so great, in fact, that American businesses lose an 
estimated $17.1 to $33.36 billion each year due to lost productivity 
costs related to caregiving responsibilities. Providing $5 million for 
Lifespan Respite in fiscal year 2013 would improve access to respite 
services, allowing family caregivers to take a break from the daily 
routine and stress of providing care, improve overall family health, 
and help alleviate the monstrous financial impact caregiver strain 
currently has on American businesses.
                     national institutes of health
    We urge Congress to continue its investment in innovative medical 
research that can help prevent, treat, and cure diseases such as MS by 
providing at least $32 billion for the National Institutes of Health 
(NIH) in fiscal year 2013.
    The NIH is the country's premier institution for medical research 
and the single largest source of biomedical research funding in the 
world. The NIH conducts and sponsors a majority of the MS-related 
research carried out in the United States. Approximately $122 million 
of fiscal year 2011 and American Recovery and Reinvestment Act 
appropriations were directed to MS-related research. An invaluable 
partner, the NIH has helped make significant progress in understanding 
MS. NIH scientists were among the first to report the value of MRI in 
detecting early signs of MS, before symptoms even develop. Advancements 
in MRI technology allow doctors to monitor the progression of the 
disease and the impact of treatment.
    Research during the past decade has enhanced knowledge about how 
the immune system works, and major gains have been made in recognizing 
and defining the role of this system in the development of MS lesions. 
These NIH discoveries are helping find the cause, alter the immune 
response, and develop new MS therapies that are now available to modify 
the disease course, treat exacerbations, and manage symptoms. Twenty 
years ago there were no MS therapies or medications. Now there are 
eight, with the first oral medication now available and other new 
treatments in the pipeline. The NIH provided the basic research 
necessary so that these therapies could be developed. Had there been no 
Federal investment in research, it's doubtful people living with MS 
would have any therapies available. The NIH also directly supports jobs 
in all 50 States and 17 of the 30 fastest growing occupations in the 
United States are related to medical research or healthcare. More than 
83 percent of the NIH's funding is awarded through almost 50,000 
competitive grants to more than 325,000 researchers at over 3,000 
universities, medical schools, and other research institutions in every 
State.
    To continue the forward momentum in the ability to aggressively 
combat, treat, and one day cure diseases like MS, the National MS 
Society requests that Congress provide at least $32 billion for the NIH 
in fiscal year 2013.
                centers for medicare & medicaid services
Medicaid
    The National MS Society urges Congress to maintain funding for 
Medicaid and reject proposals to cap or block grant the program.
    Medicaid provides comprehensive health coverage to over 8 million 
persons living with disabilities and 6 million persons with 
disabilities who rely on Medicaid to fill Medicare's gaps. 
Approximately 10 percent of people living with MS rely on Medicaid.
    Capping or block-granting Medicaid will merely shift costs to 
States, forcing States to shoulder a seemingly insurmountable financial 
burden or cut services on which our most vulnerable rely. Capping and 
block-granting could result in many more individuals becoming 
uninsured, compounding the current problems of lack of coverage, over 
flowing emergency rooms, limited access to long-term services, and 
increased healthcare costs in an overburdened system. By capping funds 
that support home- and community-based care, such proposals would also 
likely lead to an increased reliance on costlier institutional care 
that contradicts the principles laid forth in the 1999 U.S. Supreme 
Court decision Olmstead and integrating and keeping people with 
disabilities in their communities.
    While the economic situation demands leadership and thoughtful 
action, the National MS Society urges Congress to remember people with 
MS and all disabilities, their complex health needs, and the important 
strides Medicaid has made for persons living with disabilities 
particularly in the area of community-based care and not modify the 
program to their detriment.
                     social security administration
    The National MS Society urges Congress to provide $13.4 billion for 
the Social Security Administration's (SSA) Limitations on 
Administrative (LAE) Expenses to fund SSA's day-to-day operational 
responsibilities and make key investments in addressing increasing 
disability and retirement workloads, in program integrity, and in SSA's 
Information Technology (IT) infrastructure.
    Because of the unpredictable nature and sometimes serious 
impairment caused by the disease, SSA recognizes MS as a chronic 
illness or ``impairment'' that can cause disability severe enough to 
prevent an individual from working. During such periods, people living 
with MS are entitled to and rely on Social Security Disability 
Insurance (SSDI) or Supplemental Security Income (SSI) benefits to 
survive. People living with MS, along with millions of others with 
disabilities, depend on SSA to promptly and fairly adjudicate their 
applications for disability benefits and to handle many other actions 
critical to their well-being including: timely payment of their monthly 
benefits; accurate withholding of Medicare Parts B and D premiums; and 
timely determinations on post-entitlement issues, e.g., overpayments, 
income issues, prompt recording of earnings.
    The wave of increased disability claims--in part due to the 
distressed economy--continues to have a very significant impact on the 
Disability Determination Services (DDSs). In the 35-month period ending 
in August 2011, the number of claims pending for a disability medical 
decision rose from 556,670 to 755,058--an increase of 36 percent. SSA 
faces an unprecedented backlog of disability hearings. In fiscal year 
2011, 859,514 hearings were filed, which is 270,065 (45.8 percent) more 
than in fiscal year 2008. Despite these challenges, eliminating the 
disability hearings backlog remains SSA's top priority and processing 
time has been reduced from 491 days in fiscal year 2009 to 340 days in 
October 2011. If SSA does not receive adequate funding for fiscal year 
2013 this progress will regress. The reduced SSA funding level in 
fiscal year 2011 for example resulted in the suspension of opening 
eight planned hearing offices, which diminishes SSA's ability to 
eliminate the backlog by fiscal year 2013. To support continued 
progress to eliminate the backlog and to help ensure that persons with 
disabilities relying on SSDI or SSI receive entitled benefits in a 
timely manner, the National MS Society urges Congress to provide $13.4 
billion for the SSA's LAE in fiscal year 2013.
                      food and drug administration
    The FDA is the United States' pre-eminent public health agency and 
its role as the regulator of the country's pharmaceutical industry 
provides invaluable support and encourages vital progress for people 
living with MS and other diseases. In its capacity as the industry's 
regulator, the FDA ensures that drugs and medical devices are safe and 
effective for public use and provides consumers with confidence in new 
technologies. Because of the tremendous impact the FDA has on the 
development and availability of drugs and devices for individuals with 
disabilities, the NMSS requests that Congress provide a 6 percent 
increase over the fiscal year 2012 budget.
    Advancements in medical technology and medical breakthroughs play a 
pivotal role in decreasing the societal costs of disease and 
disability. The FDA is responsible for approving drugs for the market 
and in this capacity has the ability to keep healthcare costs down. 
Each $1 invested in the life-science research regulated by the FDA has 
the potential to save upwards of $10 in health gains. Breakthroughs in 
medications and devices can reduce the potential costs of disease and 
disability in Medicare and Medicaid and can help support the healthier, 
more productive lives of people living with chronic diseases and 
disabilities, like MS. The approval of low-cost generic drugs saved the 
healthcare system $140 billion in 2010 and nearly $1 trillion over the 
past decade. However, recent funding constraints have resulted in a 2 
year backlog of generic drug approval applications and could 
potentially cost the Federal Government and patients billions of 
dollars in the coming years. The potential for these cost-saving 
medical breakthroughs and overall healthcare savings relies on a 
vibrant industry and an adequately funded FDA. Entire industries are 
working to enhance the lives of Americans with new medical devices and 
pharmaceuticals with tens of billions of dollars being spent annually 
by the NIH and industry in pursuit of new breakthroughs. The FDA has a 
comparatively small budget yet is charged with ensuring the safety and 
efficacy of these new products. The answer to the backlog is to provide 
adequate funding to FDA, not, as some have suggested, to lessen the 
rigorous protocols in place to ensure safety. Therefore, the National 
MS Society urges Congress to provide the FDA with a 6 percent increase 
to address this backlog.
                               conclusion
    The National MS Society thanks the subcommittee for the opportunity 
to provide written testimony and our recommendations for fiscal year 
2013 appropriations. The agencies and programs we have discussed are of 
vital importance to people living with MS and we look forward to 
continuing to working with the subcommittee to help move us closer to a 
world free of MS. Please don't hesitate to contact me with any 
question.
                                 ______
                                 
          Prepared Statement of the Neurofibromatosis Network
    Thank you for the opportunity to submit testimony to the 
Subcommittee on the importance of continued funding at the National 
Institutes of Health (NIH) for research on Neurofibromatosis (NF), a 
genetic disorder closely linked too many common diseases widespread 
among the American population.
    On behalf of the Neurofibromatosis (NF) Network, a national 
coalition of NF advocacy groups, I speak on behalf of the 100,000 
Americans who suffer from NF as well as approximately 175 million 
Americans who suffer from diseases and conditions linked to NF such as 
cancer, brain tumors, heart disease, memory loss, and learning 
disabilities. Thanks in large measure to this Subcommittee's strong 
support, scientists have made enormous progress since the discovery of 
the NF1 gene in 1990 resulting in clinical trials now being undertaken 
at NIH with broad implications for the general population.
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and even death. In addition, approximately one-half of children with NF 
suffer from learning disabilities. NF is the most common neurological 
disorder caused by a single gene and three times more common than 
Muscular Dystrophy and Cystic Fibrosis combined. There are three types 
of NF: NF1, which is more common, NF2, which primarily involves tumors 
causing deafness and balance problems, and schwannomatosis, the 
hallmark of which is severe pain.
    While not all NF patients suffer from the most severe symptoms, all 
NF patients and their families live with the uncertainty of not knowing 
whether they will be seriously affected because NF is a highly variable 
and progressive disease.
    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders, 
primarily because NF regulates important pathways common to these 
disorders such as the RAS, cAMP and PAK pathways. Research on NF 
therefore stands to benefit millions of Americans:
    Cancer.--NF is closely linked to many of the most common forms of 
human cancer, affecting approximately 65 million Americans. In fact, NF 
shares these pathways with 70 percent of human cancers. Research has 
demonstrated that NF's tumor suppressor protein, neurofibromin, 
inhibits RAS, one of the major malignancy causing growth proteins 
involved in 30 percent of all cancer. Accordingly, advances in NF 
research may well lead to treatments and cures not only for NF 
patients, but for all those who suffer from cancer and tumor-related 
disorders. Similar studies have also linked epidermal growth factor 
receptor (EGF-R) to malignant peripheral nerve sheath tumors (MPNSTs), 
a form of cancer which disproportionately strikes NF patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways involved in genetic and 
environmental causes of heart disease.
    Learning disabilities.--Learning disabilities are the most common 
neurological complication in children with NF1. Research aimed at 
rescuing learning deficits in children with NF could open the door to 
treatments affecting 35 million Americans and 5 percent of the world's 
population who also suffer from learning disabilities. In NF1 the 
neurocognitive disabilities range includes behavior, memory and 
planning. Recent research has shown there are clear molecular links 
between autism spectrum disorder and NF1; as well as with many other 
cognitive disabilities. Tremendous research advances have recently led 
to the first clinical trials of drugs in children with NF1 learning 
disabilities. These trials are showing promise. In addition because of 
the connection with other types of cognitive disorders such as autism, 
researchers and clinicians are actively collaborating on research and 
clinical studies, pooling knowledge and resources. It is anticipated 
that what we learn from these studies could have an enormous impact on 
the significant American population living with learning difficulties 
and could potentially save Federal, State, and local governments, as 
well as school districts, billions of dollars annually in special 
education costs resulting from a treatment for learning disabilities.
    Memory loss.--Researchers have also determined that NF is closely 
linked to memory loss and are now investigating conducting clinical 
trials with drugs that may not only cure NF's cognitive disorders but 
also result in treating memory loss as well with enormous implications 
for patients who suffer from Alzheimer's disease and other dementias.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.
    The enormous promise of NF research, and its potential to benefit 
over 175 million Americans who suffer from diseases and conditions 
linked to NF, has gained increased recognition from Congress and the 
NIH. This is evidenced by the fact that 11 institutes are currently 
supporting NF research, and NIH's total NF research portfolio has 
increased from $3 million in fiscal year 1990 to an estimated $24 
million in fiscal year 2012. Given the potential offered by NF research 
for progress against a range of diseases, we are hopeful that the NIH 
will continue to build on the successes of this program by funding this 
promising research and thereby continuing the enormous return on the 
taxpayers' investment.
    We respectfully request that you include the following report 
language on NF research at the National Institutes of Health within 
your fiscal year 2013 Labor, Health and Human Services, Education 
appropriations bill.

    ``Neurofibromatosis [NF].--The Committee supports efforts to 
increase funding and resources for NF research and treatment at 
multiple NIH Institutes. NF affected children and adults are at 
significant risk for the development of many forms of cancer; the 
Committee encourages NCI to increase its NF research portfolio in 
fundamental basic science, translational research and clinical trials 
focused on NF. The Committee also encourages the NCI to support NF 
centers, NF clinical trials consortia, NF preclinical mouse models 
consortia, and biospecimen repositories. The Committee urges NHLBI to 
expand its investment in NF based on the increased prevalence of 
hypertension and congenital heart disease in this patient population. 
Because NF causes brain and nerve tumors and is associated with 
cognitive and behavioral problems, the Committee urges NINDS to 
continue to aggressively fund fundamental basic science research on NF 
relevant to nerve damage and repair, learning disabilities and 
attention deficit disorders. In addition, the Committee encourages the 
NICHD and NIMH to expand funding of basic and clinical NF research in 
the area of learning and behavioral disabilities. Children with NF1 are 
prone to the development of severe bone deformities, including 
scoliosis; the Committee therefore encourages NIAMS to expand its NF1 
research portfolio. Since NF2 accounts for approximately 5 percent of 
genetic forms of deafness, the Committee encourages NIDCD to expand its 
investment in NF2 basic and clinical research. Based on the increased 
incidence of optic gliomas, vision loss, cataracts, and retinal 
abnormalities in NF, the Committee urges the NEI to expand its NF 
research portfolio. Finally, the Committee encourages NHGRI to increase 
its investment in NF, given that NF represents a tractable model system 
to study the genomics of cancer predisposition, learning and behavior 
problems, and bone abnormalities translatable to individualized 
medicine.''

    We appreciate the Subcommittee's strong support for NF research and 
will continue to work with you to ensure that opportunities for major 
advances in NF research are aggressively pursued. Thank you.
                                 ______
                                 
     Prepared Statement of the National Nursing Centers Consortium
    The National Nursing Centers Consortium (NNCC) is a 501(c)(3) 
member organization of nonprofit, nurse-managed health clinics, 
sometimes called nurse-managed health centers or NMHCs. The Affordable 
Care Act defines the term ``nurse-managed health clinic'' as a nurse 
practice arrangement, managed by advanced practice nurses, that 
provides primary care or wellness services to underserved or vulnerable 
populations and that is associated with a school, college, university 
or department of nursing, federally qualified health center (FQHC), or 
independent nonprofit health or social services agency. Currently there 
are about 200 NMHCs in operation throughout the United States. Title 
III of the Public Health Service Act established the Nurse Managed 
Health Clinic Grant Program to provide NMHCs with a stable source of 
Federal funding that would place them on footing similar to other 
safety-net providers. Although authorized, to date the Grant Program 
has received no appropriations.
The Value of NMHCs: Interdisciplinary Training in an Academic Setting
    Many of the Nation's leading nursing schools operate NMHCs. Since 
the clinics are affiliated with academic institutions, they naturally 
become workforce development sites and can provide clinical training 
opportunities for health profession students. In addition to training 
registered nurses and advance practice registered nurses (mostly nurse 
practitioners), many NMHCs have interdisciplinary partnerships with 
other academic programs allowing them to also provide learning 
opportunities for medical, pharmacy, dental, social work, public 
health, and other health profession students. NMHCs easily blend 
community healthcare with healthcare provider training and development.
    In October 2010, HRSA released $14.8 million in Prevention and 
Public Health Fund dollars to fund 10 NMHC grants. Since receiving 
funding, the NMHC grantees have provided interdisciplinary clinical 
training to over 800 students of nursing, medicine, public health, and 
other health professions. In May 2009, the NNCC conducted a survey of 
its members to measure their contribution to health professions 
education in the United States. Forty-four NMHCs in a mix of urban, 
rural, and suburban communities reported providing educational 
opportunities for nearly 3,100 students annually. The contribution by 
these clinics to the healthcare workforce is undeniable.
The Value of NMHCs: Expanding Access to Care at a Lower Cost
    NMHCs act as essential safety-net providers in rural, urban, and 
suburban communities across the country. For many patients in medically 
underserved areas, NMHCs and nurse practitioners are the only primary 
care providers in the area. These critical access points provide care 
to patients regardless of ability to pay and insurance status and keep 
patients out of the emergency room, saving the healthcare system 
millions of dollars annually. NMHCs also improve access by helping to 
build the capacity of the Nation's primary care workforce. As the 
number of medical students going into primary care continues to stay at 
an alarmingly low rate, the United States is in serious need of quickly 
and well-trained primary care providers. By training nurse 
practitioners as community-based primary care providers, NMHCs are 
perfectly positioned to increase the number of providers while 
simultaneously providing needed primary care.
    By the end of 2011, the NMHC grantees that received Federal funding 
in October 2010 had served 27,000 patients and recorded over 72,000 
patient encounters. Additionally, the grantees are providing care in 
communities with unprecedented need. For instance, one of the grantees 
provides care to residents of Galveston, Texas, a community still 
recovering from a devastating natural disaster. All this indicates that 
any Federal funds provided to NMHCs will go to provide quality primary 
care in very needy communities.
    Finally, having nurse practitioners provide primary care in NMHCs 
is cost-effective, which is critical in this time of fiscal 
uncertainty. In 1981, the Office of Technology Assessment first 
demonstrated that nurse practitioners perform comparable medical care 
tasks at a lower total cost than physicians.\1\ Many studies have since 
reaffirmed that nurse practitioners provide high quality care for a 
lower overall cost.\2\
---------------------------------------------------------------------------
    \1\ LeRoy, L. & Solowitz, S. (1981). The Costs and Effectiveness of 
Nurse Practitioners. Office of Technology Assessment.
    \2\ Coddington J. (2010). Quality of Care and Policy Barriers to 
Providing Health Care at a Pediatric Nurse-Managed Clinic. Journal of 
Pediatric Healthcare, 24 (5):e9; Eibner, E et al. (2009). Controlling 
Health Care Spending in Massachusetts: An Analysis of Options. RAND 
Health; Mehrota, A. et al. (2009). Comparing Costs and Quality of Care 
at Retail Clinics with that of Other Medical Settings for 3 Common 
Illnesses. Annals of Internal Medicine, 151, 321-323; Chenoweth, D. et 
al. (2008). Nurse Practitioner Services: Three-Year Impact on Health 
Care Costs. Journal of Occupational and Environmental Medicine, 50, 
1293-1298.
---------------------------------------------------------------------------
The Challenge in Sustaining NMHCs
    The patient population and payor mix of NMHCs is similar to that of 
federally Qualified Health Centers. However, because many NMHCs are 
directly affiliated with academic schools of nursing, they cannot meet 
the governance requirements for Community Health Center funding. 
Without a stable source of funding to offset the cost of caring for the 
uninsured, several NMHCs have had to close, leaving many vulnerable 
patients without care.
Request
    Because NMHCs are vital interdisciplinary training sites, help fill 
the gap in the primary care provider shortage by training primary care 
providers, and provide quality, affordable care to the most vulnerable 
people in their communities, the NNCC respectfully requests $20 million 
in fiscal year 2013 for the Nurse-Managed Health Clinic Grant Program, 
as authorized under Title III of the Public Health Service Act.
                                 ______
                                 
      Prepared Statement of the National Postdoctoral Association
    Mr. Chairman and Members of the Subcommittee: Thank you for this 
opportunity to testify in regard to the fiscal year 2013 funding for 
the National Institutes of Health (NIH). We are writing today in regard 
to support for postdoctoral researchers, specifically in support of 
fiscal year 2013 funding for the National Institutes of Health at the 
2012 level of $30.86 billion and in support of the 2 percent increase 
in the Ruth L. Kirschstein National Research Service Award (NRSA) 
training stipends for postdoctoral researchers, as requested in the 
President's proposed fiscal year 2013 budget.
Background: Postdocs are the Backbone of U.S. Science and Technology
    According to estimates by the National Science Foundation (NSF) 
Division of Science Resource Statistics, there are approximately 89,000 
postdoctoral scholars in the United States \1\. The NIH and the NSF 
define a ``postdoc'' as: An individual who has received a doctoral 
degree (or equivalent) and is engaged in a temporary and defined period 
of mentored advanced training to enhance the professional skills and 
research independence needed to pursue his or her chosen career path. 
The number of postdocs has been steadily increasing. The incidence of 
individuals taking postdoc positions during their careers has risen, 
from about 31 percent of those with a pre-1972 doctorate to 46 percent 
of those receiving their doctorate in 2002-05 \2\. According to the 
2012 Science and Engineering Indicators, an increase in those taking 
postdoc positions is evident across most disciplines:

    \1\ National Science Foundation Division of Science Resource 
Statistics. (January 2010, chapter 3, pp.44-46). Science and 
engineering indicators 2010. Arlington, Virginia: National Science 
Board.
    \2\ National Science Foundation National Center for Science and 
Engineering Statistics (NCSES). (January 2012, chapter 3, p. 39). 
Science and engineering indicators 2012. Arlington, Virginia: National 
Science Board.
---------------------------------------------------------------------------
    ``In traditionally high-postdoc fields such as the life sciences 
(from 46 percent to 60 percent) and the physical sciences (from 41 
percent to 61 percent), most doctorate recipients now have a postdoc 
position as part of their career path. Similar increases were found in 
mathematical and computer sciences (19 percent to 31 percent), social 
sciences (18 percent to 30 percent), and engineering (14 percent to 38 
percent). Recent engineering doctorate recipients are now almost as 
likely to take a postdoc position as physical sciences doctorate 
holders were 35 years ago.'' \3\

    \3\ Ibid.
---------------------------------------------------------------------------
    Postdocs are critical to the research enterprise in the United 
States and are responsible for the bulk of the cutting edge research 
performed in this country. Consider the following:
  --According to the National Academy of Science (NAS), postdoctoral 
        researchers ``have become indispensable to the science and 
        engineering enterprise, performing a substantial portion of the 
        Nation's research in every setting.'' \4\
---------------------------------------------------------------------------
    \4\ COSEPUP. (June 2001, p. 10). Enhancing the postdoctoral 
experience for scientists and engineers. Washington, DC: National 
Academy Press.
---------------------------------------------------------------------------
  --The retention of women and under-represented groups in biomedical 
        research depends upon their successful and appropriate 
        completion of the postdoctoral experience.
  --Postdoctoral scholars carry the potential to solve many of the 
        world's most pressing scientific and health problems; they are 
        the principal investigators of tomorrow.
    Unfortunately, postdocs are routinely exploited. They are paid a 
low wage relative to their years of training and receive varying 
benefits depending on the institution where they work. The National 
Postdoctoral Association (NPA) advocates for policies that support and 
enhance postdoctoral training on the national level and also within the 
research institutions that host postdoctoral scholars. Low compensation 
remains one of the most serious issues faced by the postdoctoral 
community.
Problem: NRSA Stipends are Low and Don't Meet Cost-of-Living Standards; 
        For Better or Worse, Postdoc Compensation is Based on NRSA 
        Stipends
    The NIH leadership has been aware that the NRSA training stipends 
are too low since 2001, after the publication of the results of the NAS 
study, Addressing the Nation's Changing Needs for Biomedical and 
Behavioral Scientists. In response, the NIH pledged (1) to increase 
entry-level stipends to $45,000 by raising the stipends at least 10 
percent each year and (2) to provide automatic cost-of-living increases 
each year thereafter to keep pace with inflation. Most recently, the 
2011 NAS study, Research Training in the Biomedical, Behavioral, and 
Clinical Research Sciences, called for, among other recommendations, 
increased funding to support more NRSA positions and to fulfill the 
NIH's 2001 commitment to increase pre-doctoral and postdoctoral 
stipends.
    Without sufficient appropriations from Congress, the NIH has not 
been able to fulfill its pledge. In 2007, the stipends were frozen at 
2006 levels and since then have not been significantly increased. The 
stipends were increased by 1 percent each year in 2009 and 2010 and by 
2 percent in 2011 and 2012. The 2012 entry-level training stipend 
remains low, at $39,264, the equivalent of a GS-8 position, step 2 in 
the Federal Government in 2012 \5\, despite the postdocs' advanced 
degrees and specialized technical skills and experience. Furthermore, 
this stipend remains far short of the promised $45,000. Please see 
Figure 1 for a summary of the stipend amounts since 2000 and Figure 2 
for a comparison of the actual stipend growth with the NIH recommended 
growth.
---------------------------------------------------------------------------
    \5\ U.S. Office of Personnel Management Salary Tables 2012. http://
www.opm.gov/oca/12tables/html/gs.asp.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    \6\ Figure created by Lorraine Tracey, Ph.D., on behalf of the 
---------------------------------------------------------------------------
National Postdoctoral Association.

    It is not only the NRSA fellows who remain undercompensated; the 
impact of the low stipends extends beyond the NRSA-supported postdocs. 
The NPA's research has strongly suggested that the NIH training 
stipends are used as a benchmark by research institutions across the 
country for establishing compensation for postdoctoral scholars.\7\ 
Thus, an unintended consequence is that institutions undercompensate 
all of their postdocs, who must then struggle to make ends meet, which 
in turn affects their productivity and undermines their efforts to 
solve the world's most critical problems. Additionally, the NPA is 
hearing from many postdocs, who say they are leaving their research 
careers behind because of the low compensation. In order to keep the 
``best and the brightest'' scientists in the U.S. research enterprise, 
the NPA believes that it is crucial that Congress appropriate funding 
for the 2-percent increase in training stipends, as a moderate yet 
substantial step toward reaching the recommended entry-level stipend of 
$45,000.
---------------------------------------------------------------------------
    \7\ Johnson Phillips, C. (April 2012). National Postdoctoral 
Association Institutional Survey on Postdoctoral Compensation, 
Benefits, and Professional Development Opportunities: Highlights. 
Washington, DC: National Postdoctoral Association.
---------------------------------------------------------------------------
Solution: Keep the NIH's Original Promise to Raise the Minimum Stipends
    We respectfully request that the Subcommittee appropriate funding 
of $30.86 billion for the fiscal year 2013 NIH budget, which would in 
turn allow the NIH to appropriate $775 million to training grants and 
implement a 2 percent NRSA stipend increase, as per the President's 
proposed fiscal year 2013 budget:
  --Support for the training mechanism would decline by 0.4 percent 
        compared to fiscal year 2012. This reflects a 1.8 percent 
        reduction in the number of trainees supported. Stipend rates, 
        however, would increase at the same pace as for fiscal year 
        2012 at 2 percent, continuing a long-term strategy that NIH has 
        used to try and keep stipend levels closer to salaries that 
        could be earned in related occupations, to ensure that 
        outstanding individuals continue to pursue biomedical research 
        careers.'' \8\
---------------------------------------------------------------------------
    \8\ Department of Health and Human Services National Institutes of 
Health. (pp. ES25-ES26). NIH Congressional Justification: Overview. 
http://officeofbudget.od.nih.gov/pdfs/FY13/FY2013_Overview.pdf.
---------------------------------------------------------------------------
    The NPA believes it is just and necessary to increase the 
compensation provided to these new scientists, who make significant 
contributions to the bulk of the research discovering cures for disease 
and developing new technologies to improve the quality of life for 
millions of people in the United States. Please do not hesitate to 
contact us for more information.
    Thank you for your consideration.
                                 ______
                                 
              Prepared Statement of National Public Radio
    Dear Chairman Harkin, Senator Shelby and Members of the 
Subcommittee: Thank you for this opportunity to urge the Subcommittee's 
support for a Federal investment in America's distinctive public 
broadcasting system. Public broadcasting's continuing service to 
communities in every corner of America is dependent on a diversified 
revenue base, including Federal funding. For less money per American 
per year than a single cup of coffee, public broadcasting stations have 
become local community cornerstones that reflect local values and are 
built upon local control and local programming decisions. And this 
outstanding locally focused public service is widely supported by 
Americans from all walks of life.
    As the President and CEO of NPR, I offer this testimony on behalf 
of the public radio system, a uniquely American public service, not-
for-profit media enterprise that includes NPR, our more than 950 public 
radio station partners, other producers and distributors of public 
radio programming including American Public Media (APM), Public Radio 
International (PRI), the Public Radio Exchange (PRX), and many 
stations, both large and small, that create and distribute content 
through the Public Radio Satellite System (PRSS). With your continued 
support for an annual Federal appropriation of $445 million to the 
Corporation for Public Broadcasting (CPB), every American will continue 
to have free access to the best in educational, news, information and 
cultural programming.
    Funding provided by Congress to the CPB supports the entire 
foundation of a system that has been one of America's most successful 
models of a community-centric grant program. The revenue base provided 
by Congress enables stations to raise $6 for every Federal grant 
dollar. And for every $1 that public radio stations invest in NPR 
programming, they are able to raise $3 locally from audiences and local 
businesses. This enables local stations to invest more deeply in their 
own local news and cultural programming. The essential Federal 
investment enables the American public to receive an enduring and daily 
return on investment that is heard, seen, read and experienced in 
public radio broadcasts, apps, podcasts, and on online.
Public Radio: It's All Local
    Local is the cornerstone and watchword of public radio as stations 
connect with their communities and localize civil and civic discussions 
on reporting from across the street and around the world. Public radio 
stations are independently owned and operated, and are licensed to 
colleges, universities, community foundations, and other nonprofit 
organizations. Stations serve their local communities by determining 
their own schedules. They are managed locally by professionals who are 
accountable to community leaders and listeners who represent the 
diverse backgrounds of that community. Decisions about programming and 
services are made by people who live within the local community. That's 
the way it used to be throughout much of the broadcast industry, and we 
think it's the way it should be. Public radio stations set their own 
policies, make their own program decisions, and answer questions when 
their local listeners call or write. They respond to their listeners 
and respond to their needs because an actively engaged audience is 
public radio's calling card. Most of our system's revenue is audience-
sensitive, coming either from individual local contributors or from 
local businesses and foundations that support the work of our stations.
    Consider these recent statistics . . . Roughly 38 million Americans 
listen to public radio each week, more than the total combined 
circulation of the country's top 64 newspapers, including USA Today, 
The Wall Street Journal, and the New York Times. Additionally, some 20 
million visitors a month find public radio's digital platforms, with 
some 30 million podcast downloads occurring each month. According to 
the Pew Research Center, NPR and public radio are the only news sources 
to see a meaningful increase in audience trust over the last 12 years.
    As the country's largest nonprofit news organization, public radio 
is uniquely positioned to respond to the ever evolving nature of 
delivering news, music and cultural affairs programming. Our network of 
local public radio stations reaches diverse communities, from the 
largest urban areas to the smallest rural enclaves. Public radio 
programming is rooted in the fundamentals of accuracy, transparency, 
independence, balance, and fairness that foster understanding for 
millions of Americans seeking information, context and insight.
    As a network of stations that produce local news and cultural 
programming and, with regional, national and international reporting 
capabilities that NPR, APM and others contribute, we are making a 
difference in the world beginning in each community you represent. On 
average, 44 percent of daily programming is locally produced by station 
staff, 28 percent is produced by NPR, and 28 percent comes from other 
public radio station producers and national distributors. Throughout 
the public radio station community, local and regional talk shows are 
mainstays of daily programming. Recent surveys show that the number of 
public radio stations carrying local news/talk programming rose from 
595 to 681 stations, with hours aired each week increasing by more than 
10 percent. On average, 1,400 programming segments produced by local 
public radio stations were included in programming distributed 
nationally by NPR.
    Roughly 90 percent of stations produce local newscasts, airing both 
newscast and non-newscast content primarily in weekday drive time, 
especially morning drive-time. About half of all stations carry local 
news content during the weekends. Most stations--74 percent--are 
producing stories other than newscasts each week to insert into 
``Morning Edition'' and ``All Things Considered'' locally; and, most 
news stations--88 percent--are producing and inserting stories, with a 
majority of these stations inserting five or more stories per week. 
Stations devote the most local news coverage and their reporters' 
specific beat assignments to State-local-politics, schools and 
education, arts and cultural events, and environmental, health, and 
business issues. News format stations provide added coverage on local 
politics, education, and business, whereas music stations focus on arts 
and cultural affairs events.
Public Radio: Music and Culture in Communities
    Public radio also provides an important and growing contribution to 
America's music culture and America's music economy. Some 480 public 
radio stations offer a mixed news and music programming format, with 
another 180 stations engaged entirely in music. Every year, public 
radio stations host and broadcast more than 3,000 in-studio and 
community-based performances. And every year, public radio stations 
broadcast more than 4.8 million hours of music programming. More than a 
third of all public-radio listening is to music.
    Classical, jazz, folk, independent, bluegrass, world and eclectic 
are music formats offered by public radio stations in cities large and 
small, and all are being eliminated as economically unsustainable in 
the commercial market. As a result, in dozens of communities 
nationwide, the local public radio station is the only free and 
universally available source of music from these genres. This 
preservation role is complemented by the important promotional role 
public radio stations play in music today. Local stations actively 
highlight in-studio performances by emerging artists and local music 
events spanning all music genres. Audiences increasingly are turning to 
their local public radio stations as trusted sources for information on 
new artists and events.
Public Radio: Information in Times of Crisis and Emergency
    By ensuring that public radio is widely available throughout the 
country, Federal funding helps ensure that citizens have access to 
emergency and public safety information during national or local 
disasters. Public radio is a communications lifeline during times of 
emergencies, especially when the power grid is down. 98 percent of the 
U.S. population has access to a public radio signal. There are an 
estimated 800-900 million radios in the United States and more than 38 
million people listen to public radio each week. Radio is the most 
effective medium for informing a community of weather forecasts, 
traffic issues, services available, evacuations, and other emergency 
conditions. Everyone has access to a radio; they are portable and 
battery operated. In Indian Country, radio stations provide essential 
life saving information in many Native communities that do not have 
available or effective 9-1-1 services and have limited or no telephone 
access or broadband (one-third have no telephone and less than 10 
percent have Internet access).
    The Federal Emergency Management Agency (FEMA) routinely advises 
the public to make sure that radios with batteries are on hand when 
major storms approach. When people are instructed to evacuate due to 
local crisis situations such as hurricanes, flooding, tornados, 
wildfires, ice storms, earthquakes and terrorist attacks, car radios 
become a primary instrument for receiving information about the 
emergency situation including evacuation routes and evacuation center 
locations. Effective emergency warnings allow people to take actions 
that save lives, reduce damage, and reduce human suffering.
    Dedicated public radio personnel have worked and continued 
broadcasting through multiple crises such as the 9/11 attacks, 
Hurricanes Andrew, Hannah, Katrina, Rita and Gustav, blackouts, 
wildfires, ice storms, earthquakes and floods. During the 9/11 tragedy, 
WNYC 93.9 FM/820 AM served as a 24/7 lifeline to hundreds of thousands 
of people, while in the days that followed station personnel provided a 
calm and recognizable voice that helped survivors cope. The station 
kept reporting even while its FM transmitter located on the World Trade 
Center was destroyed in the first attack.
Public Radio: Service to Everyone
    Many public radio stations also provide critical services to 
disabled Americans. Radio reading services in every major market in the 
United States provide millions of visually impaired persons the ability 
to function more independently in their communities. Our Nation's 
elderly and military veterans returning home injured or disabled from 
foreign combat duty depend on these broadcasts for their only access to 
current print-based news and information.
    Everyone with a visual impairment, physical disability or learning 
disability has a right to equal access to all forms of information 
available to the general public. Audio information services provide 
access to printed information for individuals who cannot read 
conventional print because of blindness or any other visual, physical 
or learning disability. Many audio information services provide service 
to institutions as well as to individuals, such as hospital rooms, 
assisted living facilities, low vision clinics, senior centers and 
other institutional care facilities where qualified listeners may 
reside or frequent.
Public Radio: A Sound Investment
    At a time when the Federal Government is running a large deficit, 
every program and function of the Government deserves to be 
scrutinized. A review of Federal funding to public broadcasting is fair 
and to be expected. But the truth remains that the Federal investment 
in the public radio and public broadcasting system provides one of the 
most effective returns of any program authorized by Congress. For a 
modest Federal investment of just $1.39 per person per year, the 
country is provided with exceptional journalism and culturally 
enriching programming that elevates the national dialogue and leads to 
a more informed citizenry.
    In closing Chairman Harkin and Senator Shelby, I encourage you, 
Members of the Subcommittee and your staffs to visit and tour your 
local public radio stations to view first-hand how Federal dollars are 
at work locally serving your constituents.
                                 ______
                                 
      Prepared Statement of the National Primate Research Centers
    The Directors of the eight National Primate Research Centers 
(NPRCs) respectfully submit this written testimony for the record to 
the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies. The NPRCs appreciate the 
commitment that the Members of this Subcommittee have made to 
biomedical research through your support for the National Institutes of 
Health (NIH) and recommend that you provide $32 billion for NIH in 
fiscal year 2013, which represents a 4.2 percent increase above the 
fiscal year 2012 level. Within this proposed increase, the NPRCs also 
respectfully request that the Subcommittee provide strong support for 
the NIH Office of Research Infrastructure Programs (ORIP), housed 
within the NIH Office of the Director, which is the new administrative 
home of the NPRCs. This support would help to ensure that the NPRCs and 
other animal research resource programs continue to serve effectively 
in their role as a vital national resource.
    The mission of the National Primate Research Centers is to use 
scientific discovery and nonhuman primate models to accelerate progress 
in understanding human diseases, leading to interventions, treatments, 
cures, and ultimately to overall better health of the Nation and the 
world. The NPRCs collaborate as a transformative and innovative network 
to develop and support the best science and act as a resource to the 
biomedical research community as efficiently as possible. There is an 
exceptional return on investment in the NPRC program; $10 is leveraged 
for every $1 of research support for the NPRCs. It is important to 
sustain funding for the NPRC program and the NIH as a whole and to 
continue to grow and develop the innovative plan for the future of NIH.
NPRCs' Contributions to NIH Priorities
    The NPRCs' activities are closely aligned with NIH priorities. In 
fact, NPRC investigators conduct much of the Nation's basic and 
translational nonhuman primate research, facilitate additional vital 
nonhuman primate research that is conducted by hundreds of 
investigators from around the country, provide critical scientific 
expertise, train the next generation of scientists, and advance 
cutting-edge technologies.
    The fiscal year 2013 NIH congressional justification underscores 
the vital role that the NPRCs play in NIH translational science efforts 
and the broader biomedical research enterprise. With the recent 
creation of the National Center for Advancing Translational Sciences 
(NCATS), the NPRCs see a great opportunity to further integrate the 
consortium as a trans-NIH resource on topics such as colony management, 
training, genetics and genome banking. The NPRC consortium will 
continue to engage as a resource for the Clinical and Translational 
Science Award (CTSA) network to help clinical researchers increase 
their knowledge of and access to nonhuman primates as animal models.
    Outlined below are a few of the overarching goals and priorities 
for the NPRCs, including specifics of how the NPRCs are striving to 
achieve these through programs and activities across the centers.
    Advance Translational Research Using Animal Models.--Nonhuman 
primate models bridge the divide between basic biomedical research and 
implementation in a clinical setting. Currently, seven of the eight 
NPRCs are affiliated and collaborate with an NIH CTSA program through 
their host institution. Specifically, the nonhuman primate models at 
the NPRCs often provide the critical translational link between 
research with small laboratory animals and studies involving humans. As 
the closest genetic model to humans, nonhuman primates serve in the 
process of developing new drugs, treatments, and vaccines to ensure 
safe and effective use for the Nation's public.
    It is neither cost effective nor feasible to reproduce these 
specialized facilities and expertise at every research institution, so 
the NPRCs are a valuable resource to the research community. Major 
areas of research benefiting from the resources of the NPRCs include 
AIDS, avian flu, Alzheimer's disease, Parkinson's disease, autism, 
cardiovascular disease, diabetes, obesity, asthma, and endometriosis. 
To facilitate these and other studies, the NPRC have developed a 
resource of over 26,000 nonhuman primates, 70 percent of which are 
rhesus monkeys, the most widely used nonhuman primate for HIV research 
and a wide range of translational studies.
    Strengthen the Research Workforce.--The success of the Federal 
Government's efforts in enhancing public health is contingent upon the 
quality of research resources that enable scientific research ranging 
from the most basic and fundamental to the most highly applied. 
Biomedical researchers have relied on one such resource--the NPRCs--for 
nearly 50 years for research models and expertise with nonhuman 
primates. The NPRCs are highly specialized facilities that foster the 
development of nonhuman primate animal models and provide expertise in 
all aspects of nonhuman primate biology. NPRC facilities and resources 
are currently used by over 2,000 NIH funded investigators around the 
country.
    The NPRCs are also supportive of students interested in the 
biomedical research at an early age. For example, the Yerkes NPRC 
supports a program that connects with local high schools and colleges 
in Atlanta, Georgia, and provides high school science students and 
teachers with summer-long internships to participate in research 
projects taking place at their center. Other NPRCs have similar 
programs that help develop a pipeline of aspiring science students and 
teachers.
    Offer Technologies to Advance Translational Research and Expand 
Informatics Approaches to Support Research.--The NPRCs have been 
leading the development of a new Biomedical Informatics Research 
Network (BIRN) for linking brain imaging, behavior, and molecular 
informatics in nonhuman primate preclinical models of neurodegenerative 
diseases. Using the cyberinfrastructure of BIRN for data-sharing, this 
project will link research and information to other primate centers, as 
well as other geographically-distributed research groups.
The Need for Facilities Support
    The NPRC program is a vital resource for enhancing public health 
and spurring innovative discovery. In an effort to address many of the 
concerns within the scientific community regarding the need for funding 
for infrastructure improvements, the NPRCs support the continuation of 
a robust construction and instrumentation grant program at NIH.
    Animal facilities, especially primate facilities, are expensive to 
maintain and are subject to abundant ``wear and tear.'' In prior years, 
funding was set aside that fulfilled the infrastructure needs of the 
NPRCs and other animal research facilities. The NPRCs are dependent on 
strong support for the P51 base grant program which is essential for 
the operational costs, and the C06 and G20 programs which support 
construction and renovation of animal facilities. Without proper 
infrastructure, the ability for animal research facilities, including 
the NPRCs, to continue to meet the high demand of the biomedical 
research community will be unsustainable.
    Thank you for the opportunity to submit this written testimony and 
for your attention to the critical need for primate research and the 
continuation of infrastructure support. We thank you for your support 
of NIH and urge you to provide $32 billion for the agency in the fiscal 
year 2013 appropriations bill.
                                 ______
                                 
          Prepared Statement of the National Respite Coalition
    Mr. Chairman, I am Jill Kagan, Chair of the National Respite 
Coalition (NRC), a network of respite providers, family caregivers, 
national, State and local agencies and organizations who support 
respite. Thirty State respite coalitions are also affiliated with the 
NRC. This statement is presented on behalf of these organizations. The 
NRC also facilitates the Lifespan Respite Task Force, a coalition of 
over 200 national, State and local groups who support the Lifespan 
Respite Program and its continued funding. We are requesting that the 
Subcommittee include $5 million for the Lifespan Respite Care Program 
administered by the U.S. Administration on Aging in the fiscal year 
2013 Labor, HHS, and Education appropriations bill. Given the serious 
fiscal constraints facing the Nation, this request is only one-tenth of 
the request the NRC made last year. This will enable:
  --State replication of best practices in Lifespan Respite to allow 
        all family caregivers, regardless of the care recipient's age 
        or disability, to have access to affordable respite, and to be 
        able to continue to play the significant role in long-term care 
        that they are fulfilling today;
  --Improvement in the quality of respite services currently available;
  --Expansion of respite capacity to serve more families by building 
        new and enhancing current respite options, including 
        recruitment and training of respite workers and volunteers; and
  --Greater consumer direction by providing family caregivers with 
        training and information on how to find, use and pay for 
        respite services.
                           who needs respite?
    In 2009, about 61.6 million family caregivers provided care at some 
time during the year. The estimated economic value of their unpaid 
contributions was approximately $450 billion, up from an estimated $375 
billion in 2007. This amount is more than total 2009 Medicaid spending, 
including both Federal and State contributions for healthcare and long-
term services and supports ($361 billion). Including caregiving for 
children with special needs in the total would add at least 4 to 8 
million additional caregivers and another $50 to $100 billion to the 
economic value of family caregiving (Feinberg, L.; Reinhard, S., et al, 
Valuing the Invaluable: 2011 Update, The Growing Contributions and 
Costs of Family Caregiving, AARP Public Policy Institute, 2011).
    Family caregiving is not just an aging issue, but a lifespan one. 
While the aging population is growing rapidly, the majority of family 
caregivers are caring for someone under age 75 (56 percent); 28 percent 
of family caregivers care for someone between the ages of 50-75, and 28 
percent care for someone under age 50 (NAC and AARP, 2009). Many family 
caregivers are in the sandwich generation--46 percent of women who are 
caregivers of an aging family member and 40 percent of men also have 
children under the age of 18 at home (Aumann, Kerstin and Ellen 
Galinsky, et al. 2008). And 6.7 million children, are in the primary 
custody of an aging grandparent or other relative.
    Families of the wounded warriors, military personnel who returned 
from Iraq and Afghanistan with traumatic brain injuries and other 
serious chronic and debilitating conditions, don't have full access to 
respite. Even with enactment of the new VA Family Caregiver Support 
Program, the need for respite will remain high for all veterans and 
their family caregivers. Among family caregivers of veterans whose 
illness, injury or condition is in some way related to military service 
surveyed in 2010, only 15 percent had received respite services from 
the VA or other community organization within the past 12 months. 
Caregivers whose veterans have PTSD are only about half as likely as 
other caregivers to have received respite (11 percent vs. 20 percent) 
(NAC, Caregivers Of Veterans--Serving On The Homefront, November 2010). 
Sixty-eight percent of veterans' caregivers reported their situation as 
highly stressful compared to 31 percent of caregivers nationally, and 
three times as many say there is a high degree of physical strain (40 
percent vs. 14 percent) (NAC, 2010). Veterans' caregivers specifically 
asked for up-to-date lists of respite providers in their communities 
and help to find services, the very thing Lifespan Respite is charged 
to provide (NAC, 2010).
    National, State and local surveys have shown respite to be the most 
frequently requested service of the Nation's family caregivers (The 
Arc, 2011; National Family Caregivers Association, 2011). Other than 
financial assistance for caregiving through direct vouchers payments or 
tax credits, respite is the number one national policy related to 
service delivery that family caregivers prefer (NAC and AARP, 2009). 
Yet respite is unused, in short supply, inaccessible, or unaffordable 
to a majority of the Nation's family caregivers. The NAC 2009 survey 
found that despite the fact that among the most frequently reported 
unmet needs of family caregivers were ``finding time for myself'' (32 
percent), ``managing emotional and physical stress'' (34 percent), and 
``balancing work and family responsibilities'' (27 percent), nearly 90 
percent of family caregivers across the lifespan are not receiving 
respite services at all.
    An estimated 80 percent of all long-term care in the United States 
is provided at home. This percentage will only rise in the coming 
decades with greater life expectancies of individuals with disabling 
and chronic conditions living with their aging parents or other 
caregivers, the aging of the baby boom generation, and the decline in 
the percentage of the frail elderly who are entering nursing homes.
          respite barriers and the effect on family caregivers
    Barriers to accessing respite include reluctance to ask for help, 
fragmented and narrowly targeted services, cost, and the lack of 
information about respite or how to find or choose a provider. Even 
when respite is an allowable funded service, a critically short supply 
of well-trained respite providers may prohibit a family from making use 
of a service they so desperately need. Lifespan Respite is designed to 
help States eliminate these barriers through improved coordination and 
capacity building.
    While most families take great joy in helping their family members 
to live at home, it has been well documented that family caregivers 
experience physical and emotional problems directly related to their 
caregiving responsibilities. In a 2009 survey of family caregivers, a 
majority (51 percent) who are caring for someone over age 18 have 
medium or high levels of burden of care, measured by the number of 
activities of daily living with which they provide assistance, and 31 
percent were identified as ``highly stressed'' (NAC and AARP, 2009). 
While family caregivers of children with special healthcare needs are 
younger than caregivers of adults, they give lower ratings to their 
health. Caregivers of children are twice as likely as the general adult 
population to say they are in fair/poor health (26 percent vs 13 
percent) (Provisional summary Health Statistics for U.S. Adults, 
National Health Interview Survey, 2008, dated August 2009).
    The decline of family caregiver health is one of the major risk 
factors for institutionalization of a care recipient, and there is 
evidence that care recipients whose caregivers lack effective coping 
styles or have problems with depression are at risk for falling, 
developing preventable secondary complications such as pressure sores 
and experiencing declines in functional abilities (Elliott & Pezent, 
2008). Care recipients may also be at risk for encountering abuse from 
caregivers when the recipients have pronounced need for assistance and 
when caregivers have pronounced levels of depression, ill health, and 
distress (Beach et al., 2005; Williamson et al., 2001).
    Supports that would ease family caregiver stress, most importantly 
respite, are too often out of reach or completely unavailable. 
Restrictive eligibility criteria also preclude many families from 
receiving services or continuing to receive services for which they 
once were eligible. Children with disabilities will age out of the 
system when they turn 21 and they will lose many of the services, such 
as respite. A recent survey of nearly 5,000 caregivers of individuals 
with intellectual and developmental disabilities (I/DD) conducted by 
The Arc found: the vast majority of caregivers report that they are 
suffering from physical fatigue (88 percent), emotional stress (81 
percent) and emotional upset or guilt (81 percent) some or most of the 
time; 1 out of 5 families (20 percent) report that someone in the 
family had to quit their job to stay home and support the needs of 
their family member; and more than 75 percent of family caregivers 
caring for adult children with developmental disabilities could not 
find respite services (The Arc, 2011). Respite may not exist at all in 
some States for individuals with Alzheimer's, those under age 60 with 
conditions such as ALS, MS, spinal cord or traumatic brain injuries, or 
children with serious emotional conditions.
              respite benefits families and is cost saving
    Respite has been shown to be an effective way to reduces stress and 
improve the health and well-being of family caregivers that in turn 
helps avoid or delay out-of-home placements, such as nursing homes or 
foster care, minimizes the precursors that can lead to abuse and 
neglect, and strengthens marriages and family stability. A U.S. 
Department of Health and Human Services report prepared by the Urban 
Institute found that higher caregiver stress among those caring for the 
aging increases the likelihood of nursing home entry. Reducing key 
stresses on caregivers, such as physical strain and financial hardship, 
through services such as respite would reduce nursing home entry 
(Spillman and Long, USDHHS, 2007). The budgetary benefits that accrue 
because of respite are just as compelling. Delaying a nursing home 
placement for just one individual with Alzheimer's or other chronic 
condition for several months can save thousands of dollars. Researchers 
at the University of Pennsylvania studied the records of over 28,000 
children with autism ages 5 to 21 who were enrolled in Medicaid in 
2004. They concluded that for every $1,000 States spent on respite 
services in the previous 60 days, there was an 8 percent drop in the 
odds of hospitalization (Mandell, David S., et al, 2012). In an Iowa 
survey of parents of children with disabilities, a significant 
relationship was demonstrated between the severity of a child's 
disability and their parents missing more work hours than other 
employees. It was also found that the lack of available respite 
appeared to interfere with parents accepting job opportunities. 
(Abelson, A.G., 1999)
    In the private sector, the Metropolitan Life Insurance Company and 
the National Alliance for Caregivers found that U.S. businesses lose 
from $17.1 billion to $33.6 billion per year in lost productivity of 
family caregivers. (MetLife and National Alliance for Caregiving, 
2006). Another study from the National Alliance on Caregiving and 
Evercare demonstrated that the economic downturn has had a particularly 
harsh effect on family caregivers. Of the 6 in 10 caregivers who are 
employed, 50 percent of them are less comfortable during the economic 
downturn with taking time off from work to care for a family member or 
friend. A similar percentage (51 percent) says the economic downturn 
has increased the amount of stress they feel about being able to care 
for their relative or friend. Respite for working family caregivers 
could help improve job performance and employers could potentially save 
billions.
                lifespan respite care program will help
    The Lifespan Respite Care Program is based on the success of 
statewide Lifespan Respite programs in Oregon, Nebraska, Wisconsin and 
Oklahoma. The Federal Lifespan Respite program is administered by the 
U.S. Administration on Aging, Department of Health and Human Services 
(HHS). AoA provides competitive grants to State agencies in concert 
with Aging and Disability Resource Centers working in collaboration 
with State respite coalitions or other State respite organizations. The 
program was authorized at $53.3 million in fiscal year 2009 rising to 
$95 million in fiscal year 2011. Congress appropriated $2.5 million in 
fiscal year 2009-2012. Since 2009, 30 States have received 3-year 
$200,000 Lifespan Respite Grants from AoA since 2009. Last year, seven 
States and the District of Columbia received one-time $150,000 
expansion grants to focus on direct services, especially for those who 
are currently unserved.
    The purpose of the law is to expand and enhance respite services, 
improve coordination, and improve respite access and quality. States 
are required to establish State and local coordinated Lifespan Respite 
care systems to serve families regardless of age or special need, 
provide new planned and emergency respite services, train and recruit 
respite workers and volunteers and assist caregivers in gaining access 
to services. Those eligible would include family members, foster 
parents or other adults providing unpaid care to adults who require 
care to meet basic needs or prevent injury and to children who require 
care beyond that required by children generally to meet basic needs.
    Lifespan Respite, defined as a coordinated system of community-
based respite services, helps States use limited resources across age 
and disability groups more effectively. Provider pools can be 
recruited, trained and shared, administrative burdens reduced by 
coordinating resources, and savings used to fund new respite services 
for families who do not qualify for any Federal or State program. The 
Government Accountability Office summarized the innovative activities 
undertaken by the first 24 States to implement Lifespan Respite Systems 
in its report to Congress, Respite Care: Grants and Cooperative 
Agreements Awarded to Implement the Lifespan Respite Care Act. GAO-11-
28R, Oct. 22, 2010.
          how is lifespan respite program making a difference?
    With limited funds, Lifespan Respite grantees are engaged in 
innovative activities such as:
  --In Tennessee and Rhode Island, the Lifespan Respite program is 
        building respite capacity by expanding volunteer networks of 
        providers by recruiting University students or Senior Corps 
        volunteers or expanding the national TimeBanks model for 
        establishing voluntary family cooperative respite strategies.
  --In Texas, the Lifespan Respite program has established a statewide 
        Respite Coordination Center, and an online database.
  --In North Carolina, South Carolina, and Alabama, the State respite 
        coalition and the Lifespan Respite programs are partnering in 
        new ways with the untapped faith community to provide respite, 
        especially in rural areas.
  --The North Carolina Lifespan Respite Program has challenged each of 
        its 100 counties to come up with a strategy, no matter how 
        great or how small, to improve respite service delivery 
        locally.
  --In New Hampshire, new providers have been recruited and trained 
        through partnerships with the New Hampshire National Alliance 
        on Mental Illness, New Hampshire Family Voices, and the College 
        of Direct Support with funding from the Department of Labor to 
        expand the pool of respite providers to work with teens and 
        older individuals with mental health conditions or other groups 
        where respite is in short supply.
  --In Illinois and Arizona, State grantees and their partners are 
        working with child and adult protective services to ensure 
        respite is available on an emergency basis for the most 
        vulnerable families.
    Across the board, States are building respite registries and ``no 
wrong door systems'' in collaboration with State respite coalitions and 
Aging and Disability Resource Centers to help family caregivers access 
respite and funding sources. Oklahoma, Alabama, Nevada, Tennessee and 
others are using Lifespan Respite grants to expand or implement 
participant-directed respite through coordinated voucher systems so 
that family caregivers have greater control over the type and quality 
of the respite they select. All State grantees secure commitments from 
partnering State agencies to share information and coordinate resources 
to build a seamless Lifespan Respite system for accessing respite.
    Even with these State efforts, current funding is wholly 
inadequate. Close to 90 percent of the Nation's family caregivers still 
are not receiving respite. More than half of them are caring for 
someone under age 75 with early Alzheimer's, MS, ALS, traumatic brain 
or spinal cord injury, mental health conditions, developmental 
disabilities or cancer. The goal of Lifespan Respite System is to 
coordinate respite services and funding, maximize existing resources 
and leverage new dollars in both the public and private sectors to 
build respite capacity and serve the unserved; $5 million in fiscal 
year 2013 could allow new States to start Lifespan Respite Programs and 
ensure that the 2010-2012 grantees be able to complete the work that 
they have started. As it is, given the inadequate funding for fiscal 
year 2012, only up to 5 of the original 12 2009 grantees will be funded 
again before they have had a chance to make a lasting impact.
    No other Federal program mandates respite as its sole focus. No 
other Federal program would help ensure respite quality or choice, and 
no current Federal program allows funds for respite start-up, training 
or coordination or to address basic accessibility and affordability 
issues for families. We urge you to include at least $5 million in the 
fiscal year 2013 Labor, HHS, Education appropriations bill so that 
Lifespan Respite Programs can be replicated and sustained in the States 
and more families, with access to respite, will be able to continue to 
play the significant role that they are fulfilling today.
                                 ______
                                 
Prepared Statement of the National Technical Institute for the Deaf and 
                   Rochester Institute of Technology
    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2013 budget request for NTID, one of nine colleges of 
RIT, in Rochester, New York. Created by Congress by Public Law 89-36 in 
1965, we provide university technical and professional education for 
students who are deaf and hard-of-hearing, leading to successful 
careers in high-demand fields for a sub-population of individuals 
historically facing high rates of unemployment and under-employment. We 
also provide baccalaureate and graduate level education for hearing 
students in professions serving deaf and hard-of-hearing individuals. 
NTID students live, study and socialize with more than 15,000 hearing 
students on the RIT campus.
Budget Request
    On behalf of NTID, for fiscal year 2013 I would like to request 
$70,577,000, of which $68,577,000 would be for Operations and 
$2,000,000 for Construction. This funding is necessary to allow us to 
continue to support record levels of enrollment, respond to increased 
demand for access services, and address strategic initiatives. 
Construction funds will be used for major renovations to a building 
designed more than 30 years ago that houses two major NTID programs.
    I make this request within the context of definitive actions taken 
by NTID to recognize the difficult economic times in which we operate. 
In fiscal year 2012, NTID operated with essentially the same level of 
Federal support as in fiscal year 2011. We accomplished this through 
the sound management of resources that were available as well as 
reducing 3 percent of our headcount. We have continued to increase 
tuition and fees, as these are our primary sources of non-Federal 
support. Over the past 6 years, tuition and fees have increased by 40 
percent. These non-Federal revenues now represent 27 percent of our 
operating budget--up from 9 percent in 1970.
Enrollment
    In fiscal year 2012 (Fall 2011), we attracted the largest 
enrollment in our history--1,547 students. Truly a national program, 
NTID has enrolled students from all 50 States. Over the last 6 years, 
our enrollment has increased 24 percent (297 students). By granting 
this request for fiscal year 2013, NTID will be able to serve this 
record high enrollment level. Our enrollment history over the last 6 
years is shown below:

                                                           NTID ENROLLMENTS: SIX-YEAR HISTORY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                      Deaf/Hard-of-Hearing Students                 Hearing Students
                                                              --------------------------------------------------------------------------------   Grand
                         Fiscal Year                                                                       Interpreting                          Total
                                                               Undergrad   Grad RIT     MSSE     Subtotal     Program       MSSE     Subtotal
--------------------------------------------------------------------------------------------------------------------------------------------------------
2007.........................................................      1,017         47         31      1,095          130          25        155      1,250
2008.........................................................      1,103         51         31      1,185          130          28        158      1,343
2009.........................................................      1,212         48         24      1,284          135          31        166      1,450
2010.........................................................      1,237         38         32      1,307          138          29        167      1,474
2011.........................................................      1,263         40         29      1,332          147          42        189      1.521
2012.........................................................      1,281         42         31      1,354          160          33        193      1,547
--------------------------------------------------------------------------------------------------------------------------------------------------------

NTID Academic Programs
    NTID offers high quality, career-focused associate degree programs 
preparing students for specific well-paying technical careers. NTID 
also is expanding the number of its transfer associate degree programs, 
currently numbering seven, to better serve the higher achieving segment 
of our student population seeking bachelor's and master's degrees in an 
increasingly demanding marketplace. These transfer programs provide 
seamless transition to baccalaureate studies in the other colleges of 
RIT. In support of those deaf and hard-of-hearing students enrolled in 
the other RIT colleges, NTID provides a range of access services 
(including interpreting, real-time speech-to-text captioning, and note-
taking) as well as tutoring services. One of NTID's greatest strengths 
is our outstanding track record of assisting high-potential students to 
gain admission to, and graduate from, the other colleges of RIT at 
rates comparable to their hearing peers.
    A cooperative education (co-op) component is an integral part of 
academic programming at NTID and prepares students for success in the 
job market. A co-op gives students the opportunity to experience a 
real-life job situation and focus their career choice. Students develop 
technical skills and enhance vital personal skills such as teamwork and 
communication, which will make them better candidates for full-time 
employment after graduation. Over 250 students each year participate in 
10-week co-op experiences that augment their academic studies, refine 
their social skills, and prepare them for the competitive working 
world.
Student Accomplishments
    For our graduates, over the past 5 years, an average of 92 percent 
have been placed in jobs commensurate with the level of their 
education. Of our fiscal year 2010 graduates (the most recent class for 
which numbers are available), 57 percent were employed in business and 
industry, 27 percent in education/nonprofits, and 16 percent in 
government.
    Graduation from NTID has a demonstrably positive effect on 
students' earnings over a lifetime, and results in a noteworthy 
reduction in dependence on Supplemental Security Income (SSI), Social 
Security Disability Insurance (SSDI) and public assistance programs. In 
fiscal year 2007, NTID, the Social Security Administration, and Cornell 
University examined approximately 13,000 deaf and hard-of-hearing 
individuals who applied and attended NTID over our entire history. The 
studies show that NTID graduates over their lifetimes are employed at a 
much higher rate, earn substantially more (therefore paying 
significantly more in taxes), and participate at a much lower rate in 
SSI, SSDI, and public assistance programs than those who withdraw or 
who apply but do not attend NTID. Considering the reduced dependency on 
these Federal income support programs, the Federal investment in NTID 
not only makes a positive difference in individual earnings, but also 
returns significant societal dividends.
Access Services
    NTID provides an access services system to meet the needs of a 
large number of deaf and hard-of-hearing students enrolled in 
baccalaureate and graduate degree programs in RIT's other colleges as 
well as students enrolled in NTID programs who take courses in the 
other colleges of RIT. Access services also are provided for events and 
activities throughout the RIT community. Access services include sign 
language interpreting, real-time captioning, classroom notetaking 
services, captioned classroom video materials, and Assistive Listening 
Services.
    As enrollments have steadily increased, so has the demand for 
access services. In fiscal year 2011, 131,065 hours of interpreting 
were provided--an increase of 18 percent compared to fiscal year 2007. 
In fiscal year 2011, 21,493 hours of real-time captioning were provided 
to students--a 39 percent increase over fiscal year 2007. The increase 
in demand is partly a result of the increase in the number of students 
enrolled in baccalaureate programs at RIT and the number of students 
with cochlear implants. In fiscal year 2012, there were 515 deaf and 
hard-of-hearing students enrolled in baccalaureate programs at RIT--a 
17 percent increase compared to fiscal year 2007. In fiscal year 2012, 
there were 331 students with cochlear implants--a 56 percent increase 
over fiscal year 2007. We will be able to address this growing demand 
with our fiscal year 2013 funding request.
Strategic Decisions 2020
    In 2010, NTID completed Strategic Decisions 2020, a strategic plan 
based on our founding mission statement. This statement sets forth our 
institutional responsibility to work with students to develop their 
academic, career and life-long learning skills as future contributors 
in a rapidly changing world. It also recognizes our role as a special 
resource for preparing individuals who are deaf and hard-of-hearing, 
for conducting applied research in areas critical to the advancement of 
individuals who are deaf and hard-of-hearing, and for disseminating our 
collective and cumulative expertise.
    Strategic Decisions 2020 establishes key initiatives responding to 
future challenges and shaping future opportunities. These initiatives, 
which began implementation in fiscal year 2011, include:
  --Pursuing enrollment targets and admissions and programming 
        strategies that will result in increasing numbers of our 
        graduates achieving baccalaureate degrees and higher, while 
        maintaining focus and commitment to quality associate-level 
        degree programs leading directly to the workplace;
  --Improving services to under-prepared students through working with 
        regional partners to implement intensive summer academic 
        preparation programs in selected high-growth, ethnically 
        diverse areas of the country;
  --Expanding NTID's role as a National Resource Center of Excellence 
        regarding the education of deaf and hard-of-hearing students in 
        senior high school (grades 10, 11 and 12) and at the 
        postsecondary level; and
  --Enhancing efforts to become a recognized national leader in the 
        exploration, adaptation, testing, and implementation of new 
        technologies to enhance access to, and support of, learning by 
        deaf and hard-of-hearing individuals.
Construction Needs
    On behalf of NTID, I am requesting $2,000,000 for Construction to 
begin critical and long-overdue renovations to a 30-year-old building 
that houses 2 major programs and one-third of the NTID workforce. The 
original building design provided office space for approximately 98 
access service staff members. Today, there are 200 staff housed in the 
building. The academic program in Information and Computing Studies has 
been unable to keep their teaching laboratories, originally designed in 
1981, up to date in terms of functionality and accessibility (including 
ADA compliance). Failure to renovate this building will materially 
impact students' educational opportunities as well as the ability to 
provide them with quality access services. NTID is focused only on 
renovations that are absolutely necessary to maintain educational 
quality. For the past 2 fiscal years, most or all of NTID's 
Construction request has been diverted to Operations.
Summary
    It is extremely important that our fiscal year 2013 funding request 
be granted in order that we might continue our mission to prepare deaf 
and hard-of-hearing people to enter the workplace and society. Our 
alumni have demonstrated that they can achieve independence, contribute 
to society, and find sustainable employment as a result of NTID.
    We are hopeful that the members of the Committee will agree that 
NTID, with its long history of successful stewardship of Federal funds 
and outstanding educational record of service with people who are deaf 
and hard-of-hearing, remains deserving of your support and confidence. 
Likewise, we will continue to demonstrate to Congress and the American 
people that NTID is a proven economic investment in the future of young 
deaf and hard-of-hearing citizens. Quite simply, NTID is a Federal 
program that works.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
Introduction
    Thank you, Chairman Harkin, Ranking Member Shelby, and other 
distinguished members of the Subcommittee, for this opportunity to 
express support for the National Institutes of Health (NIH), the 
National Center for Health Statistics (NCHS), and Bureau of Labor 
Statistics (BLS).
Background on the PAA/APC and Demographic Research
    The Population Association of America (PAA) 
(www.populationassociation.org) is a scientific organization comprised 
of over 3,000 population research professionals, including 
demographers, sociologists, statisticians, and economists. The 
Association of Population Centers (APC) (www.popcenters.org) is a 
similar organization comprised of over 40 universities and research 
groups that foster collaborative demographic research and data sharing, 
translate basic population research for policymakers, and provide 
educational and training opportunities in population studies. 
Population research centers are located at public and private research 
institutions nationwide.
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well-being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support biomedical, social, and behavioral 
research that will improve the health of our population. The health of 
our population is fundamentally intertwined with the demography of our 
population. Recognizing the connection between health and demography, 
the NIH supports extramural population research programs primarily 
through the National Institute on Aging (NIA) and the National 
Institute of Child Health and Human Development (NICHD).
National Institute on Aging
    According to the U.S. Census Bureau, the number of people age 65 
and older will more than double between 2010 and 2050 to 88.5 million 
or 20 percent of the population; and those 85 and older will increase 
three-fold, to 19 million. The substantial growth in the older 
population is driving policymakers to consider dramatic changes in 
Federal entitlement programs, such as Medicare and Social Security, and 
other budgetary changes that could affect programs serving the elderly. 
To inform this debate, policymakers need objective, reliable data about 
the antecedents and impact of changing social, demographic, economic, 
health and well being characteristics of the older population. The NIA 
Division of Behavioral and Social Research (BSR) is the primary source 
of Federal support for basic research on these topics.
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging, the Roybal 
Centers for Translational Research on Aging, and the Research Centers 
for Minority Aging, the NIA BSR program also supports several large, 
accessible data surveys. These surveys include a new study, the 
National Health and Aging Trends Study (NHATS) will soon start 
providing detailed and nationally representative information on older 
people (and their informal caregivers) with disabilities. Another 
survey, the Health and Retirement Study (HRS), has become one of the 
seminal sources of information to assess the health and socioeconomic 
status of older people in the United States. Since 1992, the HRS has 
tracked 27,000 people, providing data on a number of issues, including 
the role families play in the provision of resources to needy elderly 
and the economic and health consequences of a spouse's death. HRS is 
particularly valuable because its longitudinal design allows 
researchers to study immediately the impact of important policy changes 
such as Medicare Part D and the opportunity to gain insight into 
emerging health-related policy issues, such as HRS data indicating an 
increase in pre-retirees self-reported rates of disability. It is so 
respected that the study is being replicated in 30 other countries, 
providing important data on how the United States compares with other 
countries whose populations are aging more rapidly. In March 2012, HRS 
took an important step forward by announcing that genetic data from 
approximately 13,000 individuals were posted to dbGAP, the NIH's online 
genetics database. The data are comprised of approximately 2.5 million 
genetic markers from each person and are now available for analysis by 
qualified researchers. These data will enhance the ability of 
researchers to track the onset and progression of diseases and 
conditions affecting the elderly.
    Despite its ability to support important research projects and 
programs, the NIA faces unique funding challenges. While the current 
dollars appropriated to NIA seem to have risen significantly since 
fiscal year 2003, when adjusted for inflation, they have decreased 
almost 18 percent in the last 9 years. Further, according to the NIH 
Almanac, out of each dollar appropriated to NIH, only 3.6 cents goes 
toward supporting the work of the NIA-compared to 16.5 cents to the 
National Cancer Institute, 14.6 cents to the National Institute of 
Allergy and Infectious Diseases, 10 cents to the National Heart, Lung, 
and Blood Institute, and 6.3 cents to the National Institute of 
Diabetes and Digestive and Kidney Diseases. Finally, despite enacting 
cost cutting measures, such as differing paylines for projects costing 
above and below $500,000 and a decrease in non-competing commitments, 
NIA's success rates remained below the NIH average in 2011.
    As research costs increase, NIA faces the prospect of funding fewer 
grants to sustain larger ones in its commitment base. With additional 
support in fiscal year 2013, the NIA BSR program could fully fund its 
large-scale projects, including the existing centers programs and 
ongoing surveys, without resorting to cost cutting measures, such as 
cutting sample size, while continuing to support smaller investigator 
initiated projects. PAA and APC support providing a funding level 
recommended by the Friends of the National Institute on Aging and the 
Leadership Conference on Aging coalitions to provide NIA with a $300 
million increase in fiscal year 2013, bringing NIA to $1.4 billion.
Eunice Kennedy Shriver National Institute on Child Health and Human 
        Development
    Since its establishment in 1968, the Eunice Kennedy Shriver NICHD 
Center for Population Research has supported research on population 
processes and change. Today, this research is housed in the Center's 
Demographic and Behavioral Sciences Branch (DBSB). DBSB supports 
research in three broad areas: demography, HIV/AIDs, other sexually 
transmitted diseases, and other reproductive health; and population 
health, with focus on early life influences and policy.
    DBSB is the major supporter of the national studies that track the 
health and well-being of children and their families from childhood 
through adulthood. These studies include Fragile Families and Child 
Well Being, the first scientific study to track the health and 
development of children born to unmarried parents; the National 
Longitudinal Study of Youth, a multigenerational of health and 
development; and the National Longitudinal Study of Adolescent Health 
(Add Health), tracing the effects of childhood and adolescent exposures 
on later health. DBSB supports the prompt and widespread release of 
demographic data collected with NIH and other Federal Government 
funding through the Demographic Data Sharing and Archiving project.
    One of the most important programs the NICHD DBSB supports is the 
Research Infrastructure for Demographic and Behavioral Population 
Science (DBPop). This program promotes innovation, supports 
interdisciplinary research, translates scientific findings into 
practice, and develops the next generation of population scientists, 
while at the same time providing incentives to reduce the costs and 
increase the efficiency of research by streamlining and consolidating 
research infrastructure within and across research institutions. DBPop 
supports research at 24 private and public research institutions 
nationwide, the focal points for the demographic research field for 
innovative research and training and the development and dissemination 
of widely used large-scale databases.
    NIH-funded demographic research provides critical scientific 
knowledge on issues of greatest consequence for American families: 
marriage and childbearing, childcare, work-family conflicts, and family 
and household behavior. Demographic research is having a large impact 
in public health, particularly on issues such as infant and child 
health and development, and adolescent and young adult health, and 
health disparities. Research supported by DBSB has revealed the 
critical role of marriage and stable families in ensuring that children 
grow up healthy, achieving developmental and educational milestones. 
DBSB supported projects provides policymakers and communities with 
evidence-based knowledge on the critical intervention points and 
effective interventions to promote health. An example is a new finding 
from DBSB supported research on low birth weight, a condition 
associated with higher risk of a number of serious medical 
complications and learning disabilities for children. Based on an 
analysis of more than 5 million medical records, researchers found that 
pregnant women assaulted by an intimate partner are at increased risk 
of giving birth to infants at lower birth weights. This finding was 
adopted by the American College of Obstetricians and Gynecologists to 
develop physician training materials for screening patients for 
intimate partner violence.
    With additional support in fiscal year 2013, NICHD could sustain 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the Institute could apply 
additional resources toward improving its funding payline, which is one 
of the lowest of the NIH Institutes and Centers. Additional support 
could be used to support and stabilize essential training and career 
development programs necessary to prepare the next generation of 
researchers and to support and expand proven programs, such as DBPop. 
For these reasons, PAA and APC endorse the funding level recommended by 
the Friends of the NICHD to fund the Institute at $1.37 billion in 
fiscal year 2013.
National Children's Study
    The PAA and APC are concerned about language included in the 
President's fiscal year 2013 proposed budget regarding the National 
Children's Study (NCS). Specifically, our organizations are troubled 
that in its budget, NIH suggested abandoning its previous commitment to 
a national probability sample because the study's recruitment goals 
have fallen short and because cost containment remains a priority. Our 
organizations have written to the NIH, urging them to work with experts 
in probability sampling and to conduct research to evaluate the 
feasibility and scientific value of any new sampling strategy--
particularly as it potentially affects the inclusion of vulnerable, 
hard-to-reach populations, such as the children of legal and illegal 
immigrants. We also encourage the agency to contract with an 
independent scientific agency, such as the National Academy of 
Sciences, to assess any new proposed study designs. Given the magnitude 
of the study's scope, cost, and potential value to the scientific 
research community in particular, PAA and APC believe the agency should 
proceed cautiously before dramatic changes are made to this 
consequential, national study.
National Center for Health Statistics
    Located within the Centers for Disease Control (CDC), the National 
Center for Health Statistics (NCHS) is the Nation's principal health 
statistics agency, providing data on the health of the U.S. population 
and backing essential data collection activities. Most notably, NCHS 
funds and manages the National Vital Statistics System, which contracts 
with the States to collect birth and death certificate information. 
NCHS also funds a number of complex large surveys to help policymakers, 
public health officials, and researchers understand the population's 
health, influences on health, and health outcomes. These surveys 
include the National Health and Nutrition Examination Survey (NHANES), 
National Health Interview Survey (HIS), and National Survey of Family 
Growth. Together, NCHS programs provide credible data necessary to 
answer basic questions about the state of our Nation's health.
    Despite recent steady funding increases, NCHS continues to feel the 
effects of long-term funding shortfalls, compelling the agency to 
undermine, eliminate, or further postpone the collection of vital 
health data. For example, in 2009, sample sizes in HIS and NHANES were 
cut, while other surveys, most notably the National Hospital Discharge 
Survey, were not fielded. In 2009, NCHS proposed purchasing only ``core 
items'' of vital birth and death statistics from the States (starting 
in 2010), effectively eliminating three-fourths of data routinely used 
to monitor maternal and infant health and contributing causes of death. 
Fortunately, Congress and the new administration worked together to 
give NCHS adequate resources and avert implementation of these 
draconian measures. Also, funding from the Prevention and Public Health 
Fund has been an invaluable source of support for the agency in fiscal 
year 2011 and fiscal year 2012, providing much needed funding to, for 
example, add components to NHANES and the National Hospital Ambulatory 
Medical Care Survey to assess physical activity in children and gather 
information on patients with heart disease and stroke, respectively. 
Despite the recent infusion of vital funding, the agency's long-term 
fiscal stability remains unstable.
    PAA and APC, as members of The Friends of NCHS, support the 
administration's request for fiscal year 2013, $162 million, a $23 
million (17 percent) increase over the agency's fiscal year 2012 
appropriation. This funding increase will fully support NCHS's ongoing 
seminal surveys, enable the purchase of vital statistics data for 12 
months within the calendar year, and allow the agency to proceed with 
the goal of fully implementing electronic death records in all States 
for more timely and accurate vital statistics collection.
Bureau of Labor Statistics
    During these turbulent economic times, data produced by the Bureau 
of Labor Statistics (BLS) are particularly relevant and valued. PAA and 
APC members have relied historically on objective, accurate data from 
the BLS. In recent years, our organizations have become increasingly 
concerned about the state of the agency's funding.
    We support the administration's request for BLS, which would 
provide the agency with a total of $647 million in fiscal year 2013. We 
are, however, opposed to the administration's proposed $6 million cut 
to the National Longitudinal Surveys (NLS) program within BLS in fiscal 
year 2013. A cut of this magnitude would force triennial fielding, 
which will create serious respondent recall problems and degrade data 
quality.
    NLS data are essential to understanding how labor market 
experiences evolve over the life-cycle, and how labor market outcomes 
differ for Hispanics and non-Hispanics. The NLS data have been 
collected for 47 years and are essential to understanding how labor 
market experiences and outcomes evolve and differ. The proposed BLS 
budget cuts will be devastating to the social science research 
community and to policymakers who rely on the survey's findings. We are 
pleased that the BLS restored funding to the NLS that it had initially 
proposed to cut in fiscal year 2012. We hope that Congress will reject 
this proposed cut in fiscal year 2013.
Summary of fiscal year 2013 Recommendations
    In sum, the PAA and APC asks the Subcommittee to consider our 
requests for fiscal year 2013:
  --provide the NIH with $32 billion;
  --provide the NIA with $1.4 billion;
  --provide the NICHD with $1.37 billion;
  --support the administration's request for the NCHS, $162 million; 
        and
  --reject the administration's proposed $6 million cut to the National 
        Longitudinal Studies program at the Bureau of Labor Statistics.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the population sciences.
                                 ______
                                 
  Prepared Statement of the Physician Assistant Education Association
    On behalf of its membership, 164 accredited physician assistant 
(PA) education programs in the United States, the Physician Assistant 
Education Association (PAEA) is pleased to submit these comments on the 
fiscal year 2013 appropriations for PA education and other health 
professionals programs that are authorized through Title VII and VIII 
of the Public Health Service Act and administered through the Health 
Resources and Services Administration (HRSA).
    PAEA is a member of the Health Professions and Nursing Education 
Coalition (HPNEC) and we support the HPNEC recommendation for funding 
of at least $520 million in fiscal year 2013 for the health professions 
education programs authorized under Title VII and VIII. HPNEC is an 
informal alliance of more than 60 national organizations representing 
schools, programs, health professionals and students dedicated to 
ensuring that the healthcare workforce is trained to meet the needs of 
the country's growing, aging and increasingly diverse population.
The Need for Increased Federal Funding for Physician Assistants
    PAs are licensed healthcare professionals who practice medicine as 
members of a team in concert with a supervising physician. PAs are 
medical professionals trained at the graduate level who have the 
advanced training to autonomously diagnose, treat, and prescribe 
medication for patients in a cost-effective manner. PAs typically 
complete their education and training within 27 months, and can enter 
the workforce much more quickly than other post-graduate health 
professions. PAs can only help meet the challenges facing America's 
healthcare system if appropriate resources are available to meet the 
demand for PA education. Title VII funding is the sole source of 
Federal dollars available for PA education.
    The way that PAs are trained in the United States--the caliber of 
the institutions and the expertise of the educators--is the gold-
standard throughout the world. However, clinical site availability is 
one of the profession's critical unmet needs, as schools are struggling 
to train the growing classes of PAs. In order to support the growth of 
the profession and enable PAs to enter the workforce, additional 
Federal funding is needed to build infrastructure and improve the 
quality of clinical sites used to train PAs. Incentives for appropriate 
locations to offer their space can make a significant difference in 
helping PAs complete their education in a timely manner and begin 
treating patients. Similarly, a lack of preceptors is impeding the PA 
educational system's ability to train adequate numbers of PAs. Choosing 
a teaching career must be a practical and financially desirable option 
for practicing and returning PAs in order for the profession to grow 
and meet the demand for care. Financial incentives can help create such 
an environment, ensuring the United States can increase the supply of 
primary care clinicians and provide comprehensive clinical experiences 
for students.
Physician Assistant Practice
    The PA practice model is, by design, a team-based approach to 
patient care and fits well into the patient-centered, medical home and 
accountable care organization models expected to transform our reformed 
healthcare system. The profession is projected to continue to grow as a 
result of the projected shortage of physicians, the demand for services 
from an aging population, and the continuously strong PA applicant 
pool.
    The base of applicants for PA programs has grown by more than 10 
percent each year since 2000, and the Bureau of Labor Statistics 
projects a 39 percent increase in the number of PA jobs between 2008 
and 2018. With its relatively short initial training time and the 
flexibility of generalist-training, the PA profession is well-
positioned to help fill projected shortages of available healthcare 
professionals.
    The need for generalist medical training, workforce diversity and 
health providers willing to practice in underserved areas are key 
priorities identified by HRSA. Studies have found that health 
professionals from underserved areas are three to five times more 
likely to return to underserved areas to provide care. To provide the 
highest quality care, it is increasingly important that the health 
workforce better represent America's changing demographics, as well as 
addresses issues of disparities in healthcare. PA programs have been 
successful in attracting students from underrepresented minority groups 
and disadvantaged backgrounds. Title VII grants are also weighted 
toward programs with a high success rate of placing PAs in underserved 
communities and are helping the profession make even greater strides 
toward these goals.
Title VII Funding
    Title VII funding is the only potential source of Federal funding 
for PA programs. These Federal dollars play a crucial role in 
developing and supporting PA education programs, and are helping to 
facilitate the growth of a profession that meets many of the 21st 
century health system demands for improvements in quality, access and 
cost of care.
    Title VII funding fills a specific need for both curriculum and 
faculty development. These grants enhance primary care clinical 
training and education, assist PA programs with recruiting applicants 
from minority and disadvantaged backgrounds, and fund innovative 
programs that focus on educating a culturally competent workforce. 
Title VII funding also increases the likelihood that PA students will 
practice in medically underserved communities with health professional 
shortages.
    PA programs have already used Title VII funds to creatively expand 
care to underserved areas and populations, as well as develop a diverse 
PA workforce.
  --A Texas program has used its PA training grant to support a distant 
        site in an underserved area. This grant provides assistance to 
        the program to recruit, educate and train PA students in the 
        largely Hispanic South Texas and mid-Texas/Mexico border areas 
        and supports new faculty development.
  --A Utah program has used its PA training grant to promote 
        interprofessional teams--an area of strong emphasis in the 
        Patient Protection and Affordable Care Act. The grant allowed 
        the program to optimize its relationships with three service-
        learning partners, develop new partnerships with service-
        learning sites, and create a model geriatric curriculum that 
        includes didactic and clinical education.
  --An Alabama program used its PA training grant to update and expand 
        current health behavior educational curriculum and HIV/STD 
        training. It was also able to include PA students from other 
        programs who were interested in rural, primary care medicine 
        for a 4-week comprehensive educational program in HIV diagnosis 
        and management.
  --A South Carolina program has developed a model program that offers 
        a 2-year academic fellowship for recent PA graduates with at 
        least 1 year of clinical experience. To further enhance an 
        evidence-based approach to education and practice, two specific 
        practice projects were embedded in the fellowship experience. 
        Fellows direct and evaluate PA students' involvement in the 
        ``Towards No Tobacco'' curriculum, aimed at fifth graders, and 
        the PDA Patient Data experience, aimed at assessing healthcare 
        services.
    Title VII support for PA programs has been strengthened with the 
enactment of the Patient Protection and Affordable Health Care Act 
(Public Law 111-148), which provides a 15 percent allocation in the 
appropriations process for PA programs at the primary care medicine 
line. This funding will enhance capabilities to train a growing PA 
workforce and is likely to increase the pool of faculty positions as PA 
programs will now be eligible for faculty loan repayment. As is true of 
many post-graduate programs, loan burdens are barriers to physician 
assistant entry into academia.
    In fiscal year 2013, a new priority for PA training grants will 
focus on training 1,400 additional physician assistants over a 5 year 
period, by providing funding to ``develop the infrastructure necessary 
to expand and improve teaching quality at clinical sites for Physician 
Assistant students.'' (Department of Health and Human Services, Fiscal 
Year 2013, HRSA Justification for Estimates for Appropriations 
Committee, Executive Summary). The future of the profession and its 
ability to meet patients' demands for care rests in large part on the 
ability to train the next generation of PAs. Title VII provides the 
support needed to ensure both the quantity and quality of teaching 
staff in the United States will continue to reflect the highest 
educational standards in the world.
The History of Physician Assistant Education
    The first physician assistant class of 1965 was comprised of Navy 
corpsmen who served during the Vietnam war and applied their direct 
medical experience in the military to practicing primary care. Since 
those first three PAs graduated from Duke University, the profession 
has grown dramatically. Today, there are 164 accredited PA programs 
which graduate more than 6,000 new PAs each year, and more than 60 new 
programs are in the pipeline.
    The growth rate in the applicant pool is remarkable. Tracked via 
the Centralized Application Service (CASPA), in March 2006 there were a 
total of 7,608 applicants to PA education programs; as of March 2011, 
there were 16,112--a 112 percent increase over the past 5 years.
    One reason for the appeal of the PA profession is that the average 
PA education program is 27 months in length, significantly shorter than 
other post-graduate programs. Typically, 1 year is devoted to classroom 
study and approximately 15 months are devoted to clinical rotations. 
The curriculum generally includes 400 hours of basic sciences and 
nearly 600 hours of clinical medicine. Within the healthcare workforce, 
only physicians receive more clinical education than PAs.
    Federal support has been critical to the development of the 
profession at several key points, including the creation of the PAEA 
Faculty Development Institute, which provides training for new and 
experienced faculty to improve teaching quality and encourage sharing 
of curricular resources. To allow the profession to meet the obvious 
and growing demands of students and their future patients, continued 
funding is critical.
Honoring the Roots of the PA Profession
    As the first class of PAs demonstrated, veterans with medical 
backgrounds are excellent potential candidates for PA programs due to 
their leadership and professional skills. Special incentives for both 
PA schools and students with a military background can help expedite 
the process of matriculation into the educational system. PAEA and 
other interested stakeholders are currently working with HRSA to 
identify best practices in ``bridge programs'' and career counseling 
services provided to service members and veterans interested in a 
health career. Additionally, there is a new priority included in the 
fiscal year 2013 PA training grant to identify best practices for:
  --Expedited curricula;
  --Enhanced veteran recruiting;
  --Enhanced retention; and
  --Enhanced mentoring services for veterans.
    This program ensures that our Nation's service members with medical 
skill and specialties are able to transition into a career in the 
civilian workforce when they leave the military. They, too, can 
contribute to a solution to the primary healthcare workforce shortage 
if given the right opportunities.
Summary of fiscal year 2013 Funding Recommendations
    The Physician Assistant Education Association requests that the 
Appropriations Committee support funding for Title VII and VIII health 
professions programs at a minimum of $520 million for fiscal year 2013. 
This level of funding is needed to adequately support the Nation's 
demand for primary care practitioners, particularly those who will 
practice in medically underserved areas and serve vulnerable 
populations. The Physician Assistant Education Association also 
respectfully asks for support for the $12 million allocation in the 
President's fiscal year 2013 budget request for PA education programs.
    We thank the members of the subcommittee for their continued 
support of the health professions and look forward to working with you 
to solve the Nation's health workforce shortage and meet the need for 
high quality, affordable healthcare accessible to all. We appreciate 
the opportunity to present the Physician Assistant Education 
Association's fiscal year 2013 funding recommendation.
                                 ______
                                 
            Prepared Statement of Prevent Blindness America
Funding Request Overview
    Prevent Blindness America appreciates the opportunity to submit 
written testimony for the record regarding fiscal year 2013 funding for 
vision and eye health related programs. As the Nation's leading 
nonprofit, voluntary health organization dedicated to preventing 
blindness and preserving sight, Prevent Blindness America maintains a 
long-standing commitment to working with policymakers at all levels of 
government, organizations and individuals in the eye care and vision 
loss community, and other interested stakeholders to develop, advance, 
and implement policies and programs that prevent blindness and preserve 
sight. Prevent Blindness America respectfully requests that the 
Subcommittee provide the following allocations in fiscal year 2013 to 
help promote eye health and prevent eye disease and vision loss:
  --Provide at least $1 million to maintain vision and eye health 
        efforts at the Centers for Disease Control and Prevention 
        (CDC).
  --Support the Maternal and Child Health Bureau's (MCHB) National 
        Center for Children's Vision and Eye Health (Center).
  --Provide at least $645 million in fiscal year 2013 to sustain 
        programs under the Maternal and Child Health (MCH) Block Grant.
  --Provide $730 million to the National Eye Institute (NEI) in order 
        to bolster efforts to identify the underlying causes of eye 
        disease and vision loss, improve early detection and diagnosis, 
        and advance prevention and treatment efforts.
Introduction and Overview
    Vision-related conditions affect people across the lifespan from 
childhood through elder years. Good vision is an integral component to 
health and well-being, affects virtually all activities of daily 
living, and impacts individuals physically, emotionally, socially, and 
financially. Loss of vision can have a devastating impact on 
individuals and their families. An estimated 80 million Americans have 
a potentially blinding eye disease, 3 million have low vision, more 
than 1 million are legally blind, and 200,000 are more severely 
visually blind. Vision impairment in children is a common condition 
that affects 5 to 10 percent of preschool age children. Vision 
disorders, including amblyopia (``lazy eye''), strabismus (``cross 
eye''), and refractive error are the leading cause of impaired health 
in childhood.
    Alarmingly, while half of all blindness can be prevented through 
education, early detection, and treatment, the NEI reports that ``the 
number of Americans with age-related eye disease and the vision 
impairment that results is expected to double within the next three 
decades.'' \1\ Among Americans age 40 and older, the four most common 
eye diseases causing vision impairment and blindness are age-related 
macular degeneration (AMD), cataract, diabetic retinopathy, and 
glaucoma.\2\ Refractive errors are the most frequent vision problem in 
the United States--an estimated 150 million Americans use corrective 
eyewear to compensate for their refractive error.\2\ Uncorrected or 
under-corrected refractive error can result in significant vision 
impairment.\2\
---------------------------------------------------------------------------
    \1\ ``Vision Problems in the U.S.: Prevalence of Adult Vision 
Impairment and Age-Related Eye Disease in America,'' Prevent Blindness 
America and the National Eye Institute, 2008.
    \2\ Ibid.
---------------------------------------------------------------------------
    To curtail the increasing incidence of vision loss in America, 
Prevent Blindness America advocates sustained and meaningful Federal 
funding for programs that help promote eye health and prevent eye 
disease, vision loss, and blindness; needed services and increased 
access to vision screening; and vision and eye disease research. We 
thank the Subcommittee for its consideration of our specific fiscal 
year 2013 funding requests, which are detailed below.
Vision and Eye Health at the CDC: Helping to Save Sight and Save Money
    The CDC serves a critical national role in promoting vision and eye 
health. Since 2003, the CDC and Prevent Blindness America have 
collaborated with other partners to create a more effective public 
health approach to vision loss prevention and eye health promotion. The 
CDC works to:
  --Promote eye health and prevent vision loss.
  --Improve the health and lives of people living with vision loss by 
        preventing complications, disabilities, and burden.
  --Reduce vision and eye health related disparities.
  --Integrate vision health with other public health strategies.
    Prevent Blindness America requests at least $1 million in fiscal 
year 2013 to maintain vision and eye health efforts of the CDC. 
Adequate fiscal year 2013 resources will allow the CDC to continue to 
address the growing public health threat of preventable chronic eye 
disease and vision loss among at-risk and underserved populations 
through increased coordination and integration of vision and eye health 
at State and local health departments, and through community health 
centers and rural services.
Integrating Vision Health into Broader Disease Prevention and Health 
        Promotion Efforts
    A cornerstone activity of the vision and eye health work at the CDC 
is its support and encouragement of efforts to better integrate State-
level initiatives to address vision and eye disease by approaching 
vision health through other public health prevention, treatment, and 
research efforts. Vision loss is associated with a myriad of other 
serious, chronic, life threatening, and disabling conditions, including 
diabetes, depression, unintentional injuries, and behavioral risk 
factors such as tobacco use. Leveraging scarce resources and 
recognizing the numerous connections between eye health and other 
diseases, the CDC works to integrate and connect vision health 
initiatives to other State, local, and community health programs.
    For example, State-based programs to prevent and reduce diabetes 
should include efforts to educate patients and healthcare providers on 
the relationship between diabetes and certain eye problems, such as 
diabetic retinopathy, glaucoma, and cataracts. Similarly, State 
initiatives to reduce the incidence of falls among older Americans 
should include vision screening, as studies have found that one of the 
leading causes of falls and injuries among older adults is unaddressed 
vision problems.
    To advance State-based vision health integration, funding to the 
CDC has supported two joint efforts, one in New York and the other in 
Texas, focused on integrating vision-related services at the State and 
local level. Working together, the State health departments of these 
States and the State-based affiliates of Prevent Blindness America 
promoted vision loss prevention strategies among community groups and 
vision partners, and established State vision preservation plans. The 
goal of these integration efforts was to ensure that vision loss and 
eye health promotion are incorporated into all relevant local, State, 
and Federal public health interventions, prevention and treatment 
programs, and other initiatives that impact causes of--and factors that 
contribute to--vision problems and blindness. By integrating efforts 
and coordinating approaches in this manner, Federal and State resources 
were used more efficiently, eye health problems and vision loss were 
reduced, and the overall health and well-being of individuals and 
communities were improved.
Investing in the Vision of Our Nation's Most Valuable Resource--
        Children
    While the risk of eye disease increases after the age of 40, eye 
and vision problems in children are of equal concern. If left 
untreated, they can lead to permanent and irreversible visual loss and/
or cause problems socially, academically, and developmentally. Although 
more than 12.1 million school-age children have some form of a vision 
problem, only one-third of all children receive eye care services 
before the age of six.\3\
---------------------------------------------------------------------------
    \3\ ``Our Vision for Children's Vision: A National Call to Action 
for the Advancement of Children's Vision and Eye Health, Prevent 
Blindness America,'' Prevent Blindness America, 2008.
---------------------------------------------------------------------------
    In 2009, the MCHB established the National Center for Children's 
Vision and Eye Health (the Center), a national vision health 
collaborative effort aimed at developing the public health 
infrastructure necessary to promote eye health and ensure access to a 
continuum of eye care for young children.
    The Center has established a National Expert Panel comprised of 
experts in ophthalmology, optometry, pediatrics, public health, 
childcare, academia, family advocacy, and others who have a stake in 
the field of children's vision. Members of the National Expert Panel 
provide recommendations toward national guidelines for quality 
improvement strategies, vision screening and developing a continuum of 
children's vision and eye health. In addition, they serve as advisors 
to the Center as it pursues its goals and objectives.
    With this support the Center, will continue to:
  --Provide national leadership in dissemination of best practices, 
        infrastructure development, professional education, and 
        national vision screening guidelines that ensure a continuum of 
        vision and eye healthcare for children;
  --Advance State-based performance improvement systems, screening 
        guidelines, and a mechanism for uniform data collection and 
        reporting; and
  --Provide technical assistance to States in the implementation of 
        strategies for vision screening, establishing quality 
        improvement measures, and improving mechanisms for 
        surveillance.
    Prevent Blindness America also requests at least $645 million in 
fiscal year 2013 to sustain programs under the MCH Block Grant. The MCH 
Block Grant enables States to expand critical healthcare services to 
millions of pregnant women, infants and children, including those with 
special healthcare needs. In addition to direct services, the MCH Block 
Grant supports vital programs, preventive and systems building services 
needed to promote optimal health.
Advance and Expand Vision Research Opportunities
    Prevent Blindness America calls upon the Subcommittee to provide 
$730 million for the NEI to bolster its efforts to identify the 
underlying causes of eye disease and vision loss, improve early 
detection and diagnosis of eye disease and vision loss, and advance 
prevention and treatment efforts. Research is critical to ensure that 
new treatments and interventions are developed to help reduce and 
eliminate vision problems and potentially blinding eye diseases facing 
consumers across the country.
    Through additional support, the NEI will be able to continue to 
grow its efforts to:
  --Expand capacity for research, as demonstrated by the significant 
        number of high-quality grant applications submitted in response 
        to the American Recovery and Reinvestment Act opportunities.
  --Address unmet need, especially for programs of special promise that 
        could reap substantial downstream benefits.
  --Fund research to reduce healthcare costs, increase productivity, 
        and ensure the continued global competitiveness of the United 
        States.
    By providing additional funding for the NEI at the NIH, essential 
efforts to identify the underlying causes of eye disease and vision 
loss, improve early detection and diagnosis of eye disease and vision 
loss, and advance prevention, treatment efforts and health information 
dissemination will be bolstered.
Conclusion
    On behalf of Prevent Blindness America, our Board of Directors, and 
the millions of people at risk for vision loss and eye disease, we 
thank you for the opportunity to submit written testimony regarding 
fiscal year 2013 funding for the CDC's vision and eye health efforts, 
the MCHB's National Center for Children's Vision and Eye Health, and 
the NEI. Please know that Prevent Blindness America stands ready to 
work with the Subcommittee and other Members of Congress to advance 
policies that will prevent blindness and preserve sight. Please feel 
free to contact us at any time; we are happy to be a resource to 
Subcommittee members and your staff. We very much appreciate the 
Subcommittee's attention to--and consideration of--our requests.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association
PHA fiscal year 2013 LHHS appropriations recommendations
    $7 billion for HRSA, an increase of $500 million over fiscal year 
2012, including proportional increases for the Healthcare Systems 
Bureau and Organ Donation and Transplantation activities to promote PH 
education amongst healthcare providers and improve health outcomes for 
PH transplant patients.
    $7.8 billion for CDC, an increase of $1.7 billion over fiscal year 
2012, including a proportional increase for the National Center for 
Chronic Disease Prevention and Health Promotion (NCCDPHP) to facilitate 
critical PH education and awareness activities.
    $32 billion for NIH, an increase of $1.3 billion over fiscal year 
2012, including proportional increases for the National Heart, Lung, 
and Blood Institute (NHLBI); National Center for Advancing 
Translational Sciences (NCATS); Office of the Director (OD); and other 
NIH Institutes and Centers to facilitate adequate growth in the 
pulmonary hypertension (PH) research portfolio.
    Chairman Harkin, Ranking Member Shelby, and distinguished members 
of the Subcommittee, thank you for the opportunity to submit testimony 
on behalf of PHA. It is my honor to represent the hundreds of thousands 
of Americans who are affected by this devastating disease.
    I'd like to open with a personal story. Several years ago, I had 
the opportunity to visit the Pulmonary Hypertension Association of 
China and the Taiwan Foundation for Rare Disorders. On my return 
flight, I began to speak with the passenger in the seat next to mine, a 
resident of Taipei. He told me that he had once lived in Bethesda. I 
asked him what brought him back to Taiwan. He said, ``I'm a research 
scientist, an oncologist. I used to work at NIH. The research money 
dried up in the United States. It's flowing in Asia.'' To me, those 
four short sentences sum up the dangers of allowing a carefully built 
infrastructure to decline. Loss of leadership in science today will 
mean loss of quality healthcare and business markets tomorrow.
    PHA has served the PH community for over 20 years. In 1990, three 
PH patients found each other with the help of the National Organization 
for Rare Disorders and shortly thereafter founded PHA. At that time, 
the condition was largely unknown amongst the general public and within 
the medical community; there were fewer than 200 diagnosed cases of the 
disease. Since then, PHA has grown into a nationwide network of over 
20,000 members and supporters, including over 230 support groups across 
the country.
    PHA is dedicated to improving treatment options and finding cures 
for PH, and supporting affected individuals through coordinated 
research, education, and advocacy activities. Since 1996, nine 
medications for the treatment of PH have been approved by the Food and 
Drug Administration (FDA), eight of those since 2001. These innovative 
treatment options represent important steps forward in the medical 
understanding of PH and the care of PH patients, but more needs to be 
done to end the suffering caused by this disease.
    PH is a debilitating and often fatal condition where the blood 
pressure in the lungs rises to dangerously high levels. In PH patients, 
the walls of the arteries that take blood from the right side of the 
heart to the lungs thicken and constrict. As a result, the right side 
of the heart has to pump harder to move blood into the lungs, causing 
it to enlarge and ultimately fail. Symptoms of PH include shortness of 
breath, fatigue, chest pain, dizziness and fainting.
    I would like to extend my sincere gratitude to the Subcommittee for 
your historic support of PH programs at HRSA, CDC, and NIH. Thanks to 
your leadership, the PH research portfolio at NIH has advanced and 
improved our understanding of the disease, and awareness of PH by the 
general public has led to earlier diagnosis and improved health 
outcomes for patients. Please continue to support PH activities moving 
forward.
Health Resources and Services Administration
    PHA joins the other voluntary patient and medical organizations 
comprising the public health community in requesting that you support 
HRSA by providing the agency with an appropriation of $7 billion in 
fiscal year 2013. Such a funding increase would allow the agency to 
implement a PH education and awareness campaign focused on healthcare 
providers, and take on activities that would improve health outcomes 
for PH patients who rely on heart or lung transplantation.
    PHA has had a very successful partnership with HRSA's ``Gift of 
Life'' Donation Program in recent years. Collectively, we have worked 
to increase organ donation rates and raise awareness about the need for 
PH patients to ``early list'' on transplantation waiting lists. For 
fiscal year 2013, PHA recommends an appropriation of $26 million for 
this important program. Furthermore, we ask for your support in 
encouraging HRSA, specifically the United Network for Organ Sharing, to 
engage in active and meaningful dialogue with medical experts at the 
REVEAL Registry. Such a dialogue has the potential to improve the 
methodology used to determine lung transplantation eligibility for PH 
patients and to improve survivability and health outcomes following a 
transplantation procedure.
Centers for Disease Control and Prevention
    PHA joins the other voluntary patient and medical organizations 
comprising the public health community in requesting that you support 
CDC by providing the agency with an appropriation of $7.8 billion in 
fiscal year 2013. Such a funding increase would allow CDC to undertake 
critical PH education and awareness activities, which would promote 
early detection and appropriate intervention for PH patients.
    We are grateful to the Subcommittee for providing past support of 
PHA's Pulmonary Hypertension Awareness Campaign. We know for a fact 
that Americans are dying due to a lack of awareness of PH and a lack of 
understanding about the many new treatment options. This unfortunate 
reality is particularly true among minority and underserved populations 
and citizens in rural areas remote from medical centers with PH 
expertise. More needs to be done to educate both the general public and 
healthcare providers if we are to save lives.
    To that end, PHA has utilized the funding provided through the CDC 
to (1) launch a successful media outreach campaign focusing on both 
print and online outlets, (2) expand our support programs for 
previously underserved patient populations, and (3) establish PHA 
Online University, an interactive curriculum-based website for medical 
professionals that targets pulmonary hypertension experts, primary care 
physicians, specialists in pulmonology/cardiology/rheumatology, and 
allied health professionals. The site is continually updated with 
information on early diagnosis and appropriate treatment of pulmonary 
hypertension. It serves as a center point for discussion among PH-
treating medical professionals and offers Continuing Medical Education 
and CEU credits through a series of online classes.
    In fiscal year 2013, we ask the Subcommittee to encourage CDC to 
partner with us once again to collaborate on and support PH education 
and awareness activities. This would make a tremendous difference in 
the fight against this devastating disease.
National Institutes of Health
    PHA joins the other voluntary patient and medical organizations 
comprising the public health community in requesting that you support 
NIH by providing the agency with an appropriation of $32 billion in 
fiscal year 2013. This modest 4 percent funding increase would ensure 
that biomedical research inflation does not result in a loss of 
purchasing power at NIH, critical new initiatives like the Cures 
Acceleration Network (CAN) are adequately supported, and the PH 
research portfolio can continue to progress.
    Less than two decades ago, a diagnosis of PH was essentially a 
death sentence, with only one approved treatment for the disease. 
Thanks to advancements made through the public and private sector, 
patients today are living longer and better lives with a choice of nine 
FDA approved medications. Sustained investment in basic, translational, 
and clinical research can ensure that we capitalize on recent 
advancement and emerging opportunities to speed the discovery of 
improved treatment option and cures.
    Expanding clinical research remains a top priority for patients, 
caregivers, and PH investigators. We are particularly interested in 
establishing a pulmonary hypertension research network. Such a network 
would link leading researchers around the United States, providing them 
with access to a wider pool of shared patient data. In addition, the 
network would provide researchers with the opportunities to collaborate 
on studies and to strengthen the connections between basic and clinical 
science in the field of pulmonary hypertension research. Such a network 
is in the tradition of the NHLBI, which, to its credit and to the 
benefit of the American public, has supported numerous similar networks 
including the Acute Respiratory Distress Syndrome Network and the 
Idiopathic Pulmonary Fibrosis Clinical Research Network. We ask that 
you provide NHLBI with sufficient resources and encouragement to move 
forward with the establishment of a PH network in fiscal year 2013.
    We applaud the recent establishment of the National Center for 
Advancing Translational Sciences (NCATS) at NIH. Housing translational 
research activities at a single Center at NIH will allow these programs 
to achieve new levels of success. Initiatives like CAN are critical to 
overhauling the translational research process and overcoming the 
research ``valley of death'' that currently plagues treatment 
development. In addition, new efforts like taking the lead on drug 
repurposement hold the potential to speed new treatment to patients, 
particularly patients who struggle with rare or neglected diseases. We 
ask that you support NCATS and provide adequate resources for the 
Center in fiscal year 2013.
Social Security Administration
    We would like to thank the Subcommittee for its commitment to 
addressing the longstanding backlog of disability claims at the Social 
Security Administration (SSA). We greatly appreciate this investment as 
a growing number of our patients are applying for disability coverage. 
Recently, SSA convened an Institute of Medicine (IOM) panel to 
recommend revisions to the disability criteria for cardiovascular 
diseases. The IOM worked closely with our medical experts to update the 
disability criteria for our patient population and we were pleased to 
receive their recommendations last year. As we continue to work with 
SSA on this important effort, we encourage Congress to continue to 
support this process moving forward.
    On a related note, we continue to applaud SSA for their leadership 
of the Compassionate Allowances Initiative (CAL), which seeks to speed 
the process of accessing disability benefits for patients diagnosed 
with serious conditions that undoubtedly leave them disabled. Last 
year, CAL concluded its initial roll out by reviewing conditions and 
designating a list of 113 as ``compassionate allowances.'' While we 
understand CAL will continue to designate conditions as compassionate 
allowances moving forward, it is unclear what this process will be now 
that the initial program roll out has concluded. We encourage you to 
work with CAL and stakeholder organizations to lay out the process for 
expansion of this important initiative moving forward.
    Thank you for your time and your consideration of our requests. 
Please contact me if you have any questions or if you require any 
additional information.
                                 ______
                                 
                 Prepared Statement of Research!America
    Thank you, Chairman Harkin and Ranking Member Shelby, for the 
opportunity to submit testimony regarding fiscal year 2013 
appropriations under the jurisdiction of the Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies. Our 
testimony will highlight the strength of public support for increased 
funding of several agencies within the Department of Health and Human 
Services (DHHS): the National Institutes of Health (NIH), the Centers 
for Disease Control and Prevention (CDC), and the Agency for Healthcare 
Research and Quality (AHRQ)--agencies that play an essential role in 
advancing health, fueling business development and job growth, and 
combating spiraling healthcare costs.
    Research!America appreciates the subcommittee's past support for 
research conducted and supported by NIH, CDC and AHRQ. We appreciate 
that NIH received a budget increase in fiscal year 2012. Unfortunately, 
CDC and AHRQ received budget cuts, muting the capacity of these 
agencies to contribute to our Nation's research enterprise and fulfill 
other facets of their crucial missions.
    It is counterproductive to discontinue our Nation's long-standing 
commitment to strong and sustained investments in research for health. 
Studies have shown that health research is a tool with the unique, dual 
capability of growing the economy and reducing Federal healthcare 
costs. And for research to be effective, it must be sustained. Progress 
is an iterative process that requires consistent support. We urge the 
subcommittee to provide funding increases for NIH, CDC and AHRQ, 
preventing further erosion in their capabilities and enabling them to 
continue to contribute meaningfully to the health and economic well-
being of Americans.
    In January 2013, the sequester is scheduled to be triggered, which 
would have a disastrous impact on these agencies, the health of 
Americans and our economy. NIH alone would stand to lose billions in 
funding, most of which is used to support extramural grants at 
institutions in every State. Such dramatic cuts would greatly hamper 
medical innovation, depriving patients of new potential cures and 
treatments. New investigators are already facing unprecedented 
challenges in receiving funding--a situation that would become even 
more dire in the face of a sequester. Virtually stagnant funding for 
health research has already diminished our Nation's global 
competiveness, and the sequester may result in the United States 
forfeiting its role as the world leader in research for health.
    Each agency plays a unique role in promoting the best interests of 
our Nation:
  --Research funded by the National Institutes of Health at 
        universities, academic medical centers, independent research 
        institutions and small businesses across the country lays the 
        foundation for new products development by the private sector. 
        Since much of the research NIH supports is at the non-
        commercial stages of the research pipeline, NIH funding does 
        not compete with, but rather sets the stage for, critical 
        private sector investment and development. Recent studies have 
        demonstrated that the NIH is an immense driver of job creation 
        and economic development in every State. One study found that 
        the NIH supported 432,000 jobs in 2011 alone.\1\ Overall, 
        Federal and private investments are complementary funding 
        streams that lead to business development, job growth and 
        beneficial medical advances. Taxpayer-funded research through 
        the NIH has allowed us to convert HIV/AIDS from a death 
        sentence to a treatable chronic disease; has reduced the costly 
        toll of premature heart disease death and disability and made 
        childhood cancers treatable diagnoses; the secrets of diabetes, 
        Alzheimer's, Parkinson's and host of cancers and many other 
        diseases can and will be unlocked by science--the question is 
        not if but when we will achieve our goals in these arenas. 
        Whether viewed through the lens of advancing the health, well-
        being and longevity of Americans or of gaining control over 
        health spending that is driving up the Federal budget, 
        overcoming these health threats must remain a top priority.
---------------------------------------------------------------------------
    \1\ United for Medical Research. NIH's Role in Sustaining the U.S. 
Economy A 2011 Update. http://www.unitedformedicalresearch.com/wp-
content/uploads/2012/03/NIHs-Role-in-Sustaining-the-US-Economy-
2011.pdf.
---------------------------------------------------------------------------
  --The Centers of Disease Control and Prevention engage in research 
        that stems deadly and costly pandemics, bolsters our Nation's 
        defenses against bioterrorism, and helps prevent the onset of 
        debilitating and expensive diseases. The CDC is the Nation's 
        first responder to lethal viruses and infections, including 
        life-threatening and costly drug-resistant infections that pose 
        a particular threat to children and young adults, as well as 
        investigating tragic phenomena like cancer clusters. Due to 
        cuts in recent years, the CDC is functioning with one hand tied 
        behind its back, even as health challenges like the obesity 
        epidemic, autism and infectious disease outbreaks capture 
        headlines and ruin lives.
  --Research supported by the Agency for Healthcare Research and 
        Quality identifies inefficiencies in healthcare delivery that 
        inflate the cost of public and private insurance. AHRQ-
        supported research also improves the quality of care to help 
        reduce the length and intensity of disability and disease, and 
        helps patients and physicians make informed treatment 
        decisions, improving outcomes and reducing costly ``false 
        starts'' in the provision of healthcare services. Given the 
        enormity of the challenge of inefficiency in healthcare 
        delivery, AHRQ is severely under-powered.
    As national polling commissioned by Research!America in October 
2011 demonstrates, the American public strongly supports robust 
investment in research to improve health. The poll, which surveyed a 
nationwide mix of self-described conservatives (36.8 percent), liberals 
(27.9 percent) and moderates (35.3 percent), found that:
  --86 percent of Americans say that investing in health research is 
        important to job creation and economic recovery;
  --77 percent of Americans think the United States is losing its 
        global competitive edge in science, technology and innovation;
  --50 percent of Americans would be willing to pay higher taxes if 
        they were certain that all of the money would be spent on 
        additional medical research;
  --78 percent of Americans say the United States is not spending 
        enough of our healthcare dollars on research;
  --58 percent of Americans believe we are not making enough progress 
        in medical research in the United States;
  --79 percent of Americans agree with the following statement: ``Even 
        if it brings no immediate benefits, basic scientific research 
        that advances the frontiers of knowledge is necessary and 
        should be supported by the Federal Government'';
  --92 percent of Americans say it is important that our Nation 
        supports research that focuses on how well the healthcare 
        system is functioning;
  --82 percent of Americans say that the Government should play a role 
        in prevention research; and
  --54 percent of Americans say research to improve health is part of 
        the solution to rising healthcare costs.
    These findings bear out some important points:
  --Americans not only value medical research that leads directly to 
        advances in healthcare, they appreciate the importance of basic 
        research that lays the groundwork for these discoveries, as 
        well as health research, which focuses on such goals as 
        improving healthcare delivery and identifying effective 
        prevention strategies.
  --Americans recognize that our Nation's hold on global leadership in 
        the R&D arena is precarious. Our leadership position will 
        evaporate if policymakers shortchange Government investment in 
        the basic research and development that fuels private sector 
        innovation. As it stands, China, Brazil and India are rapidly 
        increasing investments in R&D, while the United States invests 
        less than 3 percent of its GDP.
  --Americans know that our Nation's best weapon against spiraling 
        healthcare costs is research. Ignoring growing healthcare costs 
        is a ticket to disaster. Alzheimer's disease alone is projected 
        to cost the Federal Government trillions of dollars over the 
        next 20 years. Ultimately, we must prevent and cure disease in 
        order to tackle the costs associated with it.
    Beyond research focused on domestic health issues, Americans 
strongly support global health research. Some 78 percent of Americans 
say that it is important that the United States work to improve health 
globally through research and innovation. Compassion and common sense 
converge in the global health R&D arena. Tuberculosis alone represents 
a major humanitarian crisis, taking 1.8 million lives a year and 
leaving countless orphans and widows.
    In addition to the ethical imperative driving global health R&D, 
such research benefits our troops abroad and is an investment in the 
health of Americans. International travel means that it is not a matter 
of if, but when, deadly global threats, such as multiple-drug resistant 
tuberculosis, reach the United States. Every year, 60 million Americans 
travel to other countries and 50 million people from abroad travel to 
the United States.\2\ In an interconnected world, U.S. global health 
research saves lives at home and abroad. And like domestically focused 
research, global health research conducted in the United States drives 
new businesses and new jobs. Further, major global health threats 
individually and collectively represent one of the most significant 
destabilizing forces in the developing world. Diseases like HIV/AIDS, 
tuberculosis and malaria take the lives of tens of millions working-
aged adults in developing countries, leaving poverty and social and 
political instability in their wake. Ultimately, global health is a 
global security, global development and global humanitarian assistance 
issue. Reducing the burden of disease in developing countries is a 
stabilization strategy that can save millions of precious lives and 
hundreds of billions of dollars going forward.
---------------------------------------------------------------------------
    \2\ ITA (International Trade Administration), Office of Travel and 
Tourism Industries, ``Total International Travelers Volume to and from 
the U.S. 1995-2005,'' available online at http://tinet.ita.doc.gov/
outreachpages/inbound.total_intl_travel_volume_1995-2005.html.
---------------------------------------------------------------------------
    There are few Federal investments that confer as many benefits as 
research to improve health--new cures, new businesses, new jobs, new 
answers to spiraling healthcare costs, new tools to promote 
humanitarian and national security goals, and new fuel to drive U.S. 
leadership in a global economy increasingly shaped by the ability of 
competitor countries to continuously innovate.
    Research!America appreciates the difficult task facing the 
subcommittee as it seeks to simultaneously confront the budget deficit, 
strengthen the United States and promote the well-being of Americans. 
We firmly believe that investing in NIH, CDC, and AHRQ is a means of 
advancing all three of these fundamental goals.
    Thank you, Mr. Chairman, Ranking Member Shelby, and members of the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the Research Working Group of the Federal AIDS 
                           Policy Partnership
    Chairman Harkin, Ranking Member Shelby and members of the 
Committee, thank you for the opportunity to provide testimony on the 
National Institutes of Health (NIH) budget overall and for AIDS 
research in fiscal year 2013. Tomorrow's scientific and medical 
breakthroughs depend on your vision, leadership and commitment towards 
robust NIH funding over the next year. To this end, the Research 
Working Group (RWG) urges this Committee to support--at minimum--the 
President's NIH budget request and also recommends a funding target of 
$35 billion in fiscal year 2013 to maintain the U.S.'s position as the 
world leader in medical research and innovation.
    Investments in health research via NIH have paid enormous dividends 
in the health and well-being of people in the United States and around 
the world. NIH funded HIV and AIDS research has supported innovative 
basic science for better drug therapies, evidence-based behavioral and 
biomedical prevention interventions and promising vaccine candidates 
which have saved and improved the lives of millions and holds great 
promise for significantly reducing HIV infection rates and providing 
more effective treatments for those living with HIV/AIDS in the coming 
decade.
    Despite these advances, the number of new HIV/AIDS cases continues 
to rise in various populations in the United States and around the 
world. There are over 1 million HIV-infected people in the United 
States, the highest number in the epidemic's 31-year history; 
additionally over 56,000 Americans become newly infected every year. 
The evolving HIV epidemic in the United States disproportionately 
affects the poor, sexual and racial minorities and the most 
disenfranchised and stigmatized members of our communities. Globally, 
around 34 million people are living with HIV; 3.4 million of them are 
children.\1\ However, with proper funding coupled with the promotion of 
evidence based policies, 2012 will be a time of great scientific 
progress in prevention science, vaccines and finding a cure for HIV as 
well as addressing the co-morbid illnesses that affect patients with 
HIV such as viral hepatitis and tuberculosis. Further, as Washington, 
DC is set to host the International AIDS Conference this summer, the 
gains in science made by NIH funded research programs will reflect our 
preeminence as the world's most powerful research enterprise fighting 
this deadly global epidemic.
---------------------------------------------------------------------------
    \1\ http://www.avert.org/worlstatinfo.htm.
---------------------------------------------------------------------------
    Major advances over the last 2 years in HIV prevention 
technologies--in particular with microbicides, HIV vaccines, 
circumcision, antiretroviral treatment as prevention and pre exposure 
prophylaxis using antiretrovirals (PrEP)--demonstrate that adequately 
resourced NIH programs can transform our lives. Federal support for 
AIDS research has also led to new treatments for other diseases, 
including cancer, heart disease, Alzheimer's, hepatitis, osteoporosis 
and a wide range of autoimmune disorders. Over the years, NIH has 
sponsored the evaluation of a host of HIV vaccine candidates, some of 
which are advancing to efficacy trials. The recent successful iPrEx and 
HPTN 052 trials have shown the potential of antiretroviral drugs to 
prevent HIV infection. Moreover increased funding will support the 
future testing of new microbicides and therapeutics in the pipeline via 
the implementation of a newly restructured, cross-cutting HIV clinical 
trials network which translates NIH-funded scientific innovation into 
critical quality of life gains for those most affected with HIV. The 
ultimate goal of a cure for HIV infection increasingly seems within 
reach based on scientific advances facilitated by NIH funding. Several 
major new NIH-supported projects are underway and they have helped spur 
international efforts to secure additional non-NIH financing and create 
a global strategy for HIV cure-related research.
    Increased funding for NIH in fiscal year 2013 makes good bipartisan 
economic sense, especially in shaky times. Robust funding for NIH 
overall will enable research universities to pursue scientific 
opportunity, advance public health, and create jobs and economic 
growth. In every State across the country, the NIH supports research at 
hospitals, universities, private enterprises and medical schools. This 
includes the creation of jobs that will be essential to future 
discovery. Sustained investment is also essential to train the next 
generation of scientists and prepare them to make tomorrow's HIV 
discoveries. NIH funding puts 350,000 scientists to work at research 
institutions across the country. According to NIH, each of its research 
grants creates or sustains six to eight jobs and NIH supported research 
grants and technology transfers have resulted in the creation of 
thousands of new independent private sector companies. NIH Director 
Francis Collins has stated that for every dollar invested in NIH 
research generates more than $2 for that local community within the 
same year.\2\ Strong, sustained NIH funding is a critical national 
priority that will foster better health and economic revitalization.
---------------------------------------------------------------------------
    \2\ NIH Fiscal Year 2012 Congressional Budget Justification. http:/
/officeofbudget.od.nih.gov/pdfs/FY12/Volume%201%20-%20Overview.pdf.
---------------------------------------------------------------------------
    Let's not jeopardize our future. Since 2003, funding for the NIH 
has failed to keep up with our existing research needs--damaging the 
success rate of approved grants and leaving very little money to fund 
promising new research. The real value of the increases prior to 2003 
has been precipitously reduced because of the relatively higher 
inflation rate for the cost of research and development activities 
undertaken by NIH. According to the Biomedical Research and Development 
Price Index--which calculates how much the NIH budget must change each 
year to maintain purchasing power--between fiscal year 2003 and fiscal 
year 2011, the cost of NIH activities according to the BRDI will have 
increased by 32.8 percent. By comparison, the overall budget of the NIH 
increased by $3.6 billion or 13.4 percent over fiscal year 2003. So in 
real terms, the NIH has already sustained budget decreases of close to 
20 percent over the past 9 years due to inflation alone. As such, any 
further cuts to NIH will have the clear and devastating effects of 
undermining our Nation's leadership in health research and our 
scientists' ability to take advantage of the expanding opportunities to 
advance healthcare at home and around the world. The race to find 
better treatments and a cure for cancer, heart disease, AIDS and other 
diseases, and for controlling global epidemics like AIDS, tuberculosis 
and malaria, all depend on a robust long term investment strategy for 
health research at NIH.
    In conclusion, the RWG calls on Congress to sustain what has been a 
bipartisan Federal commitment toward combating HIV as well as other 
chronic and life threatening illnesses by increasing funding for NIH to 
$35 billion in fiscal year 2013. A meaningful commitment toward 
stemming the epidemic and securing the well being of people with HIV 
cannot be met without prioritizing the research investment at NIH that 
will lead to tomorrow's lifesaving vaccines, treatments and cures. 
Thank you for the opportunity to provide these comments.
                                 ______
                                 
    Prepared Statement of the Ryan White Medical Providers Coalition
Introduction
    I am Dr. Jim Raper, an HIV medical provider and Director of the 
1917 Clinic, a comprehensive HIV clinic funded in part by Part C of the 
Ryan White Program at the University of Alabama at Birmingham. I am 
submitting written testimony on behalf of the Ryan White Medical 
Providers Coalition.
    Thank you for the opportunity to discuss the important HIV/AIDS 
care conducted at Ryan White Part C funded programs nationwide. 
Specifically, the Ryan White Medical Providers Coalition, the HIV 
Medicine Association, the CAEAR Coalition, and the American Academy of 
HIV Medicine estimate that approximately $461 million is needed to 
provide the standard of care for all Part C program patients. (This 
estimate is based on the current cost of care and the number of 
patients that Part C clinics serve.) Because these are exceptionally 
challenging economic times, we request $285.8 million for Ryan White 
Part C programs in fiscal year 2013, the authorized amount that 
Congress legislated for Part C programs in its 2009 reauthorization of 
the Ryan White Program.
    The Ryan White Medical Providers Coalition was formed in 2006 to be 
a voice for medical providers across the Nation who deliver quality 
care to their patients through Part C of the Ryan White program. We 
represent every kind of program, from small and rural to large urban 
sites in every region in the country, and we advocate for a full range 
of primary care services for patients living with HIV.
    Adequate funding for Part C of the Ryan White Program is essential 
to providing both effective and efficient care for individuals living 
with HIV/AIDS, and we thank the Subcommittee for its support of the 
Ryan White Part C Program in fiscal year 2012. And while we also are 
grateful for the $15 million in additional funding that the 
administration invested in Part C programs in honor of World AIDS Day 
2011 and its request to invest additional funding in fiscal year 2013, 
the economic pressures that Part C clinics face in order to serve all 
patients requesting HIV care and treatment remain significant.
HIV Treatment is HIV Prevention: Part C Programs Save Both Lives and 
        Money
    Investing in Part C services improves lives and saves money. Part C 
of the Ryan White Program funds comprehensive HIV care and treatment, 
services that are directly responsible for the dramatic decreases in 
AIDS-related mortality and morbidity over the last decade. Part C 
providers serve over 255,000 patients with HIV/AIDS per year, or over 
half of the individuals in regular care and treatment.
    The Ryan White Program has supported the development of expert HIV 
care and treatment programs that provide medical homes for patients 
with this serious, chronic condition. In 2011, a ground-breaking 
clinical trial (HPTN 052)--named the scientific breakthrough of the 
year by Science magazine--found that HIV treatment not only saves 
patient lives, but also reduces HIV transmission by more than 96 
percent--proving that HIV treatment is also HIV prevention.
    Now is the time to support the comprehensive medical care provided 
by Ryan White Part C clinics to save lives and better address the HIV 
epidemic in the United States. Early and reliable access to HIV care 
and treatment both helps patients with HIV live relatively healthy and 
productive lives and is more cost effective. One study from my Part C 
clinic at the University of Alabama at Birmingham found that patients 
treated at the later stages of HIV disease required 2.6 times more 
healthcare dollars than those receiving earlier treatment meeting 
Federal HIV treatment guidelines.
    Additionally, in the face of the potentially significant expansion 
of healthcare coverage for low income Americans through the Affordable 
Care Act, maintaining the infrastructure and expertise of Ryan White 
Part C programs is particularly important because these centers of 
excellence will help keep patients engaged in essential HIV care and 
treatment while the system around them is transforming.
Patient Loads Are Increasing at an Unsustainable Rate
    Patient loads have been increasing at Part C clinics nationwide. 
This continued steady increase in patients has occurred on account of 
higher diagnosis rates and declining insurance coverage resulting in 
part from the economic downturn. The CDC reports that the number of 
HIV/AIDS cases increased by 15 percent from 2004 to 2007 in 34 
States.\1\
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention. HIV/AIDS 
Surveillance Report, 2007. Vol. 19. U.S. Department of Health and Human 
Services, Centers for Disease Control and Prevention; 2009:5. 
www.cdc.gov/hiv/topics/surveillance/resources/reports/.
---------------------------------------------------------------------------
    Last year in New York, when St. Vincent's Hospital in New York City 
closed, a Part C clinic at St. Luke's-Roosevelt Hospital had to absorb 
almost the entire St. Vincent's HIV/AIDS clinic, approximately 1,000 
patients, over the course of just a few days. Additional clinics have 
closed, such as one in Sonoma County, California, and others having 
longer wait times for new patient appointments (8 weeks long in some 
places). Other programs, such as one Part C clinic in Arizona, are 
deciding whether to close their doors to new patients entirely because 
of an inability to treat additional patients within existing financial 
and HIV workforce resources.
    Our patients struggle in times of plenty, and during this economic 
downturn they have relied on Part C programs more than ever. While 
these programs have been under-funded for years, economic pressures are 
creating a crisis. Clinics are discontinuing primary care and other 
critical medical services, such as laboratory monitoring; suffering 
eviction from their clinic locations; operating only 4 days per week; 
and laying off staff just to get by. Years of nearly flat funding 
combined with large increases in the patient population and the recent 
economic crisis are negatively impacting the ability of Part C 
providers to serve their patients.
    The following graph demonstrates the growing disparity between 
funding for Part C and the increasing patient population. I refer to 
this gap between funding and patients as the ``Triangle of Misery'' 
because it represents the thousands of patients in HIV/AIDS care and 
treatment and the Part C programs nationwide that are struggling to 
serve them with extremely limited resources.
The Triangle of Misery: Part C Caseload Increases Outpace Funding 
        Increases 7 to 1
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Conclusion
    These are challenging economic times, and we recognize the severe 
fiscal constraints Congress faces in allocating limited Federal 
dollars. The significant financial and patient pressures that we face 
in our clinics at home propel us to make the request for $285.8 million 
in fiscal year 2013 funding for Ryan White Part C programs. This 
funding would help to support medical providers nationwide in 
delivering life-saving, effective HIV/AIDS care and treatment to their 
patients.
    Thank you for your time and consideration of our request. If you 
have any questions, please do not hesitate to contact the Ryan White 
Medical Providers Coalition Convener, Jenny Collier, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f050a0101160c000303060a1d050b2f160e070000410c000241">[email&#160;protected]</a>
                                 ______
                                 
           Prepared Statement of the Spina Bifida Association
Background and Overview
    On behalf of the estimated 166,000 individuals and their families 
who are affected by all forms of Spina Bifida--the Nation's most 
common, permanently disabling birth defect--Spina Bifida Association 
(SBA) appreciates the opportunity to submit public written testimony 
for the record regarding fiscal year 2013 funding for the National 
Spina Bifida Program and other related Spina Bifida initiatives. SBA is 
a national patient advocacy organization, working on behalf of people 
with Spina Bifida and their families through education, advocacy, 
research and service. SBA stands ready to work with Members of Congress 
and other stakeholders to ensure our Nation mounts and sustains a 
comprehensive effort to reduce and prevent suffering from Spina Bifida.
    Spina Bifida, a neural tube defect (NTD), occurs when the spinal 
cord fails to close properly within the first few weeks of pregnancy 
and most often before the mother knows that she is pregnant. Over the 
course of the pregnancy--as the fetus grows--the spinal cord is exposed 
to the amniotic fluid, which increasingly becomes toxic. It is believed 
that the exposure of the spinal cord to the toxic amniotic fluid erodes 
the spine and results in Spina Bifida. There are varying forms of Spina 
Bifida occurring from mild--with little or no noticeable disability--to 
severe--with limited movement and function. In addition, within each 
different form of Spina Bifida the effects can vary widely. 
Unfortunately, the most severe form of Spina Bifida occurs in 96 
percent of children born with this birth defect.
    The result of this NTD is that most people with it suffer from a 
host of physical, psychological, and educational challenges--including 
paralysis, developmental delay, numerous surgeries, and living with a 
shunt in their skulls, which seeks to ameliorate their condition by 
helping to relieve cranial pressure associated with spinal fluid that 
does not flow properly. As we have testified previously, the good news 
is that after decades of poor prognoses and short life expectancy, 
children with Spina Bifida are now living into adulthood and 
increasingly into their advanced years. These gains in longevity, 
principally, are due to breakthroughs in research, combined with 
improvements generally in healthcare and treatment. However, with this 
extended life expectancy, our Nation and people with Spina Bifida now 
face new challenges, such as transitioning from pediatric to adult 
healthcare providers, education, job training, independent living, 
healthcare for secondary conditions, and aging concerns, among others. 
Individuals and families affected by Spina Bifida face many 
challenges--physical, emotional, and financial. Fortunately, with the 
creation of the National Spina Bifida Program in 2003, individuals and 
families affected by Spina Bifida now have a national resource that 
provides them with the support, information, and assistance they need 
and deserve.
    As is discussed below, the daily consumption of 400 micrograms of 
folic acid by women of childbearing age, prior to becoming pregnant and 
throughout the first trimester of pregnancy, can help reduce the 
incidence of Spina Bifida, by up to 70 percent. The Centers for Disease 
Control and Prevention (CDC) calculates that there are approximately 
3,000 NTD births each year, of which an estimated 1,500 are Spina 
Bifida, and, as such, with the aging of the Spina Bifida population and 
a steady number of affected births annually, the Nation must take 
additional steps to ensure that all individuals living with this 
complex birth defect can live full, healthy, and productive lives.
Cost of Spina Bifida
    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare programs. Efforts to reduce and 
prevent suffering from Spina Bifida will help to not only save money, 
but will also save--and improve--lives.
Improving Quality-of-Life through the National Spina Bifida Program
    Since 2001, SBA has worked with Members of Congress and staff at 
the CDC to help improve our Nation's efforts to prevent Spina Bifida 
and diminish suffering--and enhance quality-of-life--for those 
currently living with this condition. With appropriate, affordable, and 
high-quality medical, physical, and emotional care, most people born 
with Spina Bifida will likely have a normal or near normal life 
expectancy. The CDC's National Spina Bifida Program works on two 
critical levels--to reduce and prevent Spina Bifida incidence and 
morbidity and to improve quality-of-life for those living with Spina 
Bifida.
    The National Spina Bifida Program established the National Spina 
Bifida Resource Center housed at the SBA, which provides information 
and support to help ensure that individuals, families, and other 
caregivers, such as health professionals, have the most up-to-date 
information about effective interventions for the myriad primary and 
secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergies, obesity, skin breakdown, and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and given the 
skills and information they need to maintain the highest level of 
health and well-being possible. The National Spina Bifida Program's 
secondary prevention activities represent a tangible quality-of-life 
difference to the estimated 166,000 individuals living with all forms 
of Spina Bifida, with the goal being living well with Spina Bifida.
    An important resource to better determine best clinical practices 
and the most cost effective treatments for Spina Bifida is the National 
Spina Bifida Registry, now in its third year. A total of 19 sites 
throughout the Nation are collecting patient data, which supports the 
creation of quality measures and will assist in improving clinical 
research that will truly save lives, while also realizing a significant 
cost savings.
    SBA understands that the Congress and the Nation face unprecedented 
budgetary challenges. However, the progress being made by the National 
Spina Bifida Program must be sustained to ensure that people with Spina 
Bifida--over the course of their lifespan--have the support and access 
to quality care they need and deserve. To that end, SBA respectfully 
urges the Subcommittee to Congress allocate $6.25 million in fiscal 
year 2013 to the program, so it can continue and expand its current 
scope of work; further develop the National Spina Bifida Patient 
Registry; and sustain the National Spina Bifida Resource Center. 
Sustaining funding for the National Spina Bifida Program will help 
ensure that our Nation continues to mount a comprehensive effort to 
prevent and reduce suffering from--and the costs of--Spina Bifida.
Preventing Spina Bifida
    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty-five 
million women of child-bearing age are at-risk of having a child born 
with Spina Bifida. As mentioned above, the daily consumption of 400 
micrograms of folic acid prior to becoming pregnant and throughout the 
first trimester of pregnancy can help reduce the incidence of Spina 
Bifida, by up to 70 percent. There are few public health challenges 
that our Nation can tackle and conquer by nearly three-fourths in such 
a straightforward fashion. However, we must still be concerned with 
addressing the 30 percent of Spina Bifida cases that cannot be 
prevented by folic acid consumption, as well as ensuring that all women 
of childbearing age--particularly those most at-risk for a Spina Bifida 
pregnancy--consume adequate amounts of folic acid prior to becoming 
pregnant.
    Since 1968, the CDC has led the Nation in monitoring birth defects 
and developmental disabilities, linking these health outcomes with 
maternal and/or environmental factors that increase risk, and 
identifying effective means of reducing such risks. The good news is 
that progress has been made in convincing women of the importance of 
folic acid consumption and the need to maintain a diet rich in folic 
acid. This public health success should be celebrated, but still too 
many women of childbearing age consume inadequate daily amounts of 
folic acid prior to becoming pregnant, and too many pregnancies are 
still affected by this devastating birth defect. The Nation's public 
education campaign around folic acid consumption must be enhanced and 
broadened to reach segments of the population that have yet to heed 
this call--such an investment will help ensure that as many cases of 
Spina Bifida can be prevented as possible.
    The goal is to increase awareness of the benefits of folic acid, 
particularly for those at elevated risk of having a baby with neural 
tube defects (those who have Spina Bifida themselves, or those who have 
already conceived a baby with Spina Bifida). With continued funding in 
fiscal year 2013, CDC's folic acid awareness activities could be 
expanded to reach the broader population in need of these public health 
education, health promotion, and disease prevention messages. SBA 
advocates that Congress provide adequate funding to CDC to allow for a 
targeted public health education and awareness focus on at-risk 
populations (e.g., Hispanic-Latino communities) and health 
professionals who can help disseminate information about the importance 
of folic acid consumption among women of childbearing age.
    In addition to a $6.25 million fiscal year 2013 allocation for the 
National Spina Bifida Program, SBA urges the Subcommittee to provide 
$2.8 million for the CDC's national folic acid education and promotion 
efforts to support the prevention of Spina Bifida and other NTD; $22.3 
million to strengthen the CDC's National Birth Defects Prevention 
Network; and $137.2 million to fund the National Center on Birth 
Defects and Developmental Disabilities.
Sustain and Seize Spina Bifida Research Opportunities
    Our Nation has benefited immensely from our past Federal investment 
in biomedical research at the NIH. SBA joins with other in the public 
health and research community in advocating that NIH receive increased 
funding in fiscal year 2013. This funding will support applied and 
basic biomedical, psychosocial, educational, and rehabilitative 
research to improve the understanding of the etiology, prevention, cure 
and treatment of Spina Bifida and its related conditions. In addition, 
SBA respectfully requests that the Subcommittee include the following 
language in the report accompanying the fiscal year 2013 LHHS 
appropriations measure:

    ``The Committee encourages NIDDK, NICHD, and NINDS to study the 
causes and care of the neurogenic bladder in order to improve the 
quality of life of children and adults with Spina Bifida; to support 
research to address issues related to the treatment and management of 
Spina Bifida and associated secondary conditions, such as 
hydrocephalus; and to invest in understanding the myriad co-morbid 
conditions experienced by children with Spina Bifida, including those 
associated with both paralysis and developmental delay.''
Conclusion
    Please know that SBA stands ready to work with the Subcommittee and 
other Members of Congress to advance policies and programs that will 
reduce and prevent suffering from Spina Bifida. Again, we thank you for 
the opportunity to present our views regarding fiscal year 2013 funding 
for programs that will improve the quality-of-life for the estimated 
166,000 Americans and their families living with all forms of Spina 
Bifida.
                                 ______
                                 
            Prepared Statement of the Scleroderma Foundation
    The members of the Scleroderma Foundation (SF) are pleased to 
submit this statement for the record recommending $32 billion in fiscal 
year 2013 for the National Institutes of Health (NIH), and an increase 
for the National Institute of Arthritis and Musculoskeletal and Skin 
Diseases (NIAMS) concurrent with the overall increase to NIH. The 
Scleroderma Foundation also recommends encouraging the Centers for 
Disease Control and Prevention to partner with the scleroderma 
community in promoting increased awareness of scleroderma among the 
general public and healthcare providers.
      statement of cynthia cervantes, huntington park, california
    Mr. Chairman, I am Cynthia Cervantes, and I am 17 years old. I live 
in Southern California and in October 2006 I was diagnosed with 
scleroderma. Scleroderma means ``hard skin'' which is literally what 
scleroderma does and, in my case, also causes my internal organs to 
stiffen and contract. This is called diffuse scleroderma. It is a 
relatively rare disorder effecting only about 300,000 Americans. Just 
this year I was in the hospital for 4 weeks with intense pain, nausea, 
and dizziness. The doctors believe I had an unknown virus but could not 
control my symptoms. It was a very frightening time for my family and 
I.
    About 7 years ago I began to experience sudden episodes of 
weakness, my body would ache and my vision was worsening, some days it 
was so bad I could barely get myself out of bed. I was taken to see a 
doctor after my feet became so swollen that calcium began to ooze out. 
It took the doctors months to figure out exactly what was wrong with 
me, because of how rare scleroderma is.
    There is no known cause for scleroderma, which affects three times 
as many women as men. Generally, women are diagnosed between the ages 
of 25 and 55, but some kids, like me, are affected earlier in life. 
There is no cure for scleroderma, but it is often treated with skin 
softening agents, anti-inflammatory medication, and exposure to heat. 
Sometimes a feeding tube must be used with a scleroderma patient 
because their internal organs contract to a point where they have 
extreme difficulty digesting food.
    The Scleroderma Foundation has been very helpful to me and my 
family. They have provided us with materials to educate my teachers and 
others about my disease. Also, the support groups the foundation helps 
organize are very helpful because they help show me that I can live a 
normal, healthy life, and how to approach those who are curious about 
why I wear gloves, even in hot weather. It really means a lot to me to 
be able to interact with other people in the same situation as me 
because it helps me feel less alone.
    Mr. Chairman, because the causes of scleroderma are currently 
unknown and the disease is so rare, and we have a great deal to learn 
about it in order to be able to effectively treat it. I would like to 
ask you to please increase funding for the National Institute of Health 
so treatments can be found for other people like me who suffer from 
scleroderma. It would also be helpful to start a program at the Centers 
for Disease Control and Prevention to educate the public and physicians 
about scleroderma.
                 overview of the scleroderma foundation
    The Scleroderma Foundation is a nonprofit organization based in 
Danvers, Massachusetts with a three-fold mission: support, education, 
and research. The Foundation provides support for people living with 
scleroderma and their families through programs such as peer 
counseling, doctor referrals, and educational information, along with a 
toll-free telephone helpline for patients.
    The Foundation also provides education about the disease to 
patients, families, the medical community, and the general public 
through a variety of awareness programs at both the local and national 
levels. Over $1 million in peer-reviewed research grants are awarded 
annually to institutes and universities to stimulate progress in the 
search for a cause and cure for scleroderma.
                         who gets scleroderma?
    There are many clues that define the susceptibility to develop 
scleroderma. A genetic basis for the disease has been suggested by the 
fact that it is more common among patients whose family members have 
other autoimmune diseases (such as lupus). In rare cases, scleroderma 
runs in families, although for the vast majority of patients there is 
no other family member affected. Some Native Americans and African 
Americans suffer a more severe form of the disease Caucasians. Women 
between the ages of 25-55 are more likely to develop scleroderma.
                         causes of scleroderma
    The cause of scleroderma is unknown. However, we do understand a 
great deal about the biological processes involved. In localized 
scleroderma, the underlying problem is the overproduction of collagen 
(scar tissue) in the involved areas of skin. In systemic sclerosis, 
there are three processes at work: blood vessel abnormalities, fibrosis 
(which is overproduction of collagen) and immune system dysfunction, or 
autoimmunity.
                                research
    Scleroderma research at the NIH was funded at a level of $25 
million in fiscal year 2012. This is of great concern to scleroderma 
patients and families who view biomedical research as their best hope 
for an enhanced quality of life. It is also of great concern to our 
researchers who have promising ideas they would like to explore if 
resources were available.
                          types of scleroderma
    There are two main forms of scleroderma: systemic (systemic 
sclerosis, SSc) that usually affects the internal organs or internal 
systems of the body as well as the skin, and localized that affects a 
local area of skin either in patches (morphea) or in a line down an arm 
or leg (linear scleroderma), or as a line down the forehead 
(scleroderma en coup de sabre). It is very unusual for localized 
scleroderma to develop into the systemic form.
Systemic Sclerosis (SSc)
    There are two major types of systemic sclerosis or SSc: limited 
cutaneous SSc and diffuse cutaneous SSc. In limited SSc, skin 
thickening only involves the hands and forearms, lower legs and feet. 
In diffuse cutaneous disease, the hands, forearms, the upper arms, 
thighs, or trunk are affected.
    People with the diffuse form of SSc are at risk of developing 
pulmonary fibrosis (scar tissue in the lungs that interferes with 
breathing, also called interstitial lung disease), kidney disease, and 
bowel disease. The risk of extensive gut involvement, with slowing of 
the movement or motility of the stomach and bowel, is higher in those 
with diffuse rather than limited SSc. Symptoms include feeling bloated 
after eating, diarrhea or alternating diarrhea and constipation.
    Pulmonary Hypertension (PH) is high blood pressure in the blood 
vessels of the lungs. It is totally independent of the usual blood 
pressure that is taken in the arm. This tends to develop in patients 
with limited SSc after several years of disease. The most common 
symptom is shortness of breath on exertion. However, several tests need 
to be done to determine if PH is the real culprit. There are now many 
medications to treat PH.
Localized Scleroderma
            Morphea
    Morphea consists of patches of thickened skin that can vary from 
half 1 inch to 6 inches or more in diameter. The patches can be lighter 
or darker than the surrounding skin and thus tend to stand out. 
Morphea, as well as the other forms of localized scleroderma, does not 
affect internal organs.
            Linear scleroderma
    Linear scleroderma consists of a line of thickened skin down an arm 
or leg on one side. The fatty layer under the skin can be lost, so the 
affected limb is thinner than the other one. In growing children, the 
affected arm or leg can be shorter than the other.
                                 ______
                                 
       Prepared Statement of the Society of Gynecologic Oncology
    The Society of Gynecologic Oncology (SGO) thanks the Subcommittee 
for the opportunity to submit comments for the record regarding SGO's 
fiscal year 2013 funding recommendations for the National Institutes of 
Health and the National Cancer Institute. We believe these 
recommendations are critical to ensure that advances can be made to 
help reduce and prevent suffering from gynecologic cancer.
    The SGO is a national medical specialty organization of physicians 
who are trained in the comprehensive management of women with 
malignancies of the reproductive tract. Our purpose is to improve the 
care of women with gynecologic cancer by encouraging research, 
disseminating knowledge which will raise the standards of practice in 
the prevention and treatment of gynecologic malignancies and 
cooperating with other organizations interested in women's healthcare, 
oncology and related fields. The Society's membership, totaling more 
than 1,600, is comprised of gynecologic oncologists, as well as other 
related women's cancer healthcare specialists including medical 
oncologists, radiation oncologists, nurses, social workers and 
pathologists. SGO members provide multidisciplinary cancer treatment 
including surgery, chemotherapy, radiation therapy, and supportive 
care. More information on the SGO can be found at www.sgo.org.
    Each day in the United States, one woman will be diagnosed with a 
gynecologic cancer every 7 minutes. That's over 200 women today and 
close to 80,000 this year. One-third of these women will die 
unnecessarily. If detected early, the vast majority of these cancers 
are curable. The SGO believes that Congress can take action to save the 
lives of thousands of our mothers, sisters, and daughters who die each 
year from gynecologic cancer, starting with this Subcommittee making a 
commitment to increase the funding in fiscal year 2013 for Federal 
research programs focused on education, prevention, screening and 
treatment of gynecologic cancers.
    Now is not the time to cut research funding for these devastating 
diseases. We must do better for the women of our great Nation. 
Therefore, the SGO joins with the broader public health and research 
community urging Congress to provide $32.7 billion for the National 
Institutes of Health (NIH) in fiscal year 2013. This is the minimal 
level of funding that will allow the NIH to maintain current 
initiatives and investments.
    SGO is aware of the fiscal challenges facing the Subcommittee in 
fiscal year 2013; however, more than 10 million cancer survivors can 
attest to the fact that when investments are made in cancer research-
related programs thousands of lives are saved. Therefore, the SGO 
recommends that this Subcommittee provide the NCI with $5.36 billion 
for fiscal year 2013.
Pathways to Progress in Gynecologic Cancer Research
    In 2010, the leadership of the SGO organized a Research Summit on 
the Pathways to Progress in Women's Cancers. The Summit brought 
together gynecologic oncologists, medical oncologists, radiation 
oncologists; basic science researchers, epidemiologists, and educators 
to assess the landscape of gynecologic cancer research and recommend 
strategic goals for the next 10 years.
    The strongest priority emerging from the Research Summit was the 
need to identify a mechanism to maintain infrastructure for clinical 
trials in gynecologic oncology. Two out of three NCI clinical alerts 
(``Addition of Cisplatin to Radiation Therapy in Cervical Cancer'', and 
``Prolonged Survival in Ovarian Cancer with Intraperitoneal 
Chemotherapy'') have been issued as a direct result of the clinical 
trials structure in gynecologic oncology. However, it was recognized 
that the current clinical trials mechanism must adapt to include novel 
agents and new imaging endpoints. The women of America deserve to have 
more breakthroughs advanced by well-designed clinical trials research 
dedicated to gynecologic cancers.
    Prior investment into the infrastructure of tissue banking has 
positioned gynecologic oncology research to both contribute to and 
benefit from national cancer resources, such as The Cancer Genome Atlas 
(TCGA). The Gynecologic Oncology Group (GOG) tissue bank was able to 
provide high quality ovarian cancer specimens as one of the first 
tissues in the TCGA, followed by endometrial cancers. By leveraging the 
TCGA and other resources, sophisticated research questions can begin to 
be addressed. These resources may be deployed to answer questions that 
cross biologic cancer sites, such as the mechanism of cancer cell 
invasion or the molecular markers of cancer initiating cells.
    Scientific innovation has provided the promise of personalized 
cancer therapies. Certainly, novel agents targeting specific tumor 
pathways are one part of personalized medicine. However, that concept 
does not encompass the spectrum of both treatment and survivorship, 
which is the ultimate goal. For instance, surgical intervention in 
endometrial cancer can be curative. But, the side effect of lymphedema 
may significantly affect the quality of a woman's life as well as her 
economic and social productivity. Women with gynecologic malignancies, 
as well as all cancer patients and survivors, deserve personal, 
specialized care to identify the essential interventions required at 
diagnosis and/or recurrence to maximize quantity and quality of life. 
In addition, personalized medicine must utilize multidisciplinary 
interventions to modify the overall trajectory of disease and evaluate 
their economic impact.
    In the past decade, cervical cancer became the first gynecologic 
cancer to be successfully prevented by a vaccine, which will continue 
to be refined and studied in different populations in for modifiers of 
efficacy. Prevention of cancer is also possible in endometrial cancer, 
where epidemiologic data supports the role of obesity in the 
development of endometrial cancer. Certainly education of the public 
about the connection between obesity and endometrial cancer as well as 
study of the cancer preventative effects of obesity reduction 
strategies, such as bariatric surgery are warranted at this time.
    Finally, sustaining a cadre of researchers in gynecologic 
malignancies will require resources targeted for women's cancer. While 
we anticipate that established national funding mechanisms will fund 
our most exciting research, public-private partnerships will become 
increasingly important. Previously, a successful partnership between 
the Gynecologic Cancer Foundation (GCF, now known as the Foundation for 
Women's Cancer) and the NCI provided training in basic science research 
for budding gynecologic oncologists. Creation of a similar cross-
disciplinary gynecologic malignancies training grant would enhance the 
depth and breadth of researchers in women's cancers. For researchers 
already committed to research in women's cancers, private cancer 
advocacy groups and professional societies might be able to partner 
with the NCI to create a Women's Cancer Bridge Program to sustain such 
investigators during a funding shortfall.
    Fifteen years ago, the roadmap defined by the ``New Directions in 
Ovarian Cancer Research'' conference spurred progress in ovarian cancer 
research that has directly affected patient care and saved lives. It is 
our hope and confidence that this new ``Pathways to Progress'' research 
agenda will prompt similar acceleration in research in all gynecologic 
malignancies. The women of America deserve nothing less. To read the 
entire `Pathways to Progress in Women's Cancer,'' A Research Agenda 
Proposed by the Society of Gynecologic Oncology, please visit the SGO's 
website at www.sgo.org.

                            TABLE E-1.--GYNECOLOGIC MALIGNANCIES RESEARCH PRIORITIES
----------------------------------------------------------------------------------------------------------------
                                   Short (0-3 years)       Intermediate (4-6 years)        Long (7-10 years)
----------------------------------------------------------------------------------------------------------------
Low Risk....................  4A1) Maintain               1E1, 1B3, 1B6) Develop new  4F2) Establish
                               infrastructure for          trial endpoints and         collaborative teams of
                               clinical trials in          biomarkers through          investigators to utilize
                               gynecologic oncology.       imaging and circulating     banked specimens for
                              2E4) Prevalence/QOL trial    analytes.                   gynecologic malignancies
                               of lymphedema in EC.                                    research.
                              5A1) Identify the
                               essential interventions
                               all cancer survivors
                               require at diagnosis and/
                               or recurrence to maximize
                               quantity and QOL.
Intermediate Risk...........  3D5) Cervical cancer        2E2) Quality outcomes of    2A3) Outcomes research on
                               health disparities.         first surgery by            bariatric surgery/EC
                              3D4) Cervical cancer         gynecologic oncologist.     risk.
                               genetic and epigenetic
                               susceptibility genes
                               (TCGA).
High Risk...................  2A6) CDC educational        1A1, 1A3, 1A5, 1B2) Define  5G1) Utilize
                               campaign EC and obesity.    the ovarian cancer          multidisciplinary
                              3E1) Progression of CIN3-    initiating stem-like cell.  interventions to modify
                               SCC (biology of invasion). 4G2) Promote legislation     the overall trajectory of
                                                           and regulation at State     disease and evaluate
                                                           and Federal level for       their economic impact.
                                                           insurance cost coverage    6I1) Develop a bridge
                                                           of clinical trials costs.   program to sustain
                                                          6H2) Develop and implement   investigators who have
                                                           a training grant specific   lost extramural funding.
                                                           to Gynecologic Oncology.
----------------------------------------------------------------------------------------------------------------
CDC Centers for Disease Control; CIN3 Cervical Intraepithelial Neoplasia 3; EC Endometrial Cancer; QOL Quality
  of Life; SCC Squamous Cell Carcinoma; TCGA The Cancer Genome Atlas.

    The SGO appreciates the opportunity to submit these comments and 
again urges this Subcommittee to increase Federal funding to $32.7 
billion for the National Institutes of Health (NIH) in fiscal year 2013 
and to provide from that at least $5.36 billion for the NCI for fiscal 
year 2013.
    This will allow for discoveries and research breakthroughs, while 
also investing in research infrastructure and training for the next 
generations of scientists. It will provide the resources needed for the 
implementation of the research agenda for the next decade in 
gynecologic cancers. The SGO thanks you for your leadership and the 
leadership of the Subcommittee on this issue.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
Introduction
    Mr. Chairman and Members of the Subcommittee, my name is Moses 
Chao, PhD. I am a professor of Cell Biology, Physiology and 
Neuroscience, and Psychiatry at the New York University School of 
Medicine, and President of the Society for Neuroscience. My major 
research efforts have been focused on growth factors (also called 
neurotrophins). These proteins are crucial for everything from neuron 
differentiation, growth, and survival during development to learning 
and memory in children and adults. Deficits in neurotrophins are 
involved in neurodegenerative disorders such as Alzheimer's, 
Parkinson's and Huntington's diseases, and Amyotrophic Lateral 
Sclerosis (ALS) as well as limiting recovery after stroke or brain 
injury.
    Founded in 1969, SfN has grown from a membership of 500 to more 
than 42,000, representing researchers working in more than 80 
countries. This rapid growth reflects the tremendous progress made in 
understanding brain cell biology, physiology, and chemistry, and the 
tremendous potential and importance of this field. Today, the field 
sits on the cusp of revolutionary advances, and NIH-funded research has 
played an essential role by enabling advances in brain development, 
imaging, genomics, circuit function, computational neuroscience, neural 
engineering and many other disciplines.
    To continue this important work SfN stands with partners in the 
medical and scientific community to request at least $32 billion for 
NIH in fiscal year 2013. In this testimony, I will highlight how these 
advances have benefited taxpayers, and some of the challenges that need 
to be addressed to prevent lapsing further behind other nations 
throughout the world both scientifically and economically.
What is the Society for Neuroscience?
    SfN is a nonprofit membership organization of basic scientists and 
physicians who study the brain and nervous system. The SfN mission is 
to advance the understanding of the brain and the nervous system by 
bringing together scientists of diverse backgrounds, by facilitating 
the integration of research directed at all levels of biological 
organization, and by encouraging translational research and the 
application of new scientific knowledge to develop improved disease 
treatments and cures; provide professional development activities, 
information, and educational resources for neuroscientists at all 
stages of their careers, including undergraduates, graduates, and 
postdoctoral fellows, and increase participation of scientists from a 
diversity of cultural and ethnic backgrounds; promote public 
information and general education about the nature of scientific 
discovery and the results and implications of the latest neuroscience 
research, and support active and continuing discussions on ethical 
issues relating to the conduct and outcomes of neuroscience research; 
and inform legislators and other policymakers about new scientific 
knowledge and recent developments in neuroscience research and their 
implications for public policy, societal benefit, and continued 
scientific progress.
What is Neuroscience?
    Neuroscience is the study of the nervous system. It advances the 
understanding of human function on every level: movement, thought, 
emotion, behavior, and much more. Neuroscientists use tools across 
disciplines--from biology and computer science to physics and 
chemistry--to examine molecules, nerve cells, networks, brain system, 
and behavior. Through research, neuroscientists work to understand 
normal functions of the brain and determine how the nervous system 
develops, matures, and maintains itself through life. This research is 
the foundation for preventing, treating or curing more than 1,000 
neurological and psychiatric disorders that result in more 
hospitalizations in the United States than any other disease group, 
including heart disease and cancer. In 2007, the World Health 
Organization estimated that neurological disorders affect up to 1 
billion people worldwide. In fact, neurological diseases make up 11 
percent of the world's disease burden, not including mental health and 
addiction disorders.
    Neuroscience includes basic, clinical and translational research. 
Basic science unlocks the mysteries of the human body by exploring the 
structure and function of molecules, genes, cells, systems, and complex 
behaviors, and basic science funding at NIH continues to be a 
springboard for discoveries that spur medical progress for future 
generations.
    The following are just three of many emerging stories of important 
progress in neuroscience research, and these are based in large part on 
strong historic investment in NIH and other research agencies:
    Neurotrophic Factors.--Maintaining brain health throughout life is 
an important public health goal. Extensive research has demonstrated 
that cognitive function can be enhanced with increased levels of Brain-
Derived Neurotrophic Factor (BDNF) and other growth factors. These 
proteins are released in the brain with exercise, neuronal activity and 
behavioral stimulation, resulting in increased resistance to brain 
injury, the birth of new neurons and improved learning and mental 
performance. BDNF increases and strengthens the number of connections 
in the brain and promotes plasticity, by generating positive signals in 
neurons. Depression and anxiety are also influenced by neurotrophic 
factors. Future research will define new ways to use the knowledge from 
neurotrophic factors to protect the nervous system from damage and 
maintain brain function and plasticity during aging.
    Epigenetics Research.--Is it ``nature'' or ``nurture'' that 
influences behavior and health outcomes? Researchers now know these 
factors are not independent: experience and environment (``nurture'') 
modify genes (``nature'')--a phenomenon known as epigenetics. Some of 
these modifications can be passed to the next generation, suggesting it 
may be possible for our life experiences to affect our children and 
grandchildren. Recent research finds epigenetics affects normal brain 
processes--such as development or memory--and abnormal brain processes 
like depression and disease. Emerging studies in people suggest 
epigenetics may affect human behavior and be a factor in neurological 
and psychiatric disease. One example is Rett syndrome, a genetic 
disorder that almost exclusively affects young girls and currently has 
no cure, as well as schizophrenia, autism, and Alzheimer's disease. 
Also, unlike most genetic mutations, epigenetic marks can be reversed. 
In fact, the U.S. Food and Drug Administration have approved several 
drugs that work to improve health outcomes by modifying these marks. 
Many of these drugs were originally identified by cancer researchers, 
and brain scientists are now working to develop safer, more effective 
drugs to improve cognitive function and behavior in people--
highlighting the importance of collaboration across scientific 
institutes and disciplines and the powerful potential to apply basic 
and applied research well beyond its original intent.
    Fear and Post-Traumatic Stress Disorder.--In a given year, about 
3.5 percent of Americans suffer from post-traumatic stress disorder 
(PTSD), a punishing disorder marked by intense fear, anxiety, and 
flashbacks that follow a traumatic experience. For U.S. military 
personnel returning from Iraq and Afghanistan, the prevalence of PTSD 
may be as high as one in five. Until now, there have been few treatment 
options for PTSD. However, new basic science and clinical research on 
the biological basis of fear suggests promising new therapeutic 
avenues. Rat studies determined that those with lesions in a brain 
region called the amygdala failed to associate a neutral stimulus, like 
a tone, with a fearful event, like a mild shock. Furthermore, people 
who had surgery to remove the portion of the temporal lobe that 
contains the amygdala, a treatment for some forms of epilepsy, had 
difficulty learning to associate a flash of light with an unpleasant 
noise. These findings suggest that fear is a special type of learning 
and memory.
    Rewriting fearful memories or forgetting them altogether might 
therefore help conquer fears. But as researchers learn how fear 
memories are encoded in the brain, and as animal research helps to 
identify new treatments, there may be new therapeutic options. One new 
treatment is the antibiotic D-cycloserine. This drug activates 
receptors in the amygdala that are important in extinction. 
Additionally, drugs called beta blockers are used to treat people with 
high blood pressure--they stabilize the body's response to a stressor, 
preventing the fight-or-flight response. A recent human study showed 
that, when given during recollection of a frightening memory, the beta 
blocker propranolol reduced fear but did not affect knowledge of an 
event. Researchers are currently evaluating propranolol's ability to 
prevent PTSD in trauma patients. These promising results of repurposing 
existing drugs would not have been possible without basic scientific 
research, funded largely by the NIH, National Science Foundation, and 
Department of Defense.
Economic Impact
    These and thousands of other studies are advancing our 
understanding of the brain and nervous system, and are translating into 
potential treatments for patients in the future. Federal investments in 
scientific research fuel the Nation's pharmaceutical, biotechnology and 
medical device industries. The private sector utilizes basic scientific 
discoveries funded through NIH to improve health and foster a 
sustainable trajectory for American's Research and Development (R&D) 
enterprise. Basic science generates the knowledge needed to uncover the 
mysteries behind human diseases, which eventually leads to private 
sector development of new treatments and therapeutics. This important 
first step is not ordinarily funded by industry given the long-term 
path of basic science and the pressures for shorter-term return on 
investments by industry.
    Also, these investments contribute to economic growth in hundreds 
of communities nationwide, as more than 83 percent of NIH funding is 
distributed to more than 3,000 institutions in communities in every 
State. Moreover, it will help preserve and expand America's role as 
leader in biomedical research, which fosters a wide range of private 
enterprises in the pharmaceutical, biotechnology, medical device, and 
many others. For example, in fiscal year 2010, NIH investments led to 
the creation of 487,900 jobs, and produced more than $68 billion in new 
economic activity--helping 16 States to experience job growth of 10,000 
jobs or more at a time when unemployment was otherwise rising.
Conclusion
    With its rapid growth in countries worldwide, the SfN membership is 
a metaphor for the extraordinary opportunity and future of 
neuroscience. Like SfN, the study of neuroscience is growing rapidly, 
with young people flocking to the field. Tools to study the living 
brain and to connect brain structure and function to physiology, 
disease, and behavior give unmatched opportunities for scientists to 
understand how the brain works. The growth of neuroscience also 
reflects increased societal recognition of the field's importance. 
Understanding the brain is vitally important and urgent if humankind is 
to address successfully major challenges facing our society and our 
world, such as drug addiction, obesity and depression. As populations 
grow and age, understanding how to enhance human development and 
performance, and preserve function during aging, are critical to social 
and economic prosperity.
    I also submit that it is vital for this subcommittee to continue to 
recognize and sustain U.S. leadership in the global scientific arena. 
Neuroscience, like all fields of science, is an increasingly global 
enterprise, creating opportunities for both collaboration and 
competition. Fundamentally, neuroscientists worldwide are motivated to 
answer the question ``I wonder why?''--often, they seek to pursue those 
answers collaboratively, working across borders to tackle large 
problems with sophisticated technologies and coordinated sub-
specialties. To that end, many countries other than the United States 
demonstrate established and growing scientific excellence in the field, 
and this is a healthy and very positive trend.
    At the same time, for the United States there is growing 
competition for leadership in science worldwide, as many nations 
recognize it will be the foundation for economic prosperity in the 
coming decades. Over the last century, the United States has served as 
the global pace-setter on investment in science, and leveraged research 
as a primary engine for economic growth and prosperity, but this 
leadership is at risk. The United States has an opportunity to retain 
its strong and unassailable leadership in global neuroscience by 
continuing to invest strongly in biomedical research. An investment in 
basic research is an essential component for reducing healthcare 
spending and improving healthcare delivery. We now stand at the 
precipice of an economic disaster because the costs of treating many 
diseases, such as Alzheimer's, will be astronomical in the next 50 
years. Additional scientific research is necessary to develop new 
treatments and cures, which will produce longer, healthier and more 
productive lives for Americans and create greater economic growth for 
our Nation.
    In conclusion, NIH investments have made it possible for the field 
of neuroscience research to make tremendous progress to understand 
basic biological principles and to advance the knowledge and treatments 
for hundreds of neurological and psychiatric illnesses. However, 
continued progress can only be accomplished by consistent and reliable 
support. This year's investment is a building block for success 10, 15, 
even 20 years or more from now.
    The administration's budget request for NIH is $30.7 billion, the 
same amount that was funded last year. This is a welcome start but it 
is insufficient to maintain the scientific progress and leadership 
required of the United States in the 21st century. This subcommittee 
knows that a flat budget is a cut, given the rate of inflation. The 
Society for Neuroscience does not believe that reducing our commitment 
to research is medically or economically justified. An fiscal year 2013 
NIH appropriation of at least $32 billion and sustained reliable growth 
in the future is essential to take the research to the next level in 
order to improve the health of Americans and to maintain American 
leadership in science worldwide. Thank you for this opportunity to 
testify.
                                 ______
                                 
     Prepared Statement of the Society for Public Health Education
    The Society for Public Health Education (SOPHE) is a 501(c)(3) 
professional organization founded in 1950 to provide global leadership 
to the profession of health education and health promotion. SOPHE 
contributes to the health of all people and the elimination of health 
disparities through advances in health education theory and research; 
excellence in professional preparation and practice; and advocacy for 
public policies conducive to health. SOPHE is the only independent 
professional organization devoted exclusively to health education and 
health promotion. Members include behavioral scientists, faculty, 
practitioners, and students engaged in disease prevention and health 
promotion in both the public and private sectors. Collectively, SOPHE's 
4,000 national and chapter members work in universities, medical/
healthcare settings, businesses, voluntary health agencies, 
international organizations, and all branches of Federal/State/local 
government. There are currently 19 SOPHE chapters covering more than 30 
States and regions across the country.
    SOPHE's vision of a healthy world through health education compels 
us to advocate for increased resources targeted at the most pressing 
public health issues and disparate populations. For the fiscal year 
2013 funding cycle, SOPHE encourages the Labor, Health and Human 
Services, Education and Related Agencies (Labor-HHS) Subcommittee to 
increase funding for public health programs that focus on preventing 
chronic disease and other illnesses in adults as well as youth, and 
eliminating health disparities. In particular, SOPHE requests the 
following fiscal year 2013 funding levels for Labor-HHS programs:
  --$7.8 billion for the Centers for Disease Control and Prevention 
        (CDC);
  --$1 billion for the Prevention and Public Health Fund;
  --$226 million for the Community Transformation Grants (CTG) Program;
  --$100 million for the CDC Preventive Health and Health Services 
        Block Grant; and
  --$378 million for the CDC Coordinated Chronic Disease Prevention and 
        Health Promotion Program.
    The discipline of health education and health promotion, which is 
some 100 years old, uses sound science to plan, implement, and evaluate 
interventions that enable individuals, groups, and communities to 
achieve personal, environmental and population health. There is a 
robust, scientific evidence-base documenting not only that various 
health education interventions work but that they are also cost 
effective. These principles serve as the basis for our support for the 
programs outlined below and can help ensure our Nation's resources are 
targeted for the best return on investment.
                       preventing chronic disease
    The data are clear: chronic diseases are the Nation's leading 
causes of morbidity and mortality and account for 75 percent of every 
dollar spent on healthcare in the United States. Collectively, they 
account for 70 percent of all deaths nationwide. Thus, it is highly 
likely that 3 of 4 persons living in the districts of the Labor-HHS 
Subcommittee members will develop a chronic condition requiring long-
term and costly medical intervention in their lifetimes. Health 
expenditures increased from $1.4 trillion in 2000 to $2.6 trillion in 
2010, and from 14 percent of the Gross Domestic Product to 18 percent. 
Yet evidence shows that investing just $1 in preventing disease will 
yield a $5 return on investment.
    SOPHE is requesting a fiscal year 2013 funding level $7.8 billion 
for CDC in order to prevent chronic diseases and other illnesses, 
promote health, prevent injury and disability, and ensure preparedness 
against health threats. CDC is at the forefront of U.S. efforts to 
monitor health, detect and investigate health problems, conduct 
research to enhance prevention, develop sound public health strategies, 
and foster safe and healthful environments. More than 80 percent of all 
CDC funds are returned to States to address State and local health 
issues. The President's fiscal year 2013 budget proposal would reduce 
CDC's budget authority by $664 million, for a total reduction of $1.4 
billion since fiscal year 2010. Studies show that spending as little as 
$10 per person on proven preventive interventions could save the 
country over $16 billion in just 5 years. The public overwhelmingly 
supports increased funding for disease prevention and health promotion 
programs. Investing now in community-led, innovative programs will help 
to increase our Nation's productivity and performance in the global 
market; help ensure military readiness; decrease rates of infant 
mortality, deaths due to cancer, cardiovascular disease, diabetes, and 
HIV/AIDS, and; increase immunization rates.
    SOPHE is requesting a fiscal year 2013 funding level of $1 billion 
for the Prevention and Public Health Fund to sustain essential core 
public health infrastructure, the workforce, and our capacity to 
improve health in our communities. The Prevention Fund helps States 
tackle the leading causes of death and root causes of costly, 
preventable chronic disease; detect and respond rapidly to health 
security threats; and prevent accidents and injuries. With this 
investment, the Fund helps States and the Nation as a whole focus on 
fighting disease and illness before they happen. A July 2011 study 
published in the journal Health Affairs found that increased spending 
by local public health departments can save lives currently lost to 
preventable illnesses; a 2011 Urban Institute study concluded that it 
is in the Nation's best interest from both a health and economic 
standpoint to maintain funding for evidence-based, public health 
programs that save lives and bring down costs; and finally, a 2011 
study in Health Affairs showed a combination of three strategies (i.e. 
delivering better preventive and chronic care, expanding health 
insurance coverage, and focusing on protection) is more effective at 
saving lives and money than implementing any one of these strategies 
alone.
    Although the enactment of the Middle Class Tax Relief and Job 
Creation Act of 2012 will reduce the Prevention and Public Health Fund 
by more than $5 billion over the next 10 years, SOPHE strongly 
discourages further reductions in the Fund so that we can continue to 
strengthen core public health infrastructure, the workforce, and our 
capacity to improve health in our communities.
    SOPHE is requesting a fiscal year 2013 funding level of $226 
million for the CTG program to empower communities to transform places 
where people live, work, learn, and play to promote prevention and 
improve health by lowering rates of chronic disease. The CTG program 
supports States and communities tackle the root causes of poor health 
so Americans can lead healthier, more productive lives. All grantees 
work to address the following priority areas: (1) tobacco-free living; 
(2) active living and healthy eating; and (3) quality clinical and 
other preventive services. Two-thirds of current CTG grantees address 
one or more other population groups experiencing disparities, including 
but not limited to the homeless and those living in underserved 
geographic areas.
    The CTG program is especially needed to address the health of our 
Nation's youth. In the last 20 years, the percentage of overweight 
youth has more than doubled, and for the first time in two centuries, 
children may have a shorter life expectancy than their parents. Fifteen 
percent of children and adolescents are overweight and more than half 
of these children have at least one cardiovascular disease risk factor, 
such as elevated cholesterol or high blood pressure. At the same time 
that obesity is becoming an epidemic, the CDC School Health Programs 
and Policy Study found that the majority of schools are teaching 
nutrition with health education teachers who do not meet even minimal 
certification standards.
    As part of the CTG initiative, SOPHE strongly supports CDC's Racial 
and Ethnic Approaches to Community Health Across the U.S. (REACH U.S.) 
program, which addresses health risk behaviors in both children and 
adults. Chronic diseases account for the largest health gap among 
populations and increase health disparities among racial and ethnic 
minority groups. As the U.S. population becomes increasingly diverse, 
the Nation's health expenditures will be heavily influenced by the 
morbidity of racial and ethnic minority communities. With CTG funding, 
the National REACH Coalition will address strategies in the areas of 
tobacco-free living, active living and healthy eating, clinical and 
other preventive services, social and emotional wellness, and healthy 
and safe physical environments--with a primary focus on African-
American/Black, Hispanic/Latino, Asian, Native Hawaiian/Pacific 
Islander, and American Indian/Alaskan Native populations.
    SOPHE is requesting a fiscal year 2013 funding level of $100 
million for the CDC's Preventive Health and Health Services Block Grant 
to allow each State/territory to target resources to its unique public 
health challenges, while requiring timely reporting and accountability. 
The Block Grant was eliminated in the President's fiscal year 2013 
budget proposal. As a critical public health resource, the Block Grant 
gives States the autonomy and flexibility to tailor prevention and 
health promotion programs to their particular public health needs. 
Grantees use funds to support to areas where no Federal resources 
exist, or where categorical States funds are grossly insufficient for 
leading causes of illness, disability and death in their States/
territories. With the uncertainty of State and local budgets, the 
proposed elimination of the Block Grant will limit the ability of 
public health departments to carry out essential services for chronic 
disease prevention, HIV/AIDs, food and water safety, bioterrorism and 
emergency preparedness, and other areas.
    SOPHE applauds the request of $378 million for the Coordinated 
Chronic Disease Prevention and Health Promotion Program, an increase of 
$128 million above the fiscal year 2012 level. The approach will enable 
CDC to create a coordinated, national response to school health and 
chronic disease, maximizing program effectiveness, reducing 
interrelated risk factors, and accelerating health improvements. Almost 
80 percent of young people do not eat the recommended 5 servings of 
fruits and vegetables each day. Daily participation in high school 
physical education classes dropped from 42 percent in 1991 to 32 
percent in 2001. Among 38 States that participated in CDC's latest 
School Health Policies and Programs Study, the percentage of schools 
that required a health education course decreased between 1996 and 
2000, as did the percentage of schools that taught about dietary 
behaviors and nutrition. Patterns of poor nutrition, lack of physical 
activity, and other behaviors such as alcohol and tobacco use 
established during youth often continue into adulthood and contribute 
markedly to costly, chronic conditions.
    CDC's Coordinated School Health Programs have been shown to be cost 
effective in improving children's health, their behavior, and their 
academic success. This funding builds bridges between State education 
and public health departments to coordinate health education, 
nutritious meals, physical education, mental health counseling, health 
services, healthy school environments, health promotion of faculty, and 
parent and community involvement. Gallup polls show strong parental, 
teacher, and public support for school health education.
    Thank you for this opportunity to present our views to the 
Subcommittee. SOPHE gratefully acknowledges the strong support that the 
Senate Subcommittee on Labor, Health and Human Services, Education and 
Related Agencies has given to public health and prevention initiatives. 
We look forward to working with you to prevent chronic illness, improve 
the quality of lives, and save billions of dollars in healthcare 
spending.
                                 ______
                                 
            Prepared Statement of the Sleep Research Society
    The members of the Sleep Research Society (SRS) are pleased to 
submit this statement for the record recommending $32 billion in fiscal 
year 2013 for the National Institutes of Health (NIH). The Scleroderma 
Foundation also recommends maintaining the Sleep Program at the Centers 
for Disease Control and Prevention (CDC). Established in 1961, the 
Sleep Research Society (SRS) is a member organization of scientists 
that exists to foster scientific investigation on all aspects of sleep 
and its disorders, to promote training and education in sleep research, 
and to provide forums for the exchange of knowledge pertaining to 
sleep.
    Sleep and circadian disturbances and disorders affect millions of 
Americans across all demographic groups. An estimated 25-30 percent of 
the general adult population, and a comparable percentage of children 
and adolescents, is affected by decrements in sleep health that are 
proven contributors to disability, morbidity, and mortality. As a 
result, sleep and circadian disturbances and disorders have been 
recognized by Congress and the Department of Health and Human Services 
as high priority targets for basic and clinical scientific 
investigation.
    In November 2011 a new NIH Sleep Research Plan was released. It 
identifies new opportunities for continued advances in understanding 
the function of sleep to inform lifestyle choices and improve the 
opportunity of individuals to achieve their optimal health outcome. The 
plan was developed through an open process with the Sleep Disorders 
Research Advisory Board and with input from the public, academia and 
healthcare professionals. The plan provides the following insights 
regarding sleep loss's effects on society:
    Chronic sleep deficiency and circadian disruption is an emerging 
characteristic of modern urban lifestyles and is associated with 
increase disease risk through multiple complex pathways in all age 
groups. Developing a mechanistic understanding of the threat posed by 
sleep deficiency and circadian disturbance to health, healthy equity, 
and health disparities is an urgent challenge for biomedical research 
in many domains. Population-based data on the prevalence of circadian 
disruption and its relationship to disease risk is relatively limited. 
However, recent findings from large multi-site cohort studies and 
nationally representative surveillance data from the Centers for 
Disease Control indicate that sleep deficiency among Americans is 
pervasive, and much higher than inferred from clinical data. For 
example:
  --Nearly 70 percent of high school adolescents sleep less than the 
        recommended 8-9 hours of sleep on school nights despite a 
        physiological need. Short sleep in this age group is associated 
        with suicide risk, obesity, depression and mood problems, low 
        grades, and delinquent behavior.
  --Nationwide, 70 percent of adults report that they obtain 
        insufficient sleep or rest at least once each month, and 11 
        percent report insufficient sleep or rest every day of the 
        month.
  --Frequent sleep problems are reported by 65 percent of Americans 
        including difficulty falling asleep, waking during the night, 
        and waking feeling unrefreshed at least a few times each week, 
        with nearly half (44 percent) of those saying they experience 
        that sleep problem almost every night.
  --Short and long sleep duration is associated with up to a two-fold 
        increased risk of obesity, diabetes, hypertension, incident 
        cardiovascular disease, stroke, depression, substance abuse, 
        and all-cause mortality in multiple studies.
  --Drowsy driving may be a factor in 20 percent of all serious motor 
        vehicle crash injuries. A large naturalistic study of 100 
        drivers and nearly 2 million miles of driving identified 
        sleepiness as a factor in 22 percent of crashes, and 16 percent 
        of near-crashes. A third of Americans report falling asleep 
        while driving 1 to 2 times per month and 26 percent drive 
        drowsy during the workday.
    Although knowledge of basic sleep and circadian mechanisms and the 
pathophysiology of sleep and circadian disorders and disturbances has 
advanced considerably since the 1996 NIH Sleep Disorders Research Plan 
was developed, important questions remain. For instance, studies are 
needed to stratify risks to health and identify vulnerable populations. 
Mechanistic studies are needed to define the genomic, physiological, 
neurobiological, and developmental impact of sleep and circadian 
disturbances. Recent findings indicate that sleep and circadian rhythms 
are coupled to chromatin remodeling and regulate as much as 20 percent 
of gene expression in peripheral tissues including the heart, liver, 
pancreatic islets, adipose, and immune system. Genome-wide association 
studies have implicated pancreatic melatonin receptor polymorphism in 
both blood glucose regulation and diabetes risk. Research is also 
needed to enhance the translation of sleep and circadian scientific 
advances to clinical practice, researchers in cross-cutting domains, 
and communities.
    Advances in basic sleep and circadian knowledge are poised to 
provide an improved foundation for understanding how sleep and 
circadian rhythms contribute to health, and why a wide range of health, 
performance and safety problems emerge when sleep and circadian rhythms 
are disrupted. Strengthening and preserving our Nation's biomedical 
research enterprise through investment in NIH fosters economic growth 
and is vital to the innovations that enhance the health and well-being 
of the American people.
                                 ______
                                 
             Prepared Statement of the Safe States Alliance
    On behalf of the Safe States Alliance, a national membership 
association representing public health injury and violence prevention 
professionals engaged in building a safer, healthier America, we thank 
you for the opportunity to provide our testimony in support of the 
Centers for Disease Control and Prevention (CDC) and the National 
Center for Injury Prevention and Control (NCIPC). Safe States is 
committed to raising the visibility of the critical need for continued 
funding in State and local public health department injury and violence 
prevention programs.
    The Safe States Alliance supports restoration of the Preventive 
Health and Health Services Block Grant to its fiscal year 2011 funding 
level of $100 million and restoration of the CDC Injury Center to its 
fiscal year 2011 funding level of $147.8 million. Preventable injuries 
exact a heavy burden on Americans through premature deaths and 
disabilities, pain and suffering, medical and rehabilitation costs, 
disruption of quality of life for families, and disruption of 
productivity for employers. Strengthening investments in public health 
injury and violence prevention programs is a critical step to keep 
Americans safe and productive for the 21st century.
    The CDC Injury Center is the only Federal agency that exclusively 
focuses on injury and violence prevention in home, recreational, and 
other non-occupational settings. It leads a coordinated public health 
approach to addressing critical health and safety issues. Despite the 
enormous toll of injury and violence and the existence of cost-
effective interventions, there is no dedicated and ongoing Federal, 
State, or local funding to adequately respond to these problems. The 
CDC Injury Center only receives 2 percent of the CDC/Agency for Toxic 
Substances and Disease Registry (ATSDR) budget to address the 
significant burden of injuries and violence nationwide. In fiscal year 
2012, the total Injury Center budget was only $137.7 million, down from 
$147 million in fiscal year 2011.
    Injuries are the leading cause of death among persons 1-44 years of 
age, and are a major cause of death, disability, and hospitalization 
for all age groups. Every 3 minutes, a person dies from a preventable 
injury. Every 45 minutes, one of those preventable deaths is a child. 
In fact, more than 500 people die each day and 180,000 die each year 
from injuries in the United States. Over 29 million individuals survive 
non-fatal injuries, only to cope with painful recoveries and 
rehabilitation. Among the survivors are the nearly 9.2 million children 
under age 19 that are seen in emergency departments for injuries.
    Every year, injuries and violence will cost the United States $406 
billion: over $80 billion in medical costs (6 percent of total health 
spending) and $326 billion in lost productivity. Long term disabilities 
from brain and spinal cord injuries, burns, and fall-related hip 
fractures frequently result in high-cost, extended care. Injuries, 
especially fractures, for persons age 65 and older make up a 
substantial proportion of Medicare expenditures. As the U.S. population 
continues to age, this problem will be an even more significant burden 
on the Medicare system.
    However, injuries and violence can be prevented, and their 
consequences can be reduced. For example: seat belts have saved an 
estimated 255,000 lives between 1975 and 2008; school-based programs to 
prevent violence have reduced violent behavior among high school 
students by 29 percent; and Tai chi and other exercise programs for 
older adults have been shown to reduce falls by as much as half among 
participants.
    Injuries, including falls among older adults, have significant 
costs for our mandatory spending programs. Currently, 35 million 
Americans are 65 years of age or older; by 2020 this number is expected 
to reach 77 million.
  --The annual costs for fall-related injuries are expected to reach 
        $54.9 billion by 2020 \1\.
---------------------------------------------------------------------------
    \1\ Englander F, Hodson TJ, Terregrossa RA. Economic dimensions of 
slip and fall injuries. Journal of Forensic Science 1996;41(5):733-
46.trial. The Gerontologist 1994;34(1):16-23.
---------------------------------------------------------------------------
  --Falls account for 10 percent of visits to an emergency department 
        and 6 percent of hospitalizations among Medicare beneficiaries 
        \2\.
---------------------------------------------------------------------------
    \2\ Carroll NV, Slattum PW, Cox FM. The cost of falls among the 
community-dwelling elderly. Journal of Managed Care Pharmacy. 
2005;11(4):307-16.
---------------------------------------------------------------------------
  --In 2002, about 22 percent of community-dwelling seniors reported 
        falling in the previous year. Medicare costs per fall averaged 
        between $9,113 and $13,507 \3\.
---------------------------------------------------------------------------
    \3\ Shumway-Cook A, Ciol MA, Hoffman J, Dudgeon BJ, Yorston K, Chan 
L. Falls in the Medicare population: incidence, associated factors, and 
impact on health care. Physical Therapy 2009.89(4):1-9.
---------------------------------------------------------------------------
  --Among community-dwelling seniors treated for fall injuries, 65 
        percent of direct medical costs were for inpatient 
        hospitalizations; 10 percent each for medical office visits and 
        home health care, 8 percent for hospital outpatient visits, 7 
        percent for emergency room visits, and 1 percent each for 
        prescription drugs and dental visits. About 78 percent of these 
        costs were reimbursed by Medicare \4\.
---------------------------------------------------------------------------
    \4\ Carroll NV, Slattum PW, Cox FM. The cost of falls among the 
community-dwelling elderly. Journal of Managed Care Pharmacy. 
2005;11(4):307-16.
---------------------------------------------------------------------------
    CDC's research has also identified other cost impacts of injuries 
on CMS populations including costs related to prescription drug over 
doses. In Washington State, for example, from 2004 to 2007, 1,668 
people died of prescription opioid-related overdoses. Of those, 45.4 
percent were Medicaid enrolled, and this population had a 5.7 fold 
increased risk of prescription opioid-related overdose death \5\. 
Adoption of lock-in programs can produce significant cost benefits as 
in Florida, where its Medicaid lock-in program saved the State Medicaid 
program $12 million in less than 3 years \6\. Washington State has 
informally reported savings of $1.5 million per month with their 
program. Missouri, Hawaii, and Oklahoma have also reported some 
success. Medicaid programs spend well over $1 billion annually on 
opioid painkillers, and a 2009 GAO report found that these 
reimbursements are rife with fraud. A survey of five States identified 
65,000 beneficiaries visiting six or more doctors to acquire 
prescriptions for the same controlled substances. These beneficiaries 
cost the programs $63 million in reimbursements for those drugs, and 
this number does not account for other related costs \7\.
---------------------------------------------------------------------------
    \5\ CDC. Overdose deaths involving prescription opioids among 
Medicaid enrollees-Washington, 2004-2007. MMWR. 2010;59;705-9.
    \6\ Florida Medicaid. Medicaid Prescribed Drug Spending Control 
Program Initiatives: Quarterly Report January 1-March 31, 2005. 
Available at URL: http://www.fdhc.state.fl.us/medicaid/prescribed_drug/
pdf%5Cquarterly_report_03_31_05.pdf.
    \7\ GAO. Fraud and abuse related to controlled substances 
identified in selected States. Sept. 2009. Available at URL: http://
www.gao.gov/new.items/d09957.pdf.
---------------------------------------------------------------------------
    Safe States Alliance believes that all State and territorial health 
departments (SHDs) in the United States must have a comprehensive 
injury and violence surveillance and prevention programs, similar to 
other public health programs for chronic disease and infectious disease 
prevention. These programs must be adequately staffed and funded 
commensurate with the magnitude of the burden of injury and violence in 
each State with programs and expertise to address the leading causes of 
unintentional and violent injuries, and have disaster and terrorism 
epidemiology and injury mitigation programs. SHDs bring significant 
leadership to reduce injuries and injury-related healthcare costs by 
informing the development of public policies through data and 
evaluation; designing, implementing, and evaluating injury and violence 
prevention programs in cooperation with other agencies and 
organizations; collaborating with partners in healthcare and throughout 
the community; collecting and analyzing a variety of injury and 
violence data to identify high-risk groups; disseminating effective 
practices, and providing technical support and training to injury 
prevention partners and local-level public health professionals. The 
following are examples of how SHDs have prevented injuries and 
protected the lives of Americans throughout the United States:
  --An estimated 3,143 lives potentially have been saved since 1998 as 
        a result of CDC-funded smoke alarm installation and fire safety 
        education programs in high-risk communities. In funded States, 
        more than 487,800 smoke alarms have been installed in 
        approximately 250,000 homes. High-risk homes that were targeted 
        by the program included children age 5 and younger and adults 
        age 65 and older.
  --The Bureau of Injury Prevention at the New York State Department of 
        Health conducted a study which was published in the 2010 
        September issue of Pediatrics that found that the injury rate 
        for motor vehicle crashes decreased by 18 percent for children 
        4 to 6 years of age after the State law requiring booster seats 
        was implemented in 2005.
  --Oregon's Prescription Drug Monitoring Program (PDMP) was launched 
        by the State Injury and Violence Prevention Section in 2011 as 
        s a tool to help patients better manage their prescriptions 24 
        hours a day, 7 days a week. Within months, 76 percent of 
        pharmacists were submitting to the PDMP system, over 699,000 
        prescriptions had been submitted to the system, and 8,999 
        queries had been made by healthcare providers. The aggregate 
        data that will be available will provide a vast new source of 
        information for understanding the overdose epidemic in Oregon.
  --Following passage of Complete Streets legislation in Hawaii, the 
        Injury Prevention and Control Program (IPCP) was selected to 
        participate on a statewide taskforce which was responsible for 
        providing guidance to the State and individual counties on road 
        design that can safely accommodate all road users.
  --In 2010, with support from the CDC's Core State Injury program, the 
        Colorado State Health Department Injury Program provided the 
        science and data on child passenger safety to State advocates. 
        Changes to strengthen Colorado's Child Passenger Safety Law 
        were passed in August 2010. Colorado is now conducting a 
        community education campaign about the change of law to support 
        its law enforcement partners.
  --In 2007, Massachusetts Department of Public Health's Traumatic 
        Brain Injury (TBI) Task Force report identified sports 
        concussions as a leading and growing cause of TBI in the State. 
        In January 2009, the Massachusetts injury prevention planning 
        group (MassPINN)--which is coordinated by the Department of 
        Public Health using CDC Core State Injury Program funds--forged 
        a partnership with the Sports Legacy Institute and other 
        partners to form the Massachusetts Youth Sports Concussion 
        Prevention Team to raise awareness of the dangers of sports-
        related concussions and other head injuries among youth. Over a 
        14-month period, more than 1,500 CDC ``Heads Up'' kits were 
        distributed and more than 2,000 parents, coaches, and athletes 
        were educated about the dangers of youth sports concussions.
  --The South Carolina Department of Health and Environmental Control 
        (DHEC) used surveillance data collected and analyzed by staff 
        supported through CDC's Core State Injury program, to 
        thoroughly understand the burden of older adult falls in their 
        State and to inform partners on how this issue impacts quality 
        of life for seniors. This data was used by a State workgroup 
        and resulted in the funding and implementation of an evidence-
        based fear of fall prevention program in select communities. 
        DHEC provides personnel time for instruction and funds to 
        purchase training materials.
    When evidence-based injury prevention strategies are implemented, 
the estimated return on investment is substantial. For instance, home 
visitation programs have been demonstrated to be particularly effective 
in reducing child abuse and injury, and provide a cost savings of 
nearly $3 to $6 for every $1 spent. Other proven cost-effective injury 
prevention strategies include booster seats, child bicycle helmets, 
motorcycle helmets, sobriety checkpoints, smoke alarms and fall 
prevention for the elderly with total costs ranging from $31 to $9,600 
each for cost-savings and total benefits to society \8\ between $570 
and $73,000 for each.
---------------------------------------------------------------------------
    \8\ The total benefit to society is defined as the amount injury 
prevention interventions saved by preventing injuries, including 
medical costs, other resource costs (police, fire services, property 
damages, etc.), work loss, and quality of life costs. These benefits 
are calculated in 2004 dollars.
---------------------------------------------------------------------------
    Currently, NCIPC provides up to $250,000 to 28 SHDs through the 
Core Violence and Injury Prevention Program (VIPP) to maintain and 
enhance effective delivery systems for dissemination, implementation 
and evaluation of best practice programs and policies. This includes 
support for the SHDs and their local partners, as well as strategy-
specific support for the implementation of direct best practice 
interventions. In addition, Core VIPP supports SHDs in their efforts to 
work toward integration and strategically align their resources for 
meaningful change. According to Safe States Alliance's 2009 State of 
the States report, States received NCIPC Core funding were more likely 
to have a centralized program, a full-time director, and greater access 
to key injury data sets. They were more likely to provide support to 
local injury efforts, provide surveillance data and technical 
assistance. States with Core VIPP funding are also well-positioned to 
leverage additional resources, implement and evaluate interventions, 
and raise awareness of injury trends.
    CDC Injury Center's Core Violence and Injury Prevention Program is 
the only program of its kind in the Nation. No other Federal agency 
funds overall injury and violence prevention capacity development. An 
additional investment of just $10 million would allow the CDC Injury 
Center to fund all State and territorial public health departments 
through the Core VIPP. This funding would allow for expansion and 
stabilization of resources for State injury and violence prevention 
programs; strengthening the ability of States to improve the collection 
and analysis of injury data, build coalitions, and establish 
partnerships to promote evidence-based interventions; and dissemination 
of proven injury and violence prevention strategies, with a focus on 
persons at highest risk.
    In addition to the Core VIPP program, SHDs rely on the CDC 
Preventive Health and Health Services Block Grant which provides 
approximately $20 million for injury and violence prevention, including 
approximately $6 million set-aside specifically for sexual assault 
prevention. According to initial findings from the 2011 State of the 
States survey, 30 SHD injury and violence prevention programs reported 
receiving an average of $313,000 for injury and violence prevention 
efforts, much of which is used for local implementation of evidence-
based practices. Safe States Alliance would like to thank the Committee 
for its consideration of this testimony.
                                 ______
                                 
     Prepared Statement of the Society for Women's Health Research
    The Society for Women's Health Research (SWHR) is pleased to have 
the opportunity to submit the following testimony in support of ongoing 
Federal funding for biomedical research and specifically into 
biological sex differences and total women's health research--within 
the Department of Health and Human Services (HHS) at the National 
Institutes of Health (NIH), Centers for Disease Control and Prevention 
(CDC), and the Agency for Healthcare and Research Quality (AHRQ).
    SWHR believes that sustained funding for biomedical and women's 
health research programs conducted and supported across the Federal 
agencies is absolutely essential if the United States is going to meet 
the health needs of women and men. A well-designed and appropriately 
funded Federal research agenda does more than avoid dangerous and 
expensive ``trial and error'' medicine for patients--it advances the 
Nation's research capability, continues growth in a sector with proven 
return on investment, and takes a proactive approach to maintaining 
America's position as worldwide leader in medical research, education, 
and development.
    In his State of the Union address, President Obama stated that 
investment in biomedical research ``will strengthen our security, 
protect our planet, and create countless new jobs for our people''. 
Proper investment in health research will save valuable dollars that 
are currently wasted on inappropriate treatments and procedures. 
Additionally, SWHR believes that targeted research into biological sex 
differences will help determine targeted treatments that will propel 
the United States into the realm of personalized medicine and usher in 
a 21st century approach to patient care.
                     national institutes of health
    SWHR realizes that the Federal Government's focus is on austerity; 
however, past congressional investment for the NIH positioned the 
United States as the world's leader in biomedical research and has 
provided a direct and significant impact on women's health research and 
the careers of women scientists over the last decade. In recent years, 
that investment has declined and jeopardized America place as the gold 
standard in biomedical research. Cutting NIH funding threatens 
scientific advancement, substantially delays cures becoming available 
in the United States, and puts the innovative research practices and 
reputation that America is known for in jeopardy.
    From 2003- 2012, NIH has faced a 20.8 percent decrease in buying 
power as a direct result of budget cuts. When faced with budget cuts, 
NIH is left with no other option but to reduce the number of grants it 
is able to fund. The number of new grants funded by NIH had dropped 
steadily with declining budgets, growing at a percent less than that of 
inflation since fiscal year 2003. A shrinking pool of available grants 
has a significant impact on scientists who depend upon NIH support to 
cover both salaries and laboratory expenses to conduct high quality 
biomedical research, putting both medical advancement and job creation 
at risk. More than 83 percent of NIH funding is spent in communities 
across the Nation, creating jobs at more than 3,000 universities, 
medical schools, teaching hospitals, and other research institutions in 
every State.
    Reducing the number of grants available to researchers further 
decreases publishing of new findings and decreases the number of 
scientists gaining experience in research, impacting a scientist's 
likelihood of continuing research. New and less established researchers 
are forced to consider other careers, or take positions outside the 
United States, resulting in the loss of the skilled bench scientists 
and researchers desperately needed to sustain America's cutting edge in 
biomedical research.
    While the U.S. deficit requires careful consideration of all 
funding and investments, cutting relatively small discretionary funding 
within the NIH budget will not make a substantial impact on the 
deficit, but will drastically hamper the ability of the United States 
to remain the global leader in biomedical research. SWHR and WHRC 
recommend that Congress set, at a minimum, a budget of $32 billion for 
NIH for fiscal year 2013.
Study of Sex Differences
    Scientists have just begun to uncover the significant biological 
and physiological differences between women and men and its impact 
health and medicine. Sex-based biology, the study of biological and 
physiological differences between women and men, has revolutionized the 
way that the scientific community views the sexes. Sex differences play 
an important role in disease susceptibility, prevalence, time of onset 
and severity and are evident in cancer, obesity, heart disease, immune 
dysfunction, mental health disorders, and many other illnesses. 
Medications can have different effects in woman and men, based on sex 
specific differences in absorption, distribution, metabolism and 
elimination. It is imperative that research addressing these important 
differences be supported and encouraged.
    SWHR recommends that NIH, with the funds provided, be mandated to 
report sex/gender differences in all research findings, including those 
studying a single sex but with explanation and justification. Further, 
NIH should seek to expand its inclusion of women in basic, clinical and 
medical research to Phase I, II, and III studies. By currently 
mandating sufficient female subjects only in Phase III, researchers 
often miss out on the chance to look for variability by sex in the 
early phases of research, where scientists look at treatment safety and 
determine safe and effective dose levels for new medications. By 
including female subjects in earlier phases of clinical research 
studies, the NIH will serve as a role model for industry research, as 
well as other nations. Only by gaining more information on how 
therapies work in women will medicine be able to advance toward more 
targeted and effective treatments for all patients, women and men 
alike.
Office of Research on Women's Health
    The NIH's Office of Research on Women's Health (ORWH) serves as the 
focal point for coordinating women's health and sex differences 
research at NIH, advising the NIH Director on matters relating to 
research on women's health and sex differences research, strengthening 
and enhancing research related to diseases, disorders, and conditions 
that affect women; working to ensure that women are appropriately 
represented in research studies supported by NIH; and developing 
opportunities for and support of recruitment, retention, re-entry and 
advancement of women in biomedical careers.
    The Building Interdisciplinary Research Careers in Women's Health 
(BIRCWH) and Specialized Centers of Research on Sex and Gender Factors 
Affecting Women's Health (SCOR) are two ORWH programs that benefit the 
health of both women and men through sex and gender research, 
interdisciplinary scientific collaboration, and provide tremendously 
important support for young investigators in a mentored environment.
    The BIRCWH program, created in 2000, is an innovative, trans-NIH 
career development program that provides protected research time for 
junior faculty by pairing them with senior investigators in an 
interdisciplinary mentored environment. Each BIRCWH receives 
approximately $500,000 a year, most from the ORWH budget. To date, over 
400 scholars have been trained in 41 centers, and 80 percent of those 
scholars have been female. The BIRCWH centers have produced over 1,300 
publications, 750 abstracts, 200 NIH grants and 85 awards from industry 
and institutional sources.
    SCORs, established in 2003, are designed to increase innovative, 
interdisciplinary research focusing on sex differences and major 
medical problems that affect women through centers that facilitate 
basic, clinical, and translational research. Each SCOR program results 
in unique research and has resulted in over 150 published journal 
articles, 214 abstracts and presentations and 44 other publications.
    Additionally, ORWH has created several additional programs to 
advance the science of sex differences research and research into 
women's health. The Advancing Novel Science in Women's Health Research 
(ANSWHR) program, created in 2007, promotes innovative new concepts and 
interdisciplinary research in women's health research and sex/gender 
differences. The Research Enhancement Awards Program (REAP) supports 
meritorious research on women's health that otherwise would have missed 
the NIH institute and center (IC) pay line.
    In addition to its funding of research on women's health and sex 
differences research, ORWH has established several methods for 
dissemination information about women's health and sex differences 
research. ORWH created the Women's Health Resources web portal in 
collaboration http://www.womenshealthresources.nlm.nih.gov) with that 
National Library of Medicine, to serve as a resource for researchers 
and consumers on the latest topics in women's health and uses social 
media to connect the public to health awareness campaigns.
    To allow ORWH's programs and research grants to continue make their 
impact on research and the public, Congress must direct that NIH 
continue its support of ORWH and provide it with a $1 million budget 
increase, bringing its fiscal year 2013 total to $43.3 million.
Health and Human Services' Office of Women's Health
    The HHS Office of Women's Health (OWH) is the Government's champion 
and focal point for women's health issues. It works to redress 
inequities in research, healthcare services, and education that have 
historically placed the health of women at risk. Without OWH's actions, 
the task of translating research into practice would be only more 
difficult and delayed.
    Under HHS, the agencies currently with offices, advisors or 
coordinators for women's health or women's health research include the 
Food and Drug Administration (FDA), Centers for Disease Control and 
Prevention (CDC), Agency for Healthcare Quality and Research (AHRQ), 
Indian Health Service (INS), Substance Abuse and Mental Health Services 
Administration (SAMHSA), Health Resources and Services Administration 
(HRSA), and Centers for Medicare and Medicaid Services (CMS). It is 
imperative that all these offices are funded at levels which are 
adequate for them to perform their assigned missions, and are 
sustainable so as to support needed changes in the long term. This is 
especially true for HRSA, which promotes an integrated approach to 
women's health across the lifespan and helps low income women access 
necessary health services. SAMHSA has taken a lead role promoting 
improvement in women's mental health services and best-practices. The 
agency also devotes significant resources to assist the VA and DOD with 
mental health services and support for members of the armed services, 
their families and veterans. It is only through consistent funding that 
these offices, as well as the OWH are able to achieve their goals.
    We ask that the Committee report reflect Congress' support for 
these Federal women's health offices, and recommend that they are 
appropriately funded on a permanent basis to ensure that these programs 
can continue and be strengthened in the coming fiscal year. These 
offices do important work, both individually and in collaboration with 
other offices and Federal agencies--to ensure that women receive the 
appropriate care and treatments in a variety of different areas. The 
budgets for these offices have been flat-lined in recent years, which 
results in effectively a net decrease due to inflation. Considering the 
impact of women's health programs from OWH on the public, we urge 
Congress to provide an increase of $1 million for the HHS OWH, a total 
$34.7 million requested for fiscal year 2013.
               centers for disease control and prevention
    The CDC's Office of Women's Health (OWH) works to promote and 
protect the health, safety, and quality of life of women at every stage 
of life. SWHR supports the domestic and international work of the 
office. While SWHR is delighted that the CDC's OWH is now codified in 
statue, we are concerned that proposed cuts to the CDC budget by the 
administration will significantly jeopardize programs that benefit 
women, leaving them with even fewer options for sound clinical 
information. Research and clinical medicine are still catching up from 
decades of a male-centric focus, and when diseases strike women, there 
remains a paucity of basic knowledge on how diseases affect female 
biology, a lack of drugs that have been adequately tested in women. Now 
even fewer options for information through the many educational 
outreach programs of the CDC.
    The OWH within CDC plays a fundamental role in the agency; leading 
the CDC in the collaboration with other offices in CDC, HHS, and the 
State Department in the early development of the Global Health 
Initiative. In 2012, CDC OWH functioned with a budget of just $473,291 
and routinely collaborates with other agencies to advance the knowledge 
and research into women's health issues. In a time of limited budgetary 
dollars, Congress should invest in those offices that promote working 
in collaboration with other agencies, which shares much needed 
expertise while avoiding unnecessary duplication. SWHR recommends that 
Congress provide the CDC OWH with a 1.06 percent increase for fiscal 
year 2013, bringing their total to $478,000.
               agency for healthcare and research quality
    The Agency for Healthcare Research and Quality's work serves as a 
catalyst for change by promoting the results of research findings and 
incorporating those findings into improvements in the delivery and 
financing of healthcare. Through AHRQ's research projects, lives have 
been saved. For example, it was AHRQ who first discovered that women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines, which have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks. As efforts to improve the quality of care, not 
just the quantity of care, progress, findings such as these coming out 
of AHRQ reveal where relatively modest investments can offer 
significant improvement to women's health outcomes, as well as a better 
return on investment for scarce healthcare dollars.
    While AHRQ has made great strides in women's health research, the 
agency has always lacked the funding to truly revolutionize healthcare 
in America. Funds from the American Recovery and Reinvestment Act moved 
AHRQ in the right direction; however, those funds were never added to 
AHRQ's base funding level. SWHR recommend Congress fund AHRQ at the 
President's request for fiscal year 2013, with $334 million acting as 
AHRQ's base discretionary funds. This investment ensures that adequate 
resources are available for high priority research, including women's 
healthcare, sex- and gender-based analyses, and health disparities--
valuable information that can help to better personalize treatments, 
lower overall medical spending, and improve outcomes for female and 
male patients nationwide.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for medical and health services research 
and its commitment to the health of the Nation through its support of 
peer-reviewed research. We look forward to continuing to work with you 
to build a healthier future for all Americans.
                                 ______
                                 
          Prepared Statement of the Trust for America's Health
    My name is Jeff Levi, and I am Executive Director of Trust for 
America's Health (TFAH), a nonprofit, nonpartisan organization 
dedicated to saving lives by protecting the health of every community 
and working to make disease prevention a national priority. I am 
grateful for the opportunity to submit testimony to the Subcommittee 
regarding funding for key public health programs. As you craft the 
fiscal year 2013 Labor, Health and Human Services, Education and 
Related Agencies (LHHS) appropriations bill, I urge you to include 
adequate funding for prevention and preparedness programs to promote 
America's health. Moreover, as you work with the Department of Health 
and Human Services (HHS) to allocate funding from the Prevention and 
Public Health Fund (Fund), I urge you to ensure that the Fund is 
invested in transformative programs that will modernize our public 
health system, lower health costs, and enable Americans to lead longer, 
healthier lives.
    Centers for Disease Control and Prevention (CDC).--TFAH is 
extremely concerned by the diminished funding proposed for the Centers 
for Disease Control and Prevention. The President's fiscal year 2013 
budget calls for a $664 million reduction in budget authority for CDC, 
which is an 11.7 percent cut from fiscal year 2012, and a $1.4 billion 
cut since fiscal year 2010. These cuts will force the Agency to choose 
between vaccinating children against deadly, preventable illnesses, 
detecting foodborne outbreaks, and preventing death and injury from the 
next disaster. We urge you to restore base funding to no less than last 
year's level, or at least protect CDC from further cuts and focus our 
investment on cost-effective public health and prevention programs.
    The Prevention and Public Health Fund.--The Prevention and Public 
Health Fund is the only dedicated funding for prevention and public 
health in U.S. history. Despite the cut contained in the Middle Class 
Tax Relief and Job Creation Act, the Fund will still provide an 
additional $12.5 billion over the next 10 years (fiscal year 2013 to 
fiscal year 2022) to enable communities in every State to invest in 
effective, proven prevention efforts. To date, the Fund has invested 
$2.25 billion since fiscal year 2010 to support State and local public 
health efforts to transform and revitalize communities, build 
epidemiology and laboratory capacity to track and respond to disease 
outbreaks, train the Nation's public health and health workforce, 
prevent the spread of HIV/AIDS, expand access to vaccines, reduce 
tobacco use, and help control the obesity epidemic.
    The Fund was intended to supplement, not supplant, existing 
investments with the first-ever, reliable national funding stream for 
public health, while creating jobs, bending the healthcare cost curve, 
and prioritizing disease prevention. In the long-run, expenditures from 
the Fund should be guided by the National Prevention Strategy (NPS). 
The Fund gives Congress the authority to direct the investment, while 
at the same time guaranteeing an ongoing commitment to prevention 
unprecedented in today's ``sick care'' system. Eliminating the Fund, or 
using a substantial portion of it to supplant existing discretionary 
dollars, would be an enormous step backwards in our progress on cost 
containment, public health modernization, and wellness promotion. We 
urge the Committee to protect the Fund and ensure it is used to reduce 
healthcare costs and help create a long-term path to a healthier and 
economically sound America.
    Community Transformation Grants.--Chronic diseases are responsible 
for 75 percent of healthcare costs in the United States, and the causes 
are often environmental, social, or economic and not addressed by the 
clinical care system. The Community Transformation Grants (CTG) 
program, administered by the CDC, implements and evaluates evidence-
based community preventive health activities to reduce chronic disease 
and address health disparities. The program focuses on innovative, 
cross-cutting approaches to reducing health risks. The program aligns 
with the NPS by funding multi-sector coalitions to make healthy living 
easier and more affordable where people work, live, learn, play, and 
exercise. We recommend the Committee allocate $250 million for the CTG 
program in fiscal year 2013, which will permit CDC to continue funding 
the current grantees and fund additional communities to broaden the 
scope and success of the program to reach millions more Americans. 
Grants will be used for both community prevention capacity building and 
investing in targeted interventions to reduce the prevalence of the 
leading causes of death, associated risk factors, and health 
disparities.
    National Center for Chronic Disease Prevention and Health 
Promotion.--Starting in 2011, CDC awarded coordinated chronic disease 
State grants to all 50 States to begin to build a core capacity to 
address common risk factors and implement comprehensive strategies for 
promoting health. CDC recently concluded its first round of meetings 
with regional grantees and many States are already reporting 
considerable progress in their efforts to reorganize and achieve 
progress toward this new approach. TFAH recommends a funding level of 
$42 million for the Coordinated Chronic Disease State Grants for fiscal 
year 2013, which will permit CDC to continue to support all States in 
their efforts to coordinate and integrate chronic disease funding and 
activities. The President's proposal to consolidate budget lines for 
the Center is another approach that could further aid coordination of 
national and State chronic disease activities.
    Racial and Ethnic Approaches to Community Health (REACH) programs 
work in communities across the country to eliminate racial and ethnic 
disparities in health and reduce the burden of chronic disease among 
at-risk populations. REACH partners employ innovative, culturally 
competent, community-based, and participatory approaches to develop and 
implement evidence-based practices, empower communities, and reduce 
health disparities. TFAH recommends maintaining the REACH program at 
the fiscal year 2012 funding level of $53.94 million. Eliminating REACH 
would have a devastating impact on the underserved communities 
benefiting from REACH, and would prevent dissemination of best 
practices from REACH communities that can reduce health disparities 
throughout the Nation.
    National Center for Environmental Health (NCEH).--Since fiscal year 
2009, NCEH funding has been cut approximately 25 percent. NCEH cannot 
afford to sustain additional funding cuts without critically damaging 
our Nation's core environmental health infrastructure. The cuts 
implemented to the Healthy Homes and Lead Poisoning Prevention program 
for fiscal year 2012 alone will jeopardize the health of families and 
nearly 450,000 children living in homes nationwide where exposure to 
lead, rodent infestation, and other risk factors is likely. We support 
funding for NCEH at $181.66 million for fiscal year 2013.
    Since 2002, the mission of the National Environmental Public Health 
Tracking Network has been to provide information that communities can 
use to improve their health; the information will come from a 
nationwide network that brings together health and environmental data. 
The program currently operates in 23 States and one city. TFAH 
recommends $43 million for the Tracking Network to expand the program 
to link environmental and health data to identify problems and 
effective solutions that will reduce the burden of chronic disease. 
This level of funding would enable CDC to fund at least five additional 
grantees. An additional $5 million over the fiscal year 2012 level 
would enable the program to add at least three States to the existing 
network. However, the current level of funding is not sufficient to 
fill the health and environmental data gap that is preventing our full 
understanding of how our health is affected by the environment.
    For over 30 years, the Environmental Health Laboratory of NCEH has 
been performing biomonitoring measurements--direct measurements of 
people's exposure to toxic substances in the environment. TFAH 
recommends a funding increase of $2 million from fiscal year 2012 
levels to enable the Division of Laboratory Sciences to work with the 
clinical laboratory community to create a standardized measurement 
process for several cardiovascular disease biomarkers. A reference 
method for these specific biomarkers would improve diagnosis of disease 
and create a tremendous return on investment for Federal and State 
healthcare programs.
    Public Health Emergency Preparedness.--The State & Local 
Preparedness & Response Capability program at the Centers for Disease 
Control and Prevention is the only Federal program that supports the 
work of health departments to prepare for and respond to all types of 
disasters, including bioterror attacks, natural disasters, and 
infectious disease outbreaks. The centerpiece of the program is the 
Public Health Emergency Preparedness (PHEP) Cooperative Agreements. 
PHEP grants support all 50 States, as well as major cities and 
territories, to develop 15 core public health capabilities identified 
by CDC, including in the areas of biosurveillance, community 
resilience, countermeasures, mitigation, incident management, 
information management, and surge management. TFAH recommends providing 
$761.1 million for State and Local Preparedness and Response 
Capability, equivalent to the fiscal year 2010 allocation. Recent and 
proposed cuts mean that our Nation may be less prepared than it was 
just a few years ago, including the potential loss of as many as 1,500 
highly trained frontline public health preparedness workers, reducing 
the number of high-level laboratories, defunding academic and research 
centers, and eroding training, exercise, planning, epidemiology, and 
surveillance capacity. Preparedness is dependent on maintaining a well-
trained public health workforce, and inconsistent funding results in 
serious gaps in our ability to respond to new health threats.
    In the event of a major disease outbreak or bioterror attack, the 
public health and healthcare systems would be severely overstretched. 
TFAH recommends $426 million for fiscal year 2013 for Hospital 
Preparedness Program (HPP), equivalent to the fiscal year 2010 
allocation. The HPP, administered by the Assistant Secretary for 
Preparedness and Response (ASPR), provides funding and technical 
assistance to prepare the health system to respond to and recover from 
a disaster. The program, which began in response to 9/11, has evolved 
from one focused on equipment and supplies held by individual hospitals 
to respond to a terrorist event to a system-wide, all-hazards approach. 
Funding for HPP must be maintained to retain and build on the progress 
made in hospitals' ability to respond to a disaster.
    Pandemic Influenza and Medical Countermeasures Enterprise.--The 
2011 H1N1 flu outbreak demonstrated how rapidly a new strain of flu can 
emerge and spread around the world. In 2011, CDC confirmed reports from 
several States of the first human-to-human transmission of a novel 
H3N2v influenza virus, illustrating how quickly the virus can mutate 
and spread. Funding for research, prevention, and response cannot 
simply be provided after a pandemic emerges. TFAH recommends $160 
million for CDC's seasonal and pandemic influenza program, equivalent 
to the fiscal year 2012 allocation, to ensure preparedness for this 
deadly infectious disease. In fiscal year 2013, CDC will use the 
funding to continue to protect the public against seasonal flu, track 
the H3N2 variant, monitor changes in the deadly H5N1 virus, work to 
reduce ongoing racial and ethnic disparities in adult vaccine demand, 
and plan for deploying new advances in vaccine formulations and 
diagnostics.
    The Biomedical Advanced Research and Development Authority (BARDA), 
within the office of the Assistant Secretary for Preparedness and 
Response was established in 2006 to jumpstart a new cycle of innovation 
in vaccines, diagnostics, and therapeutics, which would not be 
developed in the private market, in order to combat emerging health 
threats. BARDA provides incentives and guidance for research and 
development of products to counter bioterrorism and pandemic flu and 
manages Project BioShield, which includes the procurement and advanced 
development of medical countermeasures for chemical, biological, 
radiological, and nuclear agents. TFAH recommends $547 million for 
BARDA for fiscal year 2013 to continue development and acquisition of 
medical products key to America's biodefense strategy.
    The President's fiscal year 2013 request also includes funding for 
a new medical countermeasure strategic investment (MCMSI) firm, as 
proposed in the 2011 review. TFAH recommends $50 million to launch the 
MCM Strategic Investor to provide business and financial resources to 
biotech firms working to bring medical countermeasures into production.
    Global Disease Detection.--Through integrated disease surveillance, 
prevention and control activities, CDC's Global Disease Detection (GDD) 
program aims to recognize infectious disease outbreaks faster, improve 
the ability to control and prevent outbreaks, and to detect emerging 
microbial threats, in support of the International Health Regulations. 
In collaboration with host countries and the World Health Organization, 
CDC has established seven GDD Regional Centers, which strengthen our 
capacity to detect and respond to infectious disease outbreaks before 
they reach American shores, such as respiratory syndromes, diarrheal 
diseases, food-borne illnesses, and zoonotic diseases. TFAH recommends 
a $6 million increase for the GDD Program in fiscal year 2013, which 
would add at least two new Regional Centers, and enhance capacity at 
two existing Regional Centers. This increase would broaden our 
geographic coverage by establishing new developing Centers in West 
Africa or South America. According to CDC, additional cuts to the 
program could result in the closure of existing Regional Centers and 
diminished capacity at other Regional Centers. Establishing a Center 
requires years of negotiation, training, and nurturing of partnerships 
between CDC and local health and governmental officials. Closing a 
Center could result in that nation or region remaining closed to CDC 
for years to come.
Conclusion
    Investing in disease prevention is the most effective, common-sense 
way to improve health. Hundreds of billions of dollars are spent each 
year via Medicare, Medicaid, and other Federal healthcare programs to 
pay for healthcare services once patients develop an acute illness, 
injury, or chronic disease and present for treatment in our healthcare 
system. A sustained and sufficient level of investment in public health 
and prevention is essential to reduce high rates of disease and improve 
health in the United States. Mr. Chairman, thank you again for the 
opportunity to submit testimony on the urgent need to enhance Federal 
funding for public health programs which can save countless lives and 
protect our communities and our Nation.
                                 ______
                                 
                Prepared Statement of The AIDS Institute
    The AIDS Institute, a national public policy research, advocacy, 
and education organization, is pleased to comment in support of 
critical HIV/AIDS and Hepatitis programs as part of the fiscal year 
2013 Labor, Health and Human Services, Education and Related Agencies 
appropriation measure. We thank you for your support over the years, 
and hope you will adequately fund them in the future in order to 
provide for and protect the health of many Americans.
    HIV/AIDS remains one of the world's worst health pandemics. 
According to the Centers for Disease Control (CDC), over 620,000 people 
have died of AIDS and there are 50,000 new infections each year in the 
United States. An all-time high of approximately 1.2 million people in 
the United States are living with HIV/AIDS. Persons of minority races 
and ethnicities are disproportionately affected, as well as low income 
people, with nearly 90 percent of those infected relying on publicly 
funded healthcare.
    The vast majority of the discretionary programs supporting domestic 
HIV/AIDS efforts are funded through your Subcommittee. We are keenly 
aware of current budget constraints and competing interests for limited 
dollars, but programs that prevent and treat HIV are inherently in the 
Federal interest as they protect the public health. The AIDS Institute, 
working in coalition with others, has developed funding request numbers 
for each of these programs. We ask that you do your best to adequately 
fund them at the requested level.
National HIV/AIDS Strategy
    The Obama administration is implementing a comprehensive National 
HIV/AIDS Strategy (NHAS) that seeks to reduce new HIV infections, 
increase access to care and improve health outcomes for people living 
with HIV, as well as reduce HIV-related health disparities. The 
Strategy sets ambitious goals and seeks a more coordinated national 
response with a focus on communities where HIV is most prevalent and on 
programs that work. In order to attain the goals, additional investment 
in key areas will be needed and health reform must be implemented.
Centers for Disease Control and Prevention-HIV Prevention and Research
Fiscal year 2012: $786.2 million
Fiscal year 2013 community request: $1,311.2 million
    The United States allocates only 3 percent of its domestic HIV/AIDS 
spending on prevention. Investing in prevention today will save money 
tomorrow. Preventing one infection will save approximately $355,000 in 
future lifetime medical costs. Preventing all the new 50,000 cases in 
just 1 year would translate into an astounding $18 billion in lifetime 
medical costs.
    The CDC is focused on carrying out several goals of the NHAS. 
Specifically, (1) lowering the annual number of new infections by 25 
percent; (2) reducing the transmission rate by 30 percent; and (3) 
increasing from 79 to 90 the percentage of people living with HIV who 
know their serostatus. In order to address the needs of affected 
populations and the increased number of people living with HIV, CDC 
needs additional funding. While an increase of over $500 million would 
be needed to achieve the goals of the NHAS, The AIDS Institute supports 
an increase of at least $40.2 million over fiscal year 2012, as 
proposed by the President.
    With this funding, the CDC will be able to implement its new, high-
impact approach to HIV prevention, based on the combination of 
scientifically proven, cost-effective, and scalable interventions 
directed to the right populations in the right areas. Funds will also 
expand HIV testing.
    Included in the President's CDC HIV budget proposal is $10 million 
to restore a 25 percent cut to HIV Division of Adolescent and School 
Health (DASH) programs. The CDC reports that young people aged 13-29 
accounted for 39 percent of all new HIV infections in 2009. The AIDS 
Institute strongly supports the restoration of these funds.
Ryan White HIV/AIDS Programs
Fiscal year 2012: $2,392.2 million
Fiscal year 2013 community request: $2,875.0 million
    The centerpiece of the Government's response to caring for and 
treating low-income people with HIV/AIDS is the Ryan White HIV/AIDS 
Program. It now serves 577,000 low-income, uninsured, and underinsured 
people. In fiscal year 2012, all but one part of the Program 
experienced cuts in appropriated dollars. This is occurring at a time 
of increased need and demand. Consider the following:
  --Caseloads are increasing. People with HIV are living longer due to 
        lifesaving medications, and each year there are 50,000 new 
        infections with increased testing programs identifying 
        thousands of new people infected with HIV. As unemployment 
        rates climb, people are losing their employer-sponsored health 
        coverage.
  --Recent research has proven that HIV treatment also serves as HIV 
        prevention. In 2011, a landmark study found that successful 
        anti-retroviral treatment of HIV reduced the risk of 
        transmitting the virus to others by up to 96 percent.
  --There are significant numbers of people with HIV in the United 
        States who are not in care and receiving life-saving AIDS 
        medications. Recent CDC analysis reveals that only 41 percent 
        of the 1.2 million people living with HIV in the United States 
        are retained in HIV care and only 28 percent have a suppressed 
        viral load.
    Specifically, The AIDS Institute requests the following:
    Part A provides medical care and vital support services for persons 
living with HIV/AIDS in the metropolitan areas most affected by HIV/
AIDS. We request an increase of $118.2 million, for a total of $789.5 
million.
    Part B Base provides essential services including diagnostic, viral 
load testing and viral resistance monitoring, and HIV care to all 50 
States, DC, Puerto Rico, and the territories. We are requesting an 
$80.7 million increase, for a total of $502.9 million.
    The AIDS Drug Assistance Program (ADAP) provides life-saving HIV 
drug treatment to over 209,000 people, or about 46 percent of the HIV 
positive people in care in the United States. The majority of whom are 
people of color (65 percent) and very poor (75 percent are at or below 
200 percent of the Federal poverty level). ADAPs are experiencing 
unprecedented growth. Over the course of fiscal year 2011, HRSA reports 
that nearly 15,000 new people were added to the program.
    At the same time, State budgets have been stretched and the Federal 
contribution to the program as a percentage has dropped resulting in a 
crisis situation. According to NASTAD, State funding for ADAPs 
increased 11.5 percent between fiscal year 2010 and fiscal year 2011, 
and drug company rebates grew 18.43 percent to $618.9 million.
    Because of a lack of funding, there are currently 3,097 people in 
10 States on waiting lists, thousands more have been removed from the 
program due to lowered eligibility requirements, and drug formularies 
have been reduced. The AIDS Institute is very appreciative of the $15 
million increase to ADAP in fiscal year 2012, but it is far from what 
is currently required to meet the growing demand.
    Recognizing the current ADAP crisis, on World AIDS Day, December 1, 
2011, President Obama announced a transfer of $35 million from existing 
health programs to ADAP. The President proposes to continue that 
funding into fiscal year 2013 as part of his budget as well as an 
increase of $66.7 million for a total of $1 billion. While this is 
short of the actual need of $1,123.3 million, The AIDS Institute 
strongly supports this increase.
    Part C provides early medical intervention and other supportive 
services to 255,000 people at 345 directly funded clinics. Recognizing 
the shortage of resources for providing healthcare, on World AIDS Day 
2011, President Obama redirected $15 million to Part C Programs. The 
President is requesting to continue this funding in his fiscal year 
2013 budget and increase it by $15 million. While still short of the 
actual total need of $286 million, The AIDS Institute supports this 
request.
    Part D provides care to over 90,000 women, children, youth, and 
families living with and affected by HIV/AIDS at 700 sites. This family 
centered care promotes better health, prevents mother-to-child 
transmission, and brings hard-to-reach youth into care. We are 
disappointed that the President has proposed cutting Part D programs by 
$7.6 million and ask that you reject this request. Rather, The AIDS 
Institute supports a $10.1 million increase, for a total of $ 87.3 
million.
    Part F includes the AIDS Education and Training Centers (AETCs) 
program and the Dental Reimbursement program. We are requesting a $7.7 
million increase for the AETC program, for a total of $42.2 million, 
and a $5.5 million increase for the Dental Reimbursement program, for a 
total of $19 million.
National Institutes of Health-AIDS Research
Fiscal year 2012: $3.07 billion
Fiscal year 2013 community request: $3.5 billion
    The NIH conducts research to better understand HIV and its 
complicated mutations, discover new drug treatments, develop a vaccine 
and other prevention programs such as microbicides, and ultimately 
develop a cure. This research has already helped in the development of 
many highly effective new drug treatments, however as neither a cure 
nor a vaccine exists, and patients continue to build resistance to 
medications, additional research must be carried out. We ask the 
Committee to fund critical AIDS research at the community requested 
level of $3.5 billion.
Comprehensive Sexuality Education
    Since the vast majority of HIV infection occurs through sex, age 
appropriate education on how HIV is transmitted and how one can prevent 
transmission is critical. It is for this reason The AIDS Institute 
supports the funding of the Teen Pregnancy Prevention Initiative for a 
total of $130 million. Additionally, we oppose funding of abstinence 
only education programs, which have proven to be ineffective.
Minority AIDS Initiative
    The AIDS Institute supports increased funding for the Minority AIDS 
Initiative (MAI), which funds services nationwide that address the 
disproportionate impact that HIV has on communities of color. For 
fiscal year 2013, we are requesting a total of $610 million.
Policy Riders
    The AIDS Institute is opposed to using the appropriations process 
as a vehicle to repeal or prevent the implementation of current law or 
ban funding for certain activities or organizations. This includes 
implementation of the Affordable Care Act. We urge you not to prevent 
the implementation of programs, such as syringe exchange programs, 
which are scientifically proven to prevent HIV and Hepatitis. The AIDS 
Institute was disappointed the Federal funding ban was reinstated in 
fiscal year 2012, and appreciates that this language was not included 
in the President's budget.
Viral Hepatitis
    There are over 5.3 million people in the United States infected 
with viral hepatitis, but hepatitis prevention at the CDC is funded at 
only $29.8 million. This is insufficient to provide basic health 
services or to implement the HHS Viral Hepatitis Action Plan. While the 
President's fiscal year 2013 budget flat funds overall CDC Hepatitis 
programs at $29.7 million, it does include $10 million allocated from 
the Prevention and Public Health Fund in fiscal year 2012 to continue 
as appropriated dollars in fiscal year 2013. For fiscal year 2013, we 
request an increase of $30.1 million for a total of $59.8 million.
    The AIDS Institute asks that you give great weight to our testimony 
as you develop the fiscal year 2013 appropriation bill. Should you have 
any questions or comments, feel free to contact Carl Schmid, Deputy 
Executive Director, The AIDS Institute, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197a6a7a7174707d596d717c78707d6a70776a6d706d6c6d7c37766b7e37">[email&#160;protected]</a>
    Thank you very much.
                                 ______
                                 
              Prepared Statement of The Endocrine Society
    The Endocrine Society is pleased to submit the following testimony 
regarding fiscal year 2013 Federal appropriations for biomedical 
research, with an emphasis on appropriations for the National 
Institutes of Health (NIH). The Endocrine Society is the world's 
largest and most active professional organization of endocrinologists 
representing more than 15,000 members worldwide. Our organization is 
dedicated to promoting excellence in research, education, and clinical 
practice in the field of endocrinology. The Society's membership 
includes thousands of researchers who depend on Federal support for 
their careers and their scientific advances.
    A half century of sustained investment by the United States Federal 
Government in biomedical research has dramatically advanced the health 
and improved the lives of the American people. The NIH specifically has 
had a significant impact on the United States' global preeminence in 
research and fostered the development of a biomedical research 
enterprise that was at one time unrivaled throughout the world. 
However, the dominance of the U.S. research enterprise is being sorely 
tested with the consistently low funding increases allotted to the NIH 
since 2003. Just one small example of this is the dramatic increase in 
the percentage of manuscripts from investigators in Europe and Asia 
that are published in our own journals.
    While funding for basic research in the United States appears to be 
slowing down, other countries are ramping up funding. China, for 
instance, plans to increase investment in basic research by 26 percent 
per year, and European countries will increase funding for basic 
research over the next 7 years by 40 percent.\1\ The countries of 
China, Ireland, Israel, Singapore, South Korea and Taiwan collectively 
increased their research and development (R&D) investments by 214 
percent between 1995 and 2004. The United States increased its total 
R&D investments by 43 percent during the same period.\2\
---------------------------------------------------------------------------
    \1\ Dr. Francis Collin's Testimony to House Appropriations 
Subcommittee. March 20, 2012
    \2\ The Task Force on the Future of American Innovation. Measuring 
the Moment: Innovation, National Security, and Economic 
Competitiveness.
---------------------------------------------------------------------------
    Although some would argue that the investment of other countries in 
R&D will benefit the United States through the subsequent discoveries, 
innovation is one of the keys to the economic growth and stability of 
our country. As President Obama stated, ``The key to our success--as it 
has always been--will be to compete by developing new products, by 
generating new industries, by maintaining our role as the world's 
engine of scientific discovery and technological innovation. It's 
absolutely essential to our future.'' Unfortunately, the President's 
fiscal year 2013 budget request for the NIH does not reflect this 
commitment.
    The relative lack of support for funding the biomedical research 
enterprise has consequences for our economy. Funding from the NIH 
supported more than 432,000 jobs and generated more than $62.1 billion 
in economic activity last year. More than 80 percent of its budget 
directly funds ``extramural'' research performed by 325,000 scientists 
at more than 3,000 institutions in all 50 States and the District of 
Columbia.\3\ While the number of jobs supported is impressive, it is 
unfortunately a decline from 2010, when the money spent by NIH 
extramurally supported 487,900 jobs, approximately 55,000 more jobs 
than in 2011. This is a direct illustration of the impact that lack of 
sustained investment in the agency is beginning to have.
---------------------------------------------------------------------------
    \3\ United for Medical Research. NIH's Role in Sustaining the U.S. 
Economy; A 2011 Update. March 20, 2012.
---------------------------------------------------------------------------
    In addition to creating jobs, funds from NIH grants put money back 
into the local and State economies through salaries and purchase of 
equipment, laboratory supplies, and vendor services. On average, for 
each dollar of taxpayer investment, NIH grants generate $2.21 in 
economic activity. As an example, UCLA generates almost $15 in economic 
activity for each dollar, resulting in a $9.3 billion impact on the 
region. The estimated economic impact of Baylor on the surrounding 
community is more than $358 million, generating more than 3,300 
jobs.\4\
---------------------------------------------------------------------------
    \4\ Federation of American Societies for Experimental Biology. NIH 
Advocacy Slides: California, Texas.
---------------------------------------------------------------------------
    Although the NIH has a significant impact on our local, State, and 
national economies, its primary purpose is to improve the health of the 
American people. Each year, the NIH funds thousands of research grants, 
facilitating the discovery of methods of prevention, treatment, and 
cure for debilitating diseases that negatively impact the health of the 
Nation's citizens and fuel rising healthcare costs. Nearly half of all 
Americans have a chronic medical condition, and these diseases now 
cause more than half of all deaths worldwide. Deaths attributed to 
chronic conditions could reach 36 million by 2015 if the trend 
continues unabated. In order to prevent and treat these diseases, and 
save the country billions in healthcare costs, significant investment 
in biomedical research will be needed.
    During a time of economic instability, investment in biomedical 
research makes sense because it leads to cures and treatments for 
debilitating diseases while at the same time generating significant 
economic activity for the local community.
    The Endocrine Society remains deeply concerned about the future of 
biomedical research in the United States without sustained support from 
the Federal Government. The Society strongly supports increased Federal 
funding for biomedical research in order to provide the additional 
resources needed to enable American scientists to address the 
burgeoning scientific opportunities and maintain the country's status 
of the preeminent research enterprise. The Endocrine Society recommends 
that NIH receive at least $32 billion in fiscal year 2013. This funding 
recommendation represents the minimum investment necessary to avoid 
further loss of promising research and global preeminence, while 
allowing the NIH's budget to keep pace with biomedical inflation.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States
    On behalf of The Humane Society of the United States (HSUS) and the 
Humane Society Legislative Fund (HSLF), and our joint membership of 
over 11 million supporters nationwide, we appreciate the opportunity to 
provide testimony on our top NIH funding priorities for the Labor, 
Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee in fiscal year 2013.
                  breeding of chimpanzees for research
    The HSUS requests that no Federal funding be appropriated for the 
breeding of chimpanzees for research purposes. The National Institutes 
of Health has had a moratorium on the breeding of federally owned and 
federally supported chimpanzees in place since 1995, but evidence shows 
that Government supported breeding still continues. However, given the 
lack of necessity for chimpanzees as models for human disease, the 
exorbitant costs of maintaining chimpanzees in laboratories, and the 
ethical issues surrounding the use of chimpanzees, there is no 
justification for the breeding of additional chimpanzees, who have a 
lifespan of up to 60 years, for research; therefore, Federal funds 
should not be used for this purpose.
    Further basis of our request can be found below.
Background Information and Costs
    In 1995, the National Institutes of Health implemented a moratorium 
on the breeding of federally owned and supported chimpanzees, due to a 
``surplus'' of chimpanzees and the excessive costs of lifetime care of 
chimpanzees in laboratory settings.\1\ The cost of maintaining 
chimpanzees in laboratories is exorbitant, up to $66 per day per 
chimpanzee; over $1 million per chimpanzee over an individual's 
approximately 60-year lifetime. Breeding of additional chimpanzees into 
laboratories will only perpetuate and increase the burdens on the 
Government in supporting and managing the chimpanzee research colony.
---------------------------------------------------------------------------
    \1\ NRC (National Research Council) (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, DC.
---------------------------------------------------------------------------
    The breeding moratorium was extended indefinitely in 2007. As a 
result, none of the federally owned chimpanzees should have given birth 
or sired infants since 1995. However, there is evidence that at least 
one laboratory has used millions of Federal dollars in recent years to 
support breeding of Government owned chimpanzees. According to records 
provided by the New Iberia Research Center (NIRC) and the National 
Institutes of Health, at least 132 infants were born to a federally 
owned mother and/or federally owned father at NIRC between January 2000 
and November 2011.
    Some of the infants born at NIRC to federally owned parents were 
used to fulfill a multi-year, multi-million dollar contract that the 
laboratory has with an institute within NIH to provide NIH researchers 
with ``4 to 12 disease free infants per year.'' This contract is 
scheduled to end in fiscal year 2012 and this language will ensure that 
it is not renewed.
    In 2010, the Senate Committee on Appropriations included report 
language asking NIH to look into allegations that 123 infants had been 
born to at least one federally owned parent between 2000 and 2009 at 
NIRC. NIH responded that they had could not find evidence that it was 
happening to the extent that had been alleged and they believed NIRC 
was compliant with the moratorium. However, in an article in the 
journal Nature in November 2011, the director of NIRC admitted that he 
did not dispute the allegations and is, in fact, breeding federally 
owned chimpanzees.\2\
---------------------------------------------------------------------------
    \2\ Wadman, Meredith. (2011). Lab bred chimps despite ban. Nature, 
Vol 479, Pages 453-454.
---------------------------------------------------------------------------
Chimpanzees are not necessary for most current research
    In December 2011, the Institute of Medicine (IOM) and National 
Research Council released a report entitled ``Chimpanzees in Biomedical 
and Behavioral Research: Assessing the Necessity''. The report found 
that chimpanzees are ``largely unnecessary'' for research and, further, 
could not identify any current area of research for which chimpanzees 
are essential. The report also called for a sharp reduction in the use 
of chimpanzees in biomedical and behavioral research and noted that the 
``current trajectory indicates a decreasing scientific need for 
chimpanzee studies due to the emergence of non-chimpanzee models and 
technologies.'' \3\
---------------------------------------------------------------------------
    \3\ Institute of Medicine and National Research Council. (2011). 
Chimpanzees in Biomedical and Behavioral Research: Assessing the 
Necessity. National Academies Press: Washington, DC.
---------------------------------------------------------------------------
    It is also important to note that even in the decade prior to IOM's 
findings, the vast majority of chimpanzees were not being used in any 
studies but, rather, were being warehoused at taxpayer expense. A main 
reason for implementing the breeding moratorium in the first place was 
due to a ``surplus'' of chimpanzees after it turned out that 
chimpanzees were not ideal models for HIV/AIDs.\1\
    Given the obvious downward trend of chimpanzee research, it makes 
little sense to invest limited research resources into any further 
breeding.
Concerns regarding chimpanzee care in laboratories
    A 9 month undercover investigation by The HSUS at University of 
Louisiana at Lafayette New Iberia Research Center (NIRC)--the largest 
chimpanzee laboratory in the world--revealed some chimpanzees living in 
barren, isolated conditions and documented over 100 alleged violations 
of the Animal Welfare Act at the facility regarding conditions for and 
treatment of chimpanzees. The U.S. Department of Agriculture (USDA) and 
NIH's Office of Laboratory Animal Welfare (OLAW) launched formal 
investigations into the facility and NIRC paid an $18,000 stipulation 
for violations of the Animal Welfare Act.
    Aside from the HSUS investigation, inspections conducted by the 
USDA demonstrate that basic chimpanzee standards are often not being 
met. Inspection reports for other federally funded chimpanzee 
facilities have reported violations of the Animal Welfare Act in recent 
years, including the death of a chimpanzee during improper transport, 
housing of chimpanzees in less than minimal space requirements, 
inadequate environmental enhancement, and/or general disrepair of 
facilities. These problems add further argument against the breeding of 
even more chimpanzees into this system.
Ethical and public concerns about chimpanzee research
    Chimpanzee research raises serious ethical issues, particularly 
because of their extremely close similarities to humans in terms of 
intelligence and emotions. Americans are clearly concerned about these 
issues: 90 percent believe it is unacceptable to confine chimpanzees 
individually in Government-approved cages (as we documented during our 
investigation at NIRC); 71 percent believe that chimpanzees who have 
been in the laboratory for over 10 years should be sent to sanctuary 
for retirement \4\; and 54 percent believe that it is unacceptable for 
chimpanzees to ``undergo research which causes them to suffer for human 
benefit.'' \5\
---------------------------------------------------------------------------
    \4\ 2006 poll conducted by the Humane Research Council for Project 
Release & Restitution for Chimpanzees in laboratories.
    \5\ 2001 poll conducted by Zogby International for the Chimpanzee 
Collaboratory.
---------------------------------------------------------------------------
    We respectfully request the following bill or committee report 
language:

    ``No funds made available in this Act, or any prior Act, may be 
used for grant agreements or contracts with facilities defined in 7 
U.S.C. Sec. 2132(e) if those agreements or contracts allow or encourage 
the breeding of chimpanzees.''

    We appreciate the opportunity to share our views for the Labor, 
Health and Human Services, Education and Related Agencies 
Appropriations Act for Fiscal Year 2013. We hope the Committee will be 
able to accommodate this modest request that will save the Government a 
substantial sum of money, benefit chimpanzees, and allay some concerns 
of the public at large. Thank you for your consideration.
  alternatives to the use of chimpanzees in prophylactic hepatitis c 
                       vaccine efficacy research
    In their December 2011 report entitled ``Chimpanzees in Biomedical 
and Behavioral Research: Assessing the Necessity'', the Institute of 
Medicine found that chimpanzees are ``largely unnecessary'' for current 
research and pointed to several available alternatives to the use of 
chimpanzees. The efficacy testing of a prophylactic hepatitis C 
vaccine, once developed, is the only area for which the committee 
wasn't able to reach consensus as to whether chimpanzees are necessary 
for this purpose. However, the committee pointed to several 
alternatives which are currently in development that could eliminate 
any need for chimpanzees in this type of research. Given the financial 
and ethical costs of maintaining chimpanzees in laboratories, coupled 
the serious doubts about the necessity of chimpanzees for such 
research, The Humane Society of the United States believes development 
of alternatives for this purpose should be an urgent priority for the 
National Institutes of Health. Not only would this ensure better use of 
limited research funds, but will also serve to move scientific 
innovation forward.
    We respectfully request the following committee report language.

    ``The Committee supports the immediate implementation and 
prioritization of the development of non-chimpanzee alternatives for 
hepatitis C prophylactic vaccine efficacy studies--as supported by the 
recent IOM report entitled ``Chimpanzees in Biomedical and Behavioral 
Research: Assessing the Necessity.''
 high throughput screening, toxicity pathway profiling, and biological 
                       interpretation of findings
         national institutes of health--office of the director
    In 2007, the National Research Council published its report titled 
``Toxicity Testing in the 21st Century: A Vision and a Strategy.'' This 
report catalyzed collaborative efforts across the research community to 
focus on developing new, advanced molecular screening methods for use 
in assessing potential adverse health effects of environmental agents. 
It is widely recognized that the rapid emergence of omics technologies 
and other advanced technologies offers great promise to transform 
toxicology from a discipline largely based on observational outcomes 
from animal tests as the basis for safety determinations to a 
discipline that uses knowledge of biological pathways and molecular 
modes of action to predict hazards and potential risks.
    In 2008, NIH, NIEHS and EPA signed a memorandum of understanding 
\6\ to collaborate with each other to identify and/or develop high 
throughput screening assays that investigate ``toxicity pathways'' that 
contribute to a variety of adverse health outcomes (e.g., from acute 
oral toxicity to long-term effects like cancer). In addition, the MOU 
recognized the necessity for these Federal research organizations to 
work with ``acknowledged experts in different disciplines in the 
international scientific community.'' Much progress has been made, 
including FDA joining the MOU, but there is still a significant amount 
of research, development and translational science needed to bring this 
vision forward to where it can be used with confidence for safety 
determinations by regulatory programs in the Government and product 
stewardship programs in the private sector. In particular, there is a 
growing need to support research to develop the key science-based 
interpretation tools which will accelerate using 21st century 
approaches for predictive risk analysis. We believe the Office of the 
Director at NIH can play a leadership role for the entire U.S. 
Government by funding both extramural and intramural research.
---------------------------------------------------------------------------
    \6\ http://www.genome.gov/pages/newsroom/currentnewsreleases/
ntpncgcepamou121307finalv2.pdf.
---------------------------------------------------------------------------
    We respectfully request the following committee report language, 
which is supported by The HSUS, HSLF, The Procter & Gamble Company, and 
the American Chemistry Council.
``NIH Director
    ``The Committee supports NIH's leadership role in the creation of a 
new paradigm for chemical risk assessment based on the incorporation of 
advanced molecular biological and computational methods in lieu of 
animal toxicity tests. NIH has indicated that development of this 
science is critical to several of its priorities, from personalized 
medicine to tackling specific diseases such as cancer and diabetes. The 
Committee encourages NIH to continue to expand its extramural support 
for the use of human biology-based experimental and computational 
approaches in health research to further define toxicity and disease 
pathways and develop tools for their integration into evaluation 
strategies. Extramural and intramural funding should be made available 
for the evaluation of the relevance and reliability of Tox21 methods 
and prediction tools to assure readiness and utility for regulatory 
purposes, including pilot studies of pathway-based risk assessments. 
The Committee requests NIH provide a report on associated funding in 
fiscal year 2013 for such activity and a progress report of Tox21 
activities in the congressional justification request, featuring a 5-
year plan for projected budgets for the development of Tox21 methods, 
including prediction models, and activities specifically focused on 
establishing scientific confidence in them for regulatory. The 
Committee also requests NIH prioritize an additional (1-3 percent) of 
its research budget within existing funds for such activity.''
                                 ______
                                 
           Prepared Statement of the Tri-Council for Nursing
    The Tri-Council for Nursing, comprising the American Association of 
Colleges of Nursing, the American Nurses Association, the American 
Organization of Nurse Executives, and the National League for Nursing, 
respectfully requests $251 million for the Nursing Workforce 
Development programs authorized under Title VIII of the Public Health 
Service Act (42 U.S.C. 296 et seq.) in fiscal year 2013.
    The Tri-Council is a long-standing nursing alliance focused on 
leadership and excellence in the nursing profession. As the Nation 
looks toward restructuring the healthcare system by focusing on 
expanding access, decreasing cost, and improving quality, a significant 
investment must be made in strengthening the nursing workforce, a 
profession which the U.S. Bureau of Labor Statistics (BLS) projects a 
growth of 26 percent by 2020.
    Notwithstanding the economic challenges facing our Nation today, 
the BLS projects there will be 712,000 new nursing jobs created between 
2010 and 2020. This workforce growth is expected to continue as the 
demand for nursing care in traditional acute care settings and the 
expansion of non-hospital settings such as home care and long-term care 
accelerates. The BLS projections further explain the need for 495,500 
replacements in the nursing workforce, bringing the total number of job 
openings for nurses due to growth and replacements to 1.2 million by 
2020.
    As our Nation regains its economic foothold, the Tri-Council urges 
the Subcommittee to focus on the larger context of building the nursing 
capacity needed to meet the increasing healthcare demands of our 
Nation's population. Starting on January 1, 2011, baby boomers began 
turning 65 at the rate of 10,000 a day. With them comes the increased 
demand for healthcare and services of an aging population, which will 
swell the pressure on the healthcare system, especially when coupled 
with near epidemic growth in childhood obesity, diabetes, and other 
chronic diseases experienced among our country's populations.
    Moreover, the acute nurse faculty shortage is a primary reason why 
schools of nursing across the country turn away thousands of qualified 
applications each year. The demand for nurses and the faculty who 
educate them is a serious impediment to improving the health of 
America. Nurses continue to be the largest group of healthcare 
providers whose services are directly linked to quality and cost-
effectiveness. The Tri-Council is grateful to the Subcommittee for its 
past commitment to Title VIII funding and respectfully asks for a 
continued long-term investment that will build the nursing workforce 
necessary to deliver the quality, affordable care envisioned in health 
reform.
       a proven solution: nursing workforce development programs
    The Nursing Workforce Development programs, authorized under Title 
VIII of the Public Health Service Act (42 U.S.C. 296 et seq.), have 
helped build the supply and distribution of qualified nurses to meet 
our Nation's healthcare needs since 1964. Over the last 48 years, the 
original programs as well as newly added and expanded programs have 
addressed all aspects of supporting the workforce--education, practice, 
retention, and recruitment. They have bolstered nursing education at 
all levels; from entry-level preparation through graduate study, and 
provide support for institutions that educate nurses for practice in 
rural and medically underserved communities. A description of the Title 
VIII programs and their impact are included below.
  --Advanced Nursing Education (ANE) Grants (Sec. 811) support the 
        preparation of registered nurses (RNs) in master's and doctoral 
        nursing programs. The ANE grants help prepare our Nation's 
        nurse practitioners, clinical nurse specialists, nurse 
        midwives, nurse anesthetists, nurse educators, nurse 
        administrators, nurses in executive practice, public health 
        nurses, and other nursing specialists requiring advanced 
        nursing education. In fiscal year 2010, these grants supported 
        the education of 7,863 students.
  --Advanced Education Nursing Traineeships (AENT) assist graduate 
        nursing students by providing full or partial reimbursement for 
        the costs of tuition, books, program fees, and reasonable 
        living expenses. Funding for the AENTs supports the education 
        of future nurse practitioners, clinical nurse specialists, 
        nurse midwives, nurse anesthetists, nurse educators, nurse 
        administrators, public health nurses, and other nurse 
        specialists requiring advanced education.
  --Nurse Anesthetist Traineeships (NAT) supports the education of 
        students in nurse anesthetist programs. In some States, 
        certified registered nurse anesthetists are the sole anesthesia 
        providers in almost 100 percent of rural hospitals. Much like 
        the AEN Traineeships, the NAT provides full or partial support 
        for the costs of tuition, books, program fees, and reasonable 
        living expenses.
  --In fiscal year 2010, the AEN Traineeship and the NAT supported 
        12,325 nursing students.
  --Nursing Workforce Diversity Grants (Sec. 821) prepare students from 
        disadvantaged backgrounds to become nurses. This program awards 
        grants and contract opportunities to schools of nursing for a 
        variety of clinical training facilities to address nursing 
        educational needs for not only disadvantaged students but also 
        racial and ethnic minorities underrepresented in the nursing 
        profession. In fiscal year 2010, the program supported 10,361 
        students.
  --Nurse Education, Practice, Quality and Retention Grants (Sec. 831 
        and Sec. 831A) help schools of nursing, academic health 
        centers, nurse-managed health centers, State and local 
        governments to strengthen nursing education programs. In fiscal 
        year 2010, this program supported 4,860 undergraduate nursing 
        students.
  --Nurse Loan Repayment and Scholarship Program (Sec. 846, Title VIII, 
        PHSA) provides grants to students that pay up to 85 percent of 
        a student's loan in return for at least 3 years of service in a 
        designated health shortage area or in an accredited school of 
        nursing. In fiscal year 2010, the Nurse Loan Repayment and 
        Scholarship Programs supported 1,304 nurses and nursing 
        students.
  --Nurse Faculty Loan Program (Sec. 846A, Title VIII, PHSA) provides 
        up to 85 percent of loan cancellation if the student agrees to 
        a 4-year teaching commitment in a school of nursing. In fiscal 
        year 2010, these grants supported the education of 1,551 future 
        nurse educators.
  --Comprehensive Geriatric Grants (Sec. 855, Title VIII, PHSA provide 
        support to nursing students specializing in care for the 
        elderly. These grants may be used to educate RNs who will 
        provide direct care to older Americans, develop and disseminate 
        geriatric curriculum, prepare faculty members, and provide 
        continuing education.
    Our Nation is faced with a growing healthcare crisis that must be 
addressed on many fronts. Nurses are an important part of the solution 
to the crisis of cost, burden of disease, and access to quality care. 
To meet this challenge, funding of proven Federal programs such as 
Title VIII will help ease the demand for RNs. The Tricouncil 
respectfully requests your support of $251 million for the Title VIII 
Nursing Workforce Development Programs in fiscal year 2013.
                                 ______
                                 
   Prepared Statement of The Society for Healthcare Epidemiology of 
America and the Association for Professionals in Infection Control and 
                              Epidemiology
    The Society for Healthcare Epidemiology of America (SHEA) and the 
Association for Professionals in Infection Control and Epidemiology 
(APIC) thank you for this opportunity to submit testimony on Federal 
efforts to eliminate preventable healthcare-associated infections 
(HAIs). HAIs are among the leading causes of preventable death in the 
United States, accounting for an estimated 1.7 million infections and 
99,000 associated deaths annually according to the CDC's most recent 
official estimates. In addition to the substantial human suffering, 
HAIs contribute $28 to $33 billion in excess healthcare costs each 
year.
    The good news is that some HAIs are on the decline as a result of 
recent advances in the understanding of how to prevent certain 
infections. In particular, bloodstream infections associated with 
indwelling central venous catheters, or ``central lines,'' are largely 
preventable when healthcare providers use the CDC infection prevention 
recommendations in the context of a performance improvement 
collaborative. Over the past decade, the Agency for Healthcare Research 
and Quality (AHRQ) has funded numerous projects targeting HAI 
prevention that have led to the successful reduction of central line-
associated blood stream infections (CLABSIs) in hospital intensive care 
units (ICUs). Healthcare professionals have reduced these infections in 
ICU patients by 58 percent since 2001, which represents up to 27,000 
lives saved. In spite of this notable progress, there is a great deal 
of work to be done toward the goal of HAI elimination.
    To build and then sustain these winnable battles against HAIs, we 
urge you, in fiscal year 2013, to support the CDC Coalition's request 
for $7.8 billion for the CDC's ``core programs.'' We are concerned 
about the President's fiscal year 2013 budget proposal that would 
reduce the CDC's budget authority by $664 million, for a total 
reduction of $1.4 billion since fiscal year 2010. At the same time, the 
administration and Congress increasingly rely on the Prevention and 
Public Health Fund and funding transfers from other agencies to 
backfill the cuts to CDC's budget authority. We believe that Congress 
should prioritize funding for the activities and programs supported by 
CDC that are essential to protect the health of the American people.
    We especially want to highlight our support for the $27.5 million 
in the President's budget for the CDC's National Healthcare Safety 
Network (NHSN). These funds are critically needed to ensure high-
quality monitoring of HAI prevalence as well as antibiotic usage in the 
U.S. Collection of accurate, timely, and complete data is necessary to 
measure the true extent of the problem, develop evidence-based HAI 
prevention strategies and monitor their effectiveness. In addition, 
consistent, high quality, scientifically sound and validated data are 
necessary to be reported at the State and Federal level to ensure that 
accurate data are available to evaluate the HHS National Action Plan to 
Prevent HAIs progress as well as to support transparency to the public, 
allowing for fair comparisons between facilities. Such data are 
critical to understanding patterns of HAI prevalence, which help public 
health and healthcare practitioners better coordinate prevention 
efforts and measure reduction in HAIs. Since NHSN is the only system 
with this capability, the majority of States have adopted it for 
legislatively mandated public reporting and most inpatient facilities 
reimbursed by Medicare are required to report specified HAIs via NHSN. 
Data from other care settings and additional infection types are being 
phased in. Thus, the number of facilities, types of facilities and 
number of infection indicators are growing exponentially.
    Despite the system's importance in our Nation's efforts to monitor 
and prevent HAIs, funding for NHSN has been flat since fiscal year 
2010. Without additional funding, increasing the number of facilities 
reporting into NHSN from 3,000 in 2010 to an expected 16,500 in 2013 
will exceed the capacity of the system. The requested funding for NHSN 
will allow CDC to modernize the NHSN information technology platform to 
enhance electronic data collection, reduce the burden of data 
collection and allow facilities, States and Federal agencies to focus 
on infection prevention and control. The NHSN serves as the foundation 
for prevention and the development of innovative, evidence-based HAI 
prevention strategies. Federal resources are required to ensure 
accurate, timely, and complete data are reported to NHSN and become 
available to the public. We urge you to support the requested funding 
level for NHSN to allow the CDC, States and other Federal agencies to 
use this tool to carry out their mission to ensure the public's health, 
assure and improve the quality of care and enhance patient safety.
    CDC's Antimicrobial Resistance activities are included within the 
Emerging and Zoonotic Infectious Disease programs' proposed budget. 
SHEA and APIC commend the CDC for creating an expert advisory group on 
antimicrobial resistance. Continued support for the Emerging Infections 
Program (EIP) is also critical as the HAI component engages a network 
of State health departments and their academic medical center partners 
to help answer important questions about emerging HAI threats, advanced 
infection tracking methods and antibiotic resistance in the United 
States. Ensuring the effectiveness of antibiotics well into the future 
is vital for the Nation's public health, particularly at this time when 
our current therapeutic options are dwindling and research and 
development of new antibiotics is lagging. As bacteria and other micro-
organisms are becoming more resistant to antimicrobials, it is 
essential that the CDC maintains the ability to monitor organism 
resistance in healthcare as it is one of the most pressing problems and 
greatest challenges that healthcare providers will confront during the 
coming decade.
    It is critical that antimicrobial stewardship programs are adopted 
in all settings where antimicrobials are used. SHEA and APIC applaud 
the CDC for its Get Smart for Healthcare campaign, which aims to 
optimize antibiotic use by encouraging adherence to appropriate 
prescribing guidelines in hospitals and long-term care facilities and 
we encourage its continued support. We also strongly support the NHSN's 
Antibiotic Use Module. Launched in May 2011, it is the first effort in 
the United States to define national data on antibiotic use in 
healthcare institutions. Because single payer systems have the 
advantage of making it easier to track antimicrobial resistance, the 
United States stands at a disadvantage to European countries in this 
regard.
    SHEA and APIC are strongly supportive of the CDC Prevention 
Epicenters Program, a collaboration of CDC's Division of Healthcare 
Quality Promotion (DHQP) and five academic medical centers that conduct 
innovative infection control and prevention research to address 
important scientific questions regarding the prevention of HAIs, 
antibiotic resistance and other adverse healthcare events. The 
Epicenters Program is funded through the NHSN and has provided a unique 
forum in which academic leaders in healthcare epidemiology can partner 
directly with each other and with CDC subject matter experts. The 
resultant emphasis on multicenter collaborative research projects, 
through which investigators work together as a group, allows for 
research that in many cases, would not have been possible for a single 
academic center. The knowledge gained through the Epicenters Program 
has been highly valuable to the field, and has resulted in over 150 
publications in peer-reviewed journals on a wide range of HAI 
prevention topics.
    Existing HAI prevention strategies are limited by the current state 
of science, and as a result cannot prevent all HAIs even when fully 
implemented. As we strive to eliminate all preventable HAIs, we need to 
identify the gaps in our understanding of what is actually preventable. 
This distinction is critical to help guide subsequent research 
priorities and to help set realistic expectations. SHEA and APIC 
believe in the importance of conducting basic, epidemiological and 
translational studies to fill basic and clinical science gaps. While 
health services research (i.e., successful implementation of strategies 
already known or suspected to be beneficial) may provide some immediate 
short-term benefit, to achieve further success, a substantial 
investment in basic science, translational medicine, and epidemiology 
is needed to permit effective and precise, interventions that prevent 
HAIs. Moreover, experts in the field (Epidemiologists and Infection 
Preventionists), in collaboration with CDC and AHRQ, should be engaged 
in order to further define and prioritize the research agenda.
    SHEA and APIC strongly support the proposed investment of $34 
million by AHRQ in fiscal year 2013 to reduce and prevent healthcare-
associated infections (HAIs). This total includes $11.6 million in HAI 
research grants to improve the prevention and management of HAIs and 
$22.4 million in HAI contracts including nationwide implementation of 
Comprehensive Unit-based Safety Program (CUSP). AHRQ-funded projects 
related to HAI prevention involve the implementation of CUSP, which is 
based on an Intensive Care Unit Safety Reporting System developed by 
the Johns Hopkins University Quality and Safety Research Group, 
Baltimore, Maryland. SHEA and APIC are very pleased that AHRQ is 
expanding the CUSP program to all 50 States, extending its reach to 
other settings in addition to ICUs, and broadening the focus to address 
other types of infections, such as catheter-associated urinary tract 
infections (CAUTIs). Our organizations are participating in the CUSP-
CAUTI initiative through identification of expert members to serve on a 
national network of clinical faculty working to improve patient safety 
through dissemination of educational modules across the Nation.
    Despite the fact that HAIs are among the top 10 annual causes of 
death in the United States, support for basic, translational and 
epidemiological HAI research has not been a priority of the National 
Institutes of Health (NIH). The reality is that scientists studying 
these infections receive relatively less funding than colleagues in 
many other disciplines. The limited availability of Federal funding to 
study HAIs has the effect of steering young investigators interested in 
pursuing research in this area toward other, better-funded fields. This 
severely hampers the HAI clinical research enterprise at a time when it 
should be expanding. The current convergence of scientific, public and 
legislative interest in reducing rates of HAIs can provide the 
necessary momentum to address and answer important questions in HAI 
research and move our discipline to the next level of evidence-based 
patient safety. SHEA and APIC urge your support of increased NIH 
funding for basic, translational and implementation research 
proportionate to the clinical significance of HAIs.
    Although we are pleased that HHS' Office of the Assistant Secretary 
for Health (OASH) has expressed support for the implementation of HAI-
related reforms through the overall OASH budget, we believe having 
dedicated funding of $5 million for the HAI Action Plan is the best way 
to ensure that this critical initiative is adequately resourced. SHEA 
and APIC members have been actively engaged in this partnership for HAI 
prevention under the leadership of HHS Assistant Secretary for Health, 
Dr. Howard Koh and Deputy Assistant Secretary for Healthcare Quality, 
Dr. Don Wright. The development of the HAI Action Plan and the funding 
to support these activities has been critical to the effort to build 
support for a coordinated Federal plan to prevent infections. 
Additionally, we believe strongly that the CDC is the agency with the 
necessary expertise to define appropriate metrics through which the HAI 
Action Plan can best measure its efforts.
    SHEA and APIC also request that the Subcommittee approve $16.1 
million for the Centers for Medicare and Medicaid Services (CMS) 
surveys of ambulatory surgical centers (ASCs) as part of the budget 
request addressing direct survey costs. This funding will allow the CMS 
to continue the enhanced survey process--developed jointly with the 
CDC--to target infection control deficiencies in ASCs every 4 years. We 
believe this enhanced survey process is a good way of ensuring that 
basic infection prevention practices are followed, thus avoiding 
potential outbreaks due to unsafe practices.
    We thank you for the opportunity to submit testimony and greatly 
appreciate this subcommittee's assistance in providing the necessary 
funding for the Federal Government to have a leadership role in the 
effort to eliminate HAIs.
    About SHEA.--SHEA has helped define best practices in healthcare 
epidemiology worldwide since its founding in 1980. The Society works to 
achieve the highest quality of patient care and healthcare personnel 
safety in all healthcare settings by applying epidemiologic principles 
and prevention strategies to a wide range of quality-of-care issues. 
SHEA is a growing organization, strengthened by its membership of 2,200 
in all branches of medicine, public health, and healthcare 
epidemiology. SHEA members are committed to implementing evidence-based 
strategies to prevent HAIs and improve patient safety, and have 
scientific expertise in evaluating potential strategies to accomplish 
this goal.
    About APIC.--APIC's mission is to create a safer world through 
prevention of infection. The association's more than 14,000 members 
direct infection prevention programs that save lives and improve the 
bottom line for hospitals and other healthcare facilities. APIC 
advances its mission through patient safety, implementation science, 
competencies and certification, advocacy, and data standardization.
                                 ______
                                 
 Prepared Statement of the University of North Dakota and North Dakota 
                            State University
    On behalf of the University of North Dakota and North Dakota State 
University, thank you for the opportunity to submit our written 
testimony regarding the fiscal year 2013 funding for the National 
Institutes of Health (NIH) Institutional Development Award (IDeA) 
program. We respectfully request your support of no less than $310 
million for this critically important program. We further request that 
the Subcommittee gives serious consideration to legislative language 
which would direct that future NIH budgets include funding for the IDeA 
program that reaches no less than 1 percent of the total NIH budget. 
IDeA was authorized by the 1993 NIH Revitalization Act (Public Law 103-
43) and funds only merit-based, peer reviewed research that meets NIH 
research objectives in the 23 IDeA States and Puerto Rico.
    The States eligible for IDeA funding are defined as ``all States/
commonwealths with a success rate for obtaining NIH grant awards of 
less than 20 percent over the period of 2001-2005 or received less than 
an average of $120 million per year during that time period.'' 
Currently this includes 23 States and Puerto Rico--nearly half of the 
States. Funding from this critical capacity-building program has been a 
key part of the growth in research capacity and impact at the two North 
Dakota research universities in recent years.
    Funding for the IDeA program in fiscal year 2012 was $276.48 
million. The total budget for NIH in fiscal year 2012 was $30.86 
billion; thus in fiscal year 2012, the IDeA program--funding 
competitively awarded biomedical research in nearly half the Nation--
comprised only 0.89 percent of the entire NIH budget. The IDeA program 
exists because the 23 eligible States overall receive less than 20 
percent of NIH's extramural funding. The proposed reduction in the 
President's fiscal year 2013 budget request of $51 million represents a 
staggering 18 percent cut to the budget of the IDeA program, but 
represents only 0.16 percent of the entire proposed NIH budget. Making 
such a serious, disproportionate cut to a program designed to aid 
small, rural States is manifestly unfair. This program is small in the 
overall scheme of things at NIH, but huge for the States that compete 
for these funds. Our requested funding level of $310 million represents 
only 1 percent of the President's total fiscal year 2013 budget request 
for NIH.
    Our State, North Dakota, has benefited immensely from the 
competitive funding available through the IDeA program in the form of 
COBRE (Center for Biomedical Research Excellence) and INBRE (IDeA 
Networks of Biomedical Research Excellence) grants, and we anticipate 
submitting a joint proposal in September of this year for an IDeA 
Program Infrastructure for Clinical and Translational Research (IDeA 
CTR) grant.
    At the University of North Dakota, we have been awarded funding for 
two phases of a COBRE grant supporting research on neurodegenerative 
diseases. We have been notified informally that we can expect funding 
for Phase III, the final phase of a COBRE project, during fiscal year 
2012. North Dakota has one of the largest populations of the extremely 
old in the Nation (second only to Florida in the percentage of its 
citizens over 85 years of age), and high rates of neurodegenerative 
diseases such as Alzheimer's, Parkinson's, and multiple sclerosis. As 
an example of the impact of this funding and the research capacity it 
has built, externally funded research at the University of North 
Dakota's School of Medicine and Health Sciences has grown 
substantially. Prior to COBRE funding, in fiscal year 2002, the SMHS 
received about $12 million in external funding; by fiscal year 2011, 
this had increased to $20.5 million, an increase of 71 percent. In 
2010, when UND developed a new strategic plan for research, 
neuroscience was identified as an existing strength on which to build 
further.
    Thus, the neurobiology COBRE grant is achieving its intended 
purpose of expanding our research capacity and our ability to compete 
for Federal funding. That research is directed at problems of direct 
interest to our citizenry, but also to the rest of the United States.
    The University of North Dakota has submitted a proposal for an 
additional COBRE grant on the topic of epigenetics. Epigenetics is the 
study of how environmental factors influence the expression of our 
genes; in many cases these changes in gene expression can then be 
inherited by the next generation. Although possible funding for this 
COBRE grant application has not yet been determined, we believe that 
the submitted grant is a highly competitive one that addresses a 
burgeoning area of research interest and importance.
    North Dakota State University has received COBRE grants to fund 
research at its Center for Protease Research and the Center for Visual 
and Cognitive Neuroscience. COBRE funding supported important chemical 
and biological research at the Center for Protease Research relating to 
the roles played by enzymes that break down proteins in cancer and 
asthma.
    COBRE funding at NDSU's Center for Visual and Cognitive 
Neuroscience facilitated research illuminating and ameliorating 
conditions such as disordered perception, cognition, emotion, attention 
and executive function which are hallmarks of debilitating and costly 
disease syndromes (e.g. ADHD, ARMD, agnosia, amblyopia, autism, 
depression, dementia, dyslexia, hemi neglect, multiple sclerosis, 
Parkinson's disease, PTSD, and schizophrenia).
    COBRE funding has contributed to the success that both NDSU's 
Centers have achieved in obtaining competitive grants from privates 
sources and a variety of Federal agencies. Additionally, the COBRE 
grants led to the publication of NDSU's research findings in 
international, refereed publications and have aided in the recruitment 
of new faculty and increased enrollments in related graduate and 
undergraduate programs.
    Another critically important IDeA program is INBRE, which provides 
funding to build the biomedical workforce through activities ranging 
from outreach to elementary school children to creating opportunities 
for undergraduates to engage in research. This program has provided 
support for undergraduate students at 2- and 4-year colleges in North 
Dakota to participate in research during the summer at their home 
institutions. This program includes two tribal colleges and serves 
between 70 and 100 students each year. Another program at the 
University of North Dakota serves about 60 undergraduates per year and 
applications routinely exceed the number of slots that are available. 
These programs are critical for keeping students in the pipeline for 
the STEM (science, technology, engineering, and math) workforce. 
Studies have repeatedly shown that engaging undergraduates in original 
research is a powerful tool for retaining students in college so that 
they graduate in a timely way.
    A major emphasis has been on outreach programs to Native American 
students, the minority group that is most under-represented in the 
fields of science, engineering, and math. Between 25 and 35 Native 
American students in grades 7-12 participate each year in a program 
that uses traditional Native American tools to teach science. As many 
as 40 students from tribal colleges are funded each year to visit UND 
and learn about opportunities to transfer to the university and 
complete their 4-year degrees. INBRE provides support for transfer 
students from tribal colleges through the Pathway program, a 6-week 
summer program that prepares participants for advanced coursework in 
science. Pathway students can also receive tuition waivers from the 
university. INBRE funding is also provided to support the American 
Indian Health Research Forum on the UND campus each year; this forum 
attracts attendees from across the Nation.
    We expect to submit a joint proposal from the two North Dakota 
research universities this fall to help us develop a joint center for 
clinical and translational research. The basic science departments in 
our School of Medicine and Health Sciences have grown as a result of 
COBRE and INBRE programs. Like other States, we need to move the 
results of that research to patients' bedsides. If we are successful in 
competing for a CTR grant, we will be able to build the necessary 
infrastructure that we need to do so.
    North Dakota, with a population of 672,591 according to the 2010 
Census, is the smallest of all the IDeA States. Yet, our School of 
Medicine and Health Sciences graduates a disproportionately large 
number of primary care physicians who practice in rural areas, and 20 
percent of all Native American physicians in the United States are 
graduates of the University of North Dakota. This medical school is 
clearly making important contributions to healthcare for underserved 
populations. Like all medical schools, it must have a healthy research 
program underpinning its training of physicians, and funding from the 
IDeA program is critical to the health of that program and to building 
research capacity for the future.
    The IDeA States produce STEM graduates at the same per capita rate 
as States with larger populations and larger research portfolios. The 
students from IDeA States need and deserve the same exposure to 
research as students in larger States. If the proposed reductions in 
the President's fiscal year 2013 budget request for the IDeA program 
are not rejected, North Dakota and other small, mostly rural States, 
will receive a major setback in their efforts to increase their 
capacity to undertake biomedical research and to train the next 
generation of scientists who are critical for the health of our Nation 
and our economy.
    The IDeA program is absolutely critical not only for the University 
of North Dakota and North Dakota State University, but also for the 
biomedical research capacity and capability of research institutions 
nationwide. We sincerely appreciate the Subcommittee's ongoing support 
of the IDeA program and request that you give full consideration to our 
recommendations and fiscal year 2013 request of no less than $310 
million for the National Institutes of Health IDeA program. We further 
request that the Subcommittee considers legislative language directing 
that future NIH budgets include funding for the IDeA program that 
reaches no less than 1 percent of the total NIH budget.
Contact Information
    Phyllis E. Johnson, Ph.D. Vice President for Research and Economic 
Development, University of North Dakota. 264 Centennial Drive, Stop 
8367, Grand Forks, North Dakota 58201.
    Joshua Wynne, M.D., M.B.A., M.P.H. Vice President for Health 
Affairs and Dean of the School of Medicine and Health Sciences, 
University of North Dakota. 501 N. Columbia Road, Stop 9037, Grand 
Forks, ND 58202.
    Philip Boudjouk, Ph.D. Vice President for Research, Creative 
Activities, and Tech Transfer, North Dakota State University. Research 
1, Dept. 4000, PO Box 6050, Fargo, ND 58108-6050.
                                 ______
                                 
     Prepared Statement of the US Hereditary Angioedema Association
    Thank you for the opportunity to present the views of the US 
Hereditary Angioedema Association (US HAEA) regarding the importance of 
Hereditary Angioedema (HAE) public awareness activities and research.
    The US HAEA is a nonprofit patient advocacy organization founded in 
1999 to help those suffering with HAE and their families to live 
healthy lives. The Association's goals were, and remain, to provide 
patient support, advance HAE research and find a cure. The US HAEA 
provides patient services that include referrals to HAE knowledgeable 
healthcare providers, disease information and peer-to-peer support. US 
HAEA also provides research funding to scientific investigators to 
increase the HAE knowledge base and maintains an HAE patient registry 
to support ground-breaking research efforts. Additionally, US HAEA 
provides disease information materials and hosts forums to educate 
patients and their families, healthcare providers, and the general 
public on HAE.
    HAE is a rare and potentially life-threatening inherited disease 
with symptoms of severe, recurring, debilitating attacks of edema 
(swelling). HAE patients have a defect in the gene that controls a 
blood protein called C1-inhibitor, so it is also more specifically 
referred to as C1-inhibitor deficiency. This genetic defect results in 
production of either inadequate or nonfunctioning C1-inhibitor protein. 
Because the defective C1-inhibitor does not adequately perform its 
regulatory function, a biochemical imbalance can occur and produce an 
unwanted peptide--called bradykinin--that induces the capillaries to 
release fluids into surrounding tissues, thereby causing swelling.
    People with HAE experience attacks of severe swelling that affect 
various body parts including the hands, feet, face, airway (throat) and 
intestinal wall. Swelling of the throat is the most life-threatening 
aspect of HAE, because the airway can close and cause death by 
suffocation. Studies reveal that more than 50 percent of patients will 
experience at least one throat attack in their lifetime.
    HAE swelling is disfiguring, extremely painful and debilitating. 
Attacks of abdominal swelling involve severe and excruciating pain, 
vomiting, and diarrhea. Because abdominal attacks mimic a surgical 
emergency, approximately one-third of patients with undiagnosed HAE 
undergo unnecessary surgery. Untreated, an average HAE attack lasts 
between 24 and 72 hours, but some attacks may last longer and be 
accompanied by prolonged fatigue.
    The majority of HAE patients experience their first attack during 
childhood or adolescence. Most attacks occur spontaneously with no 
apparent reason, but anxiety, stress, minor trauma, medical, surgical, 
and dental procedures, and illnesses such as colds and flu have been 
cited as common triggers. ACE Inhibitors (a blood pressure control 
medication) and estrogen-derived medications (birth control pills and 
hormone replacement drugs) have also been shown to exacerbate HAE 
attacks.
    HAE's genetic defect can be passed on in families. A child has a 50 
percent chance of inheriting the disease from a parent with HAE. 
However, the absence of family history does not rule out the HAE 
diagnosis; scientists report that as many as 25 percent of HAE cases 
today result from patients who had a spontaneous mutation of the C1-
inhibitor gene at conception. These patients can also pass the 
defective gene to their offspring. Worldwide, it is estimated that this 
condition affects between 1 in 10,000 and 1 in 30,000 people.
Public Awareness at the Centers for Disease Control and Prevention
    HAE patients often suffer for many years and may be subject to 
unnecessary medical procedures and surgery prior to receiving an 
accurate diagnosis. Raising awareness about HAE among healthcare 
providers and the general public will help reduce delays in diagnosis 
and limit the amount of time that patients must spend without treatment 
for a condition that could, at any moment, end their lives.
    Once diagnosed, many individuals are able to piece together a 
family history of mysterious deaths and episodes of swelling that 
previously had no name. In some families, over many years, this 
condition has come to be accepted as something that must simply be 
endured. Increased public awareness is crucial so that these patients 
understand that HAE often requires emergency treatment and disabling 
attacks no longer need to be passively accepted. While HAE cannot yet 
be cured, intelligent use of available treatments can help patients 
lead a productive life.
    In order to prevent deaths, eliminate unnecessary surgeries, and 
improve patients' quality of life, it is critical that CDC pursue 
programs to educate the public and medical professionals about HAE in 
fiscal year 2013.
Research Through the National Institutes of Health
    In years past, HAE research was conducted at the National 
Institutes of Health (NIH) through the National Institute of Allergy 
and Infectious Diseases, the National Institute of Neurological 
Disorders and Stroke, the National Heart, Lung, and Blood Institute, 
the National Institute of Child Health and Human Development, National 
Center for Research Resources, and the National Institute on Diabetes 
and Digestive and Kidney Diseases. However, NIH has not engaged in HAE-
specific research since 2009, and there is no longer any Federal 
research as it relates to HAE.
    As it may provide greater opportunities for HAE research, we 
applaud the recent establishment of the National Center for Advancing 
Translational Sciences (NCATS) at NIH. Housing translational research 
activities at a single Center at NIH will allow these programs to 
achieve new levels of success. Initiatives like the Cures Acceleration 
Network are critical to overhauling the translational research process 
and overcoming the challenges that plague treatment development. In 
addition, new efforts like taking the lead on drug repurposing have the 
potential to speed access to new treatments, particularly to patients 
who struggle with rare or neglected diseases. As a rare disease 
community, HAE patients may also benefit from the Therapeutics for Rare 
and Neglected Diseases (TRND) program, housed at NCATS, as well 
coordination with the Office of Rare Diseases Research (ORDR). We ask 
that you support NCATS and provide adequate resources for the Center in 
fiscal year 2013.
    In order to reinvigorate HAE research at NIH, it is vital that NIH 
receive increased support in fiscal year 2013. US HAEA recommends an 
overall funding level of $32 billion for NIH in fiscal year 2013 and 
the inclusion of recommendations emphasizing the importance of HAE 
research to learn more about this rare disease and new pathways for 
appropriate treatment.
    Thank you for the opportunity to present the views of the HAE 
community.
                                 ______
                                 
            Prepared Statement of the U.S. Soccer Foundation
    Thank you Chairman Harkin, Ranking Member Shelby, and Members of 
the subcommittee, for the opportunity to submit this testimony. I am Ed 
Foster-Simeon, the president and chief executive officer of the U.S. 
Soccer Foundation (USSF). As Congress works on priorities for fiscal 
year 2013 Federal appropriations, I would like to respectfully urge 
that the subcommittee prioritize the Social Innovation Fund, an account 
in the Federal Corporation for National and Community Service, which is 
under the subcommittee's jurisdiction.
    The U.S. Soccer Foundation, the major charitable arm of soccer in 
the United States, was established in 1994. Thanks to support from 
donors, our corporate partners, and countless youth development 
organizations, the Foundation has provided more than $55 million in 
grants, financial support, and loans to help fund programs and projects 
in all 50 States. Thousands of individuals have benefited from the 
Foundation's support, and the need continues to grow.
    The U.S. Soccer Foundation seeks to improve the health and well-
being of children in urban economically disadvantaged areas using 
soccer as a vehicle for youth development and social change. 
Specifically, our goal is ensure that children in underserved 
communities have easy and affordable access to high-quality out-of-
school programs that improve health and social outcomes among this 
vulnerable population. We accomplish this through our innovative 
program: Soccer for Success, a free afterschool sports-based youth 
development program designed to address such national priorities as 
childhood obesity and juvenile delinquency. I will discuss this program 
further in my testimony, after detailing the urgent needs we are 
working to address and the Federal resource that provides tremendous 
support to these efforts.
    There is a great need for the expansion of multi-faceted youth 
development programs across the United States. First, childhood obesity 
rates have increased sharply in the United States over the past 30 
years. Today, nearly one-third of children and adolescents are 
overweight or obese (White House Task Force on Childhood Obesity). The 
rate of childhood obesity is even more alarming among children growing 
up in economically disadvantaged communities. We can reverse this 
pattern by providing children with more opportunities to be physically 
active and by educating them on the importance of developing and 
maintaining active, healthy lifestyles. In many urban communities, 
however, there is a lack of suitable recreation facilities and 
organized programming. Our urban soccer programs provide inner-city 
children with safe havens to play, stay active, and engage with 
positive adult role models and mentors who help them develop important 
life skills.
    Second, additional resources must be dedicated to address the needs 
of America's at-risk youth. The statistics are alarming. According to 
the U.S. Census Bureau's 2012 statistical abstract, more than 1.5 
million juveniles were arrested in 2009, including more than 69,000 for 
a violent crime. As reported in the National Youth Gang Survey, more 
than 28,000 gangs were active in larger cities (55.6 percent), suburban 
counties (23.3 percent), smaller cities (18.3 percent), and rural 
counties (2.7 percent) among U.S. jurisdictions in 2009. According to 
the U.S. Department of Health and Human Services (HHS), at-risk youth 
across low-income urban communities not only have a higher chance of 
being obese, but are more likely than youth from middle- or upper-class 
families to join a gang, get in a fight or steal something worth over 
$50.
    Further, MENTOR/National Mentoring Partnership estimates that 18 
million young people--nearly one-half of the population between the 
ages of 10 and 18--live in situations which put them at-risk of ``not 
living up to their potential.'' They also identified a total of 3 
million youth currently benefiting from a formal mentoring 
relationship. This leaves as many as 15 million American youth in want 
or need of mentors which comprise what MENTOR calls the ``mentoring 
gap''. To meet this need and overcome one of the biggest barriers in 
the mentoring field, which is difficulty in mentor recruitment and 
retention, alternatives to the classic ``one-to-one'' mentoring model 
must be considered, utilized, and leveraged.
    By leveraging Social Innovation Fund dollars, the U.S. Soccer 
Foundation is expanding its Soccer for Success program to address these 
national issues and reduce mentoring wait lists by utilizing a group 
mentoring model.
    According to the Corporation for National and Community Service, 
the Social Innovation Fund leverages a modest investment of public 
funds to significantly expand the most promising, evidence-based 
nonprofit programs serving low-income communities. Each Social 
Innovation Fund dollar must be matched by at least three private and 
non-Federal funders. The proposed $50 million investment will bring an 
additional $150 million to promising, locally driven programs with 
evidence of compelling results--including the Foundation's programs.
    The Social Innovation Fund program clearly has wide-ranging impact. 
Currently, there are more than 200 organizations benefiting from the 
Social Innovation Fund, operating in more than 100 cities in 31 States 
and our Nation's capital. This national footprint will expand after all 
of the 2011 sub-grants have been awarded. Under consistent and 
effective program evaluation, the Social Innovation Fund is an 
excellent example of the Federal dollar being used to propagate best 
practices and ensure greatest impact.
    The U.S. Soccer Foundation is a 2011 recipient of a $2 million, 2-
year Social Innovation Fund award that is enabling us to reach 12,000 
children, 3 days a week, 24 weeks a year, through Soccer for Success--
our sports-based after school youth development program. Soccer for 
Success is an evidence based program that promotes healthy lifestyles 
and works to reduce childhood obesity and juvenile delinquency rates 
among at-risk youth in underserved urban communities by providing 
exercise, nutritional education, and mentoring by positive adult role 
models in a safe environment.
    the U.S. Soccer Foundation is matching the $2 million Social 
Innovation Fund award dollar for dollar. Each sub-grantee is matching 
their award dollar for dollar with private, non-Federal dollars. The 
result is that each Federal taxpayer dollar awarded is being leveraged 
3-to-1.
    The following is a list of the 13 community-based organizations 
selected as Social Innovation Fund sub-grantees who will implement 
Soccer for Success in the upcoming school year. This list includes the 
number of children anticipated to be served:

----------------------------------------------------------------------------------------------------------------
                                                                                                        No. of
    SIF Soccer for Success Organizations                     City/State                  Grant (2-     children
                                                                                        year award)     served
----------------------------------------------------------------------------------------------------------------
Brotherhood Crusade........................  Los Angeles, California..................     $600,000        1,600
Boys & Girls Club of Camden County.........  Camden, New Jersey.......................      200,000          840
Boys & Girls Club of Metro Atlanta.........  Atlanta, Georgia.........................      200,000          670
Colorado Fusion Soccer Club................  Denver, Colorado.........................      300,000        1,125
DC Scores..................................  Washington, DC...........................      220,000          650
El Monte CBI...............................  El Monte, California.....................      270,000        1,080
Independent Health Foundation..............  Buffalo, New York........................      320,000          700
Think Detroit PAL..........................  Detroit, Michigan........................      300,000          950
Widener University.........................  Chester, Pennsylvania....................      230,000        1,000
Boys & Girls Club of Trenton...............  Trenton, New Jersey......................      200,000        1,000
YMCA of Greater Dayton.....................  Dayton, Ohio.............................      320,000        1,000
Houston Parks & Recreation Department......  Houston, Texas...........................      240,000        1,000
Washington Youth Soccer Association........  Seattle, Washington......................      200,000          800
                                            --------------------------------------------------------------------
      Total................................  .........................................    3,600,000       12,415
----------------------------------------------------------------------------------------------------------------

    These 13 organizations demonstrated through a rigorous selection 
process the strong organizational capacity needed to manage the grant 
and implement the program. They serve the desired population--children 
growing up in economically disadvantaged urban communities--have the 
ability to match the funds awarded dollar for dollar, have an effective 
cost model for program implementation, and have strong partnerships and 
funding prospects for long-term sustainability.
    Before I end, let me share with you a story about the impact youth 
development programs like Soccer for Success can have in addressing 
national priorities. Celeste Amaya, a 10-year old girl in our Los 
Angeles program, weighed 145 when she began our program. Soccer for 
Success' physical activity and nutritional lessons component has helped 
her drop nearly 16 lbs. ``I eat the same food, but it was the amount of 
food'', she says, about cutting back on portion size. ``A lot of the 
clothes [that I had outgrown] fit me now,'' she shared. Celeste 
recently weighed in at 129 lbs. Soccer for Success has not only made a 
difference in Celeste's life, but also has helped the entire family 
become more active. Celeste's mother says that when her daughter's 
doctor warned her that her overweight child could develop diabetes, the 
whole family became determined to get in shape. ``We do everything 
together'', says Mrs. Amaya. While her mom gets exercise by walking 
around the soccer field with some of the other parents, as part of 
Soccer for Success Los Angeles' parent engagement component, Celeste's 
father helps the Soccer for Success mentors coach Celeste and the other 
children. Celeste's little sister also participates in Soccer for 
Success. Due to the funding we received from the Social Innovation 
Fund, we will be able to leverage each Federal dollar and continue 
making this type of impact, while changing the lives of more than 
12,000 youth like Celeste.
    In conclusion, we respectfully ask you to support $70 million in 
funding for the Social Innovation Fund which is the level at which it 
is authorized in the Serve America Act. At a time when the Federal 
Government seeks to leverage every taxpayer dollar to greatest effect, 
the Social Innovation Fund provides a critical mechanism for 
identifying innovative, cost-effective, evidence-based programs like 
Soccer for Success--programs that make a real difference in lives of 
the Nation's most vulnerable children. Every child should have a chance 
to play, to be a teammate, to build self-confidence and to live a 
healthy and active life. Funding from the Social Innovation Fund helps 
to further this vision.
    Thank you once again for the opportunity to provide testimony to 
your subcommittee in support of this important program. Your attention 
and assistance are greatly appreciated.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 43 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training and family 
services to some of the most impoverished, high risk Indian students 
from throughout the Nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We are not part of the North Dakota 
State college system and do not have a tax base or State-appropriated 
funds on which to rely. We have consistently had excellent retention 
and placement rates and are a fully accredited institution. Section 117 
Carl Perkins Act funds represent about one-half of our operating budget 
and provide for our core instructional programs. The requests of the 
United Tribes Technical College Board for fiscal year 2013 is for 
Department of Education programs as follows:
  --$10 million for base funding authorized under section 117 of the 
        Carl Perkins Act for the Tribally Controlled Postsecondary 
        Career and Technical Institutions program (20 U.S.C. section 
        2327). This is $1.8 million over the fiscal year 2012 level and 
        the President's request. These funds are awarded competitively 
        and are distributed via formula;
  --$30 million as requested by the administration and the American 
        Indian Higher Education Consortium for title III-A (section 
        316) of the Higher Education Act (Strengthening Institutions 
        program). This is $5 million over fiscal year 2012 enacted;
  --Maintain Pell Grants at the $5,635 maximum award level; and
  --Support the proposed Community College to Career Fund.
                             authorization
    United Tribes Technical College began operations in 1969. We 
realized that in order to more effectively address the unique needs of 
Indian people to acquire the academic knowledge and skills necessary to 
enter the workforce we needed to expand our curricula and services. We 
were scraping by with small amounts of money from the Bureau of Indian 
Affairs, and so decided to work for an authorization in the Department 
of Education. That came about in 1990 when the Carl Perkins Act was 
reauthorized and it included specific authorization for what is now 
called the Tribally Controlled Postsecondary Career and Technical 
Institutions program (Section 117). The Perkins Act has been 
reauthorized twice since then--in 1998 and in 2006, with Congress each 
time continuing the section 117 Perkins program.
       some important facts about united tribes technical college
    We have:
  --A dedication to providing an educational setting that takes a 
        holistic approach toward the full spectrum of student needs--
        educational, cultural, and necessary life skills.
  --Renewed unrestricted accreditation from the North Central 
        Association of Colleges and Schools for the period July 2011 
        through July 2021, including authority to offer all of our full 
        programs online.
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-8 elementary 
        school, tutoring, counseling and housing.
  --A semester completion rate of 82 percent.
  --A graduate placement rate of 83 percent (placement into jobs and 
        higher education).
  --A projected return on Federal investment of 20-1 (2005 study).
  --Over 30 percent of our graduates move on to 4 year or advanced 
        degree institutions.
  --A current student body from 63 tribes who come mostly from high-
        poverty, high-unemployment tribal nations in the Great Plains; 
        many students have dependents.
  --76 percent of undergraduate students receive Pell Grants.
  --21 2 year degree programs, 12 certificates, and 3 bachelor degree 
        programs (elementary education; business administration; and 
        criminal justice).
  --An expanding curricula to meet job-training needs for growing 
        fields including law enforcement and health information 
        technology. We have new short-term training programs for 
        welding technology (in particular demand in North Dakota 
        because of the oil boom), electrical, energy auditing, and 
        Geographic Information System technology.
  --A dual enrollment program targeting junior and senior high school 
        students, providing them an introduction to college life and 
        offering high school and college credits.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region.
  --A workforce of 360 people.
  --An award-winning annual powwow which last year had participants 
        from 60+ tribes and international indigenous dance groups, 
        drawing over 10,000 spectators.
                            funding requests
    Section 117 Perkins Base Funding.--Funds requested under section 
117 of the Perkins Act above the fiscal year 2012 level are needed to: 
maintain 100-year-old education buildings and 50-year-old housing stock 
for students; upgrade technology capabilities; provide adequate 
salaries for faculty and staff (who have not received a cost of living 
increase for the past year and who are in the bottom quartile of salary 
for comparable positions elsewhere); and fund program and curriculum 
improvements.
    Acquisition of additional base funding is critical as UTTC has more 
than tripled its number of students within the past 8 years while 
actual base funding, including Interior Department funding, have not 
increased commensurately (increased from $6 million to $8 million for 
the two programs combined). Our Perkins funding provides a base level 
of support while allowing the college to compete for desperately needed 
discretionary contracts and grants leading to additional resources 
annually for the college's programs and support services.
    Title III-A (Section 316) Strengthening Institutions.--Among the 
Title III-A statutorily allowable uses is facility construction and 
maintenance. We are constantly in need of additional student housing, 
including family housing. We would like to educate more students but 
lack of housing has at times limited the admission of new students. 
With the completion this year of a new Science, Math and Technology 
building on our south campus on land acquired with a private grant, we 
urgently need housing for up to 150 students, many of whom have 
families.
    While UTTC has constructed three housing facilities using a variety 
of sources in the past 20 years, approximately 50 percent of students 
are housed in the 100-year-old buildings of the old Fort Abraham 
Lincoln, as well as in housing that was donated by the Federal 
Government along with the land and Fort buildings in 1973. These 
buildings require major rehabilitation. New buildings for housing are 
actually cheaper than trying to rehabilitate the old buildings.
    Pell Grants.--We support maintaining the Pell Grant maximum amount 
to at least a level of $5,635. As mentioned above, 76 percent of our 
students are Pell Grant-eligible. This program makes all the difference 
in the world of whether these students can attend college.
    Community College to Career Fund.--We support the proposed 
Community College Career Fund, and understand that tribally controlled 
colleges will be eligible applicants. UTTC is ready with training--
campus-based and online--to help meet the needs of high-demand 
businesses.
                government accountability office report
    As you know, the Government Accountability Office in March 2011 
issued two reports regarding Federal programs which may have similar or 
overlapping services or objectives (GAO-11-318SP of March 1 and GAO-11-
474R of March 18). Funding from the Bureau of Indian Education (BIE) 
and the Department of Education's Perkins Act for Tribally Controlled 
Postsecondary Career and Technical Institutions were among the programs 
listed in the supplemental report of March 18. The GAO did not 
recommend defunding these or other programs; in some cases 
consolidation or better coordination of programs was recommended to 
save administrative costs. We are not in disagreement about possible 
consolidation or coordination of the administration of these funding 
sources so long as funds are not reduced.
    Perkins funds represent about 46 percent of UTTC's core operating 
budget. The Perkins funds supplement, but do not duplicate, the BIE 
funds. It takes both sources of funding to frugally maintain the 
institution. Even these combined sources do not provide the resources 
necessary to operate and maintain the college and thus we actively seek 
alternative funding to assist with academic programming, deferred 
maintenance of our physical plant and scholarship assistance, among 
other things.
    We reiterate that UTTC and other tribally chartered colleges are 
not part of State educational systems and do not receive State-
appropriated general operational funds for their Indian students. The 
need for postsecondary career and technical education in Indian country 
is so great and the funding so small, that there is little chance for 
duplicative funding.
    There are only two institutions targeting American Indian/Alaska 
Native career and technical education and training at the postsecondary 
level--United Tribes Technical College and Navajo Technical College. 
Combined, these institutions received less than $15 million in fiscal 
year 2012 Federal operational funds ($8 million from Perkins; $7 
million from the BIE). That is a modest amount for two campus-based 
institutions which offer a broad (and expanding) array of programs 
geared toward the educational, job-training, and cultural needs of 
their students.
    UTTC offers services that are catered to the needs of our students, 
many of whom are first-generation college attendees and many of whom 
come to us needing remedial education and services. Our students 
disproportionately possess more high risk characteristics than other 
student populations. We also provide services for the children and 
dependents of our students. Although BIE and section 117 funds do not 
pay for remedial education services, we make this investment through 
other sources of funding to help ensure that our students succeed at 
the postsecondary level.
    Perkins funds are central to the viability of our core 
postsecondary educational programs. Very little of the other funds we 
receive may be used for core career and technical educational programs; 
they are highly competitive, often one-time supplemental funds.
    Thank you for your consideration of our requests.
                                 ______
                                 
            Prepared Statement of the University of Virginia
    This testimony is submitted for the record on behalf of the 
University of Virginia, a nonprofit public institution of higher 
education located in Charlottesville, Virginia. The University sustains 
the ideal of developing, through education, leaders who are well-
prepared to help shape the future of the nation. In fiscal year 2011 
the University received research awards totaling over $338 million from 
all sources (Federal and State agencies, industry and private 
foundations). Of this amount, $241 million, or 71 percent, came from 
Federal grants and contracts.
    As Vice President for Research and on behalf of UVa, I urge the 
Committee to support $32 billion for the National Institutes of Health 
(NIH) in fiscal year 2013. We are aware of the difficult budgetary 
decisions facing Congress and the administration in the coming years, 
yet Federal investments in scientific and engineering research remain 
critical to spurring innovation, driving the economy, and developing 
the knowledge and technologies to tackle current and future health 
challenges. According to the Science Coalition, more than half of our 
economic growth in the United States since World War II can be traced 
to science-driven technological innovation. The platform for this 
innovation has been scientific and engineering research conducted at 
universities and supported by the Federal Government through agencies 
such as NIH.
    Ground-breaking discoveries to better diagnose and treat 
debilitating human diseases and improve the health and quality of life 
of our citizens would not be possible without the foundational work of 
basic research. Universities conduct most of the basic research in this 
country and NIH is the critical funder of basic biomedical research. 
NIH continues to be the largest source of Federal research funding at 
UVa, providing over $144 million in competitive grants to researchers 
at UVa in fiscal year 2011 alone. Funding from NIH has allowed faculty 
and students at UVa to conduct ground-breaking research to transform 
our understanding of and develop new treatments for diabetes, asthma, 
cardiovascular disease, and Alzheimer's disease, among many other 
conditions, while also furthering our fundamental knowledge of biology, 
health, and development from childhood to old age.
    Considering the tight budget conditions that the country faces, it 
is imperative to make strategic investments in critical areas of 
science and biomedical research that will produce technological 
innovation and societal benefit. For example, continued support for the 
National Institute of Biomedical Imaging and Bioengineering (NIBIB) is 
critical to advancing the next generation of technologies that can be 
used to address a myriad of health challenges. Researchers at UVa are 
already making substantial advances on a wide array of new technologies 
for applications such as molecular imaging and tissue engineering.
    NIH is also at the forefront of efforts to ensure that basic 
research is transformed into products and knowledge that improve 
everyday life and power our innovation economy. UVa appreciates NIH's 
commitment to funding programs that support commercialization such as 
the new National Center for Advancing Translational Sciences (NCATS). 
UVa also urges support for a newly created pilot program to fund proof-
of-concept research that will enable universities to more effectively 
commercialize new technologies and propel the creation of successful 
small businesses. Modeled after the Coulter Process and authorized in 
the Small Business Innovation Research (SBIR) and the Small Business 
Technical Transfer (STTR) Reauthorization Act of 2011, the program will 
allow NIH to award competitive grants of up to $1 million to 
universities and other research institutions, which then would award 
grants to investigators for activities such as prototype development, 
market research, or developing an intellectual property strategy and/or 
business development plan. We look forward to seeing how NIH will 
implement this new program and urge Congress to encourage NIH to 
support proof-of-concept funds to advance commercialization.
    At UVa we are devoting significant institutional resources to the 
process of bringing discoveries to the marketplace and have experienced 
considerable success. For instance, UVa and the Coulter Foundation have 
recently teamed to create the UVa Coulter Translational Research 
Partnership to foster collaborations between clinicians and biomedical 
engineers at UVa in order to advance translational research which will 
result in new technologies to improve patient care and human health. An 
independent audit has shown that our proof-of-concept funds have led to 
a 7:1 return on investment after 5 years and a 42:1 return on 
investment for the top 10 percent of portfolio projects. We attribute 
UVa's success in proof-of-concept research to the now nationally well-
known Coulter process, involving a very diverse review board, in-person 
final review sessions, milestone-driven projects, quarterly reporting 
that is simple yet effective in re-directing projects, the ``will to 
kill'' projects or re-direct funds if insurmountable obstacles occur, 
and excellent networking to the venture capital and private sector. The 
key differentiators of this process as we employ it at UVa versus most 
prior proof-of-concept funding mechanisms is the in-person diligence on 
the involved people and ideas, dedicated project manager, the diverse 
composition of the board, the urgency of quarterly reviews, and will to 
re-direct funds as results emerge.
Conclusion
    I would like to thank the Committee for your support of biomedical 
research in these tough budgetary times. While we understand that 
funding is greatly constrained, I hope that you will choose to support 
a strategic increase for the National Institutes of Health to spur 
innovation, strengthen our technology and economic base, train the next 
generation of scientists and engineers, and improve our health. Further 
investment in discovery science and commercialization will help create 
the new discoveries and technologies needed for long-term economic 
growth.
    I thank you for your consideration of these important issues.
                                 ______
                                 
  Prepared Statement of the Department of Mines, Minerals and Energy, 
                        Commonwealth of Virginia
    We are writing in opposition to the fiscal year 2013 budget request 
for the Mine Safety and Health Administration (MSHA), which is part of 
the U.S. Department of Labor. In particular, we urge the subcommittee 
to reject MSHA's proposed reduction of $5 million for grants to States 
for safety and health training of our Nation's miners pursuant to 
Section 503(a) of the Mine Safety and Health Act of 1977.
    Over the past several years, MSHA's budget request for State's 
Grants was approximately $9 million, which approached the statutorily 
authorized level of $10 million, but still did not consider 
inflationary and programmatic increases being experienced by the 
States. This drastic change in funding the State's Grants programs will 
certainly have negative impacts on the availability and quality of mine 
safety training. Without full funding of the State's Grants programs, 
the Federal required safety training for miners will suffer. This 
situation will be further exacerbated by the new statutory, regulatory 
and policy requirements that grow out of the various reports and 
recommendations pending the Upper Big Branch mine disaster 
investigation. We therefore urge the subcommittee to restore funding to 
the statutorily authorized level of $10 million for State's grants so 
that States can meet the training needs of miners and fully and 
effectively carry out State responsibilities under Section 203(a) of 
the Act.
    While we can appreciate MSHA's desire to realign its resources to 
focus on inspection and enforcement activities, one of the most 
effective ways to ensure miner health and safety in the first place is 
through comprehensive and high quality training. MSHA Assistant 
Secretary Main specifically spoke of this in a recent letter to State's 
Grant recipients wherein he stated: ``As in the past, we are reaching 
out to grantees, recognizing the positive impact you have in delivering 
training to miners. I am asking that you incorporate, as appropriate 
training on these types of fatal accidents as well as measures needed 
to prevent them. Increased training and awareness is necessary if we 
are to prevent these types of deaths''.
    Certainly, we can all agree that high quality; effective training 
plays a critical role in preventing miner deaths, injuries and illness 
across the Nation. Comprehensive, up-to-date training is the most 
effective means for preparing miners to recognize and correct unsafe 
acts and unsafe conditions in the workplace. Unsafe acts and unsafe 
conditions have been proven to contribute significantly to accidents 
and injuries. Training enhances the capability of miners to recognize 
potential hazards in the workplace and to follow safe work procedures.
    The Virginia State's Grants training program has contributed 
significantly to training approximately 5,400 miners, annually, for the 
past 5 years. Our training program also develops miner training 
programs, mine safety videos, mine and equipment examination record 
books, among other useful resources. These programs and materials are 
distributed to industry, independent and college trainers and mine 
officials to enhance their capability to provide on-target, up-to-date, 
effective training for miners.
    The DMME has been in the forefront of providing this training in 
Virginia for over 40 years and is best positioned to continue that work 
into the future. The Federal Government's relatively modest investment 
of money in supporting the States to coordinate this training has 
certainly paid huge dividends in protecting lives and preventing 
injuries/illnesses for our miners. The VA-DMME State's Grants programs 
play a particularly critical role in providing quality mine safety 
training and providing special assistance to small mine operators. Our 
State's grant program provides these services at a cost well below what 
it would cost the Federal Government to do so.
    Without the training programs that are funded/provided by the VA-
DMME State's grants program, pursuant to the funding that we receive 
from MSHA, mine safety training responsibilities and costs will shift 
to mine operators. Mine operators will be compelled to comply with 
MSHA-required miner training by obtaining training services from any 
available resource. Quality, effective training for our most valuable 
resource--the miner--will be diminished, especially for miners employed 
at small mines (50 or less employees). In addition, some training 
services now funded/provided by the VA-DMME State's grants program will 
be significantly reduced or eliminated.
    In conclusion, the everyday miner in the workplace will be the 
greatest loser if this proposed funding reduction is imposed upon the 
VA-DMME State's Grant training program.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
